<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
            Prepared Statement of the 1854 Treaty Authority

                         1854 TREATY AUTHORITY

    The 1854 Treaty Authority (Authority) is a tribal organization 
funded by a Public Law 93-638 contract with the Bureau of Indian 
Affairs (BIA) under its Trust-Natural Resources Management-Rights 
Protection Implementation (RPI) budget.

  --The Authority supports the administration's proposed $40,161,000 
        for BIA Rights Protection Implementation (an increase of 
        2,500,000) and a proportionate share for the Authority. 
        However, while the Authority supports the 2,500,000 increase to 
        RPI funding, we do not agree that the increase should be open 
        to a ``competitive proposal-based process'' as outlined in the 
        BIA fiscal year 2017 Justifications (a.k.a. BIA Greenbook), but 
        any increase should be allocated in the same proportions as it 
        has historically been distributed.
  --The Authority supports the full finding of contract support for its 
        Public Law 93-638, Self-Determination contract at no less than 
        the administrations proposed $278,000,000.
  --The Authority supports maintaining funding for the EPA Great Lakes 
        Restoration budget at least at its current level of 
        $300,000,000.

    The Authority is a tribal organization responsible for protecting, 
preserving, and regulating the treaty-reserved hunting, fishing and 
gathering rights in the territory ceded to the United States by the 
Chippewa in the Treaty of September 30, 1854, 10 Stat. 1109. The Bois 
Forte Band and the Grand Portage Band created the authority following 
Federal court affirmation of the rights in 1988. As part of a court-
approved agreement with the State of Minnesota, the Bands have 
obligations to preserve the natural resources in the five (5) million 
acre ceded territory and to regulate the activities of Band members 
through a conservation code, enforcement officers, and a court. The 
Authority has also been involved with a variety of inter-agency efforts 
to study the effect of invasive species, climate change, and activities 
that impact treaty resources.
    Although it has significant responsibilities in a geographic area 
the size of Massachusetts, the Authority has only fifteen (15) full-
time employees. With those limited resources, the Authority has been 
able to collaborate with State, tribal and Federal agencies to become a 
prominent presence in the conservation of resources critical to the 
subsistence hunting, fishing and gathering activities of the Chippewa.
    However, the successes of the Authority are overshadowed by the 
challenges facing the trust resources that are at the heart of the 
treaty rights. The Minnesota moose population has declined 
precipitously in just a few years and for reasons unknown, invasive 
species and climate change threaten the treaty fishing and wild rice 
production areas across the ceded territory, and human activities 
continue to deplete or displace wildlife populations.
    The Authority urges the subcommittee and the Congress to 
acknowledge that the resources we seek to protect are trust resources, 
reserved in treaties that the United States has a legal obligation to 
protect and preserve.
                                 ______
                                 
    Prepared Statement of the Aleutian Pribilof Islands Association
    The requests of the Aleutian Pribilof Islands Association (APIA) 
for the fiscal year 2017 Indian Health Service (IHS) budget are as 
follows:

  --Funding for a health facility replacement project in Atka, Alaska.
  --Provide or require the IHS to allocate an additional $12.5 million 
        to fully fund Village Built Clinic Leases and make it a line 
        item in the budget.
  --Place IHS funding on an advance appropriations basis.
  --Continue with indefinite funding for Contract Support Costs (CSC) 
        but without the fiscal year 2016 proviso limiting carry-over 
        authority, and make indefinite CSC funding permanent and 
        mandatory.

    The Aleutian Pribilof Islands Association (APIA) is a regional non-
profit tribal organization with members consisting of the 13 federally 
recognized tribes of the Aleutian Chain and Pribilof Islands Region. 
APIA provides healthcare services to the Alaska Natives in four of the 
tribal communities of this Region through funding received from IHS 
under Title V of the Indian Self-Determination and Education Assistance 
Act (ISDEAA). We also provide health-related services through various 
non-IHS grants and agreements.
                        atka clinic replacement
    We are requesting $2.9 million for a health facility replacement in 
Atka, Alaska.

  --During World War II, Atka Health Clinic was also destroyed along 
        with the entire community by the United States Navy to keep our 
        enemies from using the area.
  --In Atka the APIA is working with and helping the City of Atka on a 
        grant and funding package.
  --In Unalaska a Joint Venture application with the Indian Health 
        Service is approved, which also includes Atka.
  --The Current Atka Health Clinic is inadequate to provide the care 
        the community deserves, it is beyond repair and even a simple 
        window replacement cannot be supported with the existing 
        structure. It is vulnerable to weather & the life safety code.
  --The Atka IRA Council, the City, APIA & APIDCA have taken the first 
        steps to finance the design in the amount of $128,000.
  --Site-work plans, foundation design, floor plans & draft RFP for a 
        modular building is completed.
  --The Atka Health Clinic is a newly designated Community Health 
        Center that serves everyone regardless of race or ability to 
        pay; it is a Veterans service site, as well as an Indian Health 
        Service site.
  --We are ready to take this project to the next level & begin the 
        construction phase.
  --We are specifically requesting support for construction funding in 
        the amount of $2,923,100.
              funding for village built clinics in alaska
    The Village Built Clinics (VBCs) continue to face a significant 
funding crisis. We thank you for the $2 million appropriated in fiscal 
year 2016 to supplement what was being spent on clinic leases and are 
heartened by the administration's request of $11 million in fiscal year 
2017 ($9 million increase plus $2 million from fiscal year 2016) for 
this same purpose.
    VBCs are leased by the IHS from other entities and are a vital 
component of the provision of basic healthcare services in rural 
Alaska, as they serve as the clinic space for the Community Health Aide 
Program (CHAP). The CHAP utilizes a network of community health aides 
and practitioners to provide primary healthcare services in otherwise 
unserved rural and isolated areas. Rental amounts for the VBCs have 
failed to keep pace with costs--the majority of the leases for VBCs 
have not increased since 1989. As a result, many of the VBCs are unsafe 
or have had to be closed, leaving some villages in Alaska without a 
local healthcare facility.
    In addition, the President's proposed fiscal year 2017 clinic lease 
bill language may need some clarification, depending on IHS's 
interpretation of the reference that healthcare be delivered in a space 
acquired through a ``full service lease''. In some cases tribes receive 
VBC funding as part of their recurring base, and so the IHS no longer 
has ``full service leases'' in place for those clinics. We know that 
the Appropriations Committees do not intend to limit VBC eligibility 
based on unclear terminology.
    In sum, these amounts are a step in the right direction but the 
2105 ANHB study that analyzed the funding deficiency statewide for 
these facilities identified an increased need of $12.5 million 
increase. We urge that the full amount needed be appropriated. We also 
support maintaining this funding as a line item in the bill.
     ihs advance appropriations & mandatory contract support costs
    We continue to support placing the IHS budget on an advance 
appropriations basis, as Congress has done with the Veterans 
Administration (VA) health accounts. The fiscal year 2016 budget 
justification for the VA said advance appropriation is necessary to 
``fulfill the administration's commitment to provide reliable and 
timely resources to support the delivery of accessible and high-quality 
medical services for veterans.'' Advance appropriations for the IHS is 
equally important to the predictable and timely funding of healthcare 
for Alaska Natives and American Indians, and for us to more effectively 
use our resources in what is otherwise a difficult fiscal environment.
    We wish to extend our appreciation to the subcommittee for its 
support for full funding of CSC. We support the President's proposal 
for an appropriation in fiscal year 2017 of ``such sums as may be 
necessary,'' with an estimated $800 million for CSC for the IHS in a 
separate accounts within the IHS's discretionary budget. We join with 
others in Indian Country, however, in asking that the proviso from the 
fiscal year 2016 appropriations language (``amounts obligated but not 
expended by a tribe or tribal organization for contract support costs 
for such agreements for the current fiscal year shall be applied to 
contract support costs otherwise due for such agreements for subsequent 
fiscal years'') be removed in 2017 and thereafter. We also believe that 
indefinite CSC funding should ultimately be made permanent and 
mandatory, beginning no later than fiscal year 2018.
    We appreciate your consideration of our request outlined in this 
testimony. On behalf of APIA and the people we serve, I am happy to 
provide any other additional information desired by the subcommittee.

    [This statement was submitted by Dimitri Philemonof, President and 
CEO.]
                                 ______
                                 
       Prepared Statement of the America's Great Waters Coalition

Albemarle-Pamlico Sound <bullet> Apalachicola-Chattahoochee-Flint River 
                                 Basin

   Chesapeake Bay <bullet> Coastal Louisiana <bullet> Colorado River 
                        <bullet> Delaware River

Everglades <bullet> Galveston Bay <bullet> Great Lakes <bullet> Gulf of 
                     Maine <bullet> Lake Champlain

 Long Island Sound <bullet> Mississippi River <bullet> Missouri River 
                       <bullet> Narragansett Bay

   New York/New Jersey Harbor and Hudson Estuary <bullet> Ohio River

       Puget Sound <bullet> Rio Grande <bullet> San Francisco Bay

                            St. Johns River

    Dear Chairwoman Murkowski and Ranking Member Udall:

    We express our strong support for your subcommittee's dedication to 
the restoration of America's Great Waters. As the fiscal year 2017 
appropriations bills are developed, we respectfully urge you to 
maintain strong funding for programs that enable important work to 
restore landscapes like those in and around the America's 21 Great 
Waters.\1\ In addition to these waterways being valuable ecological 
resources, they are also significant economic drivers for large swaths 
of the Nation, providing much-needed jobs and opportunities for untold 
numbers of Americans. As you make difficult decisions regarding 
funding, we want to highlight the solid return on taxpayer investments 
in Great Waters restoration.
---------------------------------------------------------------------------
    \1\ America's Great Waters Coalition recognizes 21 Great Waters 
based on specific criteria. These waters are the Albemarle-Pamlico 
Sound, Apalachicola-Chattahoochee-Flint River Basin, Chesapeake Bay, 
Coastal Louisiana, Colorado River, Delaware River, Everglades, 
Galveston Bay, Great Lakes, Gulf of Maine, Lake Champlain, Long Island 
Sound, Mississippi River, Missouri River, Narragansett Bay, New York/
New Jersey Harbor and Hudson Estuary, Ohio River, Puget Sound, Rio 
Grande, San Francisco Bay, and St. Johns River.
---------------------------------------------------------------------------
    As you prepare the fiscal year 2017 Interior appropriations bill, 
we encourage you to maintain robust funding for programs that support 
aquatic ecosystem restoration and exclude policy riders that harm our 
Great Waters and derail ongoing restoration efforts. Programs important 
for restoring Great Waters in the Interior bill include but are not 
limited to:

  --EPA's Geographic Programs, which include robust and successful 
        restoration programs in the Chesapeake Bay, Lake Champlain, 
        Great Lakes, Long Island Sound, Puget Sound and others.
  --The National Estuary Program, which has restored and protected 1.75 
        million acres of coastal habitats in 28 estuaries since 2000 
        and has leveraged $18 of investment for every dollar provided 
        by EPA.
  --Department of the Interior priorities such as the National Park 
        Service's Everglades restoration initiatives; the U.S. Fish and 
        Wildlife Service's Coastal Program, Cooperative Landscape 
        Conservation Program, National Coastal Wetlands Grant, and 
        North American Wetlands Conservation Act programs; and Joint 
        Ventures, which bring together partners to conserve habitat.
  --Clean Water State Revolving Fund and Drinking Water State Revolving 
        Fund, which provide important resources for States and 
        municipalities to make much-needed upgrades to wastewater 
        treatment systems and include dedicated Green Project Reserves 
        in each fund.
  --Section 319 Nonpoint Source Management Program, which is the 
        primary grants program for States, Territories, and tribes to 
        address nonpoint source challenges.
  --USGS National Water Quality Program, which provides robust water 
        quality monitoring and data for informed decisionmaking.

    At a time when Federal lawmakers need to make smart spending 
choices, restoration offers one of the best returns on investment in 
the Federal budget. Restored watersheds improve our quality of life, 
increase property values, provide clean water, support fish and 
wildlife and enhance outdoor recreation for our families. The on-the-
ground work to restore our coasts, lakes, rivers, and estuaries 
produces jobs and utilizes skills and machinery available in the local 
workforce that provide many benefits to local economies.

  --According to Restore America's Estuaries, restoring our coasts can 
        create more than 30 jobs for every million dollars invested, 
        which is more than twice as many jobs as the oil and gas and 
        road construction industries combined.
  --Along the Mississippi River, estimates show that more than 50 
        habitat restoration projects contribute approximately $16.5 
        million to small businesses and employ more than 300 people in 
        rural counties where, so often, unemployment is the highest 
        following the closure of factories and other industries along 
        the river.
  --A report by the Chesapeake Bay Foundation found that economic 
        benefits provided by nature in the Chesapeake watershed will 
        total $130 billion annually, an increase of $22 billion 
        annually, when the Chesapeake Clean Water Blueprint is fully 
        implemented.
  --A study conducted by Mather Economics found that for every $1 
        invested in restoring the Everglades, there is at least a $4 
        return in economic benefits, and that over the next 50 years, 
        the incremental impact of Everglades restoration is expected to 
        produce more than 440,000 jobs.
  --A study of the Delaware River Watershed found that it contributes 
        $25 billion in annual economic activity and $21 billion in 
        ecosystem goods and services.

    The America's Great Waters Coalition represents diverse national, 
regional, State and local organizations working to protect, preserve 
and restore our Nation's waters. The Coalition is a result of years of 
work by national and local organizations to bring the broader 
restoration community together to ``lift all boats.'' Together, we urge 
you to continue to provide the highest level of funding possible for 
Federal programs critical for effective Great Waters restoration.

            Sincerely,

                    Molly M. Flanagan, Vice President, Policy
                      --Alliance for the Great Lakes

                    Jim Bradley, Vice President, Policy and Government 
                            Relations
                      --American Rivers

                    Eric Draper, Executive Director
                      --Audubon Florida

                    Wayne Daltry, President
                      --Audubon of Southwest Florida

                    Paul J. Marinelli, President
                      --Audubon of the Western Everglades

                    Jennifer Browning, Executive Director
                      --Bluestem Communications

                    John R. Paul III, President
                      --Caloosahatchee River Citizens Association 
                            (Riverwatch)

                    Alix Murdoch, Federal Policy Director
                      --Chesapeake Bay Foundation

                    Kathleen E. Aterno, Florida Director
                      --Clean Water Action

                    Madeline Urbish, Director
                      --Coalition for the Delaware River Watershed

                    Clark Bullard, Director
                      --Committee on the Middle Fork Vermilion River

                    Kelly Reed, Vice President, Government Relations
                      --The Conservation Fund

                    Duane De Vries, President
                      --Dwight Lydell Chapter, Izaak Walton League of 
                            America

                    Dan Silver, Executive Director
                      --Endangered Habitats League

                    Jennifer Rubiello, State Director
                      --Environment Florida

                    Manley Fuller, President
                      --Florida Wildlife Federation

                    Ted Auch PhD, Great Lakes Program Coordinator and 
                            Lead Researcher
                      --The FracTracker Alliance

                    Elinor Williams, President
                      --Friends of ARM Lox NWR

                    Jeff Skelding, Executive Director
                      --Friends of the Upper Delaware River

                    Matt Rota, Senior Policy Director
                      --Gulf Restoration Network

                    Indra Frank, MD, MPH, Environmental Health & Water 
                            Policy Director
                      --Hoosier Environmental Council

                    Darwin Adams, Chairman
                      --Illinois Council of Trout Unlimited

                    Robert Stegmier, National Director
                      --Izaak Walton League of America

                    Ivan J. Hack, Jr., President, Headwaters Chapter
                      --Izaak Walton League of America

                    Scott Kovarovics, Executive Director
                      --Izaak Walton League of America

                    Tom FitzGerald, Director
                      --Kentucky Resources Council, Inc.

                    Judy Petersen, Executive Director
                      --Kentucky Waterways Alliance

                    Lori Fisher, Executive Director
                      --Lake Champlain Committee

                    Sandy Bihn, Executive Director
                      --Lake Erie Waterkeeper Inc.

                    John Ruskey, Director
                      --Lower Mississippi River Foundation

                    Cheryl Nenn, Riverkeeper
                      --Milwaukee Riverkeeper

                    Theresa Pierno, President & CEO
                      --National Parks Conservation Association

                    Adam Kolton, Vice President of Federal Policy
                      --National Wildlife Federation

                    Sarah Murdock, Director, U.S. Climate Resilience 
                            and Water Policy
                      --The Nature Conservancy

                    Todd Miller, Executive Director
                      --North Carolina Coastal Federation

                    George L. Jones, Director of Special Projects
                      --Ocean Research and Conservation Association, 
                            Inc. Duerr Laboratory for Marine 
                            Conservation

                    Kristy Meyer, Managing Director Natural Resources
                      --Ohio Environmental Council

                    Rich Cogen, Executive Director
                      --Ohio River Foundation

                    Carol Hays, Executive Director
                      --Prairie Rivers Network

                    Millard McCleary, Executive Program Director
                      --Reef Relief

                    Allison Colden, Senior Manager of External Affairs
                      --Restore America's Estuaries

                    Nicole Barker, Executive Director
                      --Save the Dunes

                    Lee Willbanks, Executive Director, Upper St. 
                            Lawrence Riverkeeper
                      --Save the River

                    Stephen Mahoney, Conservation Chair
                      --Sierra Club Miami Group

                    Brett Fitzgerald, Executive Director
                      --Snook and Gamefish Foundation

                    Dana Wright, Water Policy Director
                      --Tennessee Clean Water Network

                    Paul Botts, President & Executive Director
                      --The Wetlands Initiative
                                 ______
                                 
         Prepared Statement of the American Alliance of Museums
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee, thank you for allowing me to submit this testimony. My 
name is Laura L. Lott and I serve as President and CEO of the American 
Alliance of Museums (AAM). We urge your support for at least $155 
million each in fiscal year 2017 for the National Endowment for the 
Arts (NEA) and the National Endowment for the Humanities (NEH), as well 
as $922.2 million for the Smithsonian Institution. We also request your 
support for the Historic Preservation Fund (HPF), including at least 
$55 million for State Historic Preservation Offices (SHPOs), $15 
million for Tribal Historic Preservation Offices (THPOs) and $28 
million to preserve the sites and stories of the Civil Rights Movement. 
We request restored funding of $30 million and $4.6 million 
respectively for the Save America's Treasures (SAT) and Preserve 
America programs.
    Before detailing these funding priorities for the museum field, I 
want to express my deepest appreciation for the increases enacted by 
the subcommittee in the Consolidated Appropriations Act, Public Law 
114-113. The additional funds for the NEH, NEA, Smithsonian Institution 
and historic preservation activities will enhance museums' work to 
enrich their communities and preserve our many heritages. I know the 
subcommittee once again faces a very limited 302(b) allocation, and 
must make difficult decisions. In this context, however, we would posit 
that each of our priorities outlined below is a vital investment that 
will both protect our Nation's cultural treasures and provide a 
tremendous economic benefit.
    AAM is proud to represent the full range of our Nation's museums--
including aquariums, art museums, botanic gardens, children's museums, 
culturally specific museums, historic sites, history museums, maritime 
museums, military museums, natural history museums, planetariums, 
presidential libraries, science and technology centers, and zoos, among 
others--along with the professional staff and volunteers who work for 
and with museums. AAM is honored to work on behalf of the Nation's 
approximately 35,000 museums, which employ 400,000 people, invest more 
than $2 billion annually in educational programs, receive more than 55 
million visits each year from primary and secondary school students, 
and directly contribute $21 billion to their local economies.

    Museums are essential in our communities for many reasons:

  --Museums are key education providers.--Museums already offer 
        educational programs in math, science, art, literacy, language 
        arts, history, civics and government, economics and financial 
        literacy, geography, and social studies, in coordination with 
        State and local curriculum standards. Museums also provide 
        experiential learning opportunities, STEM education, youth 
        training, job preparedness, and a range of programs geared 
        toward homeschooling families. They reach beyond the scope of 
        instructional programming for schoolchildren by also providing 
        critical teacher training. There is a growing consensus that 
        whatever the new educational era looks like, it will focus on 
        the development of a core set of skills: critical thinking, the 
        ability to synthesize information, creativity, and 
        collaboration. We believe museums are uniquely situated to help 
        learners develop these core skills, and this is borne out by 
        evidence. According to a recent University of Arkansas study, 
        students who attended just a half-day field trip to an art 
        museum experienced an increase in critical thinking skills, 
        historical empathy and tolerance. For students from rural or 
        high-poverty regions, the increase was even more significant.
  --Museums create jobs and support local economies.--Museums serve as 
        economic engines, bolster local infrastructure, and spur 
        tourism. Both the U.S. Conference of Mayors and the National 
        Governors Association agree that cultural assets such as 
        museums are essential to attracting businesses, a skilled 
        workforce, and local and international tourism.
  --Museums address community challenges.--Many museums offer programs 
        tailored to seniors, veterans, children with special needs, 
        persons with disabilities, and more, greatly expanding their 
        reach and impact. For example, some have programs designed 
        specifically for children on the autism spectrum while others 
        are addressing veterans' post-war trauma or providing youth job 
        training opportunities.
  --Digitization and traveling exhibitions bring museum collections to 
        underserved populations.--Teachers, students, and researchers 
        benefit when cultural institutions are able to increase access 
        to trustworthy information through online collections and 
        traveling exhibits. Most museums, however, need more resources 
        to digitize collections.

    The National Endowment for the Humanities is an independent Federal 
agency created by Congress in 1965. Grants are awarded to nonprofit 
educational institutions--including museums, colleges, universities, 
archives, and libraries--for educational programming and the care of 
collections. NEH supports museums as institutions of learning and 
exploration, and as keepers of our cultural, historical, and scientific 
heritages.
    In 2015, through Preservation & Access, one of NEH's national 
program divisions, 63 peer-reviewed, competitive grants totaling over 
$3.6 million dollars were awarded to museums, historical societies and 
historic sites for a variety of projects to preserve and provide access 
to our Nation's rich cultural heritage. Across all NEH divisions 
(including Preservation and Access, Research, Education, Public 
Programs, Challenge Grants and Digital Humanities), these institutions 
received 118 awards totaling over $12.5 million. Demand for humanities 
project support, as demonstrated by NEH grant application rates, far 
exceeds available funding. In fiscal year 2015, NEH received 4,928 
competitive grant applications representing $482.8 million in requested 
funds, but was only able to fund 15.4 percent of these peer-reviewed 
proposals.
    NEH also provides approximately 40 percent of its funding directly 
to States through grants to humanities councils located in every State 
and U.S. Territory. In 2015, 55 State councils supported 4,266 events 
in museums, reaching a total audience of more than 2.1 million people.

    Here are just two examples of how NEH funding supports museums' 
work in your communities:

  --In 2015, Chugachmiut was awarded $250,000 for the creation of an 
        online digital archive of approximately 700 ethnographic 
        objects, art works, and photographs, representing the cultural 
        heritage of the Chugach people of southern Alaska. The project 
        will gather, upload, display, and disseminate historical 
        information about all Chugach ethnographic collections 
        worldwide on a dedicated Web site accessible to researchers.
  --In 2015, The International Folk Art Foundation in Santa Fe, New 
        Mexico was awarded $400,000 for The Red that Colored the World, 
        including implementation of a traveling exhibition, a catalog, 
        and public programs about the history and global significance 
        of cochineal, an insect-based dye source whose origins date to 
        the pre-Columbian Americas.

    The National Endowment for the Arts makes art accessible to all and 
provides leadership in arts education. Established in 1965, NEA 
supports great art in every congressional district. Its grants to 
museums help them exhibit, preserve, and interpret visual material 
through exhibitions, residencies, publications, commissions, public art 
works, conservation, documentation, services to the field, and public 
programs.
    In 2015, more than 2,000 museums participated as Blue Star 
Museums--a partnership between NEA, Blue Star Families, and the 
Department of Defense--to offer free admission to all active duty and 
reserve personnel and their families from Memorial Day through Labor 
Day. This particular effort served more than 839,000 people, while many 
other museums offer military discounts or free admission throughout the 
year.
    In 2015, NEA made more than 160 direct awards to museums, totaling 
over $5 million. Forty percent of NEA's grant funds are distributed to 
State arts agencies for re-granting, and many museums benefit from 
these funds as well. Receiving a grant from the NEA confers prestige on 
supported projects, strengthening museums' ability to attract matching 
funds from other public and private funders. On average, each dollar 
awarded by the NEA leverages more than nine dollars from other sources.

    Here are two examples of how NEA funding is used to support 
museums' work in your communities:

  --In 2015, the American Jazz Museum received $20,000 to support an 
        indoor and outdoor jazz and blues festival, including education 
        programming for youth and adults as well as potential 
        performance opportunities for local youth jazz ensembles.
  --In 2015, Art Mobile of Montana, in Dillon, received $15,000 to 
        support a traveling exhibition and visual arts education 
        program. A specially equipped van travels throughout the State, 
        providing access to original artworks by Montana artists. The 
        program provides resources for teachers in selected schools on 
        Indian reservations.

    In addition to these direct grants, NEA's Arts and Artifacts 
Indemnity program also allows museums to apply for Federal indemnity on 
major exhibitions, saving them roughly $30 million in insurance costs 
every year and making many more exhibitions available to the public--
all at virtually no cost to the American taxpayer.
    The Smithsonian Institution comprises some of the most visited 
museums in the world, including the National Museum of American 
History, the National Air and Space Museum, and the National Museum of 
Natural History. The Smithsonian reaches visitors and learners of all 
ages, in the Nation's capital and across the country, with innovative 
exhibits and programs. Its 20 museums--including the National Zoo--
attracted over 28 million in-person visitors last year, its Web sites 
reached more than 100 million unique visitors, and its content and 
curriculums are used by teachers all over the country.
    The President's fiscal year 2017 budget request of $922.2 million 
includes critical funding necessary for the maintenance, operation, and 
security of the National Museum of African American History and 
Culture, which is due to open in September. Additional funding for 
collections care, cutting-edge research of every type, facilities 
maintenance, and technology upgrades will allow the Smithsonian to 
continue caring for the Nation's treasures and increase access for all.
    The Historic Preservation Fund is the funding source of 
preservation awards to States, tribes, local governments, and 
nonprofits. State and Tribal Historic Preservation Offices carry out 
the historic preservation work of the Federal Government on State and 
tribal lands. These duties include making nominations to the National 
Register of Historic Places, reviewing impacts of Federal projects, 
providing assistance to developers seeking a rehabilitation tax credit, 
working with local preservation commissions, and conducting 
preservation education and planning. This Federal-State-local 
foundation of America's historic preservation program was established 
by the National Historic Preservation Act. We urge you to provide $55 
million for SHPOs and $15 million for THPOs through the Historic 
Preservation Fund.
    We also urge you to restore funding of $30 million for Save 
America's Treasures and $4.6 million for Preserve America, which have 
not been funded in recent years. From 1999 to 2010, Federal funding of 
$315 million for 1,287 Save America's Treasures projects leveraged an 
additional $400 million in non-Federal funds. These projects protected 
some of America's most iconic and endangered artifacts, including Ansel 
Adams' prints and negatives, Frank Lloyd Wright structures including 
Fallingwater, and the American flag that inspired the Star Spangled 
Banner. SAT projects also created more than 16,000 jobs in local 
communities across the country. We are disappointed that the 
administration did not include this funding in its fiscal year 2017 
budget.
    Also in the context of the Historic Preservation Fund, we support 
the administration's requested increases for the Civil Rights 
Initiative, including $25 million for competitive historic preservation 
grants to preserve the stories and sites associated with the Civil 
Rights Movement as well as $3 million to help Historically Black 
Colleges and Universities conduct similar documentation and 
interpretation.
    The 2005 Heritage Health Index of archives, libraries, historical 
societies, and museums concluded that action is needed to prevent the 
loss of millions of artifacts, and an updated Heritage Health Index due 
soon is predicted to show a continuing urgent need. Historic 
preservation programs are not only essential to protecting our many 
heritages; they also serve as economic development engines and job 
creators.
    I want to once more acknowledge the difficult choices that the 
subcommittee faces. I hope that my testimony has made it clear why 
these priorities are of critical importance to the Nation and will 
provide a worthwhile return on investment to the American taxpayer. 
Thank you again for the opportunity to submit this testimony.
                                 ______
                                 
          Prepared Statement of the American Chemical Society
    As Congress and the administration consider funding priorities for 
fiscal year 2017 in a tight budgetary environment, the American 
Chemical Society (ACS) urges policy makers to support the important 
work carried out by the Environmental Protection Agency's Science and 
Technology Program. In reviewing the President`s budget request, ACS 
has identified two areas of focus for EPA:

    1.  Funding the EPA Science & Technology account at the requested 
amount of $754 million and increasing support for scientific research 
supported by the agency, particularly through the Office of Research 
and Development (ORD).
    2.  Restoring $10 million the Science To Achieve Results (STAR) 
fellowships program to the fiscal year 2016 enacted amount of $49.8 
million.

    The American Chemical Society (ACS) would like to thank Chairperson 
Lisa Murkowski and Ranking Member Tom Udall for the opportunity to 
submit testimony for the record on the Environmental Protection Agency 
(EPA) science and technology programs for fiscal year 2008.
    ACS is a non-profit scientific and educational organization, 
chartered by Congress, representing approximately 157,000 individual 
chemical scientists and engineers. The world's largest scientific 
society, ACS advances the chemical enterprise, increases public 
understanding of chemistry, and brings its expertise to bear on State, 
national, and international matters.
    We look to science to understand environmental challenges and to 
develop more intelligent, less burdensome solutions. Over the past two 
decades, demand for more scientific evidence--whether to set or improve 
regulations--has grown substantially. The amount of research envisioned 
in EPA-related authorizations also has increased. Nevertheless, 
appropriations for EPA science programs have not kept pace with the 
need for more and better science.
    Over the last 20 years, the EPA S&T account, which includes the ORD 
and research programs in other EPA Offices, has fluctuated between 7 
and 10 percent of the agency's total budget. In order for EPA set 
science-based national environmental standards, conduct research and 
environmental monitoring, and provide technical assistance to States, 
local governments, and businesses, the S&T account needs to increase as 
a percentage of the agency's total budget, ultimately to a stable 10 
percent level. The President's budget request is $754 million, a 
roughly 2.6 percent increase over fiscal year 2016, and 9.2 percent of 
the total agency request. While ACS supports the President's request, 
we urge the subcommittee to find additional resources to boost S&T 
spending at EPA to eventually reach 10 percent of the agency budget.
    In the long term, ACS recommends the ORD account should eventually 
receive $646 million, consistent with its 2004 funding high point. This 
represents an increase of 20.5 percent percent relative to fiscal year 
2016 funding levels. ACS strongly urges to the subcommittee to work 
with EPA to boost resources for ORD to request and appropriate steadily 
increasing amounts to eventually reach the 2004 level. ACS recommends 
that the additional funds be applied to the following priority areas:

  --Provide at least a $10 million increase in funding for STAR 
        fellowship program.
  --Increase funding of green chemistry and engineering to advance the 
        development and use of innovative, environmentally benign 
        products and processes.
  --Invest in EPA's ability to recruit, develop, and retain an 
        effective scientific workforce.
  --Continue investing in Federal research and technology development 
        to reduce or avoid greenhouse gas emissions and address the 
        potential impacts of global climate change.
  --Support innovative and high-risk research to help identify and 
        explore future environmental problems and develop new sets of 
        technologies to solve existing problems.

    The fiscal year 2008 budget request continues a pattern of flat 
support for science at EPA for the Office of Research & Development, 
which is the largest part of the S&T account. The administration 
requested $512 million for ORD for fiscal year 2017. This represents a 
-.2 percent cut in ORD resources over fiscal year 2016. The decrease, 
when accounting for inflation, in ORD accounts from fiscal year 2016 
threatens ORD's mission to carry out world class environmental 
research, further damaging the Government's ability to provide top 
notch research on behalf of the American taxpayer and ensure America's 
policy makers use sound scientific advice in decisionmaking.
    The administration's proposal to reduce funding in the STAR 
fellowship program is a good case in point. This program is the only 
Federal program dedicated to graduate study in environmental sciences 
at colleges and universities across the country. The STAR fellowships 
are part of a cohesive effort to characterize critical or emerging 
environmental problems and create solutions to address them. EPA 
designed this extramural research grant program to work in cooperation 
with a fellowship program. Together, they provide ideas, information, 
new discoveries, and new researchers. Today's STAR fellows will become 
tomorrow's environmental experts working for industry, Government 
agencies like EPA, and academic institutions. The loss of this 
program's resources will further erode the agency's capability to 
attract an excellent workforce and will reduce the amount of scientific 
information available to inform agency decisions. Over the last decade, 
STAR fellowship funding has been reduced by over half. We urge the 
subcommittee to restore funding to the appropriated level of $49.8 
million from the budget request of $39.1 million.
    ACS supports increased funding for green chemistry and engineering 
programs to advance the development and use of innovative products and 
process, reducing or eliminating the use of hazardous substances. 
Because chemistry and chemical products fuel the economy of every 
industrialized nation, the tools and strategies chemists and chemical 
engineers develop will be instrumental in meeting the dual challenges 
of protecting the environment and strengthening the economy.
    ACS is a long term advocate for increased attention to research 
programs at EPA, both in budgetary and in management terms, and our 
enthusiasm for these programs remain strong.

    [This statement was submitted by J. Carl Maxwell, Director, Energy 
and Environment Policy, Office of Public Affairs.]
                                 ______
                                 
          Prepared Statement of the American Forest Foundation
    America's family-owned forests, over one-third of the Nation's 
forested landscape, are critical to meeting the Nation's clean air and 
water, wildlife, and wood supply needs today and in the future. With 
impending threats to these forests from catastrophic wildfires, 
development pressures, insects, diseases, and other issues, continued 
delivery of these benefits is not guaranteed. Funding for critical U.S. 
Forest Service programs is essential for helping the 22 million people 
who own these lands, continue to provide these necessities for all 
Americans. In particular, we request the following funding levels and 
policy improvements for critical programs in the USDA Forest Service 
budget:

  --Revise budgeting structure for wildfire suppressing to allow 
        expenses for large wildfires to be paid for from emergency 
        funds and to reverse both the ``borrowing'' and the gradual 
        decline of key agency program funding.
  --$479 million for the hazardous fuels program accompanied with 
        policy direction to support increased cross-boundary 
        collaboration and implementation, especially with private 
        landowners, through the hazardous fuels program.
  --$29 million for the Forest Stewardship Program with continued 
        direction to encourage a focus on outcomes and measurable 
        impact.
  --$23.5 million for the Landscape Restoration Program.
  --$83 million for the Forest Inventory and Analysis Program.
  --$27 million for the Forest Products Laboratory.
  --$48 million for Forest Health Protection on Cooperative lands.

    The American Forest Foundation is a nonprofit conservation 
organization that works on the ground with the more than 22 million 
family woodland owners through a variety of programs, including the 
American Tree Farm System, to protect the values and benefits of 
America's family forests, with a specific focus on clean water, 
wildlife, and sustainable wood supplies. Unfortunately, new data 
suggests that by 2020, more than 18 million acres of family forests 
will be threatened by housing development. Furthermore, almost 14 
million acres are at risk of mortality due to insects and disease, 
while 29 million are at high or very high risk of destruction from 
wildfire.\1\ At the same time, less than 15 percent of family forest 
owners have sought out technical service for the stewardship of their 
forests; therefore, it is essential that we provide families with the 
tools, technical information, and policy support to keep their forests 
as forests and help them accomplish their management objectives while 
also protecting the critical benefits Americans depend on every day.
---------------------------------------------------------------------------
    \1\ Family Forest Research Center, 2014 Preliminary Data.
---------------------------------------------------------------------------
                    wildfire suppression funding fix
    Over the last decade, wildfire expenses have significantly 
increased, and the Federal wildfire budgets are often insufficient to 
cover the costs, leading Federal agencies to transfer funds from non-
fire accounts to cover fire-fighting expenses. Additionally, as the 
budgeted 10-year average of wildfire fighting costs has increased in a 
limited budget, non-fire programs have gradually been squeezed. 
Programs like the Forest Stewardship Program have seen as much as a 20 
percent decline in the last few years, causing serious challenges with 
State forestry agency's abilities to work with family landowners.
    We urge passage of legislation that will both end the disruptive 
borrowing and reverse the trend of wildfire fighting costs consuming 
the Forest Service budget at the expense of other critical programs.
            hazardous fuels program cross boundary direction
    A recent AFF survey of family landowners in the West showed that 
family owners are aware and interested in implementing management to 
reduce wildfire risks on their properties but there are two important 
barriers: cost and concern about lack of action by their neighbors. Why 
is this important? AFF also completed recent analysis that shows if we 
want to protect critical watersheds in the West from the risks of 
catastrophic wildfire--which can destroy the storage and filtration 
benefits forests provide-leading to water quality and quantity 
problems-- we've got to engage family landowners in wildfire 
mitigation. In fact our analysis shows that nearly 40 percent of the 
land that keeps water clean in important watersheds that are at a high 
risk of wildfire, are private and family-owned. Cross-boundary 
collaborative projects that engage all landowners in a landscape or a 
watershed-- both public and private, will help address these challenges 
and will also help motivate landowners to act. Thus, we ask the 
subcommittee to provide direction to the Forest Service and the 
Department of the Interior to work in partnership with State forestry 
agencies to encourage cross-boundary collaboration and implementation 
of wildfire mitigation at a landscape scale, through the hazardous 
fuels program. We also ask the subcommittee to fund the Forest Service 
hazardous fuels program at $479 million.
    This approach is working. For example, in the Blue Mountains of 
Oregon, AFF is working through a local collaborative, that involves 
public agencies and local organizations working together to support 
wildfire mitigation across the landscape. This collaborative has 
realized that treating only one piece of the puzzle--the public lands 
side which has been where most of the focus has been--is not going to 
full protect communities, homes, lives, and water supplies. To date, we 
have succeeded in engaging landowners who are now managing almost 
22,000 acres for wildfire mitigation, in the patchwork of public and 
private lands. We are similarly working in collaboratives in Colorado's 
Front Range, Montana's Great Falls, and California's Northern Sierra's.
                       forest stewardship program
    The Forest Stewardship Program (FSP), implemented through State 
forestry agencies, provides Federal support for the boots-on-the-ground 
needed to engage family landowners in stewardship. With strong funding 
of $29 million for fiscal year 2017 and strategic changes, FSP could do 
more. FSP can be, and in some States already is, an essential lynchpin 
for conducting outreach, marketing, and interaction with landowners in 
ways that can measurably protect clean water, wildlife habitat, and 
sustainable wood supplies. Without the presence on the ground, 
effective landowner engagement will be impossible. We encourage the 
subcommittee to continue to provide direction to support the changes 
underway in the program to better focus the program on measurable 
outcomes, encourage targeted marketing and engagement so resources are 
focused on the highest priorities, and encourage sustained engagement 
with landowners so resources are used most effectively to achieve 
priority outcomes on the landscape.
                  landscape scale restoration program
    The Landscape Scale Restoration Program (LSR), which provides 
resources through a competitive process, to States and partner 
organizations to implement work that results in measurable outcomes, is 
a very effective program. Through LSR, State agencies are working with 
partners like AFF to move the needle on key issues like protecting 
clean water in the West or restoring critical ecosystems in the south 
which will be essential to preventing another flood of species listings 
in the south. The program is leveraging private sector funding as well. 
AFF strongly urges the subcommittee to support $23.513 million for the 
Landscape Restoration Program.
                 forest inventory and analysis program
    The Forest Inventory and Analysis Program provides critical data to 
inform natural resource decisions, such as where to site a new mill, 
where to implement wildfire mitigation treatments for the greatest 
impact, how much carbon is captured and stored in our forests. FIA also 
provides trends in family forest ownership and demographics so that we 
can better understand how to work with this significant ownership 
group. We appreciate the work of the subcommittee in fiscal year 2016 
to increase funding for this program and we encourage an increase to 
$83 million in fiscal year 2017, to allow the agency to implement the 
current measurement cycle, at a minimum.
                       forest products laboratory
    The Forest Products Laboratory, part of USFS Research and 
Development, provides critical research for increasing the market 
opportunities for forest products. Recently, the Laboratory has been 
essential to providing the science and data needed to build the new 
tall wood buildings we are beginning to see in the U.S., that have both 
economic and environmental benefits. The Lab is also key to researching 
new products for forests--from biomass energy to nanotechnology 
products. Markets that provide landowners with income to implement 
management such as hazardous fuels reduction or habitat creation, will 
be essential if we're to address the issues facing family lands and 
continue to see the benefits from these lands. We appreciate the 
increase the subcommittee provided for the Lab in fiscal year 2016 and 
we ask that this funding level, of $27 million be at least maintained 
in fiscal year 2017. We also urge the subcommittee to provide direction 
that the increased funds be used for a combination of research, 
development, and technology transfer for advancing wood building 
construction, nanotechnology, and biomass technology development.
                         state fire assistance
    We ask the subcommittee to provide $87 million for State Fire 
Assistance to support the program's coordinated fire protection and 
mobilization for fire suppression on both Federal and non-Federal 
lands. In addition, the funds support State-coordinated hazard 
mitigation activities in the wildland-urban interface, focus on 
reducing property loss, decrease fuels hazards, increase public 
awareness, develop fire plans, and increase citizen-driven solutions in 
rural communities.
                       forest health investments
    Threats from invasive species and pests continue to pervade 
American tree-farmers' lands, thus posing economic and environmental 
hardships. Close to 500 species of tree-damaging pests from other 
countries have become established in the United States, and a new one 
is introduced, on average, every 2 to 3 years. The USFS Forest Health 
Protection (FHP) Program is necessary to help prevent, contain, and 
eradicate these dangerous pests and pathogens. The program provides 
critical assistance to other Federal agencies, State agencies, local 
agencies and private landowners. We ask the subcommittee fund the 
Forest Health Cooperative lands program at $48 million, to provide 
protection from insects and diseases on non-Federal lands, including 
family lands.
    Thank you for considering these requests. We know the subcommittee 
has difficult decisions to make, in this era of limited budgets, 
especially with the rising costs of wildfire suppression. We hope that 
the subcommittee will consider the impact the above mentioned 
priorities can have on millions of family forest owners, along with all 
other Americans who reap the benefits of well-managed, working forests.
    We, at AFF, thank the subcommittee for the opportunity to provide 
some insight on these programs.

    [This statement was submitted by Tom Martin, President & CEO.]
                                 ______
                                 
                 Prepared Statement of American Forests
    Dear Chairman Murkowski, Ranking Member Udall, and honorable 
subommittee members:

    American Forests appreciates the opportunity to submit public 
testimony regarding our fiscal year 2017 appropriation recommendations. 
We understand the continuing economic realities facing the Nation, and 
we thank this subcommittee for its support of key Federal conservation 
programs in the Consolidated Appropriations Act of 2016. The return on 
investing in our Nation's forests is great, whether those forests are 
public or private, in urban areas or in wildlands. The economic, 
social, and environmental benefits healthy forests provide are clear 
incentives for Federal investment. American Forests' funding 
recommendations are generally consistent with the President's budget 
requests for the USDA Forest Service, Department of Interior, and the 
Environmental Protection Agency, with the exception of programs that 
merit an elevated request.
    Founded in 1875, American Forests is the oldest national nonprofit 
conservation organization in the United States. Its mission is to 
restore threatened forest ecosystems and inspire people to value and 
protect urban and wildland forests. American Forests has planted 50 
million trees in 1,000 high-impact forest restoration projects, as well 
as works in cities across the country helping to increase urban forest 
canopy and demonstrating innovative greenspace projects.
                       usda forest service (usfs)
National Forest System
    Collaborative Forest Landscape Restoration Program (CFLRP): CFLRP 
was created to promote job stability, a reliable wood supply, and 
forest health while reducing emergency wildfire costs and risks. 
American Forests' request is $20 million above the President's fiscal 
year 2017 budget ask, and identical to agency budget requests from the 
past 2 years. Increased funding would support the continued 
implementation of the 23 existing projects, and allow for the 
competitive selection of up to 10 additional landscapes across the 
Nation.

    -- American Forests recommends an increase from the President's 
request to $60 million.
State and Private Forestry
    Urban and Community Forestry (U&CF): U&CF plays an integral part in 
promoting sound stewardship of our Nation's urban and community forests 
and trees. By providing important technical and financial support, U&CF 
helps cities and towns across the Nation enhance tree and forest cover, 
prepare for storms and other disturbance events, contain threats from 
native and invasive pests, and maximize the economic, social, and 
ecological benefits of their tree resources. U&CF is a high-impact 
program and a smart investment as Federal support is often leveraged 
2:1 (or in many cases significantly more) by States and partner 
organizations. As a model Federal program, U&CF consistently increases 
communities served, brings together diverse partners and resources, and 
shows that Federal investment can have huge and lasting impacts on 
communities of all sizes.

    -- American Forests recommends U&CF be funded at $31.3 million.

    Community Forests and Open Space Program (CFP): CFP has made 
substantial progress in preserving forests by increasing opportunities 
for Americans to connect with forests in their own communities and 
fostering new public-private partnerships. CFP has supported 27 
community forest projects in cities and towns across 15 States and 
Territories. In the latest round of CFP grants, project partners 
leveraged $8.7 million in Federal funds to secure $31.8 million in non-
Federal funding. As a result of these partnerships, more than 14,000 
acres of private forestlands have been or soon will be acquired to 
create new or expand existing community forests.

    -- As interest in this program far exceeds the fiscal year 2016 
allocation of $2 million, American Forests recommends an increase to $5 
million.

    Forest Health Management: The Forest Health Management programs 
provide essential expertise and assistance to State and municipal 
agencies and private landowners in countering non-native pests. 
Municipal governments across the country are spending more than $3 
billion each year to remove trees on city property killed by these non-
native pests. Homeowners are spending an additional $1 billion to 
remove and replace trees on their properties and are absorbing an 
additional $1.5 billion in reduced property values.

    -- American Forests asks that the subcommittee appropriate $52 
million for Federal lands and $48 million is designated for cooperative 
lands.

    Forest Legacy Program: Since authorized in 1990, the Forest Legacy 
Program has protected 2.49 million acres across the country, including 
169,250 acres of water bodies and 3,288 miles of streams. It is 
imperative to continue protecting our Nation's forests for future 
generations while simultaneously providing the myriad of ecosystem 
services to current Americans.

    -- American Forests supports the President's request of $62.35 
million allocated through the Land and Water Conservation Fund.

    Landscape-Scale Restoration: The Landscape Scale Restoration 
program strategically prioritizes resources by competitively allocating 
the Cooperative Forestry Assistance Act funds. It focuses on targeting 
Federal investments --leveraged by State funding resources--to areas of 
greatest need, highest value, or strongest innovation potential as 
stipulated in each State Forest Action Plan.

    -- American Forests recommends funding the Landscape Scale 
Restoration program at $23.5 million.
                    bureau of land management (blm)
    Public Domain Forest Management: The BLM is entrusted with the 
management of 58 million acres of forests and woodlands across 12 
western States, including Alaska. 14 million acres--or 24 percent--of 
BLM forests are overstocked increasing insect and disease attacks and 
catastrophic wildfire. Increased funding to address these serious risks 
is necessary across all land management agencies.

    -- American Forests supports the President's fiscal year 2017 
request at $10.08 million.

    National Conservation Lands: The National Conservation Lands 
encompasses signature landscapes including some of America's finest 
natural and cultural treasures, many of them forested. Yet, despite 
their codification in law and growing popularity, the system of 
national monuments and national conservation areas is still 
undercapitalized. These areas lack sufficient staff and financial 
resources to adequately protect their valuable natural and cultural 
resources and maximize their recreational potential.

    -- American Forests supports the President's fiscal year 2017 
request for $50.65 million.
                    fish and wildlife service (fws)
    Ecological Services: Ecological Services achieves conservation of 
FWS trust resources, focusing on imperiled species, and works closely 
with external partners and agencies for the conservation of natural 
resources across the landscape. The Ecological Services Program 
facilitates implementation of the Endangered Species Act through the 
programmatic divisions of listing, planning and consultation, 
conservation and restoration, recovery and provides assistance to 
States under the Cooperative Endangered Species Conservation Fund.

    -- American Forests supports the President's fiscal year 2017 
request of $252.29 million for Ecological Services.

    Coastal Program: As part of the habitat conservation arm of FWS, 
the Coastal Program is a cooperative program to implement habitat 
restoration and protection projects on public and private lands in 24 
priority coastal ecosystems, including areas in the Great Lakes and 
U.S. Territories. It delivers on-the-ground conservation by working 
collaboratively with partners to restore, enhance, and protect coastal 
habitat for priority Federal trust species.

    -- American Forests supports the President's fiscal year 2017 
request of $13.49 million for the Coastal Program.

    National Wildlife Refuge System: The National Wildlife Refuge 
System, with 563 refuges covering more than 150 million acres across 
the country, is vital to protecting America's wildlife and ensuring 
that their habitats are a priority. Because refuges are visited by 
nearly 48.5 million people each year, contributes a total of $4.5 
billion to the economy, and support more than 35,000 jobs, investment 
in the Refuge system is an investment in our communities. With 101 
refuges within 25 miles of 250,000 or more people, the Refuge System is 
a vital component of our urban forests, as well.

    -- American Forests supports the President's fiscal year 2017 
request for $508.20 million with the additional $5.5 million requested 
for the Refuge Visitor Service allocated to the urban wildlife refuges.

    State and Tribal Wildlife Grant Program (STWG): As authorized by 
the Fish and Wildlife Act of 1956, STWG provides Federal grant funds to 
States and Tribes to develop and implement programs for the benefit of 
fish and wildlife and their habitats. All funded activities must link 
with species, actions, or strategies included in each State Wildlife 
Action Plan (Plan). The success of this program is evident in the 1.9 
million acres of habitat for species of greatest conservation need and 
the nearly 131,000 acres of habitat it has protected through land 
acquisition or conservation easements.

    -- American Forests supports the President's fiscal year 2017 
request for $66.98 million for State and Tribal Wildlife Grants.
                         national park service
    National Park System: During this historical centennial year of the 
National Park Service, American Forests' requests improved funding for 
the agency's operations, construction, and partnerships. Specifically, 
the National Park Partnerships (a.k.a. Centennial Challenge) is an 
economically wise program that leverages private dollars to match 
Federal funds. The funds support projects to improve the visiting 
experience at national parks. An fiscal year 2016 investment of $15 
million has yielded more than twice that in private donations, and many 
more opportunities await with a funding boost.

    -- American Forests supports the President's fiscal year 2017 
request of $2.524 billion for `Operations', $252 million for 
`Construction' and $35 million for National Park Partnerships.

    Outdoor Recreation Legacy Partnership Program (ORLPP): The State 
and Local Assistance Program provides matching grants to States and 
localities for protection and development of parks and recreation 
resources and is the primary Federal investment tool to ensure that 
families have easy access to urban forests in parks and open space, and 
neighborhood recreation resources. This nationally competitive program 
complements the existing State and local assistance program by creating 
opportunities for outdoor play as well as developing or enhancing 
outdoor recreation partnerships in cities.

    -- American Forests supports the President's fiscal year 2017 
request of $110 million for the State and local assistance program, 
which includes $12 million for ORLPP. 
                 environmental protection agency (epa)
    Clean Water State Revolving Fund (CWSRF): Green infrastructure is a 
cost-effective and resilient approach to stormwater infrastructure 
needs that also provide many other community benefits. American Forests 
supports EPA's goal of strengthening green infrastructure activities to 
further its sustainability goals.

    -- American Forests request that not less than 20 percent the CWSRF 
funding be made available for green infrastructure or environmentally 
innovative projects that promote water system and community resilience.
                     legislative language requests
Wildfire Suppression Funding
    America's forests and forest-dependent communities are at risk from 
outbreaks of pests and pathogens, persistent drought, and the buildup 
of hazardous fuels. Urbanization and development patterns are placing 
more homes and communities near fire-prone landscapes, leading to more 
destructive and costly wildfires. Unfortunately and again in fiscal 
year 2015, the 10-year average was not enough to meet the USFS 
suppression needs, forcing the agency to transfer $700 million from 
non-suppression accounts to make up for the shortfall. The current 
wildfire suppression funding model and cycle of transfers and 
repayments has negatively impacted the ability to implement forest 
management, among many other activities. Additionally, the increasing 
10-year average to has not met annual suppression needs since before 
fiscal year 2002, which is why we are thankful to the subcommittee for 
the full transfer repayment and increased suppression funding in fiscal 
year 2016. However, we understand this is not expected to occur every 
year. DOI and USFS need a long-term fire funding solution that would 
result in stable and predictable budgets.
    We appreciate the subcommittee's support of the bipartisan Wildfire 
Disaster Funding Act, which addresses Federal fire funding challenges 
as well as other bipartisan congressional efforts in this regard. We 
respectfully request a bipartisan fire funding solution that would (1) 
access disaster funding, (2) minimize transfers, and (3) address the 
continued erosion of agency budgets over time, with the goal of 
reinvesting in key programs that would restore forests to healthier 
conditions.
Land and Water Conservation Fund
    American Forests supports the permanent authorization of full and 
dedicated funding, without further appropriation or fiscal year 
limitation, for the Land and Water Conservation Fund (LWCF). LWCF 
programs protect natural resource lands, outdoor recreation 
opportunities, and working forests at the local, State and Federal 
levels. This program ensures that these important lands are protected 
for current and future generations.

    -- American Forests supports the President's fiscal year 2016 
budget request, which calls for permanent authorization of $900 million 
in mandatory funding for LWCF programs in the Departments of Interior 
and Agriculture.
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2017 budget request for the United States 
Geological Survey (USGS). The AGU, on behalf of its more than 60,000 
Earth and space scientist members, respectfully requests Congress to 
appropriate $1.17 billion for the USGS. Currently, Federal funding for 
USGS is 4.5 percent below what it was in fiscal year 2010. Since fiscal 
year 2010, USGS has not seen a funding increase above 2 percent. 
Restoring strong funding to USGS will allow the agency to sustain 
current programs and make strategic investments to improve knowledge 
and understanding of critical geologic, environmental, and ecological 
systems needed by decision makers across the country.
          usgs benefits every state and territory in the union
    USGS is uniquely positioned to provide information and informed 
responses to many of the Nation's greatest challenges and has a mission 
that positively impacts the lives of all Americans. USGS plays a 
crucial role in assessing water quality and quantity, reducing risks 
from earthquakes, tsunamis, floods, landslides, wildfires, and other 
natural hazards; providing emergency responders with geospatial data to 
improve homeland security; assessing mineral and energy resources 
(including rare earth elements and unconventional natural gas 
resources); and providing the science needed to manage our ecosystems 
and combat invasive species that can threaten natural and managed 
environmental systems and public health.
    Through its offices across the country, the USGS works with 
partners to provide high-quality research and data to policymakers, 
emergency responders, natural resource managers, civil and 
environmental engineers, educators, and the public. A few examples of 
the USGS' valuable work are provided below.
                             water quality
    The Survey collects scientific information on water availability 
and quality to inform the public and decision makers about the status 
of freshwater resources and how they are changing over time. During the 
past 130 years, the USGS has collected streamflow data at over 21,000 
sites, water-level data at over 1,000,000 wells, and chemical data at 
over 338,000 surface-water and groundwater sites. This information is 
needed to effectively manage freshwaters--both above and below the land 
surface--for domestic, public, agricultural, commercial, industrial, 
recreational, and ecological purposes.
                            natural hazards
    The USGS plays an important role in reducing risks from floods, 
wildfires, earthquakes, tsunamis, volcanic eruptions, landslides, and 
other natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year. Seismic networks and hazard analysis are 
used to formulate earthquake probabilities and to establish building 
codes. USGS monitors volcanoes and provides warnings about impending 
eruptions that are used by aviation officials to prevent planes from 
flying into volcanic ash clouds. Data from the USGS network of stream 
gages enable the National Weather Service to issue flood and drought 
warnings. The bureau and its Federal partners monitor seasonal 
wildfires and provide maps of current fire locations and the potential 
spread of fires. In domestic and global events, emergency managers and 
public officials rely on USGS to inform them of risks and hazards posed 
to human and natural systems.
                      mineral and energy resources
    USGS assessments of mineral and energy resources--including rare 
earth elements, coal, oil, unconventional natural gas, and geothermal--
are essential for making decisions about the Nation's future. The 
Survey identifies the location and quantity of domestic mineral and 
energy resources, and assesses the economic and environmental effects 
of resource extraction and use. The agency is mapping domestic supplies 
of rare earth elements necessary for widespread deployment of new 
energy technologies, which can reduce dependence on foreign oil. The 
USGS is the sole Federal source of information on mineral potential, 
production, and consumption.
                            land management
    USGS science plays a critical role in informing sound management of 
natural resources on Federal and State lands. The USGS conducts 
research and monitoring of fish, wildlife, and vegetation--data that 
informs management decisions by other Interior bureaus regarding 
protected species and land use. Ecosystems science is also used to 
control invasive species and wildlife diseases that can cause billions 
of dollars in economic losses. The Survey provides information for 
resource managers as they develop management strategies for restoration 
and long-term use of the Nation's natural resources in the face of 
environmental change.
                            data collection
    Research and data collected by the USGS is vital to predicting the 
impacts of land use and climate change on water resources, wildfires, 
and ecosystems. For 43 straight years, Landsat satellites have 
collected the largest archive of remotely sensed land data in the 
world, allowing for access to current and historical images that are 
used to assess the impact of natural disasters on communities and the 
environment and monitor global agriculture production. A 2013 National 
Research Council study found that the economic benefit of Landsat data 
was estimated to be $2 billion for 2011 alone. The consistency of data 
sets like those provided by Landsat is vital for advances in science, 
more efficient natural resource management, and profitable applications 
of data in commerce and industry.
                    enhanced mapping for the nation
    The USGS utilizes unique technologies that enable the nationwide 
collection of accurate terrain information. This information improves 
our knowledge of water supply and quality issues; better prepares 
emergency responders for natural disasters; and helps businesses 
utilize more accurate data for the development of alternative renewable 
energy projects. Modernized, high-resolution topographic maps are 
provided by the USGS through their 3D Elevation Program (3DEP). 3DEP, 
which is run by the USGS, leverages funds from the private sector and 
other Federal Agencies throughout the U.S. The initiative provides 
open-access elevation data to inform better flood-inundation maps, 
cost-effective precision farming, and the development of alternative 
renewable energy projects.
                             public health
    The USGS plays a critical role in maintaining public health at the 
local, State, and national level. For example, the agency assesses 
negative health effects caused by the dispersion of contaminants after 
natural and man-made disasters, such as hurricanes and oil spills. In 
one such instance, after Hurricane Sandy, the USGS provided soil, 
water, and sediment information to public health agencies to help them 
protect citizens from toxic contaminants.
               engaging the next generation of scientists
    The USGS meets monthly with other Department of Interior (DOI) 
divisions to collaborate on projects that will engage the next 
generation of scientists. Collectively, the DOI is actively working to 
provide least 10 million students with educational, work, and training 
opportunities. In 2015, the USGS offered learning opportunities to 
113,375 students and teachers in activities such as science fairs, 
mentoring opportunities, camps, and hands-on learning experiences. 
Programs such as the USGS's Cooperative Research Units (CRU) provide 
under-represented undergraduate students with mentoring and hands-on 
experience designed as a pathway to DOI recruitment.
                               conclusion
    AGU is grateful to the Senate Interior Appropriations Subcommittee 
for its leadership in restoring past budget cuts and strengthening the 
USGS. We recognize the financial challenges facing the Nation, but USGS 
has been historically strained by a large workload and too few 
resources. With our Nation facing unprecedented challenges such as the 
loss of ecosystems, demand for limited energy, increasing vulnerability 
to natural hazards, and need for clean water, the work done by USGS is 
essential to our environmental, economic, and national security.
    AGU respectfully requests that Congress work to provide $1.17 
billion for USGS in fiscal year 2017. We appreciate the opportunity to 
submit this testimony to the subcommittee and thank you for your 
thoughtful consideration of our request.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2017 appropriations for 
geoscience programs within the subcommittee's jurisdiction. We ask the 
subcommittee to support and sustain the critical geoscience work of the 
United States Geological Survey (USGS), the Bureau of Land Management 
(BLM), the National Park Service, and the Smithsonian Institution.
    Specifically, we ask that you support the President's request for 
$1.2 billion for USGS, but we respectfully request that Congress place 
greater emphasis on the geological sciences within the USGS mission. 
AGI supports balanced funding for Mission Areas within USGS and notes 
that funding for important geoscience-based programs has consistently 
lagged funding for other parts of USGS. AGI also supports $138 million 
for Energy and Minerals Management at the Bureau of Land Management; 
$234 million for the National Park Service's Natural Resource 
Stewardship and Everglades Restoration activities; and $922 million for 
the Smithsonian Institution.
    The Earth provides the energy, mineral, water, and soil resources 
that are essential for a thriving, innovative economy, national 
security, and a healthy population and environment. We must understand 
the Earth system, and particularly the geological characteristics of 
Earth's surface and subsurface, in order to sustain human health and 
safety, maintain energy and water supplies, and improve the quality of 
the environment while reducing risks from natural hazards.
    AGI is a nonprofit federation of 51 geoscientific and professional 
associations that represent approximately 250,000 geologists, 
geophysicists, and other Earth scientists who work in industry, 
academia, and government. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice of shared interests in our 
profession, plays a major role in strengthening geoscience education, 
and strives to increase public awareness of the vital role the 
geosciences play in society's use of resources, resilience to natural 
hazards, and the health of the environment.
                         u.s. geological survey
    AGI supports the President's request for $1.2 billion for USGS. We 
respectfully suggest that Congress should allocate more resources to 
USGS's geoscience functions because there is no alternative source for 
this expertise. The key Mission Areas of Water Resources, Core Science 
Systems, and Energy & Mineral Resources have consistently been 
underfunded when compared to other USGS Mission Areas. AGI strongly 
supports the proposed increase for USGS Facilities to maintain 
essential scientific facilities, including monitoring and observation 
instrumentation. We urge additional funding for the USGS Library, which 
is an important and unique resource for researchers and industry.
    Importance of Geoscience Functions at USGS: The need for geological 
information has not diminished since USGS was established in 1879. On 
the contrary, as we place increasing demands on Earth's system, many 
critical decisions rely upon geoscience information. The USGS has a 
wide-ranging mission to provide objective data, observations, analyses, 
assessments, and scientific solutions to support decisionmaking; while 
there is merit to USGS's broad remit, its unique geological mission 
should be paramount.
    Table 1 highlights the Mission Areas that have been singled out for 
lower increases than other sections of USGS since fiscal year 2014; we 
note that these contain the majority of USGS's geoscience functions. We 
respectfully ask Congress to recognize the importance of geoscience 
research, monitoring, information collection and analysis to the 
Nation's safety, economy, defense, and quality of life, and to support 
USGS's mandated role by funding balanced investment in USGS programs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Table 1: Trends in funding for USGS Mission Areas and Accounts, fiscal 
year 2014-fiscal year 2017 request.
Core Science Systems Mission Area:
  --USGS Library: The USGS Library is a vital resource for 
        geoscientists within and outside USGS, servicing hundreds of 
        thousands of requests online and in person annually, yet 
        staffing has fallen from 66 Federal staff (FTE) in 2000 to 18 
        FTE in 2015. AGI supports increased funding for the USGS 
        Library, which serves industry, academia, and government 
        clients and preserves the intellectual stock of the 
        geosciences.
  --National Geospatial Program: Topographic mapping has been a core 
        activity at USGS since its inception. AGI strongly supports the 
        3D Nation interagency partnership to build a modern elevation 
        map of the Nation's territories and urges Congress to support 
        USGS's contribution, the 3DEP (3D Elevation) program. AGI 
        strongly supports investment in lidar and ifsar mapping, and 
        the President's request for $69 million for the National 
        Geospatial Program.
  --National Cooperative Geologic Mapping Program (NCGMP): This 
        important, decades-long partnership between the USGS, State 
        geological surveys, and universities has a proven track record 
        of delivering cost-effective geological maps. Over the past few 
        years the number of grant proposals has increased while funding 
        has remained stagnant. AGI asks that Congress increase funding 
        for the National Cooperative Geologic Mapping Program to $30 
        million in fiscal year 2017 to meet growing demand.
  --Data Preservation: The National Geological and Geophysical Data 
        Preservation Program (NGGDPP) produces more value in terms of 
        economic, environmental, hazard mitigation, and regulatory 
        efficiency than it costs to run. AGI urges Congress to 
        reauthorize NGGDPP and to fund it at the previously authorized 
        level of $3 million.
Energy and Mineral Resources Mission Area:
  --Mineral Resources Program: AGI is a founding member of the Minerals 
        Science and Information Coalition (MSIC), which supports 
        minerals expertise in the Federal Government. We are concerned 
        at the dearth of investment in this foundational component of 
        the manufacturing supply chain, which is critical to our 
        national economy and defense. AGI supports the President's 
        request for $49 million for the Mineral Resources Program and 
        asks that Congress add $5 million in new funding to create 
        minerals forecasting capabilities.
         There is no point developing new materials if we cannot supply 
the raw materials to manufacture them. AGI suggests the creation of a 
Critical Minerals Hub, with funding of $25 million per year for 5 
years, to match the Critical Materials Hub in the Department of Energy.
  --Energy Resources Program: AGI supports increased funding for the 
        Energy Resources Program. We note the importance of research on 
        gas hydrates, which may play a significant role in future 
        energy and climate scenarios. AGI supports funding of $286 
        million for the Energy Resources Program.
  --We urge USGS to develop opportunities to collaborate effectively 
        with other agencies, including integrating more geological 
        information with DOE's Subsurface Technology and Engineering 
        (SubTER) crosscut, to ensure prudent use of Federal funds.
Climate and Land Use Mission Area:
  --Land Remote Sensing Program: One of the most fundamental concepts 
        in the geosciences is that the Earth changes through time. It 
        is impossible to overstate the importance of long-term, 
        consistent monitoring of the Earth to provide a sound basis for 
        decisionmaking. AGI supports the President's request for $96.5 
        million for the Land Remote Sensing Program, which includes 
        Landsat and other Earth observing systems.
Water Resources Mission Area:
  --Challenges in water supplies and water quality highlight the 
        importance of understanding the quality, quantity, and 
        distribution of our groundwater and surface water resources. 
        AGI urges Congress to ensure the continuity and expansion of 
        nationwide, long-term data collection and research programs 
        that support water planning and decisionmaking across all 
        States, and to fund Water Resources at $228 million for fiscal 
        year 2017.
Natural Hazards Mission Area:
  --Landslide hazards are assessed using detailed topographic data from 
        the National Geospatial Program. AGI supports the proposed 
        increase to $8 million for the Landslides Hazards Program in 
        order to reap societal benefits from investments in geospatial 
        information.
  --Earthquakes are increasing in States like Oklahoma and Kansas, and 
        early warning systems are needed to avoid potential devastation 
        from large earthquakes. AGI supports funding for the Earthquake 
        Hazards Program of $60.5 million.
  --AGI supports robust funding of the Natural Hazards Program and 
        urges Congress to appropriate $139 million to this Mission 
        Area.
                       bureau of land management
    AGI notes efforts by the Energy and Minerals Management program to 
improve the return to taxpayers from the extraction of natural 
resources on our Nation's public lands. AGI supports funding the Energy 
and Minerals Management activity at $138 million.
                        smithsonian institution
    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI supports the President's request of $922 million for the 
Smithsonian Institution in fiscal year 2017.
                         national park service
    National parks are very important to the geoscience community and 
the public as unique national treasures that showcase the geologic 
splendor of our country and offer unparalleled opportunities for 
research, education, and outdoor activities. AGI supports the 
President's request for $224 million for Natural Resource Stewardship 
activities and $10 million for Everglades Restoration during the 
centennial year of the National Parks.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                            request summary
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which collectively are the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2017 
appropriations recommendations for the 28 colleges funded under Titles 
I and II of the Tribally Controlled Colleges and Universities 
Assistance Act (Tribal College Act); the two tribally chartered career 
and technical postsecondary institutions (Title V of the TCU Act); the 
two Bureau of Indian Education postsecondary institutions; and the 
Institute of American Indian Arts (IAIA). The Bureau of Indian 
Education administers each of these programs, with the exception of 
IAIA, which is congressionally chartered and funded in its own account.

    In fiscal year 2017, TCUs seek:

  --$89,220,000 to fund institutional operations and technical 
        assistance under Titles I and II of the Tribally Controlled 
        Colleges and Universities Assistance Act of 1978 or Tribal 
        College Act, of which $88.5 million is for Titles I & II 
        operating grants (which would fund 28 TCUs at the authorized 
        level for the first time in 35 years) and $701,000 is to 
        address increasingly needed technical assistance and a modest 
        increase of $100,000 (this would be the first increase in 
        technical assistance funding in over a decade);
  --$11,000,000 for Title V of the Tribal College Act, which provides 
        partial institutional operations funding for the two tribally 
        controlled postsecondary career and technical institutions;
  --$11,835,070, as included in the President's budget, for the 
        Institute of American Indian Arts (this includes $2 million 
        towards forward funding of IAIA);
  --Minimum of $21,767,000, as included in the President's fiscal year 
        2017 budget, for Haskell Indian Nations University and 
        Southwestern Indian Polytechnic Institute, the Bureau of Indian 
        Education's two postsecondary institutions; and
  --$18,200,000 for a one-time appropriation to fully transition 
        institutional operating funding for the three federally 
        chartered TCUs, from the Federal fiscal year to an academic 
        year, as follows: $3.4 million for IAIA (in additional to the 
        $2 million included in the President's budget) and $14.8 
        million for Haskell Indian Nations University and Southwestern 
        Indian Polytechnic Institute.

    IAIA, Haskell Indian Nations University, and Southwestern Indian 
Polytechnic Institute are the only schools funded through the 
Department of the Interior that still receive their institutional 
funding on the Federal fiscal year (October 1) or more likely, much 
later in the year when the annual Interior appropriation bill is 
passed, rather than the first week of July in preparation for the 
upcoming school year. Once forward-funded these TCUs--like other 
institutions of higher education--will be able to plan multiyear 
budgets and start (and end) each school year with dependable funding. 
Forward funding does not increase the Federal budget in the long-term. 
It simply allows vital education programs to receive basic operating 
funds before each school year begins, which is critically important 
when the Federal Government is funded under continuing resolutions.
    TCUs are founded and chartered by their respective American Indian 
tribes, which hold a special legal relationship with the Federal 
Government, actualized by more than 400 treaties, several Supreme Court 
decisions, prior congressional action, and the ceding of more than one 
billion acres of land to the Federal Government. Despite the trust 
responsibility and treaty obligations, the TCUs' primary source of 
basic operating funds has never been adequately funded. Further, our 
member institutions--already operating on shoestring budgets--have 
suffered the ramifications of sequestration and other across-the-board 
cuts.
                 tcus: ``doing so much with so little''
    Tribal Colleges and Universities are an essential component of 
American Indian/Alaska Native (AI/AN) education. Currently, 37 TCUs 
operate more than 75 campuses and sites in 16 States, within whose 
geographic boundaries 80 percent of all American Indian reservations 
and Federal Indian trust land lie. They serve students from well over 
250 federally recognized tribes, more than 85 percent of whom receive 
Federal financial aid--primarily Pell grants. In total, the TCUs 
annually serve 160,000 AI/ANs and other community members through a 
wide variety of academic and community-based programs. TCUs are public 
institutions accredited by independent, regional accreditation agencies 
and like all U.S. institutions of higher education must regularly 
undergo stringent performance reviews to retain their accreditation 
status. Each TCU is committed to improving the lives of its students 
through higher education and to moving AI/ANs toward self-sufficiency. 
To do this, TCUs serve many roles in their reservation communities, 
functioning as community centers, libraries, tribal archives, career 
and business centers, computer labs, summer camps, community farms, 
economic development centers, GED/HiSET training and testing centers, 
child and elder care centers, and more.
    The Federal Government, despite its direct trust responsibility and 
binding treaty obligations, has never fully funded TCU institutional 
operations as authorized under the Tribally Controlled Colleges and 
Universities Assistance Act of 1978. Yet despite funding challenges, 
TCUs are leading the Nation in preparing AI/AN nurses and more 
recently, in preparing teachers for our Native schools. For example, in 
2014, half of all AI/AN special education teachers in Montana graduated 
from Salish Kootenai College. TCUs train other professionals in high-
demand fields, including agriculture and natural resources management, 
human services, IT technicians, and building tradesmen. By teaching the 
job skills most in demand on our reservations, TCUs are laying a solid 
foundation for tribal economic growth, with benefits for surrounding 
communities, and the Nation as a whole. But that is not enough. TCU 
leadership understand that we must do more--we must move beyond simple 
workforce training. Today, TCUs are tackling the tougher--but much more 
significant--issue of job creation because we know that to break the 
cycle of generational poverty and end the culture of dependency that 
grips so much of Indian Country, simply filling jobs that would be 
filled anyway is not enough. We must create new industries, new 
businesses, and a culture of self-sufficiency and innovation. Our job 
creation initiative is focusing initially on advanced manufacturing, 
through a partnership with the U.S. Department of Energy, National 
Laboratories, TCUs, and industry.
    Tribal Colleges continually seek to instill a sense of hope and 
identity within Native youth, who one day will lead our tribal nations. 
Unfortunately, the high school drop-out rate for Native students 
remains around 50 percent. To help address this alarming reality, TCUs 
are partnering with the Department of the Interior's Bureau of Indian 
Education to help create a lasting ``college-going culture'' in Indian 
middle and high schools. TCUs are reaching back to create a bridge for 
Indian students as early as the elementary school, encouraging them to 
abandon any notion of dropping out of high school and instead, to think 
that the natural course is to finish high school and go on to the local 
TCU. In addition, TCUs offer Dual Credit courses for high school 
students, provide math teachers for local high schools as a strategy 
for improving course delivery, host Saturday academies, after school 
programs and summer camps for middle and high school students, and at 
the other end of the spectrum, they offer GED training and testing.
    As noted earlier, the TCUs' operations funding is insufficient, and 
their budgets are further disadvantaged because, on a per student 
basis, the colleges receive funding for only about 85 percent of their 
academic enrollments. Approximately 15 percent of the TCUs' collective 
enrollments are non-Indian students living in the local community, but 
TCUs receive Federal funding based only on Indian students, defined as 
members of a federally recognized tribe or the biological children of 
enrolled tribal members. While many TCUs do seek funding from their 
respective State legislatures for their non-Indian, State-resident 
students (often referred to as ``non-beneficiary'' students) successes 
have been, at best, inconsistent. Given their locations, often hundreds 
of miles from another postsecondary institution, TCUs are open to all 
students, Indian and non-Indian, believing that education in general, 
and postsecondary education in particular, is a catalyst to a better 
economic future for their areas.
    A recent independent, economic impact study proves this, 
illustrating that TCUs create lasting value from multiple perspectives: 
students, society, and taxpayers. TCUs elevate their students' lifetime 
incomes, and this in turn benefits society as a whole by increasing the 
region's economy and generating a wide array of savings through 
improved lifestyles. The increased employment benefits taxpayers 
through increased tax receipts and a reduction in the need for welfare 
and unemployment benefits. In fact, for every dollar spent the lifetime 
income of students more than quadruples; society gains over five times 
the investment in added income and social savings; and the taxpayers 
get back almost two and a half times the investment. In short, the TCUs 
are a very sound investment of Federal funds.
                     further justifications & facts
  --Breaking the cycle of generational poverty: Tribal Colleges and 
        Universities provide access to higher education for American 
        Indians and others living in some of the Nation's most rural 
        and economically depressed areas. In fact, seven of the 
        Nation's 10 poorest counties are home to a TCU.
  --Growing number of TCUs: Compounding existing funding disparities is 
        the fact that although the numbers of TCUs and students 
        enrolled in TCUs have dramatically increased since they were 
        first funded in 1981, appropriations have increased at a 
        disproportionately low rate. Since 1981, the number of tribal 
        colleges has more than quadrupled and continues to grow; the 
        number of Indian students enrolled has risen over 300 percent. 
        In the past 10 years, six additional TCUs have become 
        accredited and eligible for funding under Title I of the Tribal 
        College Act, and two more colleges are expected to be eligible 
        for Tribal College Act funding as soon as fiscal year 2018. 
        While AIHEC celebrates the growing number of tribally chartered 
        colleges and universities and the increasing numbers of Native 
        students served, these successes have forced TCUs to function 
        with smaller slices of an already inadequate annual funding 
        pie.
  --Local Tax and Revenue Bases: TCUs cannot rely on a local tax base 
        for revenue. Although tribes have the sovereign authority to 
        tax, high reservation poverty rates, the trust status of 
        reservation lands, and the lack of strong reservation economies 
        hinder the creation of a reservation tax base. As noted 
        earlier, on Indian reservations that are home to TCUs, the 
        unemployment rate can well exceed 70 percent. By contrast, the 
        national unemployment rate is currently 5 percent.
  --Gaming and the TCUs: Although several of the reservations served by 
        TCUs have gaming operations, the vast majority are not mega-
        casinos located in urban areas and featured in the broad-based 
        media. Only a handful of TCUs receive regular income from the 
        chartering tribe's gaming revenue, and the amounts received can 
        vary greatly from year to year. Most reservation casinos are 
        small businesses that use their gaming revenue to improve the 
        local standard of living and potentially diversify into other, 
        more sustainable areas of economic development. In the interim, 
        where relevant, local TCUs offer courses in casino management 
        and hospitality services to formally train tribal members to 
        work in their local tribally run casinos.
         Some form of gaming is legalized in 48 States, but the Federal 
Government has not used the revenues generated from State gaming as a 
justification to decrease Federal funding to other public colleges or 
universities. Some have suggested that those tribes that operate the 
few extremely successful and widely publicized casinos located in or 
near urban areas, should be financing higher education for all American 
Indians. And yet, no State is expected to share its gaming revenue with 
a less successful or non-gaming State.
              appropriations request for fiscal year 2017
    As noted earlier, it has been over 35 years since the Tribal 
College Act was first funded, and the TCUs have yet to receive the 
congressionally authorized per Indian student funding level. Full 
funding for the TCUs' institutional operating grants ($8,000 per Indian 
student) for fiscal year 2017 would require an increase of 
approximately $19.4 million over the fiscal year 2016 appropriated 
level. Additionally, to transition the three federally chartered TCUs 
to receive their operations funding on an academic schedule, rather 
than the Federal fiscal year, requires a $18.2 million one-time 
appropriation (IAIA--$3.4 million (in addition to the $2 million 
included in the President's budget; Haskell Indian Nations University 
and Southwestern Indian Polytechnic Institute--$14.8 million). 
Additionally, if the subcommittee determines that forward funding is to 
be achieved through incremental appropriations, language needs to be 
included directing that funds appropriated to partially fund the 
transition to forward funding are to be held until the needed sum (75 
percent of full year funding) is accrued.
                               conclusion
    AIHEC Member institutions/Tribal Colleges and Universities provide 
quality higher education to thousands of American Indians and other 
reservation residents, as well as essential community programs and 
services to those who might otherwise not have access to such 
opportunities. The modest Federal investment that has been made in TCUs 
has paid great dividends in terms of employment, education, and 
economic development. Continuation of this investment makes sound moral 
and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's Tribal Colleges and Universities and your careful 
consideration of our fiscal year 2017 appropriations requests.
                                 ______
                                 
          Prepared Statement of the American Lung Association
    The American Lung Association is pleased to present our 
recommendations for fiscal year 2017 to the Interior, Environment, and 
Related Agencies Appropriations Subcommittee. The work to monitor and 
clean up harmful air pollution funded by this subcommittee will prevent 
asthma attacks, emergency room visits, hospitalizations, and premature 
deaths across the country. Founded in 1904 to fight tuberculosis, the 
American Lung Association is the oldest voluntary health organization 
in the United States. The American Lung Association is the leading 
organization working to save lives by improving lung health and 
preventing lung disease through education, advocacy and research.
Support and Defend EPA's Programs to Address Climate Change and Improve 
        Air Quality
    Mr. Chairman, the Clean Air Act is a key public health safeguard. 
It is especially important for populations most at risk, including 
those with asthma and other lung diseases; children; older adults; 
people living in low-income communities; people who work, exercise or 
play outdoors; and people with heart disease and diabetes. We urge you 
to invest in protecting public health from the impacts of dangerous air 
pollution. We also urge you to reject any policy riders that would 
block, delay or weaken EPA's ability to save lives and improve public 
health by reducing air pollution, including carbon pollution from power 
plants and ground-level ozone pollution.
State, Tribal, and Local Government Work to Improve Air Quality
    The American Lung Association requests that the subcommittee 
provide $171 million for Federal Support for Air Quality Management. 
The Federal Support for Air Quality Management Program assists States, 
tribes, and local air pollution control agencies in the administration 
of programs and standards to protect the air we breathe. States have 
the primary responsibility for developing clean air measures necessary 
to meet Federal standards, but rely on support and assistance from EPA 
to create effective comprehensive air quality management programs. The 
EPA also supports training for State, tribal, and local air pollution 
professionals on rulemakings and other significant actions.
    The American Lung Association also requests that the subcommittee 
provide $268.2 million for Categorical Grants: State and Local Air 
Quality Management and $12.829 million for Categorical Grants: Tribal 
Air Quality Management. State, local and tribal air pollution agencies 
need more funding, not less, to ensure proper protection of the public 
through implementation of the Clean Air Act. These agencies are on the 
front lines of vital efforts to improve air quality and protect public 
health, yet they are perennially underfunded. This must change in order 
to secure the benefits promised by Clean Air Act protections.
Climate Change
    Climate change is one of the greatest threats to public health, 
including lung health. The health threats posed by climate change 
include worsened air pollution, the spread of diseases into new areas, 
stronger and longer heat waves, and more frequent and severe droughts. 
The EPA has a critical role to play in reducing carbon pollution, 
methane, and other climate pollutants and must have the resources 
needed to meet the challenge ahead. Reducing climate pollutants will 
save lives and protect health. We request that the subcommittee provide 
$115.9 million for the Climate Protection Program.
Radon
    Radon is the second leading cause of lung cancer in the United 
States, and the EPA's State Indoor Radon Grants are the only nationwide 
program that helps prevent exposure to it. States and tribes depend on 
this program as well as technical assistance through the Radon Programs 
to educate the public and fight this deadly carcinogen. In 2003, the 
National Academy of Sciences estimated that radon kills 21,000 people 
each year. We request that the subcommittee provide $8.1 million for 
the Categorical Grant for Radon.
Reducing Pollution From Vehicles
    We request that the subcommittee provide $100 million for the 
Diesel Emissions Reduction Grant Program. Ten million old diesel 
engines are in use today that pollute communities and threaten workers. 
Immense opportunities remain to reduce diesel emissions through the 
DERA program. The subcommittee's continued investments in this program 
have yielded up to $13 of public health benefit for every $1 spent on 
diesel projects, according to an EPA report to Congress from February 
2016.
    The American Lung Association also requests that the subcommittee 
fully fund EPA's Federal Vehicle Fuels Standards and Certifications 
Programs at $103.6 million, particularly to improve the effectiveness 
of the certification and compliance testing programs in the face of 
increasing demand, more challenging oversight requirements, and the 
increasing diversity of technologies. Currently, EPA conducts very 
limited testing of small imported engines, but a high fraction of these 
engines fail the test. Additional resources are needed to improve 
testing, including on-road testing, and compliance for this important 
program to protect public health.
Monitoring and Enforcement
    The American Lung Association requests that the subcommittee 
provide at least $111.3 million for EPA's Compliance Monitoring & 
$282.7 million for Enforcement. To protect public health, EPA must 
ensure that air pollution standards and requirements are met. EPA must, 
therefore, have the ability and funding needed to reduce non-
compliance, as well as enforce penalties for violations. EPA must also 
be prepared to respond to civil enforcement actions authorized by the 
Clean Air Act.
Conclusion
    Mr. Chairman, air quality is crucial for health. Air pollution can 
harm anyone, but is particularly dangerous for children, people over 
65, people with asthma and other chronic lung diseases, people with 
cardiovascular disease and diabetes, people living in poverty, and 
people who work or exercise outdoors. Our Nation has made significant 
progress in reducing levels of dangerous outdoor air pollution. We urge 
this subcommittee to continue making investments into EPA's life-saving 
work toward fulfilling the promise of the Clean Air Act: healthy air 
for all to breathe.
                                 ______
                                 
   Prepared Statement of the American Society for the Prevention of 
                           Cruelty to Animals
    On behalf of our 2.5 million supporters, the American Society for 
the Prevention of Cruelty to Animals (ASPCA) appreciates this 
opportunity to submit testimony to the Senate Appropriations 
Subcommittee on Interior, Environment and Related Agencies. Founded in 
1866, the ASPCA is the first humane organization established in the 
Americas and serves as the Nation's leading voice for animal welfare. 
We request that the subcommittee consider the following concerns when 
making fiscal year 2017 appropriations.
                        wild horses and the blm
    In the 45 years since Congress charged the Bureau of Land 
Management (BLM) with protecting our country's wild horses and burros, 
Americans have witnessed the agency's Wild Horse and Burro Program 
deteriorate into a continuous cycle of roundups and removals with 
little regard for the preservation-focused mandate specified in the 
Wild Free-Roaming Horses and Burros Act. Our wild horses and burros 
should be revered as historical icons, treated humanely, and managed 
fairly and respectfully on our public lands. We appreciate BLM's 
recognition of the great need for reform in the Wild Horse and Burro 
Program. We are encouraged by BLM's interest in incorporating the use 
of on-the-range management methods, such as immunocontraception, and in 
identifying alternatives to the confinement of wild horses in long-term 
holding facilities. However, the implementation of additional 
significant reforms must be immediate and effective.
Prohibit BLM Funding for Euthanasia or Sale of Wild Horses as 
        Management Methods
    In December 2004, Congress passed the Consolidated Appropriations 
Act for fiscal year 2005, which amended the Wild Free-Roaming Horses 
and Burros Act to allow for the sale of certain wild horses and burros. 
This instant transfer of title from the U.S. Government to the 
individual purchaser revokes the animal's status as a protected equine 
and leaves mustangs vulnerable to the still-thriving horse slaughter 
industry. Additionally, in 2008, BLM publicly announced that, for the 
first time, it was considering using its statutory authority to destroy 
old, sick, or unadoptable wild horses and burros by implementing mass 
euthanasia as a population control method. The public uproar that 
followed forced BLM to quickly withdraw the proposal. However, both the 
sale provision and the language allowing for the destruction of wild 
horses and burros remain in the law.
    In September 2012, published reports revealed that since 2009, the 
BLM had sold more than 1,700 captured mustangs--70 percent of the total 
number of animals sold since the program's onset--to a single Colorado 
livestock hauler known to be a longtime kill buyer for the horse 
slaughter industry.\1\ Although BLM has since implemented measures to 
prevent the sale of such a large number of horses to one individual, 
Congress must send a clear message that the slaughter of our Nation's 
wild horses and burros is a gross violation of the Wild Free-Roaming 
Horses and Burros Act. In past appropriations bills, Congress has 
repeatedly confirmed its opposition to the slaughter of our Nation's 
wild horses and burros; it did so most recently in the fiscal year 2016 
Consolidated Appropriations Act, the current funding vehicle for the 
Department of Interior. The President's fiscal year 2017 budget request 
also includes an administrative provision to bar appropriations for the 
euthanasia of healthy horses and their sale to slaughter. The ASPCA 
requests that the subcommittee continue to include the following 
language, present in both the President's budget request and previous 
appropriations bills: ``Appropriations herein made shall not be 
available for the destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors or for the sale of 
wild horses and burros that results in their destruction for processing 
into commercial products.''
---------------------------------------------------------------------------
    \1\ ``All the Missing Horses: What Happened to the Wild Horses Tom 
Davis Bought From the Gov't?'' ProPublica: September 28, 2012.
---------------------------------------------------------------------------
Prioritize On-the-Range Management Over Roundup and Removal
    The Wild Free-Roaming Horses and Burros Act makes clear that on-
the-range management should be preferred over roundup and removal as 
the primary method of wild horse management. BLM has multiple options 
to make that happen.
    The ASPCA realizes that population control is necessary in some 
circumstances, and we appreciate BLM's public acknowledgement that 
fertility control methods must be a significant part of wild horse 
population management. Porcine Zona Pellucida (PZP), the contraceptive 
vaccine that has been used for decades to manage horse and deer 
populations, is registered by EPA and commercially available. In fiscal 
year 2015, BLM administered 469 fertility control treatments, a 
decrease from nearly 1,200 treatments 3 years prior.\2\ If PZP is to be 
a serious part of the solution, its use must be increased to levels 
that will significantly impact population growth. A 2013 National 
Academy of Sciences report noted the promising capabilities of this and 
other forms of chemical fertility control.\3\ The ASPCA recommends that 
the subcommittee direct BLM to prioritize the use of humane, reversible 
fertility control when necessary to stem the population growth of wild 
horse or burro herds.
---------------------------------------------------------------------------
    \2\ ``Wild Horse and Burro Quick Facts.'' U.S. Department of the 
Interior, Bureau of Land Management. March 23, 2016. http://
www.blm.gov/wo/st/en/prog/whbprogram/history_and_facts/
quick_facts.html.
    \3\ ``Using Science to Improve the BLM Wild Horse and Burro 
Program: A Way Forward.'' National Research Council. The National 
Academies Press, 2013.
---------------------------------------------------------------------------
    Included in the administration's fiscal year 2017 budget request is 
an unsettling new proposal from BLM. If included in the Interior 
Appropriations bill, this language would allow for the immediate 
transfer of wild horses and burros as ``working animals'' to State, 
Federal, and local agencies.\4\ This language would set a dangerous 
precedent, allowing for the immediate disposition of any wild equine 
that has been removed from the range. This means thousands of wild 
horses could be instantly stripped of their legal protections and could 
easily fall victim to slaughter, as we know has happened to others in 
the past. Additionally, this language fails to address the program's 
true need--better on-range management of the wild horse population 
through NAS-recommended methods such as immunocontraception. The ASPCA 
strongly encourages the subcommittee to prioritize humane on-range 
management methods as it crafts the fiscal year 2017 Interior 
appropriations bill.
---------------------------------------------------------------------------
    \4\ Department of the Interior Budget Estimate, fiscal year 2017. 
https://www.whitehouse.gov/sites/default/files/omb/budget/fy2017/
assets/int.html.
---------------------------------------------------------------------------
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
                wild free-roaming horses and burros act
    The Bureau of Land Management continues to round up wild horses and 
warehouse them on private lands at great public expense. This is not a 
humane or responsible solution, and this subcommittee has called on the 
BLM to implement humane on-the-range solutions. Since some progress has 
been made, we are concerned that the BLM's proposed $572,000 decrease 
for Wild Horse and Burro Management could put any advances at risk. We 
ask the subcommittee to fund the BLM at fiscal year 2016 levels and to 
urge it to continue exploring more effective and longer lasting 
fertility control agents. We understand the desire to explore 
alternatives to warehousing tens of thousands of healthy wild horses 
but oppose Sec. 110 ``Transfer of Excess Horses'' of the fiscal year 
2017 budget. This language is unnecessary and could result in once-
protected wild horses ending up in slaughter, a practice this 
subcommittee has long opposed. Thousands of healthy and viable wild 
horses, not bound by limitations of the Act, are currently being held 
by the BLM and are already available for sale to other Federal, State, 
and local entities. The subcommittee should encourage the BLM to 
explore this option before changing the Act. Should this option be 
considered, the subcommittee must ensure safeguards are established to 
ensure wild horses sold to other agencies are also protected from 
slaughter. Finally, we strongly support the continued inclusion of this 
``no-kill'' language to ensure that BLM does not kill healthy wild 
horses and burros: Provided, that appropriations herein made shall not 
be available for the sale or destruction of healthy, unadopted wild 
horses and burros in the care of the Bureau or its contractors.
fish and wildlife service--national wildlife refuge system--signage and 
                               reporting
    We support the administration's request of $506.6 million for 
operating and maintaining the National Wildlife Refuge System (NWRS), 
which generates $2.5 billion in economic impacts and $342.9 million in 
tax revenues. To further enhance the NWRS's stated purpose of 
conserving wildlife (including species threatened with extinction), and 
to ensure that National Wildlife Refuges are safe for the millions of 
Americans who visit these public lands each year, we request the 
inclusion of the following report language, which is geared towards 
promoting public safety and greater transparency regarding the use of 
body-gripping traps on wildlife refuges. Currently, over half of the 
System's 563 refuges allow trapping. Steel-jaw leghold traps, 
Conibears, and strangulation snares pose distinct risks to humans, 
wildlife, and other animals (e.g., pets) given their indiscriminate 
nature and the trauma such devices inflict upon individuals or animals 
captured in these traps.
    Trapping Report Language: The Committee directs the Fish and 
Wildlife Service to comply with the following for any refuge unit 
within the National Wildlife Refuge System that allows the use of body-
gripping traps: The Service shall post sufficient signage on the 
physical premises to protect visitors to the refuge, including children 
and pets; the Service shall post notice of any refuge that allows body-
gripping traps on the System Web site and on the Web site of the 
relevant refuge. No later than 1 year after the enactment of this 
legislation, the Service shall submit to the Committee on Natural 
Resources of the House of Representatives and the Committee on 
Environment and Public Works of the Senate a report that provides the 
following information relating to the use of any body-gripping trap in 
the System for the preceding fiscal year: The identification of any 
refuge in which the use of a body-gripping trap was authorized; the 
purpose for such use, such as for management, recreational, or 
commercial purposes; a description of any non-lethal control methods 
used before authorization was granted for management purposes; the 
types of body-gripping traps used; trap-check time requirements; the 
number of Special Use Permit Applications granted, either by Service 
Region or by State, to engage in trapping on a National Wildlife 
Refuge; the number and species of target and non-target animals that 
were captured in body-gripping traps on refuges; and a description of 
any injuries sustained by target and non-target animals caused directly 
or indirectly by the capture in body-gripping traps. The Committee 
encourages the Service to continue collecting the aforementioned data 
and information regarding the use of body-gripping traps in the System 
on an annual basis.
  fish and wildlife service--office of law enforcement--$75.1 million
    The FWS Office of Law Enforcement (OLE) is one of the most 
important lines of defense for wildlife both at home and abroad. OLE 
enforces over a dozen Federal wildlife and conservation laws that 
frequently impact both domestic and global security. Year after year, 
OLE protects the public against the illegal trade in wildlife and 
wildlife products--which ranks third only to the illicit trade in 
narcotics and weapons in terms of global revenue--and the United States 
remains a source of, or destination for, much of this contraband. Even 
those who may not concern themselves with wildlife are reaping benefits 
as OLE protects against smuggling illegal substances and helps to 
thwart potentially devastating human health threats. We support FWS's 
proposed appropriation of $75.1 million for OLE, a modest increase of 
$328,000 over the 2016 enacted level. Ensuring that OLE receives 
adequate funding is crucial in terms of supporting the work of Special 
Agents and Wildlife Inspectors, and enhancing FWS's ability to combat 
wildlife trafficking.
      fish and wildlife service--international affairs--wildlife 
                     trafficking--$500,000 increase
    Combatting increased wildlife trafficking is a high priority for 
the administration and Congress. Congress in particular (with strong 
bipartisan support) has taken important steps in this regard, e.g., the 
House of Representatives passing H.R. 2494, the Global Anti-Poaching 
Act earlier this session. Wildlife trafficking threatens not only 
species conservation, but also global security given its close 
association with terrorism and criminal syndicates. With poaching 
reaching unprecedented levels, domestic and international governments 
and private entities have turned to FWS for leadership in coordinating, 
guiding, and implementing a response. This funding increase will help 
provide financial assistance to projects in foreign countries that 
advance counter wildlife trafficking activities as outlined in the 
National Strategy for Combating Wildlife Trafficking and actions 
articulated in the Implementation Plan. The goal is to continue efforts 
to build further capacity and partnerships for species conservation. 
Such measures are in concert with the aims of the Global Anti-Poaching 
Act and other bills under consideration this Congress, which would 
facilitate partnerships between the U.S. Government and foreign 
countries fighting terrorist organizations and international crime 
syndicates that profit from wildlife trafficking.
                       white-nose syndrome (wns)
    U.S. Fish and Wildlife Service.--$4,500,000 total; $2 million in 
Endangered Species Recovery; $2.5 million in Service Science.
    U.S. Geological Survey.--$1,501,000 in Ecosystems/Wildlife.
    National Park Service.--$3,155,000 in Natural Resource Stewardship.
    Bureau of Land Management.--$500,000.
    U.S. Forest Service.--$2.5 million, Research & Development; 
$500,000, Forest Systems.

    White-nose syndrome (WNS) remains at the root of North America's 
most precipitous wildlife die-off of the past century. The disease is 
caused by an invasive species of fungus, Pseudo-gymnoascus destructans 
(Pd), which thrives in caves and abandoned mines and infects bats 
hibernating there, disrupting their physiological processes. WNS has 
killed at least 6 million bats and has spread to 27 States and 5 
Canadian provinces. WNS has struck seven species, including the 
federally endangered Indiana and gray bats, while the presence of the 
fungus has been confirmed in three more States and five more species, 
including one endangered species. It has reached the ranges of other 
endangered bats, including the Virginia big-eared bat and the Ozark 
big-eared bats, and has the potential to affect 25 of our country's 47 
bat species. Declines due to WNS are so severe that the FWS has 
designated the northern long-eared bat as threatened. The loss of bats 
from WNS has serious implications for our economy and environment. Bats 
are primary predators of night-flying insects, including pests that 
attack corn, soybeans, cotton, and other crops. By eating these pests, 
bats reduce the need for pesticides, lower food production costs, and 
save U.S. farmers an average of $22.9 billion yearly. Bats also aid 66 
plant species that produce timber.
    Thanks to steady Government funding, progress has been made. USFWS 
is the lead agency for WNS response, serving as an umbrella for 
nationwide WNS action on the part of more than 100 Federal, State, 
local, tribal, academic, nonprofit, and other entities. Grants from FWS 
fund research that likely would not occur otherwise. Two recent 
examples are projects spearheaded by teams from the University of 
California-Santa Cruz: one finding evidence of Pd in China, which will 
offer new populations to study for their resistance; and another 
identifying a potentially promising treatment utilizing bacteria that 
occur naturally on bats' skin. In addition, FWS is the largest source 
of funding for State agencies to monitor, manage, and research WNS.
    USGS also plays a critical role in WNS research. In 2006, WNS and 
Pd were unknown to science. Since then, USGS's research has laid much 
of the foundation of our understanding of the disease and continues to 
explore ways to treat WNS. USGS developed a more accurate WNS test for 
bats which, unlike previous methods, does not require euthanizing the 
animals. The agency has expanded surveillance for Pd and WNS through 
sampling of bats and hibernacula and collaborates with State agencies 
to monitor the disease. In 2015, scientists from its National Wildlife 
Health Center and the University of Wisconsin developed an ``energy 
depletion'' model to explain how WNS kills bats. With a view to 
possible treatments, USGS has a number of ongoing projects studying 
Pd's cave environment to identify conditions conducive to and hostile 
to the fungus that might yield natural controls, as well as whether 
other microbes found on bats' skin could mitigate the effects of Pd. It 
is also developing an oral vaccine and is working to identify the best 
delivery method.
    The natural resources of the NPS provide significant challenges for 
WNS management and information-sharing. NPS staff take seriously their 
responsibility to ``safeguard bats, their hibernacula, and maternity 
roosts from WNS . . .'' They conduct bat and disease monitoring in 
NPS's many caves and abandoned mines to inform the nationwide 
understanding of the disease. With the largest number of visitors every 
year, NPS properties play an important role in educating the public 
about WNS, through ranger outreach, visitor infrastructure, and 
multimedia materials. NPS's visitors also heighten the need for the 
agency to prevent human spread of Pd through screening and closures. 
Conducting chemical disinfection for visitors and staff when entering/
exiting caves and abandoned mines has enabled NPS to advance knowledge 
of various decontamination methods. NPS is integrating WNS into all 
staff bat-resource activities; for example, conducting wing swabs for 
WNS is becoming standard procedure whenever NPS staff handle bats. 
Forty-three projects in over 40 parks were to have been completed in 
2015. One in particular had astounding results. A survey conducted at 
Great Smokey Mountain National Park revealed an 85 percent decline in 
the capture rate for one species and a 65 percent decline in the 
capture rate for another.
    With at least 3,000 caves and an estimated 31,000 abandoned mines 
on its lands, the BLM has much work to do on WNS and has never been 
allocated funds for this purpose. Most of BLM's lands, concentrated in 
the western U.S., have not yet suffered from WNS, but the threat is 
moving in that direction. Addressing the disease is therefore necessary 
and urgent, and BLM has begun the task, thanks in part to directive 
language from Congress. To address a paucity of information about bats 
on BLM lands, staff are conducting bat inventories and inspecting bats 
for signs of Pd or WNS, either visually or by swabbing. To minimize the 
risk of Pd spread, the agency has integrated decontamination into 
protocols for personnel who enter caves or abandoned mines and is 
producing educational programming on decontamination for visitors. BLM 
also aims to prevent Pd spread by closing abandoned mines, installing 
gates on other mines and caves to keep people out, and selectively 
closing caves to visitors. Through an internal small-grant program, BLM 
field offices apply for up to $2500, which must be matched by other 
funds, often from State agencies or local NGOs.
    With many land and research resources, e.g., the Center for Forest 
Mycology Research, USFS has been a leader in WNS activities, but it 
needs and deserves a dedicated funding stream to maintain its effort. 
USFS scientists contribute significantly to our understanding of WNS 
and Pd. In 2013, agency researchers taxonomically reclassified the WNS-
causing fungus, laying the foundation for a better understanding of Pd 
with regard to its closely related benign fungi. Furthering this line 
of inquiry, USFS currently is comparing these fungi to pinpoint Pd's 
harmful genes, in the hope of silencing them. USFS is also exploring 
the use of a native soil bacterium to inhibit Pd and improve survival 
of WNS-infected bats. In the spring of last year, FWS released the 
results of a study involving the bacterium Rhodococus rhodochrous, a 
native soil bacterium that inhibits Pd growth. Among diseased bats were 
treated with this bacterium in the lab, there was a 50 percent increase 
in survival, and recovered bats were released last May.
    In response to directive language in fiscal year 2012, USFS wrote a 
WNS science strategy. With those goals accomplished, USFS issued an 
updated strategy in September, the goal of which is to sustain 
functional WNS-affected bat populations through integrated disease 
management. It is estimated that $4.5 million will be needed to 
implement the plan over 4 years. USFS has also developed A Plan for the 
North American Bat Monitoring Program (NABAT), a program to conduct 
coordinated, standardized monitoring of multiple bat species across 
North America to gain reliable data for conservation decisionmaking--
similar to programs for birds and amphibians. USFS also wants to 
develop an ``electronic nose,'' a device that identifies the components 
of an odor and analyzes its chemical make-up to identify it. Pd and WNS 
have ``odors'' (chemical biomarkers) that could be identified by an 
``e-nose,'' thus permitting early detection and application of 
treatments. The e-nose would also enable testing of bats without 
handling them, thus reducing disturbance and stress.
    It is clear that the Forest Service has made and continues to make 
major contributions to our understanding, detection, and treatment of 
Pd and WNS, but it has been doing so at the expense of other programs. 
We believe that the redirection of surplus funds from other accounts 
(such Forest Inventory and Analysis), as well as new funds, are more 
than justified.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation
    I would like to thank the subcommittee for permitting the 
Assiniboine and Sioux Tribes of the Fort Peck Indian Reservation to 
present testimony concerning fiscal year 2017 appropriations for the 
Bureau of Indian Affairs (BIA) and Indian Health Service (IHS). My name 
is Floyd Azure. I am Chairman of the Assiniboine and Sioux Tribes of 
the Fort Peck Reservation. I will focus my testimony today on 
infrastructure, public safety and public health needs for our tribe 
which are largely dependent upon the appropriations of this 
subcommittee to the BIA and IHS. The tribes also express strong support 
for the administration's request for full funding for contract support 
costs for both agencies. We also fully support the administration's 
proposal to make this funding mandatory.
                fort peck reservation rural water system
    Congress has long recognized that the foundations for economic 
development and prosperity in Indian country lay in community stability 
which begins with infrastructure such as safe drinking water, roads and 
utilities.
    This is why we strongly support the administration's $2.262 million 
request for the Operation and Maintenance (OM&R) funding for the Fort 
Peck Reservation Rural Water System for fiscal year 2017. This funding 
is essential for this system to operate, which now provides drinking 
water to more than 15,000 residents in Northeast Montana and several 
social and governmental agencies, including the BIA Agency Office, 
Poplar Schools, and Poplar hospital.
    More than 20 years ago, the tribes realized that a new water source 
was necessary to ensure the health of our people. Located on a former 
inland sea with a high saline content, coupled with unprecedented 
contamination from oil production, water on the reservation and the 
surrounding communities is not safe for human consumption. To ensure 
our future, we sought to find another water source for our people. 
Congress agreed and in 2000 enacted the Fort Peck Reservation Rural 
Water System Act to build a modern rural water system for the 
Reservation (Assiniboine and Sioux Rural Water System) and to assist 
the off-reservation communities in Roosevelt, Sheridan, Daniels and 
Valley Counties (Dry Prairie Rural Water Authority) build a rural water 
system that would ``interconnect'' with the tribes.
    We are more than 60 percent complete and the project now serves 
more than 70 percent of the reservation population with safe, reliable 
drinking and industrial water. The statute requires that the OM&R of 
the Assiniboine and Sioux Rural Water System--the portion on the 
reservation that is held in trust by the Federal Government--be paid in 
full by the BIA as a Federal obligation. This is consistent with the 
Federal trust responsibility to the tribes, who were promised a 
permanent home when we agreed to move to the reservation. A permanent 
home requires safe drinking water.
    To date, the Federal Government has invested $180 million in 
constructing the Fort Peck Reservation Rural Water System. The 
Assiniboine and Sioux Rural Water System components--the ``common 
facilities''--must be maintained. The entire system is dependent upon 
the safe and proper operation of common facilities which includes the 
Missouri River intake, the pumping system, the water treatment plant, 
sludge lagoon, and miles of main transmission lines running east-west 
and north-south within our 2 million acre reservation. Adequate funding 
of the operation and maintenance of our ``common facilities'' will 
extend the useful life of this vita infrastructure project. Thus, the 
$2.2 million requested for the OM&R of this project is critical. If 
Congress does not appropriate the required funds for OM&R, then this 
System will not operate and the people of northeast Montana will have 
no drinking water.
                   public safety and drug trafficking
    The reservation lies immediately west and north of the Bakken and 
Three Forks Formation and we are already witnessing the economic 
impacts of oil and gas development in this region. With rapid 
development come social ills in the form of increased criminal 
activity, including methamphetamine use, prescription drug abuse and 
addiction, which are reversing the downward trend our tribal police 
achieved through effective policing techniques, task force 
collaboration and effective education campaigns.
    Six years ago, through effective policing techniques, our Chief of 
Police was seeing a reduction in methamphetamine use on our 
reservation, but over the last few years it has returned with a 
vengeance. The growing population working in the Bakken formation has 
created an easy source of meth on our reservation. This problem must be 
attacked on all fronts: law enforcement; treatment; and improved social 
services. This is why we support the President's Generation Indigenous 
Initiative as a comprehensive interagency response to the challenges 
facing Indian country, but so much more needs to be done if we are to 
reverse substance abuse.
A. Law Enforcement
    There is no greater need in Indian County than public safety and 
justice and these programs cannot be sacrificed for any purpose. Our 
police chief estimates that 70-80 percent of criminal conduct has a 
drug component to it, with assaults and burglaries arising out of drug 
use and addiction. The BIA's own statistics are alarming; over a 5 year 
period, drug related arrests in Indian Country increased nearly 10-fold 
from 443 arrests in fiscal year 2008 to 4,289 arrests in fiscal year 
2013. Our tribal police department has 18 police officers, two 
dedicated to drug enforcement, three criminal investigators, and we 
share dispatchers with Roosevelt County. Our Police Chief said he could 
use six drug enforcement agents to help with the rising workload. The 
needs of our community and those throughout Indian Country cry out for 
increase law enforcement and justice funding. We urge you to reject the 
administration's proposal to cut law enforcement funding.
B. Social Services
    In the last year, we have had too many infants born addicted to 
meth. These infants must be placed in foster in families. This causes 
tremendous stress on our social services program. The administration's 
$53 million request for tribal social service programs and the $19 
million requested for Indian Child Welfare programs will help meet this 
need. In addition, the $30 million requested for tribal courts will 
also ensure that our children are safer as these institutions will have 
additional resources to supervise and monitor the children in their 
care.
C. Detention Services
    The Fort Peck Tribes completed a modern detention facility to serve 
the reservation and other tribes. This allows for inmates to be close 
to their homes and families. It will do a great deal to ensure 
continuity in our families. Beyond not requesting additional funds for 
law enforcement personnel, the budget does not request sufficient funds 
for the operation of BIA or tribally operated detention facilities that 
were opened in the last 2 years, like Fort Peck.
    The tribes worked with the BIA office of Justice Services when we 
were building this new detention facility, including on the staffing 
and operations costs. The tribes entered into a contract with the BIA 
for the operation of this facility. And while we received some funding 
associated with this contract, it is approximately 30 percent of what 
we negotiated with the BIA to have a fully functional detention center. 
When we expressed concern, the BIA officials said that the tribes would 
be made whole in fiscal year 2016. This did not happen last year. We 
ask you do this so that we can continue to provide safe and secure 
detention services in our community and protect the tribal and Federal 
investment.
                            road maintenance
    By its own admission, the administration's funding request for the 
Road Maintenance Program for fiscal year 2017 will permit tribes to 
maintain only 16 percent of BIA-owned roads and 62 percent of BIA-owned 
bridges in ``acceptable'' condition. This leaves 8 out of 10 BIA-owned 
roads and nearly 4 out of 10 BIA-owned bridges with funds to maintain 
them in their current poor or failing condition. This is a safety 
issue. Most of these routes are gravel and earthen school bus routes 
that require more frequent maintenance than paved roads. We urge the 
subcommittee to add at least an additional $9 million to the Road 
Maintenance Program out of planned increases for the Interior 
Department for fiscal year 2017. Doing so will increase the percentage 
of BIA-owned roads and bridges maintained to an ``acceptable'' 
condition.
                         indian health service
    We continue to build government services and programs on the 
reservation and attract businesses to improve the quality of life for 
our members. The IHS operates two clinics on the reservation; the Verne 
E. Gibbs IHS Health Center in Poplar, and the Chief Redstone IHS Health 
Center in Wolf Point. In-patient services are available at the non-IHS 
Poplar Community Hospital and Trinity Hospital in Wolf Point. To combat 
the high incidence of heart disease, cancer and diabetes, the tribes 
supplement health services on the reservation through our Health 
Promotion and Disease Prevention (HPDP) Wellness Program, the Spotted 
Bull Resource and Recovery Center, and nursing services for a Youth 
Detention Center, which we operate pursuant to an ISDA contract with 
the IHS.
    The tribes' focus on preventative care is the reason we so strongly 
support the requested increase of $48 million for Purchased and 
Referred Care. This level of funding will allow more Service Units to 
move beyond life or limb coverage, and provide a fuller range of 
healthcare services, instead of crisis care. Everyone agrees that 
focusing on the health of a person instead of crisis care will improve 
the health status of our people.
    One area I would ask the subcommittee to address in its report is 
that for many of our people who have insurance, whether it be private, 
Medicaid, or Medicare, the Service Unit at Fort Peck will not refer 
people out for anything but life or limb care. Thus, even if someone 
has the ability to cover the cost of a procedure, like gall bladder 
surgery, the person's primary provider, who is at the Service Unit, 
will not refer them out. If the person gets the gall bladder surgery, 
the IHS will not pay the copay or the deductible because they did not 
meet the life or limb criteria. Many of our tribal members, who have 
insurance, are the working poor. They cannot pay these obligations, 
which are often times substantial. Thus, they consequently get referred 
to collections. I would ask that the subcommittee direct the IHS to 
reconsider its business practices, because waiting until someone is at 
life or limb stage to address a health issue makes neither good 
economic or healthcare sense. It would make more sense to pay the copay 
and deductible before someone gets dangerously ill.
    We are disappointed that the Indian Health Service has yet to 
implement a portion of the Indian Health Care Improvement Act that 
allows the IHS to provide dialysis services to patients. More than 20 
years ago, the Fort Peck Tribes recognized the need for dialysis 
services on our reservation and built and opened a dialysis clinic on 
the reservation. This was without any assistance by the IHS because, at 
that time, the IHS said it did not have the authorization to provide 
these services. Today, this facility needs to be expanded, and now the 
IHS has the authority to provide dialysis services. However, the IHS 
has not requested any funding from Congress to do so. We would urge the 
subcommittee to direct the IHS to provide an update on how it plans to 
expand its role in providing dialysis care in Indian Country, 
especially in tribal communities such as on our reservation where 
existing dialysis treatment is overburdened.
                               conclusion
    We thank the subcommittee for the opportunity to present written 
testimony concerning the President's fiscal year 2017 budget.
                                 ______
                                 
 Prepared Statement of the Association for Fire Ecology, International 
 Association of Wildland Fire, Tall Timbers Research Station and Land 
                Conservancy, and The Nature Conservancy
  joint fire science program funding is vital for managing wildfires 
                      safely and cost-effectively
    The undersigned leading professional wildland fire organizations in 
the Nation and the world are seriously concerned with the proposed cut 
and a new funding process for the USDA Forest Service's (USFS) Joint 
Fire Science Program (JFSP). The clear current wildfire trend is more 
acres burned, higher severity, and on more days each year, raising our 
challenge to apply resources in a wise, science-based manner. We 
respectfully request that the USFS JFSP be funded at $7 million through 
the Wildland Fire Management budget. We additionally request that the 
Department of the Interior Joint Fire Science program be funded at $6 
million.
    The USFS JFSP has a relatively small budget for a program that 
successfully yields important results which are directly and widely 
applied across a broad geographic landscape. These tools and technology 
products support the fire risk reduction community that help track the 
effectiveness of Forest Service programs, such as vegetation management 
and hazardous fuels reduction. Their applied research supports 
resilient landscapes and communities, and provides key information on 
wildfire mitigation impacts on water quality, atmospheric emissions, 
and other natural resources and ecosystem services. We are concerned 
about the zeroing out of this program under Wildland Fire Management in 
exchange for funding a smaller portion from the already-constrained 
Forest & Rangeland Research budget. Restoring the USFS funding 
mechanism under Wildland Fire Management and ensuring an appropriated 
level of $7 million would help to address the urgent need to maintain 
and further important research.
                          maintaining research
    The JFSP is a research program that builds on a 15+ year commitment 
to focusing research questions on the needs and objectives of fire 
managers. As such, JFSP serves as an independent and vital research arm 
of the broader efforts to safely and efficiently manage wildland fire 
on all ownerships. Additionally, JFSP:

  --Generates priorities based on the expressed needs of managers and 
        local land units, maximizing their relevance and effectiveness 
        in improving fire management. This need-driven priority focus 
        frees it from alternative priorities and mandates of any 
        individual agency and ensures funded research is directly 
        applicable to managers.
  --Draws its strength and relevance from being truly collaborative and 
        interdisciplinary--by engaging Federal and university 
        scientists, land/resource managers and multiple stakeholders in 
        advancing the field of fire science. This is vital for a 
        profession in which fire knows no bureaucratic boundaries.
  --Serves as an international forum for information and technology 
        exchange particularly important in the face of global climate 
        change.
                        more research, not less
    Wildland fire management requires a significant investment from 
Federal agencies, in particular the USFS. Currently, JFSP is only 1 
percent of the total Wildland Fire Management budget. For an agency 
with approximately half of its budget focused on wildland fire 
management, it makes fiscal sense to invest in a research program like 
the JFSP in order to understand the science of fire management, fire 
prevention, and landscape-scale climate impacts.
    With continued and even expanded funds for cutting-edge research, 
we could expect to pioneer safer and less costly methods to manage 
fires on public lands, thus earning long-term cost savings.
                    current policy supports research
    The Federal Wildland Fire Management Policy states as two of the 
guiding principles:

  --``Fire management plans and activities are based upon the best 
        available science.''
  --``Knowledge and experience are developed among all wildland fire 
        management agencies. An active fire research program combined 
        with interagency collaboration provides the means to make this 
        available to all fire managers.''

    The National Cohesive Wildland Fire Management Strategy states as 
one of the guiding principles and core values:

  --``Fire management decisions are based on the best available 
        science, knowledge, and experience, and used to evaluate risk 
        versus gain.''

    Fully funding JFSP is one of the few ways to achieve these goals 
and sustain scientific and technological innovations that are critical 
for the vitality of wildland fire management and for expansion of 
knowledge and skill.
    We urge you continue to fund the USFS JFSP at $7 million under the 
Wildland Fire Management budget and additionally the DOI JFSP at $6 
million. These levels and funding structures would emphasis Congress' 
commitment to the continued development of research tools that have 
greatly improved our success in managing wildland fire in the past and 
which are needed even more so in the future.

Dr. Leda Kobziar
President, Association for Fire Ecology

Tom Zimmerman
President, International Association of Wildland Fire

Dr. William Palmer
President/CEO, Tall Timbers Research Station and Land Conservancy

Cecilia Clavet
Senior Policy Advisor on Fire and Forest Restoration, The Nature 
Conservancy
                                 ______
                                 
     Prepared Statement of the Association of Art Museum Directors
    The Association of Art Museum Directors (AAMD) respectfully 
requests funding of $155 million each for the National Endowment for 
the Arts (NEA) and the National Endowment for the Humanities (NEH) for 
fiscal year 2017. We also ask that the subcommittee provide the U.S. 
Fish and Wildlife Service (FWS) with the funding necessary to staff and 
train personnel in order to avoid placing any additional impediments on 
American art museums that are importing works of art containing ivory 
for the purposes of temporary public exhibition.
                  arts and artifacts indemnity program
    AAMD again thanks the subcommittee for revising the statutory caps 
for international and domestic arts exhibition indemnity agreements 
under the Arts and Artifacts Indemnity Act, which is administered by 
the NEA on behalf of the Federal Council on the Arts and the 
Humanities, of which both NEA and NEH are members. Participating AAMD 
members reported saving an average of more than $650,000 in insurance 
fees in 2015. A partial list of examples of indemnified exhibitions 
that may be of particular interest to members of the subcommittee 
includes:

    1.  ``Of Heaven and Earth: 500 Years of Italian Painting from 
Glasgow Museums'' at the Santa Barbara Museum of Art.
    2.  ``Portrait of an English Country House: Houghton Hall'' at 
Frist Center for the Visual Arts (Nashville, Tennessee).
    3.  ``Gods and Heroes: Masterpieces from the Ecole des Beaux-Arts, 
Paris'' at Portland Art Museum (Oregon).
    4.  ``The Paintings of Sir Winston Churchill'' at Mildred Lane 
Kemper Museum of Art (Saint Louis, Missouri).
    5.  ``America's Eden: Thomas Cole and The Voyage of Life'' at Dixon 
Gallery and Gardens (Memphis, Tennessee).
    6.  ``When Modern Was Contemporary: Selections from the Roy R. 
Neuberger Collection'' at Mississippi Museum of Art and The Albuquerque 
Museum of Art and History.
                    national endowment for the arts
    As stated above, AAMD requests that Congress appropriate $155 
million for the NEA. The agency continues to make modest but important 
grants that leverage significant private support, disseminate best 
practices, and foster innovation.
    For example, the Boise Art Museum received a grant to support an 
exhibition related to the Minidoka National Historic Site, a World War 
II Japanese internment camp in Idaho. This project comprises an 
exhibition of artwork created at the camp or created by artists who 
have a personal connection with the Minidoka incarceration experience, 
such as Takuichi Fujii (1892-1964), Kenjiro Nomura (1896-1956), Teresa 
Tamura (b. 1960), Roger Shimomura (b. 1939), and Wendy Maruyama (b. 
1952). To engage visitors of all ages with the Minidoka National 
Historic Site, educational programming will take place at Boise Art 
Museum, at the national park site, and at Boise State University (BSU). 
The exhibition is scheduled to coincide with the annual Civil Liberties 
Symposium at BSU.
    The director of the museum, Melanie Fales, explained the 
significance of the NEA's support:
    ``BAM is sensitive to the fact that people have mixed feelings 
regarding the actions of the U.S. Government during World War II. We 
want to facilitate the opening of a dialogue about the events that 
occurred in our State during that time. The museum is not taking a 
stance, rather we intend to present a safe space for artists and 
audience members to discuss the events that took place, focusing on the 
artistic process of documentation and response. We want to present a 
balanced approach to a challenging topic. For topics such as this, 
which can be considered potentially controversial, it is not always 
possible to garner funding from local sources. The significance of this 
discussion is evident at a national level, and we are grateful to the 
NEA for recognizing its value. This funding makes it possible for the 
museum to carry out the project for the benefit of our community and 
country.''

    Examples of recent grants listed on the NEA's Web site include:

    1.  To support an exhibition at the Anchorage Museum featuring 
indigenous artists and focusing on contemporary indigenous issues in 
the north.
    2.  To support shipping and loan costs for the exhibition 
``Multiplied: Edition MAT and the Transformable Work of Art, 1959-
1965'' at the Mildred Lane Kemper Art Museum in St. Louis.
    3.  To support an exhibition at Kemper Museum of Contemporary Art 
in Kansas City of work by contemporary artists.
    4.  To support the exhibition ``Phantom Bodies: The Human Aura in 
Art,'' at the Frist Center for the Visual Arts in Nashville, and 
accompanying catalogue.
    5.  To support reinstallation of the New Orleans Museum of Art's 
Spanish Colonial collection, and accompanying catalogue.
    6.  To support the exhibition ``Jewel City: Art of the Panama-
Pacific International Exposition'' at the de Young Museum in San 
Francisco, with an accompanying catalogue.
    7.  To support a professional development program for artists at 
the RISD Museum in Providence.
    8.  To support the Northwest Filmmaker's Festival and related 
programming at the Portland Art Museum.

    AAMD commends NEA for its commitment to the Blue Star Museums 
initiative, now in its seventh year. AAMD members have responded with 
overwhelming enthusiasm to Chairman Chu's invitation to offer free 
admission to active duty military and their families at least from 
Memorial Day through Labor Day. In 2015, approximately 90 percent of 
AAMD members in the United States either formally joined the program or 
already offered free admission to all.
                 national endowment for the humanities
    As stated above, AAMD requests that Congress appropriate $155 
million for the NEH.
    This important agency assists art museums in presenting humanities 
scholarship to the general public. It also plays an invaluable role in 
assisting with the preservation and conservation of important 
collections. This is exactly the type of unglamorous work for which it 
is chronically difficult to raise private funding, making Federal 
support all the more valuable.
    AAMD commends the NEH for two initiatives in particular. The Common 
Good is designed to demonstrate the critical role that humanities 
scholarship can play in public life. This is especially suitable for 
museums, which have developed expertise in presenting complex ideas to 
non-specialists. Standing Together, the Humanities and the Experience 
of War, supports programs that explore war and its aftermath, promote 
discussion of the experience of military service, and support returning 
veterans and their families. Taken in tandem with Blue Star Museums, 
this program clearly demonstrates the commitment of the two agencies to 
both veterans and active duty military.

    A few of the agency's grants to art museums include:

    1.  To the Santa Barbara Museum of Art to perform an on-site 
preservation and condition assessment of 800 paintings.
    2.  To the Palm Springs Art Museum to conduct an assessment of 
architectural drawings, blueprints, renderings, and archival documents 
within the permanent collection.
    3.  To the Jordan Schnitzer Museum of Art at the University of 
Oregon to improve long-term preservation of 156 oversize objects and 
increase scholarly research and public use of these collections.
                     u.s. fish and wildlife service
    The AAMD has had extensive conversations with the Fish and Wildlife 
Service (FWS) about the importance of presenting works of many cultures 
to the American public, works that without temporary exhibitions, 
Americans would never see. These works, entrusted to our museums from 
both foreign museums and foreign private collectors, are fragile, 
invaluable and represent the highest professional quality. American 
museums borrowing these works must be assured that the works can move 
quickly, safely and be fully protected.
    This is especially true when moving works of art, made in whole or 
in part of ivory, through designated ports as called for in the 
Director's Order 210 issued February 25, 2014. The Director's Order 210 
imposed strict requirements on importing works of ivory from abroad, 
with which museums are struggling to comply.
    Unfortunately, the FWS has limited capacity to staff and train 
personnel at the designated ports to process works of ivory for special 
exhibitions. There must be sufficient staff to ensure that the works 
move in accordance with professionally accepted procedures and the new 
requirements at the speed that a temporary exhibition requires. The 
AAMD urges the subcommittee to provide FWS with the funding necessary 
to staff and train personnel in order to avoid placing any additional 
impediments on American art museums.
                               about aamd
    The purpose of the Association of Art Museum Directors is to 
support its members in increasing the contribution of art museums to 
society. The AAMD accomplishes this mission by establishing and 
maintaining the highest standards of professional practice, serving as 
forum for the exchange of information and ideas, acting as an advocate 
for its member art museums, and being a leader in shaping public 
discourse about the arts community and the role of art in society.
                                 ______
                                 
 Prepared Statement of the Association of Community Tribal Schools Inc.
    My name is Tom Miller; President of the Association of Community 
Tribal Schools Inc. (ACTS) and Superintendent of Hannahville Indian 
School in Michigan. We want to thank you for the fiscal year 2016 
appropriations.
    The tribal school movement started in 1966 with Rough Rock 
Demonstration School in Arizona. Currently there are over 30,000 
students in 129 tribal elementary and secondary schools. The schools 
are in the States of Maine, Florida, North Carolina, Mississippi, 
Louisiana, South Dakota, Minnesota, North Dakota, Michigan, Iowa, 
Wisconsin, Kansas, Wyoming, Oklahoma, Montana, California, Washington, 
Idaho, Nevada, Arizona, and New Mexico. ACTS represents a significant 
number of the students in the 129 tribally controlled elementary and 
secondary schools. ACTS's mission is to ``assist community tribal 
schools toward their mission of ensuring that when students complete 
their schools they are prepared for lifelong learning and that these 
students will strengthen and perpetuate traditional tribal societies.''
    The following charts illustrate the revenues over the last few 
years and the proposed fiscal year 2017 appropriations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            requested action
    1.  Divert BIE-Elementary/Secondary Programs--ISEP Program 
Adjustments and Education Program Enhancements to ISEP, Transportation, 
etc. These funds often used to continue paternalistic practice of 
telling tribes and schools what is best for their children.--
($17,472,000)
    2.  Increase Early Child and Family Development (.70 WSU).--
$15,000,000
    3.  Continue to annually increase, by 2 percent, these accounts for 
next 3 (fiscal year 2018, 2019, 2020) years:

 
 
 
BIE-Elementary/Secondary Programs--ISEP                      $ 8,000,000
BIE-Elementary/Secondary Programs--Facility Operations       $ 2,000,000
BIE-Elementary/Secondary Programs--Facilities Maintenance    $ 2,000,000
BIE-Elementary/Secondary Programs--Student Transportation    $ 2,000,000
BIE-Elementary/Secondary Programs--Grant Support Costs       $ 1,400,000
                                                            ------------
                                                             $15,400,000
 

    4.  Construction--Education Construction. The BIA reported a nearly 
$75,000,000 annual facility deterioration rate, $388 million in 
deferred maintenance and, also reports a $4.4 billion school 
replacement value.

     Annual Need:

 
 
 
Replacement School Construction                              $65,000,000
Replacement Facility Construction                            $25,000,000
Employee Housing Repair and Replacement                      $10,000,000
Facility Improvement and Repair                              $90,000,000
 


     Add this Administrative Provision:

         -- The BIE will accept new school and expansion applications 
from federally recognized tribes and tribal organizations. This will 
help determine the feasibility of allowing more BIE funded schools for 
possible fiscal year 2019 consideration.
         -- The BIE is not to be considered a State education agency, 
prefer the tribal education departments.
                                 ______
                                 
 Prepared Statement of the Association of Navajo Community Controlled 
                           School Board, Inc.
    The Association of Navajo Community Controlled School Board 
(ANCCSB), Inc. is an organization of 11 member school boards who 
operate federally funded schools on the Navajo Reservation in Arizona 
and New Mexico under contracts or grants from the Bureau of Indian 
Education (BIE).
    We would like to take the opportunity to thank this subcommittee 
for making Indian Education a bi-partisan priority. We are deeply 
grateful for the substantial increases in funding for Indian Education 
in fiscal years 2015 and 2016. These increases were desperately needed 
to fund such basic things as text books and student transportation. 
Providing consistent and adequate funding for core functions means that 
we as educators and administrators can focus on providing our students 
with a world class education instead of worrying about how we can 
afford to heat our classrooms during the winter or whether these 
classrooms are safe to occupy. Looking at the administration's request 
for fiscal year 2017, we are grateful to see a commitment to maintain, 
and in some cases build upon, the gains of the last 2 years. We 
highlight below some of the budget categories that directly impact our 
schools' educational programs, facilities, student transportation, and 
administrative management.
                       tribal grant support costs
    Since the 1988 Elementary and Secondary Education Act 
reauthorization, tribally operated elementary and secondary schools 
have received funding for the administrative expenses incurred for the 
operation of BIE-funded schools through an Administrative Cost Grant, 
now called Tribal Grant Support Costs (TGSC). These funds are used for 
costs of essential services such as contract/grant administration; 
program planning and development; human resources; insurance; fiscal, 
procurement, and property management; required annual audits; 
recordkeeping; and legal, security and other overhead services. Tribal 
Grant Support Costs are the tribally operated schools' Contract Support 
Costs.
    Impact. In fiscal year 2016, Tribal Grant Support Costs were fully 
funded for the first time. In previous fiscal years when TGSC 
appropriations had been insufficient to meet the level of need without 
other sources of funding, we had been forced to re-direct more and more 
funds from our education program budgets to cover essential 
administrative costs. Our schools were forced to make difficult 
decisions--such as delaying purchase of new textbooks and other 
materials, paying non-competitive teacher salaries, reducing the number 
school days--to fit within these reduced budgets. Even with these cost-
saving measures, some schools were still struggling with further 
reductions in management and business-office personnel at the risk of 
prudent internal controls and meeting the federally mandated 
requirements for fiscal processes and operation of education grants/
programs. Since TGSC is forward-funded, the fiscal year 2016 
appropriation provided TGSC funds for school year 2016-17.
    We are grateful that this year the administration again proposes to 
follow through on commitments to pay full TGSC funding for all BIE-
funded schools, and to include in its request sufficient funding for 
schools that are deciding to transition to grant or contact school 
status. ANCCSB applauds this subcommittee's and the administration's 
decision to treat schools' support costs the same as contractors with 
the BIA and the IHS.
    Request. We fully support the administration's proposal that TGSC 
and startup costs be funded at $75.3 million, and request that this 
subcommittee support this level of funding.
                 facilities operations and maintenance
    Facilities Maintenance funds are intended to provide for the 
preventative, routine, and unscheduled maintenance for all school 
buildings, equipment, utility systems, and ground structures. We are 
very grateful for the $7 million increase we saw in this budget 
category in fiscal year 2016 and encouraged that the fiscal year 2017 
request for a $3 million increase would build upon these gains. This is 
a marked improvement from years past and while it would not meet all 
the needs of our schools, it will certainly help.
    There are numerous studies which attest to the fact that there is a 
close correlation between poor or inadequate facility conditions and 
poor student and staff performance. According to the administration's 
fiscal year 2017 request, 55 of the 183 BIE-funded schools and 
dormitories (one-third) are still rated in ``poor'' condition in the 
Bureau's Education Facility Condition Index (FCI). Further, the 
administration's fiscal year 2017 request elaborates that there is 
$388.9 million in deferred maintenance backlogs! It is clear that there 
is a long way to go with regard to upkeep of our schools. Part of the 
maintenance problem will be solved by replacing school wholesale, but 
Federal resources for this crucial need must increase so our schools 
buildings can make it to their replacement date.
    Facilities Operations funding is for the ongoing operational 
necessities such as electricity, heating fuels, custodial services, 
communications, refuse collection and water and sewer service. This 
budget category also saw a $7 million increase in fiscal year 2016 
along with a $3 million requested increase above that for fiscal year 
2017. This is another budget category that has been severely 
underfunded in years past and we are encouraged to see the proposed 
increase.
    Impact. Our schools are making every effort to make do with very 
modest facilities funding. Since we cannot delay paying our utilities 
or avoid taking actions that would impact student safety, we often have 
to resort to using our other education or academic program monies. We 
caution that insufficient funding to for facilities maintenance and 
operations will mean delaying routine, as well as unscheduled, 
maintenance of buildings, equipment, utility systems and grounds--
thereby jeopardizing student and staff safety. Attempts to moderate 
electrical and/or heating costs, or reduce custodial and refuse 
services and similar costs cutting measures would only make our already 
compromised learning conditions more uncomfortable and unhealthy for 
students and staff. If we cannot provide a decent learning environment, 
how can we expect our students to focus on achieving academic success?
    Request. The administration states that the $59 million requested 
for Facilities Maintenance and the $66.2 million requested for 
Facilities Operations would fund 78 percent of calculated Facilities 
Operations and Maintenance need across BIE-funded schools. We 
respectfully ask that the subcommittee consider funding 100 percent.
                         student transportation
    The Student Transportation account is intended to cover: (1) the 
costs of the daily bus services for children attending the BIE-funded 
elementary and secondary schools; and (2) air travel for children who 
attend distant boarding schools. School transportation costs include 
vehicle rental (buses, vans), maintenance and repair, fuel, and 
qualified bus driver salaries. The BIE budget justification states that 
students at BIE-funded schools travel 16 percent of their miles on 
unimproved roads, and that the BIE-funded schools have transportation 
routes where the mileage covered is ``significantly higher than in 
metropolitan areas.''
    For the schools located on the Navajo Reservation, the percentage 
of unimproved roads traveled by our buses is much higher and in some 
cases it can be as much as 90 percent. Further, these unpaved roads are 
often subject to becoming ``washboards'' due to adverse weather impacts 
such as mud and snow. At times these roads become impassable so we must 
resort to using 4-wheel drive vehicles to ferry the students to a 
waiting bus. There have been times, however, when even the 4-wheel 
vehicles cannot reach the students so they are prevented from making it 
to class through no fault of their own. These conditions take a 
tremendous toll on vehicles, resulting in greater maintenance and 
repair costs, and greatly increase student travel time as well as the 
drivers' work day.
    From our experience, the 66 BIE-funded schools on the Navajo 
Reservation must supplement our Student Transportation allocated 
amounts by at least $70,000 to $100,000 each year. The best estimates 
show that there is a $21 million shortfall in funding for Student 
Transportation as the BIE has allowed funding to fall far behind need, 
and has been willing to allow schools to poach other school funds for 
transportation purposes.
    Impact. As with the other program shortages, varied cost cutting 
measures have been instituted--from reducing the number of bus routes 
(resulting in longer rides for our students) to delaying vehicle 
replacements as long as possible. Nonetheless, underfunding Student 
Transportation will continue to adversely impact classroom programs 
since each year schools have no choice but to use scarce education 
program dollars to subsidize transportation costs.
    Request. We are relieved to see that the administration is 
requesting a $4 million increase for this critical budget category but 
we respectfully request that the subcommittee consider providing at 
least $73 million for Student Transportation in the BIE system.
        indian school equalization program (isep) formula funds
    The Indian School Equalization Program (ISEP) Formula is the core 
budget account for Educational and Residential programs of the BIE 
elementary and secondary schools and dormitories. These funds are used 
for instructional programs at BIE-funded schools and include salaries 
of teachers, educational technicians, and principals. The amount 
provided to each school is determined by a statutorily mandated formula 
established by regulation.
    During the 8-year period of fiscal year 2003 to fiscal year 2010, 
the ISEP Formula account increased by almost $45.5 million; but in only 
two of those years--fiscal year 2009 and fiscal year 2010--the increase 
was actually an increase in program funding. For the other years, the 
requested increases were limited to amounts needed for fixed costs and 
related changes, as opposed to actual program increases. Funding for 
ISEP began to fall in fiscal year 2011, and the fiscal year 2015 level 
was actually $5 million less than in fiscal year 2010.
    Impact. For most BIE-funded schools, the chronic shortfall in the 
other key school accounts has a negative impact on ISEP Formula 
funding, because ISEP Formula funds are often diverted to make up the 
shortfalls in other accounts such as Student Transportation, 
Facilities, and Tribal Grant Support Costs when a tribe or tribal 
school board has no other source of funding to satisfy those 
shortfalls. This means fewer dollars are available for the education. 
We are tremendously grateful that Congress has increased funding for 
these critical accounts so ISEP Formula funds can be used for their 
intended purpose.
    Request. The administration's request for a $6.5 million increase 
would be very helpful but it still does not acknowledge the shortfalls 
that have been building for years. ANCCSB Member Schools respectfully 
request a total of $431 million for this critical budget category.
                         education construction
    We are very grateful for the substantial increase that Congress 
provided for Education Construction in fiscal year 2016. We are pleased 
to see that the fiscal year 2017 request would maintain this level of 
funding. Providing consistent funding for this budget category each 
fiscal year means that our aging schools can be replaced in an orderly, 
scheduled fashion.
                               conclusion
    Thank you Chairman Murkowski, Ranking Member Udall, and members of 
this subcommittee for the opportunity to relay our needs to you.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
          Universities (APLU) Board on Natural Resources (BNR)
    On behalf of the APLU Board on Natural Resources (BNR), we thank 
you for your support of science and research programs within the United 
States Geological Survey (USGS). We appreciate the opportunity to 
provide recommendations for the following programs within USGS: $9 
million for the Water Resources Research Institutes and $20 million for 
the Cooperative Fish and Wildlife Research Units.
    APLU BNR requests $9 million for the Water Resources Research 
Institutes (WRRI). The APLU BNR request is based on the following: 
$7,500,000 in base grants for the WRRI as authorized by Section 104(b) 
of the Water Resources Research Act, including State-based competitive 
grants; $1,500,000 to support activities authorized by section 104(g) 
of the Act. Federal funding for the WRRI program is the catalyst that 
moves States and cities to invest in university-based research to 
address their own water management issues. State WRRIs take the 
relatively modest amount of Federal funding appropriated, match it 2:1 
with State, local and other funds and use it to put university 
scientists to work finding solutions to the most pressing local and 
State water problems that are of national importance. The Institutes 
have raised more than $16 in other funds for every dollar funded 
through this program. The added benefit is that often research to 
address State and local problems helps solve problems that are of 
regional and national importance. Many of the projects funded through 
this program provide the knowledge for State or local managers to 
implement new Federal laws and regulations. Perhaps most important, the 
Federal funding provides the driving force of collaboration in water 
research and education among local, State, Federal and university water 
professionals. This program is essential to solving State, regional and 
inter-jurisdictional water resources problems. As USGS itself has 
stated: ``The Water Institutes have developed a constituency and a 
program that far exceeds that supported by their direct Federal 
appropriations.''
    The institutes also train the next generation of water resource 
managers and scientists. Last year, these institutes provided research 
support for more than 1,400 undergraduate and graduate students at more 
than 150 universities studying water-related issues in the fields of 
agriculture, biology, chemistry, earth sciences, engineering and public 
policy. Institute-sponsored students receive training in both the 
classroom and the field, often working shoulder-to-shoulder with the 
top research scientists in their field on vanguard projects of 
significant regional importance.
    In addition to training students directly, Water Resources Research 
Institutes work with local residents to overcome water-related issues. 
For example, the California Institute for Water Resources, like most of 
its peers, holds field days, demonstrations, workshops, classes, 
webinars, and offers other means of education in an effort to transfer 
their research findings to as many users as possible. Outreach that 
succeeds in changing a farmer's approach to nitrogen application or 
reducing a homeowner's misuse of lawn treatments can reduce the need 
for restrictive regulation.

    Below are some examples of work being done in various States:

  --The current drought in California is creating serious economic 
        hardship for agricultural producers and local communities. The 
        University of California's (UC) California Institute for Water 
        Resources (CIWR) has responded by creating an information hub 
        that is being accessed by agricultural and urban interests to 
        gain vital information on how to adapt during the drought. This 
        hub contains valuable information from multiple units within 
        the UC system. It also brings together information on workshops 
        and seminars (many of which are and will be provided in video 
        form on the Web). In 2014-2015, UC promoted and hosted over 350 
        workshops and has many more planned (ciwr.ucanr.edu). The CIWR 
        has also produced a series of drought tip fact sheets and a 
        webinar series of short (15-minute) talks with useful 
        information on irrigation practices, salinity management, 
        landscape management and more.
  --The Minnesota Water Resources Center has funded a number of 
        research projects that address important, nationally-relevant 
        water resources issues with USGS/WRRA funding over the last 4 
        years. This funding has been highly leveraged with university 
        funds and the Minnesota Environmental Trust Fund. Researchers 
        have addressed critical issues, including determining the 
        biogeochemical variables that can be used to predict how much 
        arsenic will get into groundwater used for drinking water, and 
        determining the degree of antibiotic resistance in wastewater 
        treatment plant effluent.
  --Researchers with the Idaho Water Resources Research Institute have 
        collaborated with Idaho Department of Water Resources 
        scientists to develop technology for assessing crop-water usage 
        over large areas using satellite based remote-sensing 
        information. This technology is now used routinely within the 
        Idaho Department of Water Resources for investigating and 
        resolving water rights conflicts, for aquifer depletion 
        modeling and for stream flow management. This technology is 
        also being adopted by 10 western States and parts of Africa, 
        Europe and Australia.

    APLU BNR requests at least $20 million for the Cooperative Fish and 
Wildlife Research Units (CRU). This program: (1) trains the next 
generation of fisheries and wildlife managers; (2) conducts research 
designed to meet the needs of unit cooperators; and (3) provides 
technical assistance to State, Federal and other natural resource 
managers. Originally established in the 1930s to provide training for 
students in fisheries and wildlife biology, the units were formally 
recognized by the Cooperative Units Act of 1960 (Public Law 86-686). 
The CRUs provide experience and training for approximately 600 graduate 
students per year, a critical need as State and Federal workforces face 
unprecedented retirements over the next 5 to 10 years. The CRUs also 
provide valuable mission-oriented research for their biggest clients, 
the U.S. Fish and Wildlife Service and cooperating State agencies. 
Today, there are 40 Cooperative Research Units in 38 States.
    Each unit is a true Federal-State-university-private sector 
collaboration in that it is a partnership between the U. S. Geological 
Survey, a State natural resources management agency, a host university, 
and the Wildlife Management Institute. For every $1 the Federal 
Government puts into the program, $3 more are leveraged through the 
other partners. The U.S. economy has long relied on the bountiful 
natural resources bestowed upon this land. Federal investment in the 
CRUs will be returned many times over though the training of future 
natural resource managers who will guide the Nation in sustainable use 
of our natural resources. The research conducted by CRU scientists 
directly supports the difficult management challenges faced by natural 
resources managers. The examples below demonstrate the value of the 
CRUs to wildlife issues with local and national importance.

  --Minnesota: The Minnesota CRU is currently researching the olfactory 
        sensitivity of Asian carps to putative sex pheromones. This 
        work has recently received national attention, because Asian 
        carps are an invasive species that threatens many of the 
        Nation's freshwater native fishes through competition for food. 
        The Minnesota CRU hopes to use the sex pheromones to attract 
        and trap Asian carp, removing them permanently from the 
        Nation's freshwater lakes and rivers. Minnesota CRU researchers 
        are also studying human behavior, working to understand the 
        motivations of agricultural producers enrolling in USDA water 
        quality and wildlife habitat programs. They hope to gain 
        insight into designing and developing programs, practices and 
        messages that encourage broader participation in those 
        programs.
  --Tennessee: In 2011, an estimated 826,293 anglers fished in 
        Tennessee, creating an economic impact of nearly $1.3 billion 
        for the State. The Tennessee CRU supports this economic driver 
        by assessing fish stocks, working on recovery efforts for 
        threatened and endangered species, providing research and 
        technical assistance to support State decisions related to 
        fishing. For example, research on sauger in the Tennessee River 
        showed that minimum size requirements by the State were not 
        leading to increased mortality of released fish below the 
        minimum size. Their research also kept ``stinger'' hooks 
        available for fishermen by showing they also did not contribute 
        to increased mortality.
  --Oklahoma: The Oklahoma CRU is celebrating its seventh decade of 
        activity. Since opening in 1948, the graduate students that 
        conducted research at the CRU have completed over 400 theses 
        and dissertations. One on-going research project is to gather 
        an accurate count of the black bear population expansion out of 
        Arkansas and into eastern Oklahoma. Wildlife managers need this 
        information for appropriate management of the bear population 
        now that black bear hunting has been reintroduced in Oklahoma.

    BNR thanks you for the opportunity to provide our views to the 
subcommittee. We look forward to working with you through the fiscal 
year 2016 appropriations process.
About APLU and the Board on Natural Resources
    APLU's membership consists of 235 State universities, land-grant 
universities, State-university systems and related organizations. APLU 
institutions enroll more than 4.7 million undergraduate students and 
1.2 million graduate students, and conduct $42.7 billion annually in 
university-based research annually. The Board's mission is to promote 
university-based programs dealing with natural resources, fisheries, 
wildlife, ecology, energy, and the environment. BNR representatives are 
chosen by their president's office to serve and currently number over 
500 scientists and educators, who are some of the Nation's leading 
research and educational expertise in environmental and natural-
resource disciplines.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
    The Association of State Drinking Water Administrators (ASDWA) 
respectfully submits the following recommendations for fiscal year 2017 
appropriations on behalf of the drinking water programs in the 50 
States, 5 Territories, District of Columbia, and Navajo Nation.
    Summary of Request: ASDWA respectfully requests that, for fiscal 
year 2017, the subcommittee appropriate funding for three programs at 
levels commensurate with Federal expectations for performance; that 
ensure appropriate public health protection; and that will result in 
enhancing economic stability and prosperity in American cities and 
towns. ASDWA requests $200 million for the Public Water System 
Supervision (PWSS) program; $1.0205 billion for the Drinking Water 
State Revolving Loan Fund (DWSRF) program; and $10 million for State 
drinking water program security initiatives. A more complete 
explanation of the needs represented by these requested amounts and 
their justification follows.
overview: the importance of safe drinking water for our communities and 
        the economy & the role of state drinking water programs
    States need increased Federal support to maintain public health 
protection and to support the needs of the water systems they oversee. 
State drinking water programs strive to meet the Nation's public health 
protection goals through two principal funding programs: the Public 
Water System Supervision Program (PWSS) and the Drinking Water State 
Revolving Loan Fund (DWSRF) Program. These two programs, with their 
attendant State match requirements, provide the means for States to 
work with drinking water utilities to ensure that American citizens can 
turn on their taps with confidence that the water is both safe to drink 
and the supply is adequate. In recent years, State drinking water 
programs have accepted additional responsibilities in the area of water 
system security and resiliency that include working with all public 
water systems to ensure that critical drinking water infrastructure is 
protected; that plans are in place to respond to both natural and 
manmade disasters; and that communities are better positioned to 
support both physical and economic resilience in times of crisis.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe, reliable, and adequate supply of 
drinking water. Economies only grow and sustain themselves when they 
have reliable water supplies. Over 90 percent of the population 
receives water used for bathing, cooking, and drinking from a public 
water system--overseen by State drinking water program personnel. Even 
people who have their own private wells will visit other homes, 
businesses, and institutions served by a public water system. As 
important as public water systems are to the quality of the water we 
drink and our health, the majority of water produced by public water 
systems is used by businesses for a variety of purposes, including 
processing, cooling, and product manufacturing. The availability of 
adequate supplies of safe water is often a critical factor in 
attracting new businesses to communities. Public water systems--as well 
as the cities, villages, schools, and businesses they support--rely on 
State drinking water programs to ensure they are in compliance with all 
applicable Federal requirements and the water is safe to drink. Several 
recent incidents in the United States have led to illnesses, death, or 
prohibitions against use, due to unsafe drinking water. These have 
included deaths in several States due to microbiological contaminants; 
unsafe drinking water in Charleston, West Virginia for over a week due 
to an upstream chemical spill; unsafe drinking water in Toledo, Ohio 
for over a day due to algal toxins; and the leaching of lead from lead-
containing pipelines into the water supply in Flint, Michigan. These 
incidents serve as stark reminders of the critical nature of the work 
that State drinking water programs do--every day--and the reason why 
State drinking water programs must be adequately funded.
state drinking water programs: how they operate, why support is needed, 
                and justifications for requested amounts
The Public Water System Supervision (PWSS) Program:
    How the PWSS Program Operates: To meet the requirements of the Safe 
Drinking Water Act (SDWA), States have accepted primary enforcement 
responsibility for oversight of regulatory compliance and technical 
assistance efforts for over 155,000 public water systems to ensure that 
potential health-based violations do not occur or are remedied in a 
timely manner. Over 90 contaminants are regulated in Federal drinking 
water regulations and the pace of regulatory activity has accelerated 
in recent years. Beyond the contaminants covered by Federal drinking 
water regulations, States are also implementing an array of proactive 
initiatives to protect public health from ``source to tap.'' These 
include source water assessments and protections for communities and 
watersheds; technical assistance for water treatment and distribution 
for challenged utilities; and enhancement of overall water system 
performance. In recent years, States have also taken on an increasingly 
prominent role in working with Federal and local partners to help 
ensure sufficient water quantity. Many States have worked intensively 
with numerous small water systems in recent years that were within days 
of running completely dry. The public health and economic consequences 
of such a catastrophe would have been incalculable to the residents of 
those communities. In short, State activities go well beyond simply 
ensuring compliance at the tap--and, States perform all of these tasks 
more efficiently and cheaply than would be the case if the program were 
federally implemented. Well supported State drinking water programs are 
a good deal for America.
    Why Adequate Support is Needed: State drinking water programs are 
extremely hard pressed financially and the funding gap continues to 
grow. States must accomplish all of the above-described activities--and 
take on new responsibilities--in the context of a challenging economic 
climate. State funding has historically compensated for inadequate 
Federal funding, but State budgets have been less able to bridge this 
funding gap in recent years. State drinking water programs have often 
been expected to do more with less and States have always responded 
with commitment and integrity, but they are currently stretched to the 
breaking point. Insufficient Federal support for this critical program 
increases the likelihood of contamination events that puts the public's 
health at risk. $101.9 million was appropriated for the PWSS program in 
fiscal year 2016 and the administration requested only $109.7 million 
in fiscal year 2017 (or, on average, about $2 million per State per 
year). These amounts are woefully inadequate for the enormity of the 
task faced by State drinking water programs. We believe, based on our 
rigorous assessment of every State's need (in a report we released in 
January 2014), that at least twice that amount is needed. Inadequate 
Federal funding for State drinking water programs has a number of 
negative consequences. Many States are simply unable to implement major 
provisions of the newer regulations, leaving the work undone or ceding 
the responsibility back to EPA, which is also challenged by the 
Agency's own resource constraints and lack of ``on the ground'' 
expertise. States also want to offer the flexibilities allowed under 
existing rules to local water systems. However, fewer State resources 
mean less opportunity to work individually with water systems to meet 
their individual needs. This situation has created a significant 
implementation crisis in several regions of the country and is 
ultimately delaying or hampering implementation of critically needed 
public health protections.
    For the PWSS Program in Fiscal Year 2017, ASDWA Respectfully 
Requests $200 million: The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while at the same time, the Federal funding support 
necessary to maintain compliance levels and meet expectations has been 
essentially ``flat-lined.'' Inflation has further eroded these 
inadequate funding levels. The recommended amount is based on ASDWA's 
aforementioned January 2014 resource needs report and begins to fill 
the above-described resource gap. These funds are urgently needed for 
implementing new drinking water rules, taking on a number of other new 
initiatives, and to account for the eroding effects of inflation. We 
further recommend that Congress not allow any Federal funds already 
appropriated to State drinking water programs to be rescinded.
The Drinking Water State Revolving Loan Fund (DWSRF) Program:
    How the DWSRF Program Operates: Drinking water in the United States 
is among the safest and most reliable in the world, but it is 
threatened by aging infrastructure. Through loans provided by the 
DWSRF, States help water utilities overcome this threat. The historical 
payback to the DWSRF on this investment has been exceptional. In the 
core DWSRF program, approximately $18 billion in cumulative Federal 
capitalization grants since 1997 have been leveraged by States into 
over $29 billion in infrastructure loans to small and large communities 
across the country. Such investments pay tremendous dividends--both in 
supporting our economy and in protecting our citizens' health. States 
have very effectively and efficiently leveraged Federal dollars with 
State contributions to provide assistance to more than 10,000 projects, 
improving health protection for millions of Americans. The U.S. 
Conference of Mayors estimates that each public dollar invested in 
water infrastructure increases private long-term Gross Domestic Product 
output by $6.35. An important feature of the DWSRF program is States 
``set-aside'' funds and another key reason for adequately funding this 
critical program. States can reserve up to 31 percent of these funds 
for a variety of critical tasks, such as shoring up the technical, 
managerial, and financial capacity of public water systems. Set-asides 
are thus an essential source of funding for States' core public health 
protection programs and these efforts work in tandem with 
infrastructure loans.
    Drinking Water Infrastructure Investment is Well below the 
Documented Need: The American Society of Civil Engineers gave the 
Nation's drinking water infrastructure a D+ grade and EPA's most recent 
National Drinking Water Infrastructure Needs Survey (2011) indicated 
that drinking water system infrastructure needs total $384 billion over 
the next 20 years; $72.5 billion of that total is needed to prevent 
contamination of 73,400 water systems. The American Water Works 
Association recently estimated that 20 year need at $1 trillion (which 
more fully accounted for water distribution system replacement costs). 
Investment is needed for aging treatment plants, storage tanks, pumps, 
and distribution lines that carry water to our Nation's homes, 
businesses and schools. The DWSRF must continue to be a key part of the 
solution to the Nation's infrastructure crisis.
    For the DWSRF Program in Fiscal Year 2017, ASDWA respectfully 
requests $1.0205 billion: States were very encouraged by the $1.387 
billion appropriated for the DWSRF in fiscal year 2010 but have been 
disappointed by the subsequent generally downward trend--$963 million 
in fiscal year 2011, $919 million in fiscal year 2012, $854 million for 
fiscal year 2013 (a figure not seen since 2006), $907 million in fiscal 
year 2014 and fiscal year 2015, and $863 million in fiscal year 2016. 
The primary purpose of the DWSRF is to improve public health protection 
by facilitating water system compliance with national primary drinking 
water regulations through the provision of loans to improve drinking 
water infrastructure. Water infrastructure is needed for public health 
protection as well as a sustainable economy, as explained above. In 
light of these indicators of success and documented needs, we believe 
funding at the $1.0205 billion level--the level requested in the 
President's fiscal year 2017 budget--will better enable the DWSRF to 
meet the SDWA compliance and public health protection goals for which 
it was designed.
State Drinking Water Security and Resiliency Programs
    State Drinking Water Security and Resiliency Responsibilities: 
State drinking water programs are critical partners in emergency 
planning, response, and resiliency at all levels of government. In 
fact, States are typically the critical nexus between Federal and local 
level officials in emergency situations. State primacy agencies provide 
key resources and critical support--regardless of whether the emergency 
is rooted in terrorism, natural disasters, or cyber intrusions. States 
continually work toward integrating security considerations throughout 
all aspects of their drinking water programs and provide information 
and support to water systems needing to better understand cyber 
threats.
    State Drinking Water Security Funds Are Urgently Needed: After 7 
years of congressional support for State security programs through a 
small grant of approximately $5 million in EPA's appropriations (from 
fiscal year 2002 through fiscal year 2008), no funds have been provided 
for this purpose since fiscal year 2009 and none are requested by the 
administration for fiscal year 2017. It is very difficult to understand 
why this small, but essential grant to States has been zeroed out of 
EPA's proposed budget and why Congress has not supported State drinking 
water security and resiliency programs. State drinking water programs 
urgently need funds to continue to maintain and expand their security 
activities, particularly in partnership with small and medium public 
water systems.
    For State Drinking Water Security Programs in Fiscal Year 2017, 
ASDWA Respectfully Requests $10 million: Given the realities and the 
lessons learned from recent catastrophic events such as Hurricane Sandy 
in New York and New Jersey; tornados in central Oklahoma; wildfires and 
floods in Colorado; and continuing drought in California and Texas--to 
name but a few--State drinking water programs are working more closely 
than ever with their water utilities to evaluate, assist, and support 
drinking water systems' preparedness, response, and resiliency 
capabilities. States continue to expand their efforts to reflect a 
resilient, ``all hazards'' approach to water security and to assist 
public water systems of all sizes, particularly smaller water systems 
that most need help.
    Conclusion: ASDWA respectfully recommends that the Federal fiscal 
year 2017 budget needs for States' role in the provision of safe 
drinking water be adequately funded by Congress. A strong State 
drinking water program supported by the Federal-State partnership will 
ensure that the quality of drinking water in this country will not 
deteriorate and, in fact, will continue to improve--so that the public 
can be assured that a glass of water is safe to drink no matter where 
they travel or live. States are willing and committed partners. 
However, additional Federal financial assistance is needed to meet 
ongoing and ever growing regulatory, infrastructure, and security 
needs. In 1996, Congress provided the authority to ensure that the 
burden would not go unsupported. For fiscal year 2017, ASDWA asks that 
the promise of that support be realized.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
    Thank you Chairwoman Murkowski and Ranking Member Udall for 
allowing me to submit written testimony on behalf of the Nation's 219 
AZA-accredited zoos and aquariums. Specifically, I want to express my 
support for the inclusion of $11,100,000 for the Multinational Species 
Conservation Funds (MSCF) operated by the U.S. Fish and Wildlife 
Service (USFWS), $15,800,000 for the USFWS's International Affairs 
program, and $11,100,000 for National Environmental Education Act 
programs at the Environmental Protection Agency (EPA) in the fiscal 
year 2017 Department of the Interior, environment, and related agencies 
appropriations bill. I also urge you to reject any efforts to include 
language that would prohibit the USFWS from moving forward with its 
efforts to eliminate loopholes in the commercial elephant ivory trade.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA-accredited zoos and aquariums annually see more than 
183 million visitors, collectively generate more than $17 billion in 
annual economic activity, and support more than 166,000 jobs across the 
country. Annually, AZA-accredited institutions spend $160,000,000 on 
more than 2,650 field conservation projects in 130 countries.
    MSCF programs support public-private partnerships that conserve 
wild tigers, elephants, rhinos, great apes, and marine turtles in their 
native habitats. Through the MSCF programs, the United States 
supplements the efforts of developing countries that are struggling to 
balance the needs of their human populations and endemic wildlife. MSCF 
programs help to sustain wildlife populations, address threats such as 
illegal poaching, reduce human-wildlife conflict, and protect essential 
habitat. By working with local communities, they also improve people's 
livelihoods, contribute to local and regional stability, and support 
U.S. security interests in impoverished regions. This Federal program 
benefits AZA-accredited zoos and aquariums in their field conservation 
efforts and partnerships with the USFWS.
    The EPA offers valuable environmental education initiatives that 
AZA encourages you to support. Education programs at AZA-accredited 
institutions provide essential learning opportunities, particularly 
about science, for schoolchildren in formal and informal settings. 
Studies have shown that American schoolchildren are lagging behind 
their international peers in certain subjects including science and 
math. In the last 10 years, accredited zoos and aquariums formally 
trained more than 400,000 teachers, supporting science curricula with 
effective teaching materials and hands-on opportunities. School field 
trips annually connect more than 12,000,000 students with the natural 
world. Increasing access to formal and informal science education 
opportunities has never been more important.
    Tragically, elephants are being slaughtered for their ivory. From 
2010 to 2014, 81 AZA-accredited facilities provided nearly $5.8 million 
to Asian and African elephant field conservation efforts. Sadly, it is 
estimated that 96 elephants are killed by poachers in Africa every day 
for their ivory, a total of 35,000 per year. Much of this ivory ends up 
in the United States, which continues to be one of the largest markets 
for ivory in the world.
    In 2013, the AZA joined The Wildlife Conservation Society as a 
partner in the 96 Elephants Campaign--an effort focused on securing a 
U.S. moratorium on illegal ivory; bolstering protection of African 
elephants; and educating the public about the link between ivory 
consumption and the elephant poaching crisis. Through the 96 Elephants 
campaign, millions of zoo visitors can take action to stop the demand 
for ivory here in the United States and around the world. The USFWS has 
proposed a rule to eliminate loopholes in the commercial elephant ivory 
trade. Any delay in this process comes at the expense of Africa's 
elephants which desperately need action now.
    Finally, much of the important conservation work at AZA-accredited 
zoos and aquariums depends on a robust and fully staffed USFWS. 
Acknowledging the budget challenges facing Congress and the agencies, I 
encourage you to ensure that the USFWS has sufficient resources to 
employ qualified professionals, particularly for the programs handling 
permits, which support the science-based conservation breeding and 
wildlife education programs that require animals to be moved in an 
efficient, timely manner: International Affairs (Management Authority), 
Endangered Species, Law Enforcement, and Migratory Birds.
    AZA-accredited zoos and aquariums are essential conservation and 
education partners at the Federal, State, and local levels domestically 
as well as internationally. To ensure that AZA-accredited zoos and 
aquariums can continue to serve in these important roles, I urge you to 
include $11,100,000 for the Multinational Species Conservation Funds 
operated by the USFWS, $15,800,000 for the USFWS's International 
Affairs program, and $11,100,000 for National Environmental Education 
Act programs at the Environmental Protection Agency in the fiscal year 
2017 Interior, Environment, and Related Agencies appropriations bill.
    Thank you for your consideration of our comments.
                                 ______
                                 
     Prepared Statement of the Bristol Bay Area Health Corporation
    The requests of the Bristol Bay Area Health Corporation for the 
fiscal year 2017 Indian Health Service (IHS) budget and our comments on 
BIA Recognition are as follows:

  --Allocate at least an additional $12.5 million to the IHS to fully 
        fund Village Built Clinic (VBC) leases and make it a line item 
        in the budget.
  --Active support by the subcommittee to change Contract Support Costs 
        funding to a permanent, mandatory funded basis and eliminate 
        provisos on indefinite funding that could be misread to 
        conflict with the carryover funding authority in the Indian 
        Self-Determination and Education Assistance Act.
  --Increase IHS behavioral healthcare funding.
  --Funding for built-in costs.
  --Urge the Department of Interior to issue a decision regarding 
        recognition of Knugank.

    The Bristol Bay Area Health Corporation (BBAHC) was created in 1973 
to provide healthcare services to Alaska Natives of Southwest Alaska. 
BBAHC began operating and managing the Kanakanak Hospital and the 
Bristol Bay Service Unit for the IHS in 1980, and was the first tribal 
organization to do so under the Indian Self-Determination and Education 
Assistance Act (ISDEAA). BBAHC is a co-signer to the Alaska Tribal 
Health Compact with the IHS under the ISDEAA and is now responsible for 
providing and promoting healthcare to the people of 28 Alaska Native 
Villages.
    We have made significant progress but now deal with modern-day 
health problems. Today, rather than TB and influenza epidemics, we 
struggle with diseases of a modern society that include chronic 
illnesses such as cancer, diabetes and heart disease. The life 
expectancy of our people has increased from 47 years of age in 1952 to 
69.4 in 1998, still below that of U.S. residents and other Alaskans. We 
are strengthening our programs and services to address chronic 
illnesses as well as continuing to provide acute care services that 
dominated healthcare need much of the past 100 years for the people of 
Bristol Bay.
                         village built clinics
    We appreciate that the fiscal year 2016 appropriations act included 
$2 million to supplement funds for operational costs at tribal clinics 
in spaces acquired through full service leases, which we understand was 
intended for all Village Built Clinics (VBCs) in Alaska. Even when this 
additional funding is finally allocated, VBC facilities will continue 
to face a significant funding crisis in our region. Our 27 VBCs are 
essential to our ability to maintain our Community Health Aide/
Practitioner (CHA/P) programs which provide the only local source of 
healthcare for many of our Alaska Native people.
    Because the CHA/Ps could not operate in most of rural Alaska 
without clinic facilities in the Alaska Native villages, the IHS 
established the VBC leasing program in the 1970s, but the leases have 
been chronically underfunded ever since. Lease rental amounts for VBCs 
have failed to keep pace with costs; the majority of leases have not 
increased since 1989. Unlike tribal healthcare facilities in the lower 
48 States, the IHS treats VBCs as being ineligible for maintenance and 
improvement funding, for which Congress appropriated over $73.6 million 
in fiscal year 2016. Current funding for the VBCs is not sufficient to 
cover the cost of repair and renovation as necessary to maintain the 
facilities in a safe condition.
    The regional tribal health organizations collaborated with the 
Alaska Native Health Board and the Alaska Native Tribal Health 
Consortium to develop an updated needs assessment for VBCs, called 
``Village Based Clinics in Crisis 2015.'' According to the report, 
lease amounts in fiscal year 2015 covered less than 30 percent of the 
basic operating costs of the VBCs. The report estimates that an 
additional $12.5 million in funding--in addition to the $4.5 million in 
current annual funding--would be needed to maintain and operate Alaska 
VBCs on a par with similar tribal health facilities elsewhere. We 
request that you direct the IHS to (1) add an additional $12.5 million 
to the current amount being provided for the VBCs, (2) request that 
amount in a separate line in the IHS budget, and (3) allocate that 
amount to the VBC lease program.
             contract support costs (csc) mandatory funding
    We wish to extend our thanks for the change made in funding to CSC 
in the fiscal year 2016 appropriations act, which made the fiscal year 
2016 CSC funding for an indefinite amount. This shift helped to ensure 
that CSC would be fully funded without having to reprogram funding for 
critical healthcare services and other programmatic funding to cover 
the CSC need.
    For fiscal year 2017, we support the President's request for an 
appropriation of ``such sums as may be necessary,'' with an estimated 
$800 million for CSC for the IHS, and an estimated $278 million for the 
BIA, in separate accounts in both the IHS and BIA discretionary 
budgets. However, we request the removal of the following proviso: 
``amounts obligated but not expended by a tribe or tribal organization 
for contract support costs for such agreements for the current fiscal 
year shall be applied to contract support costs otherwise due for such 
agreements for subsequent fiscal years.'' This proviso is problematic 
because it could be misread to effectively deny the carryover authority 
granted by the ISDEAA.
    BBAHC strongly believes, however, that the indefinite appropriation 
of CSC funding must be made mandatory and permanent. Under the ISDEAA, 
the full payment of CSC is not discretionary; it is a legal obligation, 
affirmed by the U.S Supreme Court. Funding of CSC on a discretionary 
basis has placed the House and Senate Committees on Appropriations, in 
their own words, of being in the ``untenable position of appropriating 
discretionary funds for the payment of any legally obligated contract 
support costs.'' We are committed to working other Native organizations 
and Congress to determine how best to achieve that goal.
                       behavioral health funding
    BBAHC continues to face particular hardships in providing for our 
communities' behavioral and mental health needs, particularly with 
regard to our youth. Our Behavioral Health Counseling Center, located 
in Dillingham, relies on a staff of mental health clinicians to provide 
outpatient behavioral health services, village outreach services, as 
well as 24 hour crisis stabilizations services for the entire region. 
To say the least it is a challenge and there are major gaps in the 
provision of behavioral healthcare in the region's isolated villages. 
We have well-qualified professional staff who serve approximately 8,000 
people in our region. The 6 mental health, 2 master level social work 
supervisors, 5 alcohol and drug counsellors, and 7 behavioral health 
aides theoretically would serve more than 300 persons each. The ratio 
of mental health clinicians to clients is 1 to 1,300. In addition the 
significant increase in heroin use in the region has made the provision 
of quality services increasingly difficult.
    Particularly concerning is that the treatment for our youth with 
substance abuse problems is lacking. Our 14 bed residential facility 
for substance abuse (Jake's Place) has an Alcohol and Drug Safety 
Program funded by the State of Alaska but it is primarily an education 
program, not a treatment program, and much of the education is done 
remotely, via the Internet. And, as you know, there is an epidemic of 
suicide among Alaska Natives. Alaska outpaces the rest of the Nation in 
suicide rates and suicide attempts requiring hospitalization. Alaska 
Native teens commit suicide at a rate nearly six times that of non-
Native teenagers.
    It seems that finally there is increased attention nationally by 
policy makers to behavioral health issues. Thus we appreciate the $10 
million appropriated in fiscal year 2016 in the IHS Alcohol and 
Substance Abuse line item for the Generations Indigenous (Gen-I) 
initiative to address youth behavioral, mental health and substance 
abuse issues. This funding will be critical for the hiring of staff to 
provide more services and prevention programs for our youth. We ask for 
your support to fund the expansion of the Gen-I program in fiscal year 
2017. The administration is requesting a $16.8 million increase focused 
on youth: $15 million to expand Gen-I for additional staffing and $1.8 
million for a pilot program that would provide a continuum of care for 
youth after discharge from a Youth Regional Treatment Center.
    We also support the administration's proposed $25 million increase 
in the IHS Mental Health account. It would consist of $21.4 million to 
integrate behavioral health services more broadly in the healthcare 
system, including to community-based programs, and $3.6 million for a 
``Zero Suicide Initiative''.
                             built-in costs
    We support the administration's fiscal year 2017 request of $159 
million for built-in costs: $75.4 million for medical inflation at a 
5.8 percent rate; $26 million for pay costs; and $43.2 million to 
partially fund population growth. Built-in costs are often sacrificed 
in the budget negotiation process, but lack of them impacts all 
programs. Inflation--both medical and non-medical, pay raises that must 
be afforded to employees, and population growth are real facts of life 
that impact our ability to provide sufficient healthcare services. The 
cumulative effect of underfunding of built-in costs over a period of 
years takes a significant toll on our budgets and ultimately on our 
ability to provide a range of quality healthcare services. We urge 
Congress to fund this request.
                          knugank recognition
    We bring to your attention the efforts to get the Department of 
Interior to correct the omission of Knugank (which is in the Bristol 
Bay region) from the list of federally recognized tribes. We are 
supporting Knugank in this effort and are hopeful this this situation 
will be corrected soon although there has been a series of delays in 
issuing a decision.
    In a January 2012 letter to Senator Murkowski, the Assistant 
Secretary of Indian Affairs explained that Knugank could be added to 
the list of recognized tribes if it meets the standards established by 
Congress in Section 1 of the Alaska Amendment to the Indian 
Reorganization Act (25 U.S.C. Sec. 473a). Several months later, the 
office of the Assistant Secretary agreed to evaluate Knugank's 
extensive documentation, and based on the statutory standards, issue a 
decision regarding Knugank's eligibility to be included on the list of 
recognized tribes. Several times we have been told that a decision 
(which we believe will be favorable to Knugank) is imminent and that 
all needed information has been provided. Now, after significant 
investments made over the course of many years by BBAHC, Knugank, 
Members of Congress and the Agency to resolve this matter, we 
understand that the Offices of the Solicitor and Assistant Secretary 
have completed their review but still have not taken the final steps 
necessary to issue a decision.
    BBAHC is deeply troubled by the Agency's continued delays. We 
respectfully request that this subcommittee exercise its oversight 
responsibility to ensure that the Assistant Secretary issues a decision 
in the coming days so that the substantial investment of Federal and 
tribal resources is not wasted but instead serves to fully resolve 
Knugank's tribal status. We expect this decision will correct the 
Agency's omission of Knugank from the list of federally recognized 
tribes, affirm their eligibility to organize as a tribe under the 
standards and precedent established by the Alaska Amendment to the 
Indian Reorganization Act, and allow Knugank its rightful government-
to-government status and access to an array of Federal resources.
    Other. There is no room within the page limits to comment on all 
issues but we want you to know that we support a permanent 
reauthorization of the Special Diabetes Program for Indians, for 
establishment of Medicare-like Rates for non-hospital services thus 
stretching our Purchased/Referred Care dollars, and, as Congress has 
done for the VA medical accounts, providing funding to IHS on an 
advance appropriations basis so that may have better lead time for our 
planning, budgeting, and purchasing processes and for our recruitment 
of personnel.
    Thank you for your consideration of our concerns and needs.
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I encourage you to include $1.5 million for salinity specific 
projects in the Bureau of Land Management's (BLM) Soil, Water and Air 
Program in fiscal year 2017. The funding will help protect the water 
quality of the Colorado River that is used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States.
    CAWCD manages the Central Arizona Project (CAP), a multi-purpose 
water resource development and management project that delivers 
Colorado River water into central and southern Arizona. The largest 
supplier of renewable water in Arizona, CAP diverts an average of over 
1.5 million acre-feet of Arizona's 2.8 million acre-foot Colorado River 
entitlement each year to municipal and industrial users, agricultural 
irrigation districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. The canal provides an economic 
benefit of $100 billion annually, accounting for one-third of the 
entire Arizona gross State product. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
                 negative impacts of concentrated salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. The majority of land within the Colorado River Basin is 
federally owned, much of which is administered by BLM. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $382 million per year to U.S. 
users with projections that damages would increase to approximately 
$614 million per year by 2035 if the program were not to continue. 
These damages include:

  --A reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.

    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and avoid 
significant increases in economic damages to municipal, industrial and 
irrigation users.
    history of the blm colorado river basin salinity control program
    In implementing the Colorado River Basin Salinity Control Act of 
1974, Congress recognized that most of the salts in the Colorado River 
originate from federally owned lands. Title I of the Salinity Control 
Act deals with the U.S. commitment to the quality of waters being 
delivered to Mexico. Title II of the Act deals with improving the 
quality of the water delivered to users in the United States. This 
testimony deals specific with Title II efforts. In 1984, Congress 
amended the Salinity Control Act and directed that the Secretary of the 
Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM.
    In 2000, Congress reiterated its directive to the Secretary and 
requested a report on the implementation of BLM's program (Public Law 
106-459). In 2003, BLM employed a Salinity Coordinator to increase BLM 
efforts in the Colorado River Basin and to pursue salinity control 
studies and to implement specific salinity control practices. 
Meaningful resources have been expended by BLM in the past few years to 
better understand salt mobilization on rangelands. With a significant 
portion of the salt load of the Colorado River coming from BLM 
administered lands, the BLM portion of the overall program is essential 
to the success of the effort. Inadequate BLM salinity control efforts 
will result in significant additional economic damages to water users 
downstream.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. On November 20, 2012, a 5 year agreement, known as 
Minute 319, was signed between the United States and Mexico to guide 
future management of the Colorado River. Among the key issues addressed 
in Minute 319 included an agreement to maintain current salinity 
management and existing salinity standards. The CAWCD and other key 
water providers are committed to meeting these goals.
                               conclusion
    Implementation of salinity control practices through the BLM 
Program has proven to be a very cost effective method of controlling 
the salinity of the Colorado River and is an essential component of the 
overall Colorado River Basin Salinity Control Program.
    CAWCD urges the subcommittee to include $1.5 million for salinity 
specific projects in the Bureau of Land Management's (BLM) Soil, Water 
and Air Program. The continuation of funding will prevent further 
degradation of the water quality of the Colorado River and further 
degradation and economic damages experienced by municipal, industrial 
and irrigation users. A modest investment in source control pays huge 
dividends in improved drinking water quality for nearly 40 million 
Americans.
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma
    Thank you for inviting the Choctaw Nation of Oklahoma to present 
written testimony on the fiscal year 2017 President's proposed budgets 
for the Indian Health Service (IHS) and the Bureau of Indian Affairs 
(BIA). I submit this testimony on the funding priorities and budget 
issues important to the Choctaw Nation and its citizens.
    The Choctaw Nation requests that Congress exempt tribal government 
services and program funding from sequestrations, unilateral 
rescissions and budget cuts in all future appropriations.

CHOCTAW NATION TRIBAL SPECIFIC REQUESTS IN INDIAN HEALTH SERVICE
    A.  $24 million Joint Venture Project Staffing for Choctaw National 
Regional Medical Center

NATIONAL BUDGET REQUESTS--INDIAN HEALTH SERVICE AND BUREAU OF INDIAN 
        AFFAIRS
    B.  Special Diabetes Program for Indians--Reauthorize at $200 
million/year for 5 years
    C.  Contract Support Costs--Indian Health Service and Bureau of 
Indian Affairs
       1.  $800 million for IHS full funding ($82 million above 2016 
enacted)
       2.  Reclassify CSC funding as Mandatory for 2018-2020
       3.  $278 million for BIA full funding ($1.0 million above 2016 
enacted)
       4.  Remove Provisions from all future appropriations ``amounts 
obligated but not expended by a tribe or tribal organization for the 
current fiscal years shall be applied to CSC otherwise due for such 
agreements for subsequent fiscal years''
    D.  Purchased and Referred Care (PRC) (Formerly Contract Health 
Services). The President's fiscal year 2017 budget includes $48.2 
million increase
    E.  IHS Mandatory Funding (Maintaining Current Services)--provide 
an increase of $482.4 million over the fiscal year 2016 President's 
proposed budget
    F.  Provide Funding Increases to Support the Office of Tribal Self-
Governance (IHS) and the Office of Self-Governance (DOI) to fully staff 
the operations to build capacity to support the increased number of 
tribes entering Self-Governance

    The Choctaw Nation supports the fiscal year 2017 budget requests of 
the National Congress of American Indians and the National Indian 
Health Board.

                     THE CHOCTAW NATION OF OKLAHOMA

    The Choctaw Nation of Oklahoma is the third largest Native American 
tribal government in the United States with over 208,000 members. The 
Choctaw Nation territory consists of all or part of 10 counties in 
southeast Oklahoma, and we are proudly one of the State's largest 
employers. The Nation operates numerous programs and services under 
Self-Governance compacts with the United States, including but not 
limited to: a sophisticated health system serving over 33,000 patients 
with a hospital in Talihina, Oklahoma, nine (9) outpatient clinics, 
referred specialty care and sanitation facilities construction; higher 
education; Johnson O'Malley program; housing improvement; child welfare 
and social services; law enforcement; and, many others. The Choctaw 
Nation has operated under the Self-Governance authority in the 
Department of the Interior (DOI) since 1994 and in the Department of 
Health and Human Services' IHS since 1995. As a Self-Governance Tribe, 
the Nation is able to re-design programs to meet tribally specific 
needs without diminishing the United States' trust responsibility. 
Self-Governance is now a permanent reality for many tribes.
    The Choctaw Nation has improved the health status of our people by 
operating a healthcare system that is responsive and designed to meet 
the increasing complex needs of our users. We have benefitted from 
access to resources that have enabled us to succeed in the challenging 
healthcare field. We owe much to Self-Governance which authorized 
flexibility to use Federal appropriations in a way that supports the 
expansion and growth of the healthcare system we are continuing to 
build for our people.

  A.  $24 MILLION--JOINT VENTURE PROJECT STAFFING FOR CHOCTAW NATIONAL 
        REGIONAL MEDICAL CENTER
    The Joint Venture Construction Program (JVCP) is a unique 
opportunity for the Indian Health Service to partner with tribes and 
make scarce Federal dollars stretch much farther than in the 
traditional Federal construction programs. Under the JVCP, the Choctaw 
Nation will use non-IHS funds to construct a tribally owned healthcare 
facility that meets IHS design criteria and approval. The IHS will 
enter into a 20-year nominal lease for the facility and agrees to 
request appropriations for the operation and maintenance during the 
lease period.
    Choctaw recently settled our past contract support cost claims in 
both the IHS and BIA; although we have only received payment for the 
IHS settlement. These funds have contributed greatly to our ability to 
continue to cultivate a healthcare system. We have enjoyed partnering 
with the IHS on two JVCP projects; the first was the Idabel Indian 
Health Care Center in Idabel, Oklahoma in 2005 and a new Choctaw 
National Regional Medical Center opening in January 2017. The Choctaw 
Regional Medical Clinic is a new facility at a new location that will 
serve Bryan County. It will be equipped with advanced technology which 
will require new staffing to operate an expanded health system to meet 
the healthcare needs of the user population.
    As new space, the Choctaw Regional Medical Clinic must meet 
operational and facility readiness. We will have 284 new staff and we 
have projected that it will take 2 months to orientate, educate and 
train them so that nothing is new about their jobs on day one. This 
includes staff orientation, proper operating sequences, appropriate 
staff alignment, technology integration/implementation and equipment 
education and implementation. The question remains how will the Choctaw 
Nation prepare new staff for operational and facility readiness with 
funding?
    Language in the fiscal year 2016 consolidated appropriations bill 
and in the 2017 budget proposal will put a strain on negotiations 
between the Nation and IHS to fund the necessary costs to get the staff 
in place, trained and ready to open. We have been working with IHS to 
include sufficient funding in the fiscal year 2017 budget request to 
satisfy their commitment to fund the operational cost of the facility. 
It is imperative that we are prepared to open the clinic as scheduled 
with fully orientated, educated and trained staff for operational and 
facility readiness.
    For tribes seeking to offer, improve and/or expand access to 
healthcare, the JCVP partnership is an added value mutually beneficial 
partnership between a tribe, its members and the Federal Government. 
Limitations such as the proviso in the appropriations bill will impede 
the progress and success of the benefits of this effort.

  B.  SPECIAL DIABETES PROGRAM FOR INDIANS--SUPPORT 5 YEAR 
        REAUTHORIZATION AT $200 MILLION/YEAR
    The Special Diabetes Program for Indians (SDPI) has been a top 
priority for the Choctaw Nation since it was initially authorized in 
1997. SDPI is currently reauthorized through March 31, 2015 at a flat-
line rate of $150 million/year (since 2004). A flat budget for more 
than the past decade with the annually rising costs of healthcare 
translates to a significant reduction in the purchasing power of these 
appropriations since 2004. Continuing support of the SDPI will maintain 
critical momentum in diabetes research and care to help bring diabetes-
related costs under control. The permanency of SDPI would be a great 
asset to promoting stability for this important health program and for 
reversing the trend of Type 2 diabetes in Indian Country. In addition 
it will provide for staff retention, programmatic long-term planning 
which increases and improves patient care, and more stable outside 
contracts with vendors and suppliers.
    Congressional funding remains the critical factor in the battle 
against diabetes and we request that as we continue to work for 
permanent authorization and mandatory program status, that you urge 
your colleagues to extend the reauthorization to five (5) years and 
increase funding to $200 million/year for the SDPI program.

  C.  CONTRACT SUPPORT COSTS--INDIAN HEALTH SERVICE AND BUREAU OF 
        INDIAN AFFAIRS
    We applaud this subcommittee for its foresight, leadership and 
creativity in finding a workable solution to fully pay CSC within a 
difficult budget environment.

       1.  $800 million for IHS full funding ($82 million above 2016 
enacted); Reclassify CSC funding as Mandatory for 2018-2020--The 
President's budget request for CSC proposes to fully fund the estimated 
need for IHS CSC at $800 million, an increase of $82 million above 
fiscal year 2016. The estimated increase also includes a long-term 
proposal to fully fund CSC by reclassifying IHS CSC to mandatory 
funding beginning in fiscal year 2018. All tribes agree that the 
payment of CSC, which is a legal obligation, should not be achieved by 
reducing directly services to any tribes.
       2.  $278 million for BIA full funding ($1 million above 2016 
enacted)
       3.  Remove Provisions from all future appropriations ``amounts 
obligated but not expended by a tribe or tribal organization for the 
current fiscal years shall be applied to CSC otherwise due for such 
agreements for subsequent fiscal years''
    D.  Purchased and Referred Care ((PRC) (formerly contract health 
services). The President's fiscal year 2017 budget includes $48.2 
million increase. The PRC program pays for urgent and emergent and 
other critical services that are not directly available through IHS and 
tribally operated health programs.
    E.  IHS mandatory funding (maintaining current services)--provide 
an increase of $482.4 million over the fiscal year 2016 President's 
proposed budget. Current services calculate mandatory cost increases 
necessary to maintain those services at current levels. These 
``mandatories'' are unavoidable and include medical and general 
inflation, pay costs, contract support costs, phasing in staff for 
recently constructed facilities, and population growth. If these 
mandatory requirements are not funded, tribes have no choice but to cut 
health services, which further reduces the quantity and quality of 
healthcare services available to American Indian/Alaskan Native (AI/AN) 
people.
    F.  Provide funding increases to support the Office of Tribal Self-
Governance (IHS) to fully staff to support the number of tribes 
entering Self-Governance. In 2003, Congress reduced funding for this 
office by $4.5 million, a loss of 43 percent from the previous year. In 
each subsequent year, this budget was further reduced due to the 
applied congressional rescissions. As of 2015, there are 351 Self-
Governance (SG) tribes. This represents slightly over 60 percent of all 
federally recognized tribes. The Self-Governance process serves as a 
model program for Federal Government outsourcing, which builds tribal 
infrastructure and provides quality services to Indian people.

    The Choctaw Nation supports the budget requests of the National 
Congress of American Indians and the National Indian Health Board.

            Thank you.
                                 ______
                                 
         Prepared Statement of the Choose Clean Water Coalition
    Dear Chair Murkowski and Ranking Member Udall:

    The undersigned members of the Choose Clean Water Coalition request 
continued support for programs that are essential to maintaining and 
restoring clean water to the rivers and streams throughout the 
Chesapeake Bay region and to the Bay itself. Two-thirds of the 18 
million people in this region get their drinking water directly from 
the rivers and streams that flow through the cities, towns and farms 
throughout our six State, 64,000 square mile watershed. This water 
quality is critical to both human health and to the regional economy.
    The efforts to clean the Chesapeake began under President Reagan in 
1983. In his 1984 State of the Union speech President Reagan said, 
``Preservation of our environment is not a liberal or conservative 
challenge, it's common sense.''
    To follow a common sense path to maintain healthy local water and 
restore Chesapeake Bay, which is critical for our regional economy, we 
request funding for the following programs in fiscal year 2017:
                  u.s. environmental protection agency
Chesapeake Bay Program--$73.0 million
    We support level funding of $73.0 million for the base budget of 
the Chesapeake Bay Program, which coordinates Chesapeake Bay watershed 
restoration and protection efforts. The majority of the program's funds 
are passed through to the States and local communities for on-the-
ground restoration work through programs such as the Small Watershed 
Grants, Innovative Nutrient and Sediment Reduction Grants, State 
Implementation Grants, and the Chesapeake Bay Regulatory and 
Accountability Program grants.
    We strongly support the $12 million for the Chesapeake Small 
Watershed Grants and the Innovative Nutrient and Sediment Reduction 
Grants--$6 million each--that Congress appropriated in fiscal year 
2016. These are two well-run, competitive grant programs that have 
contributed significantly to water quality improvements throughout the 
Chesapeake Bay watershed. These are the Bay Program's only grants that 
go directly to on-the-ground restoration efforts by local governments 
and communities. Without specific congressional direction, EPA has, in 
the past, reallocated this grant money for purposes other than local 
restoration. This is not the time to stop local implementation of 
restoration work. We strongly support the language in last year's 2016 
Consolidated Appropriations Act, where Congress protected these 
critical local grant programs: ``The Committee recommends $73,000,000 
for the Chesapeake Bay program. From within the amount provided, 
$6,000,000 is for nutrient and sediment removal grants and $6,000,000 
is for small watershed grants to control polluted runoff from urban, 
suburban and agricultural lands.'' We urge you to retain the same 
language in the fiscal year 2017 Interior, Environment and Related 
Agencies Appropriations Bill.
Clean Water State Revolving Fund (SRF) --$1.448887 billion
    This program is critical to the 1,779 local governments throughout 
the Chesapeake region. The funding level has eroded over the years as 
the clean water needs of local communities have increased dramatically. 
The Choose Clean Water Coalition supports efforts to close the gap 
between Federal infrastructure investment in clean water and the known 
need. For instance, legislation has been recently introduced which 
would authorize the Clean Water State Revolving Fund grant program at a 
level of $5.96 billion for fiscal year 2017. This is the direction in 
which we should be going, but at a minimum, appropriations should not 
fall below $1.44887 billion the level appropriated in fiscal year 2014 
and 2015, when Congress stabilized this critical program. Congress 
restored most of the President's cuts last year, but the $1.394 billion 
was 3.7 percent below the fiscal year 2014 and 2015 level.
    These low interest loans are critical for clean water and for 
ratepayers in the Chesapeake region and nationwide. We urge you to 
support the $1.448887 billion funding level that provided $311 million 
in low interest loans to local governments in Delaware, Maryland, New 
York, Pennsylvania, Virginia, West Virginia and the District of 
Columbia. The President's 2017 budget request would cut $102.146 
million from those six Chesapeake watershed States and the District of 
Columbia--a drastic 31 percent cut for our region from the fiscal year 
2016 level. We do however, strongly support the provision in the 
President's budget request that targets 20 percent of the Clean Water 
SRF funds for ``green infrastructure and innovative projects including 
those to manage stormwater, which helps communities improve water 
quality while creating green space, mitigating flooding, and enhancing 
air quality.''
    The Clean Water SRF allocates money to the States based on a set 
formula, which is then used for low interest loans to local governments 
for critical capital construction improvement projects to reduce 
nutrient and sediment pollution from wastewater treatment and 
stormwater facilities; nonpoint sources of pollution, such as farms and 
development; and other sources. The Clean Water SRF enables local 
governments in the Chesapeake watershed to take actions to protect 
their local waters to meet Clean Water Act requirements. As the list of 
clean water infrastructure needs in the Chesapeake region continues to 
expand, we request that Congress restore funding for the Clean Water 
SRF at least to its fiscal year 2014 and 2015 levels.
                       department of the interior
U.S. Geological Survey (USGS)--Chesapeake Bay Studies--$12.491 million
    We support the President's 2017 budget request of $12.491 million 
for the USGS to provide the critical science necessary for restoration 
and protection efforts in the Chesapeake Bay region, and to implement 
the 2014 Chesapeake Watershed Agreement. This includes $500,000 for 
USGS to collect and use Light Distance and Ranging (LIDAR) data to 
produce high-quality elevation information needed for the eastern shore 
of the Chesapeake Bay in Delaware, Maryland and Virginia. The results 
will help the Chesapeake Bay Program to develop high-resolution land 
cover information to more effectively place conservation practices to 
improve water quality and help conserve healthy watersheds.
    The USGS will focus on: (1) understanding the factors affecting 
freshwater fisheries and streams, including the effects of shale gas 
drilling; (2) identifying sources and effects of endocrine-disrupting 
compounds and other contaminants that threaten fisheries and wildlife; 
(3) assessing the effects of sea level rise and development on coastal 
wetlands important for waterfowl; (4) forecasting the potential effects 
of land and climate change to inform land conservation; and (5) 
monitoring and explaining water quality change to inform nutrient and 
sediment reduction efforts.
National Park Service--Chesapeake Regional Programs--$3.05 million
    The National Park Service Chesapeake Bay Office runs a number of 
small, but very important programs that focus on increasing public 
access and the use of ecological, cultural and historic resources of 
the Chesapeake region. Expanding access and public awareness fosters 
stewardship and protection efforts.
    The key programs in the President's fiscal year 2017 budget request 
that we support are: Chesapeake Bay Gateways and Trails ($2.02 
million); Captain John Smith Chesapeake National Historic Trail 
($391,000); Star Spangled Banner National Historic Trail ($151,000); 
and, support for coordinating these programs through the National Park 
Service Chesapeake Bay Office ($488,000).
       department of the interior/u.s. department of agriculture
National Park Service/U.S. Fish and Wildlife Service/Bureau of Land 
        Management/U.S. Forest Service--Rivers of the Chesapeake 
        Collaborative Landscape Planning Projects--Land and Water 
        Conservation Fund--$28.261 million
    We support the President's 2017 budget that calls for the strategic 
use of funds for the Land and Water Conservation Fund and, for the 
second consecutive year, requests funding for the Rivers of the 
Chesapeake Collaborative Landscape Planning initiative. This effort 
targets conservation funds for priority landscapes throughout the 
country; the Rivers of the Chesapeake is one such priority area. These 
projects will enhance public access and education, preserve key 
historic and heritage sites and will protect important freshwater and 
tidal habitat areas critical to an array of fish and wildlife species.

  --Bureau of Land Management--Nanjemoy National Resource Management 
        Area (Maryland)--$1.6 million *
  --Bureau of Land Management--Nanjemoy National Resource Management 
        Area (Maryland)--$1.668 million
  --Bureau of Land Management--Meadowood Special Recreation Management 
        Area (Virginia)--$1.4 million *
  --Bureau of Land Management--Meadowood Special Recreation Management 
        Area (Virginia)--$2.8 million
  --U.S. Fish and Wildlife Service--Blackwater National Wildlife Refuge 
        (Maryland)--$1.2 million *
  --U.S. Fish and Wildlife Service--James River National Wildlife 
        Refuge (Maryland)--$0.9 million
  --U.S. Fish and Wildlife Service--Rappahannock River National 
        Wildlife Refuge (Virginia)--$8.5 million
  --U.S. Forest Service--George Washington-Jefferson National Forests 
        (Virginia)--$1.0 million
  --National Park Service--Captain John Smith Chesapeake National 
        Historic Trail (Virginia)--$2.1 million *
  --National Park Service--Appalachian National Scenic Trail 
        (Virginia)--$2.0 million *
  --National Park Service--Piscataway Park (Maryland)--$0.55 million
  --National Park Service--Fredericksburg and Spotsylvania County 
        National Military Park (Virginia)--$4.543 million

    * Indicates projects with Current/Discretionary Authority
National Park Service --Land Protection in Maryland through the Land 
        and Water Conservation Fund--$794,000
    We support the President's 2017 budget that calls for the strategic 
use of funds from the Land and Water Conservation Fund to protect and 
preserve key assets in the National Park System at Piscataway Park 
($794,000) in Maryland. This project will enhance public access and 
education, preserve key historic and heritage sites and protect key 
habitat areas critical to an array of fish and wildlife species.
    Thank you for your consideration of these very important requests 
to maintain funding for these programs which are critical to clean 
water throughout the mid-Atlantic region.

            Sincerely,

American Rivers
Anacostia Watershed Society
Audubon Naturalist Society
Blue Heron Environmental Network Inc.
Blue Ridge Watershed Coalition
Blue Water Baltimore
Cecil Land Use Association
Chapman Forest Foundation
Chesapeake Bay Foundation
Chesapeake Wildlife Heritage
Citizens for Pennsylvania's Future
Clean Water Action
Coalition for Smarter Growth
Conservation Pennsylvania
Conservation Voters of Pennsylvania
Delaware Nature Society
Earth Forum of Howard County
Eastern Pennsylvania Coalition for Abandoned Mine Reclamation
Environment America
Environment Maryland
Environment Virginia
Friends of Accotink Creek
Friends of Dyke Marsh
Friends of the North Fork of the Shenandoah River
Green Muslims
Interfaith Partners for the Chesapeake
Izaak Walton League of America
James River Association
Lackawanna River Conservation Association
Lynnhaven River NOW
Maryland Conservation Council
Maryland League of Conservation Voters
Mattawoman Watershed Society
Mehoopany Creek Watershed Association
Middle Susquehanna Riverkeeper
National Aquarium
National Parks Conservation Association
National Wildlife Federation
Nature Abounds
Natural Resources Defense Council
Otsego County Conservation Association
Otsego Land Trust
PennEnvironment
Pennsylvania Council of Churches
Piedmont Environmental Council
Potomac Conservancy
Potomac Riverkeeper
Potomac Riverkeeper Network
Rivanna Conservation Society
Rock Creek Conservancy
Sassafras River Association
Savage River Watershed Association
Shenandoah Riverkeeper
Shenandoah Valley Network
Sidney Center Improvement Group
Sierra Club--Maryland
Sierra Club--Pennsylvania
Sierra Club--Virginia
Sleepy Creek Watershed Association
South River Federation
St. Mary's River Watershed
Stewards of the Lower Susquehanna
Trout Unlimited
Upper Potomac Riverkeeper
Upper Susquehanna Coalition
Virginia Conservation Network
Virginia League of Conservation Voters
Water Defense
West & Rhode Riverkeeper
West Virginia Rivers Coalition
      
                                 ______
                                 
               Prepared Statement of the Civil War Trust
                              introduction
    Madame Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony. My name is James Lighthizer, 
and I am the president of the Civil War Trust. I come before you today 
to respectfully request that the Senate Appropriations Subcommittee for 
Interior, Environment, and Related Agencies fund the Battlefield Land 
Acquisition Grants Program at its authorized amount of $10 million. The 
program is administered by the National Park Service's American 
Battlefield Protection Program (ABPP).
    The Civil War Trust is a national nonprofit organization dedicated 
to preserving America's remaining Civil War, Revolutionary War, and War 
of 1812 battlefields. Thanks to the generosity of our 200,000 members 
and supporters, the Civil War Trust has protected more than 42,500 
acres of critically important battlefield land in 23 States.
    The ABPP Battlefield Land Acquisition Grants Program is an 
authorized competitive matching grants program that requires a 1-to-1 
Federal/non-Federal match, although on most occasions the Federal 
dollars are leveraged much more than 1-to-1. The program promotes 
cooperative partnerships between State and local governments and the 
private sector to protect high priority battlegrounds outside National 
Park Service boundaries.
           battlefield lands are our shared american heritage
    America's battlefields are an irreplaceable part of our shared 
national heritage. When preserved, these battlefields serve as outdoor 
classrooms to educate current and future generations about the defining 
conflicts in our country's history. They are living monuments, not just 
to the men who fought and sacrificed there, but to all who have proudly 
worn our Nation's uniform. Preserved battlefields are also economic 
drivers for communities, generating tourism dollars that are extremely 
important to State and local economies. When these hallowed grounds are 
lost, they are lost forever.
                         origins of the program
    In 1990, Congress created the Civil War Sites Advisory Commission 
(CWSAC), a blue-ribbon panel composed of lawmakers, historians and 
preservationists, to examine the status of America's Civil War 
battlefields. Three years later, the Commission released a report 
identifying the most important Civil War battlegrounds, prioritizing 
them according to preservation status and historic significance. In 
addition, the Commission also recommended that Congress establish a 
Federal matching grant program to encourage the private sector to 
invest in battlefield preservation. The Commission's proposal for 
Federal matching grants was the genesis of today's ABPP Battlefield 
Land Acquisition Grants Program.
    The National Defense Authorization Act for fiscal year 2015 (Public 
Law 113-291) reauthorized the battlefield acquisition grants program 
and expanded its eligibility to include Revolutionary War and War of 
1812 battlefields, in addition to Civil War battlefields. Similar to 
the Civil War grants, which are awarded for priority battlefield land 
identified in the CWSAC report, funding for Revolutionary War and War 
of 1812 battlefields will target sites listed in a landmark 2007 study 
by the National Park Service. Among the battlefields that could 
potentially benefit from the expanded program are: Bennington, New 
York, and Vermont; Brandywine, Pennsylvania; Cowpens, South Carolina; 
Caulk's Field, Maryland; Guilford Courthouse, North Carolina; 
Princeton, New Jersey; River Raisin, Michigan; Saratoga, New York; and 
Yorktown, Virginia.
    Since the program was first funded in fiscal year 1999, grants have 
been used to protect more than 24,500 acres of hallowed ground in 17 
States. Among the many battlefields that have benefited from this 
program are: Antietam, Maryland; Bentonville, North Carolina; Champion 
Hill, Mississippi; Chancellorsville, Virginia; Chattanooga, Tennessee; 
Gettysburg, Pennsylvania; Harpers Ferry, West Virginia; Mill Springs, 
Kentucky; Prairie Grove, Arkansas; and Wilson's Creek, Missouri. It is 
important to note that grants are awarded for acquisition of lands from 
willing sellers only; there is--and never has been--any eminent domain 
authority.
                        urgent need for funding
    The Civil War Trust wishes to thank the subcommittee for its 
previous support for this valuable program. We recognize that these are 
difficult economic times and appreciate the constraints on this 
subcommittee. However, we must point out that the clock is ticking on 
the remaining battlefields of the Revolutionary War, War of 1812 and 
Civil War. The Civil War Trust estimates that, in the next decade, most 
unprotected battlefield land will be either developed or preserved. 
Full funding for the Battlefield Land Acquisition Grants Program at its 
authorized level of $10 million a year will enable nonprofit groups 
like the Trust to protect as many key battlefield lands as possible in 
the limited time remaining.
                               conclusion
    The Revolutionary War, the War of 1812, and the Civil War were 
defining moments in our country's history. Our forbearers secured our 
independence from Great Britain and forged our democratic ideals during 
the Revolutionary War and War of 1812. During the Civil War, the great 
armies of the North and South clashed in hundreds of battles that 
reunited our union and sounded the death knell for slavery. Preserved 
battlefields help insure that the sacrifices of these turbulent periods 
in our Nation's history are never forgotten.
    Chairman Murkowski and Ranking Member Udall, I sincerely hope you 
and your subcommittee will consider our request to provide funding of 
the ABPP Battlefield Land Acquisition Grants Program at its authorized 
level of $10 million. We look forward to working closely with you as we 
continue our important work to preserve America's sacred battlefield 
lands. Thank you for the opportunity to address the subcommittee.
                                 ______
                                 
        Prepared Statement of the Coalition Against Forest Pests
    The Coalition Against Forest Pests consists of non-profit 
organizations, for-profit entities, landowners, State agency 
associations and academic scholars who have joined together to improve 
our Nation's efforts to address forest health threats. We write to ask 
your support for adequate funding for the Forest Health Management 
programs--both Federal and cooperative lands--and the Forest and 
Rangeland Research programs in the USDA Forest Service (USFS). We 
respectfully request your support in funding the Forest Health 
Management programs at $100 million--$52 million Federal Lands and $48 
million Cooperative Lands--and the Forest and Rangeland Research 
program at $303 million in fiscal year 2017.
    Forested landscapes cover approximately one-third of the total land 
area of the United States, including 136 million acres in urban 
environments. Our Nation's forests and trees provide numerous benefits 
in both rural and urban areas. These benefits include wood products, 
wildlife habitat, carbon sequestration, clean water and air, and 
aesthetic enjoyment. Harvest of numerous woodland products and forest-
associated recreation provide hundreds of thousands of jobs and 
generate considerable economic activity across all 50 States.
    These benefits are at risk to attacks by non-native insects and 
diseases. While most of the monetized losses occur in cities, the 
threat is to all forests. The Asian longhorned beetle kills trees in 15 
botanical families--especially maples and birches which constitute much 
of the forest reaching from Maine to Minnesota. The polyphagous and 
Kuroshio shot hole borers now spreading in southern California threaten 
more than 300 plant species, including tree species that anchor the 
region's riparian areas as well as half of the trees planted in urban 
areas of the region. The beetles might also threaten forests in other 
warm regions of the country such as the Gulf Coast, where some of the 
host trees grow. In 16 coastal California and Oregon counties, sudden 
oak death has killed over one million tanoaks as well as hundreds of 
thousands of coast live oaks and other trees. Sudden oak death attacks 
a wide range of trees and shrubs native to eastern forests, including 
northern red, chestnut, white, and pin oaks; sugar maple; black walnut; 
mountain laurel; rhododendrons; and viburnum. The emerald ash borer has 
already killed untold millions of ash trees in 25 States, with 
resulting damage to wetland and riparian areas and posing a potential 
threat to dependent invertebrates.
    The cost to urban areas and homeowners is staggering: municipal 
governments across the country spend more than $2 billion each year to 
remove trees on city property killed by non-native pests. Homeowners 
spend an additional $1 billion to remove and replace trees on their 
properties and are absorbing an additional $1.5 billion in reduced 
property values.
    Nor are these pests' damages confined to urban areas. Once a newly 
introduced species has established a beachhead in the city, it 
spreads--to suburban woodlots and then into the forest. This phenomenon 
is illustrated by the spread of the Asian longhorned beetle in 
Massachusetts, the emerald ash borer across 25 States, and the redbay 
ambrosia beetle in the southeast.
    The risk to forest systems and the benefits we receive from them 
continues to grow. At least 28 new tree-killing pests have been 
detected over the last decade. Every day, an estimated 35 shipping 
containers from abroad carry to our shores a tree-killing pest.
    The USFS Forest Health Management Program is a critical resource 
supporting Federal, State, municipal and landowner efforts to prevent, 
contain, and eradicate these costly and dangerous pests. The Program 
has supported Oregon's efforts to slow the spread of sudden oak death; 
Plains States' strategies to address the threat from emerald ash borer; 
whitebark pine restoration plantings in the Mountain States; and the 
decades-old, successful program to slow the spread of the gypsy moth. 
This program has been cut by 10 percent over the last 5 years, reducing 
its reach and effectiveness. It is particularly essential that funding 
for work on ``cooperative'' lands--that is, State, municipal, and 
private lands--be restored to $48 million. We ask further that the 
subcommittee instruct program managers to allocate a higher proportion 
of total funds to projects targeting non-native insects or pathogens. 
In recent years, such projects have received only about $12 million, or 
13 percent of total program funds.
    The USFS Forest and Rangeland Research program provides the 
scientific foundation for developing effective tools to detect and 
manage forest pests and the pathways by which they are introduced and 
spread. As America's forests face increasing pressure from the growing 
number of non-native pests, a greater research engagement is critical. 
For example, tools are desperately needed to detect and contain the 
polyphagous and Kuroshio shot hole borers. Promising research to 
support breeding ash trees resistant to the emerald ash borer needs to 
be taken to its conclusion so breeders can begin restoring ash trees. 
Pathways of introduction and spread require additional analysis, e.g., 
wood packaging, nursery stock and firewood. To support these efforts, 
we respectfully request that the subcommittee fund the USFS Forest and 
Rangeland Research program at $303 million in fiscal year 2017. We ask 
further that the subcommittee recommend that a higher proportion of 
these funds be allocated to projects specifically targeting non-native 
insects or pathogens. In recent years, such projects have received only 
$5 million--less than 2 percent of total research funding.
                                 ______
                                 

       Prepared Statement of the Coalition for Healthier Schools
    Dear Senators:

    On behalf of more than 150 participating parent, public health, 
environment, and education groups in the Coalition, we urge you to make 
healthy children and healthy indoor environments a priority in the 
final fiscal year 2017 Department of Interior, environment and related 
agencies appropriations. Specifically, we ask that you ensure that 
EPA's Office of Children's Health Protection and EPA's Indoor Air and 
Radiation have $16 million over fiscal year 2016 enacted. It is a small 
sum which can lead to major improvements in the lives of small children 
in our Nation's PreK-12 schools.
    Some 55 million children attend public and private schools every 
day, yet our Nation's schools--places where 20 percent of Americans who 
are 95 percent women and children learn and work every day--are 
woefully unaware or under-prepared to manage their facilities, as 
numerous studies on schoolhouse neglect have shown. Research also shows 
that environmentally healthy learning places that are clean, dry and 
quiet, and have good ventilation, have lower absenteeism and higher 
test scores.
    As CDC and EPA both know, asthma is the leading cause of school 
absenteeism, yet CDC's 2012 School Health Policy and Practices key 
informant survey found too few States and districts with policies that 
are known to boost attendance and achievement:

  --only 42.9 percent of States reported helping schools with Indoor 
        Air Quality; and,
  --only 36.3 percent of districts reported having a policy to purchase 
        low-emitting products which reduce contaminants in indoor air.

    We urge you to ensure that EPA's Office of Children's Health 
Protection receive $6 million over fiscal year 2016 enacted to advance 
children's health and support its voluntary grants for State agencies 
and for pediatric environmental health services. And we urge that EPA's 
Office of Air and Radiation/Indoor Environments (Reducing the Risks 
from Indoor Air) be allocated $10 million over fiscal year 2016 enacted 
for voluntary grants to reduce children's indoor exposures and asthma 
in homes, schools, and child care centers, as well as to help schools' 
address resiliency to severe weather events.

    Sincerely,

Alaska Community Action on Toxics
American School Health Association
Asthma and Allergy Foundation of America
Association of School Business Officials International
Asthma Regional Council of New England
Center for Cities + Schools, University of California, Berkeley
Children's Environmental Health Network
Connecticut Foundation for Environmentally Safe Schools
Empire State Consumer Project
Health and Education Alliance of Louisiana
Health Resources in Action
Healthy Schools Network
hellmuth + bicknese architects
Improving Kids' Environment (Indiana)
Maryland Children's Environmental Health Coalition
Massachusetts Coalition for Occupational Safety and Health
Massachusetts Healthy Schools Network
Moms' Clean Air Force
National Association of County and City Health Officials
National Center for Environmental Health Strategies
National Education Association--Healthy Schools Caucus
New York Lawyers for the Public Interest
Parents for Students' Safety (Tennessee)
School-Based Health Alliance
Sheet Metal Occupational Health Institute Trust (SMOHIT)
Take Care of Your Classroom Air (Texas)
Toxics Information Project (Rhode Island)
Twenty-first Century Schools Fund
U.S. Green Building Council
West Harlem Environmental Action
                      
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by nearly 40 million people 
for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $382 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $614 million by the year 2035 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by the 
Bureau of Land Management (BLM). BLM funds these efforts through its 
Soil, Water and Air Program. BLM's efforts are an essential part of the 
overall effort. A funding level of $1.5 million for salinity specific 
projects in 2017 is requested to prevent further degradation of the 
quality of the Colorado River and increased downstream economic 
damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from federally owned lands. Title I of the 
Salinity Control Act deals with the U.S. commitment to the quality of 
waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specifically with Title II efforts. In 
1984, Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
BLM is now working on creating a comprehensive Colorado River Basin 
salinity control program as directed by Congress. Meaningful resources 
have been expended by BLM in the past few years to better understand 
salt mobilization on rangelands. With a significant portion of the salt 
load of the Colorado River coming from BLM administered lands, the BLM 
portion of the overall program is essential to the success of the 
effort. Inadequate BLM salinity control efforts will result in 
significant additional economic damages to water users downstream.
    Concentration of salt in the Colorado River causes approximately 
$382 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:

  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.

    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salinity 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM is a cost effective method of controlling the salinity of the 
Colorado River and is an essential component to the overall Colorado 
River Basin Salinity Control Program. Continuation of adequate funding 
levels for salinity within the Soil, Water and Air Program will assist 
in preventing the water quality of the Colorado River from further 
degradation and significant increases in economic damages to municipal, 
industrial and irrigation users. A modest investment in source control 
pays huge dividends in improved drinking water quality to nearly 40 
million Americans.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of fiscal year 2017 funding for the 
Department of the Interior's Bureau of Land Management (BLM) associated 
with the sub-activity that assists Title II of the Colorado River Basin 
Salinity Control Act of 1974 (Public Law 93-320). This long-standing 
successful and cost-effective salinity control program in the Colorado 
River Basin is being carried out pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act (Public Law 92-500). 
Congress has directed the Secretary of the Interior to implement a 
comprehensive program for minimizing salt contributions to the Colorado 
River from lands administered by the Bureau of Land Management (BLM). 
BLM funds these efforts through its Soil, Water and Air Program. BLM's 
efforts are an essential part of the overall effort. A funding level of 
$1.5 million for salinity specific projects in 2017 is requested to 
prevent further degradation of the quality of the Colorado River and 
increased downstream economic damages.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U.S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act, the Forum is charged 
with reviewing the Colorado River water quality standards every 3 
years. The Forum adopts a Plan of Implementation consistent with these 
water quality standards. The level of appropriation being supported in 
this testimony is consistent with the Forum's 2014 Plan of 
Implementation. The Forum's 2014 Plan of Implementation can be found on 
this Web site: http://coloradoriversalinity.org/docs/
2014%20Final%20REVIEW%20-%20complete.pdf. If adequate funds are not 
appropriated, significant damages associated with increasing salinity 
concentrations of Colorado River water will become more widespread in 
the United States and Mexico.
    The EPA has determined that more than 60-percent of the salt load 
of the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. Through passage of the Colorado River Basin 
Salinity Control Act in 1974, Congress recognized that much of the 
salts in the Colorado River originate on federally owned lands. Title I 
of the Salinity Control Act deals with the U.S. commitment to efforts 
related to maintaining the quality of waters being delivered to Mexico 
pursuant to the 1944 Water Treaty. Title II of the Act deals with 
improving the quality of the water delivered to U.S. users. In 1984, 
Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
coordinate BLM efforts in the Colorado River Basin States to pursue 
salinity control studies and to implement specific salinity control 
practices. BLM is now working on creating a comprehensive Colorado 
River Basin salinity control program as directed by Congress. With a 
significant portion of the salt load of the Colorado River coming from 
BLM-administered lands, the BLM portion of the overall program is 
essential to the success of the entire effort. Inadequate BLM salinity 
control efforts will result in significant additional economic damages 
to water users downstream.
    Over the 32 years since the passage of the Colorado River Basin 
Salinity Control Act, much has been learned about the impact of salts 
in the Colorado River system. Currently, the salinity concentration of 
Colorado River water causes about $382 million in quantifiable damages 
in the United States annually. Economic and hydrologic modeling by 
Reclamation indicates that the quantifiable damages could rise to more 
than $614 million by the year 2035 without the continuation of the 
Salinity Control Program. For example, damages can be incurred related 
to the following activities:

  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --an increase in the amount of imported water,
  --an increased cost of desalination and brine disposal for recycling 
        water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and
  --an increase in desalination and brine disposal costs due to 
        accumulation of salts in groundwater basins.

    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Imperial, Los Angeles, Orange, Riverside, San Bernardino, San 
Diego, and Ventura Counties. The protection and improvement of Colorado 
River water quality through an effective salinity control program will 
avoid the additional economic damages to users in California and the 
other States that rely on Colorado River water resources.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission (CRITFC) is pleased to share its view on 
the Department of Interior, Bureau of Indian Affairs' (BIA) fiscal year 
2017 budget. We have specifically identified the following funding 
needs and one request for review:

    1.  $9.95 million for Columbia River Fisheries Management under 
Rights Protection Implementation, ($5.3 million above fiscal year 
2016), to meet the base program funding needs of the Commission and the 
fisheries programs of our member tribes;
    2.  $4.8 million for U.S./Canada Pacific Salmon Treaty under Rights 
Protection Implementation, ($520,000 above fiscal year 2016) to 
implement obligations under the recent agreements adopted by the U.S. 
and Canada;
    3.  $8.0 million for Tribal Climate Resilience under Rights 
Protection Implementation to assist tribes in climate change adaptation 
and planning (supporting the POTUS request);
    4.  $10.4 million for Fish, Wildlife and Parks Projects, 
(supporting the POTUS request);
    5.  $352.5 million for Public Safety and Justice, of which $943,000 
supports enforcement of Federal laws at In-Lieu and Treaty Fishing 
Access Sites on the Columbia River.
History and Background
    CRITFC was founded in 1977 by the four Columbia River Treaty 
Tribes: Confederated Tribes of the Umatilla Indian Reservation, 
Confederated Tribes of the Warm Springs Reservation of Oregon, 
Confederated Tribes and Bands of the Yakama Nation, and the Nez Perce 
Tribe. CRITFC provides coordination and technical assistance to these 
tribes in regional, national and international efforts to protect and 
restore our shared salmon resource and the habitat upon which it 
depends. Our collective ancestral homeland covers nearly one-third of 
the entire Columbia River Basin in the United States, an area the size 
of the State of Georgia.
    In 1855, the U.S. entered into treaties with the four tribes \1\ 
whereupon we ceded millions of acres of our homelands to the U.S. In 
return, the U.S. pledged to honor our ancestral rights, including the 
right to fish in all Usual and Accustomed locations. Unfortunately, a 
perilous history brought the salmon resource to the edge of extinction 
with 12 salmon and steelhead populations in the Columbia Basin listed 
under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Nation, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    The CRITFC tribes have arrived as globally-recognized leaders in 
fisheries restoration and management working in collaboration with 
State, Federal and private entities. We are principals in the region's 
efforts to halt the decline of salmon, lamprey and sturgeon populations 
and rebuild them to levels that support ceremonial, subsistence and 
commercial harvests. To achieve these objectives, our actions emphasize 
`gravel-to-gravel' management including supplementation of natural 
stocks, healthy watersheds and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. Our programs are 
integrated as much as possible with State and Federal salmon management 
and restoration efforts.
Columbia River Fisheries Management Within Rights Protection 
        Implementation
    We are succeeding. The salmon, returning in greater numbers, tell 
us so. But along with success, management increases in complexity, 
requiring greater data collection and enforcement. Funding shortfalls 
prohibit the achievement of tribal self-determination goals for 
fisheries management, ESA recovery effort, protecting non-listed 
species, conservation enforcement and treaty fishing access site 
maintenance. We request an increase of $4.4 million over fiscal year 
2015 for a new program base of $8.95 million for Columbia River 
Fisheries Management.
    The BIA's Columbia River Fisheries Management line item is the base 
funding that supports the fishery program efforts of CRITFC and the 
four member tribes. Unlike State fish and game agencies, the tribes do 
not have access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux 
funding. The increase will be directed to support the core functions of 
the fisheries management programs of the Commission's member tribes, 
namely enforcement, harvest monitoring and renegotiation support for 
four primary agreements including Columbia River Treaty modernization.
    In 2008, CRITFC and its member tribes struck three landmark 
agreements: (1) the Columbia Basin Fish Accords with Federal action 
agencies overseeing the Federal hydro system in the Columbia Basin,\2\ 
(2) a 10-Year Fisheries Management Plan with Federal, tribal and State 
parties under U.S. v OR, and (3) a new Chinook Chapter of the Pacific 
Salmon Treaty.\3\ These agreements establish regional and international 
commitments on harvest and fish production efforts, commitments to 
critical investments in habitat restoration, and resolving contentious 
issues by seeking balance of the many demands within the Columbia River 
basin. While through these agreements the tribes have committed to 
substantial on-the-ground projects with some additional resources from 
the Bonneville Power Administration, the overall management 
responsibilities of the tribal programs have grown exponentially 
without commensurate increases in BIA base funding capacity. For 
example, the tribes' leadership in addressing Pacific Lamprey declines 
is this species' best hope for survival and recovery. The tribes' are 
also addressing unmet mitigation obligations, such as fish losses 
associated with the John Day and The Dalles dams.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
    \3\ See ``Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_109.pdf.
---------------------------------------------------------------------------
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and CRITFC's ability to successfully 
carry out tribal rights protection, including these agreements, by 
providing sound technical, scientific and policy products to diverse 
legal, public and private forums. Rights Protection Implementation 
funding takes on even greater importance as funding for State co-
management agencies has become inconsistent or decreased. Below are 
priority need areas for CRITFC and our member tribes.
Youth Program Initiatives
    The Columbia River Treaty Tribes place an emphasis on preparing our 
youth for careers in Natural Resources Management. However, our tribes, 
like tribes nation-wide, struggle to overcome barriers to Science, 
Technology, Engineering, and Mathematics achievement, high dropout 
rates, and low percentages of students pursuing natural resources 
majors. Our Place-Based Workforce Development Initiative seeks to 
address these barriers through a blend of technical assistance, intern 
and externship opportunities and a summer Salmon Camp.
Columbia River Treaty Modernization
    The Columbia River Inter-Tribal Fish Commission's member tribes are 
part of a coalition of 15 Columbia Basin tribes whose rights, as well 
as management authorities and responsibilities, are substantially 
affected by the implementation of the Columbia River Treaty. In order 
for treaty modernization to succeed, the Columbia Basin tribes need to 
continue to coordinate internally and with other regional and national 
entities, as well as continue their analytical evaluation of the treaty 
including the impacts of climate change, while the State Department 
evaluates the Regional Recommendation and completes their national 
interests review.
U.S./Canada Pacific Salmon Treaty Under Rights Protection 
        Implementation
    The U.S. and Canada entered into the Pacific Salmon Treaty in 1985 
to conserve and rebuild salmon stocks, provide for optimum production, 
and control salmon interceptions. The treaty established the Pacific 
Salmon Commission (PSC) as a forum to collaborate on intermingled 
salmon stocks. The U.S. Section of the PSC annually develops a 
coordinated budget for tribal, State and Federal programs to ensure 
cost and program efficiencies. Congress increased funding in 2000 in 
order to implement the 1999 Agreement, but funding has significantly 
eroded since then. In 2008, the U.S. and Canada adopted a new long term 
treaty agreement after nearly 3 years of negotiations. Both parties 
agreed to significant new management research and monitoring activities 
to ensure the conservation and rebuilding of the shared salmon 
resource.
    For tribal participants in the Pacific Salmon Treaty, the U.S. 
Section has identified a program need of $4.8 million for the 25 
participating tribes. These funds provide for direct tribal 
participation with the Commission, panels and technical committees. The 
funding enables the tribes to assist in treaty implementation and 
facilitates management protecting trust resources. This funding 
maintains tribal resource assessment and research programs structured 
to fulfill required treaty implementation activities. The fiscal year 
2017 recommended level for this program is an increase of $520,000 
above the fiscal year 2016 enacted level. Our request correlates to the 
U.S. Section's recommendation.
Tribal Climate Resilience
    The Columbia River Treaty Tribes are feeling the effects of Climate 
Change. Shifts are occurring in salmon run timing, and berry and root 
ripening cycles. In 2015, climate-related stress in the form of 
historic forest fires and the loss of up to 400,000 sockeye salmon due 
to elevated water temperatures illustrate our climate crisis. We 
support the President's request of an increase of $2.5 million to 
implement Tribal Climate Resilience. CRITFC is concerned about the 
underlying lack of fairness in the distribution of climate change 
funding with Rights Protection Implementation since the fund's 
appearance in 2014. Attempts at a collaborative process have not 
yielded a consensus. We conditionally support the President's directive 
of a ``competitive process'' as a means to an end. This process could 
lead to a better assessment of treaty-based climate needs and metrics 
to best put dollars on the ground.
Fish, Wildlife and Parks Projects
    We support the President's request to support Federal facilities 
maintenance.
Public Safety and Justice, Criminal Investigations and Police Services
    Public safety continues to be a high priority for CRITFC and our 
tribes. Our conservation and criminal enforcement officers are the 
cornerstone of public safety in the popular and heavily used Columbia 
Gorge area patrolling 150 miles of the Columbia River, including its 
shorelines in Oregon and Washington. In this area we are the primary 
provider of enforcement services at 31 fishing access sites developed 
pursuant to Public Law 87-14 and Public Law 100-581 for use by treaty 
fishers. CRITFC's officers have obtained BIA Special Law Enforcement 
Commissions to aid our efforts protecting and serving tribal members 
and Federal trust properties along the Columbia River. We are also very 
pleased that the BIA has created OJS District 8 and housed it in 
Portland. CRITFC entered into a Public Law 93-638 contract with BIA in 
February 2011 for enforcement services along the Columbia River. That 
contract currently provides funding for two enforcement positions.
    Our immediate priority is to add two patrol officers, one sergeant, 
one investigator and one dispatcher. Full funding for this Enforcement 
need is $943,000 which would support a total of four officers, one 
sergeant, an investigator and a dispatcher.
A Request for Review of Salmon Mass-Marking Programs
    CRITFC endeavors to secure a unified hatchery strategy among 
tribal, Federal and State co-managers. To that end, we seek to build 
hatchery programs using the best available science, regional expertise 
and supported by adequate, efficient budgets. A congressional 
requirement, delivered through prior appropriations language, to 
visibly mark all salmon produced in federally funded hatcheries 
circumvents local decisionmaking and should be reconsidered. We have 
requested that Federal mass-marking requirements, and correlated 
funding, be reviewed for compatibility with our overall objective of 
ESA delisting and with prevailing laws and agreements: U.S. v Oregon, 
Pacific Salmon Treaty and the Columbia Basin Fish Accords.\4\ Salmon 
managers should be provided the latitude to make case-by-case decisions 
whether to mark fish and, if so, in the appropriate percentages.
---------------------------------------------------------------------------
    \4\ Letter from Bruce Jim, Chairman, Columbia River Inter-Tribal 
Fish Commission to U.S. House of Representatives Chairmen Frank Wolf, 
Mike Simpson and Doc Hastings, July 11, 2011.
---------------------------------------------------------------------------
    In summary, through the combined efforts of the four Columbia River 
Treaty Tribes, supported by a staff of experts, we are proven natural 
resource managers. Our activities benefit the region while also 
essential to the U.S. obligation under treaties, Federal trust 
responsibility, Federal statutes, and court orders. We ask for your 
continued support of our efforts. We are prepared to provide additional 
information you may require on the Department of Interior's BIA budget.
                                 ______
                                 
 Prepared Statement of the Congressional Fire Services Institute, the 
 International Association of Fire Chiefs, and the National Volunteer 
                              Fire Council
    Dear Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee:

    On behalf of the Congressional Fire Services Institute, the 
International Association of Fire Chiefs, and National Volunteer Fire 
Council, thank you for the opportunity to offer written comments on 
appropriations levels for fiscal year 2017. Our organizations urge you 
to fund the Volunteer Fire Assistance (VFA) grant program at $16 
million, the fiscal year 2010-enacted appropriations level, for fiscal 
year 2017.
    As you are aware, the United States is facing an alarming trend 
with the growth of wildland fires. The cost of suppressing these fires 
is reaching new heights as more than 50 percent of the U.S. Forest 
Service's (USFS) annual budget now goes to fighting wildland fires. 
Local fire departments play a key role in assisting the USFS extinguish 
wildland fires. More than 80 percent of wildland fires are extinguished 
on initial attack by local fire departments. The USFS estimates that 
the value of the service provided by local fire departments exceeds $36 
billion per year. Despite the significant value of service provided by 
our Nation's fire and emergency service, the Federal Government's 
commitment to supporting these agencies has dwindled since fiscal year 
2006.
    The VFA program is an extremely successful and effective program 
aimed at supporting fire departments that protect communities with a 
population of 10,000 or less. VFA grants are provided on a 50/50 
matching basis and are generally used to help budget-strapped 
departments procure new equipment, refurbish old fire apparatus, and 
train personnel. According to the USFS, in fiscal year 2015, the VFA 
program assisted 9,318 communities by providing training to 22,272 
firefighters, expanding and organizing 20 fire departments, and 
facilitating the purchase, rehabilitation, and maintenance of $8.1 
million in equipment. While these are impressive accomplishments for 
the VFA program, even more communities could be supported if VFA 
received a proper funding level of $16 million.
    The chart below illustrates the dramatic decrease in funding for 
rural fire departments. Just 10 years ago, in fiscal year 2006, the 
USFS' VFA program was funded at $14 million and the Rural Fire 
Assistance (RFA) program, which was a similarly operated grant program 
at the Department of the Interior (DOI), was funded at $10 million. 
Together, these programs provided $24 million to America's rural fire 
departments. Though these amounts fluctuated over the years, these 
grants provided an average of nearly $21 million per fiscal year to 
rural fire departments. Sadly, the RFA program was eliminated in fiscal 
year 2011 and has not been funded since. In addition to the elimination 
of RFA, VFA received deep cuts of nearly 30 percent in the three fiscal 
years following the elimination of RFA. While VFA has received slight 
funding increases since fiscal year 2013, VFA is still funded at nearly 
20 percent less than it was in fiscal year 2010--a year when $7 million 
in RFA funding also was available to support America's rural fire 
departments.
    The decrease in funding for VFA, coupled with the complete 
elimination of RFA in fiscal year 2011, has significantly hampered the 
ability of local fire departments to partner with the USFS and protect 
at-risk communities. In July 2015, the House unanimously adopted an 
amendment to their fiscal year 2016 Interior, Environment, and Related 
Agencies bill that attempted to provide a modest increase of $1 million 
for VFA. Unfortunately, the Senate did not concur with this amendment 
and the VFA program was funded at $13 million for fiscal year 2016.
    With the elimination of RFA in mind, restoring the VFA program to 
its fiscal year 2010 funding level will allow a greater level of 
operational readiness and capability for thousands of rural fire 
departments across the Nation. Improving the capabilities of these fire 
departments will not only benefit their communities but also the USFS 
as local fire departments will be more effective partners in 
extinguishing wildland fires. Our organizations firmly believe that an 
investment in the VFA program will yield savings for the USFS' Wildland 
Fire Management account.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Thank you for your support of our Nation's rural fire departments 
and for the opportunity to offer these recommendations. We look forward 
to working with you to restore the VFA program to a funding level of 
$16 million and protecting our Nation from the dangers of wildland 
fire.
                                 ______
                                 
              Prepared Statement of The Conservation Fund
    Chairman Murkowski, Ranking Member Udall, and Members of the 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies, thank you for this opportunity to submit outside witness 
testimony on behalf of The Conservation Fund (TCF). TCF supports full 
funding of the President's budget request of $900 million in fiscal 
year 2017 for the Land and Water Conservation Fund (LWCF) discretionary 
and mandatory proposals, which includes the Federal land acquisition 
programs of the Bureau of Land Management ($88.77 million), National 
Park Service ($134.457 million), U.S. Fish and Wildlife Service 
($137.622 million), U.S. Forest Service ($128 million), as well as 
three State grant programs: the U.S. Fish and Wildlife Service's 
Cooperative Endangered Species Conservation Fund ($108.495 million); 
National Park Service's State Conservation Grants ($110.006 million); 
and the U.S. Forest Service's Forest Legacy Program ($100 million). TCF 
also supports full funding of the President's request for the U.S. Fish 
and Wildlife Service's North American Wetlands Conservation Fund 
($35.145 million); the U.S. Forest Service's Community Forest and Open 
Space Conservation Program ($5 million); and the Department of 
Interior's (DOI)--Natural Resource Damage Assessment and Restoration 
Program ($9.229 million). TCF requests funding for the Environmental 
Protection Agency's (EPA) Great Lakes Restoration Initiative ($300 
million); EPA's Clean Water State Revolving Funds ($979.5 million) and 
EPA's Drinking Water State Revolving Funds ($1,020.5 million). 
Additionally, TCF supports the proposals for the Federal Land 
Transaction Facilitation Act reauthorization, the National Park Service 
Centennial Initiative, and the U.S. Forest Service proposal for a 
fiscally responsible funding strategy that considers catastrophic 
wildland fires as disasters (i.e. in line with the Wildland Disaster 
Fund Act).
    TCF is a national, non-profit conservation organization dedicated 
to conserving America's land and water legacy for future generations. 
Established in 1985, TCF works with landowners; Federal, State and 
local agencies; and other partners to conserve our Nation's important 
lands for people, wildlife and communities. To date, TCF has helped our 
partners to conserve over 7.5 million acres. These accomplishments are 
due, in large measure, to the leadership of this subcommittee over many 
years to appropriate funds to acquire lands for future generations, 
working forests, recreational opportunities, wildlife habitat, and many 
other benefits.
    Below are highlights of some benefits of the LWCF and land 
acquisition programs. While these projects show the tremendous 
diversity of benefits of land acquisition for the public, they have one 
thing in common--each of these projects is driven by landowners. Many 
farmers, ranchers and forestland owners have significant financial 
equity in their land. By enabling a landowner to sell a conservation 
easement or fee title, the LWCF program provides landowners with funds 
to stay in business, reinvest in businesses, or meet other financial 
goals.

    As the subcommittee crafts its Interior, Environment and Related 
Agencies Appropriations bill, there are several key points we 
respectfully request you to consider, listed below.

    1.  Land and Water Conservation Fund (LWCF) at $900 million ($475 
discretionary and $425 mandatory).--Funding at the recommended $900 
million is critical for the Nation's premier conservation program, a 
bipartisan agreement from 50 years ago. The Conservation Fund supports 
the President's budget for $475 million in discretionary requests and 
$425 in mandatory requests. LWCF represents a promise to the Nation 
that proceeds from offshore oil and gas development will help protect 
the public trust, and the proposed fiscal year 2017 projects will 
fulfill that mission.

          The LWCF Budget includes Collaborative Landscape Planning 
(CLP) areas that we ask you to support: Island Forests at Risk, High 
Divide, National Trails System, Rivers of the Chesapeake, Florida-
Georgia Longleaf Pine, Southern Blue Ridge, and Pathways to the 
Pacific. In each CLP, several Federal land agencies are partnering with 
States, local groups, non-profits and private interests to support 
conservation and make a lasting impact.

          Bureau of Land Management (BLM) Land Acquisition at $88.77 
million ($43.595 million discretionary and $44.818 million 
mandatory).--The BLM and its National Conservation Lands provide some 
of our Nation's best recreation and historic areas. From exploring 
ancient petroglyphs in the canyon at Agua Fria National Monument in 
Arizona to floating the Upper Colorado River Special Recreation 
Management Area, we request full funding of the agency's discretionary 
and mandatory project lists.

          National Park Service (NPS) Federal Land Acquisition at 
$134.457 million ($68.242 million discretionary and $66.215 million 
mandatory).--Hosting more than 292 million visitors every year, the 
over 400 National Park units provide an economic boost to their local 
communities and those employed directly and indirectly. Funding for NPS 
LWCF will help protect key access points for recreation, historic 
areas, trails and more, including at Little River Canyon National 
Preserve in Alabama and Captain John Smith National Historic Trail in 
Maryland, Virginia, and Delaware. We respectfully request full funding 
of the agency's discretionary and mandatory project lists.

          U.S. Fish and Wildlife Service (FWS) Land Acquisition at 
$137.622 million ($58.655 million discretionary and $78.967 million).--
National Wildlife Refuges (NWR) are our Nation's protectors of clean 
water, clean air, abundant wildlife and world-class recreation. Funding 
for fiscal year 2017 FWS LWCF will help protect water quality in the 
Chesapeake Bay area, critical wildlife habitat at National Wildlife 
Refuges in Montana and many other important places. We respectfully 
request full funding of the agency's discretionary and mandatory 
project lists.

          U.S. Forest Service (USFS) Land Acquisition at $128 million 
($65.653 million discretionary and $62.347 million mandatory).--USFS 
LWCF funds help with forest management by protecting key inholdings and 
reducing fire threats. From the Pisgah National Forest in North 
Carolina to the Caribou-Targhee National Forest in Idaho, we are 
working with willing landowners at priority project areas and 
respectfully request full funding of the agency's discretionary and 
mandatory project lists.

          LWCF State Grant Programs: FWS-Section 6 Cooperative 
Endangered Species Fund, NPS-State Conservation Grants, and USFS-Forest 
Legacy.--We encourage the subcommittee to fully fund fiscal year 2017 
President's budget request for:

       -- FWS.--Section 6 Cooperative Endangered Species Conservation 
        Fund: $108.495 million
       -- NPS.--State Conservation Grants: $110.006 million
       -- USFS.--Forest Legacy Program: $100 million

    2.  DOI and USFS Land Acquisition Programs.--TCF encourages the 
subcommittee to fund:

       -- FWS.--North American Wetlands Conservation Fund: $35.145 
        million
       -- USFS.--Community Forest and Open Space Conservation Program: 
        $5 million

    3.  Department of Interior--Natural Resource Damage Assessment and 
Restoration Program at $9.229 million.--The Restoration Program leads 
the national response for recovery of natural resources that have been 
injured or destroyed as a result of oil spills or releases of other 
hazardous substances. Recoveries from responsible parties can only be 
spent to implement restoration plans developed by the Trustee Council 
for each incident. These funds are one hundred percent private and 
represent the amount needed to restore environmental resources or 
compensate for lost public use since the damage in question. The fiscal 
year 2017 funds would allow the Program to add carefully targeted staff 
allocated to Interior bureaus and offices through its Restoration 
Support Unit in order to accelerate restoration activities.

    4.  Environmental Protection Agency--Great Lakes Restoration 
Initiative (GRLI) at $300 million.--TCF urges funding of GLRI at $300 
million. The Initiative provides critical support for on-the-ground 
restoration programs and projects targeted at the most significant 
environmental problems in the Great Lakes ecosystem. Over the past 5 
years, the Initiative has opened up fish access to more than 3,400 
miles of rivers, expanding recreational opportunities. It has also 
accelerated the cleanup of toxic hotspots, resulting in the delisting 
of three formerly contaminated sites.

    5.  Environmental Protection Agency--State Revolving Funds.--TCF 
encourages the Committee to fund:

       -- Clean Water State Revolving Fund: $979.5 million
       -- Drinking Water State Revolving Fund: $1,020.5 million

    6.  Reauthorization of the Federal Land Transaction Facilitation 
Act.--We support the fiscal year 2017 President's budget request to 
reauthorize the Federal Land Transaction Facilitation Act (FLTFA). 
FLTFA is a western Federal lands program that facilitates strategic 
Federal land sales by the BLM in order to provide funding for high-
priority land conservation within or adjacent to Federal lands in the 
eleven contiguous western States and Alaska. Over 165 groups are 
working together to support Congress' efforts to reauthorize FLTFA. 
FLTFA expired in 2011, and reauthorization will enhance the lands and 
economy by facilitating Federal land sales and conservation 
transactions, at no cost to the taxpayer.

    7.  Wildlife Disaster Funding Act (S. 235 and H.R. 167) and 
Avoiding Transfers to Wildland Fire Suppression.--We support the 
proposal in the President's budget that would avoid transferring funds 
Congress appropriates to other priority programs to fund wildland fire 
suppression. Unfortunately and again in fiscal year 2015, the 10-year 
average was not enough to meet the USFS suppression needs, forcing the 
agency to transfer $700 million from non-suppression accounts to make 
up for the shortfall. In fiscal year 2016, we are thankful to the 
subcommittee for the full transfer repayment and increased suppression 
funding in--however, we understand this is not expected to occur every 
year, and DOI and USFS need a long-term fire funding solution that 
would result in stable and predictable budgets. We support language 
mirroring the bipartisan Wildfire Disaster Funding Act (S. 235 and H.R. 
167), which is needed to prevent future transfers and ensure that the 
USFS and DOI can achieve their land management objectives by 
implementing activities needed to address the growing buildup of 
hazardous fuels on Federal lands. This language provides the structure 
to fund a portion of the USFS and DOI wildfire suppression costs 
through a budget cap adjustment under the Balanced Budget and Emergency 
Deficit Control Act of 1985, as amended. The funding structure is 
similar to that used by other agencies who respond to natural disaster 
emergencies. We respectfully request a bipartisan fire funding solution 
that would: (1) access disaster funding, (2) minimize transfers, and 
(3) address the continued erosion of agency budgets over time, with the 
goal of reinvesting in key programs that would restore forests to 
healthier conditions.

    The Conservation Fund stands ready to work with you to secure full 
and consistent funding for the LWCF, Forest Legacy, and the other 
critically important programs that help protect the environment, 
economies, forests, and community values across our Nation. Thank you 
for the opportunity to provide this testimony and your consideration of 
our request.
                                 ______
                                 
   Prepared Statement of the Consolidated Tribal Health Project, Inc.
    The requests of the Consolidated Tribal Health Project, Inc. (CTHP) 
for the fiscal year 2017 Indian Health Service (IHS) budget are as 
follows:

  --Provide mandatory funding for contract support costs, and eliminate 
        language that may be misread to conflict with the carryover 
        funding authority in the Indian Self-Determination and 
        Education Assistance Act.
  --Shield the IHS from sequestration in fiscal year 2017 and beyond.
  --Place IHS funding on an advance appropriations basis.
  --Provide funding for built-in costs.
  --Provide the requested $25 million increase for behavioral health.

    The Consolidated Tribal Health Project, Inc. is an intertribal 
consortium of nine tribes in Mendocino County in Northern California. 
We serve more than 3,200 patients, more than three-quarters of whom are 
American Indian and Alaska Native. We provide comprehensive medical, 
dental, and behavioral healthcare to our patients, as well as 
traditional healing and cultural events each month, home visits, and 
health screenings, and--through the Purchased and Referred Care 
program--manage care for our patients when they need services beyond 
that which CTHP provides. We operate under a self-governance agreement 
with the IHS under the Indian Self-Determination and Education 
Assistance Act (ISDEAA).\1\
---------------------------------------------------------------------------
    \1\ Our consortium includes the Cahto Indian Tribe of the 
Laytonville Rancheria, Coyote Valley Band of Pomo Indians, Guidiville 
Rancheria, Hopland Band of Pomo Indians, Pinoleville Pomo Nation, 
Potter Valley Tribe, Redwood Valley Rancheria, Sherwood Valley 
Rancheria, and an ex oficio member from the Yokayo Provisional Council 
Tribe. We serve both Native and non-Native patients in our area.
---------------------------------------------------------------------------
    As an intertribal organization providing healthcare services via an 
ISDEAA agreement, we wish to highlight structural changes in the budget 
of the IHS that we believe are necessary to ensure the agency's 
programs and healthcare outcomes for Native people can continue to 
improve.
    Contract Support Costs Mandatory Funding. We wish to thank Congress 
for fully funding Contract Support Costs (CSC) in fiscal year 2016. For 
fiscal year 2017, we support the President's request for an 
appropriation of ``such sums as may be necessary,'' with an estimated 
$800 million for CSC for the IHS, provided in a separate account in the 
IHS's discretionary budget. We strongly disagree with the proviso that 
was included in both the fiscal year 2016 appropriations language and 
the administration's proposed fiscal year 2017 budget, which states: 
``amounts obligated but not expended by a tribe or tribal organization 
for contract support costs for such agreements for the current fiscal 
year shall be applied to contract support costs otherwise due for such 
agreements for subsequent fiscal years.'' This proviso is concerning to 
us because it could be misread to effectively deny the carryover 
authority granted by the Indian Self-Determination and Education 
Assistance Act. We thus ask that the proviso be removed for fiscal year 
2017 and not included in future appropriations for CSC.
    We also support the administration's proposal to fully fund CSC on 
a mandatory basis in fiscal years 2018-2020, though we would prefer 
that begin in fiscal year 2017 and, of course, that it be a permanent, 
indefinite appropriation.
    We understand that Member-to-Member communications are incredibly 
important. You have had a lot of experience in the past speaking with 
Native leaders about their frustrations regarding the inequity of 
tribes and tribal organizations who contract to assume administration 
of Federal programs without being paid for the costs to administer 
them. We ask for your active help in working with the Budget Committee 
and any others on this proposal for mandatory CSC funding.
    Protect the IHS from Sequestration. We are glad that Congress took 
action to avert a sequestration of IHS funds in fiscal years 2014, 
2015, and 2016. However, we are concerned that the IHS's funding may be 
subject to sequestration in future years. The IHS was subject to 
sequestration in fiscal year 2013 of roughly 5 percent of its overall 
budget, even though other health programs--such as the Veterans 
Administration (VA), State Medicaid grants and most of Medicare--were 
not. The VA was made fully exempt from sequestration for all programs 
administered by the VA. See Sec. 255 of the Balanced Budget and 
Emergency Deficit Control Act (BBEDCA), as amended by Public Law 111-
139 (2010). We strongly urge Congress to fully exempt the IHS from any 
future sequestration, just as the VA and other health programs are 
exempt.
    IHS Advance Appropriations. We ask to Committee to transition the 
IHS budget to an advance appropriations basis. We know you are 
sympathetic to our frustrations caused by the funding of IHS and other 
Federal agencies via Continuing Resolutions. Over the past several 
fiscal periods, appropriations have been enacted well after the 
beginning of the Federal fiscal year. The current (fiscal year 2016) 
fiscal year funding was enacted two and half months after the beginning 
of the fiscal year. In fiscal years 2015 and 2014 it was 2.5 and 3.5 
months, respectively. In fiscal year 2013 it was 6 months after the 
start of the fiscal year before the appropriations were enacted. This 
significantly harms our ability to provide healthcare services. We want 
to do the best job possible in planning, decisionmaking and 
administering programs, but are limited by not knowing how much funding 
will be available or when it will be available. It also requires us to 
constantly modify our budget--time and resources that would be better 
devoted to providing healthcare services, improving the efficiency of 
service delivery, or pursing third party reimbursements.
    The Veterans Administration (VA) funding is on an advance basis, 
and the Budget and Appropriations Committees have provided the 
necessary support for that authority. We and others in Indian Country 
were struck by the justification in the proposed fiscal year 2016 
budget (fiscal year 2017 advance appropriations) for the VA:

        For 2017, the Budget requests $63.3 billion in advance 
        appropriations for the three medical care appropriations: 
        Medical Services, Medical Support and Compliance, and Medical 
        Facilities. This request for advance appropriations fulfills 
        the administration's commitment to provide reliable and timely 
        resources to support the delivery of accessible and high-
        quality medical services for veterans. This funding enables 
        timely and predictable funding for VA's medical care to prevent 
        our Nation's veterans from being adversely affected by budget 
        delays, and provides opportunities to more effectively use 
        resources in a constrained fiscal environment. (Appendix, 
        Budget of the U.S. Government, p. 1058).

    The fiscal year 2017 budget proposal continues to discuss VA 
funding in light of the need to provide ``timely, high-quality 
healthcare for the Nation's veterans.'' Our need is no less great and 
the promise made for our healthcare is no less solemn. We ask for 
parity in this regard.
    Funding for Built-in Costs. We appreciate the administration's 
fiscal year 2017 request of $159 million for built-in costs consisting 
of $75.4 million for medical inflation at a 5.8 percent rate; $26 
million for pay costs; and $43.2 million to partially fund population 
growth. Built-in costs are often sacrificed in the budget negotiation 
process, and when they are not includes, it affects all programs. 
Inflation (both medical and non-medical), essential pay raises for 
employees, and population growth are real facts of life that affect our 
ability to provide sufficient healthcare services. We urge Congress to 
fund this request.
    Funding for Behavioral Health. We support the administration's 
much-needed request of a $25 million increase for a Behavioral Health 
Integration Initiative. The goal of that Initiative is to integrate 
behavioral health services into the primary health systems and to 
collaborate with services that may be provided outside the primary 
healthcare delivery system, such as substance abuse and mental health 
services. A portion of the funds ($3.6 million) are to be used for 
tribes and tribal organizations to establish Zero Suicide programs 
focusing on the role of medical and behavioral health systems in the 
prevention of suicide. The Centers for Disease Control and Prevention 
reports that American Indian/Alaska Native youth have the highest rates 
of suicide-related fatalities in the Nation, and we know it is 
something we struggle with in our communities; we see this funding as 
essential.
    Thank you for the consideration of the concerns and requests of the 
Consolidated Tribal Health Project.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement
    Chair Murkowski, Ranking Member Udall, and members of the 
subcommittee:

    The National Wildlife Refuge System stands alone as the only 
Federal land and water conservation system with a mission that 
prioritizes wildlife and habitat conservation alongside wildlife-
dependent recreation. Since 1995, the Cooperative Alliance for Refuge 
Enhancement (CARE) has worked to showcase the value of the Refuge 
System and to secure a strong congressional commitment for conserving 
these special landscapes.
    Found in every U.S. State and Territory, national wildlife refuges 
conserve a diversity of America's environmentally sensitive and 
economically vital ecosystems, including wetlands, coasts, forests, 
prairie, tundra, deserts, and oceans, and provide Americans with an 
opportunity to encounter and engage with these areas.
    We ask that the subcommittee provide a funding level of $506.6 
million for the Operations and Maintenance accounts of the National 
Wildlife Refuge System for fiscal year 2017. We also thank you for the 
much needed $7 million funding increase for fiscal year 2016--the 
continued support of the subcommittee for refuges will be much 
appreciated by all of our organizations.
    This testimony is submitted on behalf of CARE's 23 member 
organizations, which represent over 16 million American hunters, 
anglers, bird and wildlife watchers, scientists, managers, and 
concerned citizens passionate about wildlife conservation and related 
recreational opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
Sportsmen's Alliance
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Theodore Roosevelt Conservation Partnership
Trout Unlimited
Wildlife Forever
Wildlife Management Institute

    The National Wildlife Refuge System, established by President 
Theodore Roosevelt in 1903, protects approximately 150 million acres on 
563 national wildlife refuges and 38 wetland management districts in 
every State and Territory in the United States. An additional 418 
million acres of water within the Pacific marine monuments round out 
the total of 568 million acres within the management jurisdiction of 
the Refuge System. From the Virgin Islands to Guam to Alaska to Maine, 
the Refuge System spans 12 time zones and protects America's natural 
heritage in habitats ranging from arctic tundra to arid desert, boreal 
forest to sagebrush grassland, and prairie wetlands to coral reefs.
    A refuge is within an hour's drive from most metropolitan areas, 
enabling the Refuge System to attract a growing number of visitors each 
year (48.5 million in fiscal year 2015, up from 46.5 million just 2 
years before) providing opportunities for hunting, fishing, wildlife 
observation, photography, kayaking, hiking, and outdoor education. In 
fact, from 2006-2011, during our Nation's greatest economic recession 
since the Great Depression, visitation to our national wildlife refuges 
increased by 30 percent, showcasing the value Americans place on the 
Refuge System.
    CARE welcomes recreational use of our refuges. Refuge visitors 
generate $2.4 billion annually to local and regional economies--on 
average returning $4.87 in economic activity for every $1 
appropriated--and support 35,000 U.S. jobs.\1\ In addition, refuges 
provide major environmental and health benefits, such as filtering 
storm water before it is carried downstream and fills municipal 
aquifers; reducing flooding by capturing excess rainwater; and 
minimizing the damage to coastal communities from storm surges. Refuges 
generate more than $32.3 billion in these ecosystem services each year, 
a return of over $65 for every $1 appropriated by Congress.\2\
---------------------------------------------------------------------------
    \1\ Banking on Nature, U.S. Fish and Wildlife Service, October 
2013, http://www.fws.gov/refuges/about/refugereports/pdfs/
BankingOnNature2013.pdf.
    \2\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation, and Historic Preservation in the United States, 
Southwick Associates, October 2011, https://www.fws.gov/refuges/news/
pdfs/TheEconomicValueofOutdoorRecreation[1].pdf.
---------------------------------------------------------------------------
    The Refuge System budget is now $77 million below the level needed 
to keep pace with inflation plus salary increases, relative to the 
fiscal year 2010 budget of $503.2 million. Workforce has declined in 
that time by over 500 positions, who provided services such as 
administration, maintenance, fire management, wildlife management, and 
research support. That is a loss of 1 out of 7 refuge positions. As a 
result, refuges are struggling to be maintained and provide the 
adequate visitor services, environmental education, access for hunting, 
and law enforcement that will ensure healthy habitat and a safe and 
enjoyable visitor experience.
    Unfortunately, inadequate funding threatens the System's ability to 
carry out its mission, which is mandated by the National Wildlife 
Refuge System Improvement Act of 1997. Between fiscal year 2010 and 
fiscal year 2013, Refuge System funding was reduced by $50 million--a 
10 percent cut. Even with increased budgets in fiscal year 2016 to $481 
million, the Refuge System continues to function at unsustainable 
levels. CARE estimates that the Refuge System needs at least $900 
million in annual operations and maintenance funding to meet 
conservation targets, including wildlife management, habitat 
restoration, and opportunities for public recreation.
    The fiscal year 2015 Refuge Annual Performance Plan (RAPP) reports 
revealed falling performance rates in several important System 
categories--as a direct result of funding shortfalls--including habitat 
condition, habitat restoration, recreation opportunities, volunteerism, 
and scientific research. The following measures for which performance 
declined from fiscal year 2010 to fiscal year 2015:

  --Open water acres restored (-63 percent)
  --Wetland acres restored (-70 percent)
  --Acres of non-native, invasive plants controlled (-58 percent)
  --Number of invasive animal populations controlled during the year 
        (-55 percent)
  --Acres treated for non-native, invasive plants (-34 percent)
  --Riparian miles restored (-30 percent)
  --Acres of farming (-30 percent)
  --Total refuge acres receiving needed management (-12 percent)
  --Number of volunteers (-14 percent)
  --Fishing visits (-5 percent)

    However, many measures of public use increased for the Refuge 
System over this same timeframe, despite budget shortfalls. Funding for 
fiscal year 2017 needs to ensure Americans will be able to continue 
these valuable recreational activities. These include:

  --Hunting visits (+2 percent)
  --Waterfowl hunt visits (+7 percent)
  --Photography participants (+52 percent)
  --Number of boat trail visits (+18 percent)
  --Acres of prescribed grazing (+13 percent)
  --Wildlife observation visits (+12 percent)
  --Number of visitors (+9 percent)

    Refuge visitation is growing and is expected to continue. In fact, 
from fiscal year 2010 to fiscal year 2015, the Refuge System welcomed 9 
percent more visitors. However, refuges are losing valuable staff 
committed to visitors and volunteers. We thank you for the $500,000 
increase to the visitor services budget line in fiscal year 2016, which 
will be helpful in slowing that loss. Volunteers provide numerous 
benefits to the Systems, from staffing refuge nature stores, 
maintenance, interpretation, and much more. These volunteer can only 
work when the System is reasonably staffed and thus able to extend 
requisite volunteer training and oversight.
    Further reductions or stagnation in Refuge System funding will 
likely show continued declines in the System's conservation work and 
public use opportunities. If annual operations and maintenance funding 
does not rise, CARE anticipates further impacts both within and outside 
of refuge boundaries, including:

  --Reduced treatment of invasive plants, reducing habitat quality for 
        wildlife (both game and non-game) and placing nearby private 
        lands at higher risk of infestations;
  --Decreased use of prescribed fire, which is used on refuges both to 
        improve habitat for wildlife and to reduce hazardous fuels that 
        pose a wildfire risk to nearby communities;
  --Reduced number and quality of visitor programs, with visitor 
        centers operating at fewer hours, and delayed plans to add or 
        expand hunting programs at refuges;
  --Lost revenue for local communities as visitor numbers drop. 
        According to the U.S. Fish and Wildlife Service fiscal year 
        2013 budget justification, ``Each 1 percent increase or 
        decrease in visitation impacts $16.9 million in total economic 
        activity, 268 jobs, $5.4 million in job-related income, and 
        $608,000 in tax revenue.''
  --Elimination of ancillary functions like FWS's operation of 
        Henderson Field at Midway Atoll National Wildlife Refuge, which 
        serves as a critical emergency landing site for trans-pacific 
        flights, as well as the public's main window to the vast marine 
        national monuments.

    Challenges abound throughout the system. In California, years of 
severe drought have caused a dramatic reduction of water deliveries to 
wildlife refuges, while proposals to change deliveries from higher 
quality surface water to brackish groundwater threaten the 
functionality of these refuges as waterfowl habitat. In Minnesota, the 
Morris Wetland Management District has seen a staffing reduction of 70 
percent leading to the conversion of native prairie and waterfowl 
habitat to forest as a result of decreased fire management of wetland 
habitats. At the Loxahatchee NWR in Florida, instead of healthy takes, 
alligator hunters found emaciated animals severely impacted by the 
drastic increase in invasive species on the refuge.
    The common denominator to all these challenges is a lack of 
funding. Adequate staffing and funding are critical to the maintenance 
of healthy wildlife populations and access for recreational users to a 
healthy ecosystem.
    We understand the budget constraints the subcommittee is working 
under; however, we see the systemic declines in performance of the 
Refuge System on a daily basis due to the lack of adequate funding. As 
stated above, the System needs a minimum of $900 million each year to 
function the way it was intended, and CARE is dedicated to working with 
your subcommittee to see that this goal is reached.
    CARE is supporting the President's request of $506.6 million for 
fiscal year 2017, although it is substantially less than what the 
System needs. Albeit roughly half the optimal funding amount, $506.6 
million is a $25 million increase, and we hope it will help the System 
maintain its ability to manage refuge lands as intended in their 
purpose for the benefit of the American people. If the requested 
funding level is satisfied, the Refuge System can better:

  --Conduct management and restoration activities to provide healthy 
        habitats that attract wildlife and, in turn, draw visitors and 
        increase economic return to communities;
  --Keep refuges open and staffed so quality recreational opportunities 
        continue to be offered to the public;
  --Maintain facilities and equipment used to serve the public and 
        manage habitat;
  --Provide Federal wildlife officers needed to keep refuge resources 
        and people safe.

    CARE is also requesting an additional $6 million necessary to 
recoup the cost of the occupation of the Malheur NWR in Oregon. For 40 
days this winter, armed occupiers took over the refuge, causing injury 
to infrastructure and habitat. Without these additional funds, all 
costs currently incurred will be taken out of the Service's operating 
budget, reducing the amount available to the rest of the System.
    We urge Congress to fund the Refuge System at $506.6 m in fiscal 
year 2017--to bridge the growing gap between what the System needs and 
what it receives, enabling refuges to continue moving America forward.
    On behalf of our more than 16 million members and supporters, CARE 
thanks the subcommittee for the opportunity to submit comments on the 
fiscal year 2017 Senate Interior Appropriations bill.
                                 ______
                                 
                Prepared Statement of the Corps Network
    Dear Chairwoman Murkowski and Ranking Member Udall;

    We write to respectfully urge your support for funding the 
Department of Interior (DOI) and U.S. Forest Service (USFS) in fiscal 
year 2017. As you craft the Interior appropriations bill, we encourage 
you take into account the significant leveraging of limited Federal 
resources our Corps accomplish in partnership with these land 
management agencies, and ensure they have adequate funding to expand on 
our proven and cost-effective public-private partnerships.
    In particular, Corps of the Corps Network around the country 
support DOI and USFS budgets for operation, maintenance, and 
construction which are used to engage Corps to help address the 
billions in backlogged projects and resource management needs on public 
lands; the Engaging the Next Generation proposals; the Centennial 
Initiative; and funding for Wildland Fire Management through both DOI 
and USFS. By partnering with Corps, agencies achieve much more with 
their budgets and also provide opportunity for youth and veterans to 
learn job skills and while accomplishing high-priority projects.
    Additionally, these accounts help support partnerships with our 
21st Century Conservation Service Corps (21CSC) initiative, which has 
received bipartisan support in Congress from Senators John McCain and 
Michael Bennet, and out, from Former Army General Stanley McChrystal 
and President Bush's Domestic Policy Advisor, John Bridgeland. We're 
privileged to also have the support of the past four secretaries of the 
interior--two Republicans and two Democrats--and private sector support 
from KEEN, the North Face, American Eagle Outfitters, the Outdoor 
Industry Association, and other organizations like the Vet Voice 
Foundation, and the American Recreation Coalition.
    Thank you for your efforts in ensuring those accounts were strong 
in the Consolidated Appropriations Act of 2016. With additional support 
from the 2016 Act, our Corps will help accomplish millions in critical 
projects and engage the next generation of resource management leaders 
while also multiplying limited Federal funds. For example, Corps have 
utilized $150 million in project funding from DOI and USFS over the 
past 3 years and turned that into millions more in matched funds and 
service projects, with the added benefit of engaging youth and veterans 
in meaningful hands-on work experiences outdoors.

    In 2015 alone, our Corps around the country have:

  --Restored 567,000 acres of ecological habitat
  --Removed 365,000 acres of invasive species
  --Reduced 32,000 acres of hazardous fire fuel
  --Responded to 500 wildfire remediation and response needs
  --Built and maintained 11,000 miles of multi-use trails
  --Maintained and improved 16,000 parks and public spaces/facilities
  --Planted and maintained 2.8 million trees

    The Corps Network represents our country's 130+ Service and 
Conservation Corps. Descended from the Civilian Conservation Corps 
(CCC), today's Corps provide youth and veterans with the opportunity to 
advance their education, obtain critical career-readiness and job 
skills, and earn a stipend while they perform important conservation 
service projects on public lands. Collectively, our Corps enroll 24,000 
Corpsmembers, engage an additional 100,000 volunteers, and complete 
thousands of service projects valuing hundreds of millions of dollars 
each year, with volunteer hours valued at nearly $10 million each year.
    Project sponsors consistently express a high degree of satisfaction 
with the quality of work and productivity of Corps. Virtually all 
Federal project partners (99.6 percent) say they would work with Corps 
again and an independent study commissioned by the National Park 
Service found an over 50 percent cost savings in using Corps on 
projects. In addition, the Corps Model has been rigorously tested and 
proven to be an effective youth development model and a recent study 
found that Corpsmembers gained significant career and leadership skills 
like teamwork, community engagement, critical thinking, and 
communication through their term of service.
    Corps also work to be inclusive and engage many veterans, Native 
Americans, and disconnected youth who have either dropped out of school 
or are unemployed. Over half of Corpsmembers are minorities and nearly 
half are women. In addition to the normal work week, Corpsmembers 
receive a wide range of personal and professional development 
including, but not limited to: workforce services; adult and peer-
mentoring; academic programming; industry-recognized certificates and 
credentials; and a modest stipend--all to prepare them for 
postsecondary education and/or career success.
Fiscal Year 2017 Interior Appropriations Priorities
    The Corps Network respectfully urges the subcommittee to support 
these programs that will allow public land management agencies to 
engage youth and veterans through Corps to leverage Federal funds to 
address more backlogged maintenance needs:

  --Department of Interior--Engaging the Next Generation: $102 million 
        in fiscal year 2017; funded at $64.8 million in fiscal year 
        2016
  --Department of Interior--Wildland Fire Management: $1.1 billion in 
        fiscal year 2017; funded at $993 million in fiscal year 2016
  --National Park Service--Operation: $2.5 billion in fiscal year 2017; 
        funded at $2.3 billion in fiscal year 2016
  --National Park Service--Centennial Initiative: $730.9 million in 
        fiscal year 2017; funded at $15 million in fiscal year 2016 
        (includes NPS Centennial Act authorizations--$500 million)
  --Bureau of Land Management--Management of Lands and Resources: 
        $1.075 billion in fiscal year 2017; funded at $1.072 in fiscal 
        year 2016
  --Bureau of Reclamation--Water & Related Resources: $813.4 million in 
        fiscal year 2017; funded at $1.18 billion in fiscal year 2016
  --Bureau of Indian Affairs--Construction: $196 million in fiscal year 
        2017; funded at $194 in fiscal year 2016
  --Fish and Wildlife Service--Construction: $23.7 million in fiscal 
        year 2017; funded at $23.6 million in fiscal year 2016
  --U.S. Forest Service--National Forest System: $1.5 billion in fiscal 
        year 2017; funded at $1.5 billion in fiscal year 2016
  --U.S. Forest Service--Capital Improvement and Maintenance: $343 
        million in fiscal year 2017; funded at $364 million in fiscal 
        year 2016
  --U.S. Forest Service--Wildland Fire Management: $2.45 billion in 
        fiscal year 2017; funded at $2.38 billion in fiscal year 2016

    All these programs help Corps leverage Federal dollars to engage 
thousands of youth and veterans improving and restoring our Nation's 
lands, water, and recreation assets. The construction and operation 
accounts are important as they are the main source of project funding, 
and help the agencies address their backlog maintenance issues. The 
Centennial Initiative is an innovative approach to addressing the 
myriad of issues in the national parks and this year's proposal from 
DOI is targeted toward addressing the deferred maintenance backlog on 
the NPS' highest priority non-transportation assets.
    To build on that work, we also support DOI's Engaging the Next 
Generation proposal which is intended to promote public-private 
partnerships to maximize opportunities for youth through visitor and 
educational programs, partnerships, volunteerism, and our innovative 
21st Century Conservation Service Corps Initiative. For example, DOI 
states that ``Collaborative efforts across all levels of government and 
mobilization of the 21st Century Conservation Service Corps resulted in 
several high impact initiatives . . . These initiatives enabled 
significant progress towards Interior's goal to provide 100,000 work 
and training opportunities to young people and veterans by the end of 
2017.''
    The USFS is a major supporter of our 21st Century Conservation 
Service Corps Initiative as well, explaining in their budget and 
strategic priorities that ``Our 21st Century Service Corp (21CSC) 
partnership provides an enormous return on investment, allowing the 
Forest Service to address critical conservation restoration needs and 
simultaneously have a deep and lasting impact on the people who 
participate, thereby building the next generation of natural resource 
professionals.''
    These accounts through USFS enable our Corps to help the USFS 
address important projects. USFS states in their budget that ``The 21st 
Century Conservation Service Corps will continue to provide enhanced 
and expanded opportunities to work with partners to address trails 
maintenance needs and provide improved citizen access to all [USFS] 
trails, including congressionally designated trails.''
    Corps also partner with USFS on critical wildfire remediation and 
fighting and see firsthand the damage that is done to the system, and 
communities, by an outdated budget structure for wildfire needs. We 
support changes to the budgeting process as included in the President's 
budget and in the Wildfire Disaster Funding Act--a bipartisan proposal 
that would fund wildfire suppression in a similar manner to how the 
government currently funds the response to other natural disasters. As 
the USFS notes in its budget justification, ``The cost of fire 
management has grown from 16 percent of the agency's budget in 1995 
to--for the first time in the agency's 110-year history--to over 50 
percent of the budget in 2015. It is subsuming the agency's budget and 
jeopardizing our ability to successfully implement our full mission.''
    As you can see, our Corps work with DOI and USFS in numerous 
capacities to help them better manage our natural resources while 
providing high quality service and work experience outdoors to engage 
thousands of youths and veterans. We understand the fiscal constraints 
placed upon the subcommittee which is why ensuring more partnerships 
and opportunities for our cost-effective public private partnerships is 
more important than ever. We again respectfully urge your support for 
these programs. Thank you for your time and consideration.

    [This statement was submitted by Mary Ellen Sprenkel, President & 
CEO.]
                                 ______
                                 
   Prepared Statement of the Council of Athabascan Tribal Governments
    The Council of Athabascan Tribal Governments (CATG) is a consortium 
of 10 tribal governments located along the Yukon River and its 
tributaries in northeastern Alaska. We provide a variety of services to 
our tribal members, including full healthcare services at the Yukon 
Flats Health Center and village-based clinics in four of our villages. 
We also have Self-Governance agreements with the Fish and Wildlife 
Service and with the Bureau of Land Management.
    We request that you implement the following measures in the fiscal 
year 2017 Appropriations cycle:

  --Non-BIA Interior Self-Governance Agreements.
  --Make full Contract Support Costs funding for the IHS and BIA 
        mandatory, and ensure there are no provisos on indefinite CSC 
        funding that conflict with the carryover funding authority 
        provided by the Indian Self-Determination Act.
  --Support the proposed increases in mental health, suicide prevention 
        and substance abuse spending in the IHS and BIA budgets.
  --Provide funding for built-in costs.
  --Permanently Authorize the Special Diabetes Program for Indians.
  --Provide advance appropriations for the IHS.
  --Maintain funding for tribal court development in Public Law 280 
        States.

Non-BIA Interior Self-Governance Agreements
    CATG is one of the first tribal consortiums in the country to 
develop non-BIA DOI Self-Governance Annual Funding Agreements. However, 
the AFA's are not fully funded for Contract Support Costs that would 
otherwise cost the agencies if they were to manage the same programs, 
functions, services, and activities in our scopes of work.
    We are also concerned that DOI scopes of work are being limited and 
the intent of Self-Governance is not being carried out. During 2016 
negotiations, for the Yukon Flats National Wildlife Refuge AFA, a 
summer intern position was inserted into our Scope of Work by the 
refuge because the agency had not been able to recruit a local intern 
in years past. However, the position was removed at the regional level. 
At first we were told that the agency wanted to test our chosen intern 
for the first year and make sure they were trained by the agency. We 
agreed that, while employed with CATG, we fully expected that the 
agency would provide the training and our employee would be integrated 
into their team of researchers. We were then told that the agency 
preferred to hire and train interns for their eventual hire by the 
agency, not CATG. This is counter to the intent and practice of Self-
Governance, which is to build tribal capacity to take on increasing 
levels of responsibility.
Mandatory Funding for Contract Support Costs
    We are pleased that the fiscal year 2016 funding for contract 
support costs (CSC) was for an indefinite amount, which greatly helped 
to ensure that CSC would be fully funded without having to reprogram 
funding for critical healthcare services and other programmatic funding 
to cover the CSC need.
    For fiscal year 2017, we support the President's request for an 
appropriation of ``such sums as may be necessary,'' with an estimated 
$800 million for CSC for the IHS in a separate account in the IHS's 
discretionary budget. However, we disagree with the proviso that was 
included in the fiscal year 2016 appropriations language, which stated 
as follows: ``amounts obligated but not expended by a tribe or tribal 
organization for contract support costs for such agreements for the 
current fiscal year shall be applied to contract support costs 
otherwise due for such agreements for subsequent fiscal years.'' This 
proviso is concerning to us because it could be misread to effectively 
deny the carryover authority granted by the Indian Self-Determination 
and Education Assistance Act. We thus ask that the proviso be removed 
for fiscal year 2017 and in future appropriations for CSC.
    We also support the administration's proposal to fully fund CSC on 
a mandatory basis and we ask for your help in working with the Budget 
Committee and any others on this proposal for mandatory CSC funding as 
soon as possible.
Increase Funding for Behavioral Health, Suicide Prevention, and Alcohol 
        & Substance Abuse Treatment
    CATG's communities in rural Alaska have a very high rate of suicide 
and suicide attempts, and a similarly high rate of alcohol and 
substance abuse that contributes to myriad other problems, including 
crime, domestic violence, child abuse or neglect. Oftentimes, tribes in 
Alaska have a difficult time working through the State of Alaska to 
provide these services, which adds layers of guidelines, regulations, 
and reduced funding. We strongly believe that tribes and tribal 
organizations should receive behavioral funds directly, because 
programs that implement traditional cultural values are more successful 
than those that do not.
    The administration's request includes $25 million in IHS program 
increases for mental health. Of that amount, $21.4 million would be for 
a behavioral health integration initiative, for which tribes and tribal 
organizations would be eligible to seek funding for the expansion of 
their behavioral health services to areas outside of the traditional 
healthcare system; training; hiring behavioral health staff; and 
community-based programs. Another $3.6 million in the proposal would be 
for funding pilot projects to implement the ``Zero Suicide 
Initiative.'' We request your support for funding the $25 million 
program increase for these critical programs.
    We also ask for your support in expanding the Generations 
Indigenous (Gen-I) initiative, which provides increased resources for 
tribes to address youth behavioral, mental health and substance abuse 
issues. We appreciate the $10 million appropriated in the IHS budget 
for Gen-I in fiscal year 2016, which was critical to hiring staff to 
provide more services and prevention programs for Native youth. For the 
IHS in fiscal year 2017, the administration is requesting a $16.8 
million increase focused on youth: $15 million to expand Gen-I for 
additional staffing and $1.8 million for a pilot program that would 
provide a continuum of care for youth after discharge from a Youth 
Regional Treatment Center. For the BIA the proposal includes an 
increase of $21 million to expand the Tiwahe Initiative designed to 
address the inter-related problems of poverty, violence and substance 
abuse faced by Native communities, including $12.3 million for social 
services programs designed to provide culturally appropriate care. We 
ask for your support for this funding.
Funding for Built-in Costs
    We appreciate the administration's fiscal year 2017 request of $159 
million for built-in costs consisting of $75.4 million for medical 
inflation at a 5.8 percent rate; $26 million for pay costs; and $43.2 
million to partially fund population growth. Built-in costs are often 
sacrificed in the budget negotiation process, but lack of them impacts 
all programs. Inflation--both medical and non-medical, pay raises that 
must be afforded to employees, and population growth are real facts of 
life that impact our ability to provide sufficient healthcare services. 
We urge Congress to fund this request.
SDPI/Advance Appropriations
    We again join with Alaska Native tribes and others throughout 
Indian Country in support of a permanent reauthorization of the Special 
Diabetes Program for Indians and for placing IHS appropriations on an 
advance funding basis. We understand that this will involve 
congressional committees in addition to appropriations and urge your 
support in working for these goals.
Funding for Village Built Clinics in Alaska
    For the last several years, Alaska organizations have submitted 
testimony to this subcommittee on the need to address chronic 
underfunding of Village Built Clinics (VBCs) in Alaska. VBCs, which are 
clinic facilities leased by the IHS from other entities, are a vital 
component of the provision of basic healthcare services in rural 
Alaska, as they serve as the clinic space for the Community Health Aide 
Program (CHAP) under the Indian Health Care Improvement Act. The CHAP, 
which IHS is directed by the IHCIA to carry out, uses a network of 
community health aides and practitioners to provide primary healthcare 
services in rural and isolated areas where access to those services 
might not otherwise exist.
    In 1989, Congress specifically authorized the operation of 170 VBCs 
in Alaska and provided approximately $3 million in funding for the 
program for that year. Since then, Congress has not provided amounts 
specifically for VBCs in the IHS appropriation and IHS has consistently 
under-funded these leases. The VBCs are IHS facilities acquired by 
lease in lieu of construction and should thus be eligible for 
maintenance and improvement funding, but the IHS does not see it that 
way. The IHS can also access other IHS discretionary funds to fully 
fund its VBC obligations. For example, the Indian Health Facilities 
appropriation is a lump-sum appropriation that can be used for 
construction, repair, maintenance, improvements and equipment, and 
includes a sub-activity for maintenance and improvement of IHS 
facilities. IHS nevertheless continues to assert that it provides for 
VBC leases all of the funds that Congress has appropriated for the 
program. The chronic underfunding over decades has resulted in 
deterioration and in some cases closure of VBC facilities, threatening 
the CHAP itself and access to basic healthcare services for rural 
Alaskans that hinges on the continued availability of properly 
maintained VBC space.
    Recently, a coalition made up of the regional tribal health 
organizations in Alaska, the Alaska Native Health Board and the Alaska 
Native Tribal Health Consortium, updated a VBC needs assessment in 
2015, and called ``Village Built Clinics in Crisis 2015.'' The report 
estimates that $12.5 million more per year, in addition to the current 
VBC allocation from IHS of about $4.5 million, would be needed to 
maintain and operate Alaska VBCs on a par with similar tribal health 
facilities elsewhere. This would require a total of $17 million in 
order to adequately fund the operation and maintenance of the 170 VBCs 
in Alaska. In addition, the report calls for approximately $14 million 
annually ``to fully fund the replacement reserve and to remove the 
village clinics from the crisis state they are currently 
experiencing.'' CATG therefore urges that Congress appropriate at least 
an additional $12.5 million to fully fund VBC leases and that IHS be 
directed to use it to fully fund such leases. We request that you 
direct the IHS to (1) identify the amount needed to fully fund all 
Alaska VBCs, (2) ask for that amount in a separate line in the IHS 
budget, and (3) allocate that amount to the VBC lease program.
Maintain Funding for Tribal Courts in Public Law 280 States
    In the fiscal year 2016 appropriations act $10 million was added 
for the BIA Office of Tribal Justice Support to work with tribes and 
tribal organizations to, in the words of the Senate Appropriations 
Committee report, ``assess needs, consider options, and design, 
develop, and pilot tribal court systems for tribal communities 
including those communities subject to full or partial State 
jurisdiction under Public Law 83-280.'' The administration's fiscal 
year 2017 request would reduce that amount by $8 million. Given the 
need in Alaska, the tribal jurisdiction provisions of the Tribal Law 
and Order Act and the Violence Against Women Act, we ask that this 
funding be maintained at its fiscal year 2016 level.
    Thank you for your consideration of our concerns and requests. We 
are happy to respond to questions or provide any additional information 
you may request.
                                 ______
                                 
   Prepared Statement in Support of the Creation and Operation of an 
                  Outdoor Recreation Satellite Account
    Dear Senators Murkowski and Udall:

    We request your action in the fiscal year 2017 budget to fund the 
creation and operation of an Outdoor Recreation Satellite Account 
(ORSA) to better assess the economic significance of programs and 
policies under the jurisdiction of your subcommittee, chiefly within 
the Departments of the Interior and Agriculture.
    The Nation's public lands and waters play an essential role for the 
recreation industry. Virtually all Americans participate in some form 
of outdoor activity at these places. This activity results in an 
estimated $650 billion in annual expenditures on RVs and boats, lift 
tickets and entrance fees, fishing and hunting licenses and surfboards, 
campground fees and OHVs--and much more. Expenditures on recreation 
create manufacturing jobs, jobs in retailing and repairs, lifeguard 
posts at public beaches and guide jobs in the backcountry, jobs at 
insurance firms and hotels. Federal agencies host more than a billion 
recreation visits and now tout the direct contributions to local and 
national economies. The National Park Service claims 10 dollars in 
spending for each 1 dollar it receives in appropriated funding. The 
Forest Service notes that its lands supply an estimated 60 percent of 
all downhill ski and snowboarding activity, all at privately built and 
operated ski areas.
    Many of those signing this letter regularly collect and make 
available very useful data on the economic activities associated with a 
specific recreation industry. But this data is not standard in format 
and often fails to capture the full array of spending linked to 
recreation activity. A trusted, comprehensive report is needed.
    The leadership of the Federal agencies most active on recreation is 
represented on a multi-departmental body called the Federal Recreation 
Council (FRC). That Council has made the creation of a Recreation 
Satellite Account by the Bureau of Economic Analysis its highest 
priority. Creation of the account is, by national standards, very 
reasonable. The Department of Commerce, which has recently created 
similar satellite accounts for the arts, and for travel and tourism, 
estimates that the account can be in place in 3 years or less at a cost 
of approximately $3.5 million.

    We endorse a recent statement by the FRC:

          ``ORSA will directly and efficiently benefit both the private 
        and public sectors, including the outdoor recreation industry 
        and business interests, as well as the public policy community, 
        by providing a ready means to assist in the evaluation of 
        policies, programs, grants and other support or development 
        tools. Creating the satellite account presents an opportunity 
        for detailed and defensible data to inform decisionmaking, 
        improving governance and long-term management of public lands 
        and waters.''

    The ORSA information is vital to making good choices in allocating 
Federal funds through the budget process--for your very subcommittee to 
make strategic decisions. Yet currently available information is not 
from the best possible public sources. Rather it has been created on an 
irregular basis by the recreation industry itself.
    Yet the implementation of this account is in limbo. Although the 
funds are a very small portion of existing Federal recreation program 
funding approved every year by your subcommittee--and about 1 percent 
of existing Federal recreation fee collections--the money does compete 
with other popular recreation expenditures.
    We call upon the Congress to invest immediately in creating the 
Outdoor Recreation Satellite Account as a vital tool in assessing 
Federal program priorities and benefits. We ask that this be done in a 
way which does not impact highly popular recreation services, but 
instead as a vital part of effective governmental program management 
activities.
    We urge that the fiscal year 2017 budget provide for complete 
implementation of the Outdoor Recreation Satellite Account on a 
priority basis. The path forward is clear. Congressional action 
recently created and funded an Arts and Cultural Production Satellite 
Account. Similarly, a Travel and Tourism Satellite Account has been 
recently created. The data is already being collected. It simply needs 
to be organized so it can be appropriately aggregated from traditional 
reporting accounts.
    Thank you for your consideration of this request.

            Sincerely,

Derrick A. Crandall, President, American Recreation Coalition
Michael Nussman, President, American Sportfishing Association
Jay McAninch, President and CEO, Archery Trade Association
Paul Bambei, President, ARVC--National Association of RV Parks and 
        Campgrounds
Brad Gross, Chair, Association of Marina Industries
Margaret Podlich, President, BoatU.S.
Geoff Baekey, Managing Director, CHM Government Services
Mary Ellen Sprenkel, President, The Corps Network
Ed Klim, President, International Snowmobile Manufacturers Association
Matt Gruhn, President, Marine Retailers Association of the Americas
Tim Buche, President, Motorcycle Industry Council
John Johnson, Executive Director, National Association of State Boating 
        Law Administrators
Domenic Bravo, President, National Association of State Park Directors
Thom Dammrich, President, National Marine Manufacturers Association
Terry MacRae, Chairman, National Park Hospitality Association
Barbara Tulipane, President, National Recreation and Park Association
Michael Berry, President, National Ski Areas Association
Amy Roberts, Executive Director, Outdoor Industry Association
Phil Ingrassia, President, Recreation Vehicle Dealers Association
Frank Hugelmeyer, President, Recreation Vehicle Industry Association
Nick Sargent, President, SnowSports Industries America (SIA)
Ron Christofferson, President, States Organization for Boating Access
                                 ______
                                 
              Prepared Statement of The Creative Coalition

    [This statement is submitted by Robin Bronk, CEO, and Tim Daly, 
                              President.]

    Chairman Murkowski, Ranking Member Udall and members of the 
subcommittee, thank you for the opportunity to submit written testimony 
regarding the fiscal year 2017 funding level for the National Endowment 
of the Arts (NEA). We are writing on behalf of The Creative Coalition, 
the 501(c)(3), non-profit, non-partisan public advocacy organization of 
the arts and entertainment community to urge Congress to provide $155 
million for NEA in the fiscal year 2017 Department of the Interior, 
environment, and related agencies appropriations bill. We very much 
appreciate the opportunity to express our views on the need for 
sufficient funding for the arts.
    In 1989, actors Ron Silver, Christopher Reeve, Susan Sarandon, Alec 
Baldwin, and others established The Creative Coalition to advocate for 
more significant public investment in America's arts organizations and 
arts education programs like the NEA. The Creative Coalition's 
membership includes actors, directors, producers, writers, 
entertainment industry executives, and others who make their living in 
theater, film, arts, letters, and television.
    The arts help us discover who we are. The leadership of The 
Creative Coalition is living proof of this. Robin grew up in a small, 
rural town in South Carolina where high school plays and community 
theatre productions were part of the lifeblood of the community. One of 
the most influential people in her life was a high school chorus 
teacher who was a master at using the arts to help discover what the 
curriculum was really all about. Many students at D.W. Daniel High 
School learned about math and science from building sets, designing 
light-grids and wiring sound boards. Important lessons about discipline 
and team work came from being a member of the school band.
    Tim grew up in a family of actors and was first on stage when he 
was 7 years old in a play with his parents and two sisters at the Bucks 
County Playhouse in New Hope, Pennsylvania. Since those early days on 
the stage, Tim has played significant roles in three long-running TV 
series and appeared in more than 75 different movies and television 
programs as part of an industry that generates millions of jobs and 
billions of dollars in economic development each year for our country.
    We are pleased that over the last couple of years, arts funding, 
particularly for the NEA, has risen slightly from $146 million in 
fiscal year 2015; to $148 million in fiscal year 2016; to President 
Obama's budget request of $149 million for fiscal year 2017. We 
recognize the significance of these modest funding increases when such 
an emphasis is currently placed upon fiscal constraint. We encourage 
you to continue with this trend and call on you to dedicate $155 
million in fiscal year 2017 for the NEA in its 50th Anniversary year. 
This level of funding would adequately celebrate this milestone and 
better leverage State, local, and private arts funding. Increased 
funding will help to restore critical Federal arts programming--which 
supports creativity and innovation, and provides measured cultural, 
educational, and economic benefits.
    We must acknowledge the compelling data supporting Federal 
investment in the arts. Statistics show that every NEA grant dollar 
spent will leverage 10 more dollars from private and other public 
funds. This far surpasses the required non-Federal match of at least 
one to one. Data also indicates that the non-profit arts industry 
supports 4.13 million jobs in the arts and related industries. The 
Bureau of Economic Analysis and the NEA have calculated the arts and 
culture sector's contributions to the gross domestic product at $698 
billion or 4.32 percent. The data is indisputable that Federal funding 
of the arts is a wise investment.
    However, the benefits of Federal funding for the arts are about 
much more than compelling economic data and leveraging additional 
dollars. One can easily make a connection between NEA funding and 
Federal efforts to support strong fathers and families, juvenile 
justice and delinquency prevention, Federal anti-bullying campaigns, 
preparing a 21st Century workforce, and Federal economic development 
programs. Just compare the goals of any of these programs with the 
outcomes associated with participation in the arts and you will see 
strong correlations. A recent grant from the NEA to Project STEP in 
Boston, Massachusetts provides advanced music instruction to minority 
students from elementary school through high school. These students 
join chamber music ensembles, perform regularly in recitals and 
community outreach concerts and attend classes and professional 
concerts. The program not only provides mentoring and performance 
opportunities, but it aims to create a network of support for the 
students, their families, and their communities to allow them to excel 
in a field of music that is typically underrepresented in African-
American and Latino communities. The goal of the program is to expand 
exposure to classical music so that future classical musicians better 
reflect the racial and ethnic diversity of our communities.
    We know that young people's involvement in the arts has a huge 
impact on them later in life. They do better on standardized tests, are 
more likely to graduate from high school, and increase their chances of 
graduating from college. Data conclusively establishes links between 
the arts and achievement in science, technology, engineering, and math. 
Research shows that students with 4 years of arts education score 
roughly 100 points higher on their SATs. Business leaders no longer 
look to fill positions with candidates possessing only the strongest 
science education, but are increasingly seeking out individuals who 
have a background in the arts as well. It is not only those of us in 
the arts community who make this claim. James McNerney, Jr., Chairman, 
former President and Chief Executive Officer, of The Boeing Company. 
has stated:

        ``At Boeing, innovation is our lifeblood. The arts inspire 
        innovation by leading us to open our minds and think in new 
        ways about our lives--including the work we do, the way we 
        work, and the customers we serve.''

    Speak to anyone of note in the areas of politics, business, media, 
community leadership, and the entertainment industry and you will find 
individuals who were drawn into the arts as young people. They were 
acting in community theater productions and school plays, playing in 
bands, spending their afternoons and weekends at local dance companies. 
Many members of Congress are known to play musical instruments or even 
form singing groups like the ``Singing Senators.'' We have no doubt the 
non-profit arts ecosystem nurtured them into the thought and idea 
leaders we know today.
    Beyond supporting youth and creating dynamic thinkers, the arts are 
valued for their ability to revitalize communities. They stimulate 
tourism, attract business investment, foster creative climates, and 
offer more quality lifestyles. Communities that have embraced the arts 
entice more young professionals and make them want to stay and raise 
their families. As a testament to the importance of the arts to State 
and local communities, the National Governors Association offers 
guidance on how States can attract, harness, and utilize the arts to 
create places where people want to live and visit.
    NEA and the grants it provides to smaller community arts efforts do 
more than bring joy to children and adults. These grants enrich their 
lives and create foundations for more active and responsible citizens, 
more innovative and critical thinkers, and more inclusive and vibrant 
communities. The NEA grant to Theatre Squared in Fayetteville, Arkansas 
will help fund a project that converts an existing parking lot into a 
thriving hub for artists and audiences. When finished, the theater 
commons will include a performance venue, rehearsal space, classrooms, 
studio space and artist housing. This new facility will expand access 
to tens of thousands of additional community members, while serving as 
a new institutional anchor for the downtown district. Without the 
support of NEA grants for arts education and community arts 
organizations, fewer individuals would have the opportunity to 
participate in arts and develop the creative skills that often lead to 
future success.
    Survey any of The Creative Coalition's members and you will find 
individuals who were inspired by the arts at an early age. Our members 
were motivated to succeed by the visions, confidence, and comradery 
instilled in them by their exposure to the arts. The essence of why 
access to the arts is so vital might be best captured in the words of 
one of our members:

        ``When I was 7 years old, I fell in love with the most 
        beautiful thing I ever met . . . Acting. The art of expression 
        has given my heart a permanent smile. I live my life pursuing a 
        dream to make the unbelievable believable. This love has kept 
        me faithful, honest, passionate, happy and peaceful. Growing up 
        in the projects of New York City where there was trouble on 
        every corner, I was fortunate to have the arts to keep me 
        distracted and out of trouble. The arts are the greatest gift I 
        have ever received.''

        --Actor Marlon Wayans

    We know that exposure to the arts is not simply about creating 
professional and amateur artists. It is not just about the economic 
impact of the arts and entertainment industry. Although these are 
important contributions, the arts are about discovering the creative 
inspiration that will allow an individual to reach their full 
potential. It is about the journey, the creative process invoked, and 
the inspiration to achieve--no matter what path life takes you.
    Adequate Federal funding for the arts is vital to maintaining our 
arts economy, ensuring American competitiveness in a global market that 
values creativity, and most importantly, continuing to provide 
opportunities for young people to find their creative inspiration and 
reach their full potential. The NEA is often responsible for bringing 
the arts to individuals and communities who otherwise would not have 
the opportunity to discover the richness that arts can bring to your 
life. Therefore, The Creative Coalition urges the subcommittee to 
increase the funding level for the National Endowment of the Arts to 
$155 million in fiscal year 2017.
    Thank you for your consideration and for the opportunity to submit 
this testimony.
                                 ______
                                 
                    Prepared Statement of Dance/USA
    Mr. Chairman and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of Dance/
USA, its Board of Directors and its 500 members. We strongly urge the 
Subcommittee on Interior, Environment, and Related Agencies in the 
Committee on Appropriations to designate a total of $155 million to the 
National Endowment for the Arts (NEA) for fiscal year 2017. This 
testimony and the funding examples described below are intended to 
highlight the importance of Federal investment in the arts, so critical 
to sustaining a vibrant cultural community throughout the country.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, 
funding for the arts was mostly limited mostly larger cities. The NEA 
has helped to strengthen regional dance, opera, theater and other 
artistic disciplines that Americans enjoy. NEA funding provides access 
to the arts in regions with histories of inaccessibility due to 
economic or geographic limitations. The NEA envisions a ``nation in 
which every American benefits from arts engagement, and every community 
recognizes and celebrates its aspirations and achievements through the 
arts.'' The agency has helped the arts become accessible to more 
Americans, which in turn has increased public participation in the 
arts.
    The NEA is a great investment in the economic growth of every 
community. Despite diminished resources, including a budget that is $20 
million less than it was in 2010, the NEA awarded 2,139 grants in 2015, 
totaling $103.47 million in appropriated funds. These grants nurture 
the growth and artistic excellence of thousands of arts organizations 
and artists in every corner of the country. NEA grants also preserve 
and enhance our Nation's diverse cultural heritage. The modest public 
investment in the Nation's cultural life results in both new and 
classic works of art, reaching the residents of all 50 States and in 
every congressional district.
    The return of the Federal Government's small investment in the arts 
is striking. In 2013, the American creative sector was measured by the 
Federal Bureau of Economic Analysis (BEA). The BEA and the NEA 
developed an ``Arts and Cultural Production Satellite Account'' which 
calculated the arts and culture sector's contributions to the gross 
domestic product (GDP) at 4.2 percent (or $704.2 billion) of current-
dollar GDP in 2013. Additionally, the nonprofit performing arts 
industry generates $135.2 billion annually in economic activity, 
supports more than 4.13 million full-time equivalent jobs in the arts, 
and returns $9.59 billion in Federal taxes (Arts and Economic 
Prosperity IV, Americans for the Arts).
    On average each NEA grant leverages almost $10 from other State, 
local, and private sources. Few other Federal investments realize such 
economic benefits, not to mention the intangible benefits that only the 
arts make possible. Even in the face of cutbacks in the recent years, 
the NEA continues to be a beacon for arts organizations across the 
country.
    The return on investments is not only found in dollars. In 2012, 
2.2 million people volunteered 210 million hours with arts and cultural 
organizations, totaling an estimated value of $5.2 billion--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities.
    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2015, the NEA awarded 163 grants to 
the dance field through the Art Works category, totaling $4,235,000.
Nashville Ballet
$15,000
Nashville, Tennessee
    To support the creation of a new ballet, Frank N. Stein. Artistic 
Director Paul Vasterling led the conceptualization of this original 
ballet, overseeing the choreography by company dancer Chris Stuart and 
music score by Belmont University School of Music. Tailored for youth, 
support materials for educators--including study guides curriculum 
plans, and continued learning activities, were created to accompany the 
performances. The ballet was presented as a free public performance 
before becoming part of the company's ongoing outreach and educational 
programming rotation for schools in central Tennessee.
Friends of NORD/NOBA Center for Dance
$30,000
New Orleans, Louisiana
    To support tuition-free youth and senior citizen dance education 
programs. Organized by the NORDC/NOBA Center for Dance, a cultural 
community partnership of the New Orleans Recreation Development 
Commission and the New Orleans Ballet Association, the project included 
dance classes, workshops, intergenerational opportunities, 
performances, and family activities for senior citizens and students. 
Center for Dance's (CFD) youth program was offered in underserved 
communities and offered a program for youth interested in dace and a 
pre-professional program taught by local and guest artists. In response 
to the lack of community programming for seniors following Hurricane 
Katrina, CFD launched a year-round senior dance fitness. Seniors and 
youth received intergenerational opportunities to learn, rehears, and 
perform choreography together. CFD and seniors, along with their 
families, also had the opportunity to attend CFD main stage 
performances by professional dance companies.
AXIS Dance Company
$20,000
Oakland, California
    To support Dance/Access and Dance/Access Kids! educational and 
outreach programs in the Bay Area and on a national tour. These 
activities offered a variety of events for youth and adults with and 
without disabilities, both locally and nationally. Activities included 
dance classes, school assemblies, a dance campy for youth, teacher 
training, a dance apprentice program, workshops for emerging 
choreographers and professional dancers, community workshops, lecture-
demonstrations, and presentations.
DanceAbility International
$10,000
Eugene, Oregon
    To support touring performances of ``Don't Leave Me,'' 
choreographed by DanceAbility founder Alitto Alessi, and associated 
outreach activities. Performances took place at the National Building 
Museum in Washington, DC, University of Minnesota, University of 
Maryland, University of New Mexico, and Cal Poly San Louis Obispo. 
Accompany each performance was a post-performance discussion, 
DanceAbility classes, and Space-Movement workshops that brought 
together university students in dance, architecture, and design with 
community members along with full spectrum of abilities and 
disabilities for cross-community interaction.
              the non-profit professional dance community
    America's dance companies perform a wide range of styles and 
genres. These include aerial, ballet, modern, culturally specific, 
jazz, and tap companies. Over two-thirds of America's professional 
dance companies are less than 45 years old; as an established art form 
with national identity and presence, dance has burst onto the scene 
almost entirely within living memory. And yet, America can boast some 
of the greatest dance companies of the world and can take credit for 
birthing two indigenous dance styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970s, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. Based on data from 
over 400 nonprofit dance companies from across the United States, 
Dance/USA estimates that dance companies:

  --Employed over 15,100 individuals in a mix of full-time and part-
        time positions and supported by more than 19,900 volunteers;
  --Paid approximately $346.2 million, or 52 percent of expenses, in 
        wages and benefits;
  --Earned $230.7 million, or 36 percent of their income, from 
        performances;
  --Received $311.8 million, or 44.8 percent of their income in 
        contributions (including public support, corporate sponsorship 
        and contributions, foundation support, and individual 
        donations);
  --Generated more than $600 million in economic activity across the 
        United States.

    Dance/USA, the national service organization for the professional 
dance field, believes that dance is essential to a healthy society, 
demonstrating the infinite possibilities for human expression and 
potential, and facilitating communication within and across cultures. 
Dance/USA sustains and advances professional dance by addressing the 
needs, concerns, and interests of artists, administrators, and 
organizations. Dance/USA's membership currently consists of nearly 500 
aerial, ballet, modern, culturally specific, jazz, and tap companies, 
dance service and presenting organizations, individuals, and related 
organizations. Dance/USA's member companies range in size from 
operating budgets of under $100,000 to over $50 million.
                               conclusion
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, leaving its programs 
seriously underfunded. We urge you to continue toward restoration and 
increase the NEA funding allocation to $155 million for fiscal year 
2017.
    On behalf of Dance/USA, thank you for considering this request.

    [This statement was submitted by Amy Fitterer, Executive Director.]
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife
    Mister Chairman, ranking member and members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders has more than 1.2 million members and 
supporters and is dedicated to the conservation of wild animals and 
plants in their natural communities.
    North America is fortunate to have some of the most abundant and 
diverse wildlife on Earth, more than 200,000 known species in the U.S. 
alone. This unique and irreplaceable heritage is treasured by all 
Americans both for its aesthetic value as well as for the very tangible 
benefits it provides as a resource. For example, a third of our food is 
pollinated by birds, bats, and insects; wildlife-associated recreation 
generated $145 billion in economic benefits in 2011; \1\ bats provide 
at least $3.7 billion in pest control services to the agricultural 
industry annually; \2\ and the value of ecosystem services from habitat 
in the contiguous 48 States is estimated at $1.6 trillion annually.\3\ 
Budget cuts since fiscal year 2010 to Federal programs that conserve 
wildlife and habitat have severely undermined sound management. 
Inadequate funding will likely lead to irreparable harm to vulnerable 
species and habitat. Our Nation's wildlife is a treasure and well worth 
the investment to properly care for it.
---------------------------------------------------------------------------
    \1\ The 2011 National Survey of Fishing, Hunting, and Wildlife 
Associated Recreation, USFWS, 12/12.
    \2\ http://www.sciencemag.org/content/332/6025/
41.summary?sid=853248fd-6760-4341-93d0-2aeeab9ea450.
    \3\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation and Historic Preservation in the United States, 
Southwick Associates, 9/29/11.
---------------------------------------------------------------------------
    Riders that would have undermined protections for imperiled species 
and the Endangered Species Act (ESA) and that would have forced 
construction of a road through the Izembek National Wildlife Refuge in 
Alaska were included in the fiscal year 2016 Senate Interior 
appropriations bill. Defenders strongly opposed these riders and while 
all should rightfully have been removed from the final omnibus, we 
appreciate that all but one were stricken.
                       fish and wildlife service
    The U.S. Fish and Wildlife Service (FWS) is our Nation's premier 
wildlife conservation agency. FWS needs adequate funding if it is to 
recover threatened and endangered species and protect migratory birds 
and fish, species of global conservation concern and other trust 
species, and stop or prevent wildlife crimes.
    Cooperative Recovery.--Defenders supports the requested increases 
of $1.5 million in Recovery under Ecological Services, $1 million in 
National Wildlife Refuge System Operations and Maintenance, and 
$300,000 under Migratory Bird Management. This initiative is supporting 
more efficient and strategic efforts across landscapes to recover 
threatened and endangered species on National Wildlife Refuges and 
surrounding lands and has already supported delisting of two species.
    Renewable Energy.--Defenders supports the President's request of 
$11.1 million to fund renewable energy related Planning and 
Consultation and Service Science programs. The Service supports 
approvals of renewable energy projects while ensuring they comply with 
relevant environmental laws, and conducts research to assess potential 
impacts of energy development on sensitive lands and wildlife in the 
West and to identify mitigation strategies.
    Ecological Services.--Defenders supports the requested increase of 
$18.3 million for Ecological Services. The requested increase is 
critically needed for high priority efforts:

  --Listing.--The FWS has made substantial progress in listing 
        decisions in recent years and the requested $2.3 million 
        increase will help to continue that progress for the 60 current 
        candidate species and to meet its other listing 
        responsibilities.
  --Recovery.--Defenders strongly supported and appreciates the 
        subcommittee's decision to maintain recovery for threatened and 
        endangered species as a separate program element in responding 
        to the FWS request to restructure the Ecological Services 
        budget. Recovery is the goal of the ESA and transparency in 
        tracking amounts directed to this crucial end is of the highest 
        priority. In general, the average inflation-adjusted dollars 
        per species for recovery has decreased every year since fiscal 
        year 2010; moreover, according to the most recent FWS Recovery 
        Report to Congress, hundreds of listed species have no recovery 
        plans or extremely outdated ones. We therefore strongly 
        support, at the very least, the requested $7.2 million increase 
        for Recovery.
  --Planning and Consultation.--The $6.6 million increase will support 
        crucial Section 7 consultations under the ESA so that projects 
        can move forward while minimizing harm to listed species. 
        Adequate resources to increase the scientific and technical 
        capacity of FWS to conduct consultations on pesticide 
        registrations is particularly important.
  --Conservation and Restoration.--The $2.2 million increase will 
        support continued conservation for candidate species as they 
        await listing and also includes an increase to support 
        additional staff to provide technical assistance and other 
        support to landowners in implementing the unprecedented 
        sagebrush steppe conservation plans.
  --Defenders opposes the elimination of funding for the Wolf Livestock 
        Loss Demonstration Program that assists livestock owners co-
        existing with wolves, and we urge its restoration.

    National Wildlife Refuge System (NWRS).--Our National Wildlife 
Refuge System is the largest land and water system in the world 
dedicated to wildlife conservation. Refuges provide enormous benefits 
to the American people, generating $2.4 billion each year for local 
economies. Defenders supports the $25.2 million increase in the 
request, which includes funding for inventory and monitoring, 
rebuilding lost capacity to manage wildlife and habitat, and pollinator 
restoration. We also support legislative language proposed by the 
administration that would provide authority to recover compensation 
from responsible parties who injure or destroy Refuge System or 
Hatchery System resources similar to that provided to the National Park 
Service and the National Oceanic and Atmospheric Administration and 
allows compensation to be applied directly to the cost of restoration 
without further appropriation by Congress.
    Science Support.--The requested $3.6 million increase will help to 
answer pressing questions about climate adaptation and other landscape 
level ecological changes as well as about conservation of monarch 
butterflies and other declining species, White-Nose Syndrome that is 
devastating bat populations, and other agency management challenges.
    Migratory Bird Management.--U.S. bird populations have experienced 
precipitous declines in recent years. Defenders supports the $2.5 
million requested increase which includes funding for needed upgrades 
in aviation management and survey and monitoring programs, and for 
building resilience of bird species and their habitats through the 
Joint Venture partnerships.
    Office of Law Enforcement.--The request is essentially flat despite 
the fact that only one in five currents ports of entry are staffed with 
wildlife inspectors. Funding for inspectors is covered by user fees 
which have not been increased since 2008. Defenders is recommending the 
inclusion of report language directing the FWS to complete an analysis 
of possible additional sources of funding required to increase the 
capacity of the port inspection program.
    International Affairs.--Defenders supports the requested $1.1 
million increase which includes funding to advance the President's 
National Strategy for Combating Wildlife Trafficking.
    Other key grant programs.--Defenders supports the requested funding 
amounts for the Multinational Species Conservation Fund, the 
Neotropical Migratory Bird Fund, the Cooperative Endangered Species 
Fund and State and Tribal Wildlife Grants.
              forest service and bureau of land management
    The U.S. Forest Service (FS) and the Bureau of Land Management 
(BLM) are essential to the conservation of wildlife and habitat in the 
U.S., yet funding is inadequate to address significant challenges to 
sustain these resources. A top priority for Defenders is ensuring that 
uses proceed in a sustainable way that maintains the ecological 
integrity of our public lands and waters, conserves wildlife habitat 
and populations, and contributes to agency efforts to successfully 
recover our most imperiled wildlife. We urge strong oversight to ensure 
that any energy development is done in an environmentally sensitive 
fashion and in low conflict areas. Given their large land ownerships, 
it is imperative that both agencies participate fully in landscape 
level conservation and management efforts. We are encouraged by BLM's 
innovative efforts in the Western Solar Program and consider it an 
example of how land management agencies can improve landscape level 
decisionmaking for energy development.
    FS Wildlife and Fisheries Habitat Management/Integrated Resource 
Restoration (IRR).--Defenders supports the decision to abandon the 
request for an IRR line item given our concern that wildlife program 
activities could be marginalized under IRR and that hard timber targets 
could detract from integrated restoration. The request for Wildlife and 
Fisheries Habitat Management is flat-funded, a 9.6 percent reduction in 
real dollars from fiscal year 2010. We support funding the program at 
least at the fiscal year 2010 level of $143 million to begin to address 
the loss of biologists at the forest level that has occurred in recent 
years.
    FS Land Management Planning/Inventory and Monitoring.--The request 
again proposes merging these two programs into a single line item. 
Defenders is concerned about consolidating these functions unless and 
until the agency can demonstrate its ability to meet its 
responsibilities under each program independently. We urge continued 
funding as separate programs at no less than the fiscal year 2016 
level.
    FS Collaborative Forest Landscape Restoration Program.--We support 
the request for continued funding at the current level for this cost-
effective program established to stabilize employment, offer a reliable 
wood supply, restore forest and watershed health, improve wildlife 
habitat, and reduce both the costs of fire suppression in overgrown 
forests and the risk of uncharacteristic wildfires.
    FS Forest and Rangeland Research (FS R&D).--We urge a $4 million 
increase for FS R&D, a return to the fiscal year 2015 level which 
included $27.1 million for Wildlife and Fish R&D. Adequate funding for 
this program is crucial in providing relevant tools and information to 
support sustainable management of National Forest System lands as well 
as non-Federal forest lands. Generally, we are concerned that the 
Forest Service may lack adequate applied scientific capacity both in 
R&D and the National Forest System to implement critical planning and 
management actions, including the 2012 Planning Rule.
    BLM Wildlife and Fisheries Management.--Defenders supports the 
$19.4 million increase requested to support implementation of the 68 
resource management plans that were amended to address conservation of 
the sage-grouse. FWS determined not to list the grouse under the ESA 
largely due to this effort and associated measures. Success in 
conserving sage-grouse will depend upon adequate funding for 
implementing the plans.
    BLM Threatened and Endangered Species Management.--According to 
agency reports, the BLM has funding to implement only about 10 percent 
of the work it is required to do in recovery plans for ESA listed 
species on BLM lands, but the administration's request includes just a 
$131,000 increase for fiscal year 2016. Defenders supports an increase 
of $1 million over the request which simply restores the budget to the 
fiscal year 2010 level and will better help move listed species to 
recovery.
    BLM Renewable Energy.--Full funding of the $29.2 million request, 
essentially flat with fiscal year 2016, will help BLM continue to 
proceed with renewable energy development on public lands while 
avoiding areas with natural resource conflicts, including conflicts 
with sensitive wildlife species.
    BLM Resource Management Planning, Assessment and Monitoring.--The 
$17.1 million increase in the request will support new high priority 
planning efforts, data collection and monitoring crucial to the sage-
grouse conservation strategy and other key initiatives, and continued 
development of a new geospatial initiative to better monitor ecological 
conditions and trends on the landscape.
                         u.s. geological survey
    The U.S. Geological Survey provides the basic science necessary for 
conservation of fish, wildlife and habitat. We urge support for the 
following increases:

    National Climate Change and Wildlife Science Center/Climate Science 
Centers.--A $4.5 million increase in the request will support 
scientific needs in planning for climate change adaptation and building 
resiliency of ecosystems.
    Ecosystems.--A $13.7 million increase in the request will help to 
support development of crucial scientific information for sound 
management of our Nation's biological resources including research into 
declines of native pollinators, threats to sensitive landscapes, such 
as the Arctic and sagebrush steppe, and impacts of drought and climate 
change across the country.
                land and water conservation fund (lwcf)
    Defenders supports the proposal in the request for full and 
permanent funding of LWCF that will help to save some of the 6,000 
acres of open space, including wildlife habitat, that are lost each day 
in the U.S.\4\ Thank you for the opportunity to submit testimony.
---------------------------------------------------------------------------
    \4\ http://www.fs.fed.us/openspace/coop_across_boudaries.html.
---------------------------------------------------------------------------
                                 ______
                                 
 Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School
    Thank you for the opportunity to submit testimony on behalf of the 
Dzilth-Na-O-Dith-Hle Community School (DCGS) on the Navajo Reservation 
in Bloomfield, New Mexico. Our school, which has been in continuous 
service since 1968, operates a K-8 educational program and a dormitory 
program for students in grades 1-12, serving around 250 students in 
both programs. DCGS is a tribally controlled grant school is located 
approximately 170 miles northwest of Albuquerque. DCGS is primarily 
funded through appropriations received from the BIE, and pass-through 
funding from the Department of Education.
    Our all-Navajo Board operates the DCGS through a Grant issued by 
the BIE under the Tribally Controlled Schools Act. The DCGS goal is to 
make a difference in the educational progress of our students and we 
believe that all of our students are capable of achieving academic 
success. In fact, despite the challenges I will describe, we are 
meeting or exceeding our peer-schools in the BIE and New Mexico 
systems, and sometimes eclipsing national scores. I have included a 
chart at the end of this statement showing the results of the new test 
in New Mexico. Yet, we struggle with underfunding of practically every 
one of our educational and related programs that impacts our ability to 
fully meet our school goals and our ability to successfully operate our 
programs under the Indian Self-Determination policy--think of what we 
could do without the worries we face. Funding increases are desperately 
needed and are having a significant impact. Thank You.

    Our recommendations can be summarized as follows:

  --Protect school funding from the proposed Federal bureaucratic 
        expansion.
  --Increase ISEP funding to $431 million in fiscal year 2017.
  --Fund Student Transportation at $73 million, and BIA Road 
        Maintenance at $40 million.
  --Continue to fully fund Tribal Grant Support Costs.
  --Provide $85 million for facilities operation and $76 million for 
        facilities maintenance (full funding).
  --Embark on a comprehensive 60-year plan for school replacement and 
        upkeep.
1. Protecting School Funding and Programs from Federal Expansion
    You have heard over the last year from us and other schools about 
our concerns with the BIE's ``Blueprint for Reform.'' We do not doubt 
the administration's commitment to high quality education for Indian 
students. The administration's focus, along with the strong commitment 
of this subcommittee signal that we have entered a new era for Indian 
education. However, coming from the local reservation community, we 
have a different perspective on what will be the best strategies to use 
to reach the goals of improvement. We continue to have concerns about 
centralization of authority at the BIE headquarters, instead of leaving 
that power at the local level as Congress intended and required by 
enacting the Tribally Controlled Schools Act. We ask that this 
subcommittee and your colleagues continue to engage tribal schools with 
concerns over the BIE reorganization and exercise appropriate oversight 
as it had done this last year.
2. Increase Funding for Indian School Equalization Programs
    The most critical stream of funding for community grant schools 
like ours is increased funding in the Indian School Equalization 
Program (ISEP). The ISEP funds are those that schools use for the day 
to day operation, whether that is paying teachers and staff, purchasing 
curriculum and supplies, or running student programs. In years past, 
our ISEP funds were put under pressure by unfunded needs elsewhere in 
our schools, which could be paying utilities or repairing one of our 
school buses. This year, we are grateful to see the administration has 
requested $400.2 million for ISEP funding, an increase of $6.5 million 
to the program. However, the need in our schools is much greater. The 
National Congress of American Indians has recommended that Congress 
appropriate $431 million for ISEP funding, which we think should be 
this subcommittee's baseline for funding this budget year. ISEP is our 
schools' lifeblood, and we are still struggling to make up for losses 
in past years.
3. Increase funding for Student Transportation
    One of our school's largest challenges is getting our children to 
school and back home. Maintenance costs for our vehicles are higher 
than normal for several reasons, including the fact that they travel 
more miles per day than the average school bus, those miles are often 
very rough, and the cost of maintaining our buses includes long 
transport time to garages or parts stores. This is not to mention the 
cost of fuel to cover those extra miles!
    The administration has requested $57.2 million for Student 
Transportation, a $4 million increase, but that is simply not enough 
given the challenges of our roads and equipment. We request at least 
$73 million for student transportation in the BIE system. We also 
request that this subcommittee fund BIA Road Maintenance at a 
sustainable level. We echo NCAI's recommendation that the subcommittee 
appropriate at least $40 million for road maintenance in fiscal year 
2017. Such funding will enable us to maintain our six school buses, and 
will protect other funds that would otherwise be used for this purpose.
4. We support the administration's proposal to continue full funding 
        for Tribal Grant Support Costs.
    Tribal Grant Support Costs (TGSC) (formerly known as Administrative 
Cost Grants) are the BIE analogue to Contract Support Costs, and are 
necessary for schools like DCGS to operate our schools. Not only do the 
TGSC funds pay for the administration of the school, but also fund all 
indirect costs like payroll, accounting, insurance, background checks 
and other legal, reporting, and recordkeeping requirements. TGSC also 
enables schools to comply with the increasingly burdensome reporting 
requirements imposed by BIE or to comply with grant funding.
    We are grateful to this subcommittee for fully funding TGSC in 
fiscal year 2016. This year, the administration has proposed to fully 
fund TGSC, including funding for schools transitioning from BIE-
operated status to local control and grant funding. In years past 
schools had only received, at most, two-thirds of the TGSC needed to 
cover overhead costs. DCGS welcomes this long overdue change, and 
applauds this subcommittee's decision to treat schools' support costs 
the same as contractors with the BIA and the Indian Health Service. We 
support the administration's proposal that TGSC and startup costs be 
fully funded at $75.3 million.
5. Our schools need full funding for Facilities Operation and 
        Maintenance.
    The condition of BIE-funded schools is a national disgrace, and has 
been the subject of national news attention for years. Some schools in 
the country are forced to teach their students in converted bus barns 
or go without hot water. We do the best we can with our facilities at 
Dzilth-Na-O-Dith-Hle, but constantly struggle with the fact that we do 
not have enough funding for maintenance of our buildings, utilities, 
and everyday repairs. The operation of our facilities is an important 
one, not only for the comfort of our students, but one that affects 
their health and safety. It is hard to learn and progress if you're too 
cold, or if you're too hot due to radiator problems. In 2010, the BIA 
listed our school condition as ``poor'' with a deferred maintenance 
backlog of over $7.7 million dollars. Our backlog has only grown since, 
and our students are the ones who suffer as a result.
    We appreciate that the administration has finally moved to complete 
the replacement of schools on a list dated from 2004, but we need to 
stress that these needs are ongoing. We support the BIE's request for 
school construction, but request that funding for facilities operation 
and maintenance be increased to $85 million for operations and $76 
million for maintenance.
    We are very grateful for the substantial increase that this 
subcommittee provided for Education Construction in fiscal year 2016, 
allowing the 2004 school replacement list to finally be completed. We 
are pleased to note that the completion of the 2004 list means that a 
new round of replacements will begin. In 2015, we were overjoyed to 
make it on to the top 10 list and present before the school replacement 
panel; however, we are still waiting to hear whether we will be one of 
the five schools chosen. Providing consistent funding for this budget 
category each fiscal year means that our aging schools can be replaced 
in an orderly, scheduled fashion. To this end, we call on the 
subcommittee to embark on a 60-year schools replacement plan coupled 
with adequate funding to maintain buildings throughout their life. 
Recent testimony from the Government Accountability Office reported 
that even new construction is starting to fail because of inappropriate 
maintenance or poor construction oversight. Our schools want to protect 
the Federal investment in our students' education, and we ask the 
subcommittee to empower local communities to do so by removing 
bureaucratic hurdles inherent in the BIE facilities system. As school 
boards, we are the best decision makers.
    Thank you for the opportunity to submit testimony.

    [This statement was submitted by Ervin Chavez, School Board 
President & Faye BlueEyes, Assistant Executive Director.]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prepared Statement of the Ecological Society of America, the Society of 
   Range Management, the Association of Fire Ecology, and the Forest 
                             Stewards Guild
    The Ecological Society of America, the Society of Range Management, 
the Association of Fire Ecologists, and the Forest Stewards Guild 
appreciate the opportunity to provide testimony about the fiscal year 
2017 budget U.S. Forest Service (USFS) funding for the Joint Fire 
Science Program. We are concerned that the administration's 2017 USFS 
budget request cuts funding for the Joint Fire Science Program's (JFSP) 
budget by $6.194 million within its Wildland Fire Management budget. 
Instead, the Service has designated $3 million for the Joint Fire 
Science Program from the $292 million Forest and Rangeland Research 
account without increasing its funding. We request that the U.S. Forest 
Service restore the Joint Fire Science Program budget of $6.194 million 
under the Wildland Fire Management budget and fully fund the Forest and 
Rangeland Research program.
    We applaud the subcommittee's past leadership in funding wildland 
fire research within the U.S. Department of Interior and the U.S. 
Forest Service that is responsive to the needs of fire and fuel 
managers throughout the country.
    As you know, the frequency, severity, and size of fires have 
increased substantially in the continental United States since the 
1980s, and this trend is projected to continue and intensify in the 
future. The risk to communities, the cost of property loss, and the 
expense to cover the damage brought by these fires will consequently 
also grow. Scientific research has been critical to understanding and 
properly responding to these wildfires in the most productive and cost-
effective manner possible.
    The JFSP was created by Congress in 1998 as an interagency 
research, development, and applications partnership between the U.S. 
Department of the Interior and the U.S. Department of Agriculture. The 
program solicits proposals from scientists who compete for funding 
through a rigorous peer-review process to ensure the highest quality 
projects are funded. Over 90 colleges and universities across the 
United States have collaborated or partnered with JFSP-sponsored 
research projects. The JFSP also runs a model program in science 
communication, with very effective efforts to put science in the hands 
of managers and policy makers.
    No other Federal program except the JFSP provides the integration 
of science and management needed to face the challenges that lie 
ahead--we will be living in a world with more fire. Research in fire 
science is crucial to anticipating how ecosystems and landscapes may 
change in the future, how fire should be managed in both wildlands and 
developed areas, and where mitigation or adaptation strategies are most 
appropriate. Reductions in support for JFSP are inconsistent with high-
priority national research needs.
    For much of the past 10 years, the U.S. Forest Service has had to 
borrow from other accounts within the Service to cover expenses of 
mitigating the increasing costs of wildfires nationwide. While the 
Society understands the need to consolidate resources to improve the 
effectiveness of Federal fire response efforts, it seems 
counterproductive to cut funding towards applied research that will 
help agencies improve wildfire coordination and response efforts.
    We appreciate that the Senate Subcommittee on Interior, 
Environment, and Related Agencies has made funding for policy-relevant 
wildfire science among your highest priorities. We hope you will 
continue to recognize the critical role the JFSP plays in these 
efforts.

    [This statement was submitted by Monica G. Turner, President of the 
Ecological Society of America, Dr. Val Anderson, President of the 
Society of Range Management, Leda N. Kobziar, President of the 
Association of Fire Ecologists, and Fred Clark, Executive Director of 
the Forest Stewards Guild.]
                                 ______
                                 
          Prepared Statement of the Edison Electric Institute
    The Edison Electric Institute (EEI) respectfully submits this 
written testimony for the record to the Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies. We 
appreciate this opportunity to share our views on three important rule 
makings that are underway at the Environmental Protection Agency (EPA). 
We also would like to briefly review three activities at the Department 
of Interior (DOI), which pose challenges for our industry and warrant 
continued attention by the subcommittee.
                      waters of the united states
    Last August, EPA issued a final rule to revise the definition of 
``Waters of the United States'' (WOTUS) under the Clean Water Act. In 
October, a Federal appeals court stayed implementation of the rule 
nationwide. Many believe that the case will find its way to the Supreme 
Court and, if so, will delay any final resolution on the merits until 
sometime in 2017.
    The final rule violates recent Supreme Court decisions limiting 
Federal jurisdiction, and would fail to achieve the Agency's stated 
goal of providing greater continuity, predictability, and clarity. 
Although EPA's final rule is marginally improved in certain areas that 
are important to electric power companies, it still objectionably 
broadens the scope of waters subject to Federal jurisdiction. 
Implementation of the final rule will affect electric power companies 
and their customers, and is inconsistent with the administration's 
stated goals of promoting power grid resiliency and streamlining the 
permitting of energy infrastructure, including renewable energy 
facilities.
    While legal challenges by State and industry petitioners are 
pending, EEI supports congressional efforts to obtain withdrawal, delay 
or modification of the final rule.
               coal combustion residual (ccr) regulation
    In April 2015, EPA promulgated its final rule to regulate the 
disposal of CCRs, or coal ash, from electric power companies. The rule, 
which became effective in October 2015, properly regulates CCRs as non-
hazardous waste under Subtitle D of the Resource Conservation and 
Recovery Act (RCRA).
    Despite EPA's non-hazardous waste determination, serious flaws in 
the final rule remain, including its self-implementing nature, the 
legal authority of EPA to regulate inactive coal ash impoundments, and 
the way in which EPA has left the door open to one day regulate coal 
ash as a hazardous waste, creating additional uncertainty for electric 
power companies.
    Because the CCR rule is self-implementing, affected facilities must 
comply with the new regulations regardless of whether a State adopts 
the rule. Even if a State adopts the rule and incorporates its criteria 
into the State's solid waste management program, the Federal rule 
remains in place as an independent set of Federal criteria. The rule 
neither requires regulated facilities to obtain permits nor requires 
States to adopt and implement the new rules, and cannot be enforced by 
EPA. The rule's enforcement mechanism is for a State or citizen group 
to bring a RCRA citizen suit in Federal district court against any 
facility that is alleged to be in non-compliance with the new 
requirements.
    EEI is currently working closely with the States, our member 
companies and other stakeholders to achieve cost-effective 
implementation of the rule. However, we also continue to advocate for 
legislation that would ensure implementation of the rule in an 
effective and practical manner.
    On July 22, 2015, the House passed H.R. 1734, the ``Improving Coal 
Combustion Residuals Regulation Act.'' The bill essentially would 
codify the CCR rule, establish national standards for CCR under RCRA 
Subtitle D, and allow States to create and enforce their own CCR permit 
programs. Bipartisan companion legislation, S. 2446, has been 
introduced in the Senate.
    EEI, the American Public Power Association and the National Rural 
Electric Cooperative Association are on record in strong support of 
this legislation, as it would eliminate the practical and enforcement 
challenges associated with the self-implementing nature of the final 
CCR rule. In the absence of congressional action, EEI continues to 
support member company compliance with non-hazardous waste regulations 
for CCRs, and will advocate for CCR mine placement regulations that 
allow for the continued beneficial use of coal ash in mine reclamation 
activities.
                   steam effluent electric guidelines
    In September 2015, EPA finalized its Steam Electric Effluent 
Guidelines Rule. The final rule, which became effective in January 
2016, sets strict technology-based effluent limitations that will force 
major technological and operational changes and upgrades, particularly 
at existing coal-based facilities.
    The rule has the potential to impact long-term investment decisions 
companies are making relative to compliance with other EPA regulations, 
including the final CCR regulation, and may cause marginal units to 
become unprofitable. EPA estimates the total annual pre-tax industry 
cost of the rule is $496 million, but this likely is a significant 
underestimate of the rule's costs.
    In short, the final rule presents significant operational and 
compliance challenges. EPA included important new requirements related 
to stringent fly ash transport water, bottom ash transport water, flue 
gas mercury control wastewaters and treatment for flue gas 
desulfurization wastewater. These requirements are likely to 
significantly complicate implementation of the rule.
    EEI is working to assist member companies in permit proceedings to 
achieve cost-effective and flexible implementation of the final 
guidelines. Still, implementation of the rule--particularly concerns 
over compliance dates and the misalignment of compliance dates with 
other environmental regulations (i.e., provisions in the CCR rule)--
remains an area that may warrant subcommittee attention.
                      endangered species act (esa)
    As the number of new species listings increase and the accompanying 
critical habitat designations expand, so, too, does the creative use of 
the ESA by Federal agencies to increase burdens on electric power 
sector operations. These impacts include electric power companies' 
ability to site, operate and maintain generation and transmission 
facilities.
    Congress is expected to consider ESA reform legislation this year. 
As part of these reform proposals, EEI will continue to advocate for 
ESA implementation in a way that is less burdensome and more responsive 
to the siting and permitting of electricity generation and transmission 
facilities. As EEI works to address the growing number of ESA-related 
challenges facing the electric power sector, we will continue to 
advocate for improved implementation of the ESA through direct 
collaboration with your subcommittee.
         avian protection and sage-grouse habitat preservation
    In addition to ESA, EEI is concerned with avian issues related to 
the Bald and Golden Eagle Protection Act (BGEPA) and the Migratory Bird 
Treaty Act (MBTA). Federal agency implementation of these Acts in 
certain cases is inconsistent across regions, both within individual 
agencies and among various Federal land management agencies.
    Under the MBTA, DOI's Fish and Wildlife Service (FWS) has proposed 
establishing programmatic incidental take permits. If properly 
implemented, such a permit could provide electric power companies with 
decreased risk from prosecution if companies develop and follow an 
avian protection plan. However, in September 2015, a decision by a 
Federal circuit court ruled that the MBTA does not prohibit incidental 
``take'' of migratory birds. Rather than appeal the circuit court 
decision, FWS is working to develop a redefinition of what constitutes 
intentional and unintentional take under the MBTA. As a result, the 
Agency's work on developing the MBTA incidental take permit has slowed, 
and it is not likely to be finalized before the end of the current 
administration.
    With regard to the BGEPA, FWS developed a permitting program in 
2009. Unfortunately, only a handful of BGEPA permits have been issued 
for transmission and distribution facilities as well as wind energy 
projects. Industry has met with FWS and the Council on Environmental 
Quality to explain the difficulties electric power companies and wind 
energy face in applying for BGEPA permits. FWS is expected to issue a 
notice of proposed rulemaking later this year to update the BGEPA 
permitting system, on which we will develop comments and keep the 
subcommittee updated.
    As you are aware, FWS announced last year that the greater sage-
grouse does not require protection under the ESA due to the 
collaborative and ``unprecedented conservation planning effort'' 
undertaken by numerous Federal, State, local and private partners. 
Despite this determination, the land use plans developed by the Bureau 
of Land Management (BLM) and the Forest Service to protect greater 
sage-grouse present significant barriers to the siting and operation of 
transmission and distribution lines in a cost-effective and reliable 
manner in the western States. Nevertheless, EEI and our member 
companies remain committed to avoiding and minimizing impacts of power 
line construction and maintenance to sage-grouse and their habitat.
                 vegetation management on federal lands
    Electric power companies experience significant delays when trying 
to gain access to their rights-of-ways (ROWs) located on Federal lands 
to perform vegetation management activities. Consequently, EEI 
advocates for legislation to remove impediments to vegetative 
management activities on Federal lands and improve access to ROWs to 
ensure power line safety.
    H.R. 2358, the ``Electricity Reliability and Forest Protection 
Act,'' promotes agency consistency, accountability, and timeliness as 
it relates to permitting vegetation management activities for 
electricity transmission and distribution lines on Federal lands. The 
legislation was incorporated into H.R. 8, the ``North American Energy 
Security and Infrastructure Act of 2015,'' which passed the House in 
December 2015. EEI is committed to passing H.R. 2358 as part of H.R. 8 
or as a stand-alone measure. EEI also supports Section 5013 of H.R. 8 
to facilitate voluntary partnerships between electric power companies 
and the Federal land agencies to address vegetation management needs on 
public lands neighboring a ROW that pose wildlife risks to electricity 
infrastructure.
    In light of Federal electricity reliability guidelines related to 
vegetative management and the need to reduce the threat of catastrophic 
forest fires, EEI is also working to ensure that the land management 
agencies--BLM, FWS, and the National Park Service--have consistent 
policies and timely decisionmaking when it comes to protecting power 
lines on Federal lands. Recently EEI reached agreement with the Federal 
land management agencies to update and renew a 2006 Memorandum of 
Understanding to facilitate cooperation and coordination among parties 
regarding vegetation management within, and immediately adjacent to, 
existing and future electricity transmission line ROWs and associated 
facilities. The formal signing of this agreement will take place in 
spring 2016.
                               conclusion
    Thank you, Chair Murkowski, for this opportunity to discuss these 
significant environmental policies. EEI truly values the partnership 
that we share with your subcommittee, and we look forward to continuing 
our dialogue with you on these and other issues that have the potential 
to impact electricity generation, siting, permitting and construction 
efforts.
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for 
entomology-related activities at the U.S. Department of Agriculture 
Forest Service and the U.S. Environmental Protection Agency (EPA). For 
fiscal year 2017, ESA requests the Forest Service be funded at least at 
the fiscal year 2016 enacted level of $5.68 billion in discretionary 
funds. Within the Forest Service, ESA requests the Forest and Rangeland 
Research budget be supported at the President's requested level of 
$291.982 million to preserve critical research and development on 
invasive species. The Society also supports continued investment in 
Forest Health Management programs across the Forest Service in fiscal 
year 2017. In addition, ESA recommends $8.267 billion for EPA, 
including support for Pesticides Licensing Program Area activities 
within its Science & Technology and Environmental Program & Management 
budgets, and continued support for State & Tribal Assistance Grants for 
Pesticide Program Implementation. Finally, ESA strongly supports EPA's 
commitment to work with other Federal agencies to monitor and improve 
pollinator health, including involvement by EPA to examine the 
potential impact of pesticides on pollinator health.
    Advances in forestry and environmental sciences, including the 
field of entomology, help to maintain U.S. forests and grasslands and 
safeguard their contributions to the Nation's public health, economic 
prosperity, agricultural productivity and safety, social well-being and 
natural heritage. Through improved understanding of invasive insect 
pests and development of sustainable approaches to pest management, the 
science of entomology is critical to reducing or preventing disease 
epidemics and pest outbreaks that threaten the Nation's communities and 
ecosystems. Entomological science is also fundamental to the design and 
implementation of Integrated Pest Management (IPM), which uses science-
based, environmentally sustainable, and economically and sociologically 
compatible methods to take preventative action against pests. In 
addition, entomology is key to understanding the biology of pollinators 
and identifying factors affecting their health and viability, helping 
to protect pollination services for America's agricultural enterprise 
to provide a safe, reliable food, fiber, and fuel supply for a growing 
world population.
    The U.S. Forest Service sustains the health, diversity, and 
productivity of 193 million acres of public lands in national forests 
and grasslands across 44 States and Territories. Serving as the largest 
supporter of forestry research in the world, the agency employs 
approximately 35,000 scientists, administrators, and land managers. In 
addition to activities at the Federal level, the Forest Service 
provides technical expertise and financial assistance to State and 
private forestry agency partners.
    The Forest Service's Forest and Rangeland Research budget supports 
the development and delivery of scientific data and innovative 
technological tools to improve the health, use, and management of the 
Nation's forests and rangelands. Within Forest and Rangeland Research, 
the Invasive Species Strategic Program Area provides scientifically 
based approaches to reduce and prevent the introduction, spread, and 
impact of non-native invasive species, including destructive insects, 
plants, and diseases that can have serious economic and environmental 
consequences for the Nation. For example, Forest Service scientists are 
working to prevent the destruction of ash trees across North America by 
the emerald ash borer, an Asian beetle first detected in the U.S. in 
2002. Since its accidental introduction, this invasive wood-boring 
insect has killed tens of millions of ash trees and threatens to 
eliminate all ash trees from North America. Estimated annual damage 
inflicted by the emerald ashborer exceeds $1.5 billion, yet it is just 
one of the exponentially growing list of invasive insects and pathogens 
that harm the Nation's ecosystems and the human communities that depend 
upon them.\1\ Forest health is also affected by invasive weeds, the 
management of which often depends on deploying beneficial insect 
predators and parasites as biological control agents, resulting in 
permanent and often spectacular control. ESA respectfully requests that 
Forest and Rangeland Research be fully funded at the President's 
requested level of $292 million for fiscal year 2017.
---------------------------------------------------------------------------
    \1\ Aukema, J.E.; Leung, B.; Kovacs, K.; [et al.]. 2011. Economic 
impacts of non-native forest insects in the continental United States. 
PLoS ONE 6(9): e24587.
---------------------------------------------------------------------------
    Also under the purview of the Forest Service is the Forest Health 
Management program, which conducts mapping and surveys on public and 
private lands to monitor and assess risks from potentially harmful 
insects, diseases, and invasive plants. The program also provides 
assistance to State and local partners to help prevent and control 
outbreaks that threaten forest health. According to a 2011 study, 
invasive forest insects cost local governments alone an average of over 
$2 billion per year; direct costs to homeowners from property loss, 
tree removal, and treatment averages $1.5 billion per year.\2\ 
Initiatives within the Forest Health Management program are designed to 
reduce these costs. The program's ``Slow the Spread'' activities, for 
example, have led to a 60 percent reduction in the rate of the spread 
of the invasive gypsy moth, resulting in an estimated benefit-to-cost 
ratio of 3:1. Without the program, this destructive insect would likely 
have infested an additional 50 million acres of oak hardwood 
forests.\3\ To support such vital functions, ESA requests that the 
subcommittee oppose proposed cuts to Forest Health Management program 
in fiscal year 2017.
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Forest Service Fiscal Year 2017 Budget Overview: http://
www.fs.fed.us/sites/default/files/FY-2017-FS%20-budget-overview.pdf.
---------------------------------------------------------------------------
    EPA carries out its mission of protecting human health and the 
environment by developing and enforcing regulations, awarding grants 
for research and other projects, conducting studies on environmental 
issues, facilitating partnerships, and providing information through 
public outreach. Through these efforts, EPA works to ensure that the 
Nation has clean water, clean air, a safe and secure food supply, and 
protection from exposure to pollution and toxic chemicals.
    EPA's Pesticides Licensing Program Area, supported by EPA's Science 
& Technology and Environmental Program & Management budgets, serves to 
evaluate and regulate new pesticides to ensure safe and proper usage by 
consumers. Through the mandate of the Federal Insecticide, Fungicide, 
and Rodenticide Act (FIFRA), EPA utilizes scientific expertise and 
data, including knowledge gained from entomological science, to set 
maximum tolerated residue levels and to register pesticide products as 
effective and safe. By controlling insects that act as vectors of 
diseases of humans and domesticated animals and invasive insect species 
that threaten virtually every kind of natural or managed biological 
community and the human activities that depend on those communities, 
pesticides registered by EPA help protect public health and the 
Nation's food supply. EPA's activities in this area also include the 
development of educational information and outreach to encourage the 
use of IPM and other reduced-risk methods of controlling pests. For 
example, EPA continues to support programs aimed at protecting children 
from pesticide exposure used in and around schools, helping to promote 
cost-effective strategies that reduce student exposure to pesticides 
and pests. IPM strategies used in schools reduce student exposure to 
pesticides as well as allergens from pests themselves. Therefore, ESA 
supports continuing the modest funding that EPA has invested in school 
IPM.
    Among EPA's State & Tribal Assistance Grants, categorical grants in 
the area of Pesticides Program Implementation help to facilitate the 
translation of national pesticide regulatory information into real-
world approaches that work for local communities. For example, these 
grants fund efforts to reduce health and environmental risks associated 
with pesticide use by promoting, facilitating, and evaluating IPM 
techniques and other potentially safer alternatives to conventional 
pest control methods. ESA requests that the subcommittee support the 
proposed modest increase for Pesticides Program Implementation grants.
    ESA is in favor of increased funding for scientifically based 
studies of pollinator populations and health. Pollinators play a vital 
role in the Nation's agricultural enterprise. The honey bee, for 
example, provides pollination services for more than 90 crops in the 
United States, which collectively are valued at more than $17 billion 
per year.\4\ To ensure a healthy honey bee population, more research is 
needed to understand the complexities of annual colony losses that 
regularly exceed 30 percent and to examine the diverse factors that 
endanger bee health. Challenges to the health of honey bees and other 
pollinators include, among others, parasites, pathogens, poor 
nutrition, and pesticides; of these, pesticides also have agricultural 
benefits, against which risks to pollinators must be assessed, and the 
balance between risk and benefit varies among crop types, crop-
producing regions, and pest identity. EPA is well-positioned to guide 
the development of methods for protecting pollinator health; the agency 
has, for example, previously awarded agricultural IPM grants to three 
universities to aid in the development of IPM practices that reduce 
risks to bees and other pollinators while protecting crops from pests 
and human populations from insect disease vectors.\5\ For this reason, 
ESA supports EPA's participation in multi-agency efforts to investigate 
pollinator health and implementing plans to prevent pollinator 
population decline.
---------------------------------------------------------------------------
    \4\ Calderone, NW. 2012. Insect Pollinated Crops, Insect 
Pollinators and US Agriculture: Trend Analysis of Aggregate Data for 
the Period 1992--2009. PLoS ONE 7(5): e37235. doi:10.1371/
journal.pone.0037235, http://journals.plos.org/plosone/
article?id=10.1371/journal.pone.0037235.
    \5\ EPA. 2014. ``EPA Awards Almost Half a Million in Funding to 
Three Universities for Projects to Reduce Pesticide Risk Including 
Risks to Bees,'' https://yosemite.epa.gov/opa/admpress.nsf/
6427a6b7538955c585257359003f0230/
a5c495f5bc4d4ba285257c5a005aaa35!OpenDocument.
---------------------------------------------------------------------------
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has nearly 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for Forest Service and EPA programs. For more 
information about the Entomological Society of America, please see 
http://www.entsoc.org/.
                                 ______
                                 
     Prepared Statement of the Environmental Council of the States
    Dear Chairwoman Murkowski, Ranking Member Udall, and members of the 
subcommittee,

    I am Martha Rudolph, Director of Environmental Programs at the 
Colorado Department of Health and Environment, submitting this 
testimony as president and on behalf of the members of the 
Environmental Council of the States (ECOS) on the fiscal year 2017 
budget for the U.S. Environmental Protection Agency (EPA).
    We are pleased to provide this testimony in support of the 
President's budget request of $3.28 billion in appropriations for the 
State and Tribal Assistance Grants (STAG). Within STAG, there is a 
proposed $1.158 billion for categorical grants, which advance, in part, 
core State work to carry out responsibilities under the major 
environmental laws. The administration's STAG request also includes $2 
billion for the important clean water and drinking water State 
revolving funds (SRFs), $90 million for brownfields projects, $10 
million for diesel emission reduction grants, and $22 million for 
several focused assistance programs. States welcome the President's 
request for $77 million more in funding for categorical grants than the 
enacted fiscal year 2016 budget for these programs. We see great value 
in the $15.7 million requested increase for environmental information 
categorical grants, which help support the critical E-Enterprise for 
the Environment collaborative State and Federal work to improve 
regulatory processes for the regulated community and increase data 
availability to the public. The E-Enterprise for the Environment effort 
between States and EPA continues to support the ushering in a new era 
of efficient, effective, and renewed collaborative Federalism--with 
benefits for all who interface with, or administer, our Nation's 
environmental programs.
    States continue to face obstacles as we work to keep pace with the 
cost of implementing core and new programs. When limited funding is 
combined with new regulatory requirements and variability in the timing 
and the amount of Federal funds, States' ability to meet their 
delegated commitments becomes increasingly challenging. As States are 
responsible for the implementation of over 95 percent of the Nation's 
Federal environmental laws, it is essential that States are given 
flexibility and financial support so that we can work with EPA and 
other partners to ensure effective protection of human health and the 
environment.
    While States seek ways to save resources through efficiency 
efforts, our work is difficult to conduct in a flat or reduced fiscal 
state. We urge Congress to recognize the States' crucial role in 
delivering environmental protection and services by funding the STAG at 
the requested $3.28 billion level. Following, we offer and elaborate 
upon several reasons why this investment in States will deliver many 
times over.
States are Primary Implementers of the Nation's Environmental Laws
    The States are co-regulators with EPA in the implementation of the 
Nation's environmental laws and corresponding programs. Congress 
included provisions in the major Federal environmental statutes--
including the Clean Water Act, Safe Drinking Water Act, Clean Air Act, 
and Resource Conservation and Recovery Act--for States to assume 
authority over the Federal programs and to provide financial assistance 
to States to operate these Federal programs. A State match is usually 
required under these statutes, and States provide on average well over 
half and in many States, three-quarters of the funds to operate 
federally delegated programs.
    States perform much of the work set out in the President's budget 
request through these delegated programs, making Federal funding 
essential. States use a combination of Federal and State funding, and 
fees assessed on regulated entities, to issue permits, conduct 
inspections and enforcement, gather and manage data, set standards, 
remediate sites, monitor ambient conditions, and other important 
activities. In order to ensure the long-term strength and viability of 
EPA and the States' joint efforts to implement these programs, it is 
essential that the States receive sufficient Federal funding through 
STAG.
The Reality of the STAG Request
    States are encouraged that the President's budget request increases 
ten categorical grants and that overall, categorical grants receive a 
$77 million requested increase. When divided nationally, this is a 
proposed increase of just over $1 million per State for the 
implementation of national programs, and every Federal dollar will 
matter--particularly as States do more to maintain the delegated 
programs.
    We acknowledge that the budget request was prepared in continued 
challenging fiscal climate, and that proposed increases may come from 
reductions to valued programs. In many of these areas, EPA has proposed 
alternative ways to support the sectors affected by the proposed 
reductions though programs on the Agency's side of the ledger. For 
example, while a reduction is proposed for the Clean Water SRF, the 
administration's proposal calls for a $1.6 million increase in funds 
for the Water Infrastructure and Resiliency Finance Center to help 
communities identify and develop water financing. ECOS still has 
concerns with reductions to the revolving loan funds below needed and 
historic amounts. ECOS Resolution 08-1, renewed in 2014, refers to 
estimates--continually increasing--that over $700 billion is required 
to address wastewater and drinking water needs over the next 20 years. 
While the $157 million increase proposed for the Drinking Water SRF is 
without question an overdue and needed response to long acknowledged 
shortfalls, it appears to come at the expense of the Clean Water SRF--
which is proposed at $414 million less than fiscal year 2016 enacted. 
Given the great needs for investment in water infrastructure across the 
Nation, we encourage Congress to fund the SRFs at the President's 
increased drinking water request level without taking funds away from 
the clean water SRF. These investments are essential in order to 
advance critically needed and important work to protect the environment 
and public health in communities across the Nation.
Modernizing the Business of Environmental Protection
    Among the categorical grant increases, we especially encourage you 
to appropriate the requested $15.7 million increase to the 
Environmental Information Categorical Grant to States. Streamlining 
processes and technological investment are essential to enhancing how 
States deliver permits, monitoring, inspections, and public 
information. When leveraged with State resources it is essential to 
bringing State environmental business models into the modern age, and 
often supports development of shared services for States. These funds 
will facilitate States' continued efforts to implement electronic 
permitting and reporting systems proactively which will allow 
information to be processed, reviewed, shared between States and EPA, 
and acted upon more quickly. This facilitates job creation, contributes 
to improved public health, and creates a more efficient and transparent 
government system that brings more and more regulated entities into 
compliance while creating incentives for all facilities to perform at 
high levels. We are committed to joint governance, to better 
decisionmaking, and to increasing transparency and efficiency through 
the E-Enterprise for the Environment initiative. Your support for this 
Categorical Grant, and for EPA's request for funding its work on E-
Enterprise for the Environment aligned projects, will make a meaningful 
difference to the States, private entitles, and the public.
Rescissions
    We commend the administration for proposing no rescissions in prior 
STAG funds. The States need every dollar that Congress can give, and 
rescinding prior year funds is detrimental to achieving environmental 
progress. We are working with EPA to improve administrative processes 
to ensure that funds are dispersed in a timely manner so that they can 
be efficiently and effectively put to use by States. We urge you not to 
include any rescissions of unobligated STAG funds in the fiscal year 
2017 enacted budget. If rescissions must occur due to hard choices you 
must make, rescissions should be taken equitably from one or more of 
the Agency's budget accounts and the STAG account.
The Value of Flexibility
    State Environmental Agencies have seen budget cuts at the State 
level and are managing reductions in part by leaning our business 
processes and by strategically applying practices that improve 
efficiency, such as targeting inspections to priority areas and 
implementing technological advancements.
    Within each State, needs and priorities can vary in part from 
priorities set by EPA at the Federal level. State commissioners require 
maximum flexibility to direct the Federal resources in ways that suit 
their unique needs and circumstances. While the States may agree with 
and appreciate funding for specific efforts, States need flexibility to 
budget for and implement work activities most effectively. Directed 
funding undermines State flexibility and needed support for on-going 
every day implementation of the Nation's environmental laws. The 
States, as co-regulators with EPA, wish to preserve and expand State 
flexibility to address State and regional priorities within EPA's 
national framework. Fewer funding directions should help streamline 
State-EPA discussions about the work to be accomplished.
    Reducing spending directives within a Categorical Grant expedites 
State utilization of funds. States have worked closely with EPA over 
the last several years to quickly award and then efficiently utilize 
valuable Federal funding. Fewer instructions allow States to move more 
quickly to turn Federal dollars into positive results.
    ECOS and the States are very supportive of the $21 million 
multipurpose grant program that Congress created in the fiscal year 
2016 omnibus budget. The President's budget does not include a request 
to fund this program. In providing these funds for EPA to apportion to 
States and tribes for the implementation of priorities within 
environmental programs generally, Congress has given States and tribes 
the ability to direct the funds where they can most effectively be 
leveraged and deliver tangible results. We believe flexible funds 
provide States the best opportunity to make progress in advancing 
environmental goals and protecting human health, and we strongly 
encourage Congress to provide additional funding in the enacted budget 
so that this much-needed grant program can continue.
    ECOS and its members value our work with the Appropriations 
Committees, and are appreciative of the continued consideration of our 
views. We are confident the funding allocated will be well used to 
implement the Nation's environmental enterprise with EPA. With this 
funding, States will continue their dedicated efforts to deliver the 
clean environment all Americans want and deserve in the most efficient, 
modern, and results-oriented way possible.
    We welcome the opportunity to answer any questions or provide any 
further information.
    We thank you for the opportunity to share our perspective, and 
remain willing to provide the subcommittee with any input in the 
future.
                                 ______
                                 
             Prepared Statement of the Everglades Coalition
    Dear Chairwoman Murkowski and Ranking Member Udall:

    On behalf of the 61 members of the Everglades Coalition committed 
to the protection and restoration of America's Everglades, we want to 
thank you for your subcommittee's long-time support for Everglades 
restoration. Your continued support, along with the strong commitment 
from the last four Florida Governors, has kept restoration on a strong 
and steady path. This strong partnership between the Federal Government 
and the State of Florida has resulted in many successes with more on 
the horizon.
    To build on this progress, we respectfully request the amount of 
$62.7 million for fiscal year 2017 for agencies within the U.S. 
Department of the Interior (DOI), as recommended in the President's 
budget. This amount will allow key projects under the Comprehensive 
Everglades Restoration Plan (CERP) and others, such as combatting 
invasive species like the Burmese python and numerous plant species, to 
move forward.
    There is little question that the restoration of America's 
Everglades has been one of the highest priorities of this and previous 
administrations. The National Park Service (NPS), which is celebrating 
its centennial this year, listed the Everglades among their high 
priority parks. Everglades restoration is critical for the Interior 
bill because it is helping 17 federally protected lands--including 
National Parks and National Wildlife Refuges--that are currently in 
distress from the lack of clean water. We have a national 
responsibility to preserve this special and unique ecosystem for future 
generations, and agencies within DOI are taking a lead role to fulfill 
the goals of CERP and their commitment to manage the resources of the 
Greater Everglades Ecosystem in the Federal interest.
    We are very pleased that NPS is working closely with the Florida 
Department of Transportation (FDOT) and has funding committed to begin 
construction on the 2.6-mile bridge segment of the Tamiami Trail Next 
Steps project in spring 2016--making this a centennial project for the 
National Park Service. This bridging will enable long-blocked water to 
flow under this highway and bring badly needed water to Everglades 
National Park and Florida Bay. NPS intends to use funds from the 
Federal Lands Transportation Program to fulfill its commitment, in 
addition to $90 million committed from FDOT and $20 million from DOT's 
Transportation Investment Generating Economic Recovery (TIGER) 
competitive grant program.
    Last week, the Florida Legislature overwhelmingly passed ``Legacy 
Florida,'' which will dedicate at least $1 billion of Amendment 1 funds 
over the next 10 years for planning, design, engineering, and 
construction of Everglades restoration projects outlined in CERP. This 
legislation will dedicate even more funds for restoration projects 
beyond CERP that will improve the health of the greater Everglades 
ecosystem. The passage of this legislation ensures that reliable State 
dollars will be directed each year to these vital infrastructure 
projects. We look forward to working with your subcommittee to build on 
this State commitment to ensure a more predictable path for advancing 
Everglades projects.
    We greatly appreciate your continued support and commitment to 
Everglades restoration as we move forward with this monumental 
restoration effort, fulfilling our promise to future generations.

    [This statement was submitted by Cara Capp, National Co-Chair, and 
Jason Totoiu, State Co-Chair.]
                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils
    Madam Chairwoman and members of the subcommittee, I thank you for 
this opportunity to submit testimony on behalf of the State humanities 
councils, the State affiliates of the National Endowment for the 
Humanities, requesting $155 million for the National Endowment for the 
Humanities and $46 million for the Federal/State Partnership for fiscal 
year 2017.
    As full partners of the NEH, the State humanities councils receive 
their core funding through the Federal/State Partnership line of the 
NEH budget, which they use to leverage additional support from 
foundations, corporations, private individuals, and State governments. 
For the past several years, councils have leveraged, on average, $5.00 
in local contributions for every dollar of Federal funding awarded 
through their grants, and they have further extended their resources in 
recent years by forming partnerships with more than 9,000 organizations 
throughout their States. But demand continues to increase. While 
Federal funding for council programs has remained roughly level for the 
past several years, councils have continued to expand their programs to 
reach new populations and to meet growing needs in their States.
    At the heart of every humanities council discussion is a 
fundamental question: How can we make life better for the citizens of 
our communities? The multiple responses to this question can be seen in 
an array of council programs, conducted in nearly every congressional 
district in the Nation, which serve families, students, veterans, 
educators, rural Americans, medical personnel, immigrants and refugees, 
adult new readers, and a host of others. The State councils in each of 
the 50 States, five Territories and Washington DC work from a deep 
understanding of the unique identity of their States and of the needs 
of their citizens and communities. Their programs reach the tiniest and 
most remote towns as well as densely populated urban neighborhoods, 
creating bridges between academic research and public citizens hungry 
for substantive conversation about issues that matter.
    Councils steward their modest Federal resources not only by forming 
partnerships and leveraging other funding, but also by carefully 
studying the civic, cultural, demographic, and educational profile of 
their States, assessing the challenges their citizens and communities 
face, and making informed decisions about where and how their programs 
will have the greatest impact. Four areas of council activity offer 
particularly striking and significant illustration of the ways lives 
are changed through council work. These include programs that (1) 
support and help reintegrate veterans, (2) contribute to the economic 
and civic health of communities, (3) provide resources to underserved 
rural populations and (4) increase literacy and strengthen K-12 
education.
    Supporting veterans and their communities.--In 2014, the National 
Endowment for the Humanities, through its newly launched initiative, 
``Standing Together: The Humanities and the Experience of War,'' 
invited councils to submit proposals for $10,000 grants to develop or 
continue programs to help veterans reintegrate into civilian life and 
deepen community understanding of the challenges faced by returning 
veterans. Through these grants, councils created programs and 
partnerships that have continued well beyond the conclusion of the 
grant period and expanded far beyond the original design. Councils 
learned early that sustaining relationships forged with veterans and 
veterans groups was critical, so they stretched their resources to 
continue the initial programs as long as possible, while also using the 
grants to leverage other funds based on a strong record of high 
quality, reliable programs. NEH offered councils several program models 
but also gave them a free hand, under the terms of the grant, to shape 
programs they believed would best serve the veterans in their States.
    Veterans' experiences can be communicated in a variety of ways, as 
evidenced by a California Humanities program called ``War Ink,'' 
through which veterans shared their stories of war and homecoming with 
each other and the general public through an online interpretive 
exhibit of tattoos, a widespread form of communication among veterans. 
Initiated by a veteran and a program fellow at the Contra Costa County 
Library with a modest $10,000 grant from the humanities council, the 
site has received more than 50,000 visits since it was launched on 
Veterans Day in 2014. The 24 stories from men and women located in 
every part of the State reflect the diversity of experience in 
California, home to more than 2 million veterans. The project was 
created through the cooperative efforts of an unusual array of partners 
including public and private funders, tattoo parlors, veteran-serving 
organizations, libraries, college campuses, and media professionals.
    The New Mexico Humanities Council is one of a dozen councils 
serving veterans through a reading and discussion program, ``Talking 
Service,'' a partnership between participating councils and the Great 
Books Foundation, with support from the National Endowment for the 
Humanities. The project enables participants to discuss their 
experiences and challenges with fellow veterans, drawing on the 
literature chosen specifically for its relevance to veterans. The 
Vermont Humanities Council also offers reading and discussion programs 
for veterans, based on a model developed by the Maine Humanities 
Council. Session facilitator Michael Heaney, retired American history 
professor and Vietnam veteran, said of these discussions, ``The 
participants get to read stuff that bubbles up memories, provokes them 
sometimes, and then talk about it in a group that's safe for them. And 
for some of them, it's the first time they've ever had that 
opportunity.''
    Strengthening economic and cultural structures.--In addition to 
giving context and meaning to the lives of individuals and communities, 
the humanities strengthen the economic, cultural, and educational 
foundations of communities. Council-sponsored book festivals in 
Kentucky, Nebraska, Nevada, South Carolina, South Dakota, Tennessee, 
Texas, Utah, Virginia, and West Virginia bring thousands of residents 
and visitors together around the love of books and reading, while also 
contributing to local economies. Humanities Tennessee's Southern 
Festival of Books has been bringing the public together with more than 
200 nationally prominent authors every October since 1989. The 3-day 
festival, centered in Nashville, promotes reading and lifelong learning 
among the thousands of attendees each year, while also boosting the 
city's businesses.
    Other councils bring dollars to local communities by helping to 
strengthen local tourism. The Missouri Humanities Council's newest 
initiative brings the council into partnership with local governments 
and community organizations to highlight the State's most cherished 
historical and cultural treasures. In its first phase, the project will 
focus on the State's German heritage, identifying a series of sites 
that will illuminate the story of this important group, educating 
Missourians about their own history while also drawing tourism dollars 
to communities along the heritage tour route.
    The Rhode Island Council for the Humanities is creating a model for 
encouraging community vitality and prosperity through its 3-year 
``Catalyzing Newport'' project, which brings organizations and citizens 
together ``to address challenges and constraints, add value, and create 
the basis for resilient, sustainable, and innovative communities.'' The 
project will enlist experts to engage with citizens during residencies 
in which they will help to define and address challenges and work with 
community leaders to shape a future ``rich in culture, civic life, and 
economic opportunities.''
    Serving rural communities.--Our Nation's rural communities are a 
rich tapestry of vibrant American life, but many of these communities 
hunger for the kinds of cultural resources that connect them with their 
own histories and with the larger world. Humanities council programs 
meet this need yearly in thousands of communities in every corner of 
their States. From Chautauqua portrayals of historic figures to reading 
and discussion programs in local libraries to humanities speakers who 
traverse the State to deliver presentations on topics ranging from 
``Paul Revere's Ride'' to ``Cowboys and Cowgirls: Icons of the American 
West,'' humanities council programs offer live, intellectually 
substantive programs otherwise unavailable to residents of these rural 
communities.
    In a State of vast distances and small population centers, 
Humanities Montana has created a unique program that provides sustained 
support for a different community each year to become the site of 
intensive humanities programming including community conversations, 
writing workshops, lectures, poetry events, and reading and discussion 
series. Communities apply to be selected for this year-long project, 
which includes, in the course of the year, dozens of local events and 
several visits from humanities council staff members, who meet with 
community officials, cultural and educational leaders, and other local 
planners. The creation of strong local networks and partnerships within 
each community, along with the development of programming expertise, 
ensures that the impact will extend well beyond the designated year.
    The successful 25-year partnership between the State humanities 
councils and the Smithsonian Institution Traveling Exhibition Service 
(SITES) has brought high-quality, lightweight, portable Smithsonian 
exhibits to small towns in 46 States and Guam through a project known 
as Museum on Main Street (MoMS). Over its history, MoMS has stimulated 
partnerships among the councils, SITES, and local institutions in more 
than 900 communities, with an average population of 8,000. Recent 
exhibit topics have included ``Hometown Teams,'' looking at the way 
American sports have both reflected and influenced the culture; ``The 
Way We Worked,'' which traces changes in our workforce and work 
environments over 150 years; and ``Water/Ways,'' exploring the impact 
that water has on our landscape, our climate, and our communities. In 
each community, the MoMS exhibit is accompanied by a local exhibit and 
by cultural and educational activities planned and carried out by the 
host community, with financial and professional support from the 
humanities council and SITES.
    Councils in both Mississippi and Kentucky, for example, will tour 
``Hometown Teams,'' the newest MoMS exhibition, in 2016 and 2017, 
respectively. In both States, the exhibit will visit several 
communities, and the council will work with a local planning group to 
shape a local exhibit and accompanying programs. Programs in 
Mississippi, where the tour began this spring, will include a panel 
discussion among three former governors, all from small towns in 
Mississippi, talking about the impact of sports on their communities 
growing up. In addition, a world-renowned sports architect and Jackson 
native will talk about baseball stadium design across the country.
    Supporting education at all levels.--The State humanities councils, 
at their core, are all about contributing to the education of our 
citizens, from the youngest children to the most senior adults. Council 
programs help low-income and immigrant families improve their 
children's school readiness and the parents' reading skills through 
family literacy program models, such as Prime Time and Motheread. 
Council-supported programs for K-12 students, such as the National 
History Day competition, Center for the Book writing programs, Speakers 
in the Schools programs, and humanities camps and conferences for 
youth, improve student learning and engagement.
    The Louisiana Endowment for the Humanities, for example, 25 years 
ago launched a family literacy program, ``Prime Time,'' which was 
adopted by a number of other councils throughout the country. The 
program has a proven track record of improving school performance for 
students from underserved families, while also strengthening family 
ties. Through a 6-week series, families listen to a storyteller read 
award-winning children's literature and then discuss substantive 
humanities concepts and ideas together. Serving a different age group, 
the Alaska Humanities Forum offers an array of educational programs 
tailored to the unique circumstances of a State that is sharply divided 
between urban centers and very remote rural towns. One of these 
programs, the ``Sister School Exchange,'' provides support for five 
middle and high school students and a teacher from a rural community to 
change places with counterparts in Anchorage to promote cross-cultural 
understanding. ``Take Wing Alaska'' provides support for rural Native 
Alaska students to make the transition from their home communities to 
urban secondary schools, where they will gain the education needed to 
assume leadership positions back in their home villages. The program 
focuses not only on academic skills but also on the inherent Native 
skills that students can draw on to help them succeed in their new 
environment.
    ``Idea Lab,'' a summer program created by Oregon Humanities, offers 
professional development for teachers and college preparation for 
``high-curiosity'' students through a 3-day residential institute, 
looking at the pursuit happiness and its meaning in relation to such 
concepts as consumer culture, religion, politics, education, and civic 
engagement. The program welcomes teens from a wide variety of economic 
and social backgrounds with a particular focus on students who lack 
financial and family support for their college aspirations.
    These are only a few of the hundreds of programs through which 
councils help fulfill the mandate of the founding legislation, which 
eloquently reminds us that ``democracy demands wisdom and vision in its 
citizens . . . .'' We urge you to support our request for $155 million 
for the NEH and $46 million for the Federal/State Partnership, so 
humanities councils can continue to partner with the citizens of their 
States all across the country in pursuit of this wisdom.
                                 ______
                                 
 Prepared Statement of the Firefighters United for Safety, Ethics, and 
                                Ecology
Oppose ``Disaster'' Funding for Forest Service Wildfire Suppression 
        Operations
    As you are well aware, suppression spending has been soaring in 
recent years--rising well above the rate of inflation and consuming a 
majority of the Forest Service's budget. Even during years when 
wildfire activity has been relatively low, suppression spending has 
kept going up. The fire services have long passed the point of 
diminishing returns whereby increased spending on wildfire suppression 
yields any benefit in terms of increased firefighting safety or 
effectiveness.
    Giving Federal bureaucracies discretion to spend hundreds of 
millions of taxpayer dollars per year beyond their annual 
appropriations (as the Wildfire Disaster Funding Act proposed to do) is 
not only fiscally irresponsible, it is environmentally irresponsible 
and will raise safety risks for firefighters for generations to come. 
We strongly urge you to reject efforts to include the Wildfire Disaster 
Funding Act or any other similar legislative proposal, rider, or 
amendment.
    There is a serious problem with the Forest Service overspending its 
annual appropriated budgets on firefighting operations, and then 
transferring funds from other non-fire programs to pay for firefighting 
costs. We share the wide concern of many other organizations to cease 
these ``fire transfers'' and have the Forest Service budget become more 
stable, predictable, and above all accountable. We are glad that Forest 
Service Chief Tidwell has promised not to do that this year, especially 
since Congress has increased its fiscal year 2016 suppression 
appropriations by several hundred million. This means that there should 
be no self-induced crisis over fire transfers this year, giving 
Congress time to craft a bill that is fiscally sound and sustainable. 
Indeed, there are better ways to stop fire transfers than simply 
changing the budgetary source of those transfers, such as taking funds 
from FEMA.
    The problem with the mechanism proposed by the Wildfire Disaster 
Funding Act is that it does not target emergency funds to the large-
scale ``megafires'' that are truly fiscal disasters because they 
consume 30 percent of the agency's suppression budget. Instead, the 
agency can start accessing emergency funds after they've spent 70 
percent of their suppression budget. This system could set up a system 
of perverse incentives causing the agency to spend the 70 percent 
portion of their appropriated budget as soon as possible--sending crews 
out aggressively fighting early season wildfires in remote wildlands 
and at all costs--so they can gain disaster funding. This system is a 
ticket to promoting wildfire disasters, not preventing them!
    Unfortunately, Congress has traditionally given a ``blank check'' 
to Federal agencies when they overspend their appropriated budgets on 
suppression, rarely asking them hard questions about how they spent 
that money, what impacts that spending had on fire or the land, and 
what taxpayers actually get in return. This has led to the agency fire 
managers often choosing high-cost suppression strategies or tactics--
which may look good to the media--while neglecting other more cost-
efficient and effective fire management actions. Giving Federal 
agencies access to billions of more taxpayer dollars from disaster 
accounts will lead to suppression spending on steroids!
    Worse, allowing agencies to declare wildfires as disasters simply 
to lift budget caps and access near-unlimited emergency funding for 
suppression operations will undermine efforts that have been long in 
the making to shift agencies toward alternative proactive strategies in 
fire preparedness and planning, fuels reduction and forest restoration. 
Why bother with those activities that might actually prevent disasters, 
but must be paid for by appropriated budgets, when the agency can 
simply continue fighting all fires and get fully funded with no 
questions asked? And the definition of a wildfire disaster ultimately 
has nothing to do with the effects of a given wildfire, only the amount 
of money spent fighting it! Again, this is will simply incentivize 
disastrous management choices to spend more taxpayer dollars for no 
real benefit in reducing future fire risks, restoring fire-adapted 
ecosystems, or improving firefighter safety.
    We regret that many, perhaps most Members of Congress fail to 
understand the nature of the ``firefighter's dilemma,'' a term from 
business management that refers to the inability of businesses to 
invest in long-term cost-saving operations because they are so caught 
up in avoiding short-term losses. In the case of Federal agencies 
spending ever more taxpayer dollars on reactive wildfire suppression 
actions while neglecting proactive research, planning, and fuels 
management projects, the firefighter's dilemma is a literal, not 
metaphorical term. Allowing the agencies to access disaster accounts 
will become a bigger dilemma to the point of fiscal disaster.
    We strongly urge you to reject any efforts to include the Wildfire 
Disaster Funding Act or any other similar language in the fiscal year 
2017 Interior appropriations bill. Congress has already added hundreds 
of millions of extra dollars in the fiscal year 2016 Forest Service 
budget for suppression, and the Chief has pledged not to do any fire 
transfers this year, so there should be no crisis this year.
    Congress should take this time to come up with a more effective 
solution to suppression overspending. The real task Congress needs to 
do is to contain Federal suppression costs, not simply find a novel 
``off-budget'' way to pay for escalating expenditures.

    [This statement was submitted by Timothy Ingalsbee, Ph.D., 
Executive Director.]
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa
    I am Wally Dupuis, Chairman of the Fond du Lac Band of Lake 
Superior Chippewa. On behalf of the Band, I would like thank this 
subcommittee for the opportunity to submit testimony on fiscal year 
2017 appropriations for Indian programs funded through the Interior 
Department, Indian Health Service, and Environmental Protection Agency. 
The Fond du Lac Band occupies a small reservation in northeastern 
Minnesota. We have approximately 4,200 members and provide health, 
education, social services, public safety and other governmental 
services to more than 6,700 Indian people who live on and near our 
reservation. We strive to find solutions that will break the cycle of 
poverty and meet the unmet needs of our community. We are proud of the 
steps that we have taken to do this, including partnerships with the 
public and private sectors. But while we are beginning to address these 
longstanding problems, much remains to be done. Federal funding is 
essential.
    Bureau of Indian Education. BIE funding is the primary source of 
funding for the Fond du Lac Ojibwe School. This school serves 
approximately 340 students in pre-K through grade 12. Our students come 
from very low-income households; more than 90 percent of our students 
qualify for free or reduced rate lunches. While we are making progress 
in improving the educational attainment of our students, we are 
handicapped by limited resources. There are still significant 
disparities between American Indians and the population statewide on 
education that correlate with poverty levels. Data compiled for 
Minnesota in 2015 illustrates this:


----------------------------------------------------------------------------------------------------------------
                                                                          3rd Grade
                                                                         Students at    8th Grade    High School
                                                          Living below    3rd Grade    Students at   graduation
                                                             Poverty       reading      8th Grade       rates
                                                                            level      math level
----------------------------------------------------------------------------------------------------------------
Statewide...............................................       11.50%         58.7%         57.8%         81.9%
Minnesota Indian........................................       32.20%         40.5%         30.8%         51.9%
----------------------------------------------------------------------------------------------------------------
From: Minnesota Compass, http://www.mncompass.org/education/overview. Most recent data is as of 2015 except
  poverty rates are as of 2014.

    We very much appreciate the Federal efforts to improve 
opportunities for American Indian youth, and the recognition that 
education is a key component to improve the life trajectories of Native 
youth. We support the President's budget, which would increase overall 
education funding by $60 million over the fiscal year 2016 enacted 
level, including increases in funding for: Johnson O'Malley, so we can 
assist Indian children in public schools, as well as Early Childhood 
Development funds (FACE), which is critical to providing preschoolers 
with skills to be school-ready. As to other elements of the budget for 
education funding, we urge the following:

  --ISEP. Increase ISEP to $574 million as requested in the President's 
        budget. ISEP is the primary source of school funding. It covers 
        salaries for teachers, teacher aides, and administrative 
        personnel and is essential to our ability to recruit and retain 
        qualified teachers and to cover shortfalls in other budget 
        areas, such as transportation, facilities and maintenance.
  --Tribal Grant Support Costs (TGSC). Increase to $75 million funding 
        for TGSC. This helps pay the costs of accounting, insurance, 
        background checks, legal and record-keeping.
  --School Facility Operations and Maintenance. Increase School 
        Facility Operations to $66,219,000, and School Facility 
        Maintenance to $79,000,000. We need these funds to keep the 
        building safe, pay for preventative maintenance, and cover 
        insurance and utility costs.
  --Student Transportation. Increase Student Transportation to 
        $57,245,000 as set out in the President's budget as these funds 
        allow us maintain, repair, and replace buses.
  --School Construction and Repair. Appropriate $138 million for School 
        Construction and Repair. Students and staff are put in jeopardy 
        if deferred maintenance is not addressed.

    BIA: Public Safety and Justice. We disagree with the President's 
proposal to decrease funding for BIA's Public Safety and Justice. We 
urge Congress to increase those funds above fiscal year 2016 levels. 
Although we are a small community, we are combating major crimes. 
Alcohol, illegal prescription drug use, methamphetamine, and gang-
related activity create huge demands on our law enforcement. In 
addition, we face a significant increase in heroin use. Many in our 
community are the victims of assaults and robberies that are drug-
related. Our officers must respond to increasing drug overdoses and 
deaths, as well as juvenile offenses involving drugs, alcohol, thefts, 
assaults and burglaries. They also respond to a wide range of other 
matters, including domestic disputes, disturbances, disorderly conduct, 
property damage, theft, medical emergencies, fire, neglected children, 
runaways, suicide threats, as well as numerous traffic-related matters. 
In 2015, our Law Enforcement responded to more than 8,000 incidents and 
calls for service. This is a substantial increase from past years, 
where incidents and calls for service from our Department were: 6,000 
in 2014; 5,342 in 2013; 5,100 in 2012; and 4,900 in 2011.
    We use a combination of tribal and available Federal funds and 
cooperative agreements with local law enforcement agencies to meet law 
enforcement needs. To ensure effective law enforcement coverage 24/7, 
we need to have sufficient law enforcement staff and equipment. We are 
very fortunate that as a result of a COPS grant in 2015, we were able 
to employ 20 sworn officers--the number we need to effectively patrol 
the reservation. But our officers still need equipment. We do not yet 
have a sufficient number of patrol cars. We regularly need to acquire 
and replace other basic law enforcement equipment, like binoculars, 
video cameras, digital recorders and other surveillance tools. Federal 
funding is essential to meet those needs.
    Although I am pleased that we have been able to employ 20 sworn 
police officers, we have outgrown our current office space. With the 
lack of available building space, we have had to share building space 
with the reservation's Housing Department. We moved into our current 
space in 2004 with a total of 11 sworn officers. The space was tight 
with 11 officers. Needless to say, we desperately need a new modern 
building. As of right now we work in an area that consists of 5 
offices, a squad room barely capable of holding everyone for a 
department wide meeting and an evidence room. A new building would 
allow us to work more efficiently and allow for further growth in the 
future.
    BIA: Trust-Natural Resources Management. We support the President's 
budget proposal, to fund BIA Natural Resources Management at $215.6 
million in fiscal year 2017, including funding for Tribal Climate 
Resilience. Climate change impacts are especially significant in Indian 
country, where the basic subsistence needs of Indian people often 
depend on natural resources. This is certainly true at Fond du Lac. By 
treaties made in 1837, 1842 and 1854, the United States acquired our 
aboriginal territory but, to ensure that we could sustain ourselves and 
our families, expressly promised that we retained rights to hunt, fish 
and gather natural resources within and outside our reservation. Our 
members depend on and exercise these treaty-protected rights to put 
food on the table and for ceremonial practices that serve as the 
foundation for our culture. The stewardship of those natural 
resources--through scientific study, resource management, and 
enforcement of Band laws that regulate tribal members who hunt, fish 
and gather those resources--are an important source of employment for 
many of our members. Funding increases for Trust-Natural Resources 
Management allows us to protect, enhance, and restore natural 
resources. Significant stable funding is the most effective way to 
provide ecosystem services in a climate change driven environment. 
Healthy ecosystems will be best able to tolerate the stresses of 
climate change if they are in the best condition possible.
    Fond du Lac forest resources are an important asset to the Fond du 
Lac Band. The Intertribal Timber Council's third assessment of Indian 
forestry completed in 2013 found that Indian forestry is woefully 
unfunded when compared to other Federal, State, and private industrial 
forests. Working towards funding parity should be a goal nationally. 
Protecting the forest from wildfire and maintaining a fire resilient 
forest is also a goal of the Fond du Lac Band. Fire preparedness 
funding is below the most efficient level (MEL) and now 20 percent of 
the fuels funding is proposed to be stripped away from Indian forestry. 
Fire preparedness and fuels funding provide a basis for workforce 
development in Indian forestry. Tribal communities are within tribal 
fire protection areas. Other Federal agencies have communities adjacent 
to their protection areas. Provide adequate funding to manage tribal 
forests, protect forests from wildfire, create fire resilient 
communities and forests, and provide workforce development.
    U.S. Fish and Wildlife Service. The U.S. Fish and Wildlife Service 
is a valued partner of the Fond du Lac Band in wildlife and fisheries 
research and restoration programs. We request that the overall budget 
of the Fish and Wildlife Service be increased, with a particular 
increase to the Native American Liaison program. We support the 
President's requested increase to the Tribal Wildlife Grant Program, 
but urge that this program be funded at 5 times its current level, 
since current funding levels allow few grants to be awarded.
    Environmental Protection Agency (EPA). The drastic funding cuts to 
EPA in past years threaten long-term damage to the Nation. We support, 
at a minimum, the $8.6 billion in funding recommended in the 
President's budget, as well as the President's recommended increase in 
State and Tribal Assistance Grants, but urge that more be appropriated 
for these important programs.

  --Great Lakes Restoration Initiative. The Band fully supports this 
        initiative, and asks that it be funded at $500 million, two 
        times what is requested in the President's budget. This 
        initiative has broad-reaching benefits to resources of 
        importance for all stakeholders (State, tribal and private) in 
        the Great Lakes region. It is also an example of where EPA's 
        modest investment in tribal capacity support has resulted in 
        substantial outcomes, both in a more visible presence and 
        active participation in Great Lakes restoration and 
        protection--a true `seat at the table'--and in tangible 
        outcomes from successful projects.
  --Water Quality. The Fond du Lac Band has a federally approved water 
        quality standards program that has seen annual funding 
        declines, while the Band's responsibilities have increased. 
        Given the current threats to water resources in our region from 
        the expansion of iron and copper mining, we urge that tribal 
        section 106 funding be doubled. Not only has the universe of 
        tribes authorized for section 106 funding expanded, but tribes 
        with mature programs like the Band are struggling to cover 
        additional activities related to our multiple Clean Water Act 
        authorities with shrinking funds.
  --Air. In conjunction with our water quality monitoring 
        responsibilities, the Band has a long-standing air monitoring 
        program that has also faced a steady decline in Federal 
        funding. We request that air quality program funding for tribes 
        be increased.
  --Wetlands. One-half of our reservation is made up of wetlands. 
        Proper management and restoration of this valuable resource is 
        impossible without adequate and consistent Federal funding. We 
        request sustained wetland monitoring and protection program 
        funding.

    Indian Health Service. We fully support the President's proposed 
increase in funding for IHS and appreciate the commitment that the 
administration and Congress have made to address the funding needs for 
healthcare in Indian Country. The President's proposed increase is 
essential to address the high rates of medical inflation and the 
substantial unmet need for healthcare among Indian people. Indians at 
Fond du Lac, like Indians throughout the Nation, continue to face 
disproportionately higher rates of diabetes and its associated 
complications, than the rest of the population. Heart disease, cancer, 
obesity, chemical dependency and mental health problems are also 
prevalent among our people. All Indian tribes should receive 100 
percent of the Level of Need Formula, which is absolutely critical for 
tribes to address the serious and persistent health issues that 
confront our communities. The Band serves over 7,000 Indian people at 
our clinics, but the current funding level meets only 42 percent of our 
healthcare funding needs.
    As the epidemic of prescription drug abuse grows across the 
country, the IHS needs resources to expand its treatment and community 
education capacity. We are especially disappointed with the Pharma-
driven position SAMHSA has followed for the past several years 
regarding Methadone Assisted Therapy (MAT). Many poorly administered 
MAT programs are pouring unprecedented amounts of cheap, liquid 
Methadone into Indian communities with very destructive results. In 
2012, nearly 40 percent of the babies delivered by Fond du Lac Nurse-
midwives were born to Methadone dependent mothers. Although those 
numbers improved in 2013, nearly 35 percent of all pregnant women seen 
by Fond du Lac primary care providers use illicit drugs, mainly 
opiates. Research shows that methadone users are cognitively impaired, 
and more recent research has shown that children born to methadone 
users are more likely to have low birth weight, neural tube defects, 
spina bifida, congenital heart defects and gastroschisis. In Minnesota, 
Indian moms on Medical Assistance are 8.7 times more likely than non-
Indian moms to give birth to an infant suffering with NAS. Meanwhile, 
thousands of American Indians are falling victim to the chemical 
slavery now sponsored by SAMHSA. Additional funding for the 
Methamphetamine, Suicide Prevention Initiative should be made available 
to tribes and the IHS so that this ``new sickness'' can be addressed. 
Best practices in pharmacy inventory and prescription monitoring need 
to be modeled and replicated throughout Indian Country. The need is 
compounded by the fact that more government agencies expect local units 
of government, including tribes, to address these problems and the 
increasing number of individuals who become homeless as a result of 
them, through the operation of supportive housing. But Fond du Lac's 
ability to establish new program initiatives, like supportive housing, 
depends on assistance from the Federal Government. We urge Congress to 
support programs that would fund supportive housing for tribes in every 
area of the country. Miigwech. Thank you.
                                 ______
                                 
         Prepared Statement of the Forest Climate Working Group

   Adelante Consulting <bullet> American Forest Foundation <bullet> 
                            American Forests

    Binational Softwood Lumber Council <bullet> Hardwood Federation

         L&C Carbon <bullet> National Alliance of Forest Owners

      National Association of University Forest Resources Programs

    Society of American Foresters <bullet> The Forest Stewards Guild

            The Trust for Public Land <bullet> Weyerhaeuser

    Rationale: Forests and forest products currently sequester and 
store 13 percent of annual U.S. greenhouse gas emissions. The trend, 
for now, is up--U.S. EPA reports that land-based sequestration has 
increased 13.5 percent in the past decade. It is important to maintain 
this important resource by addressing rising threats to forest health 
and slowing forest conversion to non-forest uses. Through 
implementation of USDA's Building Blocks for Climate-Smart Agriculture 
and Forestry, we can take steps to protect and increase this carbon 
benefit, and accelerate the ability of U.S. forests to provide a 
sustained level of climate mitigation service to the Nation. Many of 
these same investments are leveraged to strengthen the resiliency of 
the Nation's forests and thus protect additional public services beyond 
carbon such as watersheds, wildlife habitat, recreational resources and 
economic prosperity for rural and urban communities.
                     fiscal year 2017 budget items
    The FCWG recommended funding levels below focus on program needs to 
implement USDA's Building Blocks for Climate-Smart Agriculture and 
Forestry. The actions outlined in the forest-related building blocks 
are major positive steps in conserving and enhancing climate resilience 
and carbon sequestration and storage on public and private lands. Below 
are FCWG's recommendations and the linkage to the USDA Building Blocks.
    Fix How Wildfire Fighting is funded in Federal Budget: Currently, 
wildfires are budgeted within the USFS and Department of the Interior 
through regular appropriations. This has created two issues for the 
USFS and DOI budgets. First, in this limited budget environment, non-
fire spending has decreased, as the annual appropriated levels for 
wildfire fighting has increased. Secondly, when wildfire fighting funds 
run out, non-fire and fire prevention program budgets are tapped to 
cover fire suppression expenditures, creating disruptions and in some 
case discontinuing key program activities. This has led to overall 
decreases in restoration and management programs that improve climate 
resiliency and mitigation through forests and ultimately help reduce 
wildfire risks. The FCWG supports revisions in budget structure that 
allow the expenses for large, extreme fires to be paid for from 
emergency funds, to reverse both the ``borrowing'' and the gradual 
decline of key agency programs.
Invest in Sound Science and Data (Foundational Support for All Building 
        Blocks)
  --USFS Forest Inventory and Analysis Program: FIA is the foundational 
        measure for our forests nationwide and is essential to 
        monitoring our progress. The fiscal year 2016 enacted budget 
        included a necessary increase in funding for this program which 
        we believe should at least be maintained, but an investment of 
        at least 83 million in fiscal year 2017 is warranted. We remain 
        concerned about the low level of funding for the program 
        relative to established needs for the information it provides 
        and the negative impact of constrained budgets on data 
        gathering, geographic scope, and sampling return interval and 
        national consistency that is vital for evaluating forest carbon 
        and resilience problems and potentials. This additional Federal 
        investment should be accompanied with language calling for 
        improvements in this program efficiencies to justify additional 
        investment in 2017 and in future fiscal years to enable further 
        program impact and ensure that FIA fully delivers on the 
        congressional mandate set in previous Farm Bills and the needs 
        for forest owners, managers, and communities. Additional 
        support for the FIA program is needed to ensure that we have 
        improved data regarding carbon sequestration rates and storage 
        and the impact of disturbance in forests to support growing 
        data and analysis needs for climate mitigation, forest 
        protection, and bioenergy.
  --The McIntire-Stennis (M-S) Cooperative Forestry Research Program: 
        This program has continued to provide fundamental support for 
        creating and strengthening forestry research and graduate 
        training efforts at colleges and universities across the Nation 
        for more than 50 years. M-S funding has helped produce 
        thousands of forest scientists and other research 
        professionals. Its support has provided national capacity for 
        both basic understanding and applied solutions to the emerging 
        problems of forests and related rangelands. In the face of 
        declining State and Federal budgets for forestry research, M-S 
        program support plays a critical role in sustaining and 
        advancing new knowledge and solutions, and producing the next 
        generation of forestry professionals. We recommend at least 
        $35.5 million investment into the M-S program.
  --USDA Climate Hubs and Related Investments in Applied Climate 
        Science: The USDA Climate Hubs have now been running for close 
        to 3 years and have demonstrated the capacity to provide useful 
        science-based guidance for private landowners and other land 
        managers. The Hubs assure that investments in science are 
        returned to the taxpayer in the form of usable knowledge and 
        tools that millions of forest landowners and managers can apply 
        to climate adaptation and mitigation problems. Continued 
        investment in these Hubs, integrated into various program 
        funding, to assist both public and private land managers is 
        critical to cross-boundary success.
  --The Renewable Resources Extension Act (RREA): This was enacted in 
        1978, with a mandate to provide for an expanded and 
        comprehensive extension program for forest and rangeland 
        renewable resources. This is the only USDA program focused 
        specifically on forest and rangeland Extension programs across 
        the full spectrum of landscapes and represents an important 
        part of USDA's commitment to forest and rangeland owners and 
        managers. Activities under this program are a critical 
        component to achieving long-term conservation and resource 
        protection. The RREA, through its systematic, objective, and 
        research-based initiatives at colleges and universities across 
        the Nation are helping participants understand and undertake 
        appropriate management alternatives relating to Biomass for 
        Energy, Climate Variability, Ecosystem Services, Fish and 
        Wildlife Resources, Food Production, Safety and Security, 
        Intergenerational Land and Other Land Ownership Changes, 
        Invasive Species, Urbanization, and Water and Wetlands. We 
        recommend at least $4.06 million investment into RREA program.
Promote the Use of Forest Products--Utilization in Building 
        Construction (USDA Building Block: Promotion of Wood Products 
        and Energy Generation and Efficiency)
            USFS Forest Products Laboratory
  --Woodworks: We recommend at least $2 million investment through the 
        USFS, or other funding source, into the initiative Woodworks, 
        which promotes wood use in building construction through 
        technology transfer, especially in non-residential buildings. 
        This program has demonstrated the potential to create an 18M 
        metric ton carbon benefit by 2018--a good investment at $.28 
        per metric ton of carbon sequestered.
  --Life Cycle Assessment Research on Wood Products: We recommend a $1 
        million investment in LCA Research through USFS FPL to ensure 
        the most updated information about the environmental impact of 
        wood products, with a particular focus on climate related 
        information and the role of wood in sustainable forest 
        management systems.
Enhance Resources for Private Forest Owners--Reforestation, 
        Afforestation, and Restoration
  --USFS Forest Stewardship Program: The Forest Stewardship Program 
        helps landowners plan sustainable management, including carbon 
        friendly and climate-smart practices, and to implement 
        reforestation. We recommend an appropriation of at least $29 
        million to advance carbon mitigation through this program, 
        including funds to support tree-planting assistance on private 
        lands. (USDA Building Block: Private Forest Growth and 
        Retention)
  --USFS Landscape Scale Restoration: We recommend $23.5 million this 
        program, to stimulate cross boundary, landscape scale work that 
        will measurably improve climate mitigation and resilience in 
        our forests. We feel that the landscape restoration approach 
        taken by the Forest Service effectively leverages public 
        investments and creates scale and efficiency that allows 
        climate and carbon public and private benefits to be both cost-
        effective and sustainable. Climate-induced stressors like 
        wildfires and insects and diseases, don't stay within ownership 
        boundaries and thus, a landscape approach is needed. (USDA 
        Building Block: Stewardship of Federal Forests)
  --NRCS Forest Landowner Cost Share--EQIP, WHIP, CSP, CRP, WRP, HFRP: 
        This suite of Farm Bill programs under NRCS are in the 
        aggregate the largest source of funding for landowners to 
        implement the stewardship and restoration actions needed to 
        increase carbon sequestration. This ranges from forest stand 
        improvement to restoration of carbon-rich forest types like 
        bottomland hardwoods. We recommend maintaining funding levels 
        currently authorized, as well as providing discretionary 
        funding for HFRP. (USDA Building Block: Conservation of 
        Sensitive Lands)
  --USFS Urban and Community Forestry Program: Urban and community 
        forests are an integral part of a community's infrastructure 
        and they have significant benefits for clean water, clean air, 
        energy conservation, and human health. Urban and community 
        forests should be recognized as ``green infrastructure'' for 
        the purposes of community planning and preparation for the 
        impacts of climate change. We recommend an appropriation of at 
        least $31 million to advance the important climate benefits 
        associated with growing and maintaining urban and community 
        forests. (USDA Building Block: Urban Forests)
Utilize Existing Grant Programs to Retain Forests--Diverse Tools for 
        Different Partners and Contexts
  --USFS Forest Legacy Program: We recommend $62 million for the Forest 
        Legacy Program in current discretionary funding and $38 million 
        for the Program from mandatory Land and Water Conservation 
        Funds, the most flexible and widely applicable Federal program 
        for permanent conservation of forestland from development. We 
        recommend at least maintaining or strengthening funding for 
        this program to capture the many opportunities for State, 
        local, and private forest conservation in carbon-rich forest 
        systems, including extensive working forest conservation 
        easements. (USDA Building Block: Private Forest Growth and 
        Retention)
  --USFS Community Forest Program: The Community Forest Program is a 
        relatively new 50/50 matching grant program that is helping 
        local governments, tribes, and non-profits to acquire and 
        manage forestland threatened with conversion. We recommend $5 
        million for this program, to fully tap the potential of these 
        local and tribal entities to contribute carbon mitigation 
        through forests. (USDA Building Block: Private Forest Growth 
        and Retention)
                                 ______
                                 
  Prepared Statement in Support of the Forest Inventory and Analysis 
                                Program
    Dear Chairwoman Murkowski and Ranking Tom Udall,

    The undersigned organizations are strong supporters of the Forest 
Inventory and Analysis (FIA) program funded by the USDA Forest Service 
(Forest Service). We rely on the inventory data and analysis of 
America's forests provided by the program, which make up the backbone 
of scientific knowledge on the current state of the Nation's forests. 
This critical information is needed to support sound policy and forest 
management decisions, both public and private, and is increasingly 
important for decisions regarding new and expanding markets. We urge 
the Congress to support the FIA program and request funding for the 
program in fiscal year 2017 of at least $83 million to move the program 
toward providing an accurate and timely inventory of America's forests. 
We also urge the inclusion of language ensuring that this funding 
would, at minimum, maintain historic remeasurement cycles--every 7 
years in the east and every 10 years in the west--as referenced by the 
administration.
    The data and information collected by FIA serves as the basis for: 
identifying trends in forest ownership; measuring carbon stocks; 
assessing fish and wildlife habitat; evaluating wildfire, insect, and 
disease risk; predicting the spread of invasive species; determining 
capital investment in existing forest products facilities and selecting 
locations for new forest product facilities; and identifying and 
responding to priorities identified in State Forest Action Plans.
    The FIA program is utilized by a large set of diverse stakeholders 
interested in the state of America's forests. These include forest 
resource managers at mills, land managers, conservation groups, 
university students and faculty, and State and Federal agencies, such 
as the US Environmental Protection Agency (EPA).
    The undersigned organizations would like to work with Congress to 
further explore program potential. An annual funding level of $83 
million would support a 7 year annualized program in the east, and a 10 
year program in the west as recommended in the Forest Service's 2007 
FIA Strategic Plan. In 2015 the Forest Service released an updated FIA 
Strategic Plan, which outlines a variety of potential program 
deliverables at funding levels. While we are supportive of at least $83 
million in funding for fiscal year 2017, the 2015 Strategic Plan calls 
for $103 million to implement the 5 year annualized program called for 
in the 1998 Farm Bill. This reduction in cycle length would provide 
more accurate data to support important forest resource decisions. As 
engaged partners, we are interested in working with Congress and the 
Forest Service to make program delivery as efficient as possible and to 
support additional Federal investment to implement many of the useful 
tools outlined in the new FIA Strategic Plan--including full urban 
inventory, increased plot density, and improved carbon and biomass 
estimates.
    There is a need to make FIA data more robust and more useful for 
emerging uses, such as accurate information regarding carbon stocks, 
forest sustainability monitoring, wildlife habitat assessments, and 
much more. Given the increasing pressures facing our forests--from 
wildfire, insects and disease and development--the FIA program is more 
important now than ever before. Funding the FIA program at $83 million 
for fiscal year 2017 would move toward providing for our growing data 
needs.

            Sincerely,

Alabama Forestry Association
Allegheny Hardwood Utilization Group, Inc.
American Forest & Paper Association
American Forest Foundation
American Forests
American Wood Council
Arkansas Forestry Association
Arkansas Timber Producers Association
Black Hills Forest Resource Association
California Forestry Association
Empire State Forest Products Association
Environmental Defense Fund
Forest Business Network
Forest Products Industry National Labor Management Committee
Forest Landowners Association
Forest Products Industry National Labor Management Committee
Forest Resources Association
Hardwood Federation
Hardwood Plywood and Veneer Association
Kentucky Forest Industries Association
Louisiana Forestry Association
Maine Forest Products Council
Minnesota Forest Industries
Minnesota Timber Producers Association
Mississippi Forestry Association
Montana Wood Products Association
National Alliance of Forest Owners
National Association of Conservation Districts
National Association of Forest Service Retirees
National Association of State Departments of Agriculture
National Association of State Foresters
National Association of University Forest Resources Programs
National Wild Turkey Federation
National Woodland Owners Association
North Carolina Forestry Association
Northeastern Loggers' Association
Northeastern Lumber Manufacturers Association
Ohio Forestry Association
Oregon Forest & Industries Council
Oregon Women in Timber
Pennsylvania Forest Products Association
Pinchot Institute for Conservation
Pulp and Paperworkers' Resource Council
Society for the Protection of New Hampshire Forests
Society of American Foresters
South Carolina Forestry Association
South Carolina Timber Producers Association
Sustainable Forestry Initiative
Texas Forestry Association
The Nature Conservancy
Treated Wood Council
United Steelworkers
Virginia Forest Products Association
Virginia Forestry Association
Western Wood Preservers Institute
Wisconsin Paper Council
                      
                                 ______
                                 
                 Prepared Statement of Kathleen Fowler
    Dear Senators:

    As an American citizen and taxpayer, I strongly oppose the BLM's 
proposal to conduct dangerous sterilization experiments on wild mares 
at the Wild Horse Corral Facility in Hines. According to the 
Environmental Assessment (EA), the BLM is deciding whether or not to 
proceed with one or more of the proposed sterilization procedures. The 
weight of scientific evidence and public opinion clearly supports a BLM 
decision NOT to proceed with any of these sterilization procedures.
    The sterilization procedures that BLM is proposing to conduct on 
federally protected wild mares are dangerous, costly and impractical 
for use in the field, due to the serious health risks they pose to the 
horses and their unborn foals, and also due to the great expense of 
purchasing the equipment and training the number of veterinarians 
necessary to implement these procedures on the range.
    It makes no sense to spend millions of taxpayer dollars on these 
risky invasive experiments when proven, humane, and relatively 
inexpensive fertility control technology in the form of the PZP vaccine 
is readily available but vastly underutilized by the BLM.
    The EA is completely inadequate in analyzing the impacts of these 
experimental procedures on mares. In addition, the BLM has deliberately 
avoided public opposition to this controversial and grotesque research 
proposal by skipping the scoping stage of the environmental analysis 
process. As a result, the public has been deprived of the opportunity 
to provide input into the impacts of and alternatives to these 
procedures that must be analyzed under the rules of the National 
Environmental Policy Act.
1.  Ovariectomy via Colposcopy
    This is an outdated and archaic procedure that has been supplanted 
by more modern laparoscopic surgery. The EA fails to analyze the 
impacts of and alternatives to this procedure to mares and never once 
mentions the availability of more modern techniques! This proposed 
sterilization experiment is an intra-vaginal complex surgical 
procedure, which is hardly ever performed in domestic horses (never 
mind in wild ones), due to its inherently dangerous risks.

  --The blind nature of this surgery increases the risk of intra-
        abdominal hemorrhage, but the EA never even addresses this 
        issue or the availability of more modern laparoscopic 
        techniques that allow the surgeon to visualize the abdominal 
        structures.
  --The lack of a sterile environment subjects the mares to a high risk 
        of infection, something that is ignored by the EA.
  --The procedure carries with it a significant risk of hemorrhage and 
        evisceration (protrusion of the intestines through the surgical 
        incision), which is why it requires strict follow-up care when 
        used in domestic horses, including pain relief and 4-7 days of 
        stall rest, the first 48 hours of which is spent in crossties 
        to prevent the mare from lying down. It is not possible to 
        provide this required post-operative care to wild mares, yet 
        the EA minimizes the impacts of this fact, citing the opinion 
        of an un-named veterinarian, instead of the published science 
        and National Research Council review, which clearly indicate 
        the risks and impacts of this outdated procedure on wild mares.
  --The procedure will cause mares in early stages of pregnancy to 
        abort their fetuses and may cause loss of pregnancy for mares 
        in the mid-stage of pregnancy as well. This is unacceptable.

    This pursuit of ovariectomy research is directly counter to the 
recommendations of the National Academy of Sciences National Research 
Council (NRC) in its 2013 report, ``Using Science to Improve the BLM 
Wild Horse and Burro Program: A Way Forward.'' That NRC report 
concluded that: ``The possibility that ovariectomy may be followed by 
prolonged bleeding or peritoneal infection makes it inadvisable for 
field application.''
2.  Minimally Invasive Sterilization Techniques
    The other sterilization procedures that BLM proposes to research, 
while less invasive than ovariectomy, should also be abandoned due to 
the inability to provide post-operative care and the impracticality of 
implementing these procedures--which have never before been done in 
wild or domestic horses--on a broad scale in a field setting. The EA 
fails to analyze the impacts of precedent-setting procedures that have 
never before been performed in horses, and as well as the inability to 
provide required post-operative care. The EA also omits analysis of the 
economic impacts and practicalities of implementing these procedures on 
the range.
    In proceeding with these experiments, the BLM has ignored the NRC 
recommendation that these techniques should first be perfected in 
domestic mares, who can be easily handled and will be accessible for 
close monitoring and post-operative care, before attempting them in 
wild horses.
    It is unconscionable that the BLM is proceeding with these 
draconian experiments that endanger the lives of the un-consenting 
equine subjects and their unborn foals, particularly when a proven non-
invasive and safe fertility control method exists in the readily 
available PZP birth control vaccine. Instead of wasting millions of tax 
dollars to fund experiments on inhumane and impractical sterilization 
experiments, the agency should instead focus resources on vaccinating 
sufficient numbers of mares with the PZP fertility control vaccine, 
which is documented through 30 years of experience and published 
science, to be safe, effective, cost-effective and successful in 
managing wild horse populations.
    Again, as a taxpayer and wild horse lover, I am outraged that the 
BLM is even considering pursuing such inhumane, barbaric and wasteful 
experimentation on wild horses and I find the BLM's Environmental 
Analysis of its impacts to be woefully inadequate. As a result, I 
strongly urge the BLM to abandon these proposed experiments in favor of 
using proven, more cost-effective and humane fertility control methods.
                                 ______
                                 
   Prepared Statement of the Friends of Patuxent Research Refuge and 
                Patuxent Wildlife Research Center, Inc.
    Mr. Chairman and members of the subcommittee:

    On behalf of the Friends of Patuxent Research Refuge and Patuxent 
Wildlife Research Center, Inc., I would like to present testimony in 
support of the fiscal year 2017 budget requests for the Patuxent 
Research Refuge (USFWS) and the fiscal year 2018 capital budget request 
for the Patuxent Widlife Research Center (USGS) in Laurel, Maryland. In 
broad terms, the Friends of Patuxent supports a full appropriation of 
$506.6 million for the National Wildlife Refuge System operation and 
maintenance; permanent reauthorization and full funding for the Land 
and Water Conservation Fund at $900 million per year; and specifically 
for capital budget requests for the Patuxent Wildlife Research Center 
of $23 million for a replacement general science lab and $12 million 
for a wildlife physiology lab.
    Many of you may have visited this unique National Wildlife Refuge 
and Research Center, the only facility of its kind, since it is so 
close to our Nation's Capital. Founded in 1936, Patuxent is the premier 
wildlife research center in the world, and the 12,000+ acres of the 
research refuge, along with the National Wildlife Visitor Center, 
comprise one of the largest urban wildlife refuges in the Nation.
    While this flagship refuge and research center is justly the pride 
of USFWS and USGS for its unique mission, the refuge and center have 
suffered from years of cut-back budgets and staff shortages. These 
intentional cuts and lack of ability to make up for losses from 
inflation have seriously impacted the mission of each of these 
facilities.
    For example, at Patuxent Research Refuge, full time staff positions 
have been left vacant for inordinate amounts of time; 2 and 3 years in 
some cases simply because there is insufficient funding to fill them. 
The National Wildlife Visitor Center is now closed 1 day per week 
because there is insufficient staff and operational funding to remain 
open 7 days per week.
    Many program requests such as school visits, youth groups, and 
training workshops turned down because of lack of staff or the closed 
visitor center. This is not the staff's fault, but it is not acceptable 
for a national urban wildlife refuge of this caliber.
    At Patuxent Wildlife Research Center, a facility of USGS, there is 
comparable need for staff and operational funding, but in addition, 
there is exceptional need for capital funding to replace a general 
science lab, the Stickell Lab, that was demolished in recent years due 
to deterioration and unsafe conditions. In addition, a new wildlife 
physiology lab for $12 million is needed to perform vital work in 
genetics analysis, indoor holding of wildlife species under study, and 
other needs.
    The staff of research scientists and biologists is down 60 percent. 
Four scientists are retiring this year; they are replacing only one 
position. Overall the omplement of research scientists who are 
performing vital work on environmental contaminants, wildlife research, 
and endangered species is down from a high of 54 positions to the 
present 32.
    The Friends of Patuxent have supported the volunteer program at 
Patuxent in both the educational and programmatic functions of Patuxent 
Research Refuge and the scientific and management functions of Patuxent 
Wildlife Research Center. It is a sad state of affairs when the lack of 
staff causes the volunteer program to be diminished because there is 
not enough staff to coordinate and supervise the outstanding volunteers 
who are willing to give of their time and talent in support of the 
mission of these facilities.
    We urge you to support these reasonable budget requests for both 
the wildlife refuge and the wildlife research center. You will be 
making investments in work that is extremely important to the Nation. 
We thank you for the opportunity to present this testimony.

    [This statement was submitted by Jeanne Latham, President.]
                                 ______
                                 
 Prepared Statement of the Friends of Rachel Carson National Wildlife 
                                 Refuge
    Ms. Chairman and honorable members of the subcommittee: I am Bill 
Durkin, President of The Friends of Rachel Carson National Wildlife 
Refuge in Biddeford, Maine.
    First off, a Happy Earth Day in a few days; it has been 46 years 
since the first Earth Day and it is truly amazing how far we have all 
come in protecting the environment. As you all know, after that first 
Earth Day, the EPA was created and Congress passed the Clean Air, Clean 
Water and Endangered Species Acts. At the time it was a gamble and we 
are all thankful that it worked and we continue to work at protecting 
our air, water and habitats (human and wildlife). I have been a member 
of the Friends of Rachel Carson NWR for the past 27 years. The group 
was founded in 1987; we are a small group supporting the refuge in 
southern Maine. I have given numerous written statements over the years 
and we really appreciate your support in the past. This year, our 
refuge is not requesting any appropriations directly for Rachel Carson 
National Wildlife Refuge; this is a request for general funding of the 
National Wildlife Refuge System of $506.6 million. This year we ask to 
appropriate $50 million in the National Wildlife Refuge Fund. I also 
urge the subcommittee to fund the Land, Water and Conservation Fund at 
full funding at $900 million with a $137.6 million of that request for 
the National Wildlife Refuge Systems purchase of easements and in 
holdings. I thank you all for your consideration.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the Nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's coastal 
habitat, leading her to write the international best-seller The Sea 
Around Us. This landmark study, in combination with her other writings, 
The Edge of the Sea and Silent Spring, led Rachel Carson to become an 
advocate on behalf of this Nation's vast coastal habitat and the 
wildlife that depends on it. With the recent 50th anniversary of the 
publication of Silent Spring, her legacy lives on today at the refuge 
that bears her name and is dedicated to the permanent protection of the 
salt marshes and estuaries of the southern Maine coast. The refuge was 
established in 1966 to preserve migratory bird habitat and waterfowl 
migration along southern Maine's coastal estuaries. It consists of 11 
refuge divisions in 12 municipalities protecting approximately 5,600 
acres within a 14,800 acre acquisition zone.
    Consisting of meandering tidal creeks, coastal upland, sandy dunes, 
salt ponds, marsh, and productive wetlands, the Rachel Carson NWR 
provides critical nesting and feeding habitat for the threatened piping 
plover and a variety of migratory waterfowl, and serves as a nursery 
for many shellfish and finfish. Located along the Atlantic flyway, the 
refuge serves as an important stopover point for migratory birds. 
Previous years' appropriations have allowed the USFWS to conserve 
several properties within the refuge. In fiscal year 2010 we purchased 
a 98 acre tract at Timber Point with a $3 million LWCF appropriation. 
This purchases provide an important buffer between the intense 
development pressure along the southern Maine coast and its fragile 
coastal estuaries--development pressures continue to spiral upwards and 
additional coastal properties are under threat. We built a National 
Recreational Trail (NRT) for public use and have completed an 
Environmental Assessment for future use of the property. Protecting 
Timber Point was a priority for the refuge for decades, and we thank 
you. The process does work and I support all Refuges requests for 
fiscal year 2017. You can make it happen.

    1.  We are requesting an overall funding level of $506.6 million in 
fiscal year 2017 for the Operations and Maintenance Budget of the 
National Wildlife Refuge System, managed by the U.S. Fish and Wildlife 
Service. All of the refuges are in dire need of staffing and upkeep. 
The National Wildlife Refuge System is responsible for 568 million 
acres of lands and waters, but currently receives less than a $1. per 
acre for management costs. The refuges cannot fulfill its obligation to 
the American public, our wildlife and 47 million annual visitors 
without adequate funding. Refuges provide unparalleled opportunities to 
hunt, fish, watch wildlife and educate children about the environment. 
An investment in the Nation's Refuge System is an excellent investment 
in the American economy, generating $2.4 billion and creating about 
35,000 jobs in local economies. Without increased funding for refuges, 
wildlife conservation and public recreation opportunities will be 
jeopardized. We fully supported the U.S. Fish and Wildlife's request of 
$506.6 million for Operation and Management for the National Wildlife 
Refuge System.
    2.  Appropriate $50 million in the National Wildlife Refuge Fund in 
fiscal year 2017 which offsets losses in local government tax revenue 
because lands owned by the Refuge System are exempt from taxation. The 
Refuge Fund is an annual appropriation that supplements the Refuge 
Revenue Sharing Program. The Revenue Sharing Program offsets lost local 
tax revenue by providing payments to local governments from net income 
derived from permits and wildlife refuge activities.
    3.  We request $137.6 million in LWCF funding for Refuge land 
acquisitions/conservation easements and we call for full funding of 
LWCF at $900 million. The Land and Water Conservation Fund is our 
Nation's premier Federal program to acquire and protect lands at 
national parks, forests, refuges, and public lands and at State parks, 
trails, and recreational facilities. These sites across the country 
provide the public with substantial social and economic benefits 
including promoting healthier lifestyles through active recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. The quality of place is greatly enhanced. As you know, 
LWCF uses no tax payer dollars. Created by Congress in 1964 and 
authorized at $900 million per year (more than $3 billion in today's 
dollars), the LWCF is our most important land and easement acquisition 
tool. In the President's budget, he has included full funding for LWCF 
programs at the $900 million level, and I support the administration's 
commitment to fully funding the program. This wise investment in the 
Land and Water Conservation Fund is one that will permanently pay 
dividends to the American people and to our great natural and 
historical heritage. The Refuge System needs $137 million in LWCF for 
fiscal year 2017.

    The Land, Water and Conservation Fund has provided incredible 
benefit to the State of Maine. We have six National Wildlife Refuges 
and our only National Park, Acadia, attracts a huge amount of tourist 
each year and offers great recreational activities to the local 
citizens of the State. LWCF and the Forest Legacy program have 
conserved tens of thousands of acres in our interior forestlands and 
ensures that forestry and recreational access for all will be a huge 
part of our economy for generations to come. As a Mainer, I also wanted 
to highlight the importance of LWCF funding to other parts of the State 
beyond Rachel Carson NWR. We have a Crown Jewel of the national park 
system at Acadia National Park, which will celebrate its centennial 
this year. and has continuing LWCF acquisition needs. And we have 
incredibly valuable private forests whose permanent protection through 
Forest Legacy Program funding means that our tourist and timber 
industries--our two largest--can thrive together. I have traveled all 
over the huge State of Maine, visiting all of the National Wildlife 
Refuges, Acadia NP and State public lands where I enjoyed cross country 
skiing, hiking, mountain biking, spending nights at quaint lodges and 
dining at small restaurants: all adding to the local Maine economy. So, 
LWCF funding for conservation in Maine is critical to the rural economy 
and National Wildlife Refuges. And it is matched by other funding, and 
enjoys broad support from forest landowners, snowmobilers hikers and 
birdwatchers alike. I cannot emphasize enough how important LWCF 
funding is to Maine and the remaining 49 United States.
    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our National Wildlife Refuge System and respectfully 
request the Interior, Environment and Related Agencies Appropriations 
Subcommittee allocate $506.6 million for the Refuge System's fiscal 
year 2017 Operations & Maintenance Budget, $50 million in the National 
Wildlife Refuge Fund and $137.6 million in Refuge LWCF monies. We need 
Congress to standby their commitment that was made in 1964 : stabilize 
the LWCF at $900 million.
    Thank you again, Ms. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and it's habitat. Enjoy 
your next walk out on a National Wildlife Refuge.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) urges Congress to support 
the fiscal year 2017 request of $1.2 billion for the U.S. Geological 
Survey (USGS). As one of our Nation's key science agencies, the USGS 
plays a vital role in understanding and documenting mineral and energy 
resources that underpin economic growth; researching and monitoring 
potential natural hazards that threaten U.S. and international 
security; and determining and assessing water quality and availability. 
Approximately two thirds of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities and 
decisions of the Department of the Interior, this research is used by 
communities across the Nation to make informed decisions in land use 
planning, emergency response, natural resource management, engineering, 
and education. Despite the critical role played by the USGS, funding 
for the agency has stagnated in real dollars for more than a decade. 
The requested level would permit the USGS to add to its capability in 
these important areas. Given the importance of the many activities of 
the Survey that protect lives and property, stimulate innovations that 
fuel the economy, provide national security, and enhance the quality of 
life, GSA believes that growth in Federal funding for the Survey is 
necessary for the future of our Nation.
    The Geological Society of America, founded in 1888, is a scientific 
society with over 26,000 members from academia, government, and 
industry in all 50 States and more than 100 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind.
u.s. geological survey contributions to national security, health, and 
                                welfare
    The USGS is one of the Nation's premier science agencies. 
Approximately two thirds of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities and 
decisions of the Department of the Interior, this research is used by 
communities across the Nation to make informed decisions in land use 
planning, emergency response, natural resource management, engineering, 
and education. USGS research addresses many of society's greatest 
challenges for national security, health, and welfare. Several are 
highlighted below.

  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, wildfires, and landslides--are a major cause of 
        fatalities and economic losses. Recent natural disasters 
        provide unmistakable evidence that the United States remains 
        vulnerable to staggering losses. Landslides, which occur in 
        every State, cause more than $3 billion in damage each year. An 
        improved scientific understanding of geologic hazards will 
        reduce future losses through better forecasts of their 
        occurrence, which allows for effective planning and mitigation.
         Decision makers in many sectors rely upon USGS data. For 
example, USGS volcano monitoring provides key data to enable decisions 
on airline safety and data from the USGS network of stream gages is 
used by the National Weather Service to issue flood and drought 
warnings. GSA urges Congress to support efforts for USGS to modernize 
and upgrade its natural hazards monitoring and warning systems to 
protect communities from the devastating personal and economic effects 
of natural disasters, including additional 3-D elevation mapping and 
earthquake early warning systems.

  --A 2013 report by the National Research Council, Emerging Workforce 
        Trends in the Energy and Mining Industries: A Call to Action, 
        found, ``Energy and mineral resources are essential for the 
        Nation's fundamental functions, its economy, and its 
        security.'' Recent studies have shown that rare earth elements 
        are essential to the production, sustainment, and operation of 
        U.S. military equipment. Reliable access to the necessary 
        material is a bedrock requirement for the Department of 
        Defense. In addition, many emerging energy technologies--such 
        as wind turbines and solar cells--depend upon rare earth 
        elements and critical minerals that currently lack diversified 
        sources of supply. We support the proposed increases in 
        minerals science, research, information, data collection and 
        analysis that will allow for more economic and environmental 
        management and utilization of minerals. In addition, GSA 
        supports increases in research to better understand domestic 
        sources of energy, including conventional and unconventional 
        oil and gas and renewables.

  --The ongoing drought in the western United States is a testament to 
        our dependence on water. The availability and quality of 
        surface water and groundwater are vital to the wellbeing of 
        both societies and ecosystems. Greater scientific understanding 
        of these resources through monitoring and research by the USGS 
        is necessary to ensure adequate and safe water resources for 
        the health and welfare of society.

  --USGS research on climate impacts is used by the Department of the 
        Interior and local policymakers and resource managers to make 
        sound decisions based on the best possible science. The Climate 
        Science Centers, for example, provide scientific information 
        necessary to anticipate, monitor, and adapt to climate change's 
        effects at regional and local levels, allowing communities to 
        make smart, cost-effective decisions.

  --The Landsat satellites have amassed the largest archive of remotely 
        sensed land data in the world, a tremendously important 
        resource for natural resource exploration, land use planning, 
        and assessing water resources, the impacts of natural 
        disasters, and global agriculture production. GSA supports 
        interagency efforts to plan a path forward for future support 
        of Landsat.

    All of these activities are supported by the Core System Sciences, 
Facilities, and Science Support arenas. These programs and services, 
such as geologic mapping and data preservation, provide critical 
information, data, and infrastructure that underpin the research that 
will stimulate innovations that fuel the economy, provide security, and 
enhance the quality of life. Increases are particularly needed in 
Facilities to address many deferred maintenance programs.
    Knowledge of the earth sciences is essential to science literacy 
and to meeting the environmental and resource challenges of the twenty-
first century. It is also fundamental to training the next generation 
of Earth science professionals. We are very concerned that cuts in 
Earth science funding will cause students and young professionals to 
leave the field, potentially leading to a lost generation of 
professionals in areas that are already facing worker shortages. 
Investments in these areas could lead to job growth, as demand for 
these professionals now and in the future is assessed to be high.
    A 2013 report by the National Research Council, Emerging Workforce 
Trends in the Energy and Mining Industries: A Call to Action, found, 
``In mining (nonfuel and coal) a personnel crisis for professionals and 
workers is pending and it already exists for faculty.'' Another recent 
study, Status of the Geoscience Workforce Report 2014, found an 
expected deficit of approximately 135,000 geoscientists by 2022.
    Thank you for the opportunity to provide testimony about the U.S. 
Geological Survey. For additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, mineral and energy resources, natural hazards, and 
public investment in Earth science research--please visit 
www.geosociety.org or contact Kasey White at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc4d8c7c6dbcaefc8cac0dcc0ccc6cadbd681c0ddc881">[email&#160;protected]</a>
                                 ______
                                 
                  Prepared Statement of Helen Golding
    Dear Senators:

    As an American citizen and taxpayer, I strongly oppose the BLM's 
proposal to conduct dangerous sterilization experiments on wild mares 
at the Wild Horse Corral Facility in Hines. According to the 
Environmental Assessment (EA), the BLM is deciding whether or not to 
proceed with one or more of the proposed sterilization procedures. The 
weight of scientific evidence and public opinion clearly supports a BLM 
decision NOT to proceed with any of these sterilization procedures.
    The sterilization procedures that BLM is proposing to conduct on 
federally protected wild mares are dangerous, costly and impractical 
for use in the field, due to the serious health risks they pose to the 
horses and their unborn foals, and also due to the great expense of 
purchasing the equipment and training the number of veterinarians 
necessary to implement these procedures on the range.
    It makes no sense to spend millions of taxpayer dollars on these 
risky invasive experiments when proven, humane, and relatively 
inexpensive fertility control technology in the form of the PZP vaccine 
is readily available but vastly underutilized by the BLM.
    The EA is completely inadequate in analyzing the impacts of these 
experimental procedures on mares. In addition, the BLM has deliberately 
avoided public opposition to this controversial and grotesque research 
proposal by skipping the scoping stage of the environmental analysis 
process. As a result, the public has been deprived of the opportunity 
to provide input into the impacts of and alternatives to these 
procedures that must be analyzed under the rules of the National 
Environmental Policy Act.
1.  Ovariectomy via Colposcopy
    This is an outdated and archaic procedure that has been supplanted 
by more modern laparoscopic surgery. The EA fails to analyze the 
impacts of and alternatives to this procedure to mares and never once 
mentions the availability of more modern techniques! This proposed 
sterilization experiment is an intra-vaginal complex surgical 
procedure, which is hardly ever performed in domestic horses (never 
mind in wild ones), due to its inherently dangerous risks.

  --The blind nature of this surgery increases the risk of intra-
        abdominal hemorrhage, but the EA never even addresses this 
        issue or the availability of more modern laparoscopic 
        techniques that allow the surgeon to visualize the abdominal 
        structures.
  --The lack of a sterile environment subjects the mares to a high risk 
        of infection, something that is ignored by the EA.
  --The procedure carries with it a significant risk of hemorrhage and 
        evisceration (protrusion of the intestines through the surgical 
        incision), which is why it requires strict follow-up care when 
        used in domestic horses, including pain relief and 4-7 days of 
        stall rest, the first 48 hours of which is spent in crossties 
        to prevent the mare from lying down. It is not possible to 
        provide this required post-operative care to wild mares, yet 
        the EA minimizes the impacts of this fact, citing the opinion 
        of an un-named veterinarian, instead of the published science 
        and National Research Council review, which clearly indicate 
        the risks and impacts of this outdated procedure on wild mares.
  --The procedure will cause mares in early stages of pregnancy to 
        abort their fetuses and may cause loss of pregnancy for mares 
        in the mid-stage of pregnancy as well. This is unacceptable.

    This pursuit of ovariectomy research is directly counter to the 
recommendations of the National Academy of Sciences National Research 
Council (NRC) in its 2013 report, ``Using Science to Improve the BLM 
Wild Horse and Burro Program: A Way Forward.'' That NRC report 
concluded that: ``The possibility that ovariectomy may be followed by 
prolonged bleeding or peritoneal infection makes it inadvisable for 
field application.''
2.  Minimally Invasive Sterilization Techniques
    The other sterilization procedures that BLM proposes to research, 
while less invasive than ovariectomy, should also be abandoned due to 
the inability to provide post-operative care and the impracticality of 
implementing these procedures--which have never before been done in 
wild or domestic horses-on a broad scale in a field setting. The EA 
fails to analyze the impacts of precedent-setting procedures that have 
never before been performed in horses, and as well as the inability to 
provide required post-operative care. The EA also omits analysis of the 
economic impacts and practicalities of implementing these procedures on 
the range.
    In proceeding with these experiments, the BLM has ignored the NRC 
recommendation that these techniques should first be perfected in 
domestic mares, who can be easily handled and will be accessible for 
close monitoring and post-operative care, before attempting them in 
wild horses.
    It is unconscionable that the BLM is proceeding with these 
draconian experiments that endanger the lives of the un-consenting 
equine subjects and their unborn foals, particularly when a proven non-
invasive and safe fertility control method exists in the readily 
available PZP birth control vaccine. Instead of wasting millions of tax 
dollars to fund experiments on inhumane and impractical sterilization 
experiments, the agency should instead focus resources on vaccinating 
sufficient numbers of mares with the PZP fertility control vaccine, 
which is documented through 30 years of experience and published 
science, to be safe, effective, cost-effective and successful in 
managing wild horse populations.
    Again, as a taxpayer and wild horse lover, I am outraged that the 
BLM is even considering pursuing such inhumane, barbaric and wasteful 
experimentation on wild horses and I find the BLM's Environmental 
Analysis of its impacts to be woefully inadequate. As a result, I 
strongly urge the BLM to abandon these proposed experiments in favor of 
using proven, more cost-effective and humane fertility control methods.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission
1.  Department of Interior, Bureau of Indian Affairs, Operation of 
        Indian Programs
     a.  Trust-Natural Resources Management, Rights Protection 
Implementation (RPI).--At least the administration's proposed 
$40,161,000 and a proportionate share for Great Lakes Area Resource 
Management (the overall need for which is at least $11,454,603).
     b.  Trust-Natural Resources Management, Tribal Management/
Development Program (TM/DP): At least the administration's proposed 
$14,266,000 and the TM/DP requests of GLIFWC's member tribes.
     c.   Trust-Natural Resources Management, Tribal Climate 
Resilience: At least the administration's proposed $13,056,000.
     d.  Trust-Natural Resources Management, Invasive Species: At least 
the administration's proposed $6,770,000.
     e.  Tribal Government, Contract Support: At least the 
administration's proposed $278,000,000.

    Funding Authorizations: Snyder Act, 25 U.S.C. s. 13; Indian Self-
Determination and Education Assistance Act, (Public Law 93-638), 25 
U.S.C. ss. 450f and 450h; and the treaties between the United States 
and GLIFWC's member Ojibwe Tribes.\1\
---------------------------------------------------------------------------
    \1\ Specifically, the Treaty of 1836, 7 Stat. 491, Treaty of 1837, 
7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 10 Stat. 
1109. The rights guaranteed by these treaties have been affirmed by 
various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
2.  Environmental Protection Agency
     a.  Environmental Programs and Management, Geographic Programs, 
Great Lakes Restoration: The historical allocation of $300,000,000 out 
of which there is an overall tribal need of at least $25,000,000. 
GLIFWC's Need: $1,200,000.
     b.  State and Tribal Assistance Grants, Categorical Grants, Tribal 
General Assistance Program: At least the Administration's proposed 
$96,375,000.

    Funding Authorizations: Clean Water Act, 33 U.S.C. s. 1268(c); and 
treaties cited above.
          glifwc's fiscal year 2016 funding request highlights
    1.  GLIFWC would be pleased to accept an allocation of appropriated 
RPI funding that is in the same proportion as it has currently been 
receiving, while rejecting the notion that the RPI line item is open 
for a competitive process.
    2.  A total tribal set-aside of $25,000,000 and GLIFWC's request of 
$1,200,000 under the Great Lakes Restoration Initiative.
    3.  Full funding for contract support costs, as required by the 
ISDEA Act.
    4.  Sufficient funding in the Tribal Management and Development 
line item for GLIFWC's member tribes to fulfill their needs for 
reservation-based natural resource programs.
    glifwc's goal--a secure funding base to fulfill treaty purposes
    For more than 30 years, Congress has funded GLIFWC to implement 
comprehensive conservation, natural resource protection, and law 
enforcement programs that: (1) ensure member tribes are able to 
implement their treaty reserved rights to hunt, fish, and gather 
throughout the ceded territories; (2) ensure a healthy and sustainable 
natural resource base to support those rights; and (3) promote healthy, 
safe communities. These programs also provide a wide range of public 
benefits, and facilitate participation in management partnerships in 
Wisconsin, Michigan, and Minnesota.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 glifwc's programs--promoting healthy communities and educating tribal 
                 members through treaty rights exercise
    Established in 1984, GLIFWC is a natural resources management 
agency of 11 member Ojibwe Tribes with resource management 
responsibilities over their ceded territory (off-reservation) hunting, 
fishing and gathering treaty rights. These ceded territories extend 
over a 60,000 square mile area in Minnesota, Wisconsin, and 
Michigan.\2\ GLIFWC employs 83 full-time staff, including natural 
resource scientists, technicians, conservation enforcement officers, 
policy specialists, and public information specialists.
---------------------------------------------------------------------------
    \2\ GLIFWC's programs do not duplicate those of the Chippewa-Ottawa 
Resource Authority or the 1854 Treaty Authority. GLIFWC also 
coordinates with its member tribes with respect to tribal treaty 
fishing that extends beyond reservation boundaries by virtue of the 
Treaty of 1854 and the reservations' locations on Lake Superior.
---------------------------------------------------------------------------
    GLIFWC strives to implement its programs in a holistic, integrated 
manner that is consistent with the culture and values of its member 
tribes, especially in light of tribal lifeways that the exercise of 
treaty rights supports. This means not only ensuring that tribal 
members can legally exercise their rights, but supporting community 
efforts to educate them about the benefits (physical, spiritual, and 
cultural) of harvesting and consuming a more traditional diet, as well 
as promoting intergenerational learning and the transmission of 
traditional cultural and management practices. These programs, in turn, 
promote healthy communities by encouraging healthy lifestyles, 
intergenerational connections, and cultural education.
    GLIFWC and its member tribes thank Congress, and particularly this 
subcommittee, for its continuing support of these treaty obligations 
and its recognition of the ongoing success of these programs. There are 
two main elements of this fiscal year 2016 funding request:

    1. BIA Great Lakes Area Management (Within the RPI Line Item): A 
proportionate share of the $40,161,000 proposed by the administration 
for the RPI line item, including the proposed $2,500,000 increase. The 
administration's proposed increase for climate change in RPI for fiscal 
year 2017 is greatly appreciated, but competition for funding has no 
place in this line item. RPI provides funding for tribes and tribal 
commissions to meet Federal court litigated responsibilities. 
Fulfilling these obligations cannot be the focus of a competitive 
process. GLIFWC has always saupported allocating increases to the RPI 
line item in the historically proportionate amounts.
    GLIFWC has testified about the fact that the need is consistently 
greater than RPI funding, and the impacts that underfunding has on 
treaty rights programs. RPI climate change funding has allowed GLIFWC 
to undertake a new climate change program to better understand the 
physical, chemical and biological changes occurring in ceded territory 
ecosystems, develop and implement adaptive management strategies to 
address those changes, and provide technical assistance to GLIFWC 
member tribes. This program is in its infancy, and continued support 
would allow it to further develop and integrate into GLIFWC overall 
programs.
    Tribes can only protect the resources that support their rights if 
they undertake relevant scientific and technical analyses that inform 
the design and implementation of adaptive natural resource management 
activities. To this end, maximum flexibility should be provided to 
GLIFWC and its tribes to define for themselves the science and research 
activities best suited to the needs of their member tribes and the 
particular issues within their region. GLIFWC would gladly accept funds 
in proportion to overall RPI funding, as provided in fiscal year 2016.

    2. EPA Environmental Programs and Management: $300,000,000. GLIFWC: 
$1,200,000. GLIFWC supports continued funding for the Great Lakes 
Restoration Initiative (GLRI) as an important non-regulatory program 
that enhances and ensures coordinated governance in the Great Lakes, as 
well as substantive natural resource protection and restoration 
projects. GLIFWC supports funding the GLRI at $300 million, the level 
that has been provided since 2011. Effective Great Lakes programs 
throughout the basin require a consistent funding level of $300 
million.
    GLIFWC also recommends that at least $25 million be provided 
through a distinct tribal program to fulfill treaty obligations, meet 
trust responsibilities, and achieve tribal self-determination and self-
governance in protecting and restoring the Great Lakes. A separate 
tribal component should allow for greater flexibility to allow tribes 
to develop the programs that are of the highest priorities to their 
communities, rather than having priority projects designed for them by 
Federal agencies.
    Sustained funding for GLIFWC at approximately $1.2 million will 
enable GLIFWC to augment its current natural resource protection and 
enhancement activities. It will also allow GLIFWC to maintain its 
participation in interjurisdictional governance structures, including 
the implementation of the revised Great Lakes Water Quality Agreement 
(GLWQA). With GLRI funding, GLIFWC has been able to provide active 
support on numerous implementing Annexes, including the Lakewide Action 
and Management Plan, Aquatic Invasive Species, Chemicals of Mutual 
Concern, and Science Annexes.
    GLRI funding has also allowed GLIFWC to continue to provide 
culturally relevant and targeted mercury-based consumption advice for 
fish. Tribal members are disproportionately impacted by the presence of 
mercury in fish due to their higher rate of consumption. Contaminated 
fish threaten the tribes' ability to exercise their treaty guaranteed 
right to harvest fish off reservation throughout the ceded territory.
               results and benefits of glifwc's programs
    1. Maintain the Requisite Capability To Meet Legal Obligations, To 
Conserve Natural Resources and To Regulate Treaty Harvests: While more 
funding would increase program comprehensiveness, sustained funding at 
the fiscal year 2017 level supports tribal compliance with various 
court decrees and intergovernmental agreements that govern the tribes' 
treaty-reserved hunting, fishing and gathering rights. Funding for 
science and research enhances GLIFWC's capability to undertake work and 
participate in relevant partnerships to address ecosystem threats that 
harm treaty natural resources, including those related to climate 
change.
    2. Remain a Trusted Management and Law Enforcement Partner, and 
Scientific Contributor in the Great Lakes Region: GLIFWC has become a 
respected and integral part of management and law enforcement 
partnerships that conserve natural resources and protect public safety. 
It brings a tribal perspective to interjurisdictional Great Lakes 
management fora and would use its scientific expertise to study issues 
and geographic areas that are important to its member tribes but that 
others may not be examining.
    3. Maintain the Overall Public Benefits That Derive From Its 
Programs: Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management. Because of its institutional 
experience and staff expertise, GLIFWC has built and maintained 
numerous partnerships that: (i) provide accurate information and data 
to counter social misconceptions about tribal treaty harvests and the 
status of ceded territory natural resources; (ii) maximize each 
partner's financial resources and avoid duplication of effort and 
costs; (iii) engender cooperation rather than competition; and (iv) 
undertake projects that achieve public benefits that no one partner 
could accomplish alone.
    4. Encourage and Contribute to Healthy Tribal Communities. GLIFWC 
works with its member tribes' communities to promote the benefits of 
treaty rights exercise. These include the health benefits associated 
with a more traditional diet and the intergenerational learning that 
takes place when elders teach youth. In addition, GLIFWC sponsors a 
camp each summer where tribal youth build leadership skills, strengthen 
connections to the outdoors, and learn about treaty rights and careers 
in natural resource fields.
                                 ______
                                 
       Prepared Statement of the Great Lakes Resources Committee
    Mr. Chairman and members of the subcommittee:

    My name is Levi D. Carrick, Sr., Chairman of the Great Lakes 
Resources Committee (GLRC) of the Chippewa Ottawa Resource Authority 
(CORA). CORA is an inter-tribal resource management organization 
established by five (5) federally recognized Indian tribes in the State 
of Michigan. They are: the Bay Mills Indian Community; the Grand 
Traverse Band of Ottawa and Chippewa Indians; the Little River Band of 
Ottawa Indians; the Little Traverse Bay Bands of Odawa Indians; and the 
Sault Ste. Marie Tribe of Chippewa Indians. GLRC addresses issues of 
management, preservation and enhancement of all species and habitats 
which are within the Great Lakes resources. I also am proud to serve as 
the President of the Bay Mills Indian Community.
    On behalf of CORA, I personally express CORA's appreciation for the 
Rights Protection Implementation Program (RPI) funding request for 
CORA, contained in the Presidents' Fiscal Year 2017 Budget for the 
Department of the Interior. RPI Program funds enable CORA's tribes to 
provide for the exercise by their members of the reserved right to 
hunt, fish, trap and gather on the lands and waters ceded to the United 
States by our ancestors in Article 13 of the Treaty of March 28, 1836. 
That cession covers the eastern Upper Peninsula of Michigan and the 
northern \2/3\ of the Lower Peninsula, as well as large portions of the 
upper three Great Lakes--Lakes Huron, Michigan and Superior.
    I am sure that the importance of treaty reserved rights to Indian 
tribes and their members has been expressed in testimony before this 
subcommittee many times, but that importance can never be overstated. 
Treaty hunting, fishing and gathering rights were essential to the 
existence of our ancestors and continue to be essential to our 
existence as Indian people; they preserve our access to culturally 
significant resources which are intimately connected to traditional 
ways of life. This importance is not symbolic; tribal members continue 
to rely on the ability to harvest natural resources for both commercial 
and subsistence purposes. It is our life way.
    The tribes have always believed that these treaty reserved rights 
continue to exist, and were not extinguished or diminished by any act 
of the Federal Government. Unfortunately, that was not a belief shared 
by the State of Michigan, which prosecuted tribal members for hunting, 
fishing and gathering at times or with methods which State law 
prohibited. This situation continued until the United States filed suit 
against the State of Michigan in 1973. It resulted in a decision in 
United States v. Michigan in 1979 upholding the right to fish in the 
ceded waters of the Great Lakes. This right was implemented by court-
facilitated negotiations among the Federal, State and tribal parties, 
that produced two Consent Decrees which provided for the allocation and 
management of the Great Lakes fisheries in the treaty area; the first 
one was entered in 1985 for a period of 15 years, and a successor 
agreement was entered in 2000 for a period of 20 years, ending in 
August, 2020. It is that Decree which is listed as ``Chippewa/Ottawa 
Treaty Fisheries'' under CORA in the Fiscal Year 2017 Green Book RPI 
Programs.
    The CORA tribes receive base funding through the ``Treaty 
Fisheries'' line item for the following activities: to establish 
conservation-based fishing regulations; conduct biological monitoring 
of the fishery; carry out resource protection and enhancement programs 
and activities; staff conservation enforcement departments and 
adjudicatory bodies to resolve violations of the regulations; and 
provide an intertribal voice to coordinate and cooperate with the 
Federal, State and international organizations which address Great 
Lakes resource matters.
    The Great Lakes ``model'' provided a template for the parties in 
United States v. Michigan, who voluntarily entered into negotiations to 
resolve the scope of rights reserved by Article 13 in the inland 14 
million acres of land and water of the cession. In 2007, their efforts 
produced a permanent Consent Decree, which encompasses the nature and 
extent of the right to hunt, fish, trap and gather by tribal members as 
regulated by their respective tribes; establishes protocols by which 
the resources are allocated between tribal and State-licensed 
harvesters; and provides collaborative resource management procedures 
for the CORA tribes and the State of Michigan.
    The terms of the Inland Consent Decree envision the following 
responsibilities for the tribes: significant expansion of the tribes' 
conservation enforcement programs; creation and maintenance of inland 
biological monitoring, assessment, restoration and enhancement 
programs; growth in tribal adjudicatory systems' staffing, 
administration and financial support; and expansion of intertribal 
management mechanisms and procedures. It is the trust responsibility of 
the United States to provide stable, recurrent funding by which the 
Court Decree can be implemented by the tribes.
    This element of the trust responsibility was finally recognized by 
the administration and included in the Interior Green Book as an RPI 
Program for Fiscal Year 2013. In response, the Congress appropriated 
$461,000 for CORA in RPI funds, an amount which allowed each tribe to 
initiate permanent programs, albeit very small ones. This amount was 
increased by this subcommittee to $1,605,714.00 in fiscal year 2016, 
and is the amount requested by the administration for these purposes in 
the Fiscal Year 2017 Green Book for RPI Programs, listed as ``Chippewa/
Ottawa Inland Consent Decree''.
    One final item is included in the RPI fiscal year 2017 budget for 
all intertribal resource management organizations, which is entitled 
``Evaluation & Research Activities--Climate Change''. CORA supports the 
administration's proposed $2.5 million increase for climate change 
activities, but does not support the administration's proposed 
competitive process for distributing this increase, in the event that 
it is approved by this Congress. CORA's position is that requiring the 
tribes to compete with each other for funding derogates the trust 
responsibility embodied by the RPI line item. The recipient tribes and 
tribal commissions receive RPI funds to carry out responsibilities 
established and ordered by Federal courts as the culmination of years 
of litigation. Establishing a mandatory competitive process for any 
portion of the resource management activities undertaken by tribes to 
fulfill their court-ordered obligations is a breach of the trust 
responsibility masquerading as fiscal accountability. CORA instead 
supports an allocation of those funds among the organizations based on 
the percentage that each listed inter-tribal organization will receive 
in RPI funds, as compared to the total amount requested for all RPI 
purposes for fiscal year 2017. This is the same method used in previous 
fiscal years, and it has worked well. For CORA, that proportionate 
amount is $681,355.
    CORA tribes have participated in intertribal management and 
regulation of natural resources since 1982. For decades, we have been 
at the forefront of efforts to protect, enhance and restore the natural 
environment so that all human beings can enjoy the fish, wildlife and 
plants of our region for generations to come. Already, the U.S. Fish 
and Wildlife Service is asking to consult on what type of resource 
management regime should replace the Great Lakes Consent Decree in 
2020. The CORA tribes have proven to be an effective partner with 
agencies of the United States, the States, and the province of Ontario 
to manage our natural resources to the seventh generation and beyond.
    For these reasons, the CORA tribes respectfully request your 
support for fiscal year 2017 RPI funding at the level of $4,746,355.00 
in recurring base funding, which is the amount outlined for CORA in the 
RPI portion of the Department of Interior's Green Book for Fiscal Year 
2017, plus CORA's proportionate share of the ``Climate Change'' line 
item.
    Thank you for your consideration.
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States (HSUS), 
  Humane Society Legislative Fund (HSLF), and Doris Day Animal League
    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations. We urge the subcommittee to address these 
priority issues in the fiscal year 2017 Department of Interior 
appropriation. We have requests to a number of programs detailed below: 
Environmental Protection Agency's CompTox program ($25.7 million), 
Bureau of Land Management's Wild Horse and Burro Program (budget 
increase contingent on implementing the National Academy of Science's 
recommendations on fertility control; language to ensure continued 
protection of wild horses and burros from slaughter), and the 
Multinational Species Conservation Fund (continued funding but with no 
funds from conservation programs to promote trophy hunting, trade in 
animal parts, and other consumptive uses). We also ask that language is 
not included that would halt the U.S. Fish and Wildlife Service's (FWS) 
efforts to combat wildlife trafficking or in any way undermine the 
Endangered Species Act.
           environmental protection agency's comptox program
    Thousands of chemicals are currently used and hundreds of new ones 
are introduced each year for which toxicity assessments need to be 
conducted. To answer this need, EPA established the National Center for 
Computational Toxicity to predict hazard and prioritize chemicals for 
further screening and testing, developing and using high-throughput 
assays and predictive tools which are less expensive and time consuming 
and more predictive of relevant biological pathways.
    Through EPA's CompTox program, EPA has screened more than 2,000 
chemicals (industrial, food additives, and consumer products) and 
evaluated them in more than 700 high-throughput assays. Additionally, 
EPA is using ToxCast data to prioritize chemicals for evaluation in the 
Endocrine Disruptor Screening Program. Tox21, a collaboration between 
EPA, NIEHS, NCATS and the FDA is currently screening 10,000 chemicals 
to improve the effectiveness of drug development.
    However, even as the need increases for this data, the program's 
budget has stagnated at $21.4 million in fiscal year 2015 and fiscal 
year 2016. We support an increase to $25.7 million to the CompTox 
program in fiscal year 2017. This will encourage the likelihood of 
realizing the goals presented in the CompTox program and assure a more 
predictable and relevant chemicals safety assessment.
        bureau of land management--wild horse and burro program
    The Humane Society of the United States (The HSUS) is one of the 
leading advocates for the protection and welfare of wild horses and 
burros in the U.S. with a long history of working collaboratively with 
the Bureau of Land Management (BLM)--the agency mandated to protect 
America's wild horses and burros--on the development of effective and 
humane management techniques.
    The HSUS strongly supports a significant reduction in the number of 
wild horses and burros gathered and removed from our rangelands 
annually. We believe removing horses from the range without 
implementing any active program for suppressing the population growth 
rate has proven itself to be an unsustainable method of management of 
our Nation's wild horses, and simply leads to a continual cycle of 
roundups and removals when more long-term, cost-efficient and humane 
management strategies, such as fertility control, are readily 
available.
    For years, the BLM has removed far more wild horses and burros from 
the range than it could possibly expect to adopt annually, and as a 
consequence, the costs associated with caring for these animals off the 
range have continued to skyrocket. The costs associated with caring for 
one wild horse in a long term holding facility over the course of its 
life is approximately 46,000 dollars according to the BLM. Today, there 
are almost 50,000 wild horses and burros in these pens, and the agency 
spends more than 65 percent of its annual Wild Horse and Burro budget 
on holding costs. While recent years have shown a decline in the number 
of animals removed from the range, the BLM must continue to balance the 
number of animals removed from the range annually with the number of 
animals it can expect to adopt in a given year if it hopes to 
effectively reduce off-the-range management costs.
    Further, the BLM's current program of management of wild horses has 
negative effects that go beyond a simple cost-benefit analysis. For 
instance, the recommendations in the National Academy of Sciences 2013 
report ``Using Science to Improve the BLM Wild Horse and Burro Program: 
A Way Forward,'' commissioned by the BLM itself, stated that it is 
BLM's own practices of managing wild horses ``below food-limited 
carrying capacity'' by rounding up and removing a significant 
proportion of the herd's population every 3 to 4 years that is 
facilitating high horse population growth rates on the range.
    As such, it is incumbent that the BLM move away from current 
management practices to create a long-term, humane and financially 
sustainable path. It is our belief that the most cost-effective and 
humane approach is for the BLM to move aggressively forward with a 
fertility control program which prioritizes on-the-range management of 
wild horses and burros. This path forward is supported by the National 
Academy of Sciences report, which called for an increased usage of on-
the-range management tools, including the usage of the fertility 
control vaccine PZP. Further, a 2008 paper determined that 
contraception on-the-range could reduce total wild horse and burro 
management costs by 14 percent, saving $6.1 million per year. Finally, 
the results of a paper describing an economic model commissioned by The 
HSUS indicates that by treating wild horses on one hypothetical Herd 
Management Area (HMA) with the fertility control vaccine Porcine Zona 
Pellucida (PZP), the BLM could save approximately $5 million dollars 
over 12 years while achieving and maintaining Appropriate Management 
Levels (AML) of 874 horses. Since the BLM estimates that more than 
58,000 wild horses roam in the U.S., the use of PZP could result in a 
cost-savings of tens of millions of dollars if applied broadly across 
all HMAs.
    For these reasons, we support an increase to the BLM Wild Horse and 
Burro budget, contingent on the agency's usage of the funding to 
immediately begin usage of the NAS-recommended fertility control 
methods that are currently available, and to fund additional research 
on contraception and population growth suppression methods.
    We also request inclusion of the same language barring wild horses 
and burros from being sent to slaughter that was included in the fiscal 
year 2016 omnibus: ``Appropriations herein made shall not be available 
for the destruction of healthy, unadopted, wild horses and burros that 
results in their destruction for processing into commercial products.'' 
(Division G, p. 714, line 23).
    The President's fiscal year 2017 budget requested language that 
inadvertently creates a loophole that could allow iconic wild horses 
and burros to be sent to slaughter. If Congress chooses to include 
Section 110 from the President's fiscal year 2017 budget, we request 
the following language be added at the end of the section to ensure 
that wild horses and burros are not sent to slaughter:

        Provided further, That any Federal State, or local government 
        agency receiving excess wild horses or burros shall not 
        destroy, sell, or otherwise transfer the horses or burros in a 
        way that results in their destruction for processing into 
        commercial products.
                multinational species conservation fund
    The administration's fiscal year 2017 budget requests $11.1 million 
for the Multinational Species Conservation Fund (MSCF) program which 
funds African and Asian elephants, rhinos, tigers, great apes like 
chimps and gorillas, and sea turtles. The HSUS joins a broad coalition 
of organizations in support of the administration's request while 
ensuring that the sales from the semi-postal stamps benefiting this 
program remain supplementary to annually appropriated levels. We also 
support the fiscal year 2017 budget justification request from the 
USFWS Office of International Affairs (IA) of approximately $15.8 
million. The USFWS IA program supports efforts to conserve our planet's 
rich wildlife diversity by protecting habitat and species, combating 
illegal wildlife trade, and building capacity for landscape-level 
wildlife conservation. Within IA are the Wildlife Without Borders 
programs that tackle grassroots wildlife conservation problems and we 
support these programs that conserve several of the world's most iconic 
species in their native habitats.
    While we wholeheartedly support continued funding for the MSCF, we 
are concerned about past incidents and oppose any future use of funds 
from these conservation programs to promote trophy hunting, trade in 
animal parts, and other consumptive uses--including live capture for 
trade, captive breeding, and entertainment for public display 
industry--under the guise of conservation for these animals. Grants 
made to projects under the MSCF must be consistent with the spirit of 
the law.
                          wildlife trafficking
    The illegal wildlife trafficking trade has reached a level of 
global emergency, with impacts on national security, international 
human rights, and the survival of protected wildlife species. African 
elephants are especially facing an unprecedented crisis, with one 
elephant killed every 15 minutes in Africa. The U.S. is the world's 
second largest market for ivory product sales, behind China. In 
response to this crisis, the U.S. Fish and Wildlife Service (FWS) 
issued a proposed rule that will curtail the commercial ivory trade in 
the U.S. by cracking down on the domestic trade in ivory. In addition, 
the rule proposes to increase scrutiny of the import of African 
elephant trophies and to extend Endangered Species Act (ESA) protection 
to live African elephants in captive facilities in the United States. 
Soon after the release of the rule, President Obama and President Xi 
Jinping of China announced a detailed and shared commitment to ending 
the global trade in ivory.
    In the midst of the current poaching crisis African elephants are 
facing, it is imperative that the FWS is able to finalize a rule that 
will curtail the commercial ivory trade in the United States. We ask 
that the fiscal year 2017 Interior, Environment and Related Agencies 
Appropriations bill not include language that would block further 
action on this proposed rule.
                         endangered species act
    The Endangered Species Act (ESA) is fundamental to the protection 
of our globe's most imperiled animals. This law, which is supported by 
90 percent of American voters, has prevented the extinction of 99 
percent of the species under its care, including the bald eagle. Under 
the ESA, the responsibility to list and delist species lies with 
Federal agencies, which must make these listing decisions based upon 
the best available science. The authority to make these science-based 
management decisions should remain with Federal agencies.
    We ask that the fiscal year 2017 Interior Appropriations bill 
exclude any language that prevents Federal agencies from making listing 
or delisting decisions based on sound science, or otherwise undermines 
the ESA.
                                 ______
                                 
           Prepared Statement of the Independent Review Team
    Thank you for the opportunity to testify today and to address the 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian Country. We are 
representing the Independent Tribal Court Review Team. We thank this 
subcommittee for the additional $10.0 million funding in fiscal year 
2010, the last significant increase. These funds were a blessing to 
tribes. Even minimal increases are always put to good use. It is the 
strong recommendation of the Independent Tribal Courts Review Team that 
the Federal Tribal Courts budget be substantially increased in fiscal 
year 2017 to support the needs of tribal judicial systems.

BUDGET PRIORITIES, REQUESTS AND RECOMMENDATIONS
    1.  +$2.6 Million--Support fiscal year 2017 Proposed Increased for 
Tribal Courts
    2.  +$58.4 Million authorized under the Indian Tribal Justice Act 
of 1993, Public Law 103-176, 25 USC 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds have been appropriated to date)
    3.  Support the requests and recommendations of the National 
Congress of American Indians

The increase will support:
    1.  Hiring and Training of Court Personnel
    2.  Compliance with the Tribal Law and Order Act of 2010
    3.  Compliance with and implement the VAWA Act of 2013
    4.  Salary Increases for Existing Judges and Court Personnel
    5.  State-of-the-Art Technology for Tribal Courts
    6.  Security and Security Systems to Protect Court Records and 
Privacy of Case Information
    7.  Tribal Court Code Development
    8.  Financial Code Development

    The Independent Tribal Courts Review Team supports the proposed 
$2.6 million increase for tribal courts in the fiscal year 2017 
President's budget. Tribal courts need an immediate, sustained and 
increased level of funding. The lack of funding has delayed 
implementation of the Tribal Law and Order Act (TLOA) and the Violence 
Against Women Act (VAWA) to a critical level and the resources that 
have been appropriated are required to provide Attorneys to represent 
Non-Indian defendants which further strain the capacity of the Tribal 
Judicial System. Tribal systems remain underfunded, understaffed and 
ill-equipped to function effectively and in a manner comparable to non-
Indian government judicial systems. Tribal courts are at a critical 
stage in terms of need. The Tiwahe Initiative, as a means to be 
responsive to tribal concerns, demonstrates that the administration and 
Congress are listening to the tribes, but there needs to be a greater 
effort to fund the authority that was enacted in 1993.
    Section 402 of TLOA reauthorized the Tribal Justice Act, and Indian 
Tribal Justice Technical and Legal Assistance Act of 2001. These acts 
authorize funding for tribal court judges, court personnel, public 
defenders, court facilities, and the development of records management 
systems and other needs of tribal court systems. The Tribal Justice 
Act, originally enacted December 1993, authorized the appropriation of 
$58.4 million in tribal court base funding. Yet, not a single dollar 
under the Tribal Justice Act has been appropriated in the 22 years 
since it was enacted. Of particular note is the provision of the Tribal 
Justice Act that states that Federal funds may be used specifically for 
``training programs and continuing education for tribal judicial 
personnel.'' Appropriations should finally be made to fulfill the 
promise of these acts.\1\ We recommend that the Interdepartmental 
Tribal Justice, Safety and Wellness Session, of which the Department of 
the Interior (DOI) is a member, resume outreach to support the efforts 
of TLOA, VAWA and the Tiwahe Initiative.
---------------------------------------------------------------------------
    \1\ Defining the Indian Civil Rights Act's ``Sufficiently Trained'' 
Tribal Court Judge, Jill Elizabeth Tompkins, American Indian Law 
Journal [Vol, 4:53].
---------------------------------------------------------------------------
    The Tiwahe Initiative was launched in 2015 to address several 
lagging family welfare and poverty issues in Indian Country including a 
strategy to reduce incarceration in Indian Country. The alternative to 
incarceration is intended to address underlying causes of repeat 
offenses, such as substance abuse and the lack of adequate social 
service support, by utilizing alternative courts to increase treatment 
opportunities, probation programs, and interagency and 
intergovernmental partnerships with tribal, State and Federal 
stakeholders. In response to the unusual high rates of alcohol and/drug 
related repeat offenders that are dominating the resources of the 
justice system, the Bureau of Indian Affairs (BIA) created the 
Diversion and Re-Entry Division (DRD) within the Tribal Justice Support 
Directorate. In fiscal year 2016 tribal courts received a 4.9 percent 
increase, and the budget request for 2017 is $2.6 million over the 
enacted 2016 level. There is an even greater need to ensure that court 
personnel are trained, equipped and prepared to address these new 
challenges. We support the fiscal year 2017 proposed $21.0 million 
increase for Tiwahe to expand social services, Indian Child Welfare, 
housing, tribal courts and job placement and training.
Background:
    The Bureau of Indian Affairs provides funding to tribal governments 
to supplement their justice systems including courts. Tribal courts 
play a ``vital role'' in Tribal Self-Determination and Self-Governance 
as cited in long-standing Federal policy and Acts of Congress. Funding 
levels from BIA to support tribal justice systems have not met the 
Federal obligations.
    There is a great deal of variation in the types of tribal courts 
and how they apply laws. Some tribal courts resemble Western-style 
courts in that written laws and court procedures are applied. Others 
use traditional Native means of resolving disputes, such as 
peacemaking, elders' councils, and sentencing circles. Some tribes have 
both types of courts. The BIA also manages a small number of CFR (Code 
of Federal Regulations) courts.
    Since 1999, Bureau of Justice Assistance (BJA) in the Department of 
Justice (DOJ) has administered the Tribal Courts Assistance Program, 
designed to provide funds for tribes to plan, operate, and enhance 
tribal judicial systems. They have made attempts to evaluate tribal 
courts but discovered their means of doing so was insensitive to 
American Indian and Alaska Native (AI/AN) people and unrealistic in the 
absence of elements that were key to Indian Country, such as: (1) the 
importance of tribal culture and traditions; (2) the inability to apply 
State and local criminal justice initiatives to tribal settings; (3) 
the lack of cooperation from non-tribal entities; and, (4) the lack of 
available data on tribal justice.
    The Independent Tribal Court Review Team has had more hands on 
success in reviewing tribal court systems. For 7 years, we traveled 
throughout Indian Country assessing how tribal courts are operating. 
During this time, we have completed 84 Court Reviews. We also completed 
28 Corrective Actions. There is no one with more hands-on experience 
and knowledge regarding the current status of tribal courts than our 
review team.
Justification for Request:
    1.  Hiring and Training of Court Personnel.--Tribal courts make do 
with underpaid staff, under-experienced staff and minimal training. (We 
have determined that hiring tribal members limits the inclination of 
staff to move away; a poor excuse to underpay staff.)
    2.  Compliance with the Tribal Law & Order Act of 2010.--To provide 
judges, prosecutors, public defenders, who are attorneys, who are bared 
to do ``enhanced sentencing'' in tribal courts.
    3.  Compliance with the 2013 VAWA Act.--To provide tribal courts 
with the ability to provide non-Indians with all the rights under the 
U.S. Constitution in domestic violence actions in tribal courts (12 
person juries, provide licenses attorneys for non-Indians, provide 
licensed attorneys in court personnel in domestic violence cases as in 
TLOA, etc.).
    4.  Salary Increases for Existing Judges and Court Personnel.--
Salaries should be comparable to local and State court personnel to 
keep pace with the non-tribal judicial systems and be competitive to 
maintain existing personnel.
    5.  Tribal Courts Need State-of-the-Art Technology (Software, 
Computers, Phone Systems, Tape Recording Machines).--Many tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant. This is accompanied by training expenses and licensing fees 
which do not last after the grant ends.
    6.  Security and Security Systems to Protect Court Records and 
Privacy of Case Information.--Most tribal courts do not even have a 
full time Bailiff, much less a State-of-the-Art security system that 
uses locked doors and camera surveillance. This is a tragedy waiting to 
happen.
    7.  Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
so code development does not take priority. Tribes make do with under-
developed codes. The Adam Walsh Act created a hardship for tribes who 
were forced to develop codes, without funding, or have the State assume 
jurisdiction. (States have never properly overseen law enforcement in a 
tribal jurisdiction.)
    8.  Financial Code Development.--We have rarely seen tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.

    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to 
allocate funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained Judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and Tribal Bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian Country are judges automatically fired 
for decisions against the legislature.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts do offer jury trials. In many courts, one sustained jury trial 
will deplete the available budget. The only place to minimize expenses 
is to fire staff. Many tribal courts have defense advocates. These 
advocates are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in court budgets and if 
the defense advocate, or prosecutor, should leave, the replacement 
process is slow.
    On behalf of the Independent Tribal Court Review Team, Elbridge 
Coochise, Ralph Gonzales, Charles Robertson, Philip Lujan and Myrna 
Rivera, thank you for this opportunity to appear before you today.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
Interest of the IME
    The Institute of Makers of Explosives (IME) was founded in 1913 to 
provide accurate information and comprehensive recommendations 
concerning the safety and security of the commercial explosives 
industry. Our mission is to promote safety, and the protection of 
users, the public and environment, and to encourage the adoption of 
uniform rules and regulations in the manufacture, transportation, 
storage, handling, use and disposal of explosive materials used in 
blasting and other essential operations.
    IME represents the U.S. manufacturers and distributors of 
commercial explosive materials and oxidizers as well as other companies 
that that provide related services. Millions of metric tons of high 
explosives, blasting agents, and oxidizers are consumed annually in the 
United States. Of this, IME member companies produce over 98 percent of 
the high explosives and a great majority of the blasting agents and 
oxidizers. These products are used in every State and are distributed 
worldwide.
    The industry's commitment to being good stewards of the environment 
is well documented. Managers responsible for operating explosives 
manufacturing and distribution sites are faced with a surprising number 
of environmental issues that require knowledgeable and diligent 
attention. To assist the commercial explosives industry in this area, 
IME developed a manual of best practices for managers to reference 
called Safety Library Publication (SLP) 29, Recommendations for the 
Environmental Management of Commercial Explosives (2011). While limited 
in its scope, IME believes SLP 29 is of assistance to facility managers 
in crafting and implementing a comprehensive environmental compliance 
programs for their unique circumstances. IME is in the final steps of 
updating SLP 29 and expects the new version to be published later this 
year. This update will serve to provide the latest in best practices 
and updates on current regulations so that all of our members can be 
proper stewards of the environment.
    With this perspective, IME appreciates the opportunity to comment 
on the following subjects:
Ammonium Nitrate (AN)
    Regarding EPA's implementation of Executive Order (EO) 13650, IME 
would like to note that the Agency has abided by the directions in the 
House committee report to the fiscal year 2016 Interior, Environment, 
and Related Agencies appropriations bill. Specifically, the committee 
report language instructed the Environmental Protection Agency (EPA) to 
defer further consideration of including AN under the Risk Management 
Program (RMP) until the agency considers whether that approach is 
necessary. As was reflected in the language, it was entirely 
appropriate that EPA should defer its decisionmaking until the 
Occupational Safety and Health Administration (OSHA)--the agency 
currently regulating workplace and thus public safety of this 
material--first determines what action it will take with regard to AN 
safety.
    Going forward, OSHA has announced that it will initiate a Small 
Business Regulatory Enforcement Fairness Act (SBREFA) review on Risk 
Management Program Modernization, including how to address safety of 
AN, and expects to conclude the process in 2016. The SBREFA process 
will afford OSHA greater understanding of how different courses of 
action, including those for regulating AN, could impact small 
businesses and the potential safety improvements associated with those 
actions. IME is participating in this process.
EPA's Local Emergency Planning Committees (LEPC)
    IME requests that the subcommittee support the $23.7 million budget 
request for EPA's State and Local Prevention and Preparedness program, 
which represents an $8.4 million increase over the agency's fiscal year 
2016 appropriation.\1\
---------------------------------------------------------------------------
    \1\ Fiscal Year 2017 EPA Budget Estimate, page 50.
---------------------------------------------------------------------------
    The Emergency Preparedness and Community Right-to-Know Act of 1986 
was created to help communities plan for emergencies involving 
hazardous chemicals. It envisioned a seamless safety net of LEPCs 
established by States and Indian tribes that would ensure community 
engagement and chemical industry participation. Since that time, EPA 
has conducted two assessments of the program, in 1999 and 2008, and 
both have shown the implementation of the program to uneven at best. 
More recently, the tragic 2013 industrial incident at West, Texas 
revealed again EPA's lack of attention and leadership in using this 
program to better safeguard communities. As a result, EO 13650 has 
called for the agency to revitalize the LEPC program.
    The funding request is more important this year than in the past. 
Historically, significant funding for this program has come from 
registration fees assessed by the U.S. Department of Transportation 
(DOT) on shippers and carriers of hazardous materials. The 2015 Fixing 
America's Surface Transportation Act (FAST Act) made important changes 
to how registration fees may be used by States. Since 1990, DOT has 
allocated registration funds to States for hazmat training and 
planning. Planning funds were provided to State Emergency Response 
Commissions (SERC) with a 75 percent pass-through requirement to LEPCs. 
The FAST Act removes DOT discretion to allocate these funds and it 
removed the 75 percent pass-through. In short, DOT's annual $8.15 
million set-aside to fund SERCs and LEPCs will still be provided to 
States, but States will have unfettered discretion about whether to use 
those funds for emergency responder training or for planning. Many 
believe that States will choose to direct the majority of these funds 
to training purposes. These FAST Act changes underscore the need for 
EPA to take responsibility to fully-fund its LEPC program. The 
additional $8.4 million request for this program is warranted.
USGS Minerals Resource Program, Minerals Information Program (MIP)
    IME requests the subcommittee support the USGS budget request for 
the MIP of $15.4 million.\2\
---------------------------------------------------------------------------
    \2\ 2017 USGS Budget Justification, page H-22.
---------------------------------------------------------------------------
    The Minerals Information dataset one of the longest running data 
sets in the Federal Government. It provides critical information to a 
number of important public sector entities as well as the private 
sector. No other entity has the capability, integrity, or objectiveness 
to produce the broad data sets that are now produced by the MIP. 
According to the USGS, in 2016, and on a continuing basis, MIP mineral 
economists and minerals information specialists will provide minerals 
information to other Federal agencies, including the U.S. Census 
Bureau, the Department of Defense, the Federal Reserve Board, and the 
Office of the U.S. Trade Representative.\3\
---------------------------------------------------------------------------
    \3\ 2017 USGS Budget Justification, page H-24.
---------------------------------------------------------------------------
    IME works with the MIP to produce the Explosives Commodity Report. 
IME collects information for the report from the commercial explosives 
industry as a public service because the USGS has proven to be a 
trusted partner in ensuring that commercially sensitive data is not 
disclosed. The completed report provides business intelligence 
unavailable elsewhere, to stakeholders inside and outside of 
government.

    As stated by USGS,

        ``In 2017, the National Mineral Information Center (NMIC) will 
        continue to provide hundreds of reports such as the Minerals 
        Commodity Summaries, the Minerals Yearbook, the Mineral 
        Industry Surveys, Metal Industry Indicators, and the 
        Nonmetallic Mineral Products Industry Indexes. These and other 
        MRP information products, along with sound analysis from 
        minerals and materials analysis specialists and program 
        scientists, allow for decision makers and stakeholders to 
        better understand the changes and importance of mineral 
        resource production, consumption, and use. The NMIC will 
        continue to provide high quality information and analysis that 
        informs Federal critical minerals policy and is of paramount 
        importance to U.S. national security and trade interests.'' \4\
---------------------------------------------------------------------------
    \4\ 2017 USGS Budget Justification, page H-25.

    Clearly, it is in the interest of the Nation and other stakeholders 
for the U.S. Congress to fund the Minerals Information Program at the 
requested level.
    Thank you for your consideration of our requests.
                                 ______
                                 
         Prepared Statement of the Inter Tribal Buffalo Council
                      introduction and background
    My name is Ervin Carlson and I am a member of the Blackfeet Nation 
in Montana and serve as the President of the Inter Tribal Buffalo 
Council (ITBC). Please accept my sincere appreciation for this 
opportunity to submit written testimony to the honorable members of the 
Senate Subcommittee on Interior, Environment and Related Agencies. ITBC 
was granted a Federal charter in 2009 pursuant to Section 17 of the 
Indian Reorganization Act and is comprised of 60 federally recognized 
Indian tribes in 19 States with headquarter offices in Rapid City, 
South Dakota. The Cherokee Nation of Oklahoma, the Shakopee Tribe of 
Minnesota, and the Ruby Tribe of Alaska are the three newest members of 
ITBC.
    American Indians have a long-standing connection with the buffalo. 
Historically, buffalo provided the tribes with food, shelter, clothing 
and essential tools for survival. Indians have maintained a strong 
spiritual and cultural connection with the buffalo that has not 
diminished with the passage of time. ITBC member tribes strive to 
restore buffalo to tribal lands for cultural, health and economic 
benefits for tribal populations.
    On behalf of the member tribes of ITBC, I am requesting an increase 
of $5,600,000 to our current $1,400,000 fiscal year 2015 funding level 
for a total funding award for fiscal year 2016 of $7,000,000 to allow 
the organization to: (1) increase funds for the tribal herd development 
grant program, (2) to fund ITBC efforts to serve as a meaningful 
management partner to the National Park Service, and (3) to fund 
scientific research on the benefits of buffalo meat for Native 
populations for the prevention and treatment of diet related diseases. 
ITBC requests funding from the Department of Interior Bureau of Indian 
Affairs Fish and Wildlife Program and also from the National Park 
Service.
                            funding history
    ITBC has been funded through various methods including the 
President's budget, congressional earmarks or administrative action 
since 1992. ITBC's approximate annual funding is listed below:

 
 
 
Fiscal year 1992-1993.....................  $ 400,000.00 Congressional
                                             Earmark
Fiscal year 1994-1999.....................  $ 650,000.00 President's
                                             Budget
Fiscal year 2000-2001.....................  $1,100,000.00 President's
                                             Budget; Congressional
                                             Earmark
Fiscal year 2002-2003.....................  $1,560,000.00 President's
                                             Budget; Congressional
                                             Earmark
Fiscal year 2004-2005.....................  $2,200,000.00 President's
                                             Budget; Congressional
                                             Earmark
Fiscal year 2006..........................  $4,100,000.00 President's
                                             Budget; Congressional
                                             Earmark
Fiscal year 2007..........................  $1,000,000.00 Administrative
                                             Action BIA
Fiscal year 2008..........................  $1,000,000.00 Congressional
                                             Earmark
Fiscal year 2009-2010.....................  $1,400,000.00 Congressional
                                             Earmark; Administrative
                                             Action BIA
Fiscal year 2011..........................  $1,750,000.00 President's
                                             Budget; Administrative
                                             Action BIA
Fiscal year 2012..........................  $1,400,000.00 President's
                                             Budget
Fiscal year 2013..........................  $1,600,000.00 President's
                                             Budget; Administrative
                                             Action BIA
Fiscal year 2014..........................  $1,400,000.00 President's
                                             Budget; Administrative
                                             Action BIA
Fiscal year 2015..........................  $1,450,000.00 President's
                                             Budget; Administrative
                                             Action BIA
Fiscal year 2016..........................  $1,400,000.00 President's
                                             Budget
 


    The above funding history illustrates congressional and 
administrative support for ITBC and tribal buffalo herds. Annual 
funding of ITBC provides evidence that buffalo restoration and 
management is not a limited or one-time ``project'' but a ``recurring 
program'' most recently funded from the Department of Interior Bureau 
of Indian Affairs Fish and Wildlife line item.
                     funding increase justification
Increase in Herd Development Grant Funds
    ITBC expends 100 percent of the appropriated funds on the 
development and management of tribal buffalo herds. A significant 
portion of ITBC funding is distributed directly to ITBC member tribes 
via a Herd Development Grant program administered by ITBC. The herd 
development grant program commenced in 1992 with $400,000 to assist the 
twelve member tribes in the organization. In 2002, ITBC was awarded 
$1,000,000 for tribal herd development grants to support 25 tribal 
herds. Since 2002, the herd development grant funding has been stagnant 
at $1,000,000 despite the growth of the organization to the current 60 
member tribes and 54 buffalo herds. In total, ITBC collectively manages 
over 20,000 buffalo which is more than all the buffalo currently 
managed by NPS in the National Parks. A $2,500,000 increase for tribal 
herd development grants will provide critically needed funding to 
protect and manage existing tribal herds. This increase will provide a 
total of $3,500,000 for distribution to tribes in an average amount of 
$65,000 per tribal herd depending on specific needs. These funds will 
create jobs in Indian Country, create sustainable tribal buffalo herds 
and allow tribes to utilize buffalo for economic development.
Funding for National Park Service and United States Fish and Wildlife 
        Service Partnership
    Since its inception, ITBC has partnered with the National Park 
Service (NPS) on buffalo management efforts including population 
management through roundups and distribution of buffalo to tribes from 
the parks national refuges. ITBC has not been funded for these 
activities but has utilized minimal administrative funding to partner 
with the Federal agencies. For example, ITBC has agreed to manage 
buffalo removed from Yellowstone Park for population control, transport 
the animals to processing facilities and distribute processed meat to 
tribes despite very limited funding for these efforts. Additionally, 
ITBC is a member of the Interagency Bison Management Plan workgroup and 
has incurred significant costs to participate in all related activities 
to insure that tribes are represented in buffalo management decisions. 
ITBC can continue these efforts and develop and manage a quarantine 
program that will allow the transfer of live buffalo from the 
Yellowstone Park to tribes through an increase of $500,000 in annual 
funding.
Health Related Research
    ITBC has a long-term objective to prevent and treat diet related 
diseases in Native populations through the reintroduction of buffalo 
into daily diets. However, these efforts to coordinate with healthcare 
providers have been limited by the lack of scientific evidence of the 
health benefits of natural grass fed buffalo diets. ITBC believes 
research to develop concrete evidence of these health benefits will 
facilitate ITBC partnerships with health programs to prevent and treat 
diet related diseases in Native populations.
    Additionally, sound research results will allow ITBC to develop a 
health education curriculum for healthy living with a component 
specifically focused on Native youth. Further, this critical research 
will support ITBC's efforts to provide buffalo meat to school lunch 
programs as a healthy alternative to other meat products.
    Funding in the amount of $3,000,000 will allow ITBC to pursue 
professional research objectives.
                        current itbc initiatives
    ITBC's primary objectives are to restore buffalo to tribal lands, 
and to conserve and manage existing tribal herds through the promotion 
of traditional buffalo handling practices and beliefs. ITBC strives to 
offer assistance and opportunities to tribes to meet the needs and 
desires of individual tribal programs. ITBC attempts to balance the 
varying interests of member tribes from maintaining herds for spiritual 
purposes to utilizing buffalo as viable economic development endeavors. 
ITBC accomplishes these objectives as follows:
1. Technical Assistance to Tribes
    ITBC assesses current and potential tribal buffalo programs to 
determine technical service needs and infrastructure needs and provides 
technical assistance in the areas of wildlife management, ecological 
management, range management, buffalo health, cultural practices and 
economic development. Further ITBC assists with fencing, corrals, 
facility design, water development and equipment research. ITBC 
provides annual training sessions (national and regional) designed to 
enhance tribal buffalo management.
2. Education and Outreach
    ITBC staff provides educational presentations to various audiences 
including school-age youth on buffalo restoration, conservation 
efforts, and the historical, cultural relationship between buffalo and 
American Indians.
3. Partnership and Collaboration
    ITBC is a member of various Federal and State working groups 
organized to address buffalo issues. ITBC collaborates with the 
National Park Service and the U.S. Fish and Wildlife Service on surplus 
Federal buffalo and to address the Yellowstone brucellosis concerns. 
However, ITBC participates on a limited basis due to a lack of funding 
for these collaborative efforts.
4. ITBC Marketing Program
    ITBC strives to develop markets for buffalo meat and products for 
interested member tribes at the local and national level. ITBC procures 
buffalo, as limited funds allow, from tribes and sells the meat 
products under a joint tribal and ITBC label. An increase in funding 
will enhance these marketing efforts.
5. School Lunch Program
    ITBC has eight member tribes serving tribal raised buffalo into 
their school lunch programs to address health concerns of school-age 
children. ITBC anticipates expanding this program to 20 tribes in the 
next 3 years with increased funding.
                               conclusion
    ITBC has existed for over two decades to assist tribes with 
restoration of buffalo to tribal lands for cultural purposes. No other 
program exists to assist tribes with buffalo restoration and 
protection.
    ITBC and its member tribes have created a new Indian reservation 
industry that includes job creation and new revenue for the tribal 
economies. ITBC ultimately hopes to restore tribal herds large enough 
to support local tribal health needs and generate sufficient revenue to 
achieve economically self sufficient herds.
    ITBC and it member tribes are appreciative of past and current 
support from the Congress and the administration. However, I urge the 
subcommittee to increase ITBC funding to a total of $7,000,000 which is 
a level commensurate with the growth of the tribal buffalo programs. 
This increase will demonstrate congressional respect for this national 
icon and allow ITBC to fulfill its responsibilities to restore, protect 
and manage buffalo.
    I would like to thank this subcommittee for the opportunity to 
present testimony and I invite you to visit ITBC tribal buffalo 
projects and experience first hand their successes.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council
                                summary
    Mr. Chairman, members of the subcommittee, I am Phil Rigdon, 
President of the Intertribal Timber Council (ITC) and Deputy Director 
of Natural Resources for the Yakama Nation. The ITC offers the 
following recommendations for fiscal year 2017 Indian forestry-related 
activities in the Bureau of Indian Affairs (BIA), the Department of 
Interior (DOI) Office of Wildland Fire Management (OWFM), and the 
U.S.D.A. Forest Service (USFS):
BIA
    1.  Increase BIA Forestry by $25 million, to $77.2 million, as a 
first step toward the additional $100 million needed for funding parity 
with other Federal forestry programs, as recommended by the 2013 IFMAT 
III report.
    2.  Separately, increase BIA Forestry Projects by $12.7 million to 
initiate a BIA Forestry Workforce Development program.
    3.  Increase BIA's Endangered Species funding to $10 million.
    4.  Increase BIA's Tribal Climate Resilience program to $30.4 
million.
OWFM
    5.  Provide $12.6 million in OWFM BAR for rehabilitation of Indian 
trust forests burned in 2015.
    6.  Direct a reassessment of wildfire suppression priorities to 
include Indian trust forests as ``property,'' to be a second priority 
behind only protection of life as a suppression priority.
    7.  Increase Fuels Management funding to $206 million; allow RTRL 
funds on tribal lands.
USFS
    8.  Encourage expanded support for the ITC Anchor Forest 
initiative.
    9.  Continue encouraging the USFS to improve implementation of the 
TFPA.
                              appreciation
    I would like to begin by expressing our appreciation for the 
subcommittee's adopting BIA's fiscal year 2016 requested increase of $2 
million for thinning on Indian trust forests and for adding $2 million 
to BIA Forestry Projects for post-fire rehabilitation. These funds are 
critically needed to address the historic and catastrophic 2015 fire 
season.
                               ifmat iii
    Many of our requests reflect the findings and recommendations of 
the 2013 IFMAT III report, the statutorily required (Public Law 101-
630, Sec. 312) decadal independent review on tribal forests and 
forestry. A copy of that report has been provided to the subcommittee.
    IFMAT III found that chronically insufficient funding and 
understaffing threaten tribal forests and communities. Unless these 
problems are rectified, Indian forests will continue to suffer 
unnecessary damage from wildland fire, insects, disease, and climate 
change.
                                  bia
1.  Increase BIA Forestry by $25 million, to $77.2 million, as a first 
        step toward the additional $100 million needed for funding 
        parity with other Federal forestry programs, as recommended by 
        the 2013 IFMAT III report.

    Indian forestlands cover one third of the total 56 million acres 
held in Federal trust for Indians. These trust forestlands provide 
enumerable essential and renewable functions to tribal and surrounding 
communities, including clean air and water, stable soils, spiritual and 
cultural support, habitat for fish, wildlife and plants, forest 
products for medicine, art, and individual entrepreneurship, and 
through commercial forestry, local jobs and revenues for tribal 
governments. Indian people live with the forests and deeply rely upon 
them, and the United States, especially the Interior Department, has a 
binding and compensable fiduciary responsibility to protect, maintain 
and enhance these forests, but is failing to do so. Interior's chronic 
underfunding of the BIA Forestry program also incurs significant 
economic losses for the tribes. Insufficient personnel constrain BIA 
Forestry's ability to process the annual timber harvest levels set by 
tribes, such that in fiscal year 2014, timber harvest benefits were 60 
percent below what should have been realized, costing tribes $41 
million in lost revenue and a loss of over 15,000 jobs.
    The fiscal year 2017 BIA Budget Justification continues to reflect 
disregard for Federal trust responsibilities for Indian forests. 
Enhanced climate resilience is a principal theme for Trust and Natural 
Resources Management programs, but funding increases are not proposed 
for Forestry, despite the fact that trust forests (A) cover one third 
of all BIA trust land, (B) are subject to statutory trust protection, 
(C) are integral to supporting a wide and critical array of 
environmental, cultural and economic functions, (D) are vital to 
approaches for addressing climate change, carbon sequestration, water 
management, and adaptation, and (E) are the only trust natural resource 
with professional and independent assessments and reports documenting 
the impacts of climate change.
    We find fiscal year 2017's exclusion of BIA Forestry from any 
programmatic increase to be bewildering and dismaying. IFMAT III 
reports a $100 million increase is needed to correct this disparity. As 
in past years, ITC requests that the subcommittee incrementally correct 
chronic underfunding by providing a $25 million increase to the fiscal 
year 2017 BIA Forestry program.
2.  Separately, increase BIA Forestry Projects by $12.7 million to 
        initiate a BIA Forestry Workforce Development program, as 
        recommended by IFMAT III.

    BIA and tribal Forestry are facing a staffing crisis. The IFMAT III 
report states 800 additional BIA Forestry positions are needed, and 
essential existing positions are going unfilled and knowledge and 
expertise are being lost due to retirements and funding shortfalls. 
Last year I cited an example on my reservation--the Yakama Nation--
where 33 of the 55 BIA Forestry positions had not been filled for a 
long time. Today, 1 year later, it is basically unchanged, despite 
repeated tribal pleas. Harvest targets are not being met, forest health 
is suffering, and economic opportunities are being lost. A concerted 
effort is needed to fill vacancies and provide the skills required for 
responsible stewardship of our forest resources. ITC requests that 
$12.7 million be added to BIA Forestry Programs to undertake a program 
to attract, train and retain well qualified professional forestry 
staff.
3.  Increase BIA Endangered Species funding to $10 million.

    ITC requests BIA ESA be funded at $10 million to address impacts of 
listed species on management of trust resources. BIA's $3.7 million 
request represents an increase over recent years, but is still less per 
acre than BLM ESA and below BIA ESA's $3 million appropriated for 
fiscal year 2002 after inflationary costs are considered.
4.  Increase BIA's Tribal Climate Resilience program to $30.4 million.

    ITC requests $30.4 million for the BIA Tribal Climate Resilience 
program, the amount requested by the administration for fiscal year 
2016. Indian tribes rely upon the land, which is our history, our 
culture, our livelihoods, and our future. While the administration's 
fiscal year 2017 request is $3.1 million over fiscal year 2016's final 
appropriation, last year's $30.4 million requested amount better 
represents the BIA and tribes' true needs for evaluating climate change 
on our homelands and planning and conducting actual on-the-ground 
projects to begin addressing its consequences.
                 doi office of wildland fire management
5.  Provide $12.6 million in OWFM BAR for rehabilitation of Indian 
        trust forests burned in 2015.

    The 2015 wildfire season was catastrophic for Indian tribes, 
particularly in the Northwest, where some fires were the most 
destructive in recorded history. Nearly 500,000 acres of Indian trust 
forest burned. Approximately 1.5 billion board feet of timber was 
killed, worth more than $200 million in tribal revenue. Nearly 100,000 
acres need reforestation. Tribal losses of their forest resource, 
revenue and jobs are severe and will extend decades into the future. 
BIA has estimated recovery costs of $9 million for fiscal year 2016, 
$12.6 million for fiscal year 2017, and a total of $55 million over 5 
years.
    The Interior Department's Office Wildland Fire Management (OWFM) 
provided BIA and the tribes only $3.5 million in Burned Area Recovery 
(BAR) funds for fiscal year 2016. OWFM has not provided any increase to 
address the devastating impacts of the 2015 fires on tribal resources. 
The fiscal year 2016 amount allocated is less than the $4 million in 
BAR funds allocated for BIA and tribes in fiscal year 2015. The only 
fund increase in response to last summer's devastation of tribal trust 
forests has been Congress's fiscal year 2016 increase of $2 million. At 
Interior, it is as if our Federal trustee is simply turning a blind eye 
to the problem, which, by further delaying or denying the recovery, 
only exacerbates the economic and environmental losses inflicted on the 
tribes.
    ITC asks Congress to specifically designate $12.6 million for 
fiscal year 2017 within OWFM BAR for recovery of tribal forests burned 
in 2015. Please note this is just for the 2015 fires, and should not 
impinge on separate funding for fires that may occur in 2016 and future 
years.
6.  Direct a reassessment of wildfire suppression priorities to include 
        Indian trust forests as ``property,'' to be a second priority 
        behind only protection of life as a suppression priority.

    Last summer, lightning storms ignited a wave of wildfires in the 
Northwest, including on Indian reservations. When fire crews attacking 
reservation fires were diverted to fight off-reservation fires 
threatening private property, the fires on our trust forests exploded. 
The United States evidently abandons its fiduciary obligations to 
protect Indian trust assets when Federal fire suppression policy 
prioritizes protection of life first and property second, leaving our 
trust forests to burn, as they did last summer. Timber tribes depend on 
our forests for jobs and revenue; the destruction suffered by those 
forests will have severe and long-lasting consequences. Fire 
suppression policy must prioritize protection of trust resources and 
economies, not subjugate those obligations to the protection of (often 
insured) private property. We ask the subcommittee to direct the 
reevaluation of Federal fire suppression priorities to consider the 
protection of Indian trust resources as second only to protection of 
life.
7.  Increase Fuels Management funding to $206 million; allow RTRL funds 
        on tribal lands.

    For fiscal year 2017, ITC urges that Fuels Management funding be 
restored to its fiscal year 2010 $206 million level to reduce the 
Department's fuels backlog. This will be a sound investment that will 
reduce future costs of suppression. Within the fiscal year 2017 Fuels 
Management budget, ITC strongly supports the designation of $10 million 
for Reserved Treaty Rights Lands (RTRL) landscape restoration, to allow 
tribes to engage in proactive fuels and forest health projects to 
protect tribal trust assets on treaty lands. However, we ask that these 
funds be allowed to be used on both tribal lands and off-reservation.
                                  usfs
8.  Encourage expanded support for the ITC Anchor Forest initiative.

    We ask that you encourage and expand continued Forest Service 
support of the ITC's Anchor Forest initiative, in which tribes and 
other forest stakeholders are pursuing long-term collaboration to 
maintain ecological functions and sustain economically viable 
infrastructure for management, harvesting, transportation, and 
processing of forest products. The Final Report of the ITC's Anchor 
Forest pilot study in Washington State, published March 2016, reflects 
the participation of tribal, Federal and State governments, the 
conservation community, and local forestland owners and businesses. 
Tribes in the Lakes States, the Plains States, Alaska, and the 
Southwest are expressing interest in the Anchor Forest concept, and we 
urge the subcommittee to express support for expanding the application 
of the Anchor Forest concept.
9.  Continue encouraging the USFS to improve implementation of the 
        TFPA.

    Finally, we thank the subcommittee for its fiscal year 2015 support 
of the Tribal Forest Protection Act (TFPA, Public Law 108-278) that 
authorizes tribes to conduct fuels and health projects on U.S.F.S. and 
B.L.M. lands to protect trust and cultural resources. The 
subcommittee's support helped prompt a series of successful regional 
TFPA workshops and the initiating of numerous TFPA agreements. There is 
keen interest in additional workshops and follow-on activities, and the 
ITC urges the subcommittee to express continued support for the TFPA 
program.
                 intertribal timber council background
    The ITC is a 40-year-old association of forest owning tribes and 
Alaska Native organizations dedicated to improving the sustainable 
ecological and economic management of our 18.6 million acres of 
timberland and woodland held in BIA trust. We invite you to come visit.
    That concludes my statement. Thank you.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, I am pleased to submit 
this written testimony on our funding priorities and requests for the 
fiscal year 2017 Bureau of Indian Affairs (BIA) and Indian Health 
Service (IHS) budgets. A fundamental goal for our tribe is achieving 
economic self-sufficiency/self-reliance through opportunities that 
enable us to generate our own unrestricted revenues to address the 
unmet needs of our community. In order to achieve this goal, we need to 
be treated on par with State and local governments with respect to 
revenue raising authority. The continued proliferation of State and 
local taxes on sales, personal property and transactions (including 
resource extraction) within Indian reservations has a direct negative 
impact on the self-sufficiency of Indian tribes and tribal governments, 
and an indirect and equally negative impact on Federal programs and 
appropriations. When tribes are allowed to conduct activities on their 
own land subject only to their own taxes and regulations, tribal 
governments are able to fund their own programs and Indian reservation 
economies can flourish.
Tribal Specific Appropriation Priorities
    1.  Waste Water System $8.3 million
    2.  Tribal Courts TPA $20,000
    3.  BIA Road Maintenance $1.5 million

    $8.3 million--Waste Water System.--In order to engage in economic 
development and expand our tribal business portfolio, the tribe needs 
to invest in a waste water system. Our tribal government cannot operate 
without adequate infrastructure and clean water. After years of careful 
planning and research, we have entered into a partnership with the City 
of Sequim to connect tribal businesses and governmental facilities in 
Blyn to the City of Sequim Wastewater Treatment Plant. The installation 
of the project pipeline is approximately $8.3 million with 
environmental and economic benefits to all.
    $20,000--Tribal Courts TPA.--Tribes cannot operate police 
departments and court systems on grant funding. Stable funding for 
tribal courts is a prerequisite to ensure a safe, healthy and thriving 
tribal community. Although Congress and the administration have taken 
steps in recent years to try and address some of these concerns through 
the passage of the Tribal Law and Order Act (TLOA) of 2010 and the 
Reauthorization of the Violence Against Women Act (VAWA) of 2013, 
significant funding is needed in order to implement these new 
authorities to address the crisis level need in Indian Country and 
elevate the safety and wellness of our tribal citizens and communities.
    $1.5 million--BIA Road Maintenance.--Federal appropriations for the 
BIA Road Maintenance Program has averaged only $24.3 million annually 
for a number of years. However, a recent analysis completed by the BIA 
and tribal representatives determined that the documented deferred road 
maintenance backlog is at $203 million above fiscal year 2015 enacted 
funding levels. Substantial investment in tribal transportation is 
primarily needed to ensure the safety of all persons who traverse these 
roads, Native and non-Native alike. Deteriorated roads are not only a 
health risk, they hinder governmental services, impede economic 
development and make getting to health clinics, schools, stores and 
employment centers more difficult. The tribe plans to use 
transportation/road maintenance funding to complete a road safety 
project that is desperately needed on a very busy and well-traveled 
area of State highway that runs through our tribal reservation campus. 
In summer months, traffic on the highway substantially increases due to 
a surge in tourism, which supports both tribal and county economies.

    National Requests and Recommendations: The Jamestown S'Klallam 
Tribe continues to support the requests and recommendations of the 
National Congress of American Indians and the National Indian Health 
Board.
National Requests and Recommendations
BIA and IHS:
    1.  Contract Support Costs Mandatory Funding $800 million for IHS & 
$278 million for BIA
    2.  Hold Indian Country Programs Harmless from Budgetary 
Reductions, Rescissions and Sequestration

    Contract Support Costs Mandatory Funding.--The tribe appreciates 
the bipartisan support of the Interior appropriations subcommittees for 
full funding of Contract Support Costs (CSC). Funding of CSC in fiscal 
year 2016 at an indefinite amount, helped to ensure that critical 
programmatic services were not abrogated in order to cover the CSC 
need. The tribe maintains that the indefinite appropriation of CSC 
funding must be made mandatory and permanent. We thus support the 
administration's proposal to move CSC funding to a mandatory funding 
basis, although, we would like it to begin in fiscal year 2017 rather 
than in fiscal year 2018. Should CSC funding not be made mandatory in 
fiscal year 2017, we otherwise are supportive of the President's 
request for an appropriation of ``such sums as may be necessary,'' with 
an estimated $800 million for CSC for IHS, and an estimated $278 
million for the BIA, in separate accounts in both the IHS and BIA 
discretionary budgets. However, we do not agree with the continued 
insertion of a proviso that could effectively deny the carryover 
authority granted by the Indian Self-Determination and Education 
Assistance Act. For fiscal year 2017 and thereafter, we thus request 
the removal of the following proviso: ``amounts obligated but not 
expended by a tribe or tribal organization for contract support costs 
for such agreements for the current fiscal year shall be applied to 
contract support costs otherwise due for such agreements for subsequent 
fiscal years.''
    Hold Indian Country Programs Harmless from Budgetary Reductions, 
Rescissions and Sequestration.--Decades of unfulfilled Federal 
obligations has devastated tribal communities who continue to face 
persistent shortfalls and overwhelming unmet needs. Until tribes attain 
exclusive taxing jurisdiction within their tribal lands, Federal 
support remains critical to ensure the delivery of essential 
governmental services to our tribal citizens. The Federal trust 
obligation must be honored and vital programs and services for tribes 
must be sustained and held harmless in any budgetary deal enacted to 
reduce the national deficit.
BIA Requests:
    1.  Self-Governance Compacts $171,468
    2.  Economic Development TPA $200,000
    3.  Natural Resources TPA $611,319
    4.  Indian Guaranteed Loan Program $12.6 million

    $171,468--Self-Governance Compacts.--Tribal Self-Governance is the 
most successful policy in the history of tribal-Federal relations 
because it stimulates efficient and effective government spending. 
Increases to Self-Governance tribal base budgets will allow tribes to 
fund core tribal government programs such as community development, 
economic development, healthcare, and community safety. Funding Self-
Governance not only fulfills the Federal treaty and trust obligation, 
it positively impacts the surrounding regional economies.
    $200,000--Economic Development (TPA).--Tribal governmental revenues 
depend entirely on effective economic development to support nearly 
every aspect of reservation life and tribal governance. Chronic 
underfunding and the severe lack of private investment have left the 
economic potential of Indian Country unrealized. Tribes are forced to 
rely on their own economic ventures to generate revenue to support 
programs and services for tribal citizens. Yet, tribes are expected to 
meet these economic challenges with fewer resources and greater 
restrictions placed on vital economic financing tools and incentives 
that are easily accessible and lucrative to other governments. 
Increased funding for Economic Development will allow us to continue to 
diversify our successful business portfolio and expand our revenue 
generating opportunities.
    $611,319--Natural Resources (TPA).--In the Northwest, degradation 
of the environment is occurring faster than ever before. Climate change 
is having profound impacts on tribal people and tribal treaty rights 
are at risk. The Jamestown Natural Resource Department is charged with 
the responsibility to manage, protect, conserve, and nurture the Point-
No-Point Treaty rights in our usual and accustomed areas for tribal 
citizens and future tribal descendants. The Federal investment in 
Tribal Natural Resources will foster tribal self-sufficiency and 
support tribal economies through the creation of jobs, the promotion of 
cultural vitality, religious practices, community cohesiveness, improve 
the environmental conditions on our tribal homelands and in surrounding 
communities, and foster cross-jurisdictional partnerships between our 
tribe and the local and State governments.
    $12.6 million--Indian Guaranteed Loan Program.--The Federal 
Government is in a unique position to help advance tribal projects and 
provide sustainable economic opportunities for Indian businesses and 
tribal governments through the Indian Loan Guarantee Program. The 
program provides attractive incentives for financial institutions to 
expand their services by underwriting loans in Indian country, provides 
tribes and their citizens' access to capital, and promotes tribal 
economies by encouraging lending to Indian-owned businesses. Loan 
guarantees are an attractive financial tool because tribes are able to 
leverage limited Federal funding in and promote economic growth by 
investing in projects that are capable of generating their own revenue 
streams. The program, however, has been consistently targeted for cuts 
despite its positive return on the Federal investment. If not for the 
Loan Guarantee Program, many tribes would be unable to secure loans 
from standard sources that are available to other entities and 
businesses. Federal credit programs should facilitate tribal access to 
private capital markets where tribes frequently encounter market 
resistance to conventional lending.
IHS Requests:
    1.  Support Advanced Appropriations for IHS
    2.  Fully Fund the Indian Healthcare Improvement Act Provisions in 
the ACA
    3.  Increase Funding for Purchased and Referred Care $562.2 million

    Support Advanced Appropriations for IHS.--The Interior, Environment 
and Related Agencies Appropriations bill, which includes funding for 
IHS, has not been enacted in a timely manner for the past 20 years, 
creating significant challenges to tribes' ability to provide critical 
healthcare services to their tribal citizens. When it comes to IHS 
funding, delays could mean the loss of life. Late funding not only 
affects quality of care, it constrains tribal healthcare providers' 
ability to plan, budget, recruit and retain staff, and construct and 
maintain facilities. Tribal healthcare programs should be funded 
similarly to every other government health program in this country 
either through mandatory funding or advanced appropriations. Providing 
predictable, timely and sufficient funding will ensure the Federal 
Government is upholding its trust responsibility to American Indians 
and Alaska Natives.
    Fully Fund the IHCIA Provisions in the ACA.--Although the IHCIA 
provides the authority and, with it, the opportunity to provide 
essential healthcare to tribal citizens, it did not provide the 
necessary funds to the IHS to carry out these new statutory 
obligations. There are 23 unfunded provisions in the Indian Health Care 
Improvement Act (IHCIA). Many of the provisions that remain unfunded 
would strengthen the tribal healthcare workforce, provide greater 
access to behavioral health and support innovative initiatives for 
healthcare delivery to tribal citizens. Funding these provisions is a 
necessary precursor to increase tribal capacity, infrastructure and 
most importantly access to healthcare services. Significant Federal 
investment is needed to achieve a fully funded Indian Health Service 
and now is the time to act on opportunities made possible in the newly 
expanded authorities granted under the Indian Health Care Improvement 
Act.
    $562.2 million--Purchased and Referred Care.--Most IHS and tribal 
operated direct care facilities do not provide the required emergency 
and specialty care services so tribes are forced to turn to the private 
sector to fulfill this need. CHS funds are used to purchase essential 
healthcare services, including inpatient and outpatient care, routine 
emergency ambulatory care, transportation and medical support services, 
such as diagnostic imaging, physical therapy, laboratory, nutrition and 
pharmacy services.

    Local/Regional Requests and Recommendations.--The Jamestown 
S'Klallam Tribe support the requests and recommendations of the 
Affiliated Tribes of Northwest Indians, Northwest Portland Area Indian 
Health Board, and the Northwest Indian Fisheries Commission.
    I would like to extend my thanks to the subcommittee for an 
opportunity to submit testimony on the fiscal year 2017 appropriations.

    [This statement was submitted by honorable W. Ron Allen, Tribal 
Chairman/CEO.]
                                 ______
                                 
                  Prepared Statement of Rose Kuljerich
    Dear Senators:

    As an American citizen and taxpayer, I strongly oppose the BLM's 
proposal to conduct dangerous sterilization experiments on wild mares 
at the Wild Horse Corral Facility in Hines. According to the 
Environmental Assessment (EA), the BLM is deciding whether or not to 
proceed with one or more of the proposed sterilization procedures. The 
weight of scientific evidence and public opinion clearly supports a BLM 
decision NOT to proceed with any of these sterilization procedures.
    The sterilization procedures that BLM is proposing to conduct on 
federally protected wild mares are dangerous, costly and impractical 
for use in the field, due to the serious health risks they pose to the 
horses and their unborn foals, and also due to the great expense of 
purchasing the equipment and training the number of veterinarians 
necessary to implement these procedures on the range.
    It makes no sense to spend millions of taxpayer dollars on these 
risky invasive experiments when proven, humane, and relatively 
inexpensive fertility control technology in the form of the PZP vaccine 
is readily available but vastly underutilized by the BLM.
    The EA is completely inadequate in analyzing the impacts of these 
experimental procedures on mares. In addition, the BLM has deliberately 
avoided public opposition to this controversial and grotesque research 
proposal by skipping the scoping stage of the environmental analysis 
process. As a result, the public has been deprived of the opportunity 
to provide input into the impacts of and alternatives to these 
procedures that must be analyzed under the rules of the National 
Environmental Policy Act.
1.  Ovariectomy via Colposcopy
    This is an outdated and archaic procedure that has been supplanted 
by more modern laparoscopic surgery. The EA fails to analyze the 
impacts of and alternatives to this procedure to mares and never once 
mentions the availability of more modern techniques! This proposed 
sterilization experiment is an intra-vaginal complex surgical 
procedure, which is hardly ever performed in domestic horses (never 
mind in wild ones), due to its inherently dangerous risks.

  --The blind nature of this surgery increases the risk of intra-
        abdominal hemorrhage, but the EA never even addresses this 
        issue or the availability of more modern laparoscopic 
        techniques that allow the surgeon to visualize the abdominal 
        structures.
  --The lack of a sterile environment subjects the mares to a high risk 
        of infection, something that is ignored by the EA.
  --The procedure carries with it a significant risk of hemorrhage and 
        evisceration (protrusion of the intestines through the surgical 
        incision), which is why it requires strict follow-up care when 
        used in domestic horses, including pain relief and 4-7 days of 
        stall rest, the first 48 hours of which is spent in crossties 
        to prevent the mare from lying down. It is not possible to 
        provide this required post-operative care to wild mares, yet 
        the EA minimizes the impacts of this fact, citing the opinion 
        of an un-named veterinarian, instead of the published science 
        and National Research Council review, which clearly indicate 
        the risks and impacts of this outdated procedure on wild mares.
  --The procedure will cause mares in early stages of pregnancy to 
        abort their fetuses and may cause loss of pregnancy for mares 
        in the mid-stage of pregnancy as well. This is unacceptable.

    This pursuit of ovariectomy research is directly counter to the 
recommendations of the National Academy of Sciences National Research 
Council (NRC) in its 2013 report, ``Using Science to Improve the BLM 
Wild Horse and Burro Program: A Way Forward.'' That NRC report 
concluded that: ``The possibility that ovariectomy may be followed by 
prolonged bleeding or peritoneal infection makes it inadvisable for 
field application.''
2.  Minimally Invasive Sterilization Techniques
    The other sterilization procedures that BLM proposes to research, 
while less invasive than ovariectomy, should also be abandoned due to 
the inability to provide post-operative care and the impracticality of 
implementing these procedures--which have never before been done in 
wild or domestic horses--on a broad scale in a field setting. The EA 
fails to analyze the impacts of precedent-setting procedures that have 
never before been performed in horses, and as well as the inability to 
provide required post-operative care. The EA also omits analysis of the 
economic impacts and practicalities of implementing these procedures on 
the range.
    In proceeding with these experiments, the BLM has ignored the NRC 
recommendation that these techniques should first be perfected in 
domestic mares, who can be easily handled and will be accessible for 
close monitoring and post-operative care, before attempting them in 
wild horses.
    It is unconscionable that the BLM is proceeding with these 
draconian experiments that endanger the lives of the un-consenting 
equine subjects and their unborn foals, particularly when a proven non-
invasive and safe fertility control method exists in the readily 
available PZP birth control vaccine. Instead of wasting millions of tax 
dollars to fund experiments on inhumane and impractical sterilization 
experiments, the agency should instead focus resources on vaccinating 
sufficient numbers of mares with the PZP fertility control vaccine, 
which is documented through 30 years of experience and published 
science, to be safe, effective, cost-effective and successful in 
managing wild horse populations.
    Again, as a taxpayer and wild horse lover, I am outraged that the 
BLM is even considering pursuing such inhumane, barbaric and wasteful 
experimentation on wild horses and I find the BLM's Environmental 
Analysis of its impacts to be woefully inadequate. As a result, I 
strongly urge the BLM to abandon these proposed experiments in favor of 
using proven, more cost-effective and humane fertility control methods.
                                 ______
                                 
 Prepared Statement of Lac du Flambeau Band of Lake Superior Chippewa 
                                Indians
    My name is Larry Wawronowicz, I am the Natural Resource Director 
for the Lac du Flambeau Band of Lake Superior Chippewa Indians, located 
in Wisconsin. I am not a tribal member, but I have worked for the Lac 
du Flambeau Band for 33 years, raised a family in the Lac du Flambeau 
community and have many friends and co-workers in Indian Country, so I 
am deeply honored that the tribe has allowed me the privilege to 
present written testimony which reflects the needs and concerns of the 
tribal membership.
    The President's fiscal year 2017 budget has some important and 
positive initiatives for tribes. For example, it includes fully funding 
contract support costs and requesting that Congress reclassify this 
funding as mandatory. And in doing so would implement what two Supreme 
Court cases have already stated is the law. This funding must be paid; 
it is time that Congress make the necessary changes in the statute to 
implement the Court's decisions.
                  i. generation indigenous initiative
    I call on the Senate Appropriations Subcommittee to fully support 
the administration's emphasis on our youth. The Generation Indigenous 
Initiative is the first time this Nation has taken a comprehensive 
approach to improving the lives of Indian children. The administration 
called on all agencies, including those outside of the Department of 
the Interior and the Indian Health Service, to do their part to fulfill 
the trust responsibility to Indian children. Based the Federal trust 
responsibility, the Federal Government should be committed to providing 
fundamental fairness to tribes, not just in selected areas but across 
the board--and appropriations for all programs affecting Indians should 
provide funding levels based on this fundamental principle.
    BIA Tiwahe (Family) Initiative. The tribe strongly supports the 
continuation of the administration's Tiwahe initiative, a broad-based, 
interdisciplinary, and culturally appropriate program for addressing 
the needs of Indian families and communities--including child welfare 
and family services, housing and job training. This program fills an 
immediate and critical need. At Lac du Flambeau, over the last few 
years we have faced a crisis in our community arising from a growing 
epidemic of drug abuse. The problem has been far-reaching--as we find 
widespread abuse of prescription drugs, synthetic marijuana, and heroin 
on our reservation. The impact on our community has been devastating in 
terms of the health and well-being of our families. The rise in drug 
abuse often leaves our children caught in unsafe situations at home. 
This has led to an increase in the need for foster care and other 
temporary placements for our children. The administration's $57 million 
request (a $12.3 million increase) for tribal social service programs 
and the $18.9 million request (a $3.4 million increase) for Indian 
Child Welfare programs will help meet this need. In addition the $30 
million requested for tribal courts ($2.5 million increase) will also 
ensure that our children are safer as these institutions will have 
additional resources to supervise and monitor the children in their 
care. This is also why the tribe supports the administration's request 
for $29 million to increase the number of mental health providers 
throughout the Indian Health Care System and the $15 million increase 
to hire behavioral health professionals and peer specialists focused on 
Indian youth and their families.
                     ii. department of the interior
    A. Natural Resource Programs. As we address our communities' social 
services needs, we are mindful that one of the cornerstones of a 
healthy community is a healthy environment. Clean air, water and land 
are vital for the physical and emotional health of our people, and 
provide both a foundation for our tribal culture and the basis for 
economic opportunity on our reservation. That is our obligation to 
future generations--to ensure that our lands, air and waters are 
adequately protected.
    B. Bureau of Indian Affairs Climate Resiliency. The tribe endorses 
the requested $13 million to address the impact of the changing climate 
on our natural resources. Our community is reliant on our natural 
resources to survive. If people cannot fish the lakes we have been 
fishing since the beginning of time or hunt wild game because these 
resources are not there, who we are as a people will be forever 
changed.
    C. Tribal Natural Resource Management and Development; Tribal Fish 
Hatchery Operations and Maintenance. Tribes are leaders in natural 
resource protection and BIA natural resource funding is essential to 
maintain our programs. Lac du Flambeau has a comprehensive Natural 
Resources Department and dedicated staff with considerable expertise in 
natural resource and land management. Among our many programs, the 
tribe operates a fish hatchery that stocks many of our lakes. Along 
with our other natural resource programs, our fish production 
activities are essential to protect our natural resources and to foster 
economic activity on our Reservation. We support full funding fish 
hatchery operations and maintenance.
    D. Circle of Flight: Wetlands Waterfowl Program. We urge the 
subcommittee to continue to provide support for the BIA Circle of 
Flight Program. This program supports tribal efforts throughout the 
Great Lakes Region to restore and preserve wetlands and waterfowl 
habitat within tribal territories.
    E. Great Lakes Indian Fish and Wildlife Commission. The tribe 
strongly supports the work of the Great Lakes Indian Fish and Wildlife 
Commission (``GLIFWC''). GLIFWC assists in protecting and implementing 
its treaty-guaranteed hunting, fishing and gathering rights. We urge 
the subcommittee to fully support the programmatic funding for GLIFWC 
from both BIA and EPA. GLIFWC has played an invaluable role in 
providing science and sound management practices for our off-
reservation resources. This role could not be filled by any other 
agency.
    F. Education Programs. Education remains a critical investment in 
the future of the tribes. The Johnson-O'Malley Program provides vital 
support for Indian students in public schools. We support the $18.5 
million requested for this Program. We must do more for our students in 
public schools. Likewise, we are proud to see an increasing number of 
our students attending and graduating from colleges and other post-
secondary institutions. Thus, we support the increased funding for 
scholarships and adult education within the BIE. The Tribe also 
supports the administration's proposed increase in BIA funding for 
fellowship and training opportunities for post graduate study.
    G. Tribal Courts. We are concerned that the administration has 
proposed an $8 million cut in funding for tribal courts in Public Law 
280 States like Wisconsin. Because of a BIA policy that chose not to 
fund tribal courts in Public Law 280 States for decades, our courts 
have lagged behind our sister tribes in the ability to meet the justice 
needs of our communities. Congress recognized this deficiency last year 
and provided $10 million to address it. BIA essentially wants to halt 
this initiative before it even starts. With regard to the $10 million 
provided in fiscal year 2016, the BIA has not held any consultation on 
how this funding would be allocated and we understand may not do so and 
instead use this funding to build its own bureaucracy. We would urge 
the subcommittee to clarify with the BIA that the fiscal year 2016 
funding was intended to assist tribal courts in Public Law 280 States 
and not to build their own bureaucracy which hopefully will carry over 
to fiscal year 2017 funding as well.
    H. Transportation. Proper road maintenance on the reservation is 
essential for the safety and health of our community, and for promoting 
economic opportunities. BIA Road Maintenance, nationally, is 
responsible for 29,700 miles of BIA owned road and 931 BIA owned 
bridges. The administration request of $27 million only funds 16 
percent of the level of need for BIA road maintenance. For bridges it 
would fund 62 percent of the level of need. Thus, 84 percent of the 
roads in the BIA systems will continue to be at poor or and failing 
condition and almost 300 of the bridges in the BIA system will be at 
poor or failing condition. These are roads used by school buses and 
first responders. In any other community this would be unacceptable. We 
urge the subcommittee to increase BIA road maintenance funding by at 
least $9 million. This level of funding would allow a greater 
percentage of roads to be maintained in fair or better condition.
    I. Tribal Historic Preservation Offices. The tribe supports the 
administration's $11.9 request (a $2 million increase) for Tribal 
Historic Offices. This increase is a start to adequately fund tribal 
Historic Preservation Act compliance. While more tribes have assumed 
the responsibility under the Historic Preservation Act, Federal 
appropriations have not kept pace and this threatens tribe's ability to 
do this important work.
                  iii. environmental protection agency
    A. EPA Tribal General Assistance Program. The tribe strongly 
supports the proposed $96.4 request in the EPA Tribal General 
Assistance Program, known as ``Tribal GAP.'' This program provides base 
environmental funding to assist tribes in building their environmental 
capacity to assess environmental conditions, utilize available data and 
build their environmental programs to meet their local needs. This is a 
foundational program for tribes to address the broad range of 
challenging circumstances we face regarding our reservation 
environment. Importantly, the increase in funding this program is to 
implement tribal environmental plans and to recruit and retain 
qualified environmental professionals in Indian Country.
    B. Great Lakes Restoration Initiative. The tribe strongly supports 
funding for the Great Lakes Restoration Initiative. For the indigenous 
people of Wisconsin, the Great Lakes represent the lifeblood of our 
culture and the foundation of our economies. The protection and 
preservation of the Great Lakes are necessary to preserve the tribal 
communities that have made the Great Lakes area their home since time 
immemorial.
    C. Leaking Underground Storage Tank. The tribe urges the 
subcommittee to increase funding for Leaking Underground Storage Tank 
(LUST) clean-up in Indian Country. This funding was decreased to $1.69 
million from almost $2.5 million a few years ago. As the EPA notes in 
its budget justification this funding is the primary source of funding 
for these clean-up activities in Indian Country. Since its inception in 
the 1980s, the LUST program has cleaned up 78 percent of the 1,375 
identified releases in Indian Country. There are 298 of these 
identified sites that still need to be cleaned up. Unfortunately, the 
number of sites the EPA is able to cleanup has decreased by 50 percent 
in the last 6 years. While some of this is attributed to the fact the 
sites are much more complex and require more time and resources, there 
can be no doubt that this drastic reduction in the number of sites 
addressed is attributed to the decrease in funding.
    This issue is particularly important to Lac du Flambeau because we 
fear that the 1,375 identified sites grossly underestimate the number 
of sites actually in Indian Country. In Lac du Flambeau we have 25 
sites that may be impacting reservation resources which are not 
included in the 1,375 sites. One site in particular, the Haskell Lake/
Tower Standard Site has the Tribe very concerned because of 
contaminated ground and possibly lake surface water with lead, benzene 
and a host of other contaminates. We identified this site in 2010 and 
we are still working on getting the funding necessary for cleanup. So 
we urge Congress to increase funding for the LUST program in Indian 
Country by $5 million, recognizing that this will only clean-up 
approximately 33 out of the 298 identified sites per year.
                   iv. indian health service programs
    We fully support the administration's request of $ 5.1 billion for 
the Indian Health Service. According to the IHS, this level of funding 
would fully fund pay costs, inflation, and partially fund population 
growth. This increase will allow for a significant investment in 
Purchased and Referred Care with a $48.1 million increase.
    Research has clearly demonstrated that our overall health is tied 
to our oral health. The Lac du Flambeau Tribe recognized this and that 
is why in 2013 we opened a state of the art dental clinic to serve the 
needs of our people. No longer are dental visits done by an occasional 
dental visit at our schools. We are now seeing our members in our 
facility early and often and are preventing dental disease before it 
can happen. We fully support the requested $8.5 million increase for 
the dental health services program. This increase will address the not 
only medical inflation, but also the population increase our community 
has experienced.
    Thank you for affording the Lac du Flambeau Tribe the opportunity 
to submit written testimony.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the Senate Interior, 
Environment, and Related Agencies Appropriations Subcommittee to 
support fiscal year 2017 funding for the National Endowment for the 
Arts (NEA) at a level of $155 million. We are pleased that Congress 
showed strong bi-partisan support for the agency by approving a $2 
million increase for its fiscal year 2016 appropriation, and we ask for 
further support so the agency can help more communities fulfill the 
NEA's mission to provide all Americans with diverse opportunities for 
arts participation.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of more than 2,000 organizations and individuals 
across North America runs the gamut from world-renowned symphonies to 
community groups, from summer festivals to student and youth ensembles, 
from conservatories to libraries, from businesses serving orchestras to 
individuals who love symphonic music. Orchestras unite people through 
creativity and artistry, contribute to civic vitality, and educate 
young people and adults. The League is committed to helping orchestras 
engage with their communities, and the NEA plays an invaluable role 
through its direct grants, Federal/State partnerships, and research on 
trends in public participation and workforce development.
    An NEA grant affirms an organization's contributions to our 
Nation's artistic vitality. The capacity of orchestras to present 
nationally recognized programs is highly valued by communities of all 
sizes, in part because NEA grants awarded through the competitive 
process leverage additional funding from State, local, and private 
sources. In fiscal year 2015, the NEA's Grants to Organizations 
included 102 direct grants to orchestras in the Art Works and Challenge 
America categories, and from the current fiscal year, the following 10 
awards, totaling $267,000 in support, offer a sampling of the high 
quality, unique opportunities communities are able to enjoy with NEA 
support.
NEA Funding Broadens Access for Underserved Communities
    In partnership with the organizations it supports, the NEA is 
dedicated to improving public access to the arts. The Challenge America 
grant category offers support primarily to small and mid-sized 
organizations for projects that extend the reach of the arts to 
underserved populations--those whose opportunities to experience the 
arts have been limited by geography, economics, or disability. 
Challenge America grantee Northwest Symphony Orchestra will present a 
concert and related educational programming with a focus on 
Northwestern classical composers and musicians. Koichiro Yamamoto, 
principal trombonist of the Seattle Symphony Orchestra, will perform 
for the public, as well as participate in Symphony for Students, the 
orchestra's program serving low-income students in South King County. 
Yamamoto will lead master classes for underserved youth, and orchestra 
musicians will visit 10 schools to provide clinics and master classes 
to more than 200 students in the Highline School District. Youth 
participants will also receive free tickets to attend the public 
performance at the Highline Performing Arts Center, which will include 
music by Northwest composers Samuel Jones and Sumi Tonooka.
    The Great Falls Symphony will use its Challenge America grant to 
produce performances, a public post-concert question-and-answer 
session, and various activities featuring pianist Sean Chen and one of 
the symphony's resident string ensembles, the Cascade Quartet. In 
addition to the main performance, Chen and the Cascade Quartet will 
participate in concerts and lead master classes for rural high school 
students. Further broadening their reach, they will perform in a 
concert preview that will be aired on Montana's public radio station as 
well as perform during an open rehearsal for local piano students and 
piano teachers. With just two full-time and two part-time staff, and 
three conductors, the orchestra and its musicians present a wealth of 
services to their community each year, from coaching sessions to 
education concerts in schools across Montana, as well as mainstage 
concerts. Great Falls Symphony also includes a youth orchestra and the 
Chinook Winds quintet, which performs throughout the country.
The NEA is Committed to Artistically Rich Youth Development 
        Opportunities
    Many of the NEA's grants directly support programs involving the 
development of young artists and musicians, such as an Art Works grant 
to support the Boston Youth Symphony Orchestras' Intensive Community 
Program (ICP). This rigorous string instrument training program began 
in 1998 to serve inner-city youth by offering weekly music lessons, 
ensemble classes, instrument rentals, and performance opportunities to 
students who are exceptionally interested in music but are faced with 
financial and/or cultural barriers to participation. After a few years 
of intensive study, ICP students are prepared to pass the audition into 
the youth symphony's entry-level orchestra. Historically, 98 percent of 
ICP students successfully audition into the highly competitive BYSO 
orchestras; once admitted, ICP students receive a tuition subsidy, 
weekly lessons, use of an instrument, and ongoing mentorship until they 
graduate high school. The BYSO, with a staff of 12 full-time and 24 
part-time employees, prides itself on the ICP having provided this deep 
and focused experience to more than 150 students, with 100 percent of 
its graduates going on to college.
    On the opposite coast, similarly rich and intensive youth 
development is offered by the Youth Orchestra of Los Angeles at Heart 
of Los Angeles (YOLA at HOLA). This after-school music program, in 
partnership with the Los Angeles Philharmonic, is inspired by the 
Venezuelan El Sistema movement and, with NEA support, provides free 
instruments, ensemble-based classical music instruction, and 
performance opportunities to underserved and at-risk youth, ages 6-18, 
in central Los Angeles. YOLA at HOLA students participate in up to 15 
hours each week of sectional, ensemble, and orchestra rehearsals, 
specialized music classes, community performances, academic tutoring 
and intervention, and wrap-around support. YOLA at HOLA is led by a 
knowledgeable and passionate corps of 19 music educators who teach and 
mentor HOLA's students and contribute to an international conversation 
about high-intensity music education. Through HOLA's and the LA 
Philharmonic's partnership with the Longy School of Music of Bard 
College's Master of Arts in Teaching program, the next generation of 
music educators also hone their skills in YOLA at HOLA's classrooms.
The NEA Supports Celebrating the Arts and Our Natural Resources
    The St. Louis Symphony Orchestra (SLSO), employer of 93 musicians 
and 61 full-time staff, won an ``Imagine Your Parks'' grant in this 
year's joint celebration of the NEA's 50th anniversary and the 
centennial of the National Park Service. SLSO paired French composer 
Olivier Messiaen's ``Des canyons aux etoiles . . . (From the canyons to 
the stars . . .)'' with visual imagery by photographer Deborah O'Grady. 
Programming explored the relationship between art and nature, 
incorporating images of the National Parks that inspired the composer 
for the original 1971 commission to celebrate the bicentennial of the 
United States. O'Grady literally followed in Messiaen's footsteps to 
capture the breathtaking images from Cedar Breaks, Zion, and Bryce 
Canyon, among other locations. The cross-disciplinary concerts were 
presented in St. Louis, and then in Berkeley and Los Angeles as part of 
the SLSO's four-city California tour.
    The Boulder Philharmonic, which employs 73 musicians and a staff of 
eight people, is using its ``Imagine Your Parks'' grant to commission 
and premiere a new orchestral work by composer Stephen Lias, which will 
accompany projected images that showcase Rocky Mountain National Park. 
Concerts will take place in Boulder, Colorado, as well as at the 
Kennedy Center in Washington, DC next spring as part of the SHIFT 
Festival of American Orchestras. Ancillary events in both Colorado and 
DC will include interpretive musical hikes and public talks featuring 
the composer that examine the national parks legacy through a musical 
lens. For the inaugural SHIFT Festival, the Boulder Philharmonic is one 
of four orchestras, with each participant presenting education events, 
symposia, and community events in venues around Washington, DC, along 
with full-orchestra performances in the Kennedy Center Concert Hall.
NEA Funding Supports Bringing World-Class Artistry to Communities
    With the help of an Art Works grant, The Saint Paul Chamber 
Orchestra--comprising 38 full-time and 6 part-time staff members, and 
26 full-time musicians--will present contemporary works by an 
international array of composers such as George Crumb, Bryce Dessner 
and Nico Muhly (U.S.), Georges Enesco (Romania), Sir Michael Tippett 
(U.K.), Erkki-sven Tuur (Estonia), and Alberto Ginastera, Mauricio 
Sotelo and Manuel De Falla (Spain). The orchestra's 3-week performance 
project will feature guest artists Finnish violinist Pekka Kuusisto, 
Moldovan violinist Patricia Kopatchinskaja, Spanish mezzo-soprano Nerea 
Berraondo, and Spanish Flamenco dancer Ruben Olmo, and the project will 
be highlighted by the world premiere of Mauricio Sotelo's Red Inner 
Light Sculpture, a new work for solo violin, strings, and Flamenco 
dancer. Several pre-concert educational lectures will be offered as 
well, to provide audiences with additional context for and deeper 
engagement with the programming.
    The Louisville Orchestra, with a staff of approximately 21 
employees and 55 full-time musicians, will use its Art Works support to 
bring exceptional guest artists for a 3-week Festival of American Music 
created, curated, and conducted by music director, Teddy Abrams. The 
Festival will feature the orchestra alongside artists from across the 
country, encompassing a variety of musical genres including jazz, 
contemporary, popular music, and local music of the Kentuckiana region. 
The Festival will include concert previews before each show addressing 
the role of American orchestras and composers in the 21st century, as 
well as several community engagement events with schools and local 
businesses. The final week of the festival will include a world 
premiere of a piano concerto by Chase Morrin, featuring the composer as 
soloist.
    Showcasing the world-class musicianship of their home State, the 
Eugene Symphony will utilize its Art Works grant to present a series of 
new composition, performance, and mentorship opportunities for Oregon 
composers. In celebration of its 50th anniversary, the Eugene 
Symphony--which employs seven full-time and four part-time staff, and 
83 part-time musicians--will present the world premiere of a new piano 
concerto by Oregon composer Robert Kyr featuring Eugene-based pianist 
Alexandre Dossin. Kyr is also planning an integrated composition 
project for high school and graduate students, which will culminate in 
the creation of an orchestral theme and variations based on ``Ode to 
Joy'' from Beethoven's Ninth Symphony. The premiere of the jointly 
composed work will take place on a regular subscription program and for 
students at a youth concert in November 2016.
    Celebrating both local and international talent, the Dallas 
Symphony Orchestra received Art Works support for world premieres of 
works by two celebrated American composers, Jeremy Gill and Christopher 
Rouse. Gill's composition is written for the Dallas Symphony 
Orchestra's principal oboe Erin Hannigan, while Rouse's composition is 
a co-commission led by the Dallas Symphony Orchestra and shared with 
the Aspen Music Festival and the Nashville Symphony. Educational 
activities include participation by the composers in workshops, master 
classes, and school programs. Both works will be conducted by Jaap van 
Zweden, music director of the orchestra, which employs 65 full-time and 
20 part-time staff, and 91 musicians.
    Thank you for this opportunity to convey the tremendous value of 
NEA support for the communities served by orchestras throughout our 
country. Orchestras provide countless innovative collaborations, 
thoughtful programming for underserved communities, and lifelong 
learning opportunities in service to adults and children from all walks 
of life. As orchestras continually strive to bring the power and 
benefits of music to more people, we applaud the NEA's national 
leadership in promoting excellence and engagement with high quality 
artistry. Advancing the highest expectations for accessibility and 
artistry are among the strongest arguments for a Federal role in 
support of the arts, therefore we urge you to increase creativity and 
access to the arts by approving $155 million in funding for the 
National Endowment for the Arts in fiscal year 2017.
                                 ______
                                 
     Prepared Statement of the Little River Band of Ottawa Indians
    Chairman Murkowski, respected members of the subcommittee:

    The Little River Band of Ottawa Indians (LRBOI) is honored to 
present this testimony on behalf of our Nation and people, regarding 
our views and priorities for the fiscal year 2017 President's annual 
budget request.
    LRBOI is pleased with the ongoing commitment of the administration 
to Indian Country. President Obama's commitment to establishing a 
legacy respecting the sacred relationship forged by our treaties is 
evident in the appropriations requests for the Bureau of Indian Affairs 
(BIA) at $2.9 billion, and the Indian Health Services (IHS) of $5.2 
billion; fully $138 million and $377 million above the fiscal year 2016 
enacted levels. The increases demonstrate a long-standing commitment to 
promoting tribal sovereignty, and for LRBOI, it aligns with our mission 
to secure and promote the prosperity of future generations. LRBOI would 
like to thank the subcommittee for hearing the concerns of tribal 
leadership and our views regarding the impact of the administration's 
budget requests on our Nation's efforts to reach the outcomes we are 
all wishing to achieve--successful, safer and prospering `Native First 
Nations'.
    LRBOI would like to acknowledge the importance of the recently 
signed MOU between the Census Bureau and the BIA. We believe tribal 
communities have long been undercounted and inaccurately represented in 
Census data. We support the $12 million increase to the BIA to address 
these gaps in Indian Country and believe this measure is a key 
component to formulating a realistic budget.
    Since Reaffirmation in 1994, LRBOI has prioritized its economic 
development efforts, programs, and service delivery to enhance the 
standard of living of its members. Assisting LRBOI members to achieve a 
middle class economic standard has been an overarching goal since 
reaffirmation, and while gains are being made, persistent issues remain 
as reported in the previous fiscal year:

  --over half (56 percent) of tribal member households earn less than 
        $30,000 annually, compared to a mean household income of just 
        over $64,500 for Michigan residents;
  --less than 40 percent of LRBOI tribal members adults have achieved 
        education beyond a high school diploma, compared to nearly 60 
        percent of Michigan adults reporting some degree of higher 
        education;
  --\1/3\ of tribal members access one or more tribal assistance 
        programs annually--current enrollment stands at just over 4200 
        persons.

    LRBOI understands the challenges we face to assist our population 
out of poverty and into true individual self-determination. LRBOI is 
pleased with the ongoing commitment to make affordable housing 
available through the Native American Housing Assistance and Self-
Determination Act (NAHASDA); we have built 55 high quality housing 
opportunities as a result of this Act to address the needs of our 
Elders, lower income and working families. LRBOI requests that the 
subcommittee continue to make these funds available to us, as our needs 
are increasing year to year with the return of our people to our 
homelands; we presently have an unmet need of 35 homes for our 
returning families.
    LRBOI was also pleased with the increases to healthcare, 
specifically the commitment to fully fund contract support costs, which 
reduces the need to redirect other program funds to meet our costs of 
providing services. LRBOI appreciates the administration's move of 
Contract Support Costs from discretionary to a mandatory appropriation. 
This change presents an opportunity for the Federal Government to 
comply at long last with the decisions in the Cherokee, Arctic Slope 
and Ramah Supreme Court cases. LRBOI cautions that the proposed proviso 
limiting carry-over is not consistent with the Indian Self-
Determination and Education Assistance Act and should be eliminated. In 
addition, the increases to patient services will allow us to continue 
to implement direct services; we are on schedule to implement pharmacy 
service to our members in 2016--a direct result of services and 
contract support cost increases.
    LRBOI also notes that funds dedicated to Generation Indigenous, 
``Gen-I'' will assist us to build stronger programs to address our at-
risk youth populations and strengthen our family support systems. You 
heard us when we asked that these types of funds become a formula-based 
tribal priority allocation putting all tribes within reach of this 
needed assistance. Creating government-wide collaboration placing 
priority on ``all of the Federal Government'' to assist in the 
preservation of our most precious resource, Native American Youth, is 
achievable and commendable.
    There are some areas that are near and dear to us; and we wish to 
bring them to the attention of the Committee.
    Language and culture are the cornerstone of the unique identity of 
Indian peoples; the protection of our way of life is critical to our 
individual identities, our Community prosperity and most importantly, 
our children's future. These are the guides of our governance as 
nations. The preservation of our sacred lands and objects, including 
the repatriation of our ancestors to our homelands is our highest 
responsibility. LRBOI would like to see future appropriations for the 
Tribal Historic Preservation Officer (THPO) increase to allow tribes to 
appropriately staff and more importantly, continue to provide 
opportunities for our people to engage in language-immersion 
instruction and culturally based community events that reinforce our 
identity as Little River Band Ottawa; the Anishinabek peoples. The 
beauty of our culture is found in our language; it guides our daily 
life, preserves our identity and provides a foundation for our youth in 
the development of who they are as individual Anishinabek persons. Our 
language and culture keeps us strong, drug and alcohol free and family 
oriented. The present budget request of $15 million towards language 
and culture preservation is not enough for 566 federally recognized 
Tribes. LRBOI must write a successful grant proposal to even access 
funds to assist our efforts. A better approach to ensuring the 
preservation of the unique language, culture, sacred lands and objects 
that make us who we are, would be to implement a government wide 
initiative similar to Gen-I. It's time to rewrite the priorities and 
place emphasis on the United States' `First Nations.' It's time to 
restore the very things that were taken from us by assimilation. It's 
time to repatriate our language and ceremonies back to us by increasing 
the appropriation to $30 million. We also need a set aside to allow our 
THPO officer to meet our requirements and respond to inquiries 
regarding the National Historic Preservation Act (NHPA) Section 106 
matters. We are pleased to inform the subcommittee that our THPO 
Officer has been recognized by the Governor of Michigan for our 
government to government collaboration. LRBOI responds to nearly 300 
inquiries annually with one THPO Officer and two staff. Section 106 
requirements are a full-time obligation that could easily employ the 
skills of an engineer and archaeologist. I'm proud to say our staff 
fill those roles, and manage to provide cultural education, ceremonial 
and language opportunities for our people in addition to Section 106 
compliance.
    Our LRBOI Anishinabek culture's foundation is in the 
``KchiiGaamii'' or Great Lakes that surround our lands. LRBOI is part 
of the Three Fires Nations; we live in the area on our `Turtle Island' 
as directed to us long ago--`settle in the place where food grows on 
water.' This food is critical to our people; it is known as wild rice. 
Our current efforts to preserve wild rice beds, restore wild rice 
habitat and enhance growing opportunities for LRBOI member harvests is 
also impacted by three factors; the quality of the fresh water it grows 
in, the overall climate of the region and the invasion of non-native 
plant species such as purple loose-strife and phragmytes. Presently, 
LRBOI receives an Environmental Protection Agency (EPA) multi-year 
grant under the Great Lakes Restoration Initiative (GLRI) that assists 
our wild rice re-introduction, restoration and existing source 
management efforts. Combined with Bureau of Indian Affairs (BIA) funds, 
LRBOI is making an effort to protect existing wild rice beds within our 
Ceded Territory watersheds, establish harvesting education programs and 
reduce the incidence of invasive species and their impact on the 
habitat. LRBOI recommends increasing the existing EPA GLRI 
appropriation to $10 million from the $3 million requested in the 
fiscal year 2017 budget as there are 36 tribes in our region with 
similar cultural preservation aspirations. LRBOI also recommends 
increasing the BIA Invasive Species Program from $10 million to $15 
million. The biologists working on our wild rice and habitat 
restoration efforts have indicated the biggest threats to our region 
for all Natural Resources are climate change, land management, farming 
and the siphoning of fresh water for activities such as fracking for 
gas and oil exploration. LRBOI asks the subcommittee to consider the 
protection of water quality to be a long-term priority. We are very 
aware of the crisis this year in Flint, Michigan and the threat to 
clean, safe drinking water--LRBOI donated $10,000.00 to the Flint 
Children's Fund to assist with ongoing lead testing for Flint's 
children as they continue to discover the far reaching impact of the 
contaminated water the people of Flint were consuming. We are very 
proud of our effort to assist the children of Flint and ask the 
subcommittee to take measures in this budget request to protect the 
fresh water resource that is the Great Lakes Basin.
    Finally, by its own admission, the administration's funding request 
for the Road Maintenance Program for fiscal year 2017 will permit 
tribes to maintain only 16 percent of BIA-owned roads and 62 percent of 
BIA-owned bridges in ``acceptable'' condition. In Michigan, the 
condition of our roads and bridge infrastructures impacts our economy, 
the quality of life in or territory and the communities surrounding it. 
The current appropriation requests would leave 8 out of 10 BIA-owned 
roads and nearly 4 out of 10 BIA-owned bridges with funds to maintain 
them in their current poor or failing condition. This is a life-safety 
issue. Most of these routes are gravel and earthen school bus routes 
that require more frequent maintenance than paved roads. We urge the 
subcommittee to add an additional $9 million to the Road Maintenance 
Program out of planned increases for the Interior Department for fiscal 
year 2017. Doing so will increase the percentage of BIA-owned roads and 
bridges maintained to an ``acceptable'' condition. In our territory, 
encompassing over 70,000 `reservation set-aside' acres, and just over 
13 million acres of `Ceded Territory' over which we have Natural 
Resources enforcement jurisdiction, failing roads impact our watersheds 
and habitats. The additional funds if appropriated would do much to 
protect those resources and habitats.
    LRBOI appreciates many of the proposed increases in the President's 
fiscal year 2017 budget. We see the positive impact of ongoing 
meaningful consultation that is occurring through the Tribal Interior 
Budget Council and National Budget Formulation Workgroup. We urge the 
subcommittee to continue to support the efforts of these tribally 
driven bodies to inform the work of the administration and, ultimately, 
Congress. We also believe in the partnership that continues to evolve 
out of the Federal Indian trust relationship. The United States and its 
`Native First Nations' truly do share a ``sacred bond'' borne from 
treaties--a mutual exchange for the benefit of both, our respective 
lands and nations.
    Little River Band appreciates the opportunity to present this 
testimony to the subcommittee on these important matters.

KchiMiigwech (Many Thanks)
Gdagaanaagaanik (All Our Relations)
                                 ______
                                 
          Prepared Statement of the Lower Elwha Klallam Tribe
    Chairman Calvert, members of the subcommittee and the distinguished 
gentleman from Washington State, Congressman Kilmer. I am Frances 
Charles, Chairwoman of the Lower Elwha Klallam Tribe, an elected 
position that I have been honored to hold for the past 11 years. Thank 
you for providing me this opportunity to testify on the Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS) budgets for fiscal 
year 2017. My testimony identifies our most urgent tribal-specific 
funding needs at the Lower Elwha Klallam Tribe. We are also supporting 
some regional and national budget requests which will also benefit the 
Lower Elwha citizens and community.
         tribal-specific requests for lower elwha klallam tribe
Bureau of Indian Affairs $5.43 Million

    1.  $4.972 Million Dam Removal and Fisheries Restoration--Public 
Law 102-495, Elwha River Ecosystem and Fisheries Restoration Act
       a.  $702,000--Salmon Hatchery O&M
       b.  $270,000--Flood Control Levee O&M
       c.  $4 million--Land Acquisition
    2.  $267,000--Tribal Court Enhancement and Implementation of TLOA 
and VAWA.
    3.  $191,000--Tiwahe Initiative--Tribe seeks to assert jurisdiction 
in its own court system over all cases arising under the ICWA and to 
become a licensing agency for foster homes.

Indian Health Service $500,000--Mental Health and Chemical Dependency 
programs
                   fiscal year 2017 regional requests
    The Lower Elwha Klallam Tribe supports the fiscal year 2017 budget 
priorities of the Northwest Indian Fisheries Commission, Affiliated 
Tribes of Northwest Indians and the Northwest Portland Area Indian 
Health Board.
                   fiscal year 2017 national requests
    The Lower Elwha Klallam Tribe supports the fiscal year 2017 budget 
priorities of the National Congress of American Indians and National 
Indian Health Board.
Contract Support Costs--Past, Present and Future
    As a Self-Governance Tribe, Lower Elwha has been impacted by the 
Federal Government's refusal to pay full contract support costs (CSC) 
to tribes for contracted and compacted programs for the past two 
decades. In 2014 and 2015, the Supreme Court determined that tribes 
were entitled to CSC. The IHS and BIA began to settle past claims with 
tribes. In addition Congress directed the agencies to find a long-term 
solution to CSC as well as directed them to pay full CSC for 2014 and 
2015. The game-changer going forward was the ground breaking decision 
by Congress in Public Law 114-113, Consolidated Appropriations Act, 
2016 to support the administration's proposal to create a new account 
in the appropriations bill specifically for CSC in 2016 and 2017. While 
we are truly grateful for the progress to date in paying past, present 
and future CSC to tribes, there is a proviso in the fiscal year 2017 
budget proposal which counters current law. The proviso states that 
``CSC amounts that are not expended by a tribe or tribal organization 
in the current fiscal year be applied to contract support costs 
otherwise due in subsequent fiscal years.'' This language should be 
removed because the Indian Self-Determination Education and Assistance 
Act (ISDEAA) already address use and disposition of unexpended contract 
and compact funds. Therefore, Lower Elwha requests that the 
subcommittee deem this provision unnecessary and discontinue it.
    We also support the administration's proposal to fully fund CSC on 
a mandatory basis in fiscal year 2018-2020, though we would prefer that 
it begin in fiscal year 2017 and, of course, that it be a permanent, 
indefinite appropriation.
The Lower Elwha Klallam Tribe
    The Lower Elwha Indian Reservation is located at the mouth of the 
Elwha River where it empties into the Strait of Juan de Fuca on the 
North Coast of the Olympic Peninsula, about 8 miles west of the City of 
Port Angeles, Washington. We are a small tribe, with roughly 1,000 
members, and a total land base--reservation and adjacent trust lands--
of about 1,000 acres. To date, our economic development opportunities 
have been limited and we believe our long-term prospects are tied to 
natural resources restoration and preservation in an ecologically rich 
region where an extraction-based economy is well past its prime.
$5.43 Million--Bureau of Indian Affairs Elwha
    1. $4.972 Million--Dam Removal and Fisheries Restoration--Lower 
Elwha is a salmon people with fishing rights reserved in the 1855 
Treaty of Point No Point. We fish in marine waters and in the rivers 
and streams throughout our usual and accustomed treaty fishing area, 
including the Elwha River. We are strongly committed to the restoration 
of fisheries, fish habitat, streams and rivers, and the Port Angeles 
Harbor. We are the leading advocate for the removal of the two hydro-
electric dams on the Elwha River--which is now nearly complete--and in 
accordance with Congress's direction in the Elwha River Ecosystem and 
Fisheries Restoration Act of 1992 (Elwha Act), Public Law 102-495, we 
are working closely with the National Park Service and other agencies 
to remove the dams, and restore the once famously abundant Elwha River 
runs of salmon and steelhead. Unfortunately, removal of the dams caused 
a short term threat to the salmon runs (due to sediment released from 
behind the former dam sites) and has adversely impacted our small 
tribal land base and our tribal budgets. We urgently need increased 
Self-Governance funds to support the operation of dam removal 
mitigation and restoration features and to revive our other Self-
Governance activities from which we have been forced to transfer funds 
to support dam removal mitigation.
    a. $702,000--Salmon Hatchery O&M Costs--Fish Hatchery Operations 
Budget for the ongoing operation and maintenance (O&M) of our state-of-
the-art hatchery, which went online in 2011. This is a significant 
increase of $601,929 annually, but one that is amply justified by the 
crucial role that our hatchery serves in dam removal and fishery 
restoration. Our hatchery is a genetic preserve for native Elwha 
salmonids, which have been on the verge of extirpation from the impacts 
of the dams and which have been further threatened by the enormous 
sediment load unleashed by the removal of the dams. The National Marine 
Fisheries Service (NMFS) would not have approved dam removal under the 
Endangered Species Act without the hatchery's native salmonid programs. 
The tribe should not have to bear the O&M cost of this important 
restoration facility that in fact benefits the entire region.
    b. $270,000--Flood Control Levee O&M Costs--The levee on our lands 
had to be expanded prior to dam removal in order to protect tribal 
lands from the newly unleashed Elwha River and to conform to post-
Hurricane Katrina standards--clearly it is a mitigation feature of the 
dam removal project. In passing the Elwha Act in 1992, Congress 
intended that courts should not be asked to address problems where 
legislative solutions would be far superior in covering all the bases. 
Factoring in the inflation rate since 1992 compared to 2016, it is not 
fathomable that we currently receive only $10,400 annually to operate 
this levee.
    c. $4 million for Land Acquisition--The Elwha people have struggled 
for a century from the harm to their culture and economies caused by 
the Elwha River dams. We had to endure the delays in starting the dam 
removal process, we watched the destruction of not only the fisheries 
but the treaty fishers themselves with the loss of our traditional and 
cultural livelihood, and we have lost an opportunity--which will only 
return after another generation--to teach our children the ways of 
their ancestors and the Elwha life as designed by the Creator. We 
struggle every day to maintain a lifestyle that has been altered 
forever because of the impact this has had on our community. Section 
7(b) of the Elwha Act authorized the appropriation of $4 million so 
that the Secretary could acquire trust lands for the tribe in 
reservation status in Clallam County, Washington, for economic 
development and housing. These funds have not yet been appropriated and 
the lands they could provide are desperately needed to revive the lives 
of the Elwha people.
    In 1934, an Interior Department report concluded that the 
reservation should be 4,000 acres (for far fewer tribal members than we 
have today), but currently we have only 1,000 acres, several hundred of 
which (on the river's side of the levee) have to be maintained in 
undeveloped state as floodplain habitat. In addition, we need 
legislative direction to ensure that former hydro-project lands are 
transferred to the tribe as contemplated in Section 3(c)(3) of the 
Elwha Act.
    2. $267,000--Funding for Tribal Court Enhancement and to implement 
TLOA and VAWA. Although the Interior Department and the tribe have 
identified tribal court enhancement as a high priority, Lower Elwha has 
been unable to adopt the enhanced sentencing provisions authorized by 
the 2010 Tribal Law and Order Act of 2010 or to exercise expanded 
Domestic Violence Criminal Jurisdiction under the 2013 Violence Against 
Women Act because of the lack of adequate base funding for its tribal 
court development. Requested funding will enable our tribe to do so by 
providing for: (a) mandatory criminal defense representation (including 
basic legal assistance for domestic violence victims and representation 
for parents); (b) detention services; (c) probation services that focus 
on solutions and restorative justice by sharing coordinated case 
management and re-entry referrals; and (d) basic court security. Fully 
funding of TLOA mandated provisions and increased base funding for our 
tribal court will enable Elwha to benefit from: BIA regional 
assessments using the Trial Court Program Standards; specific technical 
assistance and training identified through assessments; targeted 
training initiatives for specific tribal court personnel (judges; 
prosecutors; public defenders); development of tribal court bench 
books; identification of funding sources for pilot court programs; 
captured data covering criminal pre-trial matters to post-conviction 
issues, and including, any collateral civil legal issues.
    3. $191,000--Funding for ICW-related services from BIA's Tiwahe 
(Family) Initiative. Lower Elwha is facing a community crisis with the 
increasing number of child abuse/neglect cases, which stem from 
inordinately high rates of drug/substance abuse by parents or 
caregivers. Services in all facets of tribal government are severely 
impacted by this reality. A coordinated community response must be 
based on multi-disciplinary, culturally informed case planning and 
service delivery, coupled with a strong commitment to restorative 
justice ideals and solutions-based sentencing (in criminal cases). A 
major obstacle to implementing this approach is our lack of 
infrastructure to assume jurisdiction over all local cases clearly 
arising under the Indian Child Welfare Act; in addition, because we are 
dependent on an inadequate State system for licensing foster care 
providers, we are often unable to make proper placements to assist our 
families. The tribe currently receives only $45,000 in Self-Governance 
for Indian Child Welfare matters. We seek $191,000 additional annual 
funding from the BIA's Tiwahe (Family) Initiative, which would enable 
the tribe to assert jurisdiction in its own court system over all cases 
arising under the ICWA and to become a licensing agency for foster 
homes.

Indian Health Service Elwha Tribal-Specific Funding Requests--$500,000 
for Elwha Health Department Programs.

    Lower Elwha faces a drug abuse and mental health crisis of epidemic 
proportions that threatens to destroy the potential and the cultural 
connections of many tribal members. In fiscal year 2015, the Tribe's 
Mental Health and Chemical Dependency programs served 272 American 
Indian or Alaskan Native patients and have the potential to reach 
approximately 1,500 AI/AN beneficiaries within Clallam and Jefferson 
County. The tribe currently subsidizes its chemical dependency program 
with third-party revenue and gaming revenue to fund prevention health 
initiatives and chemical dependency programs, leaving these critical 
health epidemics severely underfunded. To remedy this, the Center for 
Medicare and Medicaid Services formula must be expanded to inpatient 
chemical dependency treatment programs at the current encounter rate of 
$350 per day, with annual increases.
                               conclusion
    The Lower Elwha Tribe has unique needs arising from our leading 
role in fisheries restoration, which will provide long-term economic 
benefit to the entire North Olympic Coast region. We have been a strong 
partner with numerous Federal agencies but the agencies have not fully 
addressed the unique impacts on our tribe of the dams and their 
removal.
    Thank you for your consideration.
                                 ______
                                 
               Prepared Statement of Laurain Magilacutty
    Dear Senators:

    As an American citizen and taxpayer, I strongly oppose the BLM's 
proposal to conduct dangerous sterilization experiments on wild mares 
at the Wild Horse Corral Facility in Hines. According to the 
Environmental Assessment (EA), the BLM is deciding whether or not to 
proceed with one or more of the proposed sterilization procedures. The 
weight of scientific evidence and public opinion clearly supports a BLM 
decision NOT to proceed with any of these sterilization procedures.
    The sterilization procedures that BLM is proposing to conduct on 
federally protected wild mares are dangerous, costly and impractical 
for use in the field, due to the serious health risks they pose to the 
horses and their unborn foals, and also due to the great expense of 
purchasing the equipment and training the number of veterinarians 
necessary to implement these procedures on the range.
    It makes no sense to spend millions of taxpayer dollars on these 
risky invasive experiments when proven, humane, and relatively 
inexpensive fertility control technology in the form of the PZP vaccine 
is readily available but vastly underutilized by the BLM.
    The EA is completely inadequate in analyzing the impacts of these 
experimental procedures on mares. In addition, the BLM has deliberately 
avoided public opposition to this controversial and grotesque research 
proposal by skipping the scoping stage of the environmental analysis 
process. As a result, the public has been deprived of the opportunity 
to provide input into the impacts of and alternatives to these 
procedures that must be analyzed under the rules of the National 
Environmental Policy Act.
1.  Ovariectomy via Colposcopy
    This is an outdated and archaic procedure that has been supplanted 
by more modern laparoscopic surgery. The EA fails to analyze the 
impacts of and alternatives to this procedure to mares and never once 
mentions the availability of more modern techniques! This proposed 
sterilization experiment is an intra-vaginal complex surgical 
procedure, which is hardly ever performed in domestic horses (never 
mind in wild ones), due to its inherently dangerous risks.

  --The blind nature of this surgery increases the risk of intra-
        abdominal hemorrhage, but the EA never even addresses this 
        issue or the availability of more modern laparoscopic 
        techniques that allow the surgeon to visualize the abdominal 
        structures.
  --The lack of a sterile environment subjects the mares to a high risk 
        of infection, something that is ignored by the EA.
  --The procedure carries with it a significant risk of hemorrhage and 
        evisceration (protrusion of the intestines through the surgical 
        incision), which is why it requires strict follow-up care when 
        used in domestic horses, including pain relief and 4-7 days of 
        stall rest, the first 48 hours of which is spent in crossties 
        to prevent the mare from lying down. It is not possible to 
        provide this required post-operative care to wild mares, yet 
        the EA minimizes the impacts of this fact, citing the opinion 
        of an un-named veterinarian, instead of the published science 
        and National Research Council review, which clearly indicate 
        the risks and impacts of this outdated procedure on wild mares.
  --The procedure will cause mares in early stages of pregnancy to 
        abort their fetuses and may cause loss of pregnancy for mares 
        in the mid-stage of pregnancy as well. This is unacceptable.

    This pursuit of ovariectomy research is directly counter to the 
recommendations of the National Academy of Sciences National Research 
Council (NRC) in its 2013 report, ``Using Science to Improve the BLM 
Wild Horse and Burro Program: A Way Forward.'' That NRC report 
concluded that: ``The possibility that ovariectomy may be followed by 
prolonged bleeding or peritoneal infection makes it inadvisable for 
field application.''
2.  Minimally Invasive Sterilization Techniques
    The other sterilization procedures that BLM proposes to research, 
while less invasive than ovariectomy, should also be abandoned due to 
the inability to provide post-operative care and the impracticality of 
implementing these procedures--which have never before been done in 
wild or domestic horses--on a broad scale in a field setting. The EA 
fails to analyze the impacts of precedent-setting procedures that have 
never before been performed in horses, and as well as the inability to 
provide required post-operative care. The EA also omits analysis of the 
economic impacts and practicalities of implementing these procedures on 
the range.
    In proceeding with these experiments, the BLM has ignored the NRC 
recommendation that these techniques should first be perfected in 
domestic mares, who can be easily handled and will be accessible for 
close monitoring and post-operative care, before attempting them in 
wild horses.
    It is unconscionable that the BLM is proceeding with these 
draconian experiments that endanger the lives of the un-consenting 
equine subjects and their unborn foals, particularly when a proven non-
invasive and safe fertility control method exists in the readily 
available PZP birth control vaccine. Instead of wasting millions of tax 
dollars to fund experiments on inhumane and impractical sterilization 
experiments, the agency should instead focus resources on vaccinating 
sufficient numbers of mares with the PZP fertility control vaccine, 
which is documented through 30 years of experience and published 
science, to be safe, effective, cost-effective and successful in 
managing wild horse populations.
    Again, as a taxpayer and wild horse lover, I am outraged that the 
BLM is even considering pursuing such inhumane, barbaric and wasteful 
experimentation on wild horses and I find the BLM's Environmental 
Analysis of its impacts to be woefully inadequate. As a result, I 
strongly urge the BLM to abandon these proposed experiments in favor of 
using proven, more cost-effective and humane fertility control methods.
                                 ______
                                 
             Prepared Statement of the Maniilaq Association
    Summary. The Maniilaq Association is an Alaska Native tribal 
organization representing 12 tribes in Northwest Alaska. We provide 
health services through a self-governance agreement with the Indian 
Health Service (IHS) and social services through a self-governance 
agreement with the Bureau of Indian Affairs (BIA). We make the 
following recommendations regarding fiscal year 2017 IHS and BIA 
funding:

  --Increase funding for the Village Built Clinic leases in Alaska by 
        at least $12.5 million and make it a line item in the IHS 
        budget.
  --Make full Contract Support Costs funding for the IHS and BIA 
        mandatory, and ensure there are no provisos on indefinite CSC 
        funding that conflict with the carryover funding authority 
        provided by the Indian Self-Determination and Education 
        Assistance Act.
  --Fund the IHS budget on an advanced appropriations basis.
  --Support the proposed increases in mental health, suicide prevention 
        and substance abuse spending in the IHS and BIA budgets.
Village Built Clinics
    For many years now, Maniilaq has submitted testimony to the 
subcommittees regarding the need to address the chronic underfunding of 
our Village Built Clinic (VBC) facilities. We appreciate the inclusion 
of language in the fiscal year 2016 Consolidated Appropriations Act, 
providing that ``. . . $2,000,000 shall be used to supplement funds 
available for operational costs at tribal clinics operated under an 
Indian Self-Determination and Education Assistance Act compact or 
contract where healthcare is delivered in space acquired through a full 
service lease, which is not eligible for maintenance and improvement 
and equipment funds from the Indian Health Service[.]'' While the 
language is not specific to VBCs, we understand that the $2 million was 
intended for VBCs.
    We also appreciate that the administration has also requested for 
fiscal year 2017 a $9 million increase for tribal clinic leases, on top 
of the $2 million provided in fiscal year 2016 funds. Approval of this 
request would finally help stabilize the desperately needed village-
based care that is crucial in Alaska.
    The VBCs are essential for us to maintain the Community Health Aide 
Program (CHAP) in Alaska. As you know, CHAP is mandated by Congress as 
the instrument for providing basic health services in remote Alaska 
Native villages and often provides the only local source of healthcare 
for Alaska Native people in rural areas. We cannot overstate the 
critical role of village built clinics in Alaska. Lease rental amounts 
for the VBCs have failed to keep pace with costs--the majority of the 
leases for VBCs have not increased since 1989 and the IHS until this 
year resisted proposals to increase their funding. As a result, many of 
the VBCs are unsafe or have had to be closed, leaving some villages in 
Alaska without a local healthcare facility.
    In addition, the President's proposed fiscal year 2017 clinic lease 
bill language may need some clarification, depending on IHS's 
interpretation, concerning the references that healthcare be delivered 
in a space acquired through a ``full service lease''. In some cases 
tribes--including the Maniilaq Association--receive VBC funding as part 
of their recurring base, and so the IHS no longer has ``full service 
leases'' in place for those clinics. We know that the Appropriations 
Committees do not intend to limit VBC eligibility based on unclear 
terminology.
    In sum, these amounts are a step in the right direction but the 
2105 ANHB study that analyzed the funding deficiency statewide for 
these facilities identified an increased need of $12.5 million 
increase. We urge that the full amount needed be appropriated. We also 
support maintaining this funding as a line item in the bill.
Contract Support Costs Mandatory Funding
    Maniilaq appreciates the bipartisan support of the Interior 
appropriations subcommittees for full funding of Contract Support Costs 
(CSC). We very much appreciate the funding of CSC in fiscal year 2016 
at an indefinite (``such sums as necessary'') amount, which has helped 
to ensure that CSC would be fully funded without having to reprogram 
funding for critical healthcare services and other programmatic funding 
to cover the CSC need. Maniilaq continues to believe that the 
indefinite appropriation of CSC funding must be made mandatory and 
permanent. We thus support the administration's proposal to move CSC 
funding to a mandatory funding basis, although we would like it to 
begin in fiscal year 2017 rather than waiting until fiscal year 2018. 
We plan to reach out to and work together with the Senate Committee on 
Indian Affairs and the House Natural Resources Committee in order to 
determine the best way to reach our goal for CSC funding to be made 
indefinite, permanent and mandatory. We ask for this subcommittee's 
support for such mandatory CSC funding.
    Should CSC funding not be made mandatory in fiscal year 2017, we 
otherwise are supportive of the President's request for an 
appropriation of ``such sums as may be necessary,'' with an estimated 
$800 million for CSC for the IHS, and an estimated $278 million for the 
BIA, in separate accounts in both the IHS and BIA discretionary 
budgets. However, we do not agree with the continued insertion of a 
proviso that could effectively deny the carryover authority granted by 
the Indian Self-Determination and Education Assistance Act for fiscal 
year 2017 and thereafter. We thus request the removal of the following 
proviso: ``amounts obligated but not expended by a tribe or tribal 
organization for contract support costs for such agreements for the 
current fiscal year shall be applied to contract support costs 
otherwise due for such agreements for subsequent fiscal years.''
IHS Advance Appropriations
    The Maniilaq Association continues to work toward a transition of 
the IHS budget to an advance appropriations basis. Over the past 
several fiscal periods, appropriations have been enacted well after the 
beginning of the Federal fiscal year: 2.5 months in both fiscal years 
2016 and 2015, 3.5 months in fiscal year 2014, and 6 months in fiscal 
year 2013. Following enactment, it takes a few months before funds are 
cleared through the Office of Management and Budget, allocated to the 
IHS Area Offices, and then finally provided to the tribes and tribal 
organizations.
    Both the tribal and IHS programs suffer under this situation. We 
need to be able to do the best job possible in planning, decisionmaking 
and administering programs, but we are impeded in our ability to do so 
because we do not know how much funding will be made available or when 
we will receive it. This uncertainty requires us to constantly re-work 
our budget and delay recruiting and hiring decisions, when we should be 
devoted to providing the best health services possible. These delays 
also ultimately cost us more money, since we are not able to take full 
advantage of buying items in bulk for lower cost, such as our heating 
fuel.
    We are asking that Congress appropriate IHS funds on an advance 
basis, just as it does for the Veterans Administration (VA) medical 
accounts funding. In the proposed fiscal year 2016 budget (fiscal year 
2017 advance appropriations) for the VA, the administration justifies 
advance funding for the VA on the basis of providing timely, high-
quality healthcare for the Nation's veterans, and reiterates this 
justification in the proposed fiscal year 2017 budget. Our need for 
timely and predictable funding is no less great than it is for the VA.
Alcohol & Substance Abuse Treatment, and Behavioral Health, Suicide 
        Prevention
    The administration's request includes $25 million in program 
increases for mental health. Of that amount, $21.4 million would be for 
a behavioral health integration initiative, for which tribes and tribal 
organizations would be eligible to seek funding for the expansion of 
their behavioral health services to areas outside of the traditional 
healthcare system; training; hiring behavioral health staff; and 
community-based programs. Another $3.6 million in the proposal would be 
for funding pilot projects to implement the ``Zero Suicide 
Initiative.'' The overwhelming majority of the people we lose to 
suicide suffer from diagnosable, treatable mental health or substance 
abuse problems. However, the waiting list for treatment averages nearly 
9 months, and due to lack of funding there is often no place to refer 
people, particularly young people. We therefore request your support 
for funding the $25 million program increase for these critical 
programs.
    We also appreciate the $10 million appropriated in fiscal year 2016 
for the Generations Indigenous (Gen-I) initiative, which provides 
increased resources for tribes to address youth behavioral, mental 
health and substance abuse issues. This funding is critical for the 
hiring of staff to provide more services and prevention programs for 
our youth. We ask for your support to fund the expansion of the Gen-I 
program in fiscal year 2017. For the IHS, the administration is 
requesting a $16.8 million increase focused on youth: $15 million to 
expand Gen-I for additional staffing and $1.8 million for a pilot 
program that would provide a continuum of care for youth after 
discharge from a Youth Regional Treatment Center. For the BIA the 
proposal includes an increase of $21 million to expand the Tiwahe 
Initiative designed to address the inter-related problems of poverty, 
violence and substance abuse faced by Native communities, including 
$12.3 million for social services programs designed to provide 
culturally appropriate care. We ask for your support for this funding.
    The President's proposal also includes 2-year mandatory funding of 
$10 million in fiscal year 2017 to expand the number of behavioral 
health professionals providing services in Indian communities, and $15 
million to provide assistance ``to prevent reoccurrences to tribes 
experiencing behavioral health crises including specialized crisis 
response staffing, technical assistance, and community engagement.'' 
This funding and these programs are desperately needed in our 
communities. Increased behavioral health staffing is a necessity in 
order to save lives. We are committed to working together with the 
Senate Committee on Indian Affairs and the House Natural Resources 
Committee and any others to develop legislation to support these 
proposals.
Other
    We wish to join others in Indian Country in supporting the 
permanent authorization of the Special Diabetes Program for Indians; 
funding for annual built-in costs for medical and non-medical 
inflation, pay increases, and population growth; and the establishment 
of Medicare-like Rates for non-hospital services, thus stretching our 
otherwise limited Purchased/Referred Care funds.
    Thank you for your consideration of our views.
                                 ______
                                 
         Prepared Statement of the Metlakatla Indian Community
    Summary. The requests of the Metlakatla Indian Community for fiscal 
year 2017 are:

  --Support Contract Support Cost (CSC) funding as being a separate, 
        indefinite appropriation; remove the proviso potentially 
        limiting carryover authority for CSC; and support permanent and 
        mandatory CSC funding.
  --Exempt the IHS from any future sequestration, as Congress has done 
        for the Veterans Health Administration programs.
  --Permanently authorize the Special Diabetes Program for Indians.
  --Substantially increase funding for BIA Natural Resources 
        Management.

    The Metlakatla Indian Community (Tribe) is located on the Annette 
Island Reserve in southeast Alaska, a land base of 87,000 acres. 
Through our Annette Island Service Unit we provide primary health 
services at our outpatient facility through funding from the IHS as a 
co-signer to the Alaska Tribal Health Compact under the Indian Self-
Determination and Education Assistance Act. We have significant fish 
and forestry resources, but as noted elsewhere in this testimony, we 
require more resources to fully manage them.
    Contract Support Costs (CSC).--We appreciate the change made to 
funding of CSC in the fiscal year 2016 appropriations act, which made 
the fiscal year 2016 CSC funding for an indefinite amount. This shift 
helped to ensure that CSC would be fully funded without having to 
reprogram funding for critical healthcare services and other 
programmatic funding to cover the CSC need.
    For fiscal year 2017, we support the President's request for an 
appropriation of ``such sums as may be necessary,'' with an estimated 
$800 million for CSC for the IHS, and an estimated $278 million for the 
BIA, in separate accounts in both the IHS and BIA discretionary 
budgets. However, we request the removal of the following proviso: 
``amounts obligated but not expended by a tribe or tribal organization 
for contract support costs for such agreements for the current fiscal 
year shall be applied to contract support costs otherwise due for such 
agreements for subsequent fiscal years.'' This proviso, which we 
understand the IHS proposed be included in the fiscal year 2016 
appropriations language, is problematic because it could be misread to 
effectively deny the carryover authority granted by the Indian Self-
Determination and Education Assistance Act. We thus ask that the 
proviso be removed for fiscal year 2017 and thereafter.
    The Tribe's long-term goal, however, remains that the indefinite 
appropriation of CSC funding be made mandatory and permanent. Under the 
Indian Self-Determination and Education Assistance Act, the full 
payment of CSC is not discretionary; it is a legal obligation, affirmed 
by the U.S Supreme Court. Funding of CSC on a discretionary basis has 
placed the House and Senate Committees on Appropriations, in their own 
words, of being in the ``untenable position of appropriating 
discretionary funds for the payment of any legally obligated contract 
support costs.'' We are committed to working together with the Senate 
Committee on Indian Affairs and the House Natural Resources Committee 
to determine how best to achieve that goal. We also ask for the 
subcommittees' intervention with the Budget Committee and any others 
that may influence this proposal for mandatory CSC funding.
    Sequestration.--We continue to ask that IHS funding be exempt from 
sequestration, as is the Veterans Health Administration (VA) programs. 
We understand that a number of members of Congress previously indicated 
that it was an oversight that IHS was not exempt from sequestration in 
the past and that the oversight should be corrected. The VA was made 
fully exempt from sequestration for all programs administered by the 
VA. See Sec. 255 of the Balanced Budget and Emergency Deficit Control 
Act (BBEDCA), as amended by Public Law 111-139 (2010). Also exempt are 
State Medicaid grants and Medicare payments, which are held harmless 
except for a 2 percent reduction for administration of the program. We 
thus strongly urge the subcommittee to support an amendment to the 
BBEDCA to fully exempt the IHS from any future sequestration.
    Special Diabetes Program for Indians.--While we understand that the 
Special Diabetes Program for Indians (SDPI) is not part of the IHS 
appropriations process, the SDPI funds are administered by the IHS. The 
current authorization and funding for the SDPI expires at the end of 
fiscal year 2017. The SDPI provides crucial funding for diabetes 
treatment and prevention programs for Alaska Natives and American 
Indians, among whom diabetes is an epidemic. As we have expressed in 
the past, the SDPI is an indispensable program that has shown 
identifiable, significant outcomes--both in terms of access to 
treatment and prevention. We support the administration's proposal that 
the SDPI be permanently authorized, and hopefully at an increased 
amount. SDPI has been flat funded at $150 million for many years. We 
ask for your support of the efforts to pass such an authorization as 
quickly as possible--well in advance of the SDPI's expiration in 
September, 2017--so that these critical programs can continue to 
provide uninterrupted care and our contracts can be renewed without 
disruption and loss of expertise.
    BIA Natural Resources Funding.--Metlakatla has the only reservation 
(Annette Island Reserve) within the State of Alaska--87,000 acres, plus 
the marine waters 3,000 feet out from the shorelines of Annette 
Islands. We did not participate in the Alaska Native Claims Settlement 
Act (ANCSA), though were given the opportunity to do so. Instead we 
communicated to the congressional drafters of ANCSA the need for the 
reservation to stay intact. Section 19 of ANCSA thus excludes the 
Tribe, preserving the Tribe's trust land and reservation intact.
    The Alaska congressional delegation sent a joint letter on December 
16, 2015 to Assistant Secretary Washburn at the BIA requesting 
information and a response to a significant issue: the BIA has, for 
decades, underfunded our natural resource programs. The BIA, thus far, 
has not responded.
    The Alaska congressional delegation acknowledges that we have 
produced a detailed analysis of not only the funding we currently 
receive to carry out BIA natural resource programs ($957,205), but an 
analysis of the funding necessary to adequately protect the trust 
assets (our lands, waters, habitat, minerals, and fish and wildlife), 
and also to steward those trust assets to meeting tribal needs on an 
ongoing basis. We determined that our BIA natural resource programs 
require a total funding of $3,118,050 on an annual basis, which means 
additional appropriations in the amount of $2,160,845.
    This breaks down as additional funds needed for the Tribe in the 
following budgetary accounts: BIA Hatchery Operations (+$1,155,900); 
Fisheries Management and Development & Wildlife Management and 
Development (+$201,456); Forestry (+$439,772); Other Rights Protection 
(including water) (+$208,123); and Mineral Development (+$155,594). All 
of these funds have been requested directly from the BIA in a recent 
Title I Self-Determination contract request, but during negotiations on 
February 8, 2016, the BIA indicated there are no new funds available 
for these programs. The Tribe is awaiting the official written contract 
declination from the BIA.
    We urge the subcommittee to fully fund these needs so that the 
Tribe can adequately carry out responsibilities that are critical to 
ensure that the Tribe's natural resources programs are adequately 
funded. We have a water shortage crisis at the Tribe currently, and 
there is no doubt that greater natural resources program funding would 
assist us in better understanding its causes and implementing 
solutions. I discuss below two of these program areas--Fisheries and 
Forestry--to greater illustrate all that is involved in carrying out 
these natural resource programs, the existing inequitable share of 
these funds that the Tribe receives in comparison with other Tribes in 
the Northwest, and why this funding is so critical to the Tribe.
    Fisheries.--Because State-managed waters surround the reservation's 
waters, and because there is no court-ordered co-management 
relationship between the Tribe and the State, Tribal fisheries must be 
managed in a way that accounts for the Tribe's fishing effort, as well 
as the State's. This must be done without having any influence over the 
State's management strategies, which, at times, have been preemptive of 
our subsistence and harvest rights. In order to properly manage our 
fishery resources, we need to bring our own scientists and resource 
managers to the table, but have insufficient funding to do so.
    We manage the following commercial fisheries (subject to 
Secretarial approval): Salmon--The Tribe's fishery is the largest 
tribally managed salmon fishery in the Nation. In fact, the Tribe 
annually harvests more salmon than the five top fishing tribes in 
western Washington combined; Herring--we manage the second largest 
herring stock in southeast Alaska (second only to the Sitka fishery), 
the largest (almost certainly the only) tribally managed herring 
fishery in the Nation; Halibut--our halibut fishery is comparable to 
the tribal halibut fisheries in western Washington; and Dive Fisheries 
for Sea Cucumber and Geoduck--Comparable to tribal fisheries in western 
Washington.
    The tribes of western Washington, which conduct fisheries that are 
most similar to the Tribe's, also have complex managerial, technical 
and scientific needs. Yet, their funding, although substantially 
greater than the Tribe's, is still inadequate to cover the costs of 
retaining staff in each of the individual disciplines that, in 
combination, make up a legitimate fishery management program. However, 
Congress, through the BIA, makes millions of dollars available to the 
Northwest Indian Fisheries Commission (NWIFC) for that very purpose. 
The NWIFC, like the Columbia River Inter-Tribal Fish Commission, is 
able to draw on economies of scale and consortia staff, so that when 
tribes meet with the State, or other management authorities, they are 
supported by expertise that the State cannot ignore. By contrast, the 
Tribe not only does not have the funds necessary to hire its own 
experts, we are also not able to draw upon the expertise of an inter-
tribal consortium.
    Our Tamgas Creek Hatchery is possibly the largest tribally operated 
hatchery in the Nation, but it inexplicably receives $0 in the Hatchery 
Operations line item in the BIA budget, while Oregon and Washington 
tribes receive substantial funding. Because of the role that hatcheries 
play in sustaining tribal fishing rights, every significant tribal 
hatchery in Washington State receives Hatchery Operations funding 
through the BIA budget, but Metlakatla receives none. Since the Tribe 
cannot compel the State to consider the Tribe's needs, the Tribe's only 
recourse is to increase the production of fish at its hatchery that 
will return to the Reserve, trusting that enough fish will get through 
the harvest gauntlet to meet the Tribe's needs. Our Tribe is very much 
on its own. When considered in this light, the disparity between the 
fishery management support available to western Washington tribes and 
the support available to us is enormous. As a result, we are severely 
handicapped in efforts to protect our fishing rights and conserve our 
fishery resources.
    Forestry.--A second example of critically needed funding to meet 
tribal natural resource program needs is in the forestry program. We 
receive $62,278 for our forestry program. This is insufficient funding 
to hire even one position in the program, let alone plan, design, and 
implement silvicultural prescriptions, forest harvest, conservation, 
and wildfire prevention and control strategies on the 21,172 acres of 
commercial forestland, and 54,197 acres of non-commercial forestland 
and associated muskeg habitat. Using the formula developed by the IFMAT 
III team in 2011, the Tribe's forestry program should receive a minimum 
of $646,223.32 in Federal funding in order to ensure forest health and 
Federal trust obligations are met. Without this funding, we cannot 
maintain healthy forests that are not susceptible to fire risk, nor can 
we count on our forests for any jobs and income going forward. We have 
requested less than this full amount, or only an additional $439,772.
    We are glad to provide any additional information you may request. 
Thank you for your consideration of our concerns and needs.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee:

    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for the U.S. 
Bureau of Land Management's (BLM) Subactivity: Soil, Water & Air 
Management. This Subactivity includes Colorado River Salinity Control 
as a primary focus area. For fiscal year 2017, a funding level of $1.5 
million for salinity specific control projects is needed in this 
primary focus area to prevent further degradation of Colorado River 
water quality and increased downstream economic damages.
    The salt concentration in the Colorado River causes over $300 
million in damages to water users each year. While this figure is 
significant, had it not been for the efforts of the Salinity Control 
Program, damages would be much higher. Salinity Control Program actions 
have reduced salinity concentrations of Colorado River water by 90 
milligrams per liter (mg/L) from what they would have been without the 
actions. That reduction of 90 mg/L has avoided additional damages of 
approximately $200 million per year.
    Metropolitan is the regional water supplier for most of urban 
southern California, providing supplemental water to retail agencies 
that serve approximately 19 million people. Water imported via the 
Colorado River Aqueduct has the highest salinity level of all of 
Metropolitan's sources of supply, averaging around 630 mg/L since 1976. 
This salinity level causes economic damages to all sectors. For 
example, high salinity leads to:

  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and an increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, additional need for 
        and cost of water softening, and a decrease in equipment 
        service life in the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration;
  --Increased cost of desalination and brine disposal for recycled 
        water in the municipal sector; and
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector.

    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed the Colorado River Basin 
Salinity Control Act of 1974 (Act) into law. To further foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum (Forum). The Forum is charged with 
reviewing the Colorado River's water quality standards for salinity 
every 3 years. In so doing, it adopts a Plan of Implementation 
consistent with these standards. The Plan of Implementation, as adopted 
by the States and approved by U.S. Environmental Protection Agency, 
calls for additional salinity control measures to be implemented by 
BLM.
    BLM is the largest landowner in the Colorado River Basin. Due to 
geological conditions, much of the lands that are controlled and 
managed by the BLM are heavily laden with salt. Past management 
practices have led to human-induced and accelerated erosion processes 
from which soil and rocks, heavily laden with salt have been deposited 
in various stream beds or flood plains. As a result, salts are 
dissolved into the Colorado River system causing water quality problems 
downstream.
    The Salinity Control Program reduces salinity by preventing salts 
from dissolving and mixing with the River's flow. Irrigation 
improvements (sprinklers, gated pipe, lined ditches) and vegetation 
management reduce the amount of salt transported to the Colorado River. 
Point sources such as saline springs are also controlled.
    The Salinity Control Program, as set forth in the Act, benefits the 
Upper Colorado River Basin water users through more efficient water 
management, increased crop production, benefits to local economies 
through construction contracts, and through environmental enhancements. 
The Salinity Control Program benefits Lower Basin water users, hundreds 
of miles downstream from salt sources in the Upper Basin, through 
reduced salinity concentration of Colorado River water. California's 
Colorado River water users are presently suffering economic damages in 
the hundreds of millions of dollars per year due to the River's 
salinity.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
Salt reduction is achieved by controlling both point and nonpoint 
sources of salt contributions; however, the majority of salt derived 
from public lands is of non-point-source origin. Salt loading from non-
point sources is mainly reduced by minimizing soil erosion. BLM 
achieves salinity control goals through managing land use practices. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. Metropolitan supports 
BLM's current drafting of a comprehensive strategy to improve the 
implementation of salinity control and outreach efforts within the 
Colorado River Basin. BLM's measures significantly complement programs 
and activities being considered for implementation by the U.S. Bureau 
of Reclamation through its Basin-wide Program and by the U.S. 
Department of Agriculture through its on-farm Environmental Quality 
Incentives Program.
    Over the past years, the Salinity Control Program has proven to be 
a very cost effective approach to help mitigate the impacts of 
increased salinity in the Colorado River. Continued Federal funding of 
this important Basin-wide program is essential. The program change 
proposed by BLM in the 2017 budget request for the Soil, Water & Air 
Management Subactivity to enhance core capability is welcomed. This 
enhancement to support monitoring and analysis of soil, water and air 
resources, including sediment and salinity reductions within the 
Colorado River Basin, is needed.
    Metropolitan encourages the subcommittee's support for sufficient 
funding in the Subactivity: Soil, Water & Air Management to allow for 
general water quality improvement efforts in the Colorado River Basin 
and $1.5 million for salinity specific control projects in 2017. This 
amount is needed to prevent further degradation of the quality of the 
Colorado River and increased downstream economic damages.
                                 ______
                                 
  Prepared Statement of the Minerals Science and Information Coalition
    On behalf of the undersigned members of the Minerals Science and 
Information Coalition, thank you for the opportunity to submit a 
written statement for the record on fiscal year 2017 appropriations for 
the Mineral Resources Program within the U.S. Geological Survey (USGS).
    The Minerals Science and Information Coalition (MSIC or the 
Coalition) is a broad-based alliance of minerals and materials 
interests united in advocating for reinvigorated minerals science and 
information functions in the Federal Government. Our group is comprised 
of trade associations, scientific and professional societies, groups 
representing the extractive industries, processors, manufacturers, 
other mineral and material supply-chain users, and other consumers of 
Federal minerals science and information.
    MSIC supports the President's request for $49 million for the U.S. 
Geological Survey's Mineral Resources Program, and respectfully 
requests that Congress add $5 million in new funding to create minerals 
forecasting capabilities as well as new investments in the USMIN 
project to continue development of a comprehensive national mineral 
resource database.
    Minerals are part of virtually all the products we use every day, 
acting as the raw materials for manufacturing processes or as the end 
products themselves. Minerals are critical ingredients in specialized 
applications for national defense and energy technologies, as well as 
essential building blocks for buildings, roads and civic infrastructure 
projects. They are used in the manufacture of paper, glass, ceramics, 
plastics, refined metals, and a host of intermediary materials. These, 
in turn, find their way into the manufactured products that make up our 
daily lives, such as automobiles, mobile phones, and computers. Every 
sector of industry relies on a variety of minerals to generate their 
end products, making a stable and reliable supply of minerals vital for 
the continued growth and success of our economy.
    The recent crisis in the global supply of rare earth elements 
caused by Chinese export restrictions is a case study in the importance 
of a stable mineral supply chain. Supply chains can be long, complex, 
and vulnerable to disruption for many reasons. The restrictions in the 
supply of rare earth elements threatened the production of components 
essential for U.S. defense systems, in addition to a vast array of 
communications, clean energy, electronics, automotive, and medical 
products. Both the private and the public sectors realize that we must 
reduce risks to key minerals supply chains. However, we cannot do this 
without accurate, timely information on the nature, location, and 
characteristics of our domestic mineral resources, and on the worldwide 
supply of, demand for, and flow of minerals and materials. This 
information is the foundation for identifying and anticipating existing 
and emerging vulnerabilities, and for sound decisionmaking by business 
leaders and policy makers.
                     usgs mineral resources program
    The USGS plays a central role in providing the fundamental 
information that allows our business leaders and government 
institutions to make informed natural resource decisions. It is the 
Minerals Science and Information Coalition's belief that prioritizing 
both the science and information components of USGS's Mineral Resources 
Program is vitally important to our national defense and economic well-
being.
    Minerals science covers the full life cycle of minerals from the 
discovery of mineral deposits to the disposal of mineral products, 
including understanding how mineral deposits are formed, the nature and 
location of mineral deposits, and the environmental issues associated 
with responsible mineral extraction. The Mineral Resources Program has 
a long and distinguished history of research and assessment of our 
Nation's mineral resources. According to a National Science and 
Technology Council \1\ report issued in March this year, an overarching 
trend in mineral production between 1996 and 2013 has been the 
concentration of production in countries with higher governance 
(geopolitical and regulatory) risk. This means that the risk of 
possible disruption to our mineral supply is rising. Therefore, it is 
vital that we invest in understanding our domestic resources to build 
resilient supply chains.
---------------------------------------------------------------------------
    \1\ National Science and Technology Council, Committee on 
Environment, Natural Resources, and Sustainability, Subcommittee on 
Critical and Strategic Mineral Supply Chains. 2016. Assessment of 
Critical Minerals: Screening Methodology and Initial Application. 
Office of Science and Technology Policy, 57 p.
---------------------------------------------------------------------------
    The National Minerals Information Center (NMIC) is the premier 
source of information on the worldwide supply of, demand for, and flow 
of minerals and materials. The consistency and reliability of NMIC's 
data over decades is one of its greatest strengths. Its data and 
products are used throughout the Federal Government to support 
economic, national security, and land-use decisionmaking. It is also 
critical to private sector investment and financial institutions. 
However, in spite of our expanding use of a range of critical and 
strategic mineral commodities that are essential to keep up our 
defense, economy, and wellbeing, NMIC does not have the resources 
needed to develop a robust forecasting function for the minerals 
sector. Therefore, we strongly urge additional new funding of $5 
million for NMIC to support advanced mineral flow analysis and the 
development of minerals forecasting capability within the U.S. 
Geological Survey.

    Thank you for the opportunity to present this testimony to the 
subcommittee.

    American Chemical Society

    American Exploration & Mining Association

    American Geosciences Institute

    American Physical Society

    Industrial Minerals Association--North America

    Materials Research Society

    National Mining Association

    National Stone, Sand and Gravel Association

    Society for Mining, Metallurgy & Exploration, Inc.
                                 ______
                                 
 Prepared Statement of the Mississippi Interstate Cooperative Resource 
                              Association
    My name is Ron Brooks. I am the Director of the Fisheries Division 
of the Kentucky Department of Fish and Wildlife Resources. I am 
submitting written testimony on behalf of the Mississippi Interstate 
Cooperative Resource Association--an interstate partnership known as 
MICRA--regarding the priorities and budgets of two agencies within the 
Department of Interior, specifically the U.S. Geological Survey (USGS) 
and the U.S. Fish and Wildlife Service (USFWS). The following testimony 
includes three appropriations requests totaling $4,460,000 in 
additional funding to the USFWS's Fish and Aquatic Conservation fiscal 
year 2017 budget (Activity: Aquatic Habitat and Species Conservation; 
Subactivity: Aquatic Invasive Species).
    MICRA is an organization of my fellow State agency fish chiefs in 
the 28 States that have management jurisdiction of the fisheries 
resources in the Mississippi River Basin. The Mississippi River Basin 
is the largest watershed in the Nation, covering 41 percent of the 
continental U.S. and draining all or part of 31 States and 2 Canadian 
Provinces. The Mississippi River Basin States formed the MICRA 
partnership in 1990 to cooperatively manage the interjurisdictional 
fisheries and aquatic resources in the basin. Recreational and 
commercial fishing in the Mississippi River Basin generates more than 
$19 billion in economic output annually.
    MICRA supports the increases in the President's fiscal year 2017 
budget for National Fish Hatchery System Operations and Maintenance, 
and for the Aquatic Habitat and Species Conservation's Fish Passage 
Improvements and Aquatic Invasive Species Programs. Two of the primary 
basin-wide issues impacting our native fisheries and aquatic resources 
are the loss of diverse habitats and aquatic invasive species. The 
National Fish Hatchery System mitigation program, Aquatic Invasive 
Species Program, National Fish Passage program, and the National Fish 
Habitat Partnerships are all programs that MICRA strongly supports and 
would like to see remain priorities for the USFWS and Congress.
    Aquatic Nuisance Species (ANS) impact water resources, businesses, 
waterway users, native ecosystems, and the public in every State 
throughout the Nation. Management and control of nuisance fish--such as 
Asian carps and lion fish; mussels--such as quagga mussels, zebra 
mussels, New Zealand mud snails, and applesnails; plants such as 
Brazillian elodea, hydrilla, water hyacinth, and Eurasian water 
milfoil; and a plethora of other organisms cost the United States 
billions of dollars each year.
    The Aquatic Nuisance Species Task Force (ANS Task Force), composed 
of 13 Federal agencies and 13 ex-officio organizations, serves as the 
only intergovernmental organization dedicated to preventing and 
controlling ANS. The ANS Task Force provides a national forum for 
collaboration on critical issues that can impact prevention, control, 
and management of ANS. Regional coordination among Federal, State, and 
local partners is accomplished through the work of six Regional Panels. 
MICRA is an ex-officio member on the ANS Task Force and the host 
organization for the Mississippi River Basin Panel on Aquatic Nuisance 
Species--the largest Regional Panel in the country.
    Funding for the Regional Panels is provided through the USFWS's 
Aquatic Invasive Species Program, specifically as part of `NISA 
Implementation' (i.e. National Invasive Species Act of 1996). Funding 
for the six Regional Panels is authorized in the Nonindigenous Aquatic 
Nuisance Prevention and Control Act of 1990 (NANPCA) at $300,000, 
providing a mere $50,000 in annual operations to each Regional Panel 
when fully appropriated. Beginning in 2013, the USFWS reduced annual 
funding to the Regional Panels by 20 percent. MICRA requests that 
Congress restore Regional Panel funding to at least the previously 
appropriated level of $300,000, but preferably to $600,000 which would 
provide each Regional Panel with $100,000 for annual operations. 
Leadership of the six Regional Panels has repeatedly stated that a 
minimum annual operational budget of $100,000 is needed for each 
Regional Panel to meet its legislated responsibilities under NANPCA.
    As part of the Federal-State partnership to address the myriad of 
ANS issues, 40 State and 2 interstate ANS management plans have been 
developed to identify needed actions to address each State's priority 
ANS issues. Funding for implementation of these 42 ANS Task Force 
approved State and interstate ANS management plans is administered 
through the USFWS and is authorized by NANPCA at $4 million annually. 
Funding for State ANS management plans allows States to leverage funds 
and implement the highest priority actions to prevent the continued 
spread of ANS and minimize their impacts on the public. Initial funding 
levels (fiscal year 2000 and fiscal year 2001) provided more than 
$100,000 annually per approved plan; however, as the number of approved 
State ANS management plans has increased each year, the amount of 
funding received by each State has steadily decreased, severely 
limiting the ability of States to effectively manage ANS.
    Thankfully, Congress increased funding for implementation of State 
ANS management plans to $2 million in fiscal year 2016 and this 
increase is included in the President's fiscal year 2017 budget. This 
much needed increase will result in each State with an approved plan 
receiving approximately $47,000 for implementation. The total funding 
requested by States to implement approved plans in fiscal year 2012 was 
more than $14 million. MICRA requests Congress increase funding for 
implementation of approved State ANS management plans to the fully 
authorize level of $4 million in fiscal year 2017. This increase of $2 
million for implementation of approved State and interstate ANS 
management plans is critically needed and long overdue. It is an 
investment in the States' collective ability to prevent introductions 
of new ANS and manage and control existing ANS populations that cause 
millions of dollars in losses each year.
    State management plan and Regional Panel funding are included with 
USFWS operational costs in the agency's budget for Aquatic Invasive 
Species as NISA implementation. We encourage appropriations language 
that clearly articulates the level of funding for State management plan 
implementation and Regional Panel operations as is intended by the 
subcommittee to prevent the continued loss of funds from these programs 
to USFWS operational costs. MICRA also recognizes the increased cost 
for USFWS operations each year, and underscores the importance of 
additional funding in the USFWS's Fish and Aquatic Conservation budget 
for these important programs to the States.
    Asian carp have been spreading throughout much of the Mississippi 
River Basin over the past two decades impacting new waters each year. 
The States assisted the USFWS in the development of the national 
`Management and Control Plan for Bighead, Black, Grass, and Silver 
Carps in the United States' that was approved by the national ANS Task 
Force in 2007. The Mississippi River Basin States have long advocated 
for national strategies to prevent and control Asian carps, recognizing 
that comprehensive efforts to address Asian carp throughout the 
Mississippi River Basin are necessary to achieve success in preventing 
Asian carp from becoming established in the Great Lakes, Upper 
Mississippi River, upper Ohio River, and elsewhere. Congress has made a 
significant investment over the last several years to prevent Asian 
carp from becoming established in the Great Lakes, first through Great 
Lakes Restoration Initiative (or GLRI) funding and more recently 
through base funding allocations to Federal agencies.
    Beginning in fiscal year 2014 the USFWS and USGS began receiving 
base funding to address Asian carp outside the Great Lakes, however 
this funding has been focused on preventing Asian carp from becoming 
established in the Upper Mississippi River and Ohio River basins. In 
addition to protecting uninvaded waters in every Mississippi River 
Basin State, many States in the Mississippi River Basin are attempting 
to reduce established populations of Asian carp and minimize their 
impacts on the businesses and recreational users that rely on these 
waters. The fiscal year 2017 President's budget includes base funding 
for USFWS to ``to prevent the spread of Asian carp in the Great Lakes 
Basin, and the upper Mississippi and Ohio rivers.'' Such language has 
prevented Federal agencies from implementing a national strategy for 
this issue and has kept Asian carp prevention and control technologies 
developed with Great Lakes Asian carp funding from being implemented 
and evaluated in parts of the Mississippi River Basin beyond the upper 
Mississippi and Ohio rivers where the results would have meaningful 
local and national benefits. For example, the Mississippi Department of 
Wildlife, Fisheries, and Parks has coordinated with USFWS, USGS, and 
the U.S. Army Corps of Engineers (USACE) to identify potential tools 
and locations to prevent the interbasin transfer of silver carp from 
the Tennessee River to the Mobile River Basin via the Tennessee-
Tombigbee Waterway. Despite the collaboratively agreed upon potential 
application of USGS developed technologies to prevent an inter-basin 
transfer of Asian carp, the Federal agencies have informed the 
Mississippi Department of Wildlife, Fisheries, and Parks that Asian 
carp funding is not available to implement and evaluate these 
technologies in the Tennessee-Tombigbee Waterway.
    The President's fiscal year 2017 budget for USFWS includes $7.9 
million in base funding for Asian carp; however $5.3 million is 
designated to be used for the Great Lakes and $2.6 million is 
designated for the Upper Mississippi River and Ohio River basins. MICRA 
supports these Federal agency base funding increases to enable the 
USFWS, in partnership with USGS and USACE, to lead national efforts to 
manage and control Asian carps in the United States. Greater focus on 
national priorities and increased funding for Asian carp prevention and 
control beyond the Great Lakes is desperately needed. MICRA urges the 
subcommittee to include an additional $2.1 million in USFWS base 
funding for Asian carp and to include language that the agency's Asian 
carp base funds are to be used for ``implementation of the national 
`Management and Control Plan for Bighead, Black, Grass, and Silver 
Carps in the United States' and associated collaborative multi-State 
Asian Carp Control Strategy Frameworks and Action Plans to protect the 
Great Lakes, Mississippi River and tributaries, and other priority 
watersheds.'' Similar wording is recommended for USGS and other Federal 
agencies receiving base funding for implementation of Asian carp 
programs. This wording is recommended to enable current work in the 
Great Lakes, Upper Mississippi River, and Ohio River basins to continue 
at their current levels, and to provide Federal agencies with the 
flexibility to implement additional work where needed based on national 
priorities.
    The Regional Frameworks/Action Plans for the Mississippi River 
Basin were developed with flexibility to use creative solutions to 
control existing populations of Asian carp and prevent further range 
expansion. Much of the work identified in the Asian Carp Regional 
Frameworks/Action Plans for the Mississippi River, Ohio River, and 
other parts of the Mississippi River Basin are State-led actions. The 
States are critical partners to the Federal agencies in the battle 
against Asian carp, but most States lack funding to implement actions 
and address priority needs. Federal grants to States for implementation 
of priority actions in support of the `Management and Control Plan for 
Bighead, Black, Grass, and Silver Carps in the United States', and 
Regional Frameworks/Action Plans is needed to enable the States to 
engage as equal partners in addressing Asian carp. Funding increases to 
USFWS for Asian carp should include a specific amount or a percentage 
for grants to States for implementation of State-led priority needs 
identified in Asian Carp Regional Frameworks/Action Plans. Such a 
program could be administered by the USFWS and implemented in a similar 
manner as the State ANS management plan program.
    Thank you for the opportunity to provide written testimony on the 
fiscal year 2017 budget for the Department of Interior and for 
considering the recommendations and requests submitted by MICRA on 
behalf of our 28 Mississippi River Basin member States. I am happy to 
provide clarification or additional information to the subcommittee or 
its individual members regarding any of MICRA's recommendations and 
requests presented in this written testimony.
                                 ______
                                 
                Prepared Statement of the Mountain Pact
    Dear Chairman Murkowski and Ranking Member Udall:

    The Mountain Pact represents mountain communities across the 
American West, approximately 250,000 permanent residents and 40 million 
visitors each year. Positioned in rural mountain areas and often 
surrounded by Federal land, Western mountain communities are especially 
vulnerable to economic, public health, and environmental damages from 
catastrophic wildfire.
    It is not news to anyone living in the Western United States that 
wildfires have become a major threat to our communities. Many factors 
contribute to the increase in wildfire frequency and severity, 
including build-up of hazardous fuels, increasing populations in the 
wildland urban interface, and ongoing drought. This past decade fires 
have burned 50 percent more land than in the previous four decades; the 
fire season has expanded by 2 months; and the average size of fires has 
increased by a factor of five since the 1970s. Just this summer, 
impacts from one of the worst western fire seasons on record have had 
far-reaching effects. The frequency and severity of these wildfires has 
and will have a disastrous effect on local economies, natural 
resources, and our communities and needs to be matched by significant 
levels of funding to protect people, water, and wildlife.
    In addition to the threat of the actual wildfires, critical 
landscape management activities are often postponed or canceled as a 
result of fire transfers from non-suppression agency accounts once 
annual wildfire suppression funds are depleted. Currently, the USDA 
Forest Service (USFS) and Department of Interior (DOI) are the only 
agencies required to pay for natural disaster response out of their 
annual discretionary budgets. Since 2000, these agencies have run out 
of money to fight emergency fires eight times and in the last 2 years, 
more than $1 billion was `borrowed' from USFS programs to cover fire 
suppression shortfalls. Unfortunately and again in fiscal year 2015, 
the 10-year average was not enough to meet the USFS suppression needs, 
forcing the agency to transfer $700 million from non-suppression 
accounts to make up for the shortfall.
    The current wildfire suppression funding model and cycle of 
transfers and repayments has negatively impacted the ability to 
implement forest management, among many other activities. Additionally, 
the increasing 10-year average has not met annual suppression needs 
since before fiscal year 2002, which is why we are thankful to the 
subcommittee for the full transfer repayment and increased suppression 
funding in fiscal year 2016. However, we understand this is not 
expected to occur every year.
    DOI and USFS need a long-term fire funding solution that would 
result in stable and predictable budgets. Our local economies are 
incredibly vulnerable to the effects of underfunded Federal land 
management.
    We respectfully request a bipartisan fire funding solution that 
would (1) access disaster funding, (2) minimize transfers, and (3) 
address the continued erosion of agency budgets over time, with the 
goal of reinvesting in key programs that would restore forests to 
healthier conditions.

    [This statement was submitted by Diana Madson, Executive Director.]
                                 ______
                                 
   Prepared Statement of the National Assembly of State Arts Agencies
    Chairman Murkowski, Ranking Member Udall and members of the 
subcommittee, thank you for the invitation to prepare this testimony 
regarding Federal appropriations for the National Endowment for the 
Arts in fiscal year 2017. I am Pam Breaux, Chief Executive Officer of 
the National Assembly of State Arts Agencies (NASAA), the organization 
representing the State and jurisdictional arts agencies of the United 
States. Today, I urge the subcommittee to support funding the National 
Endowment for the Arts (NEA) at $155 million in fiscal year 2017.
    In fiscal year 2016, this subcommittee supported an increase of $2 
million in funding for the agency. The States and NASAA are extremely 
grateful to the subcommittee for this, particularly given the 
limitations Congress faces as a result of sequestration. As you look to 
the next budget, NASAA hopes you will once again consider increasing 
funding for the NEA, which continues to make a substantial impact in 
communities throughout the United States, even while operating with a 
budget that is more than $19 million (12 percent) lower than in fiscal 
year 2010.
    In asking for an increase in funding for the NEA, it is important 
to acknowledge the continued bipartisan support that this subcommittee, 
and Congress as a whole, has demonstrated for State arts agencies. As 
you know, through a highly effective Federal-State partnership, the NEA 
distributes 40 percent of its programmatic funds to State and regional 
arts agencies each year. The resulting $47.3 million in fiscal year 
2016, helped to leverage additional public and private investment in 
the arts, empowered States and regions to address their unique 
priorities, and served far more constituents than Federal funds alone 
could reach. The report accompanying last year's Consolidated 
Appropriations Act affirmed Congress's support for this important 
partnership and the 40 percent allocation. We sincerely thank the 
subcommittee for this acknowledgement.
    State arts agencies use their share of NEA funds ($39 million last 
year), combined with funds from State legislatures, to support 
approximately 21,000 grants to arts organizations, civic organizations, 
schools and artists in more than 4,400 communities across the United 
States. Twenty-five percent of State arts agencies' grant awards go to 
nonmetropolitan areas, supporting programs that strengthen the civic 
and economic sustainability of rural America. Twenty-nine percent of 
State arts agencies' grant dollars go to arts education, fostering 
student success in and out of school and providing the critical 
thinking, creativity and communications skills needed to meet the 
demands of today's competitive work force.
    Congress's continued support of the 40 percent formula is essential 
to State arts agencies, boosting their ability to drive innovation in 
their States. Throughout the country, State arts agencies play 
significant roles in shaping education policy, stimulating economic 
growth and helping communities thrive as rewarding and productive 
places to live, conduct business, visit and raise a family. Should 
Congress support an increase for the NEA, State arts agencies will be 
in a position to expand their meaningful role helping in every 
congressional district have full opportunities to experience the 
economic, civic, educational and cultural benefits that the arts offer.
    NASAA and State arts agencies also applaud the work of the NEA in 
its direct program areas and partnerships with other Federal agencies. 
The NEA's direct grants support thousands of concerts, performances, 
readings and exhibitions, with annual live attendance of nearly 20 
million people. Especially noteworthy partnerships include the NEA's 
work with the Department of Defense (to support arts therapy in healing 
programs at the Walter Reed National Military Medical Center and the 
National Intrepid Center of Excellence) and the Department of 
Commerce's Bureau of Economic Analysis (to track the economic 
contributions of arts and cultural production to the U.S. gross 
domestic product and export portfolio).
    In the Consolidated Appropriations Act of 2016 Committee Report, 
this subcommittee urged State arts agencies to explore opportunities to 
work with the military. NASAA's newly released study on State arts and 
military initiatives recounts that numerous States are either already 
implementing or considering such programs. In fact, a significant 
majority (45) of State arts agencies are pursuing at least one program, 
policy, service or partnership related to serving military and veteran 
populations through the arts. Further, 72 percent are actively engaged 
in or considering partnerships to facilitate the work. We look forward 
to supporting States as they continue this important, ground-breaking 
work.
    Thank you for your consideration. NASAA looks forward to continuing 
to work productively with this subcommittee, and we stand ready to 
serve as a resource to you.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    On behalf of the National Association of Clean Air Agencies 
(NACAA), thank you for this opportunity to provide testimony on the 
fiscal year 2017 proposed budget for the United States Environmental 
Protection Agency (EPA), particularly grants to State and local air 
pollution control agencies under Sections 103 and 105 of the Clean Air 
Act, which are part of the State and Tribal Assistance Grant (STAG) 
program. Specifically, NACAA makes three requests of Congress: (1) 
State and local air pollution control agencies should be provided with 
Federal grants in the amount of the President's request--$268.2 
million--which is an increase of $40 million over fiscal year 2016 
levels; (2) the $40-million increase should not be earmarked for any 
particular activity (e.g., climate change); rather, agencies should be 
given the flexibility to use the additional resources on the highest-
priority activities in their areas; and (3) grant funds for fine 
particulate matter (PM<INF>2.5</INF>) monitoring should remain under 
Section 103 authority, rather than being shifted to Section 105 
authority, as EPA is proposing.
    NACAA is a national, non-partisan, non-profit association of air 
pollution control agencies in 40 States, the District of Columbia, four 
Territories and 116 metropolitan areas. The members of NACAA have the 
primary responsibility under the Clean Air Act for implementing our 
Nation's clean air program. The air quality professionals in our member 
agencies have vast experience dedicated to improving air quality in the 
United States. These observations and recommendations are based upon 
that experience. The views expressed in this testimony do not 
necessarily represent the positions of every State and local air 
pollution control agency in the country.
Air Pollution Is Still a Serious Problem in the United States
    Air pollution continues to be a significant public health concern. 
Every year tens of thousands of people die prematurely as a result of 
breathing polluted air. Millions are exposed to unhealthful levels of 
air contaminants, which results in many health problems, such as cancer 
and damage to respiratory, cardiovascular, neurological and 
reproductive systems.\1\ The evidence of adverse health impacts 
continues to mount. For example, in October 2013, the International 
Agency for Research on Cancer (IARC) of the World Health Organization 
classified outdoor air pollution as carcinogenic to humans. The IARC 
evaluated particulate matter separately and also classified it as a 
human carcinogen.\2\
---------------------------------------------------------------------------
    \1\ Fiscal Year 2014-2018 EPA Strategic Plan (April 10, 2014), page 
8.
    \2\ https://www.iarc.fr/en/media-centre/iarcnews/pdf/pr221_E.pdf.
---------------------------------------------------------------------------
    The programs that Federal, State and local agencies have undertaken 
to address air pollution under the Clean Air Act have been hugely 
successful. For example, EPA data show that between 2003 and 2014, 
population-weighted ambient concentrations have declined by 29 percent 
for PM<INF>2.5</INF> and 18 percent for ozone.\3\
---------------------------------------------------------------------------
    \3\ Fiscal Year 2017 EPA Budget in Brief (February 2016), page 14.
---------------------------------------------------------------------------
    In spite of these strides, significant problems still exist, posing 
threats to public health and welfare. According to EPA, in 2014 
approximately 57 million people in this country lived in counties that 
exceeded one or more of the Federal health-based air pollution 
standards.\4\ With respect to hazardous air pollutants (HAPs), the 
newly released data from EPA's National Air Toxics Assessment (NATA) 
indicate that in 2011 ``all 285 million people in the U.S. ha[d] an 
increased cancer risk of greater than 10 in one million,'' while one-
half million people have an increased risk of cancer of over 100 in a 
million, due to exposure to the HAPs included in the NATA analysis.\5\
---------------------------------------------------------------------------
    \4\ Fiscal Year 2017 EPA Budget in Brief (February 2016), page 14.
    \5\ http://www.epa.gov/national-air-toxics-assessment/2011-nata-
assessment-results.
---------------------------------------------------------------------------
    The task Congress faces of balancing many competing needs is 
daunting. However, we doubt any of the issues this subcommittee 
addresses pose more of a public health problem than that of air 
pollution. This body has the chance to take aim at this critical public 
health and welfare problem by providing additional Federal grants to 
those fighting on the front lines--State and local air quality 
agencies.
The Proposed Increase Is Needed Even Without the Clean Power Plan 
        Requirements
    The proposed budget for fiscal year 2017 calls for an increase of 
$40 million in grants for State and local air quality agencies, for a 
total of $268.2 million. The $40-million increase was originally 
intended to include $25 million for implementation of the Clean Power 
Plan (CPP) and $15 million for what we consider to be ``core'' 
activities, such as ongoing and day-to-day elements of our programs. As 
you know, after the budget was proposed, the Supreme Court stayed the 
CPP (February 9, 2016) so many State and local agencies' obligations 
related to this program will not be required during fiscal year 2017. 
However, we nevertheless urge Congress to provide the full $40-million 
increase to State and local air agencies because our needs are far 
greater than the total proposed additional grants could address, even 
without the requirements of the CPP. Moreover, if given flexibility on 
how the additional funds are used, State and local air agencies can 
target the resources to address the issues that are most pressing to 
their communities.
State and Local Agencies Programs Face Significant Deficits
    State and local air pollution control agencies have done their best 
to operate with insufficient resources for many years, but it has been 
a struggle. State and local air programs face an annual shortfall of 
$550 million in Federal grants,\6\ which has caused many of these 
agencies to reduce or eliminate important air pollution programs, 
postpone necessary air monitoring expenditures and even reduce their 
workforces. In light of economic hardships, States and localities 
increasingly rely on Federal grants provided by the Clean Air Act.
---------------------------------------------------------------------------
    \6\ Investing in Clean Air and Public Health: A Needs Survey of 
State and Local Air Pollution Control Agencies, (April 2009), NACAA, 
www.4cleanair.org/Documents/reportneedssurvey042709.pdf.
---------------------------------------------------------------------------
    The Clean Air Act's Section 105 authorizes Federal grants to cover 
up to 60 percent of the cost of State and local air programs and 
requires States and localities to contribute a 40-percent match. In 
reality, however, State and local air agencies provide over 75 percent 
of their budgets (not including permit fees under the Federal Title V 
program). Exacerbating the situation is the fact that Federal grants 
have decreased by nearly 17 percent in purchasing power since 2000 due 
to inflation.
    State and local air quality programs carry out a host of essential 
activities to attain and maintain healthful air quality. These include 
ongoing, day-to-day responsibilities that constitute the foundation or 
core of our programs, as well as additional efforts designed to address 
new problems and changing regulatory requirements. While the list of 
our responsibilities is too lengthy to include in this brief testimony, 
just a few examples for fiscal year 2017 include continued 
implementation of the health-based national ambient air quality 
standards (NAAQS) for multiple pollutants; development and/or revision 
of State Implementation Plans (SIPs) for the ozone, PM<INF>2.5</INF> 
and sulfur dioxide standards; implementation of air toxics standards, 
including revisions to Maximum Achievable Control Technology (MACT) 
standards resulting from Risk and Technology Review updates; and 
implementation of control measures related to visibility and regional 
haze.
    These tasks require many resource- and labor-intensive activities 
including, among other things, air quality planning; compiling 
comprehensive emission inventories; carrying out complex modeling; 
analyzing extensive data; adopting regulations; inspecting facilities 
and enforcing regulations; addressing complicated transport issues; 
issuing minor source permits; and informing and involving the public in 
air quality decisions and issues.
    A major responsibility that State and local agencies face relates 
to air quality monitoring. This piece of our program is critical for 
determining the extent and location of air quality problems and 
assessing the efficacy of our programs. As in previous years, our 
monitoring program in fiscal year 2017 will call for ongoing monitoring 
as well as revisions to address new and changing requirements. 
Additionally, it has become obvious that one result of the financial 
crises of recent years is the postponement of necessary activities 
related to essential upkeep and maintenance for State and local air 
monitoring networks. Moreover, the loss of monitoring staff has 
hampered the program significantly. Simply stated, our monitoring 
program is in dire need of additional funds for essential 
infrastructure investments and additional personnel.
    I have articulated just some of the difficult fiscal issues facing 
State and local air pollution control agencies in order to emphasize 
how important it is for Congress to provide these agencies with the 
$40-million increase included in the administration's request, even 
without the requirements of the CPP, and to also allow State and local 
agencies the flexibility to spend the funds on the highest priority 
activities in their areas.
NACAA Recommends That Monitoring Grants Remain Under Section 103 
        Authority
    As in previous years, the administration's request proposes to 
begin to shift the PM<INF>2.5</INF> monitoring grant program from 
Section 103 authority to Section 105 authority. When funds are provided 
under Section 103, no State or local matching funds are needed, while 
Section 105 grants call for matching funds. We request that these funds 
remain under Section 103 authority. There are some State and local air 
quality agencies that are unable to provide additional matching funds. 
If the program is shifted to Section 105 authority, these agencies 
could have to refuse critical monitoring grants because they are unable 
to afford the required match. We have made this recommendation in 
previous years and State and local air quality agencies are very 
appreciative that Congress has been agreeable to our request in the 
past.
NACAA Supports Resources for the ``Climate Infrastructure Fund''
    NACAA supports the proposed ``Climate Infrastructure Fund,'' which 
includes $1.65 billion over 10 years to, among other things, retrofit, 
replace or repower diesel equipment, especially school buses. It is 
critically important that diesel emissions be reduced and this program 
will support important efforts to address this problem.
NACAA Supports Diesel Emission Reduction Act (DERA) Funds
    NACAA is pleased that the proposed budget includes funding for the 
Diesel Emission Reduction Act (DERA) program ($10 million). Diesel 
pollution poses significant threats to public health and the DERA 
program is an important effort to address emissions from the large 
legacy fleet of diesel engines. We are concerned that in fiscal year 
2016 it appears that the DERA program was increased above the 
President's request at the expense of the Section 103/105 grants and we 
strongly urge that any future funding for DERA not be in lieu of 
increases to State and local air grants.
Conclusion
    In summary, NACAA supports the administration's proposal to provide 
$268.2 million in grants to State and local air pollution control 
agencies under Sections 103 and 105 of the Clean Air Act for fiscal 
year 2017, which is an increase of $40 million above fiscal year 2016. 
NACAA also asks that Congress not ``earmark'' these funds for specific 
activities and instead provide State and local air pollution control 
agencies with the flexibility to use the additional resources on the 
highest priority activities in their areas. Finally, NACAA requests 
that that grants for PM<INF>2.5</INF> monitoring remain under Section 
103 authority, rather than being shifted to Section 105 authority.
    Thank you for this opportunity to provide testimony on these 
critically important issues and for your consideration of the funding 
needs of State and local air quality programs.
                                 ______
                                 
 Prepared Statement of the National Association of Clean Water Agencies
    As the appropriations subcommittee begins to develop legislation to 
fund EPA in the 2017 fiscal year, the National Association of Clean 
Water Agencies (NACWA) appreciates your support of strong funding for 
programs that help provide clean and safe water infrastructure while 
making local utility investments more manageable for ratepayers.
    As you know, the ongoing water crisis in Flint, Michigan has 
focused national attention on the needs of our water infrastructure. 
This has prompted welcome proposals by some Members of Congress to 
dramatically boost water infrastructure spending next year. One such 
proposal would provide $2 billion each to the Clean Water and Drinking 
Water State Revolving Funds (SRFs), well-established programs that 
deliver funding to all States to help communities improve their water 
and wastewater infrastructure to protect public health. NACWA strongly 
supports these higher proposed funding levels to dramatically increase 
SRF appropriations in the 2017 fiscal year while bringing parity to 
Clean Water and Drinking Water SRF funding levels.
    We also recognize that the budgetary situation faced by Congress 
may prevent total SRF appropriations from reaching these levels in 
fiscal year 2017. If that is the case, at minimum we urge Congress to 
reject any cuts to the Clean Water SRF in 2017--including those 
proposed in the President's budget--and to bring the Drinking Water SRF 
to an equal level of funding.
    The Clean Water SRF is heavily utilized across the United States to 
help clean water utilities meet their many regulatory requirements 
under the Clean Water Act through more affordable financing terms which 
help ensure local ratepayers can afford their clean water bills. Clean 
Water SRF funds have been instrumental in many communities' successes 
in complying with National Pollutant Discharge Elimination System 
(NPDES) permits, implementing secondary (biologic) treatment of 
wastewater, and reducing the frequency and size of sewer overflows 
during wet weather events. Clean Water SRFs are also increasingly used 
for innovative stormwater and nutrient management projects and to 
implement green infrastructure, which can provide cost-effective water 
quality improvements while also providing green spaces and improving 
community quality of life.
    Clean water utilities will also be looking to leverage low-cost 
financing from the Clean Water SRF to implement controls to maintain 
compliance with new and updated regulatory requirements from EPA. 
Regulatory and guidance changes ranging from updated water quality 
standards for ammonia to new air emission standards for Sewage Sludge 
Incinerators impose costs for clean water utilities. On the enforcement 
side, municipal wet weather issues will continue to be an enforcement 
priority for EPA in fiscal year 2017. This is anticipated to likely 
lead to new Federal consent decrees for which communities will need to 
finance hundreds of millions of dollars in additional improvements. 
Many POTWs are also facing increasingly stringent nutrient limits, 
which can similarly impose compliance costs in the hundreds of millions 
of dollars for individual communities. The Clean Water SRF serves as an 
essential tool helping utilities meet their new requirements and 
limits.
    While attaining strong SRF funding levels is clearly essential, in 
light of the massive costs clean water utilities face we also urge 
Congress to deliver robust funding to other important water 
infrastructure programs. In particular, we urge at least $6.5 million 
to continue EPA's Integrated Municipal Stormwater and Wastewater 
Planning Approach (Integrated Planning), which helps communities 
address their EPA regulations cost-effectively and strategically. 
Integrated Planning allows clean water utilities and their communities 
to strategically prioritize clean water investments to provide greater 
``bang for the buck'' in addressing environmental and public health 
issues more holistically and cost-effectively.
    Additionally, providing more robust SRF funding levels will help 
our Nation's water and wastewater systems begin to address the billions 
of dollars of investment needs they face in the coming decades. EPA has 
reported that our wastewater systems face $271 billion in documented 
needs over the next 20 years--investments in publicly owned wastewater 
conveyance and treatment facilities, sewer overflow correction, and 
stormwater management. Drinking water systems require $384 billion in 
infrastructure rehabilitation and improvements over the same timeframe 
according to an EPA report. And these numbers likely do not reflect the 
true investment needs facing communities around the Nation. With the 
crisis in Flint renewing national attention on water infrastructure, 
now is the time to take a stand by appropriating strong funding to the 
programs that help our communities ensure the ongoing delivery and 
treatment of clean and safe water.
    Thank you for your thoughtful consideration, and please do not 
hesitate to contact NACWA for additional information.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee, I am David Terry, Executive Director of the National 
Association of State Energy Officials (NASEO), which represents the 56 
State and Territory Energy Offices. NASEO is submitting this testimony 
in support of funding for the ENERGY STAR program (within the Climate 
Protection Partnership Division of the Office of Air and Radiation) at 
the U.S. Environmental Protection Agency (EPA). NASEO supports funding 
of at least $55 million, including specific report language directing 
that the funds be utilized only for the ENERGY STAR program. The ENERGY 
STAR program is successful, voluntary, and cost-effective. The program 
has a proven track record--it makes sense, it saves energy and money 
and Americans embrace it. With a slowly recovering economy, ENERGY STAR 
helps consumers and businesses control expenditures over the long term. 
The program is strongly supported by product manufacturers, utilities 
and homebuilders, and ENERGY STAR leverages the States' voluntary 
efficiency actions. Voluntary ENERGY STAR activities are occurring in 
public buildings, such as schools, in conjunction with State Energy 
Offices, in Alabama, Alaska, Arkansas, California, Colorado, Delaware, 
District of Columbia, Florida, Georgia, Hawaii, Idaho, Illinois, 
Kentucky, Maine, Maryland, Michigan, Minnesota, Mississippi, Missouri, 
Montana, Nebraska, Nevada, New Hampshire, New Jersey, New Mexico, New 
York, North Carolina, North Dakota, Ohio, Oklahoma, Oregon, 
Pennsylvania, Rhode Island, South Carolina, Tennessee, Texas, Utah, 
Vermont, Virginia, Washington, West Virginia, Wisconsin, and Wyoming.
    The ENERGY STAR program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments, communities and business to 
achieve these goals in a cooperative, public-private manner. NASEO has 
worked very closely with EPA and approximately 40 States are ENERGY 
STAR Partners. With very limited funding, EPA's ENERGY STAR program 
works closely with the State Energy Offices to give consumers and 
businesses the opportunity to make better energy decisions and 
catalyzes product efficiency improvements by manufacturers without 
regulation or mandates.
    ENERGY STAR focuses on energy efficient products as well as 
buildings (e.g., residential, commercial, and industrial). Americans 
purchased more than 320 million ENERGY STAR certified products in 2014 
across more than 70 product categories for a cumulative total exceeding 
5.2 billion products since 1992. The ENERGY STAR label is recognized 
across the United States. In 2014, 89 percent of households recognized 
the ENERGY STAR label when it was shown to them. This constitutes an 
increase of 48 percent since the Consortium for Energy Efficiency first 
conducted the National Awareness of ENERGY STAR survey in 2000. It 
makes the work of the State Energy Offices much easier, by working with 
the public on easily recognized products, services, and targets. In 
order to obtain the ENERGY STAR label a product has to meet established 
guidelines. ENERGY STAR's voluntary partnership programs include ENERGY 
STAR Buildings, ENERGY STAR Homes, ENERGY STAR Small Business, and 
ENERGY STAR Labeled Products. The program operates by encouraging 
consumers and working closely with State and local governments to 
purchase these products and services. Marketplace barriers are also 
eradicated through education. State Energy Offices are working with EPA 
to promote ENERGY STAR products, ENERGY STAR for new construction, 
ENERGY STAR for public housing, etc. A successful example of how State 
Energy Offices are leveraging this key national program is the Nebraska 
Energy Office, which since 2005, has utilized ENERGY STAR as the 
standard for certifying home and office electronics that are eligible 
under the State's successful and long-running Dollar and Energy Savings 
Loan program.
    In 2014, millions of consumers and 16,000 voluntary partners, that 
included manufactures, builders, businesses, communities and utilities, 
tapped the value of ENERGY STAR and achieved impressive financial and 
environmental results. Their investments in energy-efficient 
technologies and practices reduced utility bills by $34 billion.
    An estimated 93,000 homes were improved through the whole house 
retrofit program, Home Performance with ENERGY STAR (HPwES) in 2014. 
This work was performed by 48 locally sponsored programs and more than 
2,100 participating contractors across the Nation. Since the program's 
inception, more than 400,000 homes have been improved through HPwES. 
Over 30 States, including Alabama, California, Kentucky, Minnesota, 
Nevada, and Pennsylvania, operate or support the Home Performance with 
ENERGY STAR programs.
    The State Energy Offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding ENERGY STAR Business Partners 
program. In Kentucky, the State has partnered with school districts and 
engineering firms to advance ENERGY STAR rated schools, resulting in 
more than 325 ENERGY STAR rated schools in the State, a 67 percent 
increase since 2012. Over the past few years, Kentucky has moved 
aggressively to promote and build zero-net energy schools. Other States 
that have over 150 ENERGY STAR rated schools include Arizona, 
California, Colorado, Florida, Georgia, Indiana, Michigan, Minnesota, 
New Mexico, New York, North Carolina, Ohio, Pennsylvania, Texas, Utah, 
Virginia, Washington and Wisconsin. Over 27 percent of Utah's K-12 
schools are certified as ENERGY STAR.
    EPA provides technical assistance to the State Energy Offices in 
such areas as ENERGY STAR Portfolio Manager (how to rate the 
performance of buildings), setting an energy target, and financing 
options for building improvements and building upgrade strategies. 
ENERGY STAR Portfolio Manager is used extensively by State Energy 
Offices to benchmark performance of State and municipal buildings, 
saving taxpayer dollars. Portfolio Manager is the industry-leading 
benchmarking tool used voluntarily by more than 325,000 commercial 
buildings. Portfolio Manager is used to measure, track, assess, and 
report energy and water consumption.
    Additionally, the industrial sector embraces ENERGY STAR and 
companies such as GM, Eastman Chemical, Nissan, Raytheon, Boeing and 
Toyota are recognized for sustained energy excellence by the program. 
At the close of 2014, the number of industrial sites committed to the 
ENERGY STAR Challenge for Industry grew, while 306 sites met or 
exceeded their targets by achieving an average 20 percent reduction in 
industrial energy intensity.
    The State Energy Offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
We encourage these continued efforts.
                               conclusion
    The ENERGY STAR program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports robust program funding of 
at least $55 million in fiscal year 2017. Funding for the ENERGY STAR 
program is justified. It's a solid public-private relationship that 
leverages resources, time and talent to produce tangible results by 
saving energy and money. NASEO endorses these activities and the State 
Energy Offices are working very closely with EPA to cooperatively 
implement a variety of critical national programs without mandates.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters
    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the Senate and House 
Committee on Appropriations, Subcommittee on Interior, Environment, and 
Related Agencies regarding our fiscal year 2017 appropriations 
recommendations. Our priorities focus primarily on appropriations for 
the USDA Forest Service (Forest Service) State and Private Forestry 
(S&PF) programs.
    State Foresters deliver technical and financial assistance, along 
with forest health, water and wildfire protection for more than two-
thirds of the Nation's 751 million acres of forests. The Forest Service 
S&PF mission area provides vital support to deliver these services, 
which contribute to the socioeconomic and environmental health of rural 
and urban communities. The comprehensive process for delivering these 
services is articulated in each State's Forest Resource Assessment and 
Strategy (State Forest Action Plan), authorized in the 2008 Farm Bill 
and continued in the Agriculture Act of 2014.
    Your support of the following programs is critical to helping 
States address the many and varied challenges outlined in Forest Action 
Plans.
Wildland Fire and Forest Fuels
    Wildland Fire Funding: State Foresters ask for your continued 
support to pass legislation that fixes the broken wildfire funding 
system and addresses much-needed forest management reforms, either 
separately or in tandem.
    The current wildfire suppression funding model and cycle of fire 
transfers and repayments continues to the challenge the Forest 
Service's ability to achieve its overall mission and negatively impacts 
Agency programs of priority to State Foresters. Additionally, the 
increasing 10-year average has not met annual suppression needs since 
before fiscal year 2002. We are thankful to the subcommittee for the 
full transfer repayment and increased suppression funding in fiscal 
year 2016. However, we understand this is not expected to occur every 
year. The Department of the Interior and the Forest Service need a 
long-term fire funding solution that would result in stable and more 
predictable budgets.
    In addition to the wildfire funding challenges are the challenges 
posed by the Nation's unhealthy, overgrown and fire-prone Federal 
forests. We support environmentally responsible forestry reforms on 
Federal lands as part of the funding remedy or as a separate effort.
    State Fire Assistance (SFA): More people living in fire-prone 
landscapes, high fuel loads, drought, and unhealthy landscapes are 
among the factors that led most State Foresters to identify wildland 
fire as a priority issue in their State Forest Action Plans. We now 
grapple with increasingly expensive and complex wildland fires--fires 
that frequently threaten human life and property. In 2015 there were 
68,151 wildfires with a record-breaking more than 10 million acres 
burned. Eighty percent of the total number of fires were where State 
and local departments had primary jurisdiction. Twenty-seven percent of 
the total acres burned were on State and private lands. In 2015, 85 
percent of all local and State crews and engine dispatched outside of 
their geographic area were responding to Federal fires, primarily on 
initial attack.
    Attacking fires when they are small is the key to reducing 
fatalities, injuries, loss of homes and cutting Federal fire-fighting 
costs.
    SFA and Volunteer Fire Assistance (VFA) are the fundamental Federal 
mechanisms for assisting States and local fire departments in 
responding to wildland fires and in conducting management activities 
that mitigate fire risk on non-Federal lands. SFA helps train and equip 
local first responders who are often first to arrive at a wildland fire 
incident and who play a crucial role in keeping fires and their costs 
as small as possible. A small investment of SFA funds supports State 
forestry agencies in accessing and repurposing equipment from the 
Federal Excess Personal Property and the Firefighter Property programs. 
In fiscal year 2015, these two programs delivered more than $169 
million in equipment for use by State and local first responders. NASF 
supports funding the State Fire Assistance program at $87 million and 
Volunteer Fire Assistance at $15 million in fiscal year 2017. These are 
the 2011/12 enacted levels. The need for increased funding for fire 
suppression has broad support and the administration's budget 
recommends a 12 percent funding increase to meet the anticipated fire 
threat. The need to increase fire suppression funding for State and 
private lands, where 80 percent of wildfires occur, is just as urgent.
Forest Pests and Invasive Plants
    Also among the greatest threats identified in the State Forest 
Action Plans are native and non-native pests and diseases. These pests 
and diseases have the potential to displace native trees, shrubs and 
other vegetation types in forests; the Forest Service estimates that 
hundreds of native and non-native insects and diseases damage the 
Nation's forests each year. They are also devastating the trees and 
forests of America's cities and towns. (The cost of replacing a single 
street tree is approximately $1000.) The growing number of damaging 
pests and diseases are often introduced and spread by way of wooden 
shipping materials, movement of firewood, and through various types of 
recreation. In 2010, approximately 6.4 million acres suffered mortality 
from insects and diseases \1\ and there is an estimated 81.3 million 
acres at risk of attack by insects and disease over the next 15 
years.\2\ These losses threaten clean and abundant water availability, 
wildlife habitat, clean air, and other environmental services. 
Furthermore, extensive areas of high insect or disease mortality can 
set the stage for large-scale, catastrophic wildfire.
---------------------------------------------------------------------------
    \1\ Man, Gary. 2011. Major Forest Insect and Disease Conditions in 
the United States: 2010 Update. Last accessed on March, 5, 2015 at: 
http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_2011.pdf.
    \2\ Tkacz, Bory, et al. 2014. NIDRM 2012 Report Files: Executive 
Summary. Last accessed on March, 5, 2015 at: http://www.fs.fed.us/
foresthealth/technology/pdfs/2012_RiskMap_Exec_
summary.pdf.
---------------------------------------------------------------------------
    The Cooperative Forest Health Management program supports 
activities related to prevention, monitoring, suppression, and 
eradication of insects, diseases, and plants through provision of 
technical and financial assistance to States and Territories to 
maintain healthy, productive forest ecosystems on non-Federal forest 
lands. Forest pests know no bounds. Controlling pests on private lands 
can stop millions of dollars in damage much of which would occur on 
public lands. The Cooperative Forest Health Management program plays a 
critical part in protecting communities already facing outbreaks and in 
preventing exposure of more forests and trees to the devastating and 
costly effects of exotic and invasive pests and pathogens. NASF 
supports funding the Forest Health Management--Cooperative Lands 
Program at $48 million in fiscal year 2017. (2012 enacted level.)
Assisting Landowners and Maintaining Working Forest Landscapes--Forest 
        Stewardship Program
    Working forest landscapes are a key part of the rural landscape, 
providing an estimated 900,000 jobs, clean water, wood products, and 
other essential services to millions of Americans. Private forests make 
up two-thirds of all the forestland in the United States and support an 
average of eight jobs per 1,000 acres.\3\ However, the Forest Service 
estimates that 57 million acres of private forests in the U.S. are at 
risk of conversion to urban development over the next two decades. 
Programs like the Forest Stewardship Program and Forest Legacy Program 
are key tools identified in the State Forest Action Plans for keeping 
working forests intact and for providing a full suite of benefits to 
society. Almost 90 percent of those who have stewardship plans, 
implement them. Almost 50 percent of the Nation's wood supply comes 
from small landowners who are the target of this program. Last year 
this program assisted over 323,000 landowners. Again fires and diseases 
know no bounds. A robust program has positive impacts on the Nation's 
watersheds, wildlife habitat and neighboring public lands. NASF 
supports funding the Forest Stewardship Program at $29 million in 
fiscal year 2017. $29 million is the fiscal year 2012 enacted amount. 
The need for increased funding on Federal lands for more active 
management has broad support and the administration's budget recommends 
an 8 percent increase over last year's enacted budget line item. The 
need to increase funding on State and private lands is just as urgent.
---------------------------------------------------------------------------
    \3\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.
---------------------------------------------------------------------------
Forest Legacy Program
    This program provides critical Federal assistance to States and 
private landowners to keep working forests working through permanent 
conservation easements and in some cases, fee acquisitions. Each 
easement acquisition is required to have a long-term forest stewardship 
plan.
    Working forests play an important role to sustain the economic, 
ecological, and social well-being of America's rural and urban areas 
through the jobs they support and the benefits they provide, such as 
wildfire threat reduction, clean air and water, wildlife habitat, and 
outdoor recreation space. NASF supports funding the Forest Legacy 
Program at $62 million in fiscal year 2017. (NASF supports the program 
being fully funded from the Land and Water Conservation Fund and not be 
included in the discretionary budget cap. NASF also recommends report 
language requiring coordination with State Foresters prior to 
recommendation and selection of easements and acquisitions due to land 
management considerations and tax implications.)
Urban and Community Forest Management Challenges
    Urban forests are important to achieving energy savings, improved 
air quality, neighborhood stability, aesthetic value, reduced noise, 
and improved quality of life in municipalities and communities around 
the country. There are demonstrable studies that show positive impacts 
urban trees and forests have on: childhood asthma, mitigating the 
impacts of auto exhaust, reducing home heating and air conditioning 
costs, providing economically viable solutions for storm water 
absorption, and even reducing crime rates. In fact, urban forests have 
been shown to provide environmental, social, and economic benefits to 
the more than 80 percent of Americans living in urban areas.\4\ Yet, 
urban and community forests face serious threats, such as development 
and urbanization, invasive pests and diseases, and fire in the wildland 
urban interface (WUI).
---------------------------------------------------------------------------
    \4\ United States Census Bureau, Growth in Urban Population 
Outpaces Rest of Nation, Census Bureau Reports. Available at https://
www.census.gov/newsroom/releases/archives/2010_census/cb12-50.html. 
Last Accessed March 5, 2015.
---------------------------------------------------------------------------
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990 (CFAA), the Forest Service's Urban and Community Forestry 
(U&CF) Program has provided technical and financial assistance to 
promote stewardship of urban forests in communities of all sizes across 
the country. The program is delivered in close partnership with State 
Foresters and leverages existing local efforts that have helped 
thousands of communities and towns manage, maintain, and improve their 
tree cover and green spaces. The program directly serves more than 
7,000 communities across the United States. In terms of climate change 
mitigation and effectiveness, urban and community activities including 
tree planting have virtually no detractors. The program has over a 2:1 
match for Federal dollars provided for this program. NASF supports 
funding the Urban and Community Forestry program at $31 million in 
fiscal year 2017.
Importance of Forest Inventory Data in Monitoring Forest Issues
    The Forest Inventory and Analysis program (FIA) enables forest 
managers and the natural resource community to understand the scope and 
scale of trends and changes in forest conditions and to make 
projections of future conditions. Funding for FIA supports State and 
private lands, which account for two-thirds of America's forests and 
provide public benefits such as clean air and water, wildlife habitat, 
outdoor recreation, jobs and wood products.
    NASF is concerned with the recent proposed and realized reductions 
to the USDA Forest Service Research and Development budget and 
recommends a total R&D funding level of $303 million--$83 million 
allocated to FIA. NASF supports funding the Forest Inventory and 
Analysis program at $83 million in fiscal year 2017.
Landscape Scale Restoration
    National priority Landscape Scale Restoration (LSR) projects are a 
key way that States, in collaboration with the USDA Forest Service and 
other partners, address critical forest priorities across the 
landscape. LSR projects focus only on the most critical priorities 
identified in each State's Forest Action Plan and on achieving national 
goals as laid out in the State and Private Forestry national themes. As 
a result, LSR contributes to achieving results across the landscape and 
to making meaningful local, regional, and national impacts.
    Competitive allocation of Cooperative Forestry Assistance Act funds 
was codified in the 2008 Farm Bill. The LSR budget line item was 
subsequently included in the fiscal year 2014 appropriations bill as 
the funding mechanism for a competitive process aimed at addressing 
critical priorities identified in State Forest Action Plans and based 
on the tenets of the State and Private Forestry redesign effort--
conserve working forest landscapes, protect forests from harm, and 
enhance public benefit from trees and forests.
    LSR allows State forestry agencies to target resources toward the 
highest priority forest needs in a State, group of States, or region, 
while also meeting national priorities.
    Regional review teams comprised of State and Federal officials with 
knowledge of the on-the-ground realities within the region carry out a 
rigorous review process to select the LSR projects that will receive 
funding within their region. Selected LSR projects are, as a result, 
the best and most ground-truthed landscape-scale, cross-boundary, 
outcome-driven projects.
    NASF supports funding the Landscape Scale Restoration program at 
$23 million in fiscal year 2017. NASF does not support increases in 
this program coming at the expense of other programs described above. 
NASF also supports report language which requires additional funding 
over fiscal year 2016 levels for LSR to be allocated for the highest 
national priorities as identified in each of the State Forest Action 
Plans as determined by each State Forester.
                                 ______
                                 
     Prepared Statement of the National Center for American Indian 
                         Enterprise Development
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee, I am Gary Davis, Cherokee Nation of Oklahoma tribal 
member, and President/CEO of the National Center for American Indian 
Enterprise Development (NCAIED or the National Center). The National 
Center appreciates this opportunity to express support for fiscal year 
2017 funding requests within the Interior appropriations bill that will 
support access to capital, and business, economic and energy 
development in Indian Country.
    Now in its 5th decade of operations, the National Center assists 
Indian tribes, tribal enterprises, Alaska Native regional and village 
corporations, Native Hawaiian Organizations, and American Indian, 
Alaska Native and Native Hawaiian business owners and entrepreneurs 
with their business, financing and contracting needs, including 
trainings, business development and other guidance, marketing tools, 
access to capital, and procurement technical assistance. In addition to 
providing these offerings 24 hours, 7 days a week through our new 
Native Edge Web portal, we host national and regional Reservation 
Economic Summits (RES). During March 21-24, we presented our 30th 
Anniversary National RES in Las Vegas, featuring Business Boot Camp and 
many other training sessions focused on business and economic 
development, a full day of procurement and business matchmaking, and a 
2-day trade show. Several sessions addressed access to capital, the 
focus of this statement.
Overview of Fiscal Year 2017 Budget Requests for Indian Programs
    The National Center views the President's fiscal year 2017 budget 
requests as quite responsive to Indian tribes' call for increases in 
myriad tribal programs, representing roughly 5 percent and 8 percent 
hikes in funding for the Bureau of Indian Affairs (BIA) and Indian 
Health Service, respectively, as well as fully funding Contract Support 
Costs. We are excited about the significant emphasis on Native youth 
through the Generation Indigenous Initiative, especially the components 
focused on Youth Entrepreneurship. The National Center hosted a 
successful ``Youth Entrepreneurship Summit'' (YES!) at our regional RES 
New Mexico in November, 2015 for over 200 students who traveled from 
nearby Pueblos and Indian tribes from out of State. Our RES Oklahoma 
conference in July, 2016 will feature another full day of YES! sessions 
for students from tribes in Oklahoma and surrounding States.
Properly Fund Interior's Indian Loan Guarantee Program
    One major shortcoming in the fiscal year 2017 budget requests is 
the paltry funding for the Indian Loan Guarantee Program of the 
Department of the Interior (DOI). Congress must increase the funding 
for this important program, as the National Center has testified 
repeatedly at several hearings conducted by the Senate Committee on 
Indian Affairs over the last 2 years, and urged at a special Committee 
briefing hosted for its staff and professional staff of the House and 
Senate Interior Appropriations Subcommittees last June.
    The fiscal year 2017 budget request provides only $7.57 million for 
a tiny increase to cover inflation, but reduces the current level, $113 
million, to $105.9 million for the aggregate value of loans than can be 
guaranteed--despite the huge demand for this program. Instead, we urge 
the subcommittee to approve $15 million, a $7.4 million increase that 
would be modest compared to the huge jump in total value of private 
sector guaranteed loans that are needed to meet demand for capital in 
Indian Country. Aggregate loan value could be $225-$250 million, 
depending on what the Office of Management and Budget would allow.
    The DOI loan guarantee program has proven to be a very successful 
leveraging tool that incentivizes private sector lenders to finance 
tribal projects, tribal enterprises, and businesses owned by Native 
Americans. Yet the current funding prevents the program from keeping 
pace with burgeoning demands for business and economic development 
capital in Indian Country where most private banks will not lend 
because they deem the risks too high. The banks (several tribal owned) 
that DOI has certified to receive these guarantees will lend to tribes 
and Indian businesses on Indian lands that cannot be used as loan 
collateral, and will consent to tribal court jurisdiction to resolve 
disputes or claims (which are rare). While the Small Business 
Administration (SBA) and U.S. Department of Agriculture (USDA) loan 
guarantee programs may be larger sources of guarantee support, they are 
not a substitute for the DOI program, for several reasons: (1) the 
guarantee is lower; (2) SBA's loan documents are not feasible in Indian 
Country; and (3) loan purpose and USDA product offering are not as 
flexible as offered by DOI. USDA does not offer a revolving line of 
credit for working capital, seasonal or cyclical needs. In one recent 
case, a USDA loan guarantee's terms would have resulted in a default 
had DOI's program not stepped in with a guarantee structure that 
allowed the loan to fund a project that will create more than 100 jobs 
over the loan's term.
    Recognizing the need to expand the Indian Loan Guarantee Program, 
Congress authorized a major increase in 2006 for the aggregate limit on 
guaranteed loans from $500 million to $1.5 billion. However, due to 
insufficient funding for the program's credit subsidy, the annual 
aggregate of guaranteed loans has hovered around only $100 million. In 
fiscal year 2015, the program was funded at about $7.7 million, and the 
entire guarantee allocation was exhausted 4 months before the end of 
the fiscal year--leaving a backlog of pending loan applications 
approaching another $100 million. At the current funding level, the 
guarantee allocation likely will be exhausted even earlier in fiscal 
year 2016!
    The DOI program has a good track record of successful projects, 
less than a 2.5 percent default rate (lower than those of SBA and 
USDA), and could infuse hundreds of millions more dollars into Indian 
Country if expanded significantly, as requested. In Senate Committee on 
Indian Affairs testimony on June 17, 2015, National Center Board 
Chairman Derrick Watchman listed six successful projects financed with 
the support of Indian loan guarantees, and the many jobs those projects 
created. Below are additional examples:

  --A $12 million guaranteed loan enabled Alaska Native village Huna 
        Totem Corporation, Inc. to redevelop an old cannery site into a 
        new dock and tourist destination for visiting cruise ships, 
        creating about 130 year-round and summer jobs--Grand Opening 
        May 23;
  --A $2.65 million guaranteed loan to Alaska Native village, Kwethluk, 
        to construct a general store, adding 2-3 jobs, space for small 
        engine repair operations, and greater storage for larger food 
        quantities to afford offering lower prices to village 
        customers;
  --Five guaranteed loans, totaling $15 million over many years, helped 
        build the Indian Pueblo Cultural Center, owned by 19 Pueblos in 
        New Mexico, and create 200 jobs;
  --A series of 10 new guaranteed loans (totaling $47 million) to 5 
        separate borrowers will finance projects on Navajo Nation, 
        including: a gasoline stop with a convenience store on Navajo, 
        creating 50 temporary and 30 permanent jobs; the Navajo Tribal 
        Utility Authority headquarters building construction and 
        infrastructure improvements, creating over 200 temporary and 
        100 permanent jobs; and several $150,000+ lines of credit for 
        seasonal working capital for Navajo businesses;
  --Two new loans totaling $7.3 million to Big Lagoon Rancheria in 
        California to construct a wellness center to serve the tribe 
        and surrounding area, creating 8-12 additional jobs;
  --A $12 million guaranteed loan for a California tribe's resort 
        construction, creating an estimated 100+ jobs;
  --A $6.6 million guaranteed refinance for improvements and added 
        services for a Native family's three convenience stores, one on 
        the Pine Ridge Reservation in South Dakota;
  --A $5.5 million guaranteed loan to construct a new hotel on the 
        Blackfeet Reservation in Montana near Glacier National Park, 
        adding tourism, retail traffic, and 25 jobs;
  --Pending loans subject to guarantee for projects in North Dakota: 
        one in Belcourt for a startup hardware/lumber business; and the 
        other for business expansion and start up of a new procurement 
        division of a tribal enterprise of the Three Affiliated Tribes; 
        and
  --A $10 million guaranteed loan for a Nevada tribe's economic 
        development project.

    As the program produces a remarkable return of $15 in private 
sector funds for every $1 of Federal funds invested, Congress should 
appropriate $15 million for the Indian Loan Guarantee Program for 
fiscal year 2017 to support private lending in a range of $225-$250 
million.
    Funding for the Indian Loan Guarantee Programs at $15 million is 
supported by the National Center, National Congress of American 
Indians, Native American Finance Officers Association and many other 
national and regional Native American organizations representing Indian 
tribes, Alaska Native regional and village corporations, tribal 
enterprises and Native American-owned businesses nationwide.
Other Programs Facilitating Business and Economic Development in Indian 
        Country
    The National Center also urges approval of the following fiscal 
year 2017 budget requests as modest initiatives that leverage or spur 
substantial development in Indian Country:
    Carcieri: The Interior budget requests include general provisions 
to restore parity among tribes striving to protect and enhance their 
original land base, or to reacquire some of the lands they lost, by 
confirming the Secretary of Interior's authority to acquire land in 
trust for any federally recognized tribe. Approval is imperative.
    Streamlining and Capacity Building: Approving the requested 
increases for the following initiatives will help streamline delivery 
of technical and financial assistance to accelerate business, economic 
and energy development in Indian Country:

  --$4 million for the BIA's ``Native-One-Stop'' initiated in 2015 to 
        facilitate tribes' search for and access to Federal resources;
  --$1 million to assist tribes in adopting uniform commercial codes to 
        strengthen their legal infrastructure and promote credit and 
        other capital transactions that will spur business and economic 
        development; and
  --$5 million for the Indian Energy Service Center for its Tribal 
        Energy Program to provide technical and financial assistance to 
        tribal communities to deploy small to medium-scale renewable 
        energy generation projects.

    Support for the Office of Indian Energy and Economic Development: 
In addition to the increases requested for the energy components of 
this important Office, we recommend that some additional funding be 
provided for activities of the Economic Development Division.
    In closing, I want to thank the subcommittee for the opportunity to 
present these requests to increase support for the above programs that 
invest Federal dollars as leverage to multiply exponentially the amount 
of private capital invested in business, economic and energy 
development in Indian Country.
                                 ______
                                 
      Prepared Statement of the National Ground Water Association
    The National Ground Water Association (NGWA) requests that $5 
million be allocated in the fiscal year 2017 Department of Interior 
budget to the United States Geological Survey (USGS) account in its 
Groundwater and Streamflow Information Program to continue 
implementation and maintenance of the National Ground-Water Monitoring 
Network (NGWMN). NGWA is the world's largest association of groundwater 
professionals, representing public and private sector engineers, 
scientists, water well contractors, manufacturers, and suppliers of 
groundwater related products and services.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. Nationally, nearly 50 percent of the 
drinking water supply comes from groundwater and in some locations it 
is relied on by 80 percent of Americans for drinking water. Groundwater 
also serves as a key source of agricultural irrigation water.
    However, this vital unseen resource--on which the Nation's people, 
food supply, economy and ecosystems rely--is not monitored on a 
consistent basis across States, nor is most data publicly available. 
Groundwater levels and quality change over time, and the continued 
implementation of the NGWMN will allow water resources to be better 
utilized, managed and protected through data-sharing on an online 
portal.
    As with any valuable natural resource, our groundwater reserves 
must be monitored to assist in planning and minimizing potential 
impacts from shortages or supply disruptions. Just as one cannot 
effectively oversee the Nation's economy without key data; one cannot 
adequately address the Nation's food, energy, economic, and drinking 
water security without understanding the extent, availability and 
sustainability of a critical input--groundwater.
    Congress acknowledged the need for enhanced groundwater monitoring 
by authorizing a national groundwater monitoring network with passage 
of Public Law 111-11 (Omnibus Public Land Management Act) the SECURE 
Water Act of 2009 and viability of the network was proven through the 
completion of pilot projects in six States--Illinois, Indiana, 
Minnesota, Montana, New Jersey, and Texas. These States voluntarily 
pilot tested concepts for a national groundwater monitoring network as 
developed by the Federal Advisory Committee on Water Information's 
(ACWI) Subcommittee on Ground Water (SOGW).
    $2.6 million in funding was provided in fiscal year 2015 and an 
additional $3.6 million was provided in fiscal year 2016. The funds are 
being used to begin implementation of the national network through the 
creation of cooperative agreements with new and existing data 
providers. However, this funding will only allow implementation to 
begin across a handful of States. Additional funding for fiscal year 
2017 is requested to allow for implementation across more States.
    Once implemented nationwide, the NGWMN would provide consistent, 
comparable nationwide data that would be accessible through a public 
Web portal for Federal, State, local government and private sector 
users. In these tight fiscal times, the proposed network would build on 
existing State and Federal investments, maximizing their usefulness and 
leveraging current dollars to build toward systematic nationwide 
monitoring of the groundwater resource.

    Funding from the NGWMN will be used for two purposes:

    1.  Provide grants to regional, State, and tribal governments to 
cost share increased expenses to upgrade monitoring networks for the 50 
States to meet the standards necessary to understand the Nation's 
groundwater resources.
    2.  Support the additional work necessary for USGS to manage a 
national groundwater monitoring network and provide national data 
access through an Internet Web portal.

    Though the amount requested is small in the context of the 
Department of Interior's annual budget request, funding is vital when 
we understand that for a small investment we can begin finally to put 
in place adequate monitoring of the hidden resource that provides 
nearly 50 percent of the Nation's drinking water supply and serves as a 
key driver for our agricultural economy.
    Thank you for your considering this testimony.

    ----------------------------------------------------------------

    The National Ground Water Association is a not-for-profit 
professional society and trade association for the groundwater 
industry. NGWA is the largest organization of groundwater professionals 
in the world. Our more than 11,000 members from all 50 States and 72 
countries include some of the leading public and private sector 
groundwater scientists, engineers, water well contractors, 
manufacturers, and suppliers of groundwater related products and 
services. The Association's vision is to be the leading community of 
groundwater professionals that promotes the responsible development, 
use and management of groundwater resources.

    ----------------------------------------------------------------

                                 ______
                                 
 Prepared Statement in Support of the National Groundwater Monitoring 
                                Network
    Dear Chairman Murkowski and Ranking Member Udall:

    On behalf of the undersigned organizations, we ask for your 
continued support of the National Groundwater Monitoring Network 
(NGWMN) in the fiscal year 2017 Interior and Environment Appropriations 
bill. Groundwater is a critical source of drinking water for more than 
40 percent of the country, and in some locations is relied on by more 
than 80 percent of the population. It is a primary source of irrigation 
water for high-quality agricultural products and an important economic 
driver for the U.S. economy. Therefore, we the undersigned ask Congress 
to fund the NGWMN at a level of $5 million for fiscal year 2017.
    Drought conditions persist throughout the West, and groundwater 
depletion has expressed itself through subsidence, lowering of aquifer 
water-levels below well intakes, and impacts on water quality. Drought 
conditions underscore the need to develop a comprehensive and publicly 
accessible groundwater monitoring network.
    The NGWMN was authorized in the 2009 SECURE Water Act and is at the 
beginning stages of implementation, providing Federal support for pilot 
programs in six States--Illinois, Indiana, Minnesota, Montana, New 
Jersey, and Texas and initial appropriations of $2.6 million and $3.6 
million provided in fiscal year 2015 and fiscal year 2016. This support 
allowed for cooperative agreements to be signed between the United 
States Geological Survey (USGS) and several States. However, support 
must continue and be expanded to enable broader implementation at a 
time when stresses to water supplies across the country are felt daily.
    The NGWMN is designed to expand and enhance many existing 
monitoring efforts, but these efforts are not presented in a common 
platform and often require extensive analysis in order to use the data 
collected on a national scale, limiting the data's usability. The 
NGWMN, through a Federal-State cooperative program, provides for the 
collection of groundwater data from representative wells meeting common 
criteria, assuring the usability and quality of the data contributed to 
the network.
    The United States Geological Survey (USGS) maintains and updates 
the network, providing public access through a web portal, allowing 
anyone with a web browser to see groundwater level and water quality 
trends for wells in the network. States and other contributors to the 
NGWMN retain ownership of the collected data.
    Ultimately, the network will provide the data required to assess 
baseline conditions and long-term trends in groundwater levels and 
water quality in important aquifers at national, multistate, and 
regional scales--even aquifers shared with Canada and Mexico. The 
network will also provide data for national, State, and aquifer-level 
management decisions to help determine the long-term viability of these 
groundwater sources.
    Groundwater's role in securing our Nation's future is invaluable, 
which is why we request that Congress fund the NGWMN at $5 million for 
fiscal year 2017. To ensure that the funding fulfills the intent of the 
NGWMN as authorized by the SECURE Water Act, we also request the 
following report language be included:

        Within Water Resources, the bill includes $5 million for 
        continuation of a National Groundwater Monitoring Network, as 
        requested. The Committee intends at least 50 percent of these 
        funds to be used to provide cost-share grants to State and 
        local entities to upgrade monitoring networks to national 
        standards and to incorporate wells into the network. The 
        funding will also support additional work by the USGS necessary 
        to manage and provide data access through an Internet web 
        portal.

            Sincerely,

Alaska Water Well Association
American Geosciences Institute
Arizona Water Well Association
Association of American State Geologists
California Groundwater Association
Colorado Water Well Contractors Association
Empire State Water Well Drillers Association
Florida Ground Water Association
Georgia Association of Groundwater Professionals
Groundwater Resources Association of California
Ground Water Protection Council
Illinois Association of Groundwater Professionals
Irrigation Association
Louisiana Ground Water Association
Michigan Ground Water Association
Minnesota Water Well Association
Montana Water Well Drillers Association
National Ground Water Association
National Utility Contractors Association
Nebraska Well Drillers Association
Nevada Groundwater Association
North Carolina Ground Water Association
South Carolina Ground Water Association
Tennessee Water Well Association
Oregon Ground Water Association
Washington State Ground Water Association
Water Systems Council
Water Quality Association
Wyoming Water Well Association
      
                                 ______
                                 
 Prepared Statement of the National Horse & Burro Rangeland Management 
                               Coalition
    The National Horse & Burro Rangeland Management Coalition 
appreciates the opportunity to submit testimony regarding the fiscal 
year 2017 appropriations for the Bureau of Land Management Wild Horse & 
Burro Program. The National Horse & Burro Rangeland Management 
Coalition includes a wide range of sportsmen's, livestock, wildlife, 
and land conservation organizations and professional societies. 
Collectively, we represent millions of Americans and focus on 
commonsense, ecologically sound approaches to managing horses and 
burros to promote healthy wildlife and rangelands for future 
generations.
    Our coalition is concerned about the exponentially growing 
population of wild horses and burros on our Nation's rangelands and the 
minimal efforts proposed in the President's fiscal year 2017 budget to 
reduce their impacts.
    As of March 1, 2015, wild horse and burro populations surpassed 
58,000 animals on BLM rangelands. This threshold exceeds the BLM 
estimated ecologically sustainable level of 26,715 horses and burros by 
more than 31,000. This extreme level of overpopulation negatively 
impacts the country's rangelands, risking the future of the ecosystem. 
By continuing to allow horses and burros to exceed sustainable levels, 
the BLM and Congress are placing the future of wildlife, rangelands, 
livestock operations, and the horses and burros themselves in jeopardy.
    The focus of the BLM Wild Horse & Burro program should revert to 
its original purpose and stated goal of achieving appropriate 
management levels (AML). Direct removal of horses and burros from 
impacted regions will aid in AML being achieved while simultaneously 
reducing their impact on the supporting ecosystem.
    The President's fiscal year 2017 budget proposal plans for the 
removal of only 2,500 horses and burros from the country's rangelands. 
Wild horse populations typically grow by 18-20 percent per year and 
double in size every 4-5 years. This means that even with fiscal year 
2016 removals reaching the proposed amount of 2,500 individuals, the 
current on-range population is likely around 66,000. This is an 
unacceptable rate of increase for a population that already greatly 
exceeds AML. Such population numbers will continue to cause an 
unacceptable level of damage to a valuable asset for our country.
    We appreciate the BLM's increased attention to fertility control 
methods through research partnerships with universities and the U.S. 
Geological Survey, as we believe that scientifically based use of 
fertility control and implementation of non-reproducing herds can be an 
important component of the solution to this problem. However, fertility 
control alone does not solve the problem and should not be the primary 
approach. About 85 percent of Herd Management Areas (HMA) are already 
over AML, some reaching more than 500 percent of their AML. Fertility 
control methods, if they are effective in reducing pregnancies, will 
only help maintain population levels in the short term, not reduce 
them.
    Direct removal of wild horses and burros from the range is the only 
way to achieve AML in a reasonable amount of time. The BLM's efforts to 
transfer corralled horses and burros to more cost effective eco-
sanctuaries and holding facilities as well as the BLM's request for 
authority to transfer horses and burros to local, State, and Federal 
agencies are steps in the right direction to free up space for further 
removals. They will not, however, come close to providing the space 
needed for the removal of 31,000 excess horses and burros currently on 
the range.
    We are hopeful that these small initiatives will highlight the need 
for drastic legislative changes to the BLM's management of wild horses 
and burros. Without an increase in the rate of removal of horses and 
burros, populations will continue to expand and our Nation will witness 
not only growing degradation to its rangeland ecosystem, but also 
growing costs to its taxpayers.
    We urge this subcommittee and other Members of Congress to address 
this increasing problem for our Nation's valuable rangelands by 
directing the BLM to remove horses at a rate substantial enough to 
produce significant results and protect our resources.
    Thank you for considering the input of our coalition. We invite 
your questions and welcome the opportunity to discuss this ongoing 
issue and possible solutions with the subcommittee.

American Farm Bureau Federation
American Sheep Industry Association
Masters of Foxhounds Association
Mule Deer Foundation
National Association of Conservation Districts
National Cattlemen's Beef Association
National Rifle Association
National Wildlife Refuge Association
Public Lands Council
Public Lands Foundation
Rocky Mountain Elk Foundation
Safari Club International
Society for Range Management
The Wildlife Society
      
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance
    Mr. Chairman and members of the subcommittee:

    On behalf of the National Humanities Alliance, with our more than 
150 member organizations, I write to express strong support for the 
National Endowment for the Humanities (NEH).
                                overview
    For fiscal year 2017, we respectfully urge the subcommittee to fund 
the National Endowment for the Humanities at $155 million.
    We would like to thank the subcommittee for appropriating $147.9 
million to the NEH for fiscal year 2016, thereby increasing the 
Endowment's funding by nearly $2 million. This increase was a first 
step in rebuilding the capacity of NEH, which has been severely eroded 
in recent years. Despite the increase for fiscal year 2016, the 
Endowment's current funding is 20 percent below its fiscal year 2010 
level, when adjusted for inflation. Modestly increasing NEH's budget to 
$155 million would allow the Endowment to regain its capacity to 
support the humanities at a time when the humanities are increasingly 
called upon to meet national needs.
    While we recognize the seriousness of the fiscal situation faced by 
Congress and the administration, and we understand the difficult 
choices that are before this subcommittee, we believe that expanding 
the capacity of NEH should be a priority. In the remainder of this 
testimony, I will highlight some of the many ways that NEH serves 
national needs and describe the ways in which the humanities, more 
generally, have been called upon to help accomplish critical national 
goals.
                       neh serves national needs
    The National Endowment for the Humanities' funding is distributed 
to the Federal/State Partnership, which supports humanities councils in 
every State and Territory; Competitive Grants divisions, which award 
peer-reviewed grants in Research, Education, Preservation, Digital 
Humanities, Challenge Grants, and Public Programs; and the Common Good 
Initiative, which harnesses the power of the humanities to address 
society's pressing challenges. I will highlight just three examples of 
how NEH grants serve clear national needs.
1.  NEH's Standing Together program aids veterans' assimilation into 
        civilian life and deepens the public awareness of the 
        experience of war.
    In the past 3 years, the NEH has added the Standing Together 
program to its already critical work. Last year's increased 
appropriation was critical to expanding this program, although much 
unmet demand continues to exist. The initiative funds reading groups 
for veterans that help them process their experiences through 
discussions of literature on war and homecoming; writing programs for 
veterans suffering from PTSD; intensive college-preparation programs; 
and training for Veterans Affairs staff to help them understand the 
experiences of veterans. One key example is Missouri's Veteran's 
Writing Workshops, sponsored by the Missouri Humanities Council and 
executed in collaboration with the VA St. Louis Medical System at 
Jefferson Barracks, the St. Louis Public Library, and Drury University. 
These workshops are designed for veterans and their families--helping 
them to process and better express their experiences through writing 
and narrative. The fiction, non-fiction, and prose composed in these 
workshops has been compiled into an anthology series entitled Proud to 
Be: Writing by American Warriors, published by Southeast Missouri State 
University Press, which allows the broader American public to more 
fully understand the experience of military service.
2.  NEH plays a key role in the preservation of native languages and 
        cultures.
    NEH supports the documentation and teaching of native languages, 
history, and culture. A recent grant supported the creation of an 
online digital archive of approximately 700 objects, art works, and 
photographs representing the cultural heritage of the Chugach people of 
southern Alaska. Another grant provided support to make Ojibwe cultural 
artifacts--including beadwork, recorded songs, historical photographs, 
and census rolls--accessible online to tribal members, teachers, and 
the public. NEH's Office of Challenge Grants awarded funding to the 
Northwest Indian College in Bellingham, Washington to develop programs 
to preserve the culture and revitalize the language of the Salish 
people. These are just a few examples of NEH's long-term commitment to 
sustaining, revitalizing, and preserving Native American languages and 
cultures.
3.  NEH works in underserved regions.
    Through NEH on the Road, NEH brings museum exhibitions to 
underserved regions. Between 2014 and 2017, House & Home, the flagship 
installation at the National Building Museum, will travel to Belton, 
Texas; Townsend, Tennessee; and Carthage, Missouri among 25 sites 
total. The Humanities in the Public Square program, launched in late 
2015, also promises to play a key role in building rural and 
underserved communities. One grant awarded under this program to North 
Dakota State University in Fargo, entitled ``Telling Stories, Creating 
Community: Understanding the Legacies of War at Home,'' will foster 
community building through dialogues between veterans, families of 
veterans, and the larger community in Fargo-Morehead.

    In addition to these highlighted programs, each year NEH awards 
hundreds of competitive, peer-reviewed grants to individual scholars 
and a broad range of nonprofit educational organizations around the 
country. Grantees include universities, 2- and 4-year colleges, 
humanities centers, research institutes, museums, historical societies, 
libraries, archives, scholarly associations, K-12 schools, local 
education agencies, public television/film/radio producers, and more. 
Through its competitive grants programs, NEH supports the preservation 
of collections that would be otherwise lost, path-breaking research 
that brings critical knowledge to light, programs for teachers that 
enrich instruction in schools, and public programs that reach 
individuals and communities in every district in the country.
    Overall, NEH's support is crucial for building and sustaining 
humanities' infrastructure in all 50 States, serving American citizens 
at all stages of life.
             importance of the humanities to national needs
    The humanities are increasingly called upon to play critical roles 
in our efforts to achieve four national goals: opportunity for all 
Americans, innovation and economic development, productive global 
engagement, and strong communities.
Opportunity for All Americans
    Many Americans lack access to opportunity because they are 
deficient in a number of critical skills that are sought by employers. 
In a recent study conducted by the Conference Board, Corporate Voices 
for Working Families, the Partnership for 21st Century Skills, and the 
Society for Human Resource Management, employers ranked reading and 
writing as top inadequacies in new hires. More than a third of 
employers found high school graduates ``deficient'' in reading 
comprehension, and ``written communications'' topped the list of 
applied skills found lacking in high school and college graduates. 
These deficiencies not only limit the economic mobility of individuals, 
they also carry an economic burden for society as annual spending on 
remedial writing courses is estimated at more than $3.1 billion for 
large corporations and $221 million for State employers.
Innovation and Economic Growth
    Employers increasingly seek employees who can combine the cultural 
knowledge and analytical ability fostered by humanities programs with 
technical knowledge and scientific research fostered by STEM education 
to create innovation and economic growth. In an effort to serve this 
demand, the Committee on the Engineer of 2020, a group convened by the 
National Academy of Engineering, recommends increased interdisciplinary 
education--including the humanities--in order to train engineers with 
the broad perspective necessary for 21st century innovation. Similarly, 
a substantial number of medical schools have integrated humanities 
coursework into their programs to enhance the cultural knowledge and 
observational abilities of their graduates with the goal of providing 
higher quality, more efficient care. Recognizing the role that the 
humanities play in fostering innovation, countries such as China and 
India have begun to integrate the humanities into their own education 
systems.
Productive Global Engagement
    As they deal with increasingly complex international relationships, 
business and military leaders look to the humanities to provide 
critical knowledge about communities throughout the world. These 
leaders argue that our ability to engage productively with the world 
depends on the deep knowledge of the languages, cultures, and histories 
of rapidly changing areas of the world that the humanities cultivate 
and maintain. Historians, linguists, anthropologists, archaeologists, 
and scholars of literature and religion, among others, spend years 
learning about communities and their deep roots, thereby gaining 
expertise that informs those who seek to work in these geographic 
areas. In 2013, former Ambassador to Afghanistan, Karl Eikenberry, 
described the critical role of the humanities in preparing our citizens 
for global engagement, ``We need a strong cadre of Americans in our 
government, military, business, civil society, academe, and beyond who 
have the right skills and experience to help America stay connected 
with the world and shape outcomes that secure our national interests.''
Strong Communities
    Finally, with the well-documented decline in critical, community-
based social institutions, communities throughout our own country are 
trying to foster a sense of shared identity and responsibility. In 
doing so, they rely on the humanities to preserve and explore their 
history and traditions in order to promote the understanding of common 
ideals, enduring civic values, and shared cultural heritage. To 
strengthen communities, humanities councils, museums, libraries, and 
universities produce vital programs that promote understanding among 
diverse communities through the cultivation and exchange of knowledge 
about cultural heritage and history.
                               conclusion
    We recognize that Congress faces difficult choices in allocating 
funds in this and coming years. We ask the subcommittee to consider 
modestly increased funding for the humanities through NEH as an 
investment in opportunity for all Americans, innovation and economic 
growth, productive global engagement, and strong communities. Thank you 
for consideration of our request and for your past and continued 
support for the humanities.
    Founded in 1981, the National Humanities Alliance advances national 
humanities policy in the areas of research, preservation, public 
programming, and teaching. More than 150 organizations are members of 
NHA, including scholarly associations, humanities research centers, 
colleges, universities, and organizations of museums, libraries, 
historical societies, humanities councils, and higher education 
institutions.

    [This statement was submitted by Stephen Kidd, Executive Director.]
                                 ______
                                 
  Prepared Statement of the National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a national 
American Indian/Alaska Native (AI/AN) nonprofit organization. NICWA has 
provided leadership in the development of public policy that supports 
tribal self-determination in child welfare and children's mental health 
systems for over 30 years. This testimony will provide recommendations 
for the following programs administered by the Bureau of Indian Affairs 
(BIA) in the Department of the Interior: Indian Child Protection and 
Family Violence Prevention ($43 million), Social Services ($57.3 
million), Welfare Assistance ($80 million), Indian Child Welfare Act On 
or Near Reservation Program (Tribal Priority Allocation--$18.9 
million), and Indian Child Welfare Act Off-Reservation Program ($5 
million).
    Congress has unequivocally recognized that there is nothing ``more 
vital to the continued existence and integrity of Indian tribes than 
their children.'' (25 U. S. C. Sec. 1901[3] [2006]). Congress must 
promulgate a budget that empowers tribes to provide the programs and 
services necessary to safeguard their children and strengthen their 
families. A recent report from the Attorney General's Advisory 
Committee on American Indian/Alaska Native Children Exposed to Violence 
emphasized this very point:

          Congress and the executive branch shall direct sufficient 
        funds to AI/AN tribes to bring funding for tribal criminal and 
        civil justice systems and tribal protection systems into parity 
        with the rest of the United States and shall remove barriers 
        that currently impede the ability of AI/AN nations to 
        effectively address violence in their communities. The Advisory 
        Committee believes that treaties, existing law, and trust 
        responsibilities are not discretionary and demand this 
        action.\1\
---------------------------------------------------------------------------
    \1\ U. S. Department of Justice, Office of Justice Programs, Office 
of Juvenile Justice and Delinquency Prevention. (2014). Attorney 
General's Advisory Committee on American Indian/Alaska Native Children 
Exposed to Violence: Ending violence so children can thrive (p. 51). 
Retrieved from http://www.justice.gov/sites/default/files/
defendingchildhood/pages/attachments/2014/11/18/finalaianreport.pdf.

    As this recommendation suggests, Congress must prioritize the 
safety and well-being of all children. According to the advisory 
committee, ``AI/AN children are generally served best when tribes have 
the opportunity to take ownership of the programs and resources they 
provide.'' \2\ The recommendations below suggest funding increases that 
will provide tribes with sufficient child welfare funding and avoid 
unnecessary restraint on tribal decisionmaking. We urge Congress, as 
they make budgetary decisions for fiscal year 2017, to not forget AI/AN 
children and families.
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
                    priority program recommendation
    Indian Child Protection and Family Violence Prevention Act 
Recommendation.--Appropriate for the first time $43 million for the 
three grant programs under this law--$10 million for the Indian Child 
Abuse Treatment Grant Program, $30 million for the Indian Child 
Protection and Family Violence Prevention Grant Program, and $3 million 
for the Indian Child Resource and Family Service Centers Program to 
protect AI/AN children from child abuse and neglect.
    The Indian Child Protection and Family Violence Prevention Act 
(ICPFVPA), Public Law No. 101-630 (1991), was enacted to fill gaps in 
tribal child welfare services--specifically child protection and child 
abuse treatment--and to ensure better coordination between child 
welfare and domestic violence programs. The act authorizes funding for 
two tribal programs: (1) the Indian Child Protection and Family 
Violence Prevention Program, which funds prevention programming and 
supports investigations of family violence and emergency shelter 
services; and (2) the Treatment of Victims of Child Abuse and Neglect 
program, which funds treatment programs for victims of child abuse. It 
also authorizes funding to create Indian Child Resource and Family 
Service Centers at each of the BIA regional offices.
    Child abuse prevention funding is vital to the well-being and 
financial stability of AI/AN communities. Beyond the emotional trauma 
that maltreatment inflicts, victims of child maltreatment are more 
likely to require special education services, more likely to be 
involved in the juvenile and criminal justice systems, more likely to 
have long-term mental health needs, and have lower earning potential 
than their peers.\3\ Financially, child maltreatment costs tribal 
communities and the United States $210,012 per victim.\4\ Child abuse 
prevention funding is essential, therefore, to the well-being of 
families and the social and economic development of tribal communities.
---------------------------------------------------------------------------
    \3\ Fang, X., Brown, D. S., Florence, C. S., & Mercy, J. A. (2012). 
The economic burden of child maltreatment in the United States and 
implications for prevention. Child Abuse & Neglect, 36, 156-65. doi: 
10.1016/j.chiabu.2011.10.006.
    \4\ Ibid.
---------------------------------------------------------------------------
    Therefore, tribes, like States, need adequate resources to 
effectively prevent and respond to family violence in their 
communities. However, unlike States, tribes do not have access to the 
key Department of Health and Human Services (DHHS) child protection 
programs, the Child Abuse Prevention and Treatment Act (CAPTA) Basic 
Funding Program and the Social Services Block Grant (Title XX). The 
programs authorized under ICPFVPA were created to fill this gap but, 
without appropriation, tribes are left without funding for child 
protection and child abuse prevention services.
                     other program recommendations
    Social Services Recommendation.--Increase funding by $12.1 million 
as recommended by the President's proposed Tiwahe Initiative for a 
total appropriation of $57.3 million so that child and family programs 
in Indian Country can be strengthened and expanded.
    The Social Services Grant Program provides a wide array of family 
support services filling many funding gaps for tribal programs, and 
ensuring Federal staff and technical assistance for these programs. 
These funds are desperately needed. A recent assessment of BIA social 
services found that, in large part due to inadequate funding:

          BIA and tribal social services staff prepare, authorize, and 
        document various social services activities as part of their 
        daily activities. Some tribes reported frequent vacancies and 
        staff turnover in social services programs and mentioned a need 
        for BIA to provide basic guidance and supporting materials to 
        ensure continuity of services throughout tribal communities . . 
        . 
          Technical support is one area where roles and 
        responsibilities remain unclear, as demonstrated by BIA's 
        social services contracts with tribes. The contracts, or annual 
        funding agreements, state that BIA will provide technical 
        support with social services issues as needed. Contrary to 
        these agreements, we uncovered reports of insufficient or 
        nonexistent technical support. In some cases, tribes could wait 
        up to three weeks before receiving a response, or they might 
        receive no response at all.\5\
---------------------------------------------------------------------------
    \5\ Department of the Interior, Office of Inspector General. 
(2012). Management of social services in BIA: Opportunity for action 
(Report No. WR-EV-BIA-0001-2012). (pp. 5-6) Retrieved from http://
www.doi.gov/oig/reports/upload/WR-EV-BIA-0001-2012Public.pdf.

    As this assessment describes, the program is drastically 
underfunded, and tribal programs, families, and children suffer as a 
result. In fiscal year 2016 this program saw a $5 million increase. 
This is to be commended and the momentum must continue. Another $12.1 
million must be appropriated for this program, as suggested in the 
President's budget to support the Tiwahe (family) Initiative--children 
and families depend on it.
    Welfare Assistance Recommendation.--Increase current funding levels 
to $80 million to provide a safety net for Native families and assist 
grand families and other kinship caregivers in tribal communities.
    The Welfare Assistance line item provides five important forms of 
funding to AI/AN families: (1) general assistance, (2) child 
assistance, (3) non-medical institution or custodial care of adults, 
(4) burial assistance, and (5) emergency assistance. These programs 
often provide the assistance necessary to help a family make ends meet, 
prevent neglect, and keep their children safely in the home. Currently 
the need far exceeds the funding provided by this program.
    AI/AN adults on reservations--including parents and kinship 
caregivers--are unemployed at a rate more than two times the 
unemployment rate for the total population.\6\ Thirty-four percent of 
AI/AN children live in households with incomes below the poverty line 
as compared to 20.7 percent of children nationwide.\7\ AI/AN families 
live much closer to financial crisis than the average American family. 
AI/AN child welfare programs and social service agencies need to have 
the resources necessary to support families in times of crisis and 
uncertainty to promote stability and prevent abuse. In light of these 
identified needs and current underfunding, funds should be increased by 
$5.2 million to provide tribal governments the resources they need to 
support families and children in crisis.
---------------------------------------------------------------------------
    \6\ Stegman, E. & Ebarb, A. (2010). Sequestering opportunity for 
American Indians/Alaska Natives. Center for American Progress. (Para. 
1). Retrieved from https://www.americanprogress.org/issues/poverty/
news/2013/11/26/80056/sequestering-opportunity-for-american-indians-
and-alaska-natives/.
    \7\ U. S. Department of Health and Human Services, Health Resources 
and Services Administration, Maternal and Child Health Bureau. (2013). 
Child health USA 2012 (p. 9). Rockville, MD: Author.
---------------------------------------------------------------------------
    ICWA Funding Recommendation.--Increase the ICWA On or Near 
Reservation Program (TPA) appropriations by $3.4 million to help tribes 
meet the needs of their communities. Appropriate an additional $5 
million for the authorized, but unfunded, Off-Reservation ICWA Program 
to ensure ICWA protects all children.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As the Attorney General's Advisory Committee on American Indian/
Alaska Native Children Exposed to Violence recently stated ``If AI/AN 
children today are to be provided with a reliable safety net, the 
letter and spirit of [the Indian Child Welfare Act] must be enforced.'' 
\8\ ICWA provides protections to AI/AN families in State child welfare 
and judicial systems. It also recognizes the sovereign authority of 
tribal nations to provide child welfare services and adjudicate child 
welfare matters. To effectuate these provisions, ICWA authorized grant 
programs to fund child welfare services on or near reservations and for 
ICWA support in off-reservation, urban Indian programs.
---------------------------------------------------------------------------
    \8\ U. S. Department of Justice, Office of Justice Programs, Office 
of Juvenile Justice and Delinquency Prevention. (2014). Attorney 
General's Advisory Committee on American Indian/Alaska Native Children 
Exposed to Violence: Ending violence so children can thrive (p. 75). 
Retrieved from http://www.justice.gov/sites/default/files/
defendingchildhood/pages/attachments/2014/11/18/finalaianreport.pdf.
---------------------------------------------------------------------------
    ICWA funding is the foundation of most tribal child welfare 
programs. Compliance with the letter and spirit of ICWA necessitates 
adequate funding so that tribal child welfare programs can monitor 
State court proceedings and provide community-based, culturally 
appropriate services to children and families. At the time that ICWA 
was passed in 1978, Congress estimated that between $26 million--$62 
million would be required to fully fund tribal child welfare programs 
on or near reservations (S. Rep. No. 95-597, p. 19 (1977)). Even after 
an important fiscal year 2015 increase, for which we thank Congress, 
current funding levels fall far short of this estimate--especially 
after adjusting for inflation. Funding must be increased by an 
additional $3.4 million for the On or Near Reservation ICWA Program 
(TPA).
    According to the 2010 Census, 67 percent of AI/AN people lived off-
reservation. These children and families are best served when State 
child welfare systems are not only working with the child's tribe, but 
also with urban Indian child welfare programs. These programs provide 
assistance to States and the child's tribe, and provide culturally 
appropriate child welfare services. For this reason, ICWA authorizes 
child welfare funding for urban Indian programs. From 1979-1996, 
funding was allocated to urban organizations serving Native children 
and families. When funded, off-reservation programs provided important 
services such as recruitment of Native foster care homes, child abuse 
prevention efforts, and culturally appropriate case management and 
wraparound services. When funding stopped, the majority of these 
programs disintegrated even as the population of AI/AN children off-
reservation increased. This funding must be reinstated. We recommend a 
$5 million appropriation to support AI/AN children and families living 
off-reservation.
                                 ______
                                 
         Prepared Statement of the National Indian Health Board
    Chairman Murkowski, Ranking Member Udall and members of the 
subcommittee, thank you the opportunity to offer this testimony. On 
behalf of the National Indian Health Board and the 567 federally 
recognized tribes we serve, I submit this testimony on the Indian 
Health Service fiscal year 2017 budget.
    The Federal promise to provide Indian health services was made long 
ago. Since the earliest days of the Republic, all branches of the 
Federal Government have acknowledged the Nation's obligations to the 
tribes and the special trust relationship between the United States and 
American Indians and Alaska Natives (AI/ANs). The United States assumed 
this responsibility through a series of treaties with tribes, 
exchanging compensation and benefits for tribal land and peace. The 
Snyder Act of 1921 (25 U.S.C. 13) legislatively affirmed this trust 
responsibility. Since its creation in 1955, IHS has worked to fulfill 
the Federal promise to provide healthcare to Native people. In 2010, as 
part of the Indian Health Care Improvement Act, Congress reaffirmed the 
duty of the Federal Government to AI/ANs, declaring that ``it is the 
policy of this Nation, in fulfillment of its special trust 
responsibilities and legal obligations to Indians--to ensure the 
highest possible health status for Indians and urban Indians and to 
provide all resources necessary to effect that policy.'' \1\
---------------------------------------------------------------------------
    \1\ Indian Health Care Improvement Act, Sec. 103 (2009).
---------------------------------------------------------------------------
    Devastating consequences from historical trauma, poverty, and a 
lack of adequate treatment resources continue to plague tribal 
communities. AI/ANs have a life expectancy 4.2 years less than other 
Americans, but in some areas, the life expectancy is far worse. For 
instance, in Montana, ``white men . . . lived 19 years longer than 
American Indian men, and white women lived 20 years longer than 
American Indian women.'' \2\ In South Dakota, in 2014, ``for white 
residents the median age [at death] was 81, compared to 58 for American 
Indians.'' \3\ AI/ANs also suffer significantly higher mortality rates 
from suicide, type 2 diabetes, and heart disease than other Americans. 
According to CDC data, 45.9 percent of Native women experience intimate 
partner violence, the highest rate of any ethnic group in the United 
States. American Indian/Alaska Native children have an average of six 
decayed teeth, when other U.S. children have only one. These health 
statistics are no surprise when you compare the per capita spending of 
the IHS and other Federal healthcare programs. In 2015, the IHS per 
capita expenditures for patient health services were just $3,136, 
compared to $8,097 per person for healthcare spending nationally.
---------------------------------------------------------------------------
    \2\ ``The State of the State's Health: A Report on the Health of 
Montanans.'' Montana Department of Public Health and Human Services. 
2013. p. 11.
    \3\ ``2014 South Dakota Vital Statistics Report: A State and County 
Comparison of Leading Health Indicators.'' South Dakota Department of 
Health. 2014. P. 62.
---------------------------------------------------------------------------
    The following testimony reflects the IHS Tribal Budget Formulation 
Workgroup recommendations for fiscal year 2017.\4\ Tribes recommend $30 
billion to fully fund IHS. This includes amounts for personal health 
services, wrap-around community health services and facility capital 
investments. Within this $30 billion is: $15.82 billion for Medical 
Services; $1.66 billion for Dental and Vision Services; $3.71 billion 
for Community and Public Health Services; $8.77 billion for facility 
upgrades and upfront costs (non-recurring investments).
---------------------------------------------------------------------------
    \4\ The full fiscal year 2017 Tribal Budget Request is available at 
http://nihb.org/legislative/budget_formulation.php.
---------------------------------------------------------------------------
    Fiscal year 2017 President's Budget Request.--The administration 
has proposed $5.2 billion for IHS for fiscal year 2017. This is $377 
million (7.28 percent) above the fiscal year 2016 level. NIHB 
appreciates the bipartisan work this subcommittee has undertaken since 
fiscal year 2008 to ensure that meaningful increases have been awarded 
to the IHS. However, when considering staffing for new facilities, 
inflation, medical inflation, population growth, and Contract Support 
Cost obligations, the effective increase is minimal. For example, of 
the $377 discretionary increase requested for IHS, almost half ($159 
million) is just what is needed to maintain current services, and $82 
million is for Contract Support Costs, leaving actual program expansion 
with just $136 million. We implore this subcommittee, to take the 
courageous step forward and recommend a budget for Indian Health that 
truly lives up to the Federal trust responsibility and gives AI/ANs a 
chance at achieving better health outcomes.
    To begin the 12 year phase-in of the full $30 billion request, 
tribes recommend $6.2 billion in fiscal year 2017. All areas of the IHS 
budget are important, and we hope to see a strong increase across the 
IHS budget fiscal year 2017. However, the tribes have identified 
several priorities including Purchased/Referred Care (PRC); Hospitals & 
Clinics; Alcohol & Substance Abuse Services; Mental Health; and Dental 
Services.
    Purchased/Referred Care (PRC).--In fiscal year 2017, tribes 
recommend $1.2 billion for the Purchased/Referred Care (PRC) program. 
This is $270.4 million over the fiscal year 2017 President's request 
and $318.6 million above the fiscal year 2016 enacted level. The PRC 
budget supports essential healthcare services from non-IHS or non-
tribal providers and includes inpatient and outpatient care, emergency 
care, transportation, and medical support services such as diagnostic 
imaging, physical therapy, laboratory, nutrition, and pharmacy 
services. In fiscal year 2015, PRC denied over $645 million for an 
estimated 132,000 services needed. It is critical that this account 
continue to be prioritized by Congress. Tribal leaders have voiced 
concern that PRC was flat-funded in fiscal year 2016. This core funding 
is still a top priority for the tribes, as some areas rely heavily on 
PRC dollars, and we hope to see continued prioritization by the 
subcommittee in fiscal year 2017.
    Hospitals and Clinics.--In fiscal year 2017, tribes recommend $2.3 
billion for Hospitals and Clinics (H&C) which is $300 million over the 
fiscal year 2016 President's request and $422.8 million over the fiscal 
year 2016 enacted level. This core budget line item provides for the 
direct service delivery to AI/ANs. IHS/Tribal/Urban Indian (I/T/U)-
managed facilities are often located in rural settings with service at 
many locations limited to primary care, due to inadequate funding. IHS 
H&C faces tremendous challenges. Some of these factors include: an 
increased demand for services related to trends in significant 
population growth, an increased rate of chronic diseases, rising 
medical inflation, difficulty in recruiting and retaining providers in 
rural healthcare settings, and the lack of adequate facilities and 
equipment. For many AI/ANs, IHS represents the healthcare access in its 
entirety, both in terms of monetary resources but also facility access. 
Consequently, any underfunding of H&C equates to no healthcare. For 
many in Indian Country, there are no alternatives.
    Quality of Care Issues--Direct Service Facilities.--Perhaps even 
more disturbing than the severe lack of resources at IHS, is recent 
findings by the Centers of Medicare and Medicaid Services (CMS) at 
several hospitals in the Great Plains Area of IHS. In the last year, 
three hospitals serving tribes in the region have lost, (or received 
threats of revocation) their ability to bill CMS. This not only 
severely hampers the critical 3rd Party Revenue on which these 
facilities depend, but more importantly these findings raise serious 
questions about the quality of healthcare provided by IHS. At the 
Winnebago Indian Hospital, Pine Ridge Indian Hospital and the Rosebud 
Indian Hospital the deficiencies in question are simply unacceptable 
and more must be done to ensure that IHS management never allows this 
to happen again. Just last week, NIHB learned that Rosebud Indian 
Hospital was told it will lose this CMS certification on March 16, 
despite the fact that an IHS team has been on the ground for the last 
several months trying to prevent this. While it is our understanding 
that the agency has recently reached an agreement with CMS to keep the 
accreditation until at least May 16, we are continued to be troubled by 
the situation on the ground. NIHB believes that IHS should certainly be 
held to task by Congress for the poor management of these facilities, 
but it is also incumbent on Congress to provide IHS with sufficient 
funding so that the Service is able to safely and effectively carry out 
its mission. As one tribal leader stated at a Senate hearing on 
February 3, 2016: ``[IHS] is all we have to count on. We don't go there 
because they have superior healthcare. We go there because it is our 
treaty right. And we go there because many of us lack the resources to 
go elsewhere. We're literally at the mercy of IHS.''
    Mental Health.--In fiscal year 2017, tribes are recommending $154.9 
million. This is $43.75 million above the President's fiscal year 2017 
request and $72.8 million above fiscal year 2016. Expansion of mental 
health services are critically needed. Nowhere is the issue of poor 
coordination perhaps more acute than when it comes to mental and 
behavioral health services. AI/AN children and communities grapple with 
complex behavioral health issues at higher rates than any other 
population. Destructive Federal Indian policies and unresponsive or 
harmful human service systems have left AI/AN communities with 
unresolved historical and generational trauma.\5\ But access to 
behavioral health services is limited. In a study of 514 IHS and tribal 
facilities, 82 percent report providing some type of mental health 
service such as psychiatric services, behavioral health services, 
substance abuse treatment, or traditional healing practices, and to 
improve access 17 percent (87) have implemented telemedicine for mental 
health services.\6\ However, none provide inpatient psychiatric 
services.\7\ Without access to care, persons in psychiatric distress 
often end up at the hospital emergency room.\8\ We support the 
administration's request for $21.4 million in behavioral health 
integration as well as the $3.6 million for the Zero Suicide 
Initiative. We also support the administration's mandatory funding 
requests for the Behavioral Health Professions Expansion Fund ($10 
million) and the Tribal Crisis Response Fund ($15 million).
---------------------------------------------------------------------------
    \5\ Braveheart, M. Y. A., & DeBruyn, I. M. (1998). The American 
Indian Holocaust: healing historical unresolved grief. American Indian 
and Alaska Native Mental Health Research, 8(2).
    \6\ Urban Indian Health Institute. (2012). Addressing depression 
among American Indians and Alaska Natives: A literature review. 
Seattle, Washington: Urban Indian Health Institute.
    \7\ Indian Health Service. (2011). Inpatient mental health 
assessment. Retrieved from http://www.ihs.gov/newsroom/includes/themes/
newihstheme/display_objects/documents/
FINAL_IHCIA_InpatientMH_Assessment_Final.pdf.
    \8\ Ibid.
---------------------------------------------------------------------------
    Alcohol and Substance Abuse.--In fiscal year 2017, tribes recommend 
$312.3 million for the Alcohol and Substance Abuse budget. This is $79 
million above the President's request and $107 million above the fiscal 
year 2016 enacted level. Of the challenges facing AI/AN communities and 
people, no challenge is more far reaching than the epidemic of alcohol 
and other substance abuse. Now that tribes manage a majority of alcohol 
and substance abuse programs, IHS is in a supportive role to assist the 
tribes plan, develop, and implement a variety of treatment modalities. 
The collaboration has resulted in more consistent evidenced-based and 
best practice approaches to address substance abuse disorders and 
addictions. Successful treatment approaches include traditional healing 
techniques that link the services provided to traditional cultural 
practices and spiritual support. NIHB strongly supports the 
administration's request for an extra $15 million for the Substance Use 
and Suicide Prevention Program.
    Dental Health.--For fiscal year 2017, tribes recommend $218.6 
million for Dental Health. This is $31.8 more than the President's 
request and $40.3 million above the fiscal year 2016 level. These 
critical funds are desperately needed to improve the oral health of AI/
ANs. Over 80 percent of AI/AN children ages 6-9 suffer from dental 
caries, while less than 50 percent of the U.S. population ages 6-9 have 
experienced cavities. The IHS Dental program supports clinic-based 
treatment and prevention services, oral health promotion and disease 
prevention activities. However, access is one of the key issues in 
improving oral health for tribal communities. Half of AI/AN youth live 
in a dental shortage area. NIHB and the tribes continue to support the 
expansion of Dental Therapists (DTs) to tribes outside of Alaska as a 
safe, reliable, cost-effective means for tribal members to access oral 
health services. Sadly, provisions in the Indian Healthcare Improvement 
Act (IHCIA) \9\ have made it difficult to use IHS programs to use these 
effective midlevel providers. We encourage the subcommittee to work 
with the relevant authorizing Committees to repeal this prohibitive 
section of the law so that IHS and tribes can utilize scarce 
discretionary dollars in the most cost-effective way possible.
---------------------------------------------------------------------------
    \9\ 25 U.S.C. 1616l(d).
---------------------------------------------------------------------------
    Contract Support Costs.--NIHB and tribes were pleased to see the 
separate funding account for contract support costs (CSC) that was 
created in fiscal year 2016. However, we continue to support the 
administration's request for mandatory CSC and encourage Congress to 
work to enact this change as soon as fiscal year 2017.
    Other Recommendations.--Tribes have also proposed other budget-
related recommendations for IHS in fiscal year 2017. One of these 
priorities is support for advance appropriations for IHS which would 
allow tribes to have predictability on the IHS budget and place IHS on 
parity with other Federal health providers.
    The implementation of the IHCIA remains a top priority for Indian 
Country. IHCIA provides new authorities for Indian healthcare, however 
additional funding is needed to fully implement the Act. This year, 
tribes have set priorities for funding the additional provisions of 
IHCIA as follows: Section 205: Funding for Long-term Care Services ($37 
million); Section 704: Comprehensive Behavioral Health Prevention and 
Treatment Program ($20 million); Section 204: Diabetes Prevention, 
Treatment, and Control ($20 million); Section 123: Health Professional 
Chronic Shortage Demonstration Project ($15 million); Section 705: 
Mental Health Technician Program ($5 million).
    As noted above, the trust responsibility for health extends beyond 
the IHS. We also encourage this subcommittee to work with other 
agencies at the Department of Health and Human Services to ensure that 
funds reach tribal communities. Specific funding ``set asides'' for 
tribes or language directing the HHS to fund tribal communities 
specifically could be ways to ensure that appropriated dollars reach 
tribes.
    Thank you for the opportunity to offer this statement. We look 
forward to working with the Appropriations Committee as Congress 
considers fiscal year 2017 appropriations. If you have any questions, 
please do not hesitate to contact the National Indian Health Board.
                                 ______
                                 
   Prepared Statement of the National Opera Center of America (OPERA 
                                America)
    Madam Chairman and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of OPERA 
America, its board of directors and its more than 2,000 organizational 
and individual members. We strongly urge the Subcommittee on Interior, 
Environment, and Related Agencies in the Committee on Appropriations to 
designate a total of $155 million to the National Endowment for the 
Arts (NEA) for fiscal year 2017. This testimony and the funding 
examples described below are intended to highlight the importance of 
Federal investment in the arts, so critical to sustaining a vibrant 
cultural community throughout the country.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, 
funding for the arts was mostly limited mostly larger cities. The NEA 
has helped to strengthen regional dance, opera, theater and other 
artistic disciplines that Americans enjoy. NEA funding provides access 
to the arts in regions with histories of inaccessibility due to 
economic or geographic limitations. The NEA envisions a ``nation in 
which every American benefits from arts engagement, and every community 
recognizes and celebrates its aspirations and achievements through the 
arts.'' The agency has helped the arts become accessible to more 
Americans, which in turn has increased public participation in the 
arts.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. OPERA America's membership includes 141 
professional company members representing 42 States, as well as 5 
Canadian provinces and 3 countries. Sixty-seven percent of these 
companies were established after 1970 and over 43 percent were 
established since 1980, indicating the growth of opera throughout 
America over the last 45 years.
    In the 2013-2014 season, OPERA America members were involved with 
37 world premieres. Since 1900, 950 new operatic works have been 
produced by professional opera companies in North America. Of that, 478 
new operatic works have been produced since 2000. The growth in number 
and quality of American opera corresponds directly to the investment of 
the NEA's earlier investment in the New American Works program of the 
former Opera-Music Theater Program.
    Beyond the opera house, opera companies are finding new and 
exciting ways to bring the essence of opera to other local theaters and 
community centers, frequently with new and innovative works that 
reflect the diverse cultures of the cities they serve. Strong 
partnerships with local schools extend the civic reach of opera 
companies as they introduce children to a multi-media art form and 
discover promising young talent.
    The NEA is a great investment in the economic growth of every 
community. Despite diminished resources, including a budget that is $20 
million less than it was in 2010, the NEA awarded 2,139 grants in 2015, 
totaling $103.47 million in appropriated funds. These grants nurture 
the growth and artistic excellence of thousands of arts organizations 
and artists in every corner of the country. NEA grants also preserve 
and enhance our Nation's diverse cultural heritage. The modest public 
investment in the Nation's cultural life results in both new and 
classic works of art, reaching the residents of all 50 States and in 
every congressional district.
    The return of the Federal Government's small investment in the arts 
is striking. In 2013, the American creative sector was measured by the 
Federal Bureau of Economic Analysis (BEA). The BEA and the NEA 
developed an ``Arts and Cultural Production Satellite Account'' which 
calculated the arts and culture sector's contributions to the gross 
domestic product (GDP) at 4.2 percent (or $704.2 billion) of current-
dollar GDP in 2013. Additionally, the nonprofit performing arts 
industry generates $135.2 billion annually in economic activity, 
supports more than 4.13 million full-time equivalent jobs in the arts, 
and returns $9.59 billion in Federal taxes (Arts and Economic 
Prosperity IV, Americans for the Arts).
    On average each NEA grant leverages at almost $10 from other State, 
local, and private sources. Few other Federal investments realize such 
economic benefits, not to mention the intangible benefits that only the 
arts make possible. Even in the face of cutbacks in the recent years, 
the NEA continues to be a beacon for arts organizations across the 
country.
    The return on investments is not only found in dollars. In 2012, 
2.2 million people volunteered 210 million hours with arts and cultural 
organizations, totaling an estimated value of $5.2 billion--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities.
    The more than 2,000 Art Works grants were awarded to nonprofit arts 
organizations for projects that encourage artistic creativity and that 
bring the arts to millions of Americans. In a striking example of 
Federal/State partnership, 40 percent of NEA's program dollars are 
granted to State arts agencies, conditional on each State devoting its 
own appropriated funds. These grants, combined with State legislative 
appropriations and other dollars, are distributed widely to strengthen 
arts infrastructures and ensure broad access to arts.
    NEA grants are awarded to opera organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2015, the NEA awarded 68 grants to 
the opera field through the Art Works category, totaling $2,095,000.
Opera Memphis
$30,000
Memphis, Tennessee
    To support ``30 Days of Opera.'' Launched in 2012 as an outreach 
initiative with the goal of breaking down barriers that prevent new 
audiences from attending opera, the festival has successfully reached 
more than 50,000 people with more than 100 performances in at least 80 
different locations. The project includes admission-free concerts, 
opera performances for schools, an original children's opera, pop-up or 
guerilla opera performances, and a family day at the opera.
Intermountain Opera Bozeman
$12,000
Bozeman, Montana
    To support performances of Puccini's ``Suor Angelica'' and Gianni 
Schicchi.'' Conducted by Christopher Allen, the cast included soprano 
Maria Kanyova and baritone Levi Hernandez. Educational and outreach 
activities to build audiences included a public workshop, a performance 
for elementary school students, a class for students at Bozeman High 
School, and a class for adults at Montana State University.
Shreveport Opera
$13,000
Shreveport, Louisiana
    To support the Shreveport Opera Xpress educational and touring 
program. The program serves as the educational programming arm of the 
company through which performances and activities reach public school 
students. Interactive residencies in which public school music teachers 
will select students for instruction in vocal technique, acting, 
singing, and stage direction by Shreveport Opera Xpress (SOX) artists 
are an integral part of the program. Elementary through high school 
students throughout central and south Louisiana were reached during the 
2015-2016 academic year.
The Industry
$12,000
Los Angeles, California
    To support artistic and production fees for the premiere of 
Hopscotch, a mobile opera. Multiple Los Angeles-based composers and 
librettists were commissioned to each develop three short pieces. The 
opera was experienced in several ways: via a limited audience inside 
limousines with the artists as they drive around Los Angeles; at a 
large central hub where all of the limousine journeys were streamed 
live; and through the finale of the work when the two audiences 
converged. The project's multidisciplinary collaborations continued the 
organization's mission of creating new works that honor the origins of 
the genre while pushing to expand its traditional boundaries. The 
performances included a free component at the work's central location, 
allowing a large audience to experience the performance.
    Over 50 million people experienced opera on stage, via radio and 
TV, in cinemas, and at stadiums, parks and alternative venues through 
one of OPERA America's Professional Company Members in the 2012-2013 
season. The collective expenses of member opera companies totaled over 
$1 billion. Total government support, including city, county, State, 
and Federal, amounted to $118 million, representing 10 percent of total 
operating income.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, leaving its programs 
seriously underfunded. We urge you to continue toward restoration and 
increase the NEA funding allocation to $155 million for fiscal year 
2017.
    On behalf of OPERA America, thank you for considering this request.

    [This statement was submitted by Marc A. Scorca, President and 
CEO.]
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee, thank you for the opportunity to submit testimony on 
behalf of National Parks Conservation Association (NPCA). Founded in 
1919, NPCA is the leading national, independent voice for protecting 
and enhancing America's National Park System for present and future 
generations. I appreciate the opportunity to provide our views 
regarding the National Park Service (NPS) fiscal year 2017 budget.
    National parks protect America's heritage and deliver robust 
economic returns of $10 in economic benefits nationally for every 
dollar invested in the NPS. NPCA polling indicates the vast popularity 
of national parks and strong bipartisan support for adequately funding 
them.
    We acknowledge the tremendous challenge the subcommittee faces in 
setting thoughtful spending priorities, so we are grateful for your 
consistent support for national parks. NPCA and our partners in the 
National Parks Second Century Action Coalition commend your 
subcommittee for supporting a needed increase for the National Park 
Service in fiscal year 2016, the Service's Centennial year. This level 
will make an important difference in recovering from years of cuts and 
inadequate funding. As there are still many needs, we urge you to do 
your best to build on this support as the System enters its next 
century of service to the American people.
    Fiscal Year 2017 Priorities: NPCA requests appropriated funding for 
NPS of $3,111,829,000, which is equal to the President's appropriated 
request, but rejecting his proposal to reduce Heritage Partnership 
Programs funding. This level includes--but is not limited to--NPCA's 
priorities of meeting the President's request for:

  --$2,524,362,000 for park operations;
  --$252,038,000 for construction; and
  --$35,000,000 in appropriated funds for the Centennial Challenge.

    My testimony outlines these and several other issues:

  --The Budget Control Act, overarching budget concerns and the 
        subcommittee's allocation;
  --Park operations and construction funding and their connection to 
        the maintenance backlog;
  --The Centennial Challenge program;
  --The Land and Water Conservation Fund and Historic Preservation 
        Fund;
  --National Heritage Areas;
  --The Federal Lands Recreation Enhancement Act;
  --Policy riders

    Budget Control Act (BCA) and budget process: We've been dismayed to 
see the many challenges to the budget and appropriations process in 
recent years, and the threat and harm they have brought to national 
parks. We were deeply dismayed in fiscal year 2013 when the BCA, due to 
the failure of the Joint Select Committee on Deficit Reduction to 
identify offsets, mandated sequester cuts that were so damaging to 
national park operations that they resulted in shuttered facilities and 
thousands of ranger positions going unfilled. We were consequently 
pleased that the Bipartisan Budget Acts (BBA) of 2013 and 2015 provided 
needed relief from that indiscriminate and damaging instrument with 
spending levels that are already austere absent the sequester.
    We were alarmed to see the draconian out-year cuts to nondefense 
discretionary spending proposed in the recent House budget and the 
challenges that struggle is posing to the appropriations process. Thus 
we are grateful that the Senate instead deferred to the BBA, fostering 
a more orderly and functional budget process in your chamber.
    The Interior allocation: NPCA believes the allocation provided to 
the subcommittee in recent years has been insufficient and emblematic 
of the austere constraints on domestic discretionary investments. In 
part to address this concern, we continue to urge legislation to 
address the dysfunctional system of catastrophic wildfire funding that 
burdens the Interior allocation. We support a clean fire funding fix, a 
bipartisan solution that would (1) access disaster funding, (2) 
minimize transfers, and (3) address the continued erosion of agency 
budgets over time, with the goal of reinvesting in key programs that 
would restore forests to healthier conditions.
    Further, we feel that the Interior subcommittee allocation is 
unlikely to ever be sufficient to meet the full needs of the Land and 
Water Conservation Fund (LWCF), the National Park System backlog, or 
the Payments in Lieu of Taxes (PILT) and Secure Rural Schools (SRS) 
programs, all of which should receive mandatory funding support outside 
of the Interior bill.
    We were disappointed to see the reduction in your fiscal year 2017 
302(b) suballocation and understand the deep challenges this will pose 
in meeting the needs of national parks and other priorities. Therefore, 
in this context, we are grateful in advance to you and your 
subcommittee staff for doing what you can to continue the trajectory to 
restore funding for America's treasures as they begin the next century 
of service to the American people.
    Park operations and the maintenance backlog: The subcommittee's 
fiscal year 2016 investment will be very helpful for national parks--
but we regret to acknowledge that more is needed. The fiscal year 2016 
increase in park operations, after adjusting for inflation, still 
leaves a level $90 million--or 3.6 percent--below levels in fiscal year 
2010, when NPCA analysis indicated an annual operations shortfall of 
approximately a half billion dollars. Many parks remain understaffed: 
between fiscal year 2010 and fiscal year 2015, discretionary FTEs for 
the park service were reduced by 2,006 FTEs--an 11.2 percent reduction 
in staff. As you know, these losses can be damaging, with impacts such 
as less day-to-day maintenance, less scientific inventory and 
monitoring, reduced hours or even closed public facilities, fewer 
visitor programs, and other challenges to parks fulfilling their 
mission.
    The operations request would support $96 million in cyclic 
maintenance and repair needs. Support for this request would help 
address the $12 billion deferred maintenance backlog. The backlog 
continues to threaten the protection of nationally significant 
resources and, eventually the experience of visitors. In February 2015, 
NPS estimated that it needed $820 million annually just to keep up with 
the backlog, but only received $473 million, or less than 60 cents for 
every dollar needed. While this number also included park 
transportation infrastructure that is not within the jurisdiction of 
this subcommittee, funding to deal with the non-roads backlog remains 
vastly insufficient, and both short- and long-term solutions are 
needed.
    Construction and the backlog: The NPS construction account is a 
principal mechanism for addressing major repair needs, yet even after 
the fiscal year 2016 increase in that account, it remains 48 percent 
below levels of a decade ago after adjusting for inflation. This is why 
the requested increase for this account is so important to address 
needed projects throughout the park system.
    Mandatory backlog funding: We respect that it can be very difficult 
to identify budgetary offsets for mandatory programs, yet urge Congress 
to recognize that a more realistic long-term solution is needed to 
address the maintenance backlog. Under current allocations established 
by the BCA, it is difficult to see how this subcommittee will be able 
to address even the $2.4 billion highest priority non-transportation 
facilities' needs. NPCA supports enacting legislation to begin reducing 
the backlog through a mandatory account and encourages Congress to 
pursue this approach to paying down the backlog's most critical 
projects over the initial years of the system's new century of service.
    Centennial Challenge: We commend this subcommittee for restoring 
the Centennial Challenge program in fiscal year 2015, and for the 
increase for the program in fiscal year 2016. This support has 
leveraged more than 2 dollars for every 1 dollar invested for signature 
projects across the National Park System that enhance the visiting 
experience. Many more philanthropic opportunities await, so we hope the 
subcommittee can support the request for an increase in this exciting 
program that enjoys strong bipartisan support. Further, we look forward 
to movement of a centennial bill that includes more robust funding for 
this important program, and urge members of this subcommittee to 
support such a bill that we hope will enjoy the bipartisan backing it 
deserves. That legislation would also include an endowment, another 
idea helpful in fostering a sustainable long-term funding model for NPS 
that supplements--but does not supplant--important appropriated 
dollars.
    Land and Water Conservation Fund (LWCF): The acquisition of 
inholdings is directly related to better managing the places in which 
our Nation already has made a significant investment. Thus we support 
the administration's appropriated request of $68.2 million for the NPS 
Federal land acquisition and management portion of LWCF, a critical 
tool for protecting our national parks. This appropriated request would 
help prevent incompatible development in 10 NPS units, including Grand 
Teton National Park. We were pleased the fiscal year 2016 omnibus 
included better funding for the LWCF program and a 3-year 
reauthorization. We urge support for the administration's proposal to 
partially fund LWCF with mandatory funds in fiscal year 2017 and then 
phase in full and mandatory funding for the program, to provide this 
successful program with the dependability it deserves.
    Historic Preservation Fund (HPF): The funding authorization for HPF 
was allowed to expire on October 1, 2015; we were disappointed the 
authorization was not extended in the omnibus as it was with LWCF. The 
HPF provides the primary source of funding for State Historic and 
Tribal Historic Preservation Offices in all 50 States. The HPF also 
supports the Historic Tax Credit program, responsible for the 
rehabilitation of over 40,000 buildings, the creation of 2.5 million 
jobs and the leveraging of $117 billion in private investments in 
historic preservation projects. H.R. 2817, the bipartisan National 
Historic Preservation Amendments Act, would both restore the funding 
authorization for the HPF and extend it through fiscal year 2028. NPCA 
urges passage of this bill to support continued preservation and 
rehabilitation of historic sites and structures.
    National Heritage Areas (NHAs): The president's proposed 50 percent 
cut to the National Heritage Area program is an unwarranted attack on a 
program with a successful track record. In 2013, the 49 existing NHAs 
generated $13 billion in economic activity and $1.2 billion in tax 
revenues, and generated over 900,000 volunteer service hours. This 
mighty program with a modest budget ($19.8 million in fiscal year 2016) 
deserves support from both Congress and the President.
    Federal Lands Recreation Enhancement Act (FLREA): We are grateful 
that this subcommittee has supported multiple short-term extensions of 
FLREA, now extended through fiscal year 2017. Reauthorization is 
critical for NPS to retain needed funds of nearly $200 million 
annually. As NPCA continues to support a long-term reauthorization of 
FLREA with the respective authorizing committees, we hope this 
subcommittee will continue to support annual extensions.
    Policy Riders: Efforts to attach environmentally damaging policy 
riders only further threatens the appropriations process, so we were 
grateful that the final fiscal year 2016 bill was free of riders that 
threaten parks, their ecosystems, and the health of visitors and 
wildlife within them. We are deeply concerned to see riders threatening 
clean water in national parks and their ecosystems in the Senate fiscal 
year 2017 Energy and Water appropriations bill and urge that fiscal 
year 2017 and future appropriations bills be free of these damaging and 
controversial riders.
    In conclusion: NPCA has emphasized to this subcommittee and its 
House counterpart over the years the importance of providing more 
adequate funding for America's treasures. As the subcommittee has 
acknowledged, the National Park Service and System are deeply popular 
with the American public and are important for local economies. As we 
emphasize the importance of providing staff to serve record numbers of 
visitors, and staff and resources to address the repairs backlog, we 
should not forget the profound importance of park sites in preserving 
and interpreting our natural and cultural heritage--a heritage that 
defines America's very identity. Outstanding wildlife habitat, geysers, 
cliffs, Civil War sites that commemorate our fallen ancestors, the 
places we celebrate--and where we have suffered: this is America's 
extraordinary National Park System. This subcommittee has recognized 
these places as priorities; we again commend you for supporting their 
needs and urge your continuing support.
    This subcommittee and its House counterpart have also emphasized 
the importance of a sustainable funding model for NPS. As you know, 
NPCA has long explored ideas to support such a model and advocate for 
mechanisms that, very importantly, do not supplant the Federal 
responsibility to appropriate funding for our Nation's parks, but 
supplement these needed funds.
    Again, respectfully recognizing your constrained allocation, we 
urge you to provide the best appropriated level possible for NPS to 
help the agency recover from years of underfunding. We ask you to 
support a centennial bill that provides an endowment and more robust 
support for the Centennial Challenge program. We will seek to leverage 
new fee opportunities, historic leasing, and other innovative 
approaches. But we also urge this and future sessions of Congress to 
identify mandatory support and/or other robust mechanisms to address 
the deferred maintenance backlog, as well as the backlog of land 
acquisition needs. As the National Park Service prepares to celebrate 
its Centennial and to embark on its next century of service to the 
American people who collectively own these national treasures, we stand 
to work with you to provide needed support to recover, restore and 
bolster America's National Park System.
    Thank you for the opportunity to testify.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    Thank you Chairwoman Murkowski, Senator Udall, and other honorable 
members of the subcommittee for the opportunity to submit written 
testimony pertaining to funding for the Land and Water Conservation 
Fund's (LWCF) State Assistance Program and Urban Parks and Recreation 
Recovery Program (UPARR) in the fiscal year 2017 Interior 
appropriations bill.
Overview of Funding Request
    As outlined below, we encourage you to renew the Federal investment 
in the LWCF. However, given that the purpose of the Act is to help 
preserve, develop, and assure access to outdoor recreation facilities 
to strengthen the health of U.S. citizens, we urge you to make a 
greater investment in States and local communities by:

  --Allocating a minimum of 40 percent of fiscal year 2016 LWCF 
        appropriations to the State Assistance Program;
  --Continuing the innovative, ``Outdoor Recreation Legacy 
        Partnership'' (ORLP) competitive grant program in the amount of 
        $12 million;
  --Allocating up to $30 million in funding for Urban Park and 
        Recreation Recovery program (UPARR) out of total fiscal year 
        2017 LWCF appropriations; and,
  --Ensuring that any amount allocated to either the ORLP or UPARR 
        program is not done at the expense of the existing core formula 
        grants distributed to the States for conservation and active 
        recreation.
About the National Recreation and Park Association
    The National Recreation and Park Association (NRPA), is a nonprofit 
organization working to advance parks, recreation and environmental 
conservation efforts nationwide. Our members touch the lives of every 
American in every community every day. Through our network of more than 
50,000 citizen and professional members we represent park and 
recreation departments in cities, counties, townships, special park 
districts, and regional park authorities, along with citizens concerned 
with ensuring close-to-home access to parks and recreation 
opportunities exist in their communities. Everything we support and do 
is focused through our three pillars: Conservation; Health & Wellness 
and Social Equity.
40 Percent Allocation of Total LWCF Appropriations to the State 
        Assistance Program
    The LWCF State Assistance Program provides dollar-for-dollar 
matching grants to States and local communities for the construction of 
outdoor recreation projects. The land purchased with LWCF State 
Assistance funding remains the property of the State or local 
government, and the resources developed through the LWCF remain 
publicly accessible in perpetuity.
    The LWCF provides numerous benefits to local communities across 
America, and it does so through a dedicated funding source--namely oil 
and gas leasing revenues from the Outer Continental Shelf (OCS). As 
much as $9 billion has been generated from these leases annually, with 
only a small fraction provided to the LWCF. Unfortunately an even more 
miniscule amount is provided to the State Assistance Program. This is 
in large part due to the fact that current law mandates that a minimum 
of 40 percent of the total LWCF annual appropriations must be provided 
to the Federal land acquisition program without specifying an amount 
for the State Assistance Program. As a result, States and local 
communities have historically received a very disproportionate share of 
the total LWCF appropriations, with less than 15 percent of total LWCF 
funding going to the State Assistance Program since 1998.
    With this as background, we thank you very much for your efforts in 
fiscal year 2016, which led to the highest total appropriation for LWCF 
in years. You also realized that a higher percentage of overall LWCF 
dollars should be allocated to the States for the purpose of meeting 
the ever increasing need for safe and accessible close-to-home 
recreation. The $110 million for State Assistance in fiscal year 2016 
represents approximately one-quarter of overall LWCF appropriations for 
the year.
    While this amount signifies a major improvement over the long-term 
average of, again, less than 15 percent of total LWCF spending, we call 
upon the subcommittee to seek a permanent solution to funding the LWCF 
with the State and Local Assistance Program receiving at least 40 
percent of overall LWCF expenditures each year. With four-out-of-five 
Americans now living in our larger communities, and the fact the 
original LWCF Act called for 60 percent to State Assistance, it's 
reasonable that the formula grants to the States for outdoor recreation 
should receive a more equitable distribution of LWCF dollars annually.
    We agree on the importance of preserving and providing access to 
our national treasures for all to enjoy--and congratulate and recognize 
the National Park Service as it celebrates its centennial--we'd like to 
remind you that many treasured public areas are NOT located on Federal 
property.
    For the reasons outlined below, we are asking you to empower States 
and local communities to do more to preserve, develop, and assure 
access to outdoor recreation facilities to strengthen our Nation by 
allocating 40 percent of total LWCF appropriations to the State 
Assistance Program in fiscal year 2017.
LWCF State Assistance's Return on Investment and Return on Objective
    One of the key aspects of the LWCF State Assistance Program is the 
ability to create jobs. The outdoor recreation industry, as such is 
supported by LWCF State Assistance, is an economic powerhouse in the 
United States. According to the Outdoor Industry Association, the 
industry generates $646 billion in consumer spending and supports over 
6 million jobs annually.\1\ In fact, our own research has determined 
that America's local and regional public park agencies generated nearly 
$140 billion in economic activity and supported nearly 1 million jobs 
from their operations and capital spending alone in 2013.\2\
---------------------------------------------------------------------------
    \1\ Outdoor Industry Association, ``The Outdoor Recreation Economy 
Report 2012.''
    \2\ NRPA, ``The Economic Impact of Local Parks'' published 2015.
---------------------------------------------------------------------------
    Considering there are 7,800 State and over 100,000 locally managed 
parks throughout the country, it is obvious that outdoor recreation is 
most prevalent at the State and local level, and it is the LWCF State 
Assistance Program which provides the vast majority of places, spaces, 
and opportunities for outdoor recreation which stimulates the outdoor 
economy.
    When viewed through the lens of the importance of the American 
outdoor recreation industry, the LWCF State Assistance Program has, for 
more than four decades, achieved a proven return on investment (ROI) 
demonstrated by the fact that $4.1 billion in Federal support has been 
matched and leveraged to provide more than $8.2 billion in total public 
investment. But the benefits of this program, don't stop there, as the 
State Assistance Program has not only provided a ROI, but has also done 
a tremendous job of providing an outstanding ``return on objective'' 
for the American taxpayer by ensuring access for all.
    Not everyone has the ability to visit one of our treasured national 
parks, and even those who do so are unable to on a regular basis. Their 
visits are often destination vacations or once-in-a-lifetime trips. To 
the average American, however, the neighborhood park--down the street, 
open and accessible to the public, and without an admission fee--is the 
most important public space in their lives. The State Assistance 
Program has played a critical role in the creation of these important 
places, with more than 40,400 grant projects covering nearly every 
county across America.
    The LWCF State Assistance Program is dedicated to ensuring that 
Americans have access to close-to-home public recreation opportunities. 
It is a means by which the subcommittee can provide investment to 
critically important local park infrastructure, including: a new soccer 
field at Sisterhood Park in Anchorage, Alaska; enhancements at 
Bluewater Lake State Park near Perwitt, New Mexico; and an accessible 
playground at Fall Creek Falls State Park in Spencer, Tennessee. Each 
of the aforementioned communities benefited from State Assistance grant 
funding since 2013.
LWCF State Assistance Provides Health and Environmental Benefits
    In addition to creating jobs and ensuring access for all, the LWCF 
State Assistance Program delivers tangible health benefits, 
contributing to the overall health and well-being of Americans. The 
National Park Service recognizes this through its ``Find Your Park'' 
initiative, which aims to increase public recognition of parks and 
public lands (including State, local, and regional park and trail 
systems) as places for the promotion of physical, mental, and social 
health. The CDC reports obesity is now a leading cause of chronic 
disease and identifies increased access to parks, green space, and 
recreation opportunities is essential to becoming a healthier nation 
and reducing unsustainable healthcare costs.
    The LWCF State Assistance Program also significantly contributes to 
protecting the environment and promoting environmental stewardship. 
LWCF State Assistance projects have a historical record of contributing 
to reduced and delayed storm water runoff volumes, enhanced groundwater 
recharge, storm water pollutant reductions, reduced sewer overflow 
events, increased carbon sequestration, urban heat island mitigation 
and reduced energy demands, resulting in improved air quality, 
increased wildlife habitat, and increased land values on the local 
level.
Revitalizing Urban Parks and Recreation through Funding of UPARR
    While the LWCF has indeed benefited virtually every community in 
the country, many of our Nation's cities and urbanized counties face 
distinct challenges that require additional resources. Recognizing this 
fact as well as the importance of public parks and recreation to larger 
urban renewal and community development efforts, Congress established 
the Urban Parks and Recreation Recovery Program (UPARR) to provide 
matching grants directly to localities in metropolitan areas. Over the 
course of two decades UPARR provided $272 million for nearly 1,500 
projects in 380 communities. This enabled neighborhoods across the 
country to restore both outdoor and indoor recreation facilities; 
support innovative recreational programming and enhance delivery of 
services and programs that provided constructive alternatives to at-
risk youth.
    Despite its successes, UPARR has not been funded since fiscal year 
2002, yet many of the urban open space and recreation challenges still 
exist today. NRPA is very pleased to see UPARR in the President's 
fiscal year 2017 budget and calls on Congress to update and fund this 
needed program to enable metropolitan areas to address quality of life, 
health and wellness, and conservation issues as they work to make their 
communities more attractive for families and businesses alike. Both 
LWCF State Assistance and UPARR are critical to providing Americans 
close to home recreation opportunities. The programs complement each 
other and NRPA implores Congress to fund UPARR from total LWCF 
appropriations but not at the expense of the already underfunded State 
Assistance Program.
Maintaining The Outdoor Recreation Legacy Partnership Competitive Grant 
        Program
    With UPARR now dormant for over a decade, we appreciate greatly 
your recognition for the need to target some State Assistance dollars 
to assist our most underserved, urban communities. Your support has led 
to the development of what is now known as the ORLP. This national 
competitive grant program complements the traditional State Assistance 
formula grants program by focusing on national priorities, specifically 
helping urban communities to acquire or develop land to create or 
reinvigorate public parks and other outdoor recreation spaces in ways 
that significantly improve local communities and encourage people to 
connect (or re-connect) with the outdoors.
    NRPA is pleased to have worked with NPS to help develop the pilot 
for this initiative and believes it will prove successful in 
highlighting the innovative projects and partnerships the State 
Assistance Program provides across America. This year, NPS intends to 
award as many as 40 ORLP grants to support the revitalization and 
protection of close-to-home parks and recreation opportunities in 
underserved areas.
    We ask that you maintain funding for the ORLP at $12 million for 
fiscal year 2017. Also, as this program is included as part of the 
overall funding for the State Assistance Program, we ask the 
subcommittee to ensure that any continued funding for the ORLP does not 
negatively impact the total amount provided to the critical formula 
grants to the States for conservation and outdoor recreation.
    Madam Chair and members of the subcommittee, few programs can 
address so many national priorities as effectively as the LWCF State 
Assistance Program. This subcommittee and Congress have the rare 
opportunity to achieve national goals, all without costing the 
individual American taxpayer a penny, and can do so by adopting three 
simple recommendations: Allocate a minimum of 40 percent of LWCF 
funding to the State Assistance Program; continue the innovative ORLP 
grant program, and address the need for improved infrastructure in 
urban areas by allocating a portion of the total LWCF funding to UPARR.
    Thank you again for the opportunity to share NRPA's recommendations 
and your consideration of our request.
                                 ______
                                 
    Prepared Statement of the National Tribal Contract Support Cost 
                               Coalition
    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Miller and Munson, LLP. I submit outside 
written testimony on behalf of the National Tribal Contract Support 
Cost (NTCSC) Coalition. The Coalition is comprised of 21 tribes and 
tribal organizations situated in 11 States. Collectively, they operate 
contracts to administer almost $500 million in IHS and BIA programs on 
behalf of over 250 Native American Tribes.\1\ The NTCSC Coalition was 
created to assure that the Federal Government honors the United States' 
contractual obligation to add full contract support cost funding to 
every contract and compact awarded under the Indian Self-Determination 
Act. I also litigated the Supreme Court Cherokee and Arctic Slope cases 
against the Indian Health Service, and co-litigated the Ramah class 
action case against the Bureau of Indian Affairs, all of which held 
that IHS and BIA contracts with Indian Tribes are true, binding 
contracts which must be paid in full no less than any other government 
contract. As a direct result of these litigations, the government since 
2012 has agreed to pay over $1.75 billion in contract damages to Native 
American Tribes and tribal organizations, and close to $2 billion if we 
include judgments awarded in earlier years.
---------------------------------------------------------------------------
    \1\ The NTCSCC is comprised of the: Alaska Native Tribal Health 
Consortium (Alaska), Arctic Slope Native Association (Alaska), Central 
Council of Tlingit & Haida Indian Tribes (Alaska), Cherokee Nation 
(Oklahoma), Chickasaw Nation, Chippewa Cree Tribe of the Rocky Boy's 
Reservation (Montana), Choctaw Nation (Oklahoma), Confederated Salish 
and Kootenai Tribes (Montana), Copper River Native Association 
(Alaska), Forest County Potawatomi Community (Wisconsin), Kodiak Area 
Native Association (Alaska), Little River Band of Ottawa Indians 
(Michigan), Pueblo of Zuni (New Mexico), Riverside-San Bernardino 
County Indian Health (California), Shoshone Bannock Tribes (Idaho), 
Shoshone-Paiute Tribes (Idaho, Nevada), Southeast Alaska Regional 
Health Consortium (Alaska), Spirit Lake Tribe (North Dakota), Tanana 
Chiefs Conference (Alaska), Yukon-Kuskokwim Health Corporation 
(Alaska), and Northwest Portland Area Indian Health Board (43 tribes in 
Idaho, Washington, Oregon).
---------------------------------------------------------------------------
    No single enactment has had a more profound impact on tribal 
communities than the Indian Self-Determination Act of 1975. Since its 
enactment, tribes and inter-tribal organizations have taken control 
over vast portions of the Bureau of Indian Affairs and the Indian 
Health Service, including services previously provided by the Federal 
Government in the areas of healthcare, education, law enforcement and 
land and natural resource protection. Today, not a single tribe in the 
United States is without at least one self-determination contract with 
the IHS or the BIA. Collectively, the tribes administer nearly $3 
billion in essential Federal Government functions employing an 
estimated 35,000 people.
    Under all of these contracts, the tribes must cover contract 
support costs--essentially overhead--to responsibly manage their 
programs. They have to make payroll. They have to manage their finances 
and their information technology systems. They have to buy insurance. 
They have to procure goods and services. All of the same things the 
Government has to do, the tribes have to do--and even more: the tribes 
must complete costly annual audits, negotiate indirect cost rates, and 
comply with a raft of unfunded Federal mandates.
    Full payment of contract support costs is essential to keeping 
faith with the Government's contractual commitments, honoring the 
Government's trust responsibility, and permitting the tribes to 
prudently carry out the contracted programs, from law enforcement to 
range management to full-on hospital operations. And since these costs 
are fixed, when the Government does not pay them, tribes pay them out 
of program funds or tribal trust funds. For many years, appropriators 
have well understood the nature of the Government's obligation in this 
area:

        The Committee believes that both the Bureau [of Indian Affairs] 
        and the Indian Health Service should pay all contract support 
        costs for which it has contractually agreed and directs the 
        Service to include the full cost of the contract support 
        obligations in its fiscal year 2013 budget submission.

    H.R. Rep. No. 112-151, at 98 (2011). See also id. at 42 (addressing 
the BIA). The Supreme Court has agreed with Congress's assessment: 
``Consistent with longstanding principles of Government contracting 
law, we hold that the Government must pay each tribe's contract support 
costs in full.'' Salazar v. Ramah Navajo Chapter, 132 S. Ct. 2181, 2186 
(2012). See also Arctic Slope Native Ass'n, Ltd. v. Sebelius, No. 2010-
1013, Order at 6, 2012 WL 3599217 (Fed. Cir. Aug. 22, 2012), on remand 
from 133 S. Ct. 22 (2012) (applying the Ramah ruling to the Indian 
Health Service). Today it is beyond any debate that the payment of 
contract support costs is a binding contractual obligation owed to all 
tribes that operate BIA and IHS contracts. The only issue remaining has 
been how to meet that obligation.
    Thanks to the vision and decisive action of congressional 
appropriators, fiscal year 2014 was the first year in which contract 
support costs were paid in full through the ordinary appropriations 
process. For the agencies, particularly IHS, it was a rocky start, as 
early mistaken estimates gave way to the reality that the agency had 
missed the mark by millions of dollars. A major reprogramming action 
was necessary to make tribes whole, threatening direct services. 
Although IHS weathered the storm with a minimum of disruption to direct 
service operations, doing so required diverting nearly all of the 
increases that Congress had appropriated that year for program 
services.
    The 2014 disruptions were avoided in fiscal year 2015, thanks to 
better planning and more accurate agency projections. Even still, the 
threat to ongoing program operations was palpable, given the prior 
year's experience. That threat led directly to bold and unprecedented 
action for fiscal year 2016 in establishing an entirely separate 
contract support cost account, and to allocate to that account an 
uncapped amount for the payment of these costs. The solution was as 
elegant as it was brilliant: (1) it avoided the substantial 
difficulties of transferring these payments to the mandatory side of 
the ledger; (2) it removed any possible threat to ongoing program 
operations; and (3) at the same time it assured full payment of the 
Government's contract obligations to the tribes. The tribal experience 
in 2014, 2015 and 2016 is that the new system is now working, and even 
working quite well. The National Tribal Contract Support Cost Coalition 
fully supports this approach and encourages the subcommittee, with one 
modification, to continue this year's approach in future years.
    The one modification we strongly request is to eliminate the 
agency-requested ``proviso'' that was included in these new IHS and BIA 
accounts. The proviso addresses contract funds that go unspent in a 
given fiscal year. Existing law already addresses that issue. See 25 
U.S.C. 450(a)(4) (``For each fiscal year during which a self-
determination contract is in effect, any savings attributable to the 
operation of a Federal program, function, service, or activity under a 
self-determination contract by a tribe or tribal organization 
(including a cost reimbursement construction contract) shall (A) be 
used to provide additional services or benefits under the contract; or 
(B) be expended by the tribe or tribal organization in the succeeding 
fiscal year, as provided in section 13a of this title.''). At the risk 
of stating the obvious, all funds paid under self-determination 
contracts or compacts must be spent under those contracts to deliver 
(or support the delivery of) healthcare to Indian people. The new 
proviso is somewhat in conflict this existing law. Worse yet, it will 
require new accounting rules to track subaccounts across fiscal years, 
at significant expense but with no discernible benefit to the taxpayer, 
the Treasury, or Indian people. Nothing in the new mechanism for 
contract support cost payments justifies changing the longstanding 
rules controlling how those funds are accounted for and spent. We 
therefore respectfully request that the subcommittee delete the proviso 
going forward.
    As it did last year, the administration has also proposed to 
transfer CSC appropriations from the discretionary side of the budget 
to the mandatory side of the budget, starting in fiscal year 2018. The 
National Tribal Contract Support Cost Coalition strongly supports the 
President's proposal, and indeed would prefer a proposal to make such a 
provision permanent.\2\ That said, we recognize that the proposal will 
have difficult sledding without an offset, and unfortunately none has 
been proposed by the administration. We stand ready to work with the 
subcommittee this year and next to explore how best to move forward 
with a mandatory appropriation.
---------------------------------------------------------------------------
    \2\ A time-limited mandatory appropriation is ill-suited to paying 
a permanent obligation, because each renewal is subject to the vagaries 
of the political process. The best example of those vagaries is 
reflected in the history of the time-limited mandatory appropriation 
enacted for the Special Diabetes Program for Indians (SDPI). Public Law 
No. 105-33, Sec. 4922, 111 Stat. 251 (1997) (5 years); Public Law No. 
107-360, Sec. 1(b), 116 Stat. 3019 (2002) (6 years); Public Law No. 
110-173, Sec. 302(b), 121 Stat. 2492, 2515 (2007) (one year); Public 
Law No. 110-275, Sec. 303(b), 122 Stat. 2494, 2594 (2008) (2 years); 
Public Law No. 111-309, Sec. 112(2), 124 Stat. 3285, 3289 (2010) (2 
years); Public Law No. 112-240, Sec. 625(b), 126 Stat. 2313, 2352-
53(2014) (1 year); Public Law No. 113-93, Sec. 204(b), 128 Stat. 1040, 
1046 (2014) (1 year). This instability is orders of magnitude more 
destabilizing when it comes to the payment of contract support costs 
for the delivery of core governmental functions, including the annual 
operation of police departments, schools and entire hospitals and 
clinics serving many of the Nation's most vulnerable populations. It is 
one thing for a discrete program to end; it is quite another for an 
entire hospital or police department to close or be substantially cut 
back because contract support cost payments suddenly cease. One can 
imagine the grave instability that would ensue if by March 2020, 
Congress had not yet renewed a 3-year measure and yet the Budget 
Committee was developing its discretionary caps for the coming year and 
the subcommittee elected to hold hearings.
---------------------------------------------------------------------------
    We applaud the IHS and BIA for their efforts over the past several 
months to work closely with tribes in the development of internal 
guidelines for calculating and reconciling CSC payments. Each agency 
now has a draft policy ready for tribal consultation, and we are 
encouraged by these efforts. That said, the Coalition is quite 
concerned that the IHS approach remains terribly over-complicated, 
partly due to the agency's insistence on maintaining what we believe 
are untenable legal positions that the Office of General Counsel 
prefers to litigate.
    For instance, IHS wants to litigate the proposition that a tribe 
may not receive any contract support costs for an activity (say, 
information technology costs or facility support costs) if that 
activity was already partly funded in the program budget that was paid 
to the tribe under the contract. But Congress has already stated 
precisely the opposite--that if program funds for given costs are 
insufficient as compared to what is necessary and reasonable under the 
circumstances, then contract support costs are to be paid to make up 
the difference. See S. Rep. No. 103-374, at 9 (1994) (``[I]n the event 
the Secretarial amount under [Sec. 450j-1(a)(1)] for a particular 
function proves to be insufficient in light of a contractor's needs for 
prudent management of the contract, contract support costs are to be 
available to supplement such sums.'')
    We respectfully urge the subcommittee to underscore these 
instructions, direct the agencies to further simplify the contracting 
process, and instruct the agencies not to seek to reduce tribal 
contract support cost entitlements.
    To further simplify and streamline contracting activities, we also 
respectfully suggest that the subcommittee urge the agencies to explore 
using multi-year arrangements for fixed rates or fixed lump-sum amounts 
subject to inflationary adjustments.
    Finally, the Coalition respectfully urges the subcommittee to 
clarify once and for all that other funds under this subcommittee's 
jurisdiction that are paid to tribes and tribal organizations that 
contract with IHS under the Indian Self-Determination Act, shall be 
paid to the tribes under those contracts and compacts--not under 
separate grant agreements--and that tribal contract support cost 
requirements are to be calculated on such funds. Although this was the 
agency's practice between 2008 and 2012, the agency changed course 
after the 2012 Ramah decision and, for the last 2 years, has only 
awarded methamphetamine and suicide prevention initiative (MSPI) funds 
and domestic violence prevention initiative (DVPI) funds under grant 
instruments. Not only does using grants instead of existing contracts 
and compacts considerably over-complicate the accounting and reporting 
process; denying tribes contract support costs on these funds and 
future behavioral health funds forces tribes to divert scarce program 
dollars to cover overhead costs. On average, IHS's change in position--
undertaken without any tribal consultation whatsoever--has reduced 
these behavioral health program funding amounts nationwide by 25 
percent. Congress should not tolerate this irrational, arbitrary and 
capricious change to these programs.
    I thank the subcommittee for the opportunity to provide written 
testimony on behalf of the National Tribal Contract Support Cost 
Coalition concerning the fiscal year 2017 budget.
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    Madame Chairman, Senator Udall, and members of the subcommittee, I 
appreciate this opportunity to present the National Trust for Historic 
Preservation's recommendations for fiscal year 2017 appropriations. My 
name is Tom Cassidy and I am the Director of Government Relations and 
Policy. The National Trust is a privately-funded nonprofit organization 
chartered by Congress in 1949. We work to save America's historic 
places to enrich our future.
    The Nation faces a challenging fiscal environment. The National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, we do not believe that 
preservation, conservation and recreation programs should suffer from 
disproportionate funding reductions. We look forward to working with 
you, Madame Chairman, as you address the ongoing needs for investments 
to sustain our Nation's rich heritage of cultural and historic 
resources that generate lasting economic vitality for communities 
throughout the Nation.
    Historic Preservation Fund.--The Historic Preservation Fund (HPF) 
is the principal source of funding to implement the Nation's historic 
preservation programs. Like the Land and Water Conservation Fund, its 
dedicated revenues are generated from oil and gas development on the 
Outer Continental Shelf.
    The National Park Service distributes HPF grants that are matched 
by State Historic Preservation Offices (SHPOs) and Tribal Historic 
Preservation Offices (THPOs). Inadequate HPF funding limits support for 
preservation activities such as survey, nomination of properties to the 
National Register of Historic Places, public education, project review 
required by the National Historic Preservation Act and for the Federal 
Historic Rehabilitation Tax Credit (HTC). The HTC is the largest 
Federal investment in historic preservation. It has catalyzed the 
rehabilitation of more than 41250 buildings. Since its creation more 
than 30 years ago, the HTC has created 2.5 million jobs and leveraged 
more than $117.6 billion in private investment.
    The National Trust applauds the administration's request of $87.41M 
for the HPF. Most of the increase over fiscal year 2016 enacted is 
attributable to the $25 million for competitive grants to preserve the 
sites and stories of the Civil Rights movement and $3 million for 
grants to Historically Black Colleges and Universities. In addition, 
the administration requested an additional $2 million over fiscal year 
2016 enacted for grants to Tribal Historic Preservation Officers. There 
are presently 158 THPOs recognized by NPS--a dramatic increase from the 
12 tribes who received funding in fiscal year 1996, the first year of 
THPO funding. The National Trust enthusiastically endorses these well-
deserved increases for preservation activities. The request would also 
continue for a fourth year the successful $500,000 competitive grants 
program for the survey and nomination of properties associated with 
communities currently underrepresented in the National Register of 
Historic Places and National Historic Landmarks. Recent studies have 
documented that less than 8 percent of such listings identify 
culturally diverse properties.
    However, the National Trust is disappointed that the administration 
did not request any funding increase to the SHPOs. We will work with 
the preservation community to urge the appropriations subommittee to 
provide much needed increases for SHPOs to ensure that they can provide 
essential preservation services to businesses and communities 
throughout the Nation.
    National Park Service: Operation of the National Park System and 
Cultural Resources Stewardship.--The National Park Service (NPS) is 
responsible for 411 units of the National Park System ranging from the 
battlefields where our ancestors fought and died to places that stir 
the soul like the Statue of Liberty and Ellis Island, the gateway for 
millions of new Americans. Three-quarters of our parks were created to 
protect our most important historic and cultural resources. Over the 
past 20 years, more than 40 new parks have been added to the park 
system, many of which preserve historic places and themes that have 
been underrepresented within the system.
    We support the President's budget proposal of $154 million above 
the fiscal year 2016 enacted level for National Park Service 
Operations. The increase includes several Centennial Initiative 
requests of great importance to the preservation community, including 
increases of $49.2 million for repair and rehabilitation projects, 
$46.6 million for cyclic maintenance, and $2 million for the Cultural 
Resource Challenge.
    Repair and Rehabilitation.--The Repair and Rehabilitation Program 
is a part of the overall service wide deferred maintenance strategy 
that directs funds to high priority mission critical and mission 
dependent assets with deferred maintenance projects less than $1 
million. Approximately $4.5 billion of the overall deferred maintenance 
backlog is for the 27,000 properties listed on the National Register of 
Historic Places within National Park units. The deferred maintenance 
backlog on these properties is the result of repair and rehabilitation 
maintenance not being performed in a timely manner.
    Cyclic Maintenance.--Investing in cyclic maintenance required to 
maintain historic structures is essential to abate the continued growth 
of the deferred maintenance backlog. The kind of projects addressed by 
cyclic maintenance funding includes roofing of buildings, re-pointing 
masonry walls, painting, sealing and stabilizing archaeological sites.
    Leasing Historic Structures in National Parks.--In recent years, 
the Committee has repeatedly included report language encouraging the 
NPS to utilize leases as a means to mitigate the main The Service 
continues to move slowly to implement the policy changes he Service is 
slow to implement the policy changes necessary to facilitate more 
leasing and catalyze even broader use of this important authority. We 
recommend that the subcommittee request the NPS to report on its 
actions to expand this public-private approach to bring private 
investment into the parks.
    Visitor Services: New Responsibilities and Critical Needs.--We 
support the requested $3.2 million increase to support the operations 
of newly established units of the National Park System including the 
recently established Pullman National Monument in Illinois and 
Honouliuli National Monument in Hawaii. The requested increase would 
also support the critical operating needs of parks with Civil Rights 
stories, including the Selma to Montgomery National Historic Trail and 
the Carter G. Woodson Home National Historic Site.
    Visitor Services: Centennial Initiatives, Every Kid in a Park.--We 
support the administration's ongoing efforts to increase the exposure 
of our national park to young people, particularly those from 
underserved communities, through the Every Kid in a Park campaign.
    As part of our commitment, and assist the NPS reduce the 
maintenance backlog of historic properties, the National Trust launched 
the HOPE (Hands-On Preservation Experience) Crew initiative in 2014 to 
train young adults in preservation skills while helping protect and 
restore historic sites. Youth and veterans are trained in the 
preservation skills necessary to perform preservation work in the parks 
and other Federal lands through a cooperative agreement between the 
NPS, other Federal land management agencies, and several NGOs including 
the Student Conservation Association and The Corps Network. In the 
first 2 years of the program, HOPE Crew has engaged over 300 
Corpsmembers (youth and veteran), spent 60,000 hours completing 67 
projects and supporting over 8 million dollars of preservation work, 
including rehabilitating structures at Martin Luther King, Jr. National 
Historic Site, Little Big Horn Battlefield National Monument, Golden 
Gate National Recreation Area, and Shenandoah National Park. Projects 
like these help reduce the maintenance backlog while also providing job 
skills and education for the next generation of stewards of America's 
most important historic sites.
    National Park Service: Construction.--We support the requested 
increase of $37 million over fiscal year 2016 enacted for the Line Item 
Construction program. This account addresses the deferred maintenance 
for the NPS' highest priority non-transportation assets with projects 
larger than $1 million. We also support the President's request that 
this fund be used for the repair and stabilization of important 
historic structures as opposed to new construction. Of the 6,735 
highest priority non-transportation assets approximately 4,000 have 
deferred maintenance needs. Examples of these needs include critical 
health and safety issues in the lobby of the Many Glacier Hotel in 
Glacier National Park; the rehabilitation of historic cottages, and 
reroofing Ebenezer Church and seven historic houses at Martin Luther 
King, Jr. National Historic Site; and the rehabilitation of the Lincoln 
Memorial to provide accessible spaces, restrooms and pathways.
    National Park Service: National Heritage Areas.--We recommend 
funding for National Heritage Areas (NHAs) at the fiscal year 2016 
enacted level or higher. The administration's repeated proposals to 
reduce NHA funding, justified as ``encouraging self-sufficiency,'' 
would severely impair the sustainability of the program and most likely 
have the exact opposite effect by rendering many NHAs not self-
sufficient, but rather unable to function. National Park Service 
Director Jon Jarvis has described National Heritage Areas as ``places 
where small investments pay huge dividends.'' We agree.
    National Park Service: Centennial Challenge.--We support the $35 
million Centennial Challenge to provide dedicated Federal funding to 
match donations for signature National Park Service projects and 
programs. This funding will allow the NPS to leverage private 
contributions to enhance visitor services and improve cultural and 
natural resources across the parks in the Service.
    Bureau of Land Management: Cultural Resources Management.--The BLM 
oversees the largest, most diverse and scientifically important 
collection of historic and cultural resources on our Nation's public 
lands as well as the museum collections and data associated with them, 
including 10 million artifacts and specimens, 366,232 documented 
cultural sites, 3,965 monitored archaeological sites, 431 maintained 
historic structures and 108 properties listed on the National Register 
of Historic Places. This program funds National Historic Preservation 
Act (NHPA) Section 106 review of 13,000 land use proposals each year, 
compliance with the Native American Graves Protection and Repatriation 
Act and Government-to-Government consultation with Indian Tribes and 
Alaska Native Governments. Since fiscal year 2003 this program has lost 
19 FTEs while the demand for Section 106 compliance has remained even 
or increased. The loss of personnel has diminished the BLM's ability to 
review land proposals like transmission lines, energy development and 
recreation permits.
    We support the administration's fiscal year 2017 request of $17.3M, 
a modest increase of $1.2M above fiscal year 2016 enacted. The 
increased support is necessary to fulfill BLM's statutory requirements 
for Section 106 reviews of land use proposals, and NHPA's Section 110 
requirements for inventory and protection cultural resources. The 
increase would support 60 on-the-ground surveys of sensitive areas, 
site protection and stabilization projects for priority sites 
vulnerable to unauthorized activities and damage due to fire, erosion 
and changing water levels. Projects will also update predictive 
modeling and data analysis to enhance the BLM's ability to address 
large-scale, cross jurisdictional land-use projects.
    Bureau of Land Management: National Landscape Conservation 
System.--The Bureau of Land Management's (BLM) National Landscape 
Conservation System (National Conservation Lands) includes 31 million 
acres of congressionally and presidentially designated lands, including 
National Monuments, National Conservation Areas, Wilderness, Wilderness 
Study Areas, National Scenic and Historic Trails, and Wild and Scenic 
Rivers.
    As the Nation's newest system of protected lands, the National 
Conservation Lands encompass some of our country's most significant 
historic and cultural resources, yet the BLM's ability to steward these 
resources is undermined by insufficient funding. The National 
Conservation Lands are just one-tenth of BLM managed lands but they 
host one-third of all BLM's visitors. Without sufficient funding, the 
BLM struggles to complete essential resource protection, such as 
signing trails, inventorying and protecting cultural sites from looting 
and vandalism.
    We support the administration's fiscal year 2017 request of $83.1 
million, a $14 million increase over fiscal year 2016 enacted, in order 
to prevent critical damage to the resources found in these areas, 
ensure proper management and provide for a quality visitor experience. 
This funding level would enable BLM to hire essential management and 
law enforcement staff, monitor and protect natural and cultural 
resources, close unauthorized routes that damage fragile cultural sites 
and undertake needed ecosystem and species restoration projects.
    Land and Water Conservation Fund.--The National Trust supports 
robust funding for the Land and Water Conservation Fund. Many of the 
Nation's most significant historic and cultural landscapes have been 
permanently protected through LWCF investments, including Martin Luther 
King Jr. National Historic Site, Canyons of the Ancients National 
Monument and Harpers Ferry National Historic Park. Culturally 
significant projects in the fiscal year 2017 request include Aqua Fria 
National Monument (Arizona), Galisteo Basin ACEC (New Mexico), Palo 
Alto Battlefield National Historical Park (Texas), Hawaii Volcanoes 
National Park (Hawaii), Appalachian Trail (West Virginia), Lewis & 
Clark National Historic Park (Oregon/Washington) and the Captain John 
Smith Chesapeake National Historic Trail (District of Columbia/
Delaware/Maryland/Virginia). We strongly support the administration's 
request for the American Battlefield Protection Program Grants.
    Thank you for the opportunity to present the National Trust's 
recommendations for the fiscal year 2017 Interior, Environment and 
Related Agencies appropriations bill.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association
    Chair Murkowski, Ranking Member Udall, and members of the 
subcommittee:

    On behalf of the National Wildlife Refuge Association and its 
membership of representatives from Refuge Friends organizations and 
concerned citizens, thank you for your support for the National 
Wildlife Refuge System (NWRS), particularly for the funding increase 
for fiscal year 2016. We appreciate the opportunity to offer comments 
on the fiscal year 2017 Interior appropriations bill and respectfully 
request:

  --$506.6 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS, including $5 million for the Pacific Marine 
        Monuments;
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $150 million allocated for the FWS, including these high 
        priority requests:

    --$10 million for Everglades Headwaters NWR and Conservation Area 
            (Florida);
    --$5 million for Silvio O. Conte NFWR (Connecticut, New Hampshire, 
            Vermont, Massachusetts);
    --$3 million for Cache River NWR (Arizona);
    --$2 million for Bear River Watershed Conservation Area (Wyoming, 
            Idaho, Utah);
    --$2 million for Blackwater NWR (Maryland);
    --$1.4 million for Balcones Canyonlands NWR (Texas);
    --$2 million for Clark River NWR (Kentucky);
    --$6.2 million for Hakalau Forest NWR (Hawaii); and
    --$8 million for the Dakota Grasslands Conservation Area (North 
            Dakota, South Dakota);

  --$50 million for the Refuge Fund;
  --$75 million for the FWS Partners for Fish and Wildlife Program;
  --$15 million for the FWS Coastal Program;
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under DOI);
  --$70 million for the State and Tribal Wildlife Grants Program;
  --$47.6 million for the North American Wetlands Conservation Fund;
  --$6 million for the Neotropical Migratory Bird Fund; and
  --$13 million for the Multinational Species Conservation Fund.

    We understand our Nation's challenging fiscal constraints, but 
cutting funding to programs that are economic drivers and job creators 
in local communities only exacerbates an already difficult situation. 
For example, the NWRS averages almost $5 in economic return for every 
$1 appropriated. Budgets have not kept pace with rising costs, and the 
gap between the funding needed to maintain these programs and the 
funding appropriated has widened dramatically.
    Now, with the expansion of the Pacific Remote Islands Marine 
National Monument, the Refuge System is responsible for over half a 
billion acres of land and water and therefore must have adequate 
funding to keep pace with this newly expanded area of responsibility. 
The Service is also expanding their outreach by working to make 
conservation more accessible to the American public via urban refuges 
and urban partnerships. To begin bridging these gaps, the Refuge 
Association urges Congress to fund these critical programs that 
leverage Federal dollars and serve as economic drivers.
       national wildlife refuge system--operations & maintenance
    The Refuge Association chairs the Cooperative Alliance for Refuge 
Enhancement (CARE), a diverse coalition of 23 sporting, conservation, 
and scientific organizations representing more than 16 million 
Americans that supports increased funding for the Refuge System. CARE 
estimates the NWRS needs at least $900 million annually to manage its 
150 million acres and 418 million acres of national marine monuments, 
yet it is currently funded at roughly half that amount--at less than $1 
per acre. The Refuge System cannot fulfill its obligation to the 
American public, our wildlife, and 48.5 million annual visitors without 
increases in maintenance and operation funds.
    Funding for the Refuge System has declined substantially from a 
funding level of $503 million in fiscal year 2010 to its current $481 
million--$77 million below what it needs to keep pace with inflation 
and salary increases. This has forced the Service to cut back on 
programs and create efficiencies whenever possible. Because of these 
new efficiencies, the Service has cut its deferred maintenance backlog 
in half from $2.7 billion to $1.17 billion as of the end of fiscal year 
2015. But budget cuts also led to the loss of 500 positions since 
fiscal year 2011 and thus an increase in the operations backlog, now at 
$735 million. Because most refuge lands and waters are highly managed, 
this deterioration in staffing has had a dramatic impact resulting in 
significant declines in habitat protection and management, hunting, 
fishing, volunteerism and scientific research.
    For instance, visitor services staff has declined by 15 percent, 
forcing a reduction in public programs and hours of operation, yet 
there is more demand than ever for recreational opportunities on 
refuges. Hunting visits are up 2 percent since fiscal year 2011 and 
fishing visits are down 5 percent, but photography participation is up 
52 percent and auto tour visits are up 14 percent. Visitation to all 
refuges since fiscal year 2011 has increased by 9 percent. Overall, 
more people are looking to recreate on wildlife refuges, but fewer 
staff is available to provide those opportunities.
    Reductions in visitor services can be extremely troubling to 
constituencies who want to visit. At Tualatin NWR in Oregon, 
elimination of the visitor services position cut all teacher training 
workshops and community outreach. Prior to this loss, over 100 teachers 
were trained each year at the refuge. Patuxent Research Refuge in 
Maryland--the refuge closest to the Nation's capital --has closed its 
visitor's center every Thursday due to budget shortfalls, reduced 
programs for schools, and lost half its visitor services staff.
    Equally troubling is a 15 percent drop in the number of volunteers 
since fiscal year 2011. At a time when record numbers of Americans are 
retiring and have the capability to give back, the Service's ability to 
oversee their efforts has been curtailed. Volunteers provide an 
additional 20 percent of work on our national wildlife refuges, yet 
they are being turned away when the System needs them the most.
    During these years of challenging budgets, the Refuge System's 
potential to drive local economies and create jobs is of paramount 
importance. Banking On Nature, a report issued by the FWS in 2013, 
shows that even during the worst recession since the Great Depression, 
the Refuge System saw economic output in local communities increase 20 
percent to $2.4 billion, visitation increase 30 percent to 46.5 
million, an average return on investment increase of 22 percent to 
$4.87 for every $1 appropriated, and supported jobs increase 23 percent 
to 35,000.
    Not included within the request of $506.6 million is the need for 
an additional $6 million to recoup costs related to the armed 
occupation of the Malheur NWR in Oregon. For 40 days this winter, armed 
occupiers took over the refuge, causing injury to infrastructure and 
habitat. This funding includes costs already incurred by the Service 
for additional law enforcement as well as the cost to repair damages in 
order to open the refuge. Without these additional funds, all costs 
will come out of the Service's operating budget, reducing the amount 
available to the rest of the System.
    In addition, invasive species control is critically required at the 
Arthur R. Marshall Loxahatchee NWR in Florida. This refuge is owned by 
the State of Florida and managed by the Service, and invasive weeds 
have degraded much of the 230 square mile refuge. $5 million annually 
is required each year for 5 years to remove invasive species, plus an 
additional $3 million each year thereafter to maintain invasive species 
control.

    The Refuge Association appreciates the subcommittee's consideration 
of our request of $506.6 million for fiscal year 2017 for National 
Wildlife Refuge System Operations and Maintenance. We additionally 
request $6 million for costs related to the Malheur NWR occupation and 
$5 million for invasive species control at the Arthur R. Marshall 
Loxahatchee NWR.
       strategic growth--land and water conservation fund (lwcf)
    The Land and Water Conservation Fund is an essential tool for 
protecting the integrity of the Refuge System and is the primary 
funding source for land and conservation easement acquisition by 
Federal land agencies. Some in Congress have argued that public lands 
like the Refuge System can't manage what they have and thus, all land 
acquisition should end. However, in the past 20 years, lands contained 
within the Refuge System have only grown by 5.6 percent, while at the 
same time, visitation has grown by 30 percent. The real cause of rising 
operations and maintenance costs is that the public is hungry for more 
opportunities to recreate.
    Increasingly, LWCF is being used to conserve working lands and 
local culture through the acquisition of easements that secure 
conservation protection while leaving the land in private ownership and 
on the tax rolls. Easements are powerful tools that foster public-
private partnerships with ranchers, farmers and foresters to conserve 
wildlife, habitat and a uniquely American way of life. Innovative 
landscape-scale initiatives using easements have broad community and 
State support in New England's Connecticut River Watershed, the 
Everglades Headwaters, the Bear River Watershed, and the Dakota 
Grasslands. These iconic landscapes remain privately managed, 
generating tax income for local communities, securing our Nation's 
food, and balancing resource use and resource protection for wildlife.
    In many cases, however, land acquisition is required to conserve 
intact and functional natural habitat. The Refuge System is responsible 
for safeguarding population levels of a range of species, including 
many that require specific habitat conditions, such as beaches for sea 
turtles and isolated springs for endemic desert fish. Others require 
multiple habitat types during their life cycle. By acquiring critical 
habitat areas and linking conserved lands, the Refuge System enhances 
the integrity of the System and strengthens our network of habitat to 
give wildlife space and time to respond to changes, whether from 
climate or changing land use patterns.

    The Refuge Association calls on Congress to fund LWCF at $900 
million per year, with $150 million provided in fiscal year 2017 to the 
USFWS for conservation easements and refuge in-holdings, including the 
projects enumerated at the beginning of this statement and those 
advocated by Refuge Friends.
             commitment to refuge communities--refuge fund
    The Refuge System uses net income derived from permits and timber 
harvests to make payments to local communities to offset property tax 
revenue lost when the federally acquired lands are removed from local 
tax rolls. The System relies on congressional appropriations to the 
Refuge Fund to compensate for the shortfall between revenues and tax 
replacement obligations. However, declining revenues and lack of 
appropriations have resulted in the Service paying less than 50 percent 
of its tax-offset obligations since 2001. The negative impact on local 
communities is felt even more starkly in difficult economic times and 
reduced funding threatens the partnerships that are so important for 
successful conservation.
    The Refuge Association requests $50 million for the Refuge Fund. We 
also call for a review of the Refuge Revenue Sharing Act of 1935 as 
amended, and consideration of conversion to a Payment-in-Lieu of Taxes 
(PILT) program to be consistent with other Federal land management 
agencies and to provide Refuge communities with more equitable 
payments.
partnerships--partners for fish and wildlife program (partners program)
    With 75 percent of all fish and wildlife species dependent upon 
private lands for their survival, the Partners Program is one of the 
most powerful tools for protecting wildlife where it lives. By building 
effective partnerships between public agencies and private landowners 
to conserve America's expansive working landscapes, the Partners 
Program has implemented nearly 29,000 restoration projects in the past 
25 years, restoring over one million acres of wetlands, three million 
acres of uplands, and 11,000 miles of streams. The Partners Program 
leverages Federal dollars, generating nearly $16 in economic return for 
every $1 appropriated for projects.
    The Partners Program is playing a key role in conserving greater 
sage-grouse habitat in the intermountain west. To this end, we request 
an additional $78 million for the Interior agencies to implement 
sagebrush steppe habitat conservation and monitoring efforts that will 
leverage $300 million in Department of Agriculture investments.
    The Refuge Association and the landowner-led Partners for 
Conservation request $75 million for fiscal year 2017. Such a funding 
level would result in an additional $400 million worth of conservation 
across the Nation.
    We believe that with sound conservation policy, adequate funding, 
and the power of more than 40,000 dedicated volunteers, the Refuge 
System can fulfill its mission to provide wildlife dependent recreation 
for Americans and protect the habitat for more than 700 species of 
birds, 220 species of mammals, 250 reptile and amphibian species and 
more than 1,000 species of fish.
    We look forward to working with Congress in 2016 to accomplish this 
goal and appreciate your consideration of our requests. Please let our 
staff know if you have any questions.
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
    Chairman Murkowski, Ranking Member Udall and members of the 
subcommittee, thank you for the opportunity to submit recommendations 
for fiscal year 2017 appropriations. The Nature Conservancy is an 
international, non-profit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to conserve the lands and waters upon which all 
life depends.
    As we enter the fiscal year 2017 budget cycle and another year of a 
challenging fiscal environment, the Conservancy continues to recognize 
the need for fiscal austerity. The Conservancy also wishes to thank 
this subcommittee for the final fiscal year 2016 funding levels for 
Department of Interior conservation programs. Our budget 
recommendations this year reflect a balanced approach with funding 
levels consistent in most cases with fiscal year 2016 funding levels 
or, in rare instances, reflecting specific program needs. Of particular 
note, we wish to work with this subcommittee and the authorizing 
committees on identifying permanent funding solutions for wildfire 
funding, the Land and Water Conservation Fund, the Payment in Lieu of 
Taxes Program and Secure Rural Schools. The Conservancy is concerned 
about the increasing impacts of wildfire suppression funding on 
Interior funding levels and urges the subcommittee to adopt a 
bipartisan fire funding solution. The Interior Bureaus (and USDA Forest 
Service) need a stable and efficient budgeting process that provides 
firefighters with the necessary upfront resources to address wildfire 
disasters, while also providing the stability to perform activities 
that restore forests and reduce fire risk and costs to communities. A 
solution to the current fire funding problem must include all three of 
the following: (1) accesses disaster funding, (2) minimizes impacts 
from transfers/borrowing, and (3) addresses the increasing costs of 
suppression over time. We also strongly support the emphasis on funding 
for sage grouse conservation in the fiscal year 2017 budget request.
    Land and Water Conservation Fund (LWCF).--The fiscal year 2017 
President's budget again proposes the establishment of a dedicated 
source of long-term funding for the Land and Water Conservation Fund. 
In the proposal, the President's budget includes $475 million for LWCF 
activities through ``current authority'' or discretionary 
appropriations and then an additional $425 million in ``permanent 
authority'' or mandatory funding for LWCF. The budget then proposes to 
reach the $900 million funding level in fiscal year 2017 through this 
blend of current and permanent funding. The Conservancy supports this 
phased shift to mandatory funding for the LWCF Program. However, 
consistent with prior years and as noted above, we believe the 
administration must work closely with the relevant appropriations and 
authorizing committees to move this proposal forward. Additionally, the 
Conservancy supports the balanced approach in the budget on both 
``core'' and ``collaborative'' LWCF projects. Projects in the Upper Rio 
Grande landscape in Colorado and New Mexico, Rivers of the Chesapeake 
in Maryland and Virginia, and the Island Forests at Risk landscapes of 
Hawaii will benefit greatly from the collaborative emphasis. Our core 
priorities this year include the Silvio O. Conte NFWR (New Hampshire/
Vermont/Connecticut/Massachusetts) and the working ranches and 
agricultural production areas of Florida's Everglades Headwaters NWR & 
Conservation Area, North Dakota and South Dakota's Dakota Grasslands 
Conservation Area, Utah, Idaho and Wyoming's Bear River Watershed 
Conservation Area, Kansas's Flint Hills Legacy Conservation Area and 
Montana and Washington's Great Western Checkerboard.
    Forest Legacy.--We support a minimum of $62 million for the Forest 
Legacy Program in current discretionary funding and the $38 million in 
permanent, mandatory funding (with our aforementioned caveats), 
totaling $100 million for Forest Legacy Programs.
    Endangered Species.--The Conservancy supports a funding level of at 
least $53 million for the Cooperative Endangered Species Conservation 
Fund (CESCF), and also requests the subcommittee give consideration to 
the additional fiscal year 2017 President's budget request for 
permanent funding per our earlier request for negotiations to occur 
between the administration and relevant congressional committees on a 
path forward for this funding. We also request your continuing support 
for Habitat Conservation Plan (HCP) funding, specifically HCP Land 
Acquisition Grants where the need has greatly outpaced available 
resources in recent years.
    Wildlife Planning.--The Conservancy continues to support the 
Western Governors' Association's (WGA) and this subcommittee's efforts 
to recommend Federal land management agencies utilize State fish and 
wildlife data and analyses to inform the land use, land planning and 
related natural resource decisions of those agencies. As an example of 
strong State-led data systems, WGA has partnered in recent years with 
State wildlife agencies and the Federal Government to develop statewide 
GIS mapping tools to identify crucial wildlife habitat and migratory 
corridors. These geospatial mapping tools, which provide access to 
credible, broad-scale scientific data--compiled and analyzed by the 
States--are designed to reduce conflicts and surprises while ensuring 
wildlife values are better incorporated into land use planning, 
particularly for large-scale linear projects.
    State and Tribal Wildlife Grants.--The Conservancy supports the 
President's fiscal year 2017 funding request of $67 million for this 
program. Strong Federal investments are essential to ensure strategic 
actions are undertaken by State, tribal and Federal agencies and the 
conservation community to conserve wildlife populations and their 
habitats and to prevent species from being listed as threatened or 
endangered.
    Wildlife Conservation Programs.--The variety of wildlife 
conservation programs conducted by the US Fish and Wildlife Service 
(FWS) continue a long and successful tradition of supporting 
collaborative conservation in the U.S. and internationally. We urge the 
subcommittee to fund the President's request for such established and 
successful programs as the North American Wetlands Conservation Act 
(NAWCA), Neotropical Migratory Bird Conservation Fund (NMBCA), and the 
FWS Coastal Program. We support the President's request for the 
Migratory Bird Joint Ventures and the FWS Migratory Bird Management 
Program. For the latter, we are particularly supportive of FWS' efforts 
at developing updated eagle permitting regulations which will both 
support the development of renewable energy in our country and 
contribute to sustainable and growing populations of these iconic North 
American species. We support the President's fiscal year 2017 request 
for the Partners for Fish and Wildlife Program and the requested 
funding for Cooperative Landscape Conservation and Adaptive Science at 
$17.87 million. The latter will help support DOI's overall commitment 
to Landscape Conservation Cooperatives and will contribute to 
collaborative problem solving for some of our Nation's most challenging 
issues. We also request strong funding this year for the National Fish 
Habitat Initiative.
    International Programs.--The international conservation programs 
appropriated annually within the Department of Interior are relatively 
small but are effective and widely respected. They encompass the U.S. 
Fish & Wildlife Service's (FWS) Multinational Species Conservation 
Funds, the FWS Wildlife Without Borders regional and global programs, 
and the U.S. National Park Service International Program. We urge that 
fiscal year 2017 levels for these programs remain equivalent to fiscal 
year 2016 levels at a minimum.
    National Wildlife Refuge System.--The Conservancy supports the 
President's budget request of $506.6 million for the Refuge System's 
Operations and Maintenance accounts. Found in every U.S. State and 
Territory, national wildlife refuges conserve a diversity of America's 
environmentally sensitive and economically vital ecosystems, including 
oceans, coasts, wetlands, deserts, tundra, prairie, and forests. This 
represents the funding necessary to maintain management capabilities 
for the Refuge System.
    DOI Wildland Fire Management.--The Wildfire Disaster Funding Act 
(WDFA) must be approved prior to an fiscal year 2017 appropriations 
package to adequately fund suppression and provide flexibility for 
activities that reduce fire risk and long-term suppression costs in 
fiscal year 2017. The Conservancy greatly appreciates the 
subcommittee's support of this much-needed fire funding fix.
    Hazardous Fuels and Restoration.--Strategic, proactive hazardous 
fuels treatments have proven safer and more cost-effective in reducing 
risks to communities and forests by removing overgrown brush and trees, 
leaving forests in a more natural condition resilient to wildfires. 
Additionally, drought conditions increase the need for investment in 
this program. The Conservancy recommends investing in DOI's Hazardous 
Fuels Program at levels of $178 million, in addition to investing $30 
million into the new Resilient Landscapes program designed to restore 
and maintain fire adapted landscapes and habitats and repeating the 
subcommittee's fiscal year 2012 instructions for allocating funds to 
priority landscapes in both WUI and wildland settings.
    Sage Grouse Conservation.--This budget requests additional 
investment to provide needed resources for ongoing efforts to restore 
and conserve sagebrush habitat and the greater sage-grouse across 
Federal, State, tribal and private lands. We support the President's 
budget request for $90 million for sage-grouse conservation at Interior 
agencies ($79 million--BLM, $4 million--FWS, $4.2 million--USGS and 
$2.8 million--WFM). The additional budgetary support is needed to 
implement on-the-ground projects and monitor habitat treatments, 
address rangeland fire and broader wildland fire prevention, 
suppression and restoration efforts, and support the partnership and 
science necessary for effective conservation. The BLM is facing perhaps 
the single most challenging effort in its history in conserving key 
sagebrush habitat, addressing identified threats to sage-grouse and 
promoting sustainable economic development across some 165 million 
acres in coordination with State and local managers and private land 
owners. Additional resources for the FWS will be used, inter alia, for 
developing voluntary prelisting conservation agreements with private 
landowners who are ready and willing to undertake critical conservation 
work for the sagebrush steppe ecosystem on large blocks of private 
lands.
    BLM Landscape Approaches to Land Management and Renewable Energy 
Development.--The Conservancy supports the administration's recommended 
fiscal year 2017 funding for BLM's initiatives to implement landscape 
approaches to land management which include Rapid Ecoregional 
Assessments, Resource Management Planning and the Planning 2.0 
initiative, Regional Mitigation Planning, coordination with LCCs, and 
the Assessment, Inventory, and Monitoring (AIM) Strategy. Many BLM 
programs contribute to these cross-cutting initiatives including: 
National Landscape Conservation System--($50.65 million); Resource 
Management Planning program ($65.2 million); Wildlife and Fisheries 
management ($108.7 million request); and Threatened & Endangered 
species management ($21.6 million request). Additionally, the 
Conservancy supports continued funding for BLM's renewable energy 
development program at $29 million which includes implementation of the 
Western Solar Energy Program. Collectively, these efforts will help BLM 
manage its lands efficiently and effectively for energy development, 
species and habitat conservation, recreation, and other uses to 
maximize the public benefit from these lands.
    Environmental Protection Agency.--EPA's ``geographic'' programs 
including the Chesapeake Bay, Great Lakes, Gulf of Mexico, Puget Sound 
and Mississippi River programs make a significant contribution to 
protecting habitat and water quality in the large landscapes where they 
work. The Conservancy urges the subcommittee to continue strong funding 
for these programs.
    Colorado River Basin Recovery Programs.--The Upper Colorado River 
Endangered Fish Recovery Program and San Juan River Basin Recovery 
Implementation Program take a balanced approach to recovering four 
endangered fish species in the Colorado River basin. The Upper Colorado 
and San Juan recovery programs are highly successful collaborative 
conservation partnerships involving the States of New Mexico, Colorado, 
Utah, and Wyoming, as well as Indian tribes, Federal agencies, and 
water, power and environmental interests. These programs provide 
critically important Endangered Species Act (ESA) compliance for over 
2,450 Federal, tribal, State, and private water projects across the 
Upper Colorado River Basin. Through these efforts, water use and 
development has continued in growing western communities in full 
compliance with the ESA, State water and wildlife law, and interstate 
compacts. Implementation of the ESA has been greatly streamlined for 
Federal agencies, tribes and water users. The Conservancy supports the 
President's fiscal year 2017 Budget request of $1.532 million for FWS 
for the Colorado River Basin recovery programs, including recovery 
funds for both the Upper Colorado River Endangered Fish Recovery 
Program and San Juan River Basin Recovery Implementation Program, as 
well as fish hatchery needs associated with the recovery plans.
    Thank you for the opportunity to submit the Nature Conservancy's 
recommendations for the fiscal year 2017 Interior, Environment and 
Related Agencies Appropriations bill.
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
                          usda forest service
    Thank you Chairman Murkowski, Ranking Member Udall, and members of 
the subcommittee for the opportunity to submit recommendations for 
fiscal year 2017 appropriations. The Nature Conservancy is an 
international non-profit conservation organization whose mission is to 
conserve the lands and waters upon which all life depends.
    America's public forests have tremendous national importance but 
their health puts them at severe risk unless we invest in proper 
stewardship and forestry. America's forests store and filter more than 
half of our Nation's water supply, provide jobs to nearly 1 million 
forest product workers, generate $13.6 billion in recreation based 
economic activity, are habitat to thousands of forest-dependent 
wildlife and plant species, offer a million square miles to sportsmen 
and families for outdoor recreation, and are a major carbon sink that 
sequester 15 percent of all fossil fuel emissions in the United States.
    However megafires, pests, drought, and sprawl place forests at 
great risk; approximately 62 million acres are in immediate need of 
urgent restoration to return forests to healthier conditions--and that 
is on national forests alone. Unfortunately, forest restoration is 
significantly obstructed by ballooning fire suppression costs.
    Again in fiscal year 2015, the 10-year average was not enough to 
meet Forest Service suppression needs, forcing the agency to transfer 
$700 million from non-suppression accounts to make up for the 
shortfall. The current wildfire suppression funding model and cycle of 
transfers and repayments has negatively impacted the ability to 
implement forest management, among many other activities. Additionally, 
the increasing 10-year average continues to constrain the agency's 
relatively flat budget, which is why we are thankful to the 
subcommittee for both the full fiscal year 2015 transfer repayment and 
increased suppression funding in fiscal year 2016.
    The Conservancy understands this increased suppression funding 
level is not guaranteed every year. The Department of the Interior and 
Forest Service need a long-term fire funding solution that would result 
in stable and predictable budgets. We respectfully request a bipartisan 
fire funding solution be included in an appropriations package that 
would (1) access disaster funding, (2) minimize transfers, and (3) 
address the continued erosion of agency budgets over time, with the 
goal of reinvesting in key programs that would restore forests to 
healthier conditions.

    Investing in the following USDA Forest Service programs is critical 
to meeting forest restoration goals:

    Increase funding for Collaborative Forest Landscape Restoration 
(CFLR) to $60 million.--The CFLR program is demonstrating that 
collaboratively developed forest restoration plans can be implemented 
at a large scale with benefits for people and the forest. This is a 
model approach that brings citizens, local government and Federal staff 
together to determine effective management that is locally appropriate 
and provides jobs, sustains rural economies, reduces the risk of 
damaging fires, addresses invasive species, improves wildlife habitat, 
and decommissions unused, eroding roads. The funding increase will 
guarantee the existing 23 successful projects can continue, and 
additional critical projects across America can begin.
    Fund the Hazardous Fuels programs at no less than $479 million (and 
$178 million for Fuels Treatment under the Department of the 
Interior).--Strategic, proactive hazardous fuels treatments have proven 
safer and more cost-effective in reducing risks to communities and 
forests by removing overgrown brush and trees, leaving forests in a 
more natural condition resilient to wildfires. Drought conditions 
increase the need for investments in this program to restore and 
maintain fire adapted landscapes and habitats.
    The Conservancy additionally recommends funding levels that support 
critical restoration programs on national forests. Effective and 
durable restoration requires integrated approaches that address threats 
and improve forest health and habitat values while supporting forest-
dependent communities:

  --Wildlife & Fisheries Habitat Management maintained at a $140 
        million funding level to restore, recover, and maintain 
        wildlife and fish and their habitats on all national forests 
        and grasslands.
  --Vegetation & Watershed Management funded at $185 million to promote 
        restoration through watershed treatment activities, invasive 
        plant species control, and reforestation of areas impacted by 
        wildfire and other natural events.
  --Legacy Road and Trail Remediation (LRT) maintained at $50 million 
        to restore river and stream water quality by fixing or removing 
        eroding roads, while providing construction jobs, supporting 
        vital sportsmen opportunities, and reducing flooding risks from 
        future extreme water flow events.
  --Land Management Planning, Inventory and Monitoring funded at $201 
        million, including consolidating the two previously separate 
        budget items. Consolidation will be more efficient for land 
        managers, while supporting the collaborative, community and 
        science based planning featured by the Forest Service 2012 
        Forest Planning regulation.

    Fund Forest Health programs at a total of $111 million ($63 million 
for Federal and $48 million for Cooperative).--Forest health programs 
work to protect forests by minimizing the impacts caused by invasive 
species. Across the Nation large-scale, non-native insect, disease, and 
invasive plant outbreaks are damaging forest health. These programs 
help reduce invasions of non-native pests that destroy iconic American 
trees such as ash, hemlock, and California oaks.
    Fund State Fire Assistance (SFA) at $86 million.--SFA provides aid 
to communities for fuels treatments, firefighter capacity building, 
fire prevention education, and pre-fire planning. The SFA program is an 
important complement to the Hazardous Fuels program for Federal lands.
    Fund Landscape Scale Restoration (LSR) at $24 million.--Through 
LSR, non-Federal lands have access for competitively selected projects 
that leverage State funding, restore forests of national importance, 
and, whenever possible, complement CFLR and other landscape scale 
restoration efforts.
    Fund Forest & Rangeland Research at $293 million.--Forest and 
Rangeland Research offers scientific basis for policies that improve 
the health and quality of urban and rural communities. This program is 
vital for the long-term health and utility of our American forests and 
rivers, particularly as we face an uncertain climatic future.
    Maintain funding for the Joint Fire Science Program at $7 million 
and maintain funding under Wildland Fire Management (and $6 million 
under the Department of the Interior).--This small, yet key, program 
has proven a great success in supporting practical science that reduces 
fire risk and enhances economic, ecological, and social outcomes 
nationwide.
    Fund Forest Legacy at a minimum of $62 million for the Forest 
Legacy Program in current discretionary funding and $38 million in 
permanent, mandatory totaling $100 million.--The Forest Legacy program, 
in partnership with States, supports efforts to acquire conservation 
easements and fee simple interests on privately owned forest lands from 
willing sellers. These acquisitions leverage non-Federal dollars and 
support long-term sustainable forestry while protecting other 
ecological, watershed and recreational values for local communities at 
risk of development or conversation to other uses.

    [This statement was submitted by Cecilia Clavet, Senior Policy 
Advisor.]
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    Honorable Chairman and members of the subcommittee, as a member of 
the Nez Perce Tribal Executive Committee, I would like to thank you for 
the opportunity to provide testimony on behalf of the Nez Perce Tribe 
to this subcommittee as it evaluates and prioritizes the appropriations 
for IHS, BIA, EPA, the Forest Service and the Fish and Wildlife Service 
in relation to the needs of tribal nations for fiscal year 2017.
    First, on behalf of the Nez Perce Tribe, I want to acknowledge and 
thank this subcommittee for your efforts on a longstanding bipartisan 
basis to understand the needs of Indian Country and advocate for 
increased appropriations to the many programs in your jurisdiction that 
benefit our citizens, our tribal governments and all members of our 
communities.
    As with any government, the Nez Perce Tribe does a wide array of 
work and provides a multitude of services to its tribal membership as 
well as the community at large. The Nez Perce Tribe has a health clinic 
with a satellite office, a tribal police force, a social services 
department, a comprehensive natural resource program that does work in 
forestry, wildlife management, land services and land management, 
habitat restoration, air quality and smoke management, water quality 
and sewer service, and also one of the largest fisheries departments of 
any tribe in the Nation working on recovery of listed species under the 
Endangered Species Act. The Nez Perce Tribe conducts its extensive 
governmental functions and obligations through a comprehensive 
administrative framework, which is necessary for a sovereign nation 
that preserves and protects the treaty rights of the Nez Perce People 
in addition to providing the day to day governmental services to its 
members and the surrounding communities. The Nez Perce Tribe has long 
been a proponent of self determination for tribes and believes our 
primary obligation is to protect the treaty-reserved rights of the Nez 
Perce Tribe and our members. All of the work of the tribe is guided by 
this principle. As a result, the tribe works extensively with many 
Federal agencies and proper funding for those agencies and their work 
with, for and through tribes is of vital importance. This work cannot 
be accomplished unless the United States continues to affirm and follow 
through on its trust responsibility to Indian tribes and properly fund 
programs.
                         indian health services
    The Nez Perce Tribe currently operates a healthcare clinic on the 
Nez Perce Reservation, Nimiipuu Health. The main clinic facility is 
located in Lapwai, Idaho with a satellite facility located 65 miles 
away in Kamiah, Idaho. Nimiipuu Health provided annually services at 
least 3,000 patients each year. These patients annually compute into 
40,000 visits which does not include pharmacy and laboratory visits but 
only medical provider visits. This workload is quite expensive to 
maintain. Our expenditure total for fiscal year 2014 was $13,942,622. 
Our Purchased/Referred Care costs for outpatient services for fiscal 
year 2014 was $4,125,475.
    The Nez Perce Tribe supports the $248.7 million increase in funding 
over the fiscal year 2016 enacted levels proposed in the President's 
fiscal year 2017 budget. The tribe appreciates that the budget request 
includes an increase of $159 million for current services, so that the 
IHS, tribal and urban programs and facilities can keep up with medical 
and non-medical inflation, population growth and pay costs. Also, the 
tribe supports the recommendation of a $48.2 million increase in 
funding proposed for purchased and referred care, which will help to 
meet the purchased and referred care spending needs of the Nez Perce 
clinic and others like ours.
    The tribe supports $800 million to be allocated for contract 
support costs so that they are fully funded. In addition, because full 
funding of these obligations is so important to Indian Country, the 
tribe supports the administration's innovative proposal to reclassify 
contract support costs for the Bureau of Indian Affairs and the Indian 
Health Service as mandatory and not discretionary beginning in fiscal 
year 2018. The tribe believes this reclassification should be 
permanent. Also, such a change in funding should not be accomplished or 
be off-set by reducing other funding for these agencies that would 
adversely affect services or programs. Also, this funding should not be 
unnecessarily reduced by excessive set-asides for administration.
    The tribe also supports the administration's legislative proposal 
for permanent mandatory funding of the Special Diabetes Program at $150 
million.
                        bureau of indian affairs
    The tribe supports the total of $278 million requested for contract 
support costs proposed in the President's budget, and as stated above, 
the reclassification of these costs from discretionary to mandatory as 
well as the 5 percent increase in overall funding for the Bureau of 
Indian Affairs. The tribe also supports the Presidential budget request 
to include a ``Carcieri fix'' to address legal issues that have arisen 
related to the transfer of land into trust which has created 
uncertainty over the status of lands. This uncertainty only stifles and 
impedes economic development in Indian Country. A legislative amendment 
to clarify the sovereign status of these lands is needed now.
    In relation to the Bureau of Indian Affairs Public Safety and 
Justice account, the tribe advocates for at least the $348 million in 
funding for Law Enforcement that was provided in fiscal year 2016. The 
Nez Perce Reservation spans 1,200 square miles and covers five counties 
and has a mixture of tribal and non-tribal residents. The tribe 
provides a full service law and justice program. The Tribe has a fully 
trained and staffed police force of 26, a fully staffed tribal court, a 
prosecutor and public defender, and other personnel to perform related 
administrative functions. Currently, the Nez Perce Tribe contributes 
over $1,682,998 annually to cover the shortfall in BIA funding for the 
tribe's law enforcement, $383,019 for judicial services/probation, 
$319,360 for prosecutorial services, $163,107 for public defender 
services and $325,000 for prisoner boarding. This funding comes from 
tribal taxes and tribal gaming revenues that would otherwise be used 
for other governmental services. The funding for these programs needs 
to be increased to account for the shortfalls in funding the tribe has 
to absorb to continue the operation of these vital services on the 
reservation. The tribe supports the administration's requested increase 
of $2.6 million for base funding for tribal courts.
    In relation to education, the tribe supports the proposed fiscal 
year 2017 increase of $3.8 million for the Johnson O'Malley program, 
and the proposed increases totaling $7 million for Scholarships and 
Adult Education and Special Higher Education Scholarships. These latter 
increases will help address the rising costs of attending college. The 
tribe also supports continued level funding (if not increases) for 
Tribal Education Departments and for Tribal Colleges and Universities 
that would support institutions such as the Northwest Indian College 
that operates a satellite campus on the Nez Perce Reservation.
    The tribe also relies on the BIA for funding for our work related 
to endangered species and protection of the tribe's treaty resources 
including Chinook and steelhead salmon. The funding has also been used 
to supplement the research efforts of the tribe relative to other 
sensitive species. We are very appreciative that the administration's 
fiscal year 2017 budget request proposes increases for ALL Natural 
Resources Management accounts except Resource Management Program 
Oversight for the Central Office. Particularly helpful and important to 
the Nez Perce Tribes is the proposed $1 million increase over fiscal 
year 2016 for the BIA Endangered Species Program. This account provides 
tribes, like Nez Perce, with the technical and financial assistance to 
protect endangered species on trust lands, and this proposed increase 
is most welcome. Also, the proposed increase of $2.8 million for BIA 
Natural Resource Tribal Priority Allocations will help increase tribal 
land and management capabilities.
    In addition, the funding provided under the BIA Rights Protection 
implementation monies are critical to support the exercise of treaty 
reserved off-reservation hunting and fishing for tribes like the Nez 
Perce, so we support the proposed $2.5 million increase in fiscal year 
2017 for a total of $40.1 million. The BIA single-line dollars do 
provide the foundation for core program administration and treaty 
rights protection activities, such as harvest monitoring. And of 
course, these efforts are central to the tribe's fisheries management 
responsibilities as established in the treaties and further delineated 
in litigation regarding implementation of hunting and fishing treaty 
rights. It is important to understand that this funding is not for 
equipment but is used for job creation.
    The tribe also supports continued funding for the BIA Wildlife and 
Parks Tribal Priority Allocations. As stated earlier, the tribe has 
invested a large amount of our personnel and resources in the 
restoration of salmon through our fisheries programs. The States of 
Oregon, Washington and Idaho directly benefit from this work as well 
through sports fisheries. These programs have been successful with 
funding under the Tribal Management and Development Program which is 
critical for fish and wildlife management of the tribe. We support the 
proposed fiscal year 2017 increase of $5 million to the Tribal 
Management and Development Program.
              fish and wildlife service and forest service
    The tribe relies heavily on funding sources within the Fish and 
Wildlife Service and the Forest Service. First, the Tribal Wildlife 
Grants program administered by the U.S. Fish and Wildlife Service is a 
cost effective expenditure for the Government. This small pot of money 
has resulted in huge returns from the tribe's perspective. Since 2005, 
we have received five such grants that have allowed us to work on such 
diverse issues as gray wolf monitoring, bighorn sheep research, and 
rare plant conservation. Continued funding for the Tribal Wildlife 
Grant program will allow recipient tribes to build capacity and 
maintain involvement in key conservation issues. It should be noted 
that this competitive grant does not simply dole out funds for projects 
but awards grants based on the quality of the proposal. The tribe 
strongly urges this subcommittee to support the administration's $6 
million increase of funding for the Tribal Wildlife Grant program as it 
provides a large return in work for a small investment. It is also one 
of the few sources of funds tribes can tap into for wildlife research.
    Related to forest management, the tribe supports wildfire disaster 
funding legislation that treats wildfires like other natural disasters 
and emergencies to help prevent funds from having to be diverted from 
forest management.
    The Nez Perce Reservation and its usual and accustomed areas are 
rich in natural resources and encompass eleven different national 
forests. The tribe works closely with each forest administration to 
properly manage its resources on behalf of the tribe. These range from 
protecting and properly managing the products of the forest to managing 
the vast wildlife in each one such as elk, deer, bighorn sheep and 
wolves. Increased funding is necessary so that the Forest Service can 
meet these trust obligations and continue to work with tribes such as 
the Nez Perce on a government to government basis. With regard to 
management of bighorn sheep, the tribe would like to note the 
subcommittee has included report language over the last several years 
that encourages research related to disease transmission between 
domestic sheep and bighorn sheep. The tribe encourages this type of 
research mandate to be restricted to laboratory settings and not be 
allowed to occur in the field where impact and harm would be harder to 
control. The bighorn sheep populations within the tribe's aboriginal 
territories are too fragile and too important to be put at risk.
                    environmental protection agency
    On behalf of the Environmental Protection Agency, the Nez Perce 
Tribe currently implements the Federal Air Rules for Reservations 
program (FARR) and receives funding from the State and Tribal 
Assistance Grants Program and Tribal General Assistance Grants. The 
tribe supports the proposed increase of $30.9 million for these grants 
because of the importance of these funds for tribal governance. The 
FARR program monitors air quality and regulates field burning 
throughout the Nez Perce Reservation. The tribe is located in Region 10 
of the EPA and this increase in funding is needed for tribes to meet 
their air quality needs and operate programs under the delegation of 
the EPA.
    Thank you for the opportunity to testify today. As you can see, the 
Nez Perce Tribe does a tremendous amount of work in a variety of areas. 
It is important that the United States continue to fund this work and 
uphold and honor its trust obligations to tribes.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    The Northwest Indian Fisheries Commission (NWIFC) is comprised of 
the 20 tribes that are party to the United States v. Washington.\1\ We 
are pleased with the President's fiscal year 2017 budget request, which 
includes and builds on the support of the subcommittee. It contains 
funding to support the tribal treaty right, including research and 
analysis for critical and sustainable management of our natural 
resources. Our treaty-reserved rights are at risk today as the 
resources they are dependent on are disappearing and the reason our 
tribes brought to the Federal Government our Treaty Rights at Risk 
Initiative.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
    On behalf of our member tribes, I am providing testimony for the 
record in support of our fiscal year 2017 natural resources and 
environmental program funding requests for the Bureau of Indian Affairs 
(BIA) and Environmental Protection Agency (EPA). To meet the many 
natural resources management responsibilities required of the tribes, I 
submit the following requests for the BIA and EPA.
          summary of fiscal year 2017 appropriations requests
Bureau of Indian Affairs
  --Provide $56.5 million for Rights Protection Implementation 
        (collective request)
    --Provide $17.146 million for Western Washington Fisheries 
            Management
    --Provide $3.082 million for Washington State Timber-Fish-Wildlife
    --Provide $4.844 million for U.S./Canada Pacific Salmon Treaty
    --Provide $2.4 million for Salmon Marking
    --Provide $4.5 million for Climate Change
  --Provide $10.38 million for BIA Fish, Wildlife & Parks Projects
  --Provide $273.0 million for Contract Support
  --Provide $30.355 million for Tribal Climate Resilience
  --Provide $830,000 for Watershed Restoration
Environmental Protection Agency
  --Provide $96.4 million for General Assistance Program
  --Provide $50.0 million for Puget Sound
  --Provide $5.0 million for Beyond GAP
                       justification of requests
Bureau of Indian Affairs
            Rights Protection Implementation Subactivity
    The 41 tribes in the Great Lakes and Pacific Northwest with similar 
treaty-reserved rights have collectively identified that no less than 
$52.0 million for Rights Protection Implementation (RPI) is necessary 
for essential tribal treaty rights management. The President's fiscal 
year 2017 budget includes $40.161 million for RPI, an increase of 
$2.523 million over the fiscal year 2016 enacted level of $37.638 
million. The NWIFC has identified an addition need of $4.5 million for 
RPI Climate Change, bringing our total request for RPI to $56.5 
million. A summary of the accounts of interest to us within RPI are 
further identified below. A breakdown of these accounts in the BIA's 
Greenbook is not provided for fiscal year 2017.

    Provide $17.146 million for BIA Western Washington Fisheries 
Management.--We respectfully request $17.146 million, an increase of 
$8.614 million over the fiscal year 2016 enacted level of $8.532 
million. Funding for this program allows for continued treaty harvest 
management, population assessment, habitat protection and data 
gathering for finfish, shellfish, groundfish, wildlife and other 
natural resource management needs. Funds provide the necessary capacity 
for the treaty tribes to co-manage the resources with the State of 
Washington and to continue to meet court mandates and legal 
responsibilities.
    Provide $3.082 million for BIA Washington State Timber-Fish-
Wildlife.--We respectfully request $3.082 million, an increase of 
$346,000 over the fiscal year 2016 enacted level of $2.736 million. 
Funding for this program is provided to improve forest practices on 
State and private lands while providing protection for fish, wildlife 
and water quality. This will provide the necessary funding for tribal 
TFW programs to fully participate in the TFW process.
    Provide $4.844 million for BIA U.S./Canada Pacific Salmon Treaty.--
We respectfully request $4.844 million, an increase of $564,000 over 
the fiscal year 2016 enacted level of $4.28 million. The Pacific Salmon 
Treaty (PST) Act of 1985 charges the United States Section of the 
Pacific Salmon Commission with the responsibility for implementation of 
the PST, a bilateral treaty with Canada. Tribes assist in meeting the 
Federal Government's obligations in implementing the treaty by 
participating in cooperative research and data gathering activities. 
This will provide sufficient funding to ensure that the tribes can 
continue to participate effectively in the bilateral PST process.
    Provide $2.4 million for BIA Salmon Marking.--We respectfully 
request $2.4 million, an increase of $1.332 million over the fiscal 
year 2016 enacted level of $1.068 million. Funding for this program was 
mandated in 2003 by Congress that required all salmon released from 
federally funded hatcheries be marked so they could be identified for 
conservation purposes. This allows tribes to mark salmon at tribal 
hatcheries and to use these marked fish to scientifically monitor 
salmon populations and watersheds in western Washington.
    Provide $4.5 million for BIA Climate Change.--We respectfully 
request $4.5 million for Climate Change for our member tribes, an 
increase of $2.118 million over our fiscal year 2016 allocation. The 
fiscal year 2016 appropriations provided a collective (Great Lakes and 
Pacific Northwest) total of $5.442 million, of which our member tribes 
received $2.382 million. Funding for this program will provide tribes 
the capacity to identify, respond and adapt to the impacts of our 
changing climate. There is a glaring need to assess the potential 
impacts to resources in the face of climate change, which brings 
different challenges for every tribal community. It is important that 
tribes be provided the maximum flexibility to develop specific science-
based activities to meet their particular needs.
            Fish, Wildlife & Parks Projects/Fish, Wildlife and Parks 
                    Subactivity
    Provide $10.38 million for BIA Fish, Wildlife & Parks Projects.--We 
support the President's request of $10.38 million, an increase of 
$2.002 million over the fiscal year 2016 enacted level of $8.378 
million. Funding for this program is for Fish Hatchery Operations and 
Fish Hatchery Maintenance. Funding is provided to tribal hatcheries to 
support the rearing and releasing of salmon and steelhead for harvest 
by Indian and non-Indian fisheries in the U.S. and Canada. Tribal fish 
hatcheries in western Washington are part of the largest fish hatchery 
system in the world. Hatcheries are a necessary component of fisheries 
management because of the lack of wild salmon production due to habitat 
degradation. A critical component to fisheries management is the 
hatchery production, which play a vital and necessary role in 
supporting tribal fisheries. They are now essential for maintaining the 
treaty right to harvest fish. Without hatcheries tribes would lose 
their most basic ceremonial and subsistence fisheries that are central 
to our tribal culture. Hatcheries also play a large role in recovering 
pacific salmon, many of which are listed under the Endangered Species 
Act.
    Funding for Fish Hatchery Maintenance is provided to tribes 
nationwide based on the ranking of annual maintenance project 
proposals. A comprehensive needs assessment study for our Western 
Washington tribes was conducted in fiscal year 2006 by the BIA at the 
request of Congress, which identified a need of over $48.0 million in 
necessary hatchery maintenance and rehabilitation costs.
            Other Subactivities and Accounts
    Provide $273.0 million for BIA Contract Support.--We support the 
President's request of $273.0 million, an increase of $1.0 million over 
the fiscal year 2016 enacted level of $272.0 million. We also support 
the President's legislative proposal to reclassify CSC as mandatory 
funding beginning in fiscal year 2018. Funding for this function is 
provided to tribal organizations to ensure they have the capacity to 
manage Federal programs under self-determination contracts and self-
governance compacts. These funds are critical as they directly support 
our governmental functions, which allow us to fully exercise our right 
to self-govern.
    Provide $30.355 million for BIA Tribal Climate Resilience.--We 
respectfully request $30.355 million, an increase of $20.4 million over 
the fiscal year 2016 enacted level of $9.955 million. Funding for this 
program will contribute to the tribal capacity needed to participate 
and provide input on climate change issues. It will assist tribes in 
being able to provide their perspective on climate change adaptation in 
the form of traditional ecological knowledge necessary to protect their 
treaty rights.
    Provide $830,000 for BIA Watershed Restoration.--We respectfully 
request $830,000, an increase of $455,000 over the fiscal year 2016 
operating plan. The fiscal year 2016 operating plan provided a total of 
$375,000 to the western Washington treaty tribes. Funding is contained 
in the Forestry Subactivity--Forestry Projects--Watershed Restoration 
account and supports our Salmon and Steelhead Habitat Inventory and 
Assessment Program. This provides environmental data management, 
analysis, and reporting support and maintains on-going efforts to 
develop information sharing and exchange tools. It also supports our 
tribes' ability to adequately participate in watershed resource 
assessments and salmon recovery work.
Environmental Protection Agency
    Provide $96.4 million for EPA General Assistance Program.--We 
support the President's request of $96.4 million, an increase of 
$30.924 million over the fiscal year 2016 enacted level of $65.476 
million. This funding has built essential tribal capacities and remains 
critical to the tribes' ability to sustain important environmental 
protection programs central to the protection of treaty-reserved 
resources and healthy communities. Funding for this program continues 
to provide the base capacity for tribal environmental protection 
programs nationwide.
    Provide $50.0 million for EPA Puget Sound.--We respectfully request 
$50.0 million, an increase of $19.966 million over the President's 
request of $30.034 million. The Puget Sound Geographic Program provides 
essential funding that will help protect, restore and enhance Puget 
Sound, an estuary of national significance. Funding for this program 
will allow the tribes to participate in the necessary scientific work, 
implementation measures, and policy discussions on issues that affect 
our treaty rights. It allows the tribes to participate in implementing 
the Puget Sound Action Agenda.
    Provide $5.0 million for EPA Beyond GAP.--We respectfully request 
$5.0 million. The President's fiscal year 2017 budget did not include 
any proposed funding for this new initiative. We request that 
legislative language be incorporated into the appropriations bill to 
specifically allow for implementation of tribal programs. We further 
request an increase to the tribal allocations of program funding in EPA 
CWA 104, 106 and 319, and CAA 103 and 105 budgets to allow for media-
specific implementation priorities. Increasing tribal allocations will 
allow for an immediate expansion and response to specific 
implementation needs identified in our Beyond GAP request. The Beyond 
GAP initiative would advance the EPA/tribal partnership from capacity 
building and limited programmatic support to more comprehensive and 
consistent funding supportive of tribal environmental programs capable 
of implementing a broad range of necessary environmental activities 
while improving both efficiency and accountability.
                               conclusion
    We respectfully urge the subcommittee to continue to support our 
efforts to protect and restore our treaty-reserved rights that in turn 
will provide for thriving communities, cultures and economies. Thank 
you.
                                 ______
                                 
 Prepared Statement of the Northwest Portland Area Indian Health Board
    The Northwest Portland Area Indian Health Board (NPAIHB) is a 
Public Law 93-638 tribal organization that advocates on healthcare 
issues of 43 federally recognized tribes in the States of Idaho, 
Oregon, and Washington. Our member tribes operate healthcare programs 
that provide healthcare to over 100,000 American Indian and Alaska 
Natives (AI/AN) people. NPAIHB appreciates the opportunity to offer the 
following testimony on the Indian Health Service (IHS) budget in the 
Department of Health and Human Services.
    The Federal trust responsibility for healthcare and the government-
to-government relationship between tribes and the Federal Government, 
by definition, requires a partnership in the development of the budget. 
The President's fiscal year 2017 IHS budget continues a positive 
maintenance of effort for a budget that has suffered a heavy burden of 
neglect over the past 20 years. Following a fiscal year 2001 increase 
of 10 percent, from fiscal year 2002 to fiscal year 2008 the average 
IHS budget increase was less than 2.5 percent. A growing population and 
medical inflation eroded the purchasing power of Indian health 
programs. There is no denying that budget shortfalls resulted in 
greater healthcare disparities between Indian people and the general 
population over the past 15 years. This gap was addressed in the budget 
increases of this administration, however, additional funding is needed 
to improve the health status of AI/AN.
                                overall
    While the President's budget provides a $377 million increase, a 
7.9 percent increase above fiscal year 2016 enacted budget, it is not 
adequate to cover inflation and population growth. In addition, the 
distribution of the increase within the IHS accounts will not maintain 
current services as presented. Purchased and Referred Care (PRC), in 
particular, has lost purchasing power over the last 2 years and this 
year's funding increase following flat funding in 2016 is inadequate 
despite the reasonable overall increase in the 2017 budget request.
    The NPAIHB requests $482.7 million or a 10 percent increase over 
the fiscal year 2016 enacted budget. NPAIHB estimates it will take a 
$296.7 million increase in the fiscal year 2017 budget to fund pay 
increases, inflation, and population growth in order to maintain 
current services. In addition, the fiscal year 2016 increase to PRC of 
$46 million that was eliminated in the enacted budget needs to be 
restored. Finally, the NPAIHB recommends an additional $140 million in 
program increases to the PRC Catastrophic Health Emergency Fund (CHEF) 
($30 million), dental health ($20 million), mental health ($15 
million), alcohol and substance abuse ($20 million), sanitation 
facilities construction ($10 million), maintenance and improvement ($10 
million), small ambulatory facilities ($25 million) and urban Indian 
health programs ($10 million).
    The NPAIHB also makes a plea to fully exempt the IHS budget from 
sequestrations. Because of the Federal trust responsibility and the 
chronic and severe underfunding of the Indian health systems, along 
with the significant health disparities of Indian people, the Congress 
and administration must exempt the IHS appropriation from discretionary 
funding budget reductions, and; enact an amendment to the Budget 
Control Act of 2011 to fully exempt the IHS budget from future 
sequestrations.
                        health services account
    Hospitals & Health Clinics: The Hospitals and Clinics (H&C) item 
would receive $1.98 billion under the administration's request, a 
proposed increase of $122.7 million or 6.6 percent over the enacted 
fiscal year 2017 budget. Staffing costs and program increases will 
reduce the increase to $63.6 million for current services, $95.8 
million is needed, and the President's request will fall short by over 
$32.1 million. NPAIHB agrees with the $20 million for health 
information technology (HIT) associated with electronic health records 
(EHR) and in order to meet Stage 3 meaningful use. The NPAIHB also 
recommends permanent funding for Tribal Epidemiology Centers at a level 
that will enable them to be fully functional epidemiological and 
surveillance centers. The $4.9 million request, a $194,000 increase, 
for Tribal Epicenters in fiscal year 2017 ignores the fact that funding 
over the last 10 years has remained flat.
    Dental Services: The President's increase for Dental Health 
services is $8.5 million, a 4.8 percent increase over last year's 
level. Staffing costs of $2.6 million for new facilities will reduce 
the overall increase down to $5.9 million. NPAIHB estimates it will 
take at least $9.2 million to maintain current services. The 
President's request is $3.3 million less than needed to fund a 
maintenance budget. Northwest Tribes further recommend an additional 
$20 million to address the significant oral health disparities in 
tribal communities.
    Mental Health: The President requests $111 million, an increase of 
$29 million (35.4 percent) over last year's budget, to cover the mental 
health needs of IHS and tribal health programs. The President's request 
is close to maintaining current services. The budget leaves only $2.8 
million to maintain current services when the $1.2 million required to 
staff new facilities and $25 million for program increases are 
considered. NPAIHB estimates that it will take $4.2 million to fund 
mandatory cost increases for inflation and population growth. Program 
increases proposed by the President means the request is adequate to 
meet current service needs and to address some unmet need and is 
supported by the NPAIHB. The Northwest Tribes further recommend an 
additional $15 million to address the significant mental health issues 
in tribal communities.
    Alcohol & Substance Abuse: The President's budget requests an 
increase of 13.6 percent for Alcohol and Substance abuse programs. This 
is one of the larger increases in the history of the alcohol and 
substance abuse program. It includes $16.8 million for program 
increases to fund significant new initiatives, including the General 
Indigenous Initiative ($15 million) and Pilot Project for Youth ($1.8 
million). In fiscal year 2017, NPAIHB estimates that it will take $10.6 
million to fund current services. The President proposed increase of 
$28 million is $3 million less than needed to fund current services 
since, in addition to new initiatives, $3.6 million is needed to fund 
staffing at new facilities. The Northwest Tribes further recommends an 
additional $20 million to address alcohol and substance abuse issues in 
tribal communities.
    Purchased and Referred Care: PRC is the most important budget line 
item for Northwest Tribes. The President's requested 2017 increase of 
$48 million is not sufficient to address inflation and population 
growth of $62.3 so the President's budget falls short by $60. $60 
million in additional funding is needed to maintain the purchasing 
power of the PRC budget and to restore 2016 current services and 
maintain that level in fiscal year 2017.
    The PRC budget includes a Catastrophic Health Emergency Fund (CHEF) 
that funds catastrophic healthcare cases with large expenses. Northwest 
Tribes have always urged the Congress to consider fully funding CHEF 
since these cases are all well-documented and critical to the financial 
stability of the small programs that exist in the Portland Area and 
many other IHS Areas. In fiscal year 2012, the CHEF was increased to 
$51 million. Following the administration budget sequester it fell to 
$48.9 million. This year's President's request for CHEF is $53 million, 
a $1.5 million increase over fiscal year 2016. The NPAIHB supports this 
proposed increase and requests an additional increase of $30 million to 
ensure CHEF funding remains available.
    Public Health Nursing: The President's request for Public Health 
Nurses (PHNs) is $82 million, an increase of 7.1 percent over last 
year's amount. With $1.7 million for staffing new facilities, the 
balance is not sufficient to fund current services and falls short by 
$226k.
    Health Education: The President's request of $19.5 for fiscal year 
2017 is adequate to fund inflation and population growth and is 
supported by the Northwest Tribes.
    Community Health Representatives: The President's request for $62.4 
million for fiscal year 2017 is adequate to maintain the current levels 
of care provided by CHRs and is supported by the Northwest Tribes.
    Urban Indian Health Program: The President proposes $48.1 million 
for the Urban Indian Health Program (UIHP). NPAIHB estimates that it 
will take $3 million to maintain current services in the UIHP; thus, 
for this year alone, funding is adequate to maintain the current 
program, unfortunately more is needed to amend for past years of 
neglect. The UIHPs provide over 1 million health services to an 
eligible population of over 650,000 urban Indian people living in 34 
locations across the United States. In addition, the NPAIHB recommends 
additional funding of $10 million for UIHPs.
    Indian Health Professions: The President's fiscal year 2017 budget 
requests an increase that is $351,000 less than needed to maintain the 
current level of funding for the health professions program. The Indian 
health system has high vacancies in many of its health professions and 
will need to begin to grow and train its work force to keep pace with 
the rest of the Nation. Otherwise, vacancy rates will become even 
higher.
    Tribal Management: The President requests $2.5 million for Tribal 
Management, which is nearly the same amount that was funded last year. 
It is less than is needed by $22,000 to maintain current service 
funding. NPAIHB believes the funding for this program could easily be 
doubled and the scope of its funded activities expanded.
    Direct Operation: The Direct Operations line item funds the cost of 
management at IHS headquarters and the 12 Area Offices. This year the 
President's request proposes a decrease in Direct Operations funding by 
$2.7 million. NPAIHB estimates that $2 million will be needed to 
maintain current services. Thus, the President's request falls short by 
$4.7 million.
    Self-Governance: The President's request for the Self-Governance 
item is $5.8 million, a 1.8 percent increase. NPAIHB estimates that it 
will take at least an additional $243,000 to maintain current services 
in fiscal year 2017. This will result in a shortfall in unfunded 
mandatory costs of $141,000. While this may not seem like much, 7 years 
ago, Congress reduced the Self Governance line item by $4.7 million, a 
loss of over 43 percent from the previous year.
                         contract support costs
    NPAIHB supports the President's request in fiscal year 2017 is $800 
million, an increase of $82 million above fiscal year 2016 enacted 
level. This is an estimate of additional funds needed to ensure the 
full CSC need is funded for each tribe. The estimate will be adjusted 
to reflect the amount necessary to fund the full CSC need when updated 
information is available. NPAIHB supports the President's request that 
Congress establish a mandatory appropriation for CSC in fiscal year 
2018 with sufficient increases year over year to fully fund the 
estimated need of the program.
                           health facilities
    Maintenance and Improvement: The President's request for M&I is $77 
million, an increase of $3.3 million over last year's enacted budget. 
Recognizing the serious need for M&I funds in Indian Country, NPAIHB 
supports the President's request. The Northwest Tribes also request an 
additional $10 million for M&I.
    Sanitation Facilities Construction: The fiscal year 2017 budget 
requests $103 million for the Sanitation facilities program. The 
increase, following last year's $20 million increase, falls short of 
maintaining the purchasing power of the program by $593,000. 
Approximately 7.5 percent of all AI/AN homes lack safe water in the 
home compared to less than 1 percent average nationally. Sanitation is 
an integral component of disease management.
    Health Care Facilities Construction: Northwest Tribes continue to 
support a moratorium on facilities construction until an equitable 
funding methodology can be implemented by the IHS. This position has 
been recommended for the past 8 years so that savings from facilities 
construction can be redirected to the health services accounts. In 
addition, Northwest Tribes recommend that the IHS and Congress include 
appropriation language in the fiscal year 2017 appropriation bill to 
allow staffing and equipment funding for the small ambulatory 
construction authorities (Public Law 102-573). In addition, $25 million 
is requested by the Northwest Tribes for small ambulatory facilities 
grants.
    Facilities & Environmental Support: The President's request of 
$233.9 million provides a $11 million increase over the fiscal year 
2017 level that is adequate to maintain current services and is 
supported by the NPAIHB.
    Equipment: The President's request of $23.6 million is adequate to 
maintain current services in fiscal year 2017 after last year's $20 
million increase and is supported by the NPAIHB.
                          mandatory proposals
    NPAIHB requests an increase in fiscal year 2017 of $50 million for 
the Special Diabetes Program for Indians and supports funding for the 
proposed behavioral health initiatives--Tribal Crisis Response Fund at 
$15 million and Behavioral Health Professions Expansion Fund at $10 
million.
                               conclusion
    The NPAIHB requests a 10 percent increase over the fiscal year 2016 
enacted level, or $482.7 million, to maintain current services, and 
funding of mandatory proposals for diabetes and behavioral health. 
Thank you for the opportunity to provide testimony.
                                 ______
                                 
       Prepared Statement of the Norton Sound Health Corporation
    The requests of the Norton Sound Health Corporation (NSHC) for the 
fiscal year 2017 Indian Health Service (IHS) budget are as follows:

  --Direct the IHS to fully fund the Village Built Clinic (VBC) leases 
        and allocate an additional $12.5 million to VBC leases, for a 
        total of $17 million.
  --Place contract support costs on a permanent indefinite funding 
        basis and eliminate any provisos on the funding that conflicts 
        with the carryover funding authority in the Indian Self-
        Determination and Education Assistance Act (ISDEAA).
  --Remove restrictions on the Joint Venture Program to allow staffing 
        packages for clinics that are in the process of construction 
        and also to allow behavioral health service agencies to be 
        eligible for the Program.
  --Support at a minimum the administration's request of $10 million 
        for the small ambulatory clinics program.
  --Provide the requested $25 million increase for behavioral health.
  --Shield the IHS from sequestration and provide advance 
        appropriations.

    NSHC is the only regional health system serving northwestern 
Alaska. It is on the edge of the Bering Sea, just miles from the 
Russian border. We are not connected by road with any part of the State 
and are 500 air miles from Anchorage--about the distance from 
Washington, DC to Portland, Maine. Our service area encompasses 44,000 
square miles, approximately the size of Indiana. We are proud that our 
system includes a tribally owned regional hospital which is operated 
pursuant to an ISDEAA agreement, and 15 Village Built Clinics 
(VBCs).\1\
---------------------------------------------------------------------------
    \1\ We serve the communities of: Brevig Mission, Council, Diomede, 
Elim, Gambell, Golovin, King Island, Koyuk, Mary's Igloo, Nome, St. 
Michael, Savoonga, Shaktoolik, Shishmaref, Solomon, Stebbins, Teller, 
Unalakleet, Wales, and White Mountain.
---------------------------------------------------------------------------
    End Chronic Underfunding of Village Built Clinics. The NSHC has 
testified in prior years about the chronic underfunding of our VBCs. We 
thank Congress for providing in fiscal year 2016 $2 million in 
supplemental funding (supplemental to the $4.5 million already being 
provided) for these clinic leases and for the Administration's request 
of $11 million in supplemental funds for tribal clinic leases in fiscal 
year 2017. The bill language provides that these are supplemental 
funds, while the explanatory language lists the bill funding as a total 
amount.
    The NSHC healthcare system includes 15 VBCs that are essential for 
us to maintain the Community Health Aide Program (CHAP) in Alaska. As 
you know, CHAP is mandated by Congress as the instrument for providing 
basic health services in remote Alaska Native villages and often 
provides the only local source of healthcare for Alaska Native people 
in rural areas. We cannot overstate the importance of village built 
clinics in Alaska. Lease rental amounts for the VBCs have failed to 
keep pace with costs--the majority of the leases for VBCs have not 
increased since 1989 and the IHS until this year resisted proposals to 
increase their funding. As a result, many of the VBCs are unsafe or 
have had to be closed, leaving some villages in Alaska without a local 
healthcare facility.
    In addition, the President's proposed fiscal year 2017 clinic lease 
bill language may need some clarification, depending on IHS's 
interpretation, concerning the references that healthcare be delivered 
in a space acquired through a ``full service lease''. In some cases 
tribes receive VBC funding as part of their recurring base, and so the 
IHS no longer has ``full service leases'' in place for those clinics. 
We know that the appropriations committees do not intend to limit VBC 
eligibility based on unclear terminology.
    In sum, these amounts are a step in the right direction but the 
2015 ANHB study that analyzed the funding deficiency statewide for 
these facilities identified an increased need of $12.5 million. We urge 
that the full amount needed be appropriated. We also support 
maintaining this funding as a line item in the bill.
    Remove Restrictions on the Joint Venture Construction Program 
(JVCP) to Support Projects Already in Progress. NSHC has completed the 
final designs to replace the Village Built Clinics in Gambell and 
Savoonga on St. Lawrence Island. The total project cost is $12.5 
million and NSHC has raised 50 percent of the necessary funds to date. 
A Notice to Proceed was issued in January 2016 to start construction 
this summer. Both clinics will be 5200 square feet, doubling the size 
of the existing clinics. Both sites are shovel-ready. NSHC already 
contributed $1,900,000 to complete the foundation and $279,521 to 
complete the final design. The Denali Commission contributed $120,479 
toward the final design. NSHC has $600,000 in hand from grant awards 
secured as of January 4, 2016, and another $3,350,000 in hand as 
approved by the Board of Directors during 2015 for a total amount of 
$6,250,000 secured.
    NSHC is still fundraising for the other half of the project. Under 
JVCP regulations, we are not eligible to apply for the next round of 
JVCP funding for staffing because a Notice to Proceed has been issued. 
We had no choice but to move the clinic construction forward and could 
not wait for the next round of JCVP applications to be released. In the 
Bering Strait Region of Alaska, construction projects must be planned 
in advance to meet the seasonally limited construction window.
    NSHC Request: Allow Tribal Health Organizations to apply for JVCP 
funding even though a Notice to Proceed has been issued.
    Fund the Small Ambulatory Clinic Program to Help with Construction 
of Replacement Clinic. The Small Ambulatory Clinic Fund has not been 
funded in years and we appreciate the administration's request of $10 
million for this purpose. It would give tribes an option to 
competitively compete for construction funds. As noted above NSHC has 
two shovel-ready projects on St. Lawrence Island, with site work and 
piling installation completed. NSHC has raised 50 percent of the 
necessary funds to date, with another $6,250,000 needed to finish 
construction.
    NSHC Wellness and Training Center: Remove the Restriction on 
Behavioral Health Service Agencies' JVCP Eligibility. The cost of 
substance abuse remains exorbitant in all aspects of service in the 
Norton Sound region. The region's law enforcement, correctional centers 
(prison and a halfway house), women's shelter, and protective services 
all report 95-100 percent of its cases involve substance abuse. 
Healthcare costs related to substance abuse and substance-related 
diagnoses, school and vocational drop-outs, loss of productivity, and 
loss of life continue to skyrocket as addiction numbers rise.
    From 2006 through 2014, 5,008 people presented at the Norton Sound 
Regional Hospital emergency room for alcohol-related encounters. Of 
those people, 169 of them returned anywhere for 6-65 visits. Of those 
169, more than 55 percent of them also presented as suicidal. Suicides 
in the region are approximately six times higher than the national 
average per 100,000 people (74.5 vs. 12.6, respectively) and almost 
four times higher than the State average (74.5 vs. 19.6, respectively). 
Unfortunately, the Norton Sound Region also has the highest suicide 
completion rate in the State. Between 2005 and July 2015, the Norton 
Sound region (9,400 people (2010 Census) had 76 suicide completions, an 
average of almost 7 per year. Of those, 67 were male and 9 were female; 
and 74 of the 76 were Alaska Natives. In all but three cases, substance 
abuse was a factor.
    Treatment services require people within the region to leave their 
homes and families, and often their treatment is delayed while a bed is 
secured. The waiting list for treatment averages 6 to 9 months and 
there is often no other place to refer people. Residents of the Norton 
Sound Region are often referred to treatment facilities in the lower 
48. These facilities are not culturally relevant and the distance is 
counter-productive to the healing process given the absence of familial 
and environmental supports. To best support the treatment needs of the 
people of the region, NSHC has developed a Wellness and Training Center 
to be located across from the Norton Sound Regional Hospital. This 
Center has been designed by a local cultural committee and uses an 
intensive behavioral health outpatient model with a full continuum of 
care including a sober housing component. It provides for social detox, 
long-term rehabilitation, and vocational rehabilitation.
    NSHC has committed over $600,000 towards planning and designing of 
the Wellness and Training Center and is committed to seeing this 
through. Additionally, the Alaska Mental Health Trust Authority has 
awarded NSHC $400,000 over the last 4 years for a Wellness and Training 
Center planner to facilitate the facility's programmatic development. 
Current concept and architectural plans estimate the final cost for the 
facility at $18,000,000.
    In addition to requesting capital funding to complete construction 
of the Center, NSHC submitted a Joint Venture Construction Program pre-
application last year to support the staffing component for Center 
operations. Unfortunately, the current IHS appropriation for this 
program does not allow for Behavioral Health Services agencies to apply 
for the funding.
    NSHC would like to see IHS support the full spectrum of Behavioral 
and Mental Health Program needs. The Joint Venture Construction Program 
would help us fund the additional 10 personnel essential to making the 
Wellness and Training Center a reality in our region, which will keep 
people near their home, offer culturally relevant services, and, 
ultimately, save lives.
    NSHC Request: For fiscal year 2017, we ask for advocacy to change 
regulations for the Joint Venture Construction Program so Behavioral 
Health Service Projects administered by Tribal Health Organizations can 
apply.
    Contract Support Costs Mandatory Funding. We wish to thank Congress 
for fully funding Contract Support Costs (CSC) in fiscal year 2016. For 
fiscal year 2017, we support the President's request for an 
appropriation of ``such sums as may be necessary,'' with an estimated 
$800 million for CSC for the IHS in a separate account in the IHS's 
discretionary budget. However, we disagree with the proviso that was 
included in the fiscal year 2016 appropriations language and which is 
also included in the administration's proposed fiscal year 2017 budget, 
which states: ``amounts obligated but not expended by a tribe or tribal 
organization for contract support costs for such agreements for the 
current fiscal year shall be applied to contract support costs 
otherwise due for such agreements for subsequent fiscal years.'' This 
proviso is concerning to us because it could be misread to effectively 
deny the carryover authority granted by the Indian Self-Determination 
and Education Assistance Act. We thus ask that the proviso be removed 
for fiscal year 2017 and not included in future appropriations for CSC. 
We also support the administration's proposal to fully fund CSC on a 
mandatory basis in fiscal years 2018-2020, though we would prefer that 
it begin in fiscal year 2017 and, of course, that it be a permanent, 
indefinite appropriation. We ask for your active help in working with 
the Budget Committee and any others on this proposal for mandatory CSC 
funding.
    Funding for Behavioral Health. We appreciate and support the 
administration's much-needed request of a $25 million increase for a 
Behavioral Health Integration Initiative. The goal is to integrate 
behavioral health services into the primary health systems and also to 
collaborate with services that may be provided outside the primary 
healthcare delivery system such as substance abuse and mental health 
services. A portion of the funds ($3.6 million) are to be used for 
tribes and tribal organizations to establish Zero Suicide programs 
focusing on the role of medical and behavioral health systems in the 
prevention of suicide. We know all too well of the high rate of 
suicides among Native people in Alaska, and young Native people in 
particular.
    Conclusion. Due to page limit constraints we will not repeat our 
testimony from the last few years in support of protecting the IHS 
budget from sequestration and also placing the IHS budget on an advance 
appropriations basis. We hope, however, that these two issues will be 
addressed in this Congress. Thank you for your consideration of the 
concerns and requests of the Norton Sound Health Corporation.
                                 ______
                                 
  Prepared Statement of the Oregon Coalition Supporting USGS National 
                           Streamgage Network
     u.s. geological survey national streamflow information program
    As a collection of water stakeholders in Oregon we are concerned 
about ongoing lack of available data on water in our State and we urge 
your support of the U.S. Geological Survey's (USGS) National Streamflow 
Network (formerly known as the National Streamflow Information Program 
(NSIP) and Cooperative Water Program). We are a diverse group of water 
stakeholders with a common goal: to advocate for common sense water 
policies that move Oregon's economy, communities, and environment 
toward a secure water future. In order to achieve our goal, the members 
we represent need consistent, accurate and real time data on streams in 
our State. While we are encouraged by the $150 million increase in the 
President's request over 2015 enacted levels, and specifically the $1.3 
million increase for stream flow information, it is not enough of an 
increase to fully fund, even with cost-share partners, this immensely 
important program.
                    fiscal year 2017 appropriations
    We recognize that our country continues to face difficult economic 
times and that we must make strategic investments with scarce 
resources. However, that statement rings true not just in regards to 
funding, but also our natural resources and more precisely, water. In 
2015 the American west suffered from a severe drought and like many 
other Western States, the conditions in 2015 have deeply impacted 
Oregon communities, (25 of 36 counties had formal drought 
declarations). For Oregon, the drought stems from a lack of snowpack 
that serves as the natural water storage throughout the year for many 
farms, communities, and fish and wildlife.
    The impacts may take longer to show, but drought can be as 
devastating as earthquakes, hurricanes, and other natural disasters. 
And like other natural disasters, the best way to survive and help 
communities recover is through coordinated planning and developing 
diverse tools to use when these crises occur. However, our communities 
cannot adequately plan for any water year without accurate streamflow 
data. While we all have different ideas about the best paths forward, 
we agree on one thing: the need for increased accurate streamflow data.
    The funding for the National Streamflow Network could be leveraged 
with the current proposal from the Oregon Water Resources Department 
(OWRD) to reestablish OWRD's engagement in the Cooperative Water 
Program with USGS. Within the water advocate community in Oregon the 
need for additional gauges and more readily available data is an issue 
that is on the forefront of discussions regarding how to best manage 
our waterways. The funding dollars spent on the National Streamflow 
Network are dollars that will work toward better data and provide 
valuable information needed as we work toward a secure water future for 
Oregon and the Nation.
                               conclusion
    In conclusion, we applaud the administration on their willingness 
to increase funding for the USGS National Streamflow Network and we 
would like to see even more funding allocated to this important 
program. As we continue to navigate in an uncertain climate, we need 
the valuable streamflow data this program provides to aid in all our 
work in developing water management solutions. We respectfully request 
adequate funding to fully implement the USGS National Streamflow 
Network for fiscal year 2017.

            Sincerely,

 
 
 
Michael Freese                        Rob Kirschner
Associated Oregon Industries          The Freshwater Trust
 
Tracy Rutten                          Jeff Stone
League of Oregon Cities               Oregon Association of Nurseries
 
JR Cook                               Mark Landauer
Northeast Oregon Water Association    Special Districts Association of
                                       Oregon
 
April Snell
Oregon Water Resources Congress
 

                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
u.s. environmental protection agency's clean water state revolving fund 
                              loan program
    The Oregon Water Resources Congress (OWRC) is concerned about 
continued reductions to the U.S. Environmental Protection Agency's 
(EPA) Clean Water State Revolving Fund Loan Program (CWSRF) and is 
requesting that appropriations for this program be increased to at 
least $2 billion in fiscal year 2017. The CWSRF is an effective loan 
program that addresses critical water infrastructure needs while 
benefitting the environment, local communities, and the economy. 
However, OWRC is concerned by the recent exclusion of irrigation 
districts from receiving principal forgiveness under the CWSRF and we 
urge the subcommittee to address this terminology issue and allow 
irrigation districts to utilize this valuable tool under the program so 
that they are able to execute projects that are beneficial to both the 
environment and the local economy.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly 1/3 of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    fiscal year 2017 appropriations
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. The 
CWSRF is a perfect example of the type of program that should have 
funding increased because it creates jobs while benefitting the 
environment, and is an efficient return on taxpayer investment. Oregon 
is facing record levels of unemployment and the CWSRF funded projects 
provide much needed construction and professional services jobs. 
Moreover, as a loan program, it is a wise investment that allows local 
communities to leverage their limited resources and address critical 
infrastructure needs that would otherwise be unmet.
    Nationally, there are large and growing critical water 
infrastructure needs. In EPA's most recent needs surveys, The Clean 
Watersheds Needs Survey 2008: Report to Congress and Drinking Water 
Infrastructure Needs Survey and Assessment: Fourth Report to Congress, 
the estimated funding need for drinking water infrastructure totaled 
$335 billion (in 2007 dollars) and wastewater infrastructure needs 
totaled $298 billion (in 2008 dollars). Appropriations for water 
infrastructure, specifically CWSRF, should not be declining but 
remaining strong in order to meet these critical needs. In 2015 
appropriations for the CWSRF program was approximately $1.448 billion 
and declined to $1.394 billion in fiscal year 2016. The President's 
fiscal year 2017 budget proposes only $979.5 million for the CWRSF 
program; a $414.5 million reduction from fiscal year 2016 levels. We 
are concerned as we see this negative downward trend continuing while 
the infrastructure needs only become more critical.
    OWRC is supportive of the President's Climate Action Plan and 
related efforts to support actions that help address, mitigate, and 
adapt to severe weather events, like drought, that are related to 
climate change. It is important that climate issues are addressed 
through programs like the CWSRF, and to date, despite a direct 
connection to water infrastructure the CWSRF funding continues to 
diminish. In fact, there has not been an increase in funding for CWSRF 
since 2009; meanwhile, both infrastructure needs and the costs to 
address those needs continue to grow each year. Continued funding 
reductions has led to delaying repairs or upgrades which in turn 
increase the potential for catastrophic failure and is 
counterproductive to the administration's desire to encourage asset 
management and sustainable water infrastructure. To the extent 
practicable, funding for climate change should be incorporated into 
existing programs with proven successes like the CWSRF.
    We also continue to be highly supportive of the administration's 
desire to expand ``green infrastructure,'' in fact, irrigation 
districts and other water suppliers in Oregon are on the forefront of 
``green infrastructure'' through innovative piping projects that 
provide multiple environmental benefits, which is discussed in greater 
detail below. However, continually reducing the amount of funds 
available for these types of worthwhile projects is counterproductive 
to the administration's desire and has created increased uncertainty 
for potential borrowers about whether adequate funding will be 
available in future years. CWSRF is often an integral part of an 
overall package of State, Federal and local funding that necessitates a 
stronger level of assurance that loan funds will be available for 
planned water infrastructure projects. Reductions in the CWSRF could 
lead to loss of grant funding and delay or derail beneficial projects 
that irrigation districts have been developing for years.
    Additionally, OWRC is pleased to see that EPA will continue 
``strategic partnerships'' with the USDA's Natural Resources 
Conservation Services (NRCS) and other Federal agencies to improve 
water quality and address nonpoint source pollution. Oregon had two 
priority watersheds eligible for funding through the National Water 
Quality Initiative in 2014 and anticipates that additional watersheds 
will be included in the future. As Oregon is a delegated State, OWRC 
also feels strongly that the Oregon Department of Environmental Quality 
(DEQ) is best situated to develop and implement activities to improve 
these and other impaired waterways in the State. DEQ and its 
administration of the CWSRF has been an extremely valuable tool in 
Oregon for improving water quality and efficiently addressing 
infrastructure challenges that are otherwise cost-prohibitive.
                              cwsrf needs
    What is being proposed for fiscal year 2017 is far short of what is 
needed to address critical water infrastructure needs in Oregon and 
across the Nation. This will lead to fewer water infrastructure 
projects, and therefore a reduction in improvements to water quality. 
DEQ's most recent ``Proposed Intended Use Plan Update #1--State Fiscal 
Year 2016,'' lists 22 projects in need of a total of $182,066,339 in 
Oregon alone. The Federal capitalization grant funding awarded fiscal 
year 2015 will total $15,758,000, which is wholly inadequate to address 
and complete these much needed projects.
    Unfortunately, due to recent cutbacks and lack of availability of 
funds, only one water improvement district submitted an application for 
funding in 2016, Rock Creek District Improvement Company. Rock Creek 
requested $270,786 for the design and construction of HDPE piping along 
1.76 miles of main canal, and qualifies for water efficiency green 
project reserve funding. OWRC is hopeful that with an increase in money 
available, more districts will apply for funding to complete projects 
that will not only benefit the environment and the patrons served by 
the water delivery system, but also benefit the economy.
   cwsrf exclusion of irrigation districts from principal forgiveness
    OWRC and our members are highly supportive of the CWSRF, including 
promoting the program to our members and annually submitting Federal 
appropriations testimony to support increased funding for the CWSRF. We 
are supportive because it is important funding tool that irrigation 
districts and other water suppliers are using for innovative piping 
projects that provide multiple environmental benefits. However, the 
CWSRF is often an integral part of an overall package of State, Federal 
and local funding that necessitates a stronger level of assurance that 
loan funds will be available for planned water infrastructure projects. 
Irrigation districts are often located in rural communities and have a 
small number of farmers with limited capacity to take on loan debt. 
Even a small reduction in the principal repayment obligations can make 
the difference in whether or not a district can move forward with a 
project. Reductions in eligibility for principal forgiveness in the 
CWSRF could lead to loss of grant funding and delay or derail 
beneficial projects that irrigation districts have been developing for 
years.
    Six OWRC member districts have successfully received loans from the 
CWSRF over the last several years and many more will apply if eligible 
to receive some principal forgiveness. Numerous irrigation districts 
and other water suppliers need to pipe currently open canals, which 
reduces sediment and water temperature and provides other water quality 
improvements as well as increasing water availability for fish and 
irrigators by reducing water loss from the delivery system. In 2009, 
four irrigation districts received over $11 million funding in Oregon 
from the American Recovery and Reinvestment Act (ARRA) through the 
CWSRF for projects which created valuable jobs while improving water 
quality. These four projects were essential to DEQ not only meeting but 
exceeding the minimum requirement that 20 percent of the total ARRA 
funding for the CWSRF be used for ``green'' projects. Without the 
irrigation district projects, it is likely that Oregon's CWSRF would 
not have qualified for ARRA funding.
    By excluding irrigation districts from principal forgiveness under 
the CWSRF, the loan funds become another expensive piece to the funding 
puzzle and will simply cost too much for districts to take on. If DEQ 
eliminates the ability of irrigation districts to fund water quality 
improvement projects, our State will fall short of what is needed to 
address critical water infrastructure needs in Oregon and across the 
Nation. It will lead to fewer innovative water infrastructure projects, 
and therefore a reduction in improvements to water quality. OWRC is 
hopeful that this terminology issue can be resolved at the Federal 
level, and allow irrigation districts to apply for funding with 
principal forgiveness to complete projects that will not only benefit 
the environment and the patrons served by the water delivery system, 
but also benefit the economy.
         the importance and success of local watershed planning
    Oregon's success in watershed planning illustrates that planning 
efforts work best when diverse interests develop and implement plans at 
the local watershed level with support from State government. Oregon 
has recently revised their CWSRF rules; thus making conservation easier 
and its benefits to be better achieved in the State. As the national 
model for watershed planning, Oregon does not need a new Federal agency 
or executive branch office to oversee conservation and restoration 
efforts. Planning activities are conducted through local watershed 
councils, volunteer-driven organizations that work with local, State 
and Federal agencies, economic and environmental interests, 
agricultural, industrial and municipal water users, local landowners, 
tribes, and other members of the community. There are over 60 
individual watershed councils in Oregon that are already deeply engaged 
in watershed planning and restoration activities. Watershed planning in 
Oregon formally began in 1995 with the development of the Oregon Plan 
for Salmon Recovery and Watershed Enhancement, a statewide strategy 
developed in response to the Federal listing of several fish species. 
This strategy led to the creation of the Oregon Watershed Enhancement 
Board (OWEB), a State agency and policy oversight board that funds and 
promotes voluntary and collaborative efforts that ``help create and 
maintain healthy watersheds and natural habitats that support thriving 
communities and strong economies'' in 1999.
                               conclusion
    In conclusion, we applaud the CWSRF program for allowing Oregon's 
DEQ to make targeted loans that address Clean Water Act issues and 
improve water quality but also help incentivize innovative water 
management solutions that benefit local communities, agricultural 
economies, and the environment. This voluntary approach creates and 
promotes cooperation and collaborative solutions to complex water 
resources challenges. Conversely, exclusion of irrigation districts 
from principal forgiveness under the CWSRF program has a very negative 
effect on jobs and local economies. We respectfully request the 
appropriation of at least $2 billion for the U.S. Environmental 
Protection Agency's Clean Water State Revolving Loan Fund for fiscal 
year 2017.
                                 ______
                                 
          Prepared Statement of the Outdoors Alliance for Kids
    Chairmen Murkowski and Calvert, Ranking Members Udall and McCollum, 
and Members of the Interior Appropriations Subcommittee:

    We, the undersigned members of the Outdoors Alliance for Kids 
(OAK), thank you for your past support of programs to connect children 
and youth with the outdoors, and we urge you to sustain funding for 
fiscal year 2017 programs at the U.S. Department of the Interior, 
Environmental Protection Agency, and U.S. Forest Service that increase 
engagement in the outdoors. We also urge you to maintain sufficient 
funding for agencies to adequately manage our public lands and waters.
    OAK is a national strategic partnership of businesses and 
organizations representing more than 30 million individuals from 
diverse sectors of the economy with the common interest in expanding 
the number and quality of opportunities for children, youth, and 
families to connect with the outdoors. OAK supports public policies and 
investments that expand outdoor and environmental education 
opportunities, promote community health and wellness, and engage more 
youth in environmental stewardship.
    We understand that we are in difficult fiscal times, but balancing 
the budget at the expense of programs and initiatives that ensure 
children and youth have opportunities to learn, get physically active, 
and increase their volunteerism in the outdoors will be a detriment to 
our Nation. Environmental education provides critical tools for a 21st 
century workforce by giving students the skills to understand complex 
environmental systems and issues, and prepares students to compete 
globally and address environmental challenges and opportunities that 
impact our economy, health, and national security. Community health and 
wellness investments are critical for the local economy, as well. The 
prevention of chronic diseases can save lives, as well as promote the 
physical and mental well-being of all Americans.
    Environmental stewardship programs provide young people with 
opportunities to spend more time outdoors while obtaining job skills at 
a time when youth unemployment rates are skyrocketing. In addition to 
contributing to our Nation's robust outdoor recreation economy, youth 
national service and work programs help address the backlog of 
maintenance needs piling up on our public lands, address record youth 
unemployment, and prepare a diverse group of youth to be the next 
generation of natural resource stewards.
    These areas are vital to the success of the United States in the 
global economy, and to our ability to create a 21st century workforce 
that is healthy, skilled, and prepared to be the next generation of 
leaders. The outdoor industry alone provides 6.1 million jobs and $646 
billion in direct consumer spending each year. Outdoor recreation, as 
enjoyed in national, State, and local parks and public lands, provides 
millions of America's children, youth, and families an opportunity to 
hike, bike, swim, paddle or simply connect with nature. The outdoor 
recreation economy generates $39.9 billion in Federal revenue and 
another $39.7 billion in State and local revenue annually.
    OAK supports funding and initiatives to increase outdoor and 
environmental education, promote community health and wellness, and 
provide young people with jobs, training, and service and volunteer 
opportunities that connect them to the outdoors and recreation. We urge 
the subcommittee to restore funding to allow land management agencies 
to adequately manage our public lands and waters and to provide robust 
funding for the following programs that get youth outdoors:
    Department of the Interior: OAK supports the Department of the 
Interior's goal of building the next generation of conservation and 
community leaders by supporting efforts to get young people to play, 
learn, serve, and work outdoors. By September 30, 2017, the Department 
of the Interior hopes to get millions of kids outside engaged in 
environmental education and to have provided 100,000 work and training 
opportunities for young adults. To this end, we urge you to support the 
administration's budget requests of $102.5 million for youth programs 
across the Department of the Interior, a $37.7 million increase from 
the fiscal year 2016 enacted level. This includes:

  --$38,200,000 for the National Park Service
  --$26,300,000 for the U.S. Geological Survey
  --$19,000,000 for the Fish and Wildlife Service
  --$13,500,000 for the Bureau of Indian Affairs
  --$1,000,000 for the Bureau of Land Management
  --$3,500,000 for the Bureau of Reclamation
  --$1,000,000 for the Office of Surface Mining Reclamation and 
        Enforcement

    Of the $38.2 million for NPS, $20 million is included for the Every 
Kid in a Park initiative. The funding would support transportation to 
bring more than one million students from Title I schools in urban 
areas to nearby national parks, and support park level youth engagement 
coordinators that would ensure park units have programming tailored for 
young people and their families, especially at high visitation and 
urban parks. OAK strongly supports this initiative, which will also 
provide every fourth grader in America and their families with free 
entrance to National Parks in the 2015-2016 school year. We urge you to 
support funding within the National Park Service for transportation 
grants and for dedicated youth coordinators to welcome fourth graders 
and their families to our National Parks and public lands.
    Another key component of the Department's youth efforts will be 
partnering with Service & Conservation Corps (Corps) and other youth 
organizations through the 21st Century Conservation Service Corps 
(21CSC) initiative. The opportunities provided by 21CSC allow youth and 
veterans to become stewards of America's great outdoors through 
conservation service, help them obtain important job skills and 
credentials at a time when youth unemployment is high and young people 
are missing out on critical job experiences, and improve public health 
by helping young people develop and maintain active lifestyles. We also 
urge you to sustain funding for the operational, management, and 
construction-related accounts of the National Park Service, Bureau of 
Land Management, Bureau of Reclamation, Bureau of Indian Affairs, Fish 
and Wildlife Service, and the U.S. Forest Service, all of which could 
fund cost-effective public-private partnerships with Corps.
    In addition, we urge support of the National Park Service 
Centennial Initiative, including $35 million requested for the 
Centennial Challenge, to support thousands of veterans, youth, and 
others to work to upgrade the park system for its 100th anniversary in 
2016. The Centennial Challenge is an economically wise program that 
leverages private dollars to match Federal funds, with at least one 
private dollar for each Federal dollar, to support projects to improve 
the visiting experience to our national parks. It is a proven effective 
program initially launched during the George W. Bush administration, 
when it leveraged nearly $50 million in donations after an initial 
Federal investment of $40 million. The $35 million requested for the 
Centennial Challenge will reinvest in that initiative, and will be 
instrumental in garnering partner support to prepare park sites across 
the country for the centennial and the second century of NPS.
    OAK also supports permanent reauthorization and full and dedicated 
funding of the Land and Water Conservation Fund. The Federal land 
acquisition program and the State and local assistance programs 
supported by LWCF over the years have created countless opportunities 
for youth and families to enjoy the outdoors, both in their communities 
and on Federal public lands. LWCF also supports the new Outdoor 
Recreation Legacy Partnership Program which will create new 
opportunities for outdoor play as well as development or enhancement of 
outdoor recreation partnerships in our larger urban communities.
    Environmental Protection Agency: OAK urges the subcommittee to fund 
the National Environmental Education Act (NEEA) programs at the 
Environmental Protection Agency at $11.1 million. This program 
implements highly successful, nationwide environmental education 
programs. These programs support life-long environmental education and 
stewardship through several highly-leveraged, but under-resourced 
programs, including the National Environmental Education Training 
Program to provide professional development for teachers, the National 
Environmental Education Foundation to leverage public/private 
partnerships, and an environmental education grant program to support 
local environmental education providers.
    OAK also supports the Urban Waters Federal Partnership, a 14 agency 
collaboration spearheaded by the Environmental Protection Agency, to 
restore and connect youth with their waterways in 19 pilot urban 
locations. While the EPA has not placed a line item in its budget for 
the UWFP, we commend the EPA for utilizing scarce resources to support 
this important effort to ensure children, youth and families in urban 
areas have close to home opportunities to experience nature.
    U.S. Forest Service: OAK supports the U.S. Forest Service efforts 
to engage youth with their natural surroundings, whether that be in 
urbanized or rural areas. The U.S. Forest Service's multiple 
conservation education initiatives and outreach activities are 
integrated throughout the agency. In addition to this outreach, it is 
also important that children have access to nature nearby. Therefore, 
OAK supports the following funding levels for two programs within the 
U.S. Forest Service that ensure children have access to nature:

  --$5,000,000 for the Community Forest and Open Space Program (CFP)
  --$31,300,000 for the Urban and Community Forestry Program (U&CF)

    CFP has made substantial progress in preserving forests by 
increasing opportunities for Americans to connect with forests in their 
own communities and fostering new public-private partnerships. CFP has 
supported 27 community forest projects in cities and towns across 15 
States and Territories. U&CF served more than 200 million people in 
over 7,700 communities across the United States through the development 
and maintenance of local urban forestry programs. Both of these 
programs ensure that children can experience forests and trees in their 
communities.
    OAK also supports other programs within the Forest Service that 
provide opportunities for youth to connect with nature. Conservation 
Education programs, Children's Grants programs including More Kids in 
the Woods and Children's Forests, and the USFS partnership with the 
21st Century Conservation Service Corps are all important programs that 
help the next generation connect with and build an appreciation for the 
outdoors.
    We thank you in advance for your support for these critical 
programs and look forward to working with you and your staff in the 
coming year.
    Thank you for your consideration of this request.

    This testimony is submitted on behalf of the following members of 
the Outdoors Alliance for Kids:

Alliance for Childhood
American Camp Association
American Forests
American Hiking Society
Appalachian Trail Conservancy
Children & Nature Network
Choose Outdoors
Conservation Legacy
Hipcamp
IslandWood
Kids4Trees
Latino Outdoors
Montana Conservation Corps
National Interscholastic Cycling Association
National Recreation and Park Association
National Wildlife Federation
NatureBridge
North American Association for Environmental Education
O'Neill Sea Odyssey
Outdoor Outreach
Outdoors Empowered Network
Public Lands Service Coalition
REI
Sierra Club
SOS Outreach
The Corps Network
The North Face
The Wilderness Society
The Woods Project
TYO: Transforming Youth Outdoors
Wilderness Inquiry
YMCA of the USA
      
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    Madame Chairwoman and members of the subcommittee:

    The Partnership for the National Trails System appreciates your 
support over the past 20 years, through operations funding and 
dedicated Challenge Cost Share funds, for the national scenic and 
historic trails administered by the National Park Service. We also 
appreciate your increased allocation of funds to support the trails 
administered and managed by the Forest Service and for the trails in 
the Bureau of Land Management's National Landscape Conservation System. 
To continue the progress that you have fostered, the Partnership 
requests that you provide annual operations funding for each of the 30 
national scenic and historic trails for fiscal year 2017 through these 
appropriations:

  --National Park Service: $16.233 million for administration of 23 
        trails and for coordination of the long-distance trails program 
        by the Washington office. Construction: $357,200 for the Ice 
        Age Trail and $250,000 for the Pacific Crest Trail.
  --USDA Forest Service: $85 million for trails construction and 
        maintenance (CMTL) with $7.796 million of it to administer 6 
        trails and $1.3 million to manage parts of 16 trails 
        administered by the NPS or BLM. $600,000 for Iditarod Trail 
        construction and maintenance.
  --Bureau of Land Management: $2.812 million to administer three 
        trails and for coordination of the National Trails program and 
        $7.14 million to manage portions of 13 trails administered by 
        the Park Service or the Forest Service and for operating five 
        National Historic Trail interpretive centers. Construction: 
        $300,000 for the Iditarod Trail. Maintenance: $300,000 for the 
        Iditarod Trail and $250,000 for the Pacific Crest Trail,
  --We ask that you create a $1.5 million National Trails System 
        Challenge Cost Share Program for the National Park Service.
  --We ask that you restore the Bureau of Land Management's Challenge 
        Cost Share Program with $3 million of funding and allocate 
        $500,000 of it for the national scenic and historic trails it 
        administers or manages.

    We ask that you appropriate $64,208,000 from the Land and Water 
Conservation Fund for the acquisition of 72 tracts along seven national 
scenic and six national historic trails described in the National 
Trails System Collaborative Landscape Planning proposal and allocate 
this funding to the:

  --Bureau of Land Management: $9,022,000
  --U.S. Fish and Wildlife Service: $7,879,000
  --U.S. Forest Service: $21,523,000
  --National Park Service: $25,784,000.
                         national park service
    The $16.233 million we request for Park Service operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the additional funding Congress provided 
several years ago. An increase of $570,000 for the Old Spanish Trail 
will enable the Park Service to begin implementing the Trail's new 
Comprehensive Management Plan working with the Old Spanish Trail 
Association to increase volunteer participation in signing, 
interpreting, and educating the public about the trail. The Park 
Service will be better able to collaborate with the Bureau of Land 
Management in administering the trail and to consult with other 
agencies to protect the cultural and natural resources along it from 
destruction by energy projects.
    We request an increase of $660,000 to expand Park Service efforts 
to protect cultural landscapes at more than 200 sites along the Santa 
Fe Trail, to develop GIS mapping, and to fund public educational and 
community outreach programs of the Santa Fe Trail Association. 
Increases of $313,224 for the Oregon Trail and $255,192 for the 
California Trail will enable the Park Service to work with the Oregon-
California Trails Association to develop digital and social media to 
connect with youth in the cities along these trails providing 
information about their many layers of history and to better protect 
the historical and cultural heritage sites and landscapes along them 
from destruction by energy development in the West. We request an 
increase of $300,000 to $833,000 for the Ala Kahakai Trail to enable 
the Park Service to work with E Mau Na Ala Hele, the Ala Kahakai Trail 
Association, and other community organizations to care for resources on 
the land and with the University of Hawaii to conduct archaeological 
and cultural landscape studies along this trail.
    The $1,020,000 we request for the 4,200 mile North Country Trail 
will enable the Park Service to provide greater support for the 
regional GIS mapping, trail building, trail management, and training of 
volunteers led by the North Country Trail Association. The $1,278,000 
we request for the Ice Age Trail includes a $443,000 increase to build 
partner and citizen capacity for building new and maintaining existing 
trail, protecting the natural and cultural resources on the lands 
purchased for the trail, and to provide the Park Service with a planner 
to accelerate planning of the land protection corridor for the trail.
    Construction: We request that you provide $357,200 for the Ice Age 
Trail to build 30 miles of new trail and several trailhead parking lots 
and $250,000 for the Pacific Crest Trail for trail construction 
projects.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. We 
request that you restore the Bureau of Land Management Challenge Cost 
Share program, appropriate $3 million to fund it, and allocate $.5 
million of that to fund projects along the national scenic and historic 
trails. We ask you to create a National Park Service National Trails 
System Challenge Cost Share program with $1.5 million funding to 
continue the steady progress toward making these trails fully available 
for public enjoyment as a wise investment of public money that will 
generate public benefits many times greater than its sum.
                          usda--forest service
    We ask you to appropriate $85 million for trails construction and 
maintenance (CMTL) to begin to address the considerable maintenance 
backlog on the trails in the National Forest System. Within this 
appropriation we request that you provide $7.796 million as a separate 
budgetary item specifically for the Arizona, Continental Divide, 
Florida, Pacific Crest, and Pacific Northwest National Scenic Trails 
and the Nez Perce National Historic Trail within the over-all 
appropriation for Capital Improvements and Maintenance for Trails. 
Recognizing the on-the-ground management responsibility the Forest 
Service has for 1024 miles of the Appalachian Trail, more than 650 
miles of the North Country Trail, and sections of the Ice Age, Anza, 
Caminos Real de Tierra Adentro and de Tejas, Lewis & Clark, California, 
Iditarod, Mormon Pioneer, Old Spanish, Oregon, Overmountain Victory, 
Pony Express, Trail of Tears and Santa Fe Trails, we ask you to 
appropriate $1.3 million specifically for these trails.
    The Partnership's request of $7.796 million includes $1.5 million 
to enable the Forest Service and Florida Trail Association to continue 
trail maintenance, to control invasive species, do ecosystem 
restoration, and otherwise manage 4,625 acres of new Florida Trail 
land. The $7.996 million request also includes $2.1 million for the 
Pacific Crest Trail, $2 million for the Continental Divide Trail, $1 
million for the Pacific Northwest Trail, $826,000 for the Nez Perce 
Trail, and $570,000 for the Arizona Trail. Some of the additional funds 
requested will enable the Forest Service to develop Comprehensive 
Management Plans for the latter three trails. We also request $600,000 
of additional funding for construction and for maintenance of sections 
of the Iditarod Trail.
                       bureau of land management
    Although considerably more money is needed to fully administer the 
National Conservation Lands System and protect its resources, we 
request that you appropriate $83.099 million in base funding for the 
System. We ask that you appropriate as new permanent base funding 
$250,000 for National Trails System Program Coordination, $1,000,000 
for the Iditarod Trail, $230,000 for El Camino Real de Tierra Adentro 
Trail, $1,332,000 for the Old Spanish Trail, and $4,000,000 for the 
Bureau to manage 4,645 miles of 13 other national scenic and historic 
trails. We request $300,000 to construct new sections of the Iditarod 
Trail and to maintain these trails: Iditarod Trail--$300,000 and 
Pacific Crest Trail--$250,000. We also request $3,140,000 to operate 
five historic trails interpretive centers.
    We ask you to restore the Bureau's Challenge Cost Share program, 
provide $3 million for it and, direct $500,000 for National Trails 
System projects.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System, we urge you to request expenditure and accomplishment reports 
for each of the NLCS Units for fiscal year 2016 and fiscal year 2017 
and to direct the Bureau to include unit-level allocations within major 
sub-activities for each of the scenic and historic trails, and wild and 
scenic rivers--as the Bureau has done for the national monuments, 
wilderness, and conservation areas--within a new activity account for 
the National Landscape Conservation System in fiscal year 2018. The 
Bureau's lack of a unified budget account for National Trails prevents 
the agency from efficiently planning, implementing, reporting, and 
taking advantage of cost-saving and leveraging partnerships and 
volunteer contributions for every activity related to these national 
resources.
                    land and water conservation fund
    The Partnership strongly supports the President's budget proposal 
to fully fund the Land and Water Conservation Fund at the authorized 
$900 million, with $475 million from discretionary sources and $425 
million in mandatory funds for the component programs funded under 
LWCF. Within this amount we request that you appropriate $64,208,000 
for the National Trails System Collaborative Landscape Planning 
proposal to acquire 72 parcels along 13 national scenic and historic 
trails detailed here:
Bureau of Land Management
$9,022,000
12 parcels
7,409 acres
    Lewis and Clark National Historic Trail (Montana): $1,750,000 for 
preservation of pristine trail, landscape, and habitat and to provide 
recreation access along the Upper Missouri National Wild and Scenic 
River.
    Nez Perce National Historic Trail (Idaho): $3,100,000 for trail and 
resource conservation of sage grouse and pronghorn habitat at one of 
the last remaining working ranches at Henry's Lake.
    Pacific Crest National Scenic Trail (Oregon, California): 
$3,172,000 for trail and resource protection within the Cascade 
Siskiyou National Monument in Southern Oregon and in the Mojave Desert 
in Southern California.
    Captain John Smith Chesapeake National Historic Trail (Maryland): 
$1,000,000 for preservation of threatened and endangered species 
habitat, increased recreation access and watershed connectivity.
U.S. Fish and Wildlife Service
$7,879,000
13 parcels
6,510 acres
    Appalachian National Scenic Trail (Pennsylvania): $4,000,000 to 
connect conservation habitats for bog turtles, black bear, Indiana 
bats, flying squirrels, and bald eagles along the Kittatinny Ridge.
    California National Historic Trail (Idaho): $2,500,000 to protect 
the largest breeding concentration of Sandhill Cranes, as well as, a 
haven for other waterfowl from a current farming threat.
    Lewis & Clark National Historic Trail (Washington): $1,379,000 to 
preserve unique ecosystems while increasing public recreational access 
near Julia Butler Hansen, Ridgefield, Franz Lake, Lewis and Clark, and 
Ridgefield National Wildlife Refuges.
U.S. Forest Service
$21,523,000
29 parcels
7,930 acres
    Appalachian National Scenic Trail (Georgia, North Carolina, 
Tennessee, Virginia): $4,588,000 to relocate trail, preserve trail view 
sheds, provide ecological connectivity, and protect watersheds near or 
adjacent to the Pond Mountain Wilderness, the Roan Highlands, Rice 
Creek Valley, and George Washington and Jefferson NFs.
    Continental Divide National Scenic Trail (Montana): $2,400,000 to 
protect pristine riparian habitat within the Gila National Forest and 
increase public recreational access via multi-user trails.
    Florida National Scenic Trail (Florida): $42,000 to close a trail 
gap and provide connectivity and public access between protected areas 
along the Withlacoochee River adjacent to Suwanee River State Park.
    Pacific Crest National Scenic Trail (California, Washington): 
$14,493,000 to provide critical scenic protection to the hiker 
experience, improve trail location and protect wildlife habitats in the 
Shasta-Trinity National Forest and provide recreational access adjacent 
to the Columbia River Gorge National Scenic Area.
National Park Service
$25,784,000
18 parcels
6,398 acres
    Ala Kahakai National Historic Trail (Hawaii): $6,000,000 to protect 
444 archaeological sites at an ancient coastal indigenous gathering 
area that hosts a wealth of native plants and wildlife both above and 
below ground in lava tubes.
    Appalachian National Scenic Trail (New York, Massachusetts): 
$2,982,000 to support connectivity of riparian and forest habitats in 
the Hinsdale Flats of the Berkshire-Taconic landscape and to preserve 
iconic scenic viewsheds.
    Captain John Smith Chesapeake National Historic Trail (Virginia): 
$4,250,000 to provide public access to the site of a major encounter 
between John Smith and indigenous peoples and protect a major migratory 
bird stopover habitat.
    Ice Age National Scenic Trail (Wisconsin): $1,200,000 to close gaps 
in the trail and provide urban access in the City of St. Croix and 
preserve pristine northern hardwood forest and riparian habitat along 
tributaries to the St. Croix National Scenic River.
    North Country National Scenic Trail (Michigan, Pennsylvania): 
$6,722,000 to protect over 2,500 acres along the Sturgeon River 
downstream from the Ottawa National Forest in Upper Michigan and to 
connect Moraine and McConnell's Mill State Parks in Pennsylvania 
providing recreational access via the NCNST.
    Overmountain Victory National Historic Trail (Tennessee): 
$1,430,000 to protect the historically significant Shelving Rock 
Encampment site, preserve the original roadbed, and facilitate 
interpretation of the site.
    Potomac Heritage National Scenic Trail (New York): $3,000,000 to 
protect the Potomac and Shenandoah River corridors, provide 
connectivity of wetland and forest habitats, and optimal location for 
new trail.
         private sector support for the national trails system
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2015 the trail organizations fostered 1,073,026 
hours of documented volunteer labor valued at $24,754,710 to help 
sustain the national scenic and historic trails. The organizations also 
raised private sector contributions of $12,396,728 for the trails.
                                 ______
                                 
           Prepared Statement of the Performing Arts Alliance
    Mr. Chairman and distinguished members of the subcommittee, we 
thank you for the opportunity to submit this testimony on behalf of the 
Performing Arts Alliance (PAA). We urge the subcommittee to appropriate 
$155 million to the National Endowment for the Arts for fiscal year 
2017. PAA member organizations include:

 
 
 
<bullet> Alternate ROOTS              <bullet> National Alliance for
<bullet> American Composers Forum      Musical Theatre
<bullet> Association of Performing    <bullet> National Association of
 Arts Presenters                       Latino Arts and Cultures
<bullet> Chamber Music America        <bullet> National Performance
<bullet> Chorus America                Network
<bullet> Dance/USA                    <bullet> Network of Ensemble
<bullet> Fractured Atlas               Theaters
<bullet> League of American           <bullet> New Music USA
 Orchestras                           <bullet> OPERA America
                                      <bullet> Theatre Communications
                                       Group
 


    The Performing Arts Alliance is a national network of more than 
33,000 organizational and individual members comprising the 
professional, nonprofit performing arts fields. We submit this 
testimony to highlight the importance of Federal investment in the 
arts.
    For 50 years, the National Endowment for the Arts has held a 
significant Federal leadership role for the arts and culture in 
America. Its grants reach every congressional district and support arts 
organizations serving their communities in a variety of ways. Through 
the support of direct NEA grants and NEA partnerships with State arts 
agencies, arts organizations are helping people experience high-quality 
artistic presentations, access arts education and opportunities for 
artistic development, find their voices and share their stories, and 
have critical dialogue about important social issues.
    The following examples of recent NEA grantees within the PAA 
network are a sample of the significant ways performing arts 
organizations are able to serve their communities with the support of 
the NEA.

-- NEA grants support arts education projects that offer professional 
        development to educators and arts learning opportunities for 
        students.

    Chamber Music America member Community Music Works in Providence, 
Rhode Island received fiscal year 2015 Art Works support to provide 
free lessons in instrumental music, music theory, and improvisation to 
local at-risk children and youth. The organization also provided a 
leadership development program for advanced students as well as 
performance opportunities.
    AXIS Dance Company in Oakland, California, recently received Art 
Works support for its Dance Access Education and Outreach programs to 
be offered in the Bay Area and in cities nationwide as the company 
tours. AXIS' events--such as dance classes, teacher trainings and youth 
dance camps--will be offered to youth and adults with and without 
disabilities. Included in the offerings are a dance apprentice program 
for students with spinal cord injuries and movement experiences for 
veterans. AXIS is a member of Dance/USA.
    The Integration of the Arts and Literacy Academy was developed by 
the Kentucky Center for the Performing Arts in Louisville, Kentucky to 
offer professional development programs for arts teachers and teachers 
of literacy, reading, and English language arts. Supported by fiscal 
year 2016 Art Works funding, this project will help teachers from 
rural, urban, and suburban Kentucky schools learn to integrate music, 
dance, drama, and visual arts with creative writing and interactive 
storytelling based on children's books. The Center for the Performing 
Arts is a member of the Association of Performing Arts Presenters.

-- With the support of NEA funds, arts organizations are developing 
        works that address current affairs and create safe spaces for 
        community dialogue on social Issues.

    Metro Theater Company in St. Louis, Missouri, a member of Theatre 
Communications Group, is addressing issues of race and social justice 
in its production of ``And in This Corner . . . . Cassius Clay'' by 
Idris Goodwin. The presentation is supported by fiscal year 2016 Art 
Works funding. Set in Louisville, Kentucky, during the 1950s and early 
1960s, the play portrays prize-fighter Cassius Clay's boyhood through 
his mid-20s, during the Jim Crow era in the South. As contemporary St. 
Louis communities process the aftermath of the present-day shooting 
events in Ferguson, aspects of the play may resonate, such as the 
police officer who mentors Clay and introduces him to boxing. Outreach 
activities associated with this production will encourage civic 
engagement and youth empowerment.
    Sandglass Theatre in Putney, Vermont received fiscal year 2015 Art 
Works support for its biannual International Puppets in the Green 
Mountains Festival, which will feature performances by international 
puppet artists around the theme of immigration and humanization, as 
well as the Voices of Community Series, a theater series exploring 
issues of diversity with residencies by visiting artists. Sandglass is 
a member of the National Performance Network.

-- NEA funds benefit every congressional district, expanding access to 
        exemplary artistry to all people in all U.S. communities.

    With the support of fiscal year 2016 Challenge America funding, Pro 
Musica in Joplin, Missouri is able to offer free public performances 
and outreach activities by artists such as Project Trio and the Harlem 
Quartet, intended to serve rural communities. This organization is a 
member of Chamber Music America. The Quartet's outreach activities 
include audience talk-backs about the music, instrumentation, and 
composers whose work is being performed.
    The St. Louis Children's Choir--a member of Chorus America--has 
used fiscal year 2016 Art Works funding to support its Serving St. 
Louis through Song community engagement project. The choir will bring 
its music to St. Louis Area elementary, middle, and language-immersion 
schools, the St. Louis Juvenile Detention Center, the St. Louis 
Children's Hospital, and residential care facilities for senior 
citizens.
    Manship Theatre in Baton Rouge, Louisiana, a member of Dance/USA, 
received fiscal year 2016 Challenge America support for residency 
projects with tap dance artists Savion Glover, Marshall Davis, Jr., and 
jazz drummer Jack Dejohnette. Glover and Davis will give a lecture and 
demonstration at Family Youth Services Center, in partnership with the 
East Baton Rouge Department of Juvenile Services. Together, all three 
artists will perform at a public concert at Manship Theatre.
    Great Falls Symphony in Great Falls, Montana, is able to offer 
outreach concerts and lead master classes for rural high school 
students with the support of an fiscal year 2016 Challenge America Fast 
Track grant. The Symphony, a member of the League of American 
Orchestras, will also perform in a concert preview that will be aired 
on Montana's public radio station and perform during an open rehearsal 
for local piano students and piano teachers.

-- NEA grants support projects that help people from different 
        communities share their stories and histories, helping 
        audiences make connections across cultures.

    Knoxville Opera, a member of OPERA America, received an fiscal year 
2016 Challenge America Fast Track Grant to support OPERAtion Outreach!, 
a series of free public performances, in-school productions, and 
education programs intended to engage underserved audiences of East 
Tennessee. In addition to presentations of classic works such as 
Puccini's ``Tosca,'' Knoxville Opera will present its African-American 
Voices Series, highlighting the importance of diversifying the opera 
field. The series will feature African-American opera artists 
discussing their careers, achievements, and experiences as minorities 
within the field.
    Miracle Theatre Group (Milagro), in Portland, Oregon, received 
fiscal year 2016 Art Works support for the West Coast premiere of 
``Contigo Pan y Cebolla'' by Hector Quintero. The tragic comedy is set 
in Havana during the late 1950s just prior to the Cuban revolution. It 
centers on a poor family struggling to make ends meet as costs increase 
but wages remain stagnant. The play is a popular work of Cuban realism 
and will be produced in its original Spanish. The theater will host a 
series of bilingual post-play conversations with community members and 
local scholars to illuminate Cuban history. Milagro is a member of the 
National Association for Latino Arts and Cultures.
    Portland Playhouse, in Portland, Oregon (a member of Theatre 
Communications Group), received Artworks Support for the development 
and West Coast premiere of ``You for Me for You'' by Mia Chung. The 
play tells the story of two North Korean sisters facing starvation at 
the hands of a corrupt regime who are separated when they decide to 
flee the country. The work invites audiences to rethink perceptions of 
North Korea and the immigrant experience. In partnership with the 
Korean American Coalition and Asian American Network of Oregon, the 
theater plans to stimulate public dialogue around the themes of the 
play by hosting talkback discussions with artists.

-- NEA grants support projects that provide valuable opportunities for 
        artistic development for young and emerging artists.

    The NOCCA Institute (New Orleans Center for Creative Arts), a 
member of Chamber Music America, received fiscal year 2016 Art Works 
funding for its Artists-in-Residence Program. Visiting artists convened 
for master classes, concerts, and other activities with youth, emerging 
and mid-career artists, and the general public.
    With the support of fiscal year 2016 Art Works funds, Dorset 
Theatre Festival in Dorset, Vermont--a member of Theatre Communications 
Group (TCG) --administered its New Play Development Program. Via a new 
works incubator to nurture new voices in theatre, the program will 
mentor playwrights in the development of new plays from conception to 
production. A similar effort to support new voices is underway at the 
Nashville Repertory Theatre due in part to support from Art Works 
funding. The Theatre's Ingram New Works Project will aid the creation 
of new plays by participating playwrights who will write plays of their 
choice, rather than a play chosen by the institution. This theatre is 
also a member of TCG.
    The artistic programming of the arts organizations supported by the 
National Endowment for the Arts gives vitality to their communities in 
numerous ways beyond the examples provided here. The Federal investment 
in the NEA places value on the role of arts and culture in our society, 
and it realizes significant returns that are both measurable and 
intangible. We celebrate the NEA's fiscal year 2016 budget increase--
the first since fiscal year 2011--and urge you to please support no 
less than $155 million to the National Endowment for the Arts in fiscal 
year 2017. Thank you for considering our request.

    [This statement was submitted by Mario Garcia Durham, Chair, and 
Cristine Davis, General Manager.]
                                 ______
                                 
   Prepared Statement in Support of Federal Programs to Conserve and 
                       Improve America's Forests
    Dear Chairman Murkowski and Ranking Member Udall:

    The President's fiscal year 17 budget reflects the difficult budget 
decisions that the ever increasing costs of wildfires and budget 
constraints present. Even in this tight budget climate, the undersigned 
organizations believe that investments in key Federal programs to 
conserve and improve America's forests--rural and urban, private and 
public--are critically important. These investments create jobs, 
mitigate pollution and carbon emissions, enhance and protect our 
drinking water, contribute to healthy, livable communities, and 
encourage forest product innovation and utilization, helping the Nation 
to foster strong economic growth in rural areas.
    The U.S. Forest Service State and Private Forestry Deputy Area 
(S&PF) serves as a lynchpin for the conservation of America's forests. 
S&PF supports a broad range of programs in partnerships with State and 
national forestry and conservation organizations interested in 
America's forests. Providing this important technical and financial 
assistance to private landowners and the resource managers responsible 
for managing more than 60 percent of America's forests helps to 
increase the pace and scale of landscape scale restoration work, 
improve the resilience of the Nation's forests, and protect communities 
and the environment from forest pests, invasive species and wildland 
fires.
    Fiscal year 2017 funding for the following S&PF programs will help 
improve the health of the Nation's forests and encourage economic 
growth in a sector that sustains more than one million jobs in the 
United States. Our funding level requests include:
  --$29 million for the Forest Stewardship Program: Administered in 
        cooperation with State forestry agencies, this program plays a 
        fundamental role in keeping forests as forests. Forest Insects, 
        diseases and wild fire know no bounds between Federal and non-
        Federal forests. Assisting some of the 22 million private 
        landowners in managing non-Federal forests can help minimize 
        the impacts to Federal lands saving the Federal taxpayer 
        millions of dollars. Almost 90 percent of those who have 
        stewardship plans are actively implementing them to manage for 
        wildlife, clean water, climate mitigation, and forest products.
  --$100 million for the Forest Health Management Programs--$52 million 
        Federal Lands and $48 million Cooperative Lands: Pests and 
        disease area national problem affecting private and public 
        lands. The USFS Forest Health Management Program supports 
        efforts to prevent, contain, and eradicate these costly and 
        dangerous pests and pathogens affecting trees and forests.
  --$31 million for the Urban and Community Forestry Program: 
        Benefiting more than 220 million people, this program provides 
        assistance to communities managing local, urban, and community 
        forestry resources to keep trees and forests in our communities 
        healthy. These urban forests provide quantifiable energy 
        savings, stormwater impact reduction, and human health benefits 
        in return.
  --$87 million for State and $15 million for Volunteer Fire Assistance 
        Programs: Initial attack is the key to reducing large fire 
        costs and these programs are critical to these suppression 
        efforts. State and volunteer fire crews are deployed to assist 
        on Federal fires and other emergency or disaster situations, in 
        compliance with national safety and training standards.
  --$23.5 million for Landscape Scale Restoration: S&PF works 
        collaboratively with States and other partners using State 
        Forest Action Plans to target resources to the highest priority 
        forest needs across ownerships to achieve results with 
        meaningful local, regional, and national impacts.

    Thank you for your consideration.

            Sincerely,

American Forests
American Forest Foundation
CarbonVerde
Forest Business Network
National Association of Conservation Districts
National Association of Forest Service Retirees
National Association of State Foresters
National Wild Turkey Federation
National Woodland Owners Association
The National Wildfire Institute
The Nature Conservancy
The Pinchot Institute for Conservation
Society of American Foresters
      
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    Thank you for the opportunity to provide written testimony 
concerning the fiscal year 2017 appropriations for American Indian and 
Alaskan Native programs within the BIA and IHS. My name is David Z. 
Bean, Tribal Council Member for the Puyallup Tribe of Indians.
    The Puyallup Tribe is an independent sovereign nation having 
historically negotiated with several foreign nations including the 
United States in the Medicine Creek Treaty of 1854. This relationship 
is rooted in Article I, Section 8, of the United States Constitution, 
Federal laws and numerous Executive orders. The governing body of the 
Puyallup Tribe of Indians is the Puyallup Tribal Council which upholds 
the Tribe's sovereign responsibility of self-determination and self-
governance for the benefit of the 5,006 Puyallup tribal members and the 
25,000 plus members from approximately 355 federally recognized tribes 
who utilize our services. The Puyallup Reservation is located in the 
urbanized Seattle-Tacoma area of the State of Washington. The 18,061 
acre reservation is a ``checkerboard'' of tribal lands, Indian-owned 
fee land and non-Indian owned fee land. Our reservation land includes 
parts of six different municipalities (Tacoma, Fife, Milton, Puyallup, 
Edgewood and Federal Way).
    The following written testimony being submitted to the Senate 
Appropriations Subcommittee documents the Puyallup Tribe's views on the 
President's fiscal year 2017 Federal budget. The focus of the written 
testimony will be on the President's proposed budget for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS). Within the 
BIA budget, $2.9 billion is proposed for fiscal year 2017, an increase 
of $138 million above the fiscal year 2016 levels. For the IHS, $5.2 
billion is proposed, an increase of $378 million over the fiscal year 
2016 enacted level. Included in both budgets the President proposes to 
fully fund Contract Support Costs (CSC) in fiscal year 2017. The budget 
provides $278 million for BIA CSCs and $800 million for IHS CSCs. We 
appreciate the increased funding being proposed for the BIA and IHS and 
funding CSCs at 100 percent. However, years of inadequate funding and 
the effects of inflation have impacted the tribe's ability to fully 
exercise self-determination and self-governance. As negotiations 
proceed on the fiscal year 2017 budget and future appropriations, it is 
paramount that Congress fully fund Indian program needs.
            department of interior--bureau of indian affairs
    Public Safety & Justice: The fiscal year 2017 budget request 
includes $373.5 million for BIA Public Safety & Justice. This 
represents a $4 million decrease over the fiscal year 2016 enacted 
level. Funding for detention facilities is of great importance to the 
Puyallup Tribe. In fiscal year 2009, we received a Department of 
Justice ARRA grant, in the amount of $7.9 million to construct a 28 bed 
adult corrections facility. Construction on the facility was completed 
in February 2014 and came online in May 2014. Over the past years the 
Puyallup Tribe has worked closely with the BIA Office of Justice 
Services to identify the operating and staffing costs associated this 
facility. The agreed upon estimated cost of operating the facility was 
set at $2.6 million annually. The BIA base funding offered to the tribe 
in fiscal year 2015 was $704,198 or 27 percent of actual need, with no 
increases to base funding in fiscal year 2016 or fiscal year 2017. 
Thus, while we support the $1.0 million increase in the President's 
proposed fiscal year 2017 funding for Detention & Corrections, this 
increase is not sufficient to fund the staffing and operating needs of 
Indian Country detention facilities, some of which lie vacant due to 
lack of funds. We are requesting support from the subcommittee to 
include Committee report language that would direct Office of Justice 
Services to submit a plan for funding the staffing and operating needs 
of the detention facilities in Indian country.
    In addition, we operate a tribal court program through a Public Law 
93-638 contract with the BIA. In fiscal year 2015, our base funding was 
increased from $45,000 to $194,996 and remains this amount for fiscal 
year 2017. While the increase to our tribal court base funding was 
appreciated, it does not equal the amount of tribal funds necessary to 
fully operate the tribal court program. In fiscal year 2016, the tribe 
has allocated $1.172 million of tribal funds for the tribal court 
budget. Again, while the Puyallup Tribe supports the $2.5 million 
increase for tribal court funding for fiscal year 2017, we agree with 
the National Congress of American Indian's request that an additional 
$82.0 million be allocated to BIA to increase base funding for tribal 
courts. This increase would assist with the implementation of the 
Tribal Law and Order Act and the Violence Against Women Act. Further, 
we are strongly opposed to the $8.2 million decrease proposed for the 
tribal courts initiative to better support tribal courts in Public Law 
280 States.
    Natural Resources Management: The Puyallup Tribe has treaty and 
governmental obligations and responsibilities to manage its natural 
resources for uses beneficial to the tribal membership and the regional 
communities. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Native and 
Non-native fishermen and surrounding communities. Our resource 
management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington.
    For fiscal year 2017, a minimum funding level of $8.5 million is 
necessary for the Rights Protection Implementation--BIA Western 
Washington (Bolts) Fisheries Management program. However, we agree with 
the Northwest Indian Fisheries Commission and the National Congress of 
American Indians that an overall $52 million increase for the Rights 
Protection Implementation funding is necessary to ensure compliance 
with Federal court orders through effective tribal self-regulatory and 
co-management systems. This increase in funding would provide new 
monies for harvest management, habitat protection, stock enhancement, 
shellfish, enforcement, wildlife and other natural resource management 
needs. As the aboriginal owners and guardians of our lands and waters 
it is essential that adequate funding is provided to allow tribes to 
carry-out our inherent stewardship of these resources.
    The Puyallup Tribe continues to operate a number of salmon 
hatcheries that benefit Indian and non-Indian commercial and sport 
fisheries in the Pacific Northwest/Puget Sound. We work cooperatively 
with the Northwest Indian Fisheries Commission, neighboring tribes, 
Federal agencies and State fishery managers to insure the success and 
sustainability of our hatchery programs. The tribe supports the 
President's fiscal year 2017 budget request of $10.38 million for Fish 
Hatcheries Operations and Fish Hatchery Maintenance.
    The Timber, Fish and Wildlife (TFW) Supplemental and U.S./Canada 
Pacific Salmon Treaty programs has allowed for the expansion of tribal 
participation in the State forest practice rules and regulations and 
participation in inter-tribal organizations to address specific 
treaties and legal cases which relate to multi-national fishing rights, 
harvest allocations and resource management practices. We request 
subcommittee support the funding recommendations of the NWIFC for the 
fiscal year 2017 TFW Supplemental program and the U.S./Canada Pacific 
Salmon Treaty program.
    The Puyallup Wildlife Management program has been the lead agency 
in management activities to benefit the South Rainier elk herd since 
2004. The South Rainier elk herd is the primary stock of elk harvested 
by the Puyallup Tribe. The tribe has not only established more reliable 
methods for population monitoring, but has also been proactive in 
initiating habitat enhancement projects, research and land acquisition 
to ensure sustainable populations of elk for future generations. Funds 
that are available to the tribe have been on a very competitive basis 
with a limited amount per program via USFWS Tribal Wildlife grants and 
the BIA Unresolved Hunting and Fishing Rights grant program. We request 
subcommittee support to provide base funding to the tribes' Wildlife 
Management Program in the amount of $150,000 through the BIA Unresolved 
Hunting and Fishing Rights program in fiscal year 2017 appropriations.
    Education: The Puyallup Tribe operates the pre-K to 12 Chief Leschi 
Schools which included a verified 2014-2015 School student enrollment 
of 910+ students, including ECEAP and FACE programs. With an increasing 
number of pre-kindergarten enrollment, Chief Leschi Schools will exceed 
design capacity in the near future. Additional space will be necessary 
to provide quality educational services to the students and tribal 
community. Additionally, the cost of operation and maintenance of the 
Chief Leschi School facilities continues to increase in the areas of 
supplies, energy and student transportation costs. The fiscal year 2017 
budget request for the Bureau of Indian Education (BIE) is $912 
million, an increase of $60 million over the fiscal year 2016 enacted 
level. While this increase is appreciated, once again the funding level 
does not meet the actual operational needs of tribal education 
programs. The tribe will continue to work with Congress, BIE and the 
National Congress of American Indians to increase funding in fiscal 
year 2017, including: Tribal Grant Support Cost for Tribally Operated 
Schools--$78 million; Student Transportation--$73 million; School 
Facilities Accounts--$109 million in facilities operations and $109 
million in facilities maintenance, Indian School Equalization Program 
(ISEP)--$431 million and Construction/Repair of BIE Schools--$263.4 
million.
    Operations of Indian Programs & Tribal Priority Allocations: The 
President's fiscal year 2017 budget is in drastic need for increased 
funding for the BIA Operations of Indian Programs. Within the 
Operations of Indian Programs is the Tribal Priority Allocations (TPA). 
The TPA budget functions include the majority of funding used to 
support on-going services at the ``local tribal'' level, including: 
natural resources management, child welfare, other education, housing 
and other tribal government services. These functions have not received 
adequate and consistent funding to allow tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases that ``TPA'' has received over the past few years has not 
been adequate to keep pace with inflation. Specifically we support the 
$3.4 million requested increase for Indian Child Welfare funding; the 
$12.3 million requested increase for social services; and finally we 
support the $3 million requested increase for natural resource programs 
within TPA.
     department of health and human services--indian health service
    The Inadequate funding of the Indian Health Service (IHS) is the 
most substantial impediment to the current Indian Health system. The 
Puyallup Tribe has been operating healthcare programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to the Native American population in Pierce 
County, Washington. The current patient load exceeds 9,000, of which 
approximately 1,700 are tribal members. There are no IHS hospitals in 
the Portland Area so all specialties and hospital care have been paid 
for out of our contract care allocation. The Purchased/Referred Care 
(PRC) allocation to PTHA remains inadequate to meet the actual need. In 
fiscal year 2004, the Puyallup Tribe subsidized PRC with a $2.8 million 
dollar contribution. In fiscal year 2016, the tribal PRC subsidy has 
grown to $6.2 million. Given that the PTHA service population is only 
comprised of 17 percent Puyallup tribal members, tribal budget 
priorities in fiscal year 2011 through fiscal year 2016 have made 
continued subsidies to the PTHA financially difficult for the Puyallup 
Tribe. The fiscal year 2017 budget requests $5.2 billion in 
discretionary budget authority for the Indian Health Service. This 
represents a $378 million increase over the fiscal year 2016 enacted 
level. For Health Services programs the fiscal year 2017 budget 
requests funding for Clinical Services ($3.47 billion), Purchased/
Referred Care ($962 million), Facilities Maintenance & Improvement ($77 
million) and Contract Support ($800 million). The Puyallup Tribe fully 
supports funding increases for existing IHS programs and will work with 
Congress to continue efforts to increase funding for IHS and the 
critical programs administered by the agency which so many Indian 
tribes perform under Indian Self-Determination Act contracts and 
agreements.
                                 ______
                                 
             Prepared Statement of the PVC Pipe Association
    The Uni-Bell PVC Pipe Association is a not-for-profit organization 
representing 95 percent of the manufacturing capacity of the North 
American PVC pipe industry. Our pipe producing members operate over 90 
facilities in the U.S. and our associate members (suppliers) hundreds 
more. PVC pipe extrusion facilities are found in 32 States across the 
United States: California has the most plants (9), followed by Texas 
(6), Arizona (5) and Pennsylvania (5).
    The PVC pipe industry serves a vast and complex market including 
54,000 drinking water systems, 10,000 wastewater facilities and 15,000 
sewer and wastewater contracting firms. PVC water and sewer pipe 
producers contribute in excess of $14 billion annually to the U.S. 
economy and support over 25,000 jobs.
    The Environmental Protection Agency (EPA) manages taxpayer dollars 
under the State Revolving Fund's (SRF's) for water and wastewater 
projects in every State. It is important for all States and 
municipalities receiving Federal funding to use open and free bidding 
processes and to consider all approved piping materials so that the 
most cost effective, longest lasting and best performing piping is 
used.
    According to the U.S. Conference of Mayors, underground pipes 
represent 60 percent ($2.28 trillion) of the $3.8 trillion needed in 
investments for water and wastewater infrastructure over the next 20 
years. As a result, it is here that open procurement policies and 
practices should be focused.
    Since the 1970s the U.S. Department of Agriculture's (USDA) Rural 
Development Program has required that the funding it provides rural 
municipalities for water and sewer projects be spent in an open and 
competitive manner. It is time for the EPA to have similar 
requirements.
    Richard Anderson, Ph.D., Senior Advisor to U.S. Conference of 
Mayors Water Council, who is also a proponent of procurement reform for 
underground infrastructure, reports that water and sewer pipelines are 
deteriorating faster than the rate at which they can be replaced 
because of corrosion, which is the leading cause of the water main 
break epidemic in North America (estimated at some 300,000 breaks 
annually). According to a 2002 congressional study, corrosion is also a 
drag on the economy, costing U.S. drinking water and wastewater systems 
over $50.7 billion annually. As a result, any comprehensive and truly 
sustainable underground infrastructure strategy must address corrosion.
    Today's corrosion crisis is due to the materials used in America's 
piping networks over the last hundred years. At first, cast iron was 
used, with ductile iron gradually replacing it as the material of 
choice. Both now suffer from corrosion. In fact, studies have shown 
that newer iron pipes do not last as long as older versions because of 
their thinner walls.
    The burden of old technology materials is not limited to the cost 
of repairing and replacing failed pipelines. It includes the cost of 
losing treated water from leaking systems. Leaking pipes made from old 
technology materials lose an estimated 2.6 trillion gallons of drinking 
water annually, or 17 percent of all treated water pumped in the United 
States.
    The solution to these problems begins with sustainability, 
durability and corrosion resistance, and this is why more utilities 
must actively consider all approved piping materials like PVC in their 
bidding processes. Increased durability means fewer leaks, better water 
conservation and lower costs. As a result, any comprehensive action 
plan for water and wastewater infrastructure renewal must also include 
reform of municipal procurement practices that limit competition, 
shackle innovation and increase costs.
    We believe that to get the most efficient and sustainable use of 
Federal money for water and wastewater projects, free and open 
competition must be the operating standard. Federal grants provided to 
municipalities should have open competition stipulations similar to 
those required by the USDA Rural Development Program for water and 
sewer projects. In this way Federal dollars obtain maximum value for 
taxpayers. When products are excluded from bidding, taxpayers suffer as 
does the efficiency of our infrastructure.
    With over 2 million miles in service, PVC pipe has been celebrated 
by Engineering News Record as one of the top 20 engineering 
advancements of the last 125 years. A study by the American Water Works 
Research Foundation recently quantified the life expectancy of PVC pipe 
at more than 110 years--making it excellent for long-term asset 
management and sustainability. Furthermore, PVC pipe is more efficient 
to manufacture, taking four times less energy to make than concrete 
pressure pipe, and half that used for iron pipe.
    As well, PVC pipe is cost effective, has watertight joints and its 
lightweight reduces transportation and installation costs, yielding 
additional greenhouse gas reductions. It is also totally recyclable, 
though most of it has yet to enter the recycling stream given its great 
durability.
    The PVC pipe industry has published the first North American 
industry-wide environmental product declaration (EPD) for PVC water and 
sewer piping, which has been verified by NSF Sustainability, a division 
of global public health organization NSF International. PVC pipe is 
designed to minimize environmental impacts due to its corrosion 
resistance, enabling long-term durability. This third-party verified, 
ISO 14025 compliant EPD was the next step in validating the safety and 
sustainability of PVC piping products. With the completion of this EPD, 
the PVC pipe industry has demonstrated its continued commitment to 
product safety and transparency.

  --Environmental Product Declaration for PVC Water and Sewer Piping--
        NSF international 

        http://www.uni-bell.org/communication/images/
environmental_product_
          declaration_for_water_and_sewer_piping.pdf

    Numerous organizations have published studies on the need to update 
procurement practices to more cost effectively finance our underground 
infrastructure. Below are links to some of these reports:

  --Procurement Process Improvements Yield Cost-Effective Public 
        Benefits

        http://www.uni-bell.org/communication/images/
uscm_muncipalprocurement_
          onepage.pdf

  --Reforming Our Nation's Approach to the Infrastructure Crisis: How 
        Competition, Oversight, and Innovation Can Lower Water and 
        Sewer Rates in the United States

        http://www.uni-bell.org/kcfinder/upload/files/
NTU%20Report%281%29.pdf

  --Lowering Costs in Water Infrastructure through Procurement Reform: 
        A Strategy for State Governments

        http://www.uni-bell.org/resources/
Lowering%20Costs%20in%20Water%20
          Infrastructure_ALEC%20FINAL.pdf

  --Fixing America's Crumbling Underground Water Infrastructure: 
        Competitive Bidding Offers a Way Out

        http://www.uni-bell.org/resources/
FixingAmericasWaterInfrastructure.pdf

    Also please find links to water main break rate and pipe longevity 
studies by Utah State University's Buried Structures Laboratory, which 
determined that PVC has the lowest break rate of all water piping 
materials and the longest lifespan:

  --Water Main Break Rates in the USA and Canada: A Comprehensive Study

        http://www.uni-bell.org/kcfinder/upload/files/
UtahStateWaterBreakRates_
          FINAL_TH_Ver5lowrez.pdf

  --PVC Pipe Longevity Report: A Comprehensive Study on PVC Pipe 
        Excavations, Testing, & Life Cycle Analysis

        http://www.uni-bell.org/communication/images/
unibell_24_page_low_
          res1.pdf

    The PVC pipe industry thanks you for letting us submit a statement 
for this important hearing and we will be pleased to answer any 
questions you may have.

    [This statement was submitted by Bruce Hollands, Executive 
Director.]
                                 ______
                                 
   Prepared Statement of the Red Cliff Band of Lake Superior Chippewa
Testimony Addresses: Bureau of Indian Affairs
Lake Superior Co-Management Program Write-up for the Tribal Management/
        Development Program (TMDP) Funding
This write-up was developed in conjunction with BIA Central Office 
staff

    Of the proposed increase to TMDP, $750,000 will be provided to 
support Lake Superior Co-Management (LSCM) tribes (Red Cliff, Bad 
River). The LSCM tribes are experiencing the effects of climate change 
disproportionately due to their cultural and functional reliance on 
Lake Superior, as well as their inability to relocate treaty-defined 
reservations. The reservations of the LSCM tribes border Lake Superior 
coastal shoreline, and the tribes actively participate in commercial 
and subsistence fish harvest across six management units and 7,051,090 
surface acres of Lake Superior. The reservations' economies are 
fundamentally based and inextricably linked to the continued 
sustainable harvest of wild, native fish stocks in the 1842 ceded 
waters of Lake Superior.
    Tribal commercial fishing on Lake Superior under the Treaty of 1842 
(7 Stat. 591) and Treaty of 1854 (10 Stat.1109) with the Chippewa was 
affirmed in State v. Gurnoe, 53 Wis. 2d 390 (1972), which dismissed 
State prosecution against tribal fishermen and initiated the current 
system of self-regulation. The U.S. District Court for the Western 
District of Wisconsin also dismissed allegations against tribal 
fishermen in U.S. v. Peterson, 82CR7OU (1984), in light of the 
regulatory provisions contained in the Lake Superior Fishing Agreement, 
first adopted in 1981, between the Red Cliff and Bad River Tribes and 
State of Wisconsin. While the rights of these tribes to manage the Lake 
Superior fishery was made clear in court decisions, the exact 
jurisdictional boundaries and roles of each tribe in cooperation with 
the State was determined through negotiated efforts. Prior to, and 
since the Federal court's decision in U.S. v. Peterson, the tribes have 
maintained sovereign rights to regulate Treaty harvest and to 
cooperatively manage the shared fishery resource in Lake Superior 
through subsequent negotiated renditions of the Lake Superior Fishing 
Agreement in coordination with the State of Wisconsin in 1991, 1995, 
and 2005. LSCM tribes (Red Cliff and Bad River) each currently receive 
base TMDP funding for on-reservation management of fish and wildlife 
resources. Funding of LSCM will provide the funding required for Red 
Cliff and Bad River to co-manage tribal resources in compliance with 
the Lake Superior Fishing Agreement within the jurisdictions also 
managed by the State. This increase to LSCM (Red Cliff and Bad River) 
is needed to improve conservation enforcement, commercial monitoring, 
and data-driven fishery management activities within the co-managed 
jurisdictions of Lake Superior in cooperation with the State.
    Since the Gurnoe Decision (1972) reaffirmed the rights of the 
Chippewa tribes to engage in reservation-based fish harvest, LSCM 
tribes have developed natural resource programs to demonstrate their 
co-management authority on Lake Superior and ensure sustainable fishery 
management. The core functions of these programs, namely fish stock 
assessments, conservation enforcement and harvest monitoring, have 
resulted in the most spatially and temporally comprehensive database to 
quantify climate change impacts. The LSCM has regional and national 
benefit as vulnerability assessments and climate resiliency strategies 
are developed for the world's greatest freshwater ecosystem.
Justification
  --A major funding shortfall of Tribal Management and Development 
        funding to the Bad River and Red Cliff Tribes has resulted in 
        an unmet obligation by BIA to support treaty harvest and 
        management responsibilities by the tribes across 7,000,000 
        surface acres of ceded territory on Lake Superior.
  --Red Cliff and Bad River operate exclusively in Wisconsin waters of 
        Lake Superior and directly negotiate terms under the Lake 
        Superior Fishing Agreement, first signed in 1981, with the 
        State of Wisconsin. Subsequent renditions of the Agreement 
        occurred in 1991, 1995, and 2005; a 2016 Agreement is currently 
        being negotiated.
  --U.S. District Court dismissed allegations on Red Cliff commercial 
        fishermen in U.S. v. Peterson, 82CR7OU (1984),\4\ in light of 
        the regulatory provisions contained in the 1981 Lake Superior 
        Fishing Agreement. The Federal decision relied upon the 
        standing Agreement with the State in dismissing the case.
  --Fish stock assessments, on-board harvest monitoring and 
        conservation enforcement are the foundation of the Lake 
        Superior Co-Management program. These activities are not 
        supported through the assistance of an intertribal agency in 
        Wisconsin waters.
  --History and tradition are important to us:

         The Red Cliff Reservation, A third member of the La Pointe 
Agency Group, is about 24 miles by rail from Ashland. It contains 191 
Indians, a particularly industrious and deserving lot of people. A good 
many of the Red Cliff Indians obtain their chief employment at the 
Bayfield sawmills, and many others have until recently earned a fair 
subsistence by fishing with nets in the bay along the border of the 
reservation. Their fish they would pack and ship in kegs to the market, 
working on a cooperative system. Now the State of Wisconsin has adopted 
laws which forbid their net fishery, although the Treaty of 1854 
between the Tribe and the United States Government guarantees them this 
privilege. They cannot understand the conflict of State laws with 
Federal treaties, and still consider themselves entitled to fish, 
though they have made no attempt to assert their rights aggressively 
since some of the fishermen were arrested by the State authorities.

   -- 28th Annual Report of the Board of Indian commissioners, 1896.

    But modern tribal fisheries require conscientious, data-driven 
management. Please support us.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for our Nation. Restore America's Estuaries is an 
alliance of community-based coastal conservation organizations across 
the Nation that protect and restore coastal and estuarine habitat. Our 
member organizations include: American Littoral Society, Chesapeake Bay 
Foundation, Coalition to Restore Coastal Louisiana, Save the Sound--a 
program of the Connecticut Fund for the Environment, Galveston Bay 
Foundation, North Carolina Coastal Federation, EarthCorps, Save The 
Bay--San Francisco, Save the Bay--Narragansett Bay, and Tampa Bay 
Watch. Collectively, we represent over 250,000 members nationwide.
    As you develop the fiscal year 2017 Interior, Environment and 
Related Agencies appropriations bill, Restore America's Estuaries and 
our members encourage you to provide the following funding levels 
within the Department of Interior, U.S. Fish and Wildlife Service 
(USFWS) and the U.S. Environmental Protection Agency (USEPA) for core 
programs that significantly support coastal community and ecosystem 
resilience and local economies:

  --$15 million for USFWS Coastal Program
     (Interior: USFWS: Resource Management: Habitat Conservation: 
Coastal Program)

  --$27.2 million for USEPA National Estuary Program
     (USEPA: Water: Ecosystems: National Estuary Program/Coastal 
Waterways)

    These non-regulatory investments strengthen and revitalize 
America's coastal communities by protecting and restoring habitat, 
improving local water quality, and enhancing resilience. Healthy 
coastlines protect communities from flood damage and extreme weather, 
improve commercial fisheries, safeguard vital infrastructure, and 
support tourism and recreational opportunities.
                         usfws coastal program
    The Coastal Program (CP) is a voluntary, incentive-based program 
that provides technical and financial assistance to coastal communities 
and landowners to protect and restore fish and wildlife habitat on 
public and private lands in 24 priority coastal ecosystems throughout 
the United States, including the Great Lakes. The Coastal Program works 
collaboratively within the USFWS to coordinate strategic priorities and 
make landscape-scale progress with other Federal, State, local, and 
non-governmental partners and private landowners. Since 1985, the 
Coastal Program has:

  --Partnered with more than 5,000 Federal, tribal, State, and local 
        agencies, non-governmental organizations, corporations, and 
        private landowners.
  --Restored 546,390 acres of wetland and upland habitat and 2,590 
        miles of stream habitat.
  --Protected more than 2.1 million acres of coastal habitat.
  --Provided technical assistance to a diverse range of conservation 
        partners.

    Our coastal communities and ecosystems are on the front lines of 
changing coastal conditions and increasing extreme weather. Support for 
the USFWS Coastal Program helps interested communities and partners 
address the new set of challenges facing coastal communities. The 
Coastal Program is the USFWS's key conservation tool delivering on-the-
ground habitat restoration and technical assistance. Despite the 
Program's relatively small cost, it has a tremendous impact. In 2015 
alone, the Coastal Program, along with 455 local partners, completed 
266 projects restoring or protecting more than 90,000 acres of wetlands 
and uplands and 194 miles of stream habitat. A recent estimate by USFWS 
Coastal Program staff shows that the program leverages, on average, $8 
non-Federal dollars for every Federal dollar spent. This makes the 
Coastal Program one of the most cost-effective habitat restoration 
programs within the U.S. Fish and Wildlife Service.
    The Coastal Program stimulates local economies by supporting jobs 
necessary to deliver habitat conservation projects, including 
environmental consultants, engineers, construction workers, surveyors, 
assessors, and nursery and landscape workers. These jobs generate 
indirect economic activities that benefit local hotels, restaurants, 
stores, and gas stations. In total, the Coastal Program estimates that 
the average project supports 60 jobs and stimulates 40 businesses 
resulting in nearly 13 dollars in economic returns for each dollar of 
Federal investment. Additionally, restoration jobs cannot be outsourced 
and $0.90 of every dollar spent on restoration stays within the State.
    In Puget Sound, Washington, the Coastal Program invested $20,000 to 
support a project to clean up and remove old and abandoned fishing gear 
from the water, resulting in a direct economic impact to the local 
economy of $51,000. Lost and abandoned fishing gear like nets, lines, 
crab and shrimp traps pose many problems for people, fish and marine 
animals. Each year, derelict crab pots are estimated to trap and kill 
372,000 Dungeness crabs, resulting in losses to the fishery of $1.2 
million--30-40 percent of the value of the annual commercial catch of 
Dungeness crab in Puget Sound. This project removed 84 gillnets--
preventing the loss of approximately 370,000 crabs and returning an 
estimated value of well over $1.5 million to the crab fishery alone.
    In San Diego Bay, California, the Coastal Program provided funding 
and technical assistance to project partners to restore 300 acres of 
wetland, mudflat, and upland habitat to benefit more than 90 species of 
resident and migratory birds. Project partners transformed highly 
degraded salt ponds into lush habitat by breaching levees, regrading 
soils, and planting native vegetation. Just days after the completion 
of the project, tens of thousands of birds descended on the newly-
restored habitat to rest, roost, and feed. Not only did this project 
restore a ``Globally Important Bird Area,'' as designated by the 
American Bird Conservancy, but it also created 130 jobs and generated 
$13.4 million for the local economy.
    At recent funding levels of approximately $13.3 million, the 
Coastal Program is able to provide technical assistance and support to 
partners, but can only provide limited project dollars. A modest 
increase over the President's budget request would help the Coastal 
Program increase their capacity to leverage willing and interested 
partners to deliver highly-effective habitat conservation and 
restoration programs that prevent Federal listing of species, promote 
species recovery, enhance coastal resilience, and boost local 
economies.
    Restore America's Estuaries urges your continued support and 
funding for the USFWS Coastal Program and asks that you provide $15 
million for fiscal year 2017.
                     usepa national estuary program
    The National Estuary Program (NEP) is a non-regulatory network of 
voluntary community-based programs that safeguards the health of 
important coastal ecosystems across the country. The program utilizes a 
consensus-building process to identify goals, objectives, and actions 
that reflect local environmental and economic priorities.
    Currently there are 28 estuaries located along the Atlantic, Gulf, 
and Pacific coasts and in Puerto Rico that have been designated as 
estuaries of national significance. Each NEP focuses its work within a 
particular place or boundary, called a study area, which includes the 
estuary and surrounding watershed.
    Each National Estuary Program demonstrates real environmental 
results through on-the-ground habitat restoration and protection. Their 
efforts reflect local environmental and economic priorities and involve 
the community as equal partners throughout the decisionmaking process. 
Collectively, NEPs have restored and protected more than 1.5 million 
acres of land since 2000.
    Restore America's Estuaries urges your continued support of the 
National Estuary Program and asks that you provide $27.2 million for 
USEPA National Estuary Program/Coastal Waterways. Within this amount 
for fiscal year 2017, no less than $600,000 should be directed to each 
of the 28 NEPs in the field.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs effectively accomplish on-the-ground restoration work 
which results in major benefits:

    1.  Economic Growth and Jobs.--Coastal habitat restoration creates 
between 17 and 33 direct jobs for each million dollars invested, 
depending on the type of restoration. That is more than twice as many 
jobs as the oil and gas sector and road construction industries 
combined. The restored area supports increased tourism and valuable 
ecosystem services, including flood mitigation, shoreline protection, 
and enhanced fisheries, among others.
    2.  Leveraging Private Funding.--In 2015, Federal investment in the 
USFWS Coastal Program leveraged non-Federal dollars at a ratio of 34 to 
1. The NEPs leveraged non-Federal dollars at a ratio of 15 to 1. In a 
time of shrinking resources, these are rates of return we cannot afford 
to ignore.
    3.  Resiliency.--Restoring coastal wetlands knocks down storm waves 
and reduces devastating storm surges before they reach the shore, 
protecting lives, property, and vital infrastructure for the nearly 40 
percent of Americans that live in coastal communities.

    We greatly appreciate you taking our requests into consideration as 
you move forward in the fiscal year 2017 appropriations process. We 
stand ready to work with you and your staff to ensure the health of our 
Nation's estuaries and coasts.
                                 ______
                                 
   Prepared Statement of the Riverside-San Bernardino County Indian 
                              Health, Inc.
    My name is Brandie Miranda Greany and I am a member of the Pechanga 
Band of Luiseno Indians and the Treasurer of Riverside-San Bernardino 
County Indian Health, Inc. Thank you for the opportunity to submit 
outside written testimony concerning the 2017 appropriations for the 
Indian Health Service.
    Riverside-San Bernardino County Indian Health is a consortium of 
nine tribes located in Riverside and San Bernardino counties. Our 
member tribes are the Pechanga Band of Luiseno Indians, the Cahuilla 
Band of Indians, the Santa Rosa Band of Cahuilla Indians, the Ramona 
Band of Cahuilla Indians, the Soboba Band of Luiseno Indians, the 
Torres-Martinez Desert Cahuilla Indians, the Agua-Caliente Band of 
Cahuilla Indians, the Morongo Band of Mission Indians, and the San 
Manuel Band of Mission Indians. We operate several health centers under 
a self-governance compact with the Indian Health Service and we are 
very proud of the vast array of services offered at our clinics, 
including medical, dental, optical, behavioral health, pharmacy, 
laboratory, environmental health, community health representative, and 
nutrition services.
    We serve over 15,000 Native Americans and 3,000 related family 
members, and experience over 100,000 patient visits each year. Our 
service area includes two of the largest counties in the contiguous 
United States, so our member tribes have joined together to develop a 
way to economically and efficiently provide healthcare services for our 
people. We also provide healthcare for three other local tribes: the 
Twenty-Nine Palms Band of Mission Indians, the Cabazon Band of Mission 
Indians, and the Augustine Band of Cahuilla Indians. Almost two-thirds 
of our patients come either from these three local tribes or from 
members of other non-consortium tribes who reside in our two-county 
service area.
    Given the number of patients we treat, our IHS dollars can only go 
so far. But we are thankful for the support of Congress and the funding 
provided to ensure our people are healthy. We were very appreciative 
that Congress heard our voices last year, and we hope that the 
subcommittee will continue to pressure IHS to honor the Government's 
trust responsibility to provide culturally competent and high-quality 
healthcare for Native Americans.
                      mandatory csc appropriations
    I want to take this opportunity to express my sincerest gratitude 
for this subcommittee's heroic work to achieve full funding for our 
compact with IHS. We were only able to find a path forward on this 
contentious issue because of the subcommittee's unrelenting 
determination to make full funding of Contract Support Costs (CSCs) a 
key priority in its work to uphold the trust responsibility and 
contractual obligations of the United States to our Native Nations.
    The subcommittee heard our request and included critical language 
moving CSC to a separate account and providing uncapped appropriations 
to ensure that our contracts would be fully honored. The subcommittee's 
action eliminates the threat from IHS--a threat realized in fiscal year 
2015--to cut direct care services in order to fully honor our 
contracts. Fortunately, this subcommittee took the steps necessary to 
protect tribal programs and services from this threat, and we agree 
with the subcommittee's approach for dealing with this issue.
    There is one aspect of the administration's new CSC language which 
we hope will be changed moving forward. At the agency's insistence, a 
proviso was included which addresses the tracking of unspent CSC funds. 
Unintentionally, this proviso will lead to serious problems, and it 
should be removed. First, it creates an extremely complicated 
accounting for those funds, with no value to the Federal Government, 
the taxpayer, or the tribes. Second, existing law (namely, the Indian 
Self-Determination Act of 1975) already addresses how to account for 
unspent funds and commands that such funds must be spent in the next 
year to carry out the compact or contract. Existing law has worked well 
for over 40 years, and we therefore strongly urge that the subcommittee 
remove this provision in fiscal year 2017 and future years.
    Lastly we respectfully request that the Committee direct the 
Secretary of Health and Human Services to promptly file her annual CSC 
shortfall reports. Reports have not been filed for fiscal year 2012-
2015, and the last data published for fiscal year 2011 is over 5 years 
old.
                          rpms computer system
    For decades, the Indian Health Service has utilized the Resource 
and Patient Management System (RPMS) computer system as both a practice 
management software and an electronic health record (EHR). It serves as 
the patient registration, scheduling, healthcare record, and population 
management tool, and also as the third party billing system. Although 
IT technology has rapidly transformed healthcare in the United States, 
the IHS RPMS system has failed to keep up. The Federal Government has 
invested billions to incentivize hospitals and providers to digitize 
health records, but IHS's RPMS computer system struggles to develop and 
make products available that are functional. The roll out to the users 
and the utility of the RPMS system lags far behind systems found in the 
private sector.
    In short, IHS's RPMS system is falling far behind standard 
healthcare industry requirements. It has always been cumbersome, but 
now is so difficult to use that our doctors are unable to document 
their services accurately, timely, or completely. This is a red flag 
that the patients and providers who depend on the IHS system of care 
are in serious jeopardy.
    IHS leadership insists that the RPMS shortcomings are caused by a 
lack of resources. This may be true. After all, the IHS budget for 
research and development is zero, while only $20 million was requested 
for IHS IT upgrades in 2017. The VA has 2,000 computer programmers, or 
more than 16 times the number of IHS programmers, compared to IHS's 120 
computer programmers. Worse yet, IHS has a 3-year backlog for user 
requests which grows every year. Simply stated, IHS has not invested 
adequate resources into the RPMS system and this failure is adversely 
impacting the ability of the tribes to provide healthcare services to 
Native Americans.
    The most recent disaster related to this issue was the failed 
implementation of the new ICD-10 codes that were to be in place last 
October 1, 2015. IHS was unprepared with the RPMS computer system and 
its roll out to tribes. Even more frustrating for the tribes is that 
IHS seems to be unable to correct these problems for many years to 
come. IHS states that it does not have the resources to make these 
changes within the next few years, yet it doesn't ask Congress for the 
necessary help to remedy the problem. This leaves the tribes in an 
untenable position.
    Today, tribes are left to their own solutions, which includes 
considering outside vendors to purchase an Electronic Health Record 
system that includes Patient Records, Dental, Optical, Pharmacy, 
Behavioral Health Services, Registration, Coding, and Billing. But 
these EHR software systems are very expensive, and most Tribes simply 
do not have the financial resources needed to purchase them. Most 
tribes have therefore been left with no choice but to keep the IHS RPMS 
computer system, despite its failure to properly transition to the 
required ICD-10 conversion.
    Overall, the impact to patient care is unacceptable, and the impact 
to program operations and the distribution of costs is untenable. 
Rather than invest in software solutions that would allow the programs 
to operate efficiently, the poorly designed RPMS system multiplies the 
cost of delivering healthcare. While America's healthcare industry is 
massively improving the functionality of EHR systems, IHS lags far 
behind and patient care is suffering.
    We recommend that this subcommittee direct IHS to purchase an 
outside Electronic Health Record (EHR) system that will bring the 
tribes into the 21st Century for medical recordkeeping. IHS must stop 
throwing good money into an old, out-dated RPMS system. IHS could spend 
millions to try to upgrade the RPMS over the next few years, but that 
effort is doomed to fail because the RPMS platform is simply ill-suited 
to today's demands. The far less costly option is to direct IHS to do 
an open market purchase of a modern-day EHR system. We recommend that 
the subcommittee direct that IHS provide an estimate and a spending 
plan for what it would cost to purchase and install such an EHR system 
within 90 days of enactment of the fiscal year 2017 appropriations 
measure and to include a funding request in the fiscal year 2018 budget 
for the agency.
    Thank you for affording us the opportunity to submit written 
testimony.
                                 ______
                                 
                 Prepared Statement of Mary C. Robinson
    Dear Senators:

    As an American citizen and taxpayer, I strongly oppose the BLM's 
proposal to conduct dangerous sterilization experiments on wild mares 
at the Wild Horse Corral Facility in Hines. According to the 
Environmental Assessment (EA), the BLM is deciding whether or not to 
proceed with one or more of the proposed sterilization procedures. The 
weight of scientific evidence and public opinion clearly supports a BLM 
decision NOT to proceed with any of these sterilization procedures.
    The sterilization procedures that BLM is proposing to conduct on 
federally protected wild mares are dangerous, costly and impractical 
for use in the field, due to the serious health risks they pose to the 
horses and their unborn foals, and also due to the great expense of 
purchasing the equipment and training the number of veterinarians 
necessary to implement these procedures on the range.
    It makes no sense to spend millions of taxpayer dollars on these 
risky invasive experiments when proven, humane, and relatively 
inexpensive fertility control technology in the form of the PZP vaccine 
is readily available but vastly underutilized by the BLM.
    The EA is completely inadequate in analyzing the impacts of these 
experimental procedures on mares. In addition, the BLM has deliberately 
avoided public opposition to this controversial and grotesque research 
proposal by skipping the scoping stage of the environmental analysis 
process. As a result, the public has been deprived of the opportunity 
to provide input into the impacts of and alternatives to these 
procedures that must be analyzed under the rules of the National 
Environmental Policy Act.
1.  Ovariectomy via Colposcopy
    This is an outdated and archaic procedure that has been supplanted 
by more modern laparoscopic surgery. The EA fails to analyze the 
impacts of and alternatives to this procedure to mares and never once 
mentions the availability of more modern techniques! This proposed 
sterilization experiment is an intra-vaginal complex surgical 
procedure, which is hardly ever performed in domestic horses (never 
mind in wild ones), due to its inherently dangerous risks.

  --The blind nature of this surgery increases the risk of intra-
        abdominal hemorrhage, but the EA never even addresses this 
        issue or the availability of more modern laparoscopic 
        techniques that allow the surgeon to visualize the abdominal 
        structures.
  --The lack of a sterile environment subjects the mares to a high risk 
        of infection, something that is ignored by the EA.
  --The procedure carries with it a significant risk of hemorrhage and 
        evisceration (protrusion of the intestines through the surgical 
        incision), which is why it requires strict follow-up care when 
        used in domestic horses, including pain relief and 4-7 days of 
        stall rest, the first 48 hours of which is spent in crossties 
        to prevent the mare from lying down. It is not possible to 
        provide this required post-operative care to wild mares, yet 
        the EA minimizes the impacts of this fact, citing the opinion 
        of an un-named veterinarian, instead of the published science 
        and National Research Council review, which clearly indicate 
        the risks and impacts of this outdated procedure on wild mares.
  --The procedure will cause mares in early stages of pregnancy to 
        abort their fetuses and may cause loss of pregnancy for mares 
        in the mid-stage of pregnancy as well. This is unacceptable.

    This pursuit of ovariectomy research is directly counter to the 
recommendations of the National Academy of Sciences National Research 
Council (NRC) in its 2013 report, ``Using Science to Improve the BLM 
Wild Horse and Burro Program: A Way Forward.'' That NRC report 
concluded that: ``The possibility that ovariectomy may be followed by 
prolonged bleeding or peritoneal infection makes it inadvisable for 
field application.''
2.  Minimally Invasive Sterilization Techniques
    The other sterilization procedures that BLM proposes to research, 
while less invasive than ovariectomy, should also be abandoned due to 
the inability to provide post-operative care and the impracticality of 
implementing these procedures--which have never before been done in 
wild or domestic horses--on a broad scale in a field setting. The EA 
fails to analyze the impacts of precedent-setting procedures that have 
never before been performed in horses, and as well as the inability to 
provide required post-operative care. The EA also omits analysis of the 
economic impacts and practicalities of implementing these procedures on 
the range.
    In proceeding with these experiments, the BLM has ignored the NRC 
recommendation that these techniques should first be perfected in 
domestic mares, who can be easily handled and will be accessible for 
close monitoring and post-operative care, before attempting them in 
wild horses.
    It is unconscionable that the BLM is proceeding with these 
draconian experiments that endanger the lives of the un-consenting 
equine subjects and their unborn foals, particularly when a proven non-
invasive and safe fertility control method exists in the readily 
available PZP birth control vaccine. Instead of wasting millions of tax 
dollars to fund experiments on inhumane and impractical sterilization 
experiments, the agency should instead focus resources on vaccinating 
sufficient numbers of mares with the PZP fertility control vaccine, 
which is documented through 30 years of experience and published 
science, to be safe, effective, cost-effective and successful in 
managing wild horse populations.
    Again, as a taxpayer and wild horse lover, I am outraged that the 
BLM is even considering pursuing such inhumane, barbaric and wasteful 
experimentation on wild horses and I find the BLM's Environmental 
Analysis of its impacts to be woefully inadequate. As a result, I 
strongly urge the BLM to abandon these proposed experiments in favor of 
using proven, more cost-effective and humane fertility control methods.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    On behalf of the Sac and Fox Nation thank you for the opportunity 
to present our requests for the fiscal year 2017 budgets for the Bureau 
of Indian Affairs (BIA), the Indian Health Service (IHS), and for 
Tribal Environmental Funding. The Sac and Fox Nation is home of Jim 
Thorpe, one of the most versatile athletes of modern sports who earned 
Olympic gold medals for the 1912 pentathlon and decathlon.
    The Nation supports and appreciates the President's fiscal year 
2017 budget proposal for an overall increase of 5 percent for BIA over 
the fiscal year 2016 enacted level to provide for a total of $2.9 
billion dollars. In turn, the Indian Health Service (IHS) would receive 
a little more than a 13 percent increase bringing the total IHS budget 
up to $5.2 billion dollars.
    Moreover, It is extremely important to express our support of the 
President's treatment of Contract Support Costs (CSC) as it relates to 
tribal nations. The President's budget provides for a total of $278 
million for the BIA and $800 million for the IHS to fully fund the 
contract support costs incurred by government contacts. This is a good 
step in the right direction and provides a substantial increase of $87 
million in total over the 2016 appropriations. This increase is 
critical to meet the demand for the full payment of contract support 
costs for all of the Nations who are owed a trust responsibility by the 
United States.
    In general, all tribal programs including BIA and IHS line items 
should be exempt from any budget recessions and discretionary funding 
budget reductions. Further, the Nation is extremely concerned about the 
consequences of the 2013 sequestration and similar future reductions to 
tribal program funding. We strongly urge Congress to fully restore 
sequestration cuts from fiscal year 2013 since it threatens the trust 
responsibility and reduces portions of the budget that are not major 
contributors to the deficit.

                        TRIBAL SPECIFIC REQUESTS

I. NATIONAL REQUESTS--BUREAU OF INDIAN AFFAIRS
    1.  Authorize mandatory funding and fully fund Contract Support 
Costs (CSC).--The President's budget request for contract support costs 
is $278.0 million, providing a dramatic increase from the fiscal year 
2017 enacted level. This amount is similar to the $277 million 
recommended in fiscal year 2016 President's budget which was not fully 
enacted. The second piece of this ongoing budget proposal is to request 
that strong consideration and support be given to the long term 
proposal made by the President's budget which would, beginning in 2018, 
reclassify contract support costs as mandatory funding separated from 
the rest of the appropriations. This proposal was also included in the 
fiscal year 2016 proposal but has not yet been approved. We strongly 
urge you to consider that proposal and approve what has been presented 
by the President on this particular issue because Contract Support 
Costs has been a major and ongoing issue for the better part of a 
decade. It is time to put the issue to rest by providing enough funding 
and creating the mandatory funding classification.
    2.  Public Safety and Justice--Law and Order--Detention/
Corrections: Fully fund all provisions of the Tribal Law and Order Act 
of 2010 and the Tribal Provisions in the Violence against Women Act 
Reauthorization.--The Tribal Law and Order Act of 2010 and the Violence 
Against Women Act Reauthorization of 2014 were substantial and 
effective pieces of legislations which changed the face of tribal 
courts, tribal justice and tribal jurisdiction. The Sac and Fox Nation 
is proud to have embraced these significant changes to provide a better 
quality of justice to our jurisdiction. Accordingly, we have enacted 
the expanded jurisdiction and penalty enhancement provisions into our 
own laws and started a campaign for awareness to help promote reporting 
of crimes that may have a serious effect on our Native Women and 
Children. However, the funding levels for these significant advances 
have consistently fallen short of the needs. Each year, we have an 
approximate incarceration budget of $12,000. This budget is eaten up 
time and again when a person is convicted because we do not have our 
own facilities or access to Bureau of Prison Facilities to house the 
inmates. Instead, we rely on our county facilities who charge us a rate 
of $33-$78 dollars per day to house a prisoner. At these costs, our 
annual budget is eaten up in a flash. With a lack of funding, we are in 
the same position we were before our abilities were expanded because we 
cannot house those persons we convict.
          Moreover, in putting the provisions of the Violence Against 
Women Reauthorization of 2014 in place, we now have serious burdens on 
the tribal justice programs which were not originally present. We must 
provide for bar licensed public defenders in any case where a non-
indian has come under our jurisdiction. This is both costly and, on 
occasion, prohibitive to our process because we are not funded enough 
to have a full time public defender on call whenever there is a need. A 
serious increase in funding is required in this arena to help ensure 
that the intent expressed by Congress in enacting these provisions is 
met. Without an increase in funding, there is no hope of these programs 
succeeding and taking the burden of these prosecutions off the State or 
U.S. Attorneys.
    3.  Restore 2013 Sequestered Cuts ($119 million) to Tribal Program 
Funding
    4.  Office of Self-Governance (OSG)--Provide increased funding to 
the OSG to fully staff the office for the increase in the number of 
tribes entering Self-Governance.
II. NATIONAL REQUESTS--INDIAN HEALTH SERVICE
    1.  Authorize mandatory funding and fully fund Contract Support 
Costs (CSC).--The President's fiscal year 2017 budget proposal fully 
funds the estimated need for CSC at $800 million, a significant 
increase over the levels of funding from fiscal year 2016. The 
estimated increase includes funding for new and expanded contracts and 
compacts. The budget also requests that CSC be reclassified to a 
mandatory appropriation beginning in fiscal year 2018. We at the Sac 
and Fox Nation strongly urge you to consider allocating all the 
requested funds in this area and making these appropriations mandatory 
and separate in the future. Our health and the access of our Native 
People to healthcare is a serious and major concern all around Indian 
Country. It is always prominent for us because we have so many people 
in rural communities who need greater access to medical care. Fully 
funding contract support costs and making them mandatory serves to take 
pressure off tribal nations who have a lack of certainty in their 
medical services when they are not sure if the funding will be there or 
not. When there is certainty, it allows programs like ours to expand 
both services and locations to provide better care within reach of our 
people.
    2.  Restore 2013 Sequestered Cuts ($220 Million) to Tribal Health 
Services;
    3.  +$377 million over the fiscal year 2016 President's proposal 
budget for IHS Mandatory Funding (maintain current services and improve 
access to healthcare).--Mandatories are unavoidable and include medical 
and general inflation, pay costs, contract support costs, phasing in 
staff for recently constructed facilities, and population growth. 
Providing the increase in funding in this area is critical to the 
provision of preventive care and addressing the growing issues tribal 
nations are having with aging populations and diabetes. We also 
strongly encourage you to consider and approve this increase to provide 
tribal nations with a level of funding that is necessary to maintain 
care of the millions of members who come to our clinics. It is critical 
to remember that we care for the medical needs of these patients from 
start to finish. Their vision, dental and medical services are seen to 
with our funds. If they need a specialist or surgery for a critical 
issues, we contract out those services and make sure that they are 
getting what they need and have a continuity of care that will give 
them certainty and improve their quality of life. Funding is critical 
to meet all the demands in this area;
    4.  Restore $6 million to the Office of Tribal Self-Governance 
(OTSG) to fulfill legal requirements under Title V of Public Law 106-
260 which increased the responsibilities of OTSG.
III. NATIONAL REQUEST--ENVIRONMENT ISSUES
    1.  Tribal General Assistance Program (GAP).--The Presidents fiscal 
year 2017 budget provides for the much needed increase in the GAP 
Funding. It sets the level of funding for this program at $96.4 million 
from the EPA which is a dramatic increase of $31 million over the 
fiscal year 2016 funding levels. The EPA has decided to enforce a new 
interpretation of the General Assistance Program (GAP) which prohibits 
tribal nations from using any GAP money from being used for labor, 
handling, sorting, weighting and transportation of waste and 
recyclables. This means that the tribal nations recycling programs are 
in jeopardy because there will no longer be funds to carry out these 
functions. These programs benefit the tribal complexes but also provide 
for drop off points for members and the community along with special 
community outreach events dealing with e waste and other recyclables. 
Specifically, we would like to ask for a reversal of this 
interpretation or a line item dedicated to funding recycling 
departments work to allow these programs to continue. $10,000 would be 
sufficient.
    2.  Funding for Tribal Capacity to Regulate by Building Sanitation 
Facilities.--The President's fiscal year 2017 budget proposal provides 
that $103 million dollars be allocated, through the EPA, to assist 
tribal nations in building out their capacity and infrastructure for 
health and environmental regulation. This money is currently being 
proposed for the construction of sanitation facilities. I bring this up 
on behalf of the Sac and Fox Nation because we are one of the tribes 
that may be directly affected by this funding. It is desperately 
needed. Currently the SFN is not able to receive a large amount of 
funding because there are not houses located on or around our complex. 
The reason that homes have not been located here is the toxic water 
which was polluted by oil companies. Our land was used for years by oil 
companies, like Tenneco, in an unsafe manner. Their leakage of 
chemicals in the ground water made it highly toxic. A state that is 
unlikely to be naturally cleared up for another 100 years. Because of 
that, our entire complex has to run from water pumps on other pieces of 
property which get transmitted to a water tower. Should our pumps go 
down for any reason, our complex would be completely without water. 
Moreover, In order to build homes on our land, we need to have a waste 
water treatment plan that could service our community. However, the SFN 
is subject the ``midnight rider'' restrictions which force us to go 
through the State system and allows the State to monitor all of our 
environmental issues. We would like to ask for action on that midnight 
rider which is a direct attack on our sovereignty and for funding to 
make this treatment plants construction, operation and training 
possible.
    3.  Allowing Tribal Nations to Compact with the EPA Under ISDEAA 
Title VI.--Similar to the new legislation allowing tribal nations to 
compact and directly receive funds for transportation, we need to be 
able to compact for the EPA programs and funding with an appropriate 
compact that would allow us the flexibility to put the monies allocated 
on environmental issues to the best use in our areas without 
interference from the States or the Federal bureaucracies.
IV. TRIBAL SPECIFIC REQUEST--$4.95 Million to Fully Fund Operations of 
        the Sac and Fox Nation Juvenile Detention Center (SFNJDC)--
        Bureau of Indian Affairs--Public Safety and Justice--Office of 
        Justice Services--Detention/Corrections Account
    In 1996, the Sac and Fox Nation Juvenile Detention Center (SFNJDC) 
opened its doors as the first regional juvenile facility specifically 
designed for American Indians/Alaska Natives, as well as the first 
juvenile facility developed under Public Law 100-472, the Self-
Governance Demonstration Project Act.
    At that time, the Bureau of Indian Affairs made a commitment to 
fully fund the SFNJDC operations; however this commitment was never 
fulfilled. Even though the Nation continues to receive and use Federal 
dollars to address the issue of juvenile delinquency and detention for 
tribes in the Southern Plains Region and Eastern Oklahoma Region, it 
has never received sufficient funds to operate the facility at its 
fullest potential.

    Full funding would allow the Nation to provide full operations 
including (but not limited to):

  --Juvenile detention services to the 46 tribes in Oklahoma, Kansas 
        and Texas;
  --Rescue more of our at-risk youth and unserved youth in need of a 
        facility like the SFNJDC;
  --Re-establish programs we have lost due to inadequate funding such 
        as: On-site Mental Health Counseling; Transitional Living, 
        Vocational Training, Horticulture, Life Skills, Arts and 
        Crafts, Cultural Education and Activities, Spiritual Growth and 
        Learning;
  --Offer job opportunities in an area that is economically depressed; 
        and,
  --Fully staff and expand staff training to address high volume of 
        staff turnover which will allow for continuity in operations 
        and service delivery.

    At the fiscal year 2016 Regional Budget Formulation Session, these 
tribes continue to support and endorse full funding for operation of 
the SFNJDC and included it as a priority in their ``Top 10 Budget 
Increases'' for the fiscal year 2016 BIA Budget.
    The current funding level represents only approximately 10 percent 
of what is needed to fully fund the Juvenile Detention Center 
operations and maintenance. Additional funding in the amount of $4.95 
million, over what Sac and Fox already receives in base funding 
($508,000), would fully fund the facility at a level to address the 
need of juvenile delinquency in the tristate area and create 
opportunities for employment for more tribal members.
    The SFNJDC is a 50,000+ square foot, full service, 24 hour, 60 bed 
(expandable to 120 beds) juvenile detention facility that provides 
basic detention services to all residents utilizing a classification 
system based on behavioral needs to include special management, medium 
and minimal security. Our facility was designed to provide programs 
including behavioral management, alcohol and substance abuse, spiritual 
and cultural growth and learning, self-esteem, arts and crafts, health 
and fitness, horticulture, nutrition, life skills, vocational technical 
training, counseling, educational programs and a Transitional Living 
Center.
    Through a partnership with the local high school, students are 
afforded an education at the public school level, including a 
graduation ceremony and issuance of a certificate upon successfully 
achieving the State requirements. Additionally, the Sac and Fox Nation 
has an on-site Justice Center providing Law Enforcement and Tribal 
Court services and the Nation also operates an on-site health clinic 
which provides outstanding medical services that include contract 
service capabilities for optometry, dental and other health-related 
services.
    The lack of adequate funding from the BIA and decreases in base 
funding have mushroomed into underutilization and erosion of the 
programs our facility was built to offer. Our current funding levels 
only allow us to provide an alcohol and substance abuse program, some 
health and fitness activities and a basic education program. We have 
lost our programs for vocational training, horticulture, life skills, 
arts and crafts, on-site counseling and transitional living. The 
passage of the 2010 Tribal Law and Order Act was applauded by the Sac 
and Fox Nation because we saw this as an opportunity for the Federal 
Government to finally step up to its pledge to fully fund the SFNJDC 
and honor its treaty and trust obligations to our people. However, the 
lack of funding is also impeding the implementation of TLOA!
    In 1996, the SFNJDC was built as a model facility in Indian 
Country. And nearly 20 years later there is still a need for such a 
facility to help our youth return to their traditional healing and 
spiritual ways. As a Self-Governance Tribe we operate our tribal 
government on the premise that we are the best provider of the services 
and know which services are most needed in our communities. We saw the 
increasing need in the 1990's for a facility like the SFNJDC and we 
acted on our instincts to help our youth by giving them a place to turn 
their lives around and the access to programs, services and holistic 
care they needed to recover and heal. Sadly, the number of Native 
American youth, and juveniles overall requiring detention has not 
decreased. The Sac and Fox Nation Juvenile Detention Center was built 
with the same intentions as the Tribal Law and Order Act Long Term Plan 
to Build and Enhance Tribal Justice Systems today. The SFNJDC has the 
facility, staffing, ability, commitment and capacity to provide 
superior detention and rehabilitation services to Native American 
youth, as well as any youth in the tristate area in need of our 
services. We do not understand the Federal Government's desire to fund 
the construction of more detention facilities while our beds remain 
empty.
    Thank you for allowing me to submit these requests on these fiscal 
year 2017 budgets.

    [This statement was submitted by Hon. Chief Kay Rhoads, Principal 
Chief.]
                                 ______
                                 
  Prepared Statement of the Shoshone-Paiute Tribes of the Duck Valley 
                              Reservation
    My name is Lindsey Manning. I am Chairman of the Shoshone-Paiute 
Tribes of the Duck Valley Indian Reservation. Thank you for inviting 
outside witness testimony concerning the fiscal year 2017 budget for 
the BIA, BLM and IHS. The Shoshone-Paiute Tribes are grateful for the 
Senate appropriations subcommittee's long standing support of Indian 
tribes and for sharing its understanding of Indian Country with your 
Senate colleagues.
    The Duck Valley Reservation is a large, rural and very remote 
reservation that straddles the Idaho-Nevada border. It encompasses 450 
square miles in Elko County, Nevada and Owyhee County, Idaho. The 
reservation is 140 miles from Boise, Idaho, and 100 miles from Elko, 
Nevada. Many of our 2,000 tribal members make their living as farmers 
and ranchers, though a number of them are employed by the tribes. We 
assume most duties of the BIA and IHS under self-governance compacts, 
although the BIA continues to provide law enforcement and detention 
services on our reservation.
    In too many instances, however, our success in these areas is 
largely dependent on Federal appropriations which, in turn, determine 
whether economic and social conditions on the Duck Valley Indian 
Reservation improve or worsen. While we contribute tribal resources to 
these endeavors as best we can, we look to our Federal partner for 
support. If we fall short in available funding, our members suffer. For 
this reason, we support the President's fiscal year 2017 budget request 
for the Bureau of Indian Affairs (BIA), Bureau of Land Management (BLM) 
and Indian Health Service (IHS). Without sustained growth in these 
Federal programs, we cannot meet the needs of our reservation. We 
encourage this subcommittee to build on the proposed increases in the 
President's budget for these essential tribal programs.

    Our priorities for fiscal year 2017 include:

    1. Increase BIA Road Maintenance Program funds (Eastern Nevada BIA 
Roads Program of the Western Regional Office).--We respectfully ask for 
at least a $9 million increase in the BIA Road Maintenance Program from 
within planned increases to the Indian Affairs budget so that the BIA 
Eastern Nevada Agency Roads Department may purchase a road grader, 
backhoe and 10-wheel dump truck. The 1980's blade road grader has 
broken down again and needs replacing. Likewise, the 1980's backhoe is 
also outdated and parts are a challenge to find. The employees are 
embarrassed to haul the backhoe in for repairs when needed because it 
is so old and worn (40 years old--like the grader). They need a dump 
truck because they do not have one. A modern 10-wheel dump truck is 
needed. Our region has the largest percentage of BIA-owned roads at 21 
percent. The program increase we request will help our region 
tremendously.
    Even the administration acknowledges in its fiscal year 2017 Budget 
Justification that current Road Maintenance Program appropriations 
allow the BIA and tribes to maintain only 16 percent of BIA-owned roads 
in ``acceptable'' (fair or better) condition. That leaves no money to 
purchase equipment or improve the road condition of poor and failing 
public BIA-owned roads.
    The BIA Eastern Nevada Agency covers the roads maintenance need for 
the 600 miles of public roads on the Duck Valley Reservation and the 
road maintenance needs on the Goshute Indian Reservation, the South 
Fork Reservation, Wells Colony, Battle Mountain Colony and the Elko 
Colony. All these Indian lands and public roads are hundreds of mile 
apart and cover all the area of north eastern Nevada. Increased Road 
Maintenance funding will improve road safety.
    The BIA Eastern Nevada Agency is responsible for the roads of the 
colonies and reservations. The Colonies and South Fork Reservation 
receive funds from the Agency for tending to maintenance needs as best 
as possible (only approx. $70,000 total for all annually), which is 
woefully inadequate. The BIA Roads crew is called upon to maintain the 
roads through asphalt and gravel patch work in the summer and snow 
removal in the winter months. This year the blade broke down and is 
still in need of repairs--which are constant.

    2. Increase funding for the BIA Public Safety and Special 
Initiatives Program.--The BIA struggles to provide adequate law 
enforcement on our remote reservation. For that reason, we don't 
understand the administration's proposal to cut Public Safety and 
Justice funding. We need more police and corrections officers, yet the 
administration proposes only a $9,000 increase for the Indian Police 
Academy budget of $4.8 million. Nor do we understand how a cut of $4 
million to the Public Safety and Justice programs advances capacity 
building among tribes to improve law enforcement and tribal justice. We 
are one of three tribes in a pilot program funded under the BIA's ``Law 
Enforcement Special Initiatives'' program. Under this program, we 
receive $250,000 in additional recurring funding to reduce recidivism 
on the Duck Valley Reservation. The Special Initiatives program is 
essentially funded at the same level for fiscal year 2017 as it was for 
fiscal year 2016. If we are to address public safety, we need more 
police, tribal courts and adequately staffed and operated detention 
centers.
    We further urge the subcommittee to include statutory language to 
make clear that ``Law Enforcement Special Initiatives'' funds may be 
used for the purchase or lease of temporary trailers or modular units 
to house personnel associated with law enforcement, corrections, 
probation, tribal courts and other professionals serving tribal 
offenders. For rural communities like Duck Valley, housing is often the 
linchpin to program success. This request will give us the flexibility 
we need to use Special Initiatives funding for housing law enforcement 
personnel.

    3. Fund the Owyhee Initiative within the Bureau of Land Management 
(BLM).--The Owyhee Initiative is a joint effort by ranchers, 
recreationalists, county and State officials, and the Shoshone-Paiute 
Tribes to protect, manage and appropriately use public lands in Owyhee 
County, Idaho. In 2009, Congress passed the Omnibus Public Land 
Management Act, Public Law 111-1. Since 2010, we have worked jointly 
with BLM to protect cultural resources and increase public 
understanding and appreciation of these resources. Increased 
recreational use and encroachment by Boise residents within the Owyhee 
River Wilderness Area and other Federal lands, however, place these 
resources under stress. Let us help understaffed BLM officials.
    One-time BLM funding a number of years ago allowed us to purchase 
two Cessna planes and ATV equipment and hire one Chief Ranger and a 
Cultural Resources Director to patrol public lands and report 
violations of cultural and religious sites to BLM officials. We work 
closely with BLM and Owyhee County officials to coordinate compatible 
recreation use within BLM lands in Owyhee County, especially within the 
wilderness areas where we seek to protect cultural resource sites 
important to our tribes. The Ranger and Director also spot and report 
wildfires to BLM officials before the fires can do great damage to 
sensitive, remote public lands.
    We seek recurring BLM funds to continue this important work to 
protect cultural sites and establish a Reserve Ranger Program to engage 
tribal youth in cultural and related activities during the summer. The 
Chief Ranger and Cultural Resources Director are near retirement and it 
is essential that we hire and train replacement staff, including a 
pilot, to continue their important work for our tribes. We need funds 
to hire an Assistant Director, one adult Tribal Ranger and two part-
time Youth Rangers, train a qualified applicant as an additional pilot, 
purchase two more ATVs and two camp trailers to permit tribal personnel 
to remain in the field and overhaul the two Cessna planes per FAA 
regulations. We are currently constructing a hanger at the Owyhee 
Airport to centralize our operation and increase surveillance flights 
over Owyhee County. We contribute nearly 50 percent of the required 
budget but cannot sustain this important program without Federal 
support. Our plan requires $600,000 to fully fund the above activities.
    We also support the administration's $1.0 million increase for BLM 
Cultural Resources Management and other BLM accounts used to manage and 
protect archaeological and historic properties on public lands. BLM 
lands contain the remnants of campsites, villages, hunting blinds and 
rock inscriptions that tell the story of the Shoshone-Paiute and other 
tribes. After speaking with Shoshone-Bannock Tribal officials, together 
with northern tier Nevada tribes (including the Te-Moak, Battle 
Mountain, South Fork and Goshute tribes), we seek BLM funds to form a 
tribal work group to spread best practices for cultural resources 
management and protection that we have learned over the last 20 years. 
We would be a good candidate for a BLM grant. It would be a wise 
investment to fund a multi-tribal task force to propose and design 
strategies for on the ground protection of Native American cultural 
resources for the Upper Great Basin and High Plateau of the tri-State 
area of Nevada, Oregon and Idaho.

    4. Telecommunications (fiber optics).--The tribes continue to need 
fiber infrastructure over five miles for connectivity among Fish, 
Wildlife & Parks, Tribal Headquarters, Detention Center, Fire Station 
and the Owyhee Community Health Facility. The health center serves as 
the Wide Area Network (WAN) hub for the tribes' and health center's 
computer network. Connectivity among these facilities and programs 
would alleviate the long-term monthly recurring cost we pay to an 
Ethernet Circuit provider ($96,000 annually). We require $500,000 in 
Federal funding to construct new fiber networks and cover construction 
inspection fees. We do not have BIE-funded schools on Duck Valley so 
our children will not benefit from the administration's $16.7 million 
increase to extend broadband to BIE schools. We urge the subcommittee 
to increase appropriations within the BIA and IHS budgets so that Duck 
Valley can improve our telecommunications networks. Education IT is not 
the only program in need of an upgrade.

    5. East Fork Owyhee Salmon Steelhead Recovery and Reintroduction 
Project.--We seek to permanently return Chinook salmon and steelhead 
trout to Duck Valley through an innovative ``trap-and-haul'' program. 
Dam construction along the Columbia and Snake Rivers eliminated salmon 
from our reservation for 87 years. Duck Valley is unique in that it 
supports two major tributaries to the Snake River. In 2014, we financed 
a pilot study that found that habitat in the East Fork of the Owyhee 
River supports a summer rearing capacity of between 3,300 and 43,000 
juvenile steelhead trout and from 3,600 to 41,000 Chinook salmon. This 
summer, we returned 200 Chinook salmon to Duck Valley and spear fished 
nearly all of them. It was a joyous event to have salmon return to the 
reservation. With $210,000 in funding for the next 3 years we can 
complete our habitat surveys of the East Fork Owyhee River, including 
obtaining data on non-summer river conditions, as well as an assessment 
of the Bruneau River habitat.
    We propose to transport adult fish from Lower Granite Dam or Hells 
Canyon Dam and release the fish above China Dam into the East Fort 
Owyhee River to spawn. Emigrating juvenile fish would later be captured 
and released downstream from passage carriers on the Snake River to 
complete their migration to the Pacific Ocean. Adult salmon originating 
from the East Fork Owyhee River would later be captured in the lower 
Snake River and transported upstream.
    We urge the Senate subcommittee to support the President's $24 
million increase to the BIA's Trust-Natural Resources Management 
program budget, including the Tribal Management/Development Program and 
Fish, Wildlife & Parks program. Tribes contract a significant part of 
the Natural Resources Management funds. An increase to the BIA's budget 
can help us with this innovative project to return salmon and steelhead 
trout to the Duck Valley Reservation.

    6. Native Plant Program/Greenhouse.--In cooperation with BLM, the 
tribes gather, propagate and make available seed and other native plant 
materials that are indigenous to the region. Through a series of 
assistance agreements with BLM, we built three greenhouses and are 
growing seedlings (including sagebrush and bitterbrush seedlings) for 
planting on adjacent public lands. This program assists BLM and other 
agencies in their efforts to restore lands damaged by wildfires and 
helps employ tribal members. For fiscal year 2017, we seek funding to 
build a facility to house equipment to dry, clean and store seed and 
hire part-time greenhouse staff to focus on marketing and finances. We 
plan to have 80,000 containerized grasses and shrub seedlings available 
for sale, together with willow and other riparian plant cuttings and 
local vegetables for sale and distribution through our ``Honor Our 
Elders'' program. We seek Interior Department appropriations of 
$205,000 over the next 5 years to expand our program and be a reliable 
supplier of native plants and seedlings on BLM-managed public lands.

    7. IHS.--We fully support the President's fiscal year 2017 budget 
increase of $377 million to the Indian Health Service (IHS), especially 
in the area of clinical services, including Purchased/Referred Care, 
Contract Support Costs (CSC) and facilities construction. We also 
support the administration's request to shift CSCs to a ``mandatory'' 
appropriation but would want to ensure that the shift is permanent in 
nature.

    We urge the Senate appropriations subcommittee to build on the 
President's fiscal year 2017 budget request to meet tribal health and 
safety needs that strengthen our community. Thank you for affording the 
Shoshone-Paiute Tribes the opportunity to submit written testimony.
                                 ______
                                 
     Prepared Statement of the Skokomish Tribe of Washington State
    The Skokomish Tribe would like to thank the subcommittee for the 
opportunity to present written testimony on the fiscal year 2017 
appropriations for the Interior Department, Indian Health Service and 
Environmental Protection Agency.
    The Skokomish Indian Tribe is responsible for providing essential 
governmental services to the residents of the Skokomish Indian 
Reservation. We are a rural community located at the base of the 
Olympic Peninsula with a population of over 2,000 people, including 
approximately 700 tribal members. The tribe provides services through 
various departments including Tribal Administration, Community 
Development, Information Services, Early Childhood Education (including 
Head Start), Education, Health Clinic, Housing, Legal, Natural 
Resources, Public Safety, Public Works, and Tuwaduq Family Services. 
Adequate Federal funds are critical to the tribe's ability to address 
the extensive unmet needs of our community.
                      i. bureau of indian affairs
    Law Enforcement.--The Skokomish Department of Public Safety (SDPS) 
provides 24/7 law enforcement services for the tribe. SDPS is 
responsible for patrolling and enforcing justice both within the 
tribe's 5,300-acre reservation, and throughout the tribe's 2.2 million-
acre treaty area where the tribe has treaty-protected hunting, fishing 
and gathering rights.
    Today, 7 officers are available for day-to-day patrol duties. As a 
result, individual officers are spread far too thin over an 8-hour 
shift and often work alone. During the salmon harvest season, SDPS must 
post officers simultaneously at several on and off reservations sites. 
Some of these sites require multiple officers. This taxes staffing 
levels dramatically and exposes both community members in need of 
assistance and SDPS officers to increased risks of harm. Unfortunately, 
this is a daily reality for SDPS officers. To meet mandated 
responsibilities, we must increase staffing. Vacancies due to illness, 
training and other leave continue to force the Chief of Police to 
respond to calls for service and to fill patrol shifts. A very active 
Community Policing program suffers as budget limitations severely 
restrict overtime and officer availability. With the limited amount we 
receive as a self-governance tribe, we have to use tribal funds to hire 
the 6 officers we use for regular patrol and natural resource 
enforcement.
    Thus, the tribe urges the subcommittee to appropriate additional 
funding for criminal investigations and police services. The BIA has 
requested essentially level funding in this program when the need 
throughout Indian Country is far greater.
    Tribal Courts.--We are deeply concerned that the BIA has proposed 
an $8.2 million cut in tribal court funding for tribes in Public Law 
280 States. For too long the BIA failed to provide funding to tribes in 
Public Law 280 States and we suffered from a lack judges, prosecutors, 
defense attorneys and probations officers. Last year, Congress 
recognized this deficiency and provided $10 million for the first time 
to address our need. We urge Congress to maintain this funding level in 
fiscal year 2017. With regard to the fiscal year 2016 funding, we are 
concerned that the BIA has yet to engage in consultation with tribes as 
to how this funding will be allocated. We have heard that one proposal 
the BIA is considering is to use this funding to build capacity within 
the BIA. We would urge the subcommittee to tell the BIA to develop a 
plan to allocate the fiscal year 2016 funds to a greater number of 
tribes and not keep it for itself.
    The Skokomish Tribal Court handles several different kinds of 
cases. These include Civil, Criminal and Indian Child Welfare cases. 
The tribal court distinguishes four kinds of criminal cases: Juvenile, 
Fishing, Traffic and other criminal cases. As of January 1, 2015, there 
were 11 open Juvenile Criminal cases, 51 open Criminal Traffic cases, 
65 open fishing cases, and 68 open General Criminal cases. Indian Child 
Welfare cases include Child in Need of Care cases and Guardianships 
(long-term). In February 2016, the tribe passed revisions to the ICW 
ordinance and passed a new School Attendance ordinance. The school 
attendance ordinance focuses on efforts to encourage school attendance 
and enforce mandatory attendance requirements. The new ordinance 
includes provisions to bring matters to tribal court for enforcement. 
This means more cases will be filed in tribal court. As of January 1, 
2016, the tribal court has 31 active Child in Need of Care cases and 53 
active Dependency cases.
    Natural Resources.--We strongly support the President's proposal 
for funding Trust-Natural Resources Management programs. Increased 
funding to foster sustainable stewardship and development of natural 
resources and support fishing, hunting and gathering rights on and off-
reservation is essential to our people who depend on natural resources 
for their livelihood.
    Fish hatchery maintenance and fish hatchery operations funds are 
invaluable for supporting the Federal Government's investment in tribal 
hatcheries. Most tribal hatcheries are underfunded and each year brings 
more decay to the facilities. Adequate funding for hatchery maintenance 
is imperative to prevent these important pieces of the salmon 
restoration puzzle from crumbling away. Because of habitat destruction, 
the only reason we continue to have salmon for treaty-harvest 
activities is through the operation of salmon hatcheries. Congress 
cannot allow the main pillar of this all important treaty right to take 
a reduction in funding. We urge Congress to increase funding for this 
critical tribal program.
    A few years ago the tribe was able to cobble together a wildlife 
program consisting of one biologist and one technician. The program is 
partially funded by Timber, Fish, and Wildlife funds of about $41,000, 
with the tribe scratching to find the remaining $82,000. Wildlife 
grants are few and far between because the focus is so much on salmon. 
We obviously cannot reduce salmon funding; rather, the United States 
must be less myopic and realize that tribes also need wildlife program 
funds not only to support biologists, but additional funding is 
required to dedicated wildlife enforcement officers who will not only 
enforce the tribes' regulations, but ensure that poaching of the 
wildlife resources does not occur from outside entities who sometimes 
fail to recognize tribal treaty rights. We request additional funds for 
tribes in the Stevens Treaty Areas to have a base wildlife program 
funding in the amount of $240,000. Without a more robust program, the 
wildlife populations will continue to decline.
    The tribe has been under attack by shellfish growers who blatantly 
steal the treaty-protected oyster and clam resources in Hood Canal. It 
is imperative that the Federal Government provide monetary support so 
the tribe may increase its enforcement presence and seek reparations 
though the courts. As with wildlife, shellfish issues are often 
overlooked because of the popularity of salmon, but the availability of 
this equally important resource to the tribe is dwindling and action 
must be taken now to prevent a further decline. We suggest an increase 
to allow for each ``Bolt'' tribe an additional $250,000 for shellfish 
management and rights protection in fiscal year 2017. This would allow 
for additional population surveyors, harvest monitors, and enforcement 
officers.
                       ii. indian health service
    The Skokomish Tribe supports the President's fiscal year 2017 
budget proposal for an overall funding increase of $402 million for the 
Indian Health Service. We support the increase of $82 million for 
contract support costs. This is a major victory for tribes and the 
support of the Congress and administration is greatly appreciated. The 
next step is to adopt a permanent funding policy that is not overly 
complex and burdensome for tribes.
    We operate a small ambulatory health program with a staff of 28 
people. As a tribally run clinic, we provide direct care services as 
well as purchased/referred care, formerly known as contract healthcare. 
Our health program integrates medical, dental, and behavioral health 
services (mental health and substance use disorder) and we are 
therefore very supportive of the $21.4 million request to support the 
integration of these services. We have identified a need to support the 
full implementation of Electronic Health Records (EHR) as part of this 
effort and hope these funds will support that endeavor. This year we 
will begin to provide some mental health services using the Indian 
Health Service's Tele-Behavioral Health Center of Excellence and are 
glad to see the continued funding for this program.
    We fully support the budget's request of $48 million increase for 
Purchased and Referred Care. For the current fiscal year, Congress was 
not able to increase funding for the program and now we are forced to 
reduce referrals due to medical inflation costs.
    We are pleased to see the funding increase ($15 million) under the 
Gen-I (Generation Indigenous) initiative with increased funding for 
youth substance abuse and suicide prevention. We continue to see the 
effects of heroin use and opioid abuse in all ages at an alarming rate. 
The Skokomish Tribe struggles to find the resources to adequately 
address the treatment and long term needs of those members struggling 
with addiction. We see the need for more long term treatment facilities 
to address the needs of individuals who can benefit from such treatment 
programs so that they may continue their journey of wellness far beyond 
the current 30 to 45 day in-patient treatment process. This short-term 
stay is often not adequate time to be healed from addiction and our 
tribal members often return to the community only to re-establish their 
old habits and slip back into addiction. If the tribe is to reduce 
recidivism and spare tribal youth from witnessing self-destructive 
behavior, Congress must provide greater resources to programs with a 
proven track record of success.
    We support the small ambulatory facility increase of $10 million 
since this is the only IHS funding that Northwest Tribes have access to 
due to the current facilities priority system that favors larger health 
programs.
               iii. tribal historic preservation programs
    In 1995, Congress began encouraging tribes to assume historic 
preservation responsibilities as part of self-determination. These 
programs conserve fragile places, objects and traditions crucial to 
tribal culture, history and sovereignty. As was envisioned by Congress, 
more tribes qualify for funding every year. Paradoxically, the more 
successful the program becomes, the less each tribe receives to 
maintain professional services, ultimately crippling individual tribal 
programs. Interior anticipates there will be 155 tribes operating the 
program in fiscal year 2017 with each tribe receiving less than 
$55,000. This amount is barely enough to fund one position. We support 
the $2 million proposed increase for this important program.
                  iv. environmental protection agency
    We concur with the National Congress of American Indians (NCAI) and 
the request to permanently lift the funding cap on the Clean Water 
State Revolving Fund Tribal Set-Aside for wastewater facilities. The 
Skokomish Tribe needs approximately $12 million to fully build our core 
reservation wastewater plant which will service approximately 85 
percent of the on-reservation housing. The tribe has had to put on hold 
design of the Core Reservation Wastewater Treatment plant until we can 
identify possible funding sources.
                 v. contract support costs--bia and his
    We fully support a permanent, indefinite appropriation for contract 
support costs that ensures full funding for contract support costs 
without the reduction of direct services to any tribe.
                       vi. generation indigenous
    We have placed a high emphasis on our youth and their education. 
Through collaborative efforts by our departments and with other tribes, 
we have been able to sponsor culture camps, sports and leadership 
camps, and other positive activities that allow our youth to experience 
various activities. We are proud that this year we have 13 tribal and 
community members who are working steadfastly to graduate from our 
local high schools while being active in extra-curricular activities. 
We support the White House initiative to improve the lives of Native 
Youth who are our future.
    In 2008, the National Congress of American Indians, the National 
Indian Health Board, the National Indian Education Association, the 
National Indian Child Welfare Association, and the National Council of 
Urban Indian Health created a joint policy initiative. The initiative 
proposed specific recommendations to improve the social, emotional, 
mental, physical, and economic health of children and youth, allowing 
them to achieve their learning and developmental potential. Using the 
First Kids 1st strategies and recommendations, the tribe has put 
together a workgroup to identify areas where programs can assist tribal 
families. The workgroup provides data and ideas to the tribe's grants 
writers to research possible funding sources to implement new programs 
to help families and youth. Thank you for affording the Skokomish Tribe 
the opportunity to submit written testimony.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters
    The Society of American Foresters (SAF), with 12,000 professionals 
representing all disciplines in the forestry profession, promotes 
science-based, sustainable management and stewardship of the Nation's 
public and private forests. SAF appreciates this opportunity to submit 
written public testimony on fiscal year 2017 appropriations because 
sufficient funding for the USDA Forest Service (USFS) and the 
Department of Interior (DOI) is vital to conserving and improving the 
health and productivity of our Nation's forests.
    The American public relies on the 751 million acres of public and 
private forests in the United States to provide clean and abundant air 
and water, forest products, fish and wildlife habitat, recreational 
opportunities, forage and range resources, energy, and scenic beauty. 
Managing these legacy resources for multiple uses and important 
ecosystem services is increasingly difficult with the unprecedented 
threats posed by wildfire, drought, insects, disease, and invasive 
species. Maintaining a balance demands that land managers and partner 
organizations work together to identify innovative ways to maximize 
values and improve the health of our forests.
    SAF's priorities in the fiscal year 2017 budget process impact a 
range of programs within USFS and DOI. Recognizing fiscal constraints, 
these requests will assist forest managers in sustaining our Nation's 
forests and providing a multitude of benefits for generations to come.
                           saf top priorities
    1.  Adopt a long-term solution to wildfire suppression funding 
that: (1) allows access to disaster funding; (2) minimizes budget 
transfers; and (3) addresses the compounding erosion of agency budgets 
over time, with the goal of reinvesting in key programs that would 
restore forests to healthier conditions.
    2.  Increase funding levels for USFS Forest and Rangeland Research 
to no less than $303 million, with no less than $83 million for the 
Forest Inventory and Analysis Program.
    3.  Support Bureau of Land Management Public Domain Forestry and 
Oregon & California Railroad Grant Lands funding levels at no less than 
$10 million and $113.7 million, respectively.

    SAF is the premier national scientific and educational organization 
representing forestry and related natural resources professionals in 
the United States. Founded in 1900 by Gifford Pinchot, SAF is the 
largest professional society for foresters in the world. Our members 
include public and private sector natural resource professionals, 
researchers, CEOs, administrators, educators, and students. Just as 
forests are fundamental to our Nation, so too are the professionals who 
study, manage, and protect these precious resources. SAF is eager to 
work with Congress, Federal agencies, and partners to identify 
reasonable solutions to increase the pace and scale of management on 
Federal lands, find new ways to work with private landowners, keep 
forests as forests, incentivize active management, and deliver 
practical innovations to meet future challenges and market demands.
    SAF is pleased with the administration's continued commitment to 
increasing the pace and scale of management on Federal lands with a 
USFS harvest target of 3.2 billion board feet for fiscal year 2017. 
However, with up to 82 million acres in the National Forest System 
(NFS) still in need of restoration, SAF urges this subcommittee to 
encourage the agency to use all available tools to implement more 
projects on Federal lands. USFS can work with rural communities, 
partners, and industry through collaboratives and other partnerships to 
meet management goals outlined in forest plans and possibly exceed 
expectations. New authorizations in the 2014 Farm Bill have the 
potential to facilitate quicker responses to areas devastated by 
insects and disease, expand the use of Stewardship Contracting, and 
take advantage of Good Neighbor Authority and other mechanisms that 
work across boundaries to achieve shared objectives. In addition, 
increased investments in NFS Forest Products, Capital Improvement and 
Maintenance, and the Collaborative Forest Landscape Restoration Program 
could also help to restore more watersheds and support thriving local 
communities.
    Likewise, SAF encourages this subcommittee to recognize the 
importance of USFS State and Private Forestry (S&PF) programs. The 
Urban and Community Forestry, Forest Stewardship, Forest Health 
Management, and Landscape Scale Restoration programs provide important 
technical and financial assistance to private landowners and the 
resource managers responsible for managing more than 60 percent of 
America's forests. Investments in these programs are leveraged by 
landowners and local organizations, and help to build healthy and 
thriving forest resources that benefit all citizens and communities 
across the Nation.
                       saf budget recommendations
    While wildfires predominantly threaten western landscapes and 
communities, the financial impacts weigh heavily on our whole Nation. 
All agencies and programs funded through the Interior appropriations 
bill suffer as wildfire suppression costs continue to rise under the 
current funding model. The rolling 10-year average has not met annual 
suppression cost needs since before fiscal year 2002, and the resulting 
shortfalls--both anticipated and actual-- significantly disrupt 
important forest management projects across the country. We are 
thankful to the subcommittee for full transfer repayment and increased 
suppression funding in fiscal year 2016. However, agencies and first 
responders need a long-term solution that results in stable and 
predictable budgets. SAF respectfully requests a solution that: (1) 
allows access to disaster funding; (2) minimizes transfers; and (3) 
addresses the compounding erosion of agency budgets over time, with the 
goal of reinvesting in key programs that would restore forests to 
healthier conditions.
    A comprehensive approach to averting wildfire threats and improving 
forest resilience is imperative. The Hazardous Fuels and Fire Risk 
Management line items in the USFS and DOI budgets are integral to 
restoring forest health and reducing the costs of wildfire suppression. 
Through restoring and maintaining fire-resilient landscapes and 
communities, these programs support the goals of the National Cohesive 
Wildland Fire Management Strategy. SAF appreciates this subcommittee's 
consistent support for wildfire management and encourages it to 
allocate funds to address wildfire risks inside and outside the 
wildland urban interface. While fuels treatments in and around 
communities and infrastructure are important for the protection of life 
and property, recent research suggests that backcountry treatments are 
equally important to prevent large and destructive wildfires.\1\ In 
addition to preventing and mitigating wildfire risks, these programs 
serve as an important source of jobs, especially in rural communities, 
and expand markets for the use of biomass residuals as renewable energy 
through efforts like the USFS Woody Innovations Grant Program. SAF 
supports funding the USFS Hazardous Fuels Program at $479 million and 
DOI Hazardous Fuels and Resilient Landscapes at $178 million. We also 
ask that the subcommittee include report language encouraging Federal 
agencies to coordinate their fuels plans with other planning efforts 
such as State forestry and conservation plans to facilitate cross-
boundary activities and increase the effectiveness of this program.
---------------------------------------------------------------------------
    \1\ ``The Efficacy of Fuels Treatments: A Rapid Assessment of the 
Economic and Ecological Consequences of Alternative Hazardous Fuel 
Treatments'', Northern Arizona University Ecological Restoration 
Institute, May 2013.
---------------------------------------------------------------------------
    Investments in forestry research are essential for the future 
health and sustainability of the Nation's forests. Although this 
testimony focuses on USFS Forest and Rangeland Research programs, SAF 
also recognizes and supports the full array of forestry research 
efforts led by the Bureau of Land Management, US Fish and Wildlife 
Service, US Geologic Survey, and others including land-grant 
institutions and other universities. USFS Research and Development 
(USFS R&D) research conducted at the five USFS research stations, the 
International Institute of Tropical Forestry, and in the Forest 
Products Laboratory is undeniably important--functioning as an 
incubator for new products and ideas; exploring forest ecosystem 
disturbance response and forest resilience; responding to shifting 
social demands and demographic changes; quantifying the contributions 
of forests to air and water quality; and driving practical innovation. 
In many cases without USFS leadership, investigation of these critical 
research needs would be left unfulfilled. Having clear and relevant 
research can also help build consensus on management actions, which 
allows for more efficient allocation of resources to on-the-ground work 
if debates over scientific uncertainties and litigation of proposed 
actions can be avoided.
    If forest research capacity in the U.S. continues to decline, SAF 
is concerned that forest managers will not be properly equipped to meet 
tomorrow's challenges with current science and technical information. 
Continuing the trend of reductions in the USFS R&D budget will result 
in significant gaps in knowledge and mismanagement of resources at a 
time of unprecedented threats posed by wildfire, drought, insects, 
disease, and invasive species. SAF supports a funding level of $303 
million for USFS R&D, with particular emphasis on prioritization of 
research projects uniquely suited to R&D expertise furthering agency 
and partner objectives.
    SAF strongly supports the funding increase suggested for the USFS 
R&D Forest Inventory and Analysis (FIA) program. FIA is the backbone of 
U.S. forestry--providing the only national census of forests across all 
ownerships. Through FIA, USFS (partnering with State forestry agencies, 
universities, and the private sector) collects and analyzes forest data 
to assess trends on issues such as forest health and management, 
fragmentation and parcelization, and forest carbon sequestration. The 
data and information collected by FIA serves as the basis for: 
identifying trends in forest ownership; assessing fish and wildlife 
habitat; evaluating wildfire, insect, and disease risk; predicting the 
spread of invasive species; determining capital investment in existing 
forest products facilities and selecting locations for new forest 
product facilities; and identifying and responding to priorities 
identified in State Forest Action Plans. The critical need for current 
information about the condition of our forests, with greater emphasis 
on the role of forests in maintaining and improving air quality, 
underlies the need for FIA program capacity to be increased in fiscal 
year 2017 and beyond. SAF requests additional investment in FIA with a 
funding level of at least $83 million and urges the subcommittee to 
ensure that this increase not come at the expense of other research 
programs, and provide direction for future increases to allow the 
program to keep pace with ever-growing and diverse information needs.
    SAF is concerned with the administration's restructuring of the 
Joint Fire Science Program (JFSP). As proposed, the JFSP would no 
longer receive $6.9 million in funding from the Wildland Fire 
Management budget line item, and would instead receive $3 million in 
support from the USFS R&D Inventory and Monitoring line item. This 
shift results in a significant decrease of 3.9 million in program 
funding. The proposed cuts would negatively impact the research done in 
collaboration with over 200 Federal agency, university, and 
nongovernmental partners. Diverting funds from the already constrained 
USFS R&D budget will reduce JFSP effectiveness, limit cross-deputy area 
interaction, and hinder exploration of fire research questions 
important to the USDA, DOI, and partner organizations. SAF urges the 
subcommittee to restore the JFSP funding level to $6.9 million under 
Wildland Fire Management.
    In closing, SAF is encouraged by the recognition of the important 
work of the BLM Public Domain Forestry (PD) program with a funding 
increase in the President's budget and extension of the Forest 
Ecosystem Health and Recovery Fund authorization through 2020 in the 
2015 Omnibus Appropriations Bill. However, SAF is concerned with the 
proposed funding reduction for the Oregon & California Railroad Grant 
Lands (O&C). Though the resource-intensive management plans for the O&C 
will be released soon, SAF encourages this subcommittee to appropriate 
robust funding to support efficient and effective plan implementation 
and monitoring, and help the agency address the administrative and 
legal challenges that almost always accompany new management plans. SAF 
supports the funding level of $10 million for the PD program and $113.7 
million for the O&C program. We also urge this subcommittee to extend 
authorization of the Forest Ecosystem Health and Recovery Fund beyond 
2020.
    Thank you for your consideration of these important requests. SAF 
and its extensive network of forestry and natural resources 
professionals stand ready to assist with further development and 
implementation of these efforts and ideas.
                                 ______
                                 
           Prepared Statement of the Southcentral Foundation
    My name is Douglas Eby and I am the Vice President of Medical 
Services at Southcentral Foundation (SCF). SCF is a tribal organization 
that compacts with the Secretary of Health and Human Services under 
Title V of the Indian Self-Determination Act (ISDA) to provide primary 
care services to Alaska Native patients within the Anchorage area and 
throughout the region. SCF acts pursuant to tribal authority granted by 
Cook Inlet Region, Inc., an Alaska Native regional corporation 
designated by Congress as an Indian tribe for contracting purposes 
under the ISDA.
    Thank you for the opportunity to testify on behalf of the 
Southcentral Foundation and the 150,000 Native American people we 
serve. For more than 25 years SCF has carried out Indian Health Service 
(IHS) programs under ISDA agreements. SCF provides medical, dental, 
optometry, behavioral health, and substance abuse treatment services to 
over 52,000 Alaska Native and American Indian beneficiaries living 
within the Municipality of Anchorage, the Matanuska-Susitna Borough to 
the north, and nearby villages. SCF also provides services to an 
additional 13,000 residents of 55 Alaska villages covering an area 
exceeding 100,000 square miles. Finally, SCF provides statewide 
tertiary OB/GYN and pediatric services for approximately 150,000 Alaska 
Native people. To do all this, SCF employs 2,000 people.
    SCF requests that in fiscal year 2017 Congress (1) focus on general 
IHS program increases especially related to Purchased and Referred 
Care; (2) support increases in behavioral health including funding for 
the Substance Use and Suicide Prevention Program (currently called the 
Methamphetamine and Suicide Prevention Initiative); (3) clarify these 
programs are entitled to contract support costs when operated by 
tribes; and (4) support existing language for fully funding contract 
support costs, while removing a disruptive ``proviso'' from the bill.
    IHS has divided its budget request into two parts: (1) an 
additional $159 million for current services to fully fund medical 
inflation and pay raises, and to partially fund population growth, and 
(2) $89.7 million to fund specific program increases, including a $48 
million increase in purchased and referred care. While we support all 
these increases, Purchased and Referred Care (PRC) is especially 
important in the continuum of services we currently offer. When one of 
our patients needs specialty care outside our capacity, we use PRC 
funding to contract with outside clinics and hospitals to provide the 
service. Although we strive to provide as many services as possible 
within SCF, we still rely on non-SCF providers. Unfortunately, PRC 
funding does not keep pace with the rising costs of healthcare in other 
systems. As a result, sometimes we are unable to provide the necessary 
care. We encourage the subcommittee to support the PRC increase.
    SCF also strongly supports the proposed Substance Use and Suicide 
Prevention Program (combining the Methamphetamine and Suicide 
Prevention Initiative and the Domestic Violence Prevention Initiative.) 
These initiatives provide crucial support for our efforts to combat two 
blights that disproportionately afflict our community. At SCF we 
implemented the Family Wellness Warriors Initiative to provide a means 
for organizations and individuals to effectively address the spiritual, 
emotional, mental and physical effects of domestic violence, abuse and 
neglect. MSPI and DVPI funding has been critical to SCF's success in 
this area.
    On a related note, SCF also strongly supports the President's 
requested increases for behavioral health, especially given our focus 
on youth. As the subcommittee knows, SCF's Pathway Home is a voluntary, 
comprehensive, and individualized mental health program for adolescents 
from 13 to 18 years old. Its mission is to create a loving and 
supportive community environment where Alaska Native children can 
develop into independent, service-minded and productive leaders. 
Referrals come from a variety of sources, including clinicians, case 
managers, social workers, counselors, parents, teens or State agencies. 
The Pathway Home team of clinicians and employees helps youth improve 
their mental and behavioral health, physical and spiritual wellness, 
and academic and/or vocational skills. Through a combination of 
individual, group and educational settings, youth learn healthier 
methods of managing their behavior, handling conflict and anger, 
progressing in their recovery, and improving relationships with family 
members.
    Another youth-focused program is our RAISE Program, which provides 
opportunities for on-the-job work experience in a setting focused on 
Alaska Native cultural values. RAISE is designed to develop leadership 
skills in Alaska Native and American Indian youth, and offers summer, 
winter and graduate sessions. Each session exposes participants to 
health-related careers and workplace expectations, while supporting 
youth in both personal and professional development. The President's 
proposed behavioral health increases will enable RAISE and Pathway to 
continue making progress with our Alaska Native youth.
    One aspect of the MSPI/DVPI (or new Substance Use and Suicide 
Prevention Program) that warrants special discussion concerns how these 
funds are currently handled. Congress first appropriated MSPI funds in 
2008, and first appropriated DVPI funds in 2009. Congress directed that 
both of these funds should go to the areas that needed them the most, 
and IHS distributed these funds to contracting and compacting tribes 
and tribal organizations through amendments to each tribe's ISDA 
contract or compact. These amendments always occurred late in the 
fiscal year, long after the CSC appropriations had already been spent, 
so the agency always recognized the tribe's CSC need associated with 
these programs but it could never actually pay that need. But 2 years 
ago, just when full CSC funding became a reality, IHS changed course 
and declared that these programs were ``special initiatives'' for which 
contract support costs were not available. This cost us hundreds of 
thousands of dollars. Almost as badly, IHS stopped adding these funds 
to our compact and started issuing a separate grant with its own 
reporting and accounting rules. So now the program is more even costly 
and complicated to run, and still we receive no contract support cost 
dollars. All this is deeply contrary to both the spirit and the letter 
of the Indian Self-Determination Act. We join many other tribes in 
asking the subcommittee to eliminate the ``notwithstanding'' clause and 
direct IHS to treat these funds just like other IHS program funds 
operated under the ISDA.
    Finally, SCF wants to specially thank this subcommittee for all the 
good work you have done to make history on fully funding contract 
support costs. We applaud your success in creating a separate CSC 
account in the 2016 Omnibus, and in providing an indefinite 
appropriation so that CSC will always be fully funded without 
threatening other programs. These two steps ensure that the Nation will 
not be jeopardizing other important health services in order to fully 
pay for CSC, as mandated by statute and affirmed by the Supreme Court. 
Southcentral Foundation deeply appreciates the stance you have taken on 
CSC to fully honor the United States' contractual obligations to tribes 
and organizations like ours. SCF is committed to providing health 
services on behalf of IHS at a level that far exceeds the quality of 
what the agency provides directly, and we appreciate that the 
subcommittee is equally committed to honoring the Government's 
contractual obligations to SCF.
    I do need to point out one accounting problem created by the 
Appropriations Act's inclusion of a new ``proviso'' addressing the 
tracking of unspent contract support cost funds. This proviso makes 
accounting for those funds far more complex than it was, without any 
countervailing benefit to the Federal Government. It is also 
unnecessary, because existing law already addresses unspent funds and 
requires that those funds must be spent in the following year to carry 
out the contract. Existing law is sufficient, and the proviso about 
unspent funds should therefore be removed in fiscal year 2017.
    On a related note, we also respectfully request that the 
subcommittee direct the Secretary of the Health and Human Services to 
promptly file all late Contract Support Cost Shortfall Reports. The 
last report to Congress on this matter covered fiscal year 2011 and is 
more than 5 years old. This information is not only critical; it is 
congressionally mandated by section 106(c) of the Indian Self-
Determination Act.
    Thank you again for the opportunity to provide testimony on behalf 
of Southcentral Foundation and the 150,000 people we serve.
                                 ______
                                 
 Prepared Statement of the Southeast Alaska Regional Health Consortium
    My name is Charles Clement and I serve as the President/CEO for the 
Southeast Alaska Regional Health Consortium (SEARHC). I am honored for 
the opportunity to provide testimony about SEARHC's priorities for the 
fiscal year 2017 appropriations for the Indian Health Service, and I 
thank Chairwoman Murkowski, Ranking Member Udall, and all members of 
the subcommittee for the opportunity to do so.
    SEARHC is an inter-tribal consortium of 15 federally recognized 
tribes situated along the southeast panhandle of Alaska. Our service 
area stretches over 35,000 square miles, and with no roads connecting 
many of the rural communities we serve, we work hard to provide quality 
health services to our communities. These services include medical, 
dental, mental health, physical therapy, radiology, pharmacy, 
laboratory, nutritional, audiology, optometry and respiratory therapy 
services. We also provide supplemental social services, substance abuse 
treatment, health promotion services, emergency medical services, 
environmental health services and traditional Native healing. We 
provide these services through a network of community clinics and the 
Mt. Edgecumbe Hospital located in Sitka, Alaska.
    The urgent healthcare needs across Indian Country are well known 
and the challenges in meeting those needs are heightened in areas like 
southeast Alaska where communities are isolated and transportation and 
facilities costs are high. SEARHC applauds the administration for 
recognizing these needs by increasing the IHS budget. It is vital that 
these increases be preserved. But even these increases will not be 
enough to allow SEARHC and other tribal organizations to meet the 
healthcare needs of the people we serve. We will meet these challenges, 
but to do so we will need your help.
                           facilities funding
    Our greatest need is for increased facilities funding. We have 
repeatedly reported to this subcommittee on this topic, and another 
year of use has only increased those needs. At 67 years old, the Mt. 
Edgecumbe Hospital is the oldest facility in Alaska and one of the 
oldest in the Nation. It was constructed toward the end of World War II 
by the War Department and focused largely on tuberculosis treatment 
through the 1950s. The hospital is in poor condition and ill-suited to 
a 21st century model of healthcare dominated by primary and ambulatory 
care facilities. Replacing or repairing Mt. Edgecumbe should be a 
priority, together with developing a critical access hospital to serve 
the Prince of Wales Island communities (including Craig and Klawock).
    According to IHS's Facilities Engineering Deficiency System, the 
cost to update SEARHC's facilities alone is $29,600,000. And we are not 
unique. Estimates place IHS facilities funding needs at $8.13 billion, 
a number that keeps rising because IHS lacks sufficient funding to 
maintain these facilities. We do our best to patch the problem, but the 
bottom line is that without adequate facilities, SEARHC cannot provide 
adequate services.

    We request the Committee do four things.

    Replace aging IHS facilities. We need a commitment from Congress to 
start replacing aging IHS facilities. This will require reordering the 
current facilities priority list, which was created on a first come, 
first served basis. All rankings should be based on true need.
    Increase facilities funding in the current budget proposal. The 
President's budget contains modest funding increases for facilities 
needs, totaling $46.7 million. This proposed increase, while welcome, 
would address only a tiny fraction of the $8.13 billion needed. 
Similarly, the President's budget proposal for increasing Maintenance 
and Improvement funds by $3.4 million for a total of $77 million in M&I 
funding fails to address the overwhelming need. With the critical 
maintenance backlog of $467 million, this means that $390 million of 
critical maintenance is not going to be addressed. We strongly 
encourage the subcommittee to increase the facilities funding in the 
IHS budget.
    The Indian Health Care Improvement Act (IHCIA) renovation program. 
We recommend the subcommittee provide funding for tribally renovated 
IHS buildings, pursuant to section 1634 of the IHCIA. The IHCIA allows 
tribes to renovate IHS facilities and authorizes IHS to provide 
staffing and equipment for the newly renovated structure. However, 
Congress has never funded this program. We strongly urge the 
subcommittee to realize the promise of this program by providing $10 
million to fund it. We would be delighted to do an Alaska demonstration 
project for this new initiative.
    Joint Venture Projects. The JV project provides IHS funds to staff 
facilities built with tribal funds. SEARHC submitted a proposal in the 
most recent Joint Venture project funding round. Despite receiving a 
very high score, our proposal to build a facility on Prince of Wales 
Island was not selected. And in fact, of the 37 applications submitted, 
only 13 were put on a list to eventually receive funding. The fact that 
qualified projects were not selected is evidence that the need for such 
facilities far outstrips IHS's ability to enter into these agreements.
    Our situation is a good example. Currently, our hospital in Sitka 
serves people living as far away as Klawock. Travel to Sitka requires a 
lengthy combination of automobile, ferry, and airplanes and takes at 
least a day and often is an overnight trip. If weather is bad, as it 
often is in southeast Alaska, it can take even longer. The only 
alternative are costly air ambulance flights. We proposed to construct 
a Critical Access Hospital in Klawock. This would have strengthened the 
primary care service in the area, while for the first time also 
offering complex diagnostic services and acute and emergency care to 
one of the remotest, most rural areas of the Nation. Despite this 
substantial need for these services, our project was rejected.
    In order to provide funding for this project, as well as the other 
JV projects that were not selected in the last round, we urge this 
subcommittee to support IHS's effort to enter into more Joint Venture 
Agreements.
                         contract support costs
    In recent years, much progress has been made on the issue of 
contract support costs, thanks in large part to this subcommittee. 
Congress's decision to fully fund contract support costs since 2014 
recast the issue from one of contention to one of cooperation. Further, 
last year's work to create a new account for CSC to ensure that other 
critical programs are not impacted by this mandatory obligation only 
strengthens the relationships between tribal organizations and the 
Federal Government. We know it is because of this subcommittee's work 
that this has happened and we thank you for it.
    Last year's contract support cost language creating a new account 
was ground breaking, and we applaud the subcommittee for its foresight, 
leadership and creativity in finding a workable solution within a 
difficult budget environment. This year, we only ask that the 
subcommittee not repeat the proviso concerning carryover funds because 
it is counter to existing law. The proviso directs that CSC amounts 
that are not expended by a tribe in the current fiscal year be applied 
to contract support costs otherwise due in subsequent fiscal years. 
This language should be deleted because the Indian Self-Determination 
Act already addresses the use and disposition of unexpended contract 
and compact funds. The proviso conflicts with that language and also 
creates unnecessary and complicated accounting issues. For these 
reasons, the proviso is unnecessary and should be discontinued.
    Finally, we once again urge the subcommittee to include language in 
the appropriations act making clear that IHS must pay contract support 
costs on MSPI and DVPI program funds. Despite years of acknowledging 
that CSC are due on these program funds, IHS recently reversed course 
and required tribes to cover CSC costs with program funds. This is 
contrary to Congress's clear directive in the Indian Self-Determination 
Act. There is no reason these programs should be treated any 
differently than any other program within the Indian Health Service.
    Thank you for the opportunity to present to the Committee on 
SEARHC's priorities.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the Tribal Leadership and citizens of the Squaxin 
Island Tribe, it is an honor to provide our funding priorities and 
recommendations for the fiscal year 2017 budgets for the Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS). Squaxin Island 
Tribe requests that tribal program funding throughout the Federal 
Government be exempt from future sequestrations, rescissions and 
disproportionate cuts.
    We applaud the subcommittee for its foresight, leadership and 
creativity in seeking a long-term resolution to fully fund Contract 
Support Cost (CSC). Although full funding in 2014 and 2015 was risky 
and did impact some other tribal funding, in the fiscal year 2016 
enacted spending bill you included an estimated amount to fully fund 
the needs. We support the proposed fiscal year 2017 CSC full funding 
for both BIA and IHS and the inclusion of separate CSC accounts for 
both. Unfortunately, a proviso in the fiscal year 2017 proposed budget 
regarding the use and disposition of unexpended CSC contract and 
compact funds presents a problem and is contrary to current law. The 
Indian Self-Determination and Education Assistance Act (ISDEAA) address 
this issue and we ask that you hear from tribes in advance of acting on 
this proposal. We have made great strides with CSC and it would defeat 
your intentions to resolve this matter without fully realizing how 
complicated and misleading this provision can be to the progress you 
have made to date.

THE FISCAL YEAR 2016 SQUAXIN ISLAND TRIBAL SPECIFIC REQUESTS:
    1.  $500,000 Shellfish Management Program--BIA
    2.  $2 Million to Build and Operate an Oyster and Clam Nursery for 
Southern Puget Sound--BIA
    3.  $1.5 Million Increase for Northwest Indian Treatment Center 
(NWITC) Residential Program in IHS

THE FISCAL YEAR 2016 SQUAXIN ISLAND REGIONAL REQUESTS:
    1.  +$4.7 million increase for Rights Protection
    2.  Fully support the budget requests from the Affiliated Tribes of 
Northwest Washington (ATNI) and the Northwest Portland Area Indian 
Health Board (NPAIHB) and the Northwest Indian Fisheries Commission

NATIONAL REQUESTS AND RECOMMENDATIONS--BUREAU OF INDIAN AFFAIRS
    1.  +$1 million increase over 2016 enacted level of $277 million to 
fully fund CSC
    2.  Authorize reclassification of BIA CSC to Mandatory [Permanent] 
Funding beginning in fiscal year 2018
    3.  +$5 million increase Sustainable Stewardship/Natural Resources
    4.  +$30.9 million increase for Tribal Priority Allocations to be 
provided via tribal base funding agreements
    5.  +$4 million for Native One-Stop to leverage Federal resources 
for tribes
    6.  Fully fund all the provisions of the Tribal Law and Order Act 
of 2010 and the Violence Against Women Act

NATIONAL REQUESTS AND RECOMMENDATIONS--INDIAN HEALTH SERVICE
    1.  +$82 million increase for CSC above fiscal year 2016 enacted 
level
    2.  Authorize reclassification of IHS CSC to Mandatory [Permanent] 
Funding beginning in fiscal year 2018
    3.  +$482.4 million IHS Mandatory Funding (maintaining current 
services)
    4.  +$42 million increase for Purchased and Referred Care (PRC)

    Squaxin Island Tribes supports the Regional Budget Priorities of 
the Northwest Indian Fisheries Commission, the Affiliated Tribes of 
Northwest Indians and the Northwest Portland Area Indian Health Board.
    Squaxin Island Tribe supports the National Budget Priorities of the 
National Congress of American Indians and the National Indian Health 
Board.

SQUAXIN ISLAND TRIBE BACKGROUND
    We are native people of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and the 
tribe is a signatory to the 1854 Medicine Creek Treaty. We were one of 
the first 30 federally recognized tribes to enter into a Compact of 
Self-Governance with the United States.
    Our treaty-designated reservation, Squaxin Island, is approximately 
2.2 square miles of uninhabited forested land, surrounded by the bays 
and inlets of southern Puget Sound. Because the Island lacks fresh 
water, the tribe has built its community on roughly 26 acres at 
Kamilche, Washington purchased and placed into trust. The tribe also 
owns 6 acres across Pickering Passage from Squaxin Island and a plot of 
36 acres on Harstine Island, across Peale Passage. The total land area 
including off-reservation trust lands is 1,715.46 acres. In addition, 
the tribe manages roughly 500 acres of Puget Sound tidelands.
    The tribal government and our economic enterprises constitute the 
largest employer in Mason County with over 1,250 employees. The tribe 
has a current enrollment of 1,040 and an on-reservation population of 
426 living in 141 homes. Squaxin has an estimated service area 
population of 2,747; a growth rate of about 10 percent, and an 
unemployment rate of about 30 percent (according to the BIA Labor Force 
Report).

TRIBAL SPECIFIC REQUESTS JUSTIFICATIONS:
1. $500,000--Shellfish Management
    The Squaxin Island Tribes faces a budget deficit to maintain and 
operate the shellfish program at the current level. To effectively grow 
and develop the program, an annual minimum increase of $500,000 to 
address the shortfall and ensure the continuance of this program is 
requested.
    Shellfish have been a mainstay for the Squaxin Island people for 
thousands of years and are important today for subsistence, economic 
and ceremonial purposes. The tribe's right to harvest shellfish is 
guaranteed by the 1854 Medicine Creek Treaty. It is important to 
remember that these rights were not granted by the Federal Government. 
They were retained by the tribe in exchange for thousands of acres of 
tribal lands. On December 20, 1994 U.S. District Court Judge Edward 
Rafeedie reaffirmed the tribe's treaty right to naturally occurring 
shellfish. Rafeedie ruled that the tribe(s) has the right to take up to 
50 percent of the harvestable shellfish on Washington beaches.
    The Squaxin Island Natural Resources Department (SINRD) is charged 
with protecting, managing and enhancing the land and water resources of 
the tribe, including fish and shellfish habitat and species. In so 
doing, the Department works cooperatively with State and Federal 
environmental, natural resources and health agencies. The shellfish 
management work of the SINRD includes working with private tideland 
owners and commercial growers; surveying beaches; monitoring harvests; 
enhancing supply (prepping, seeding, monitoring beds) and licensing and 
certifying harvesters and geoduck divers. We estimate that 20 percent 
of treaty-designated State lands and 80-90 percent of private tidelands 
are inaccessible to us due to insufficient funding.
    In fiscal year 2011, the shellfish program represented only 
$250,000 of the $3.3 million budget. The result is we are unable to 
fully exercise our treaty rights due to lack of Federal support for 
shellfish.
2. $2 Million--Build and Operate an Oyster and Clam Nursery for 
        Southern Puget Sound
    In the past few years, problems with seed production have developed 
in the shellfish industry. These problems have been primarily caused by 
weather and or other environmental factors, and their effects on the 
industry have resulted in the lack of viable and large enough seed for 
growers. The Squaxin Island Tribe recognizes that it is uniquely 
positioned to develop a new nursery to serve the shellfish growers of 
the South Puget Sound region. A shellfish nursery is a capital project 
that is both proven and a cost effective technology that takes small 
oyster and clam seeds and provides a safe and controlled environment 
for the seeds to grow to a size that can survive integration onto a 
regular beach placement. We have an ideal location for a nursery 
because it will not be disturbed by residents or recreational boaters.
    Our efforts will be an extension of another project that was 
created through a U.S. Department of Agriculture appropriation nearly 
two decades ago for the Lummi Tribe, which created an oyster and clam 
hatchery in Northern Puget Sound. The Lummi project over years has been 
very successful and they have supplied not only their own beaches but 
other tribes' in their region as well. The project would benefit not 
just Squaxin Island Tribe. It would further improve the quality and 
quantity of seed and make the seed process more effective for tribal 
and non-tribal growers. The users of the facility would be the Squaxin 
Island Tribe, other tribes, and non-tribal clam and oyster businesses 
that have been largely unable to find sites for this type of operation.
    The tribe's project will be a joint venture with the Lummi Nation, 
in that Lummi would be a primary larvae supplier. The project, with the 
expected grow-out and expansion of the industry attributable to the 
improved supply of seed, would offer jobs in a depressed employment 
area. Once established, the venture would be fully self-sustaining 
through sales of the product grown and at the nursery.
    This project would be a capital cost of approximately $2 million. 
The tribal in-kind contribution to the efforts would include land and 
shoreline and operating costs. Comparable land and shoreline, if 
privately owned, would be easily valued in the millions.
3. $1.5 Million Increase for Northwest Indian Treatment Center (NWITC) 
        Residential Program in IHS
        ``D3WXbi Palil'' meaning ``Returning from the Dark, Deep Waters 
        to the Light''--NWITC has not received an adequate increase in 
        its base Indian Health Service budget since the original 
        congressional set-aside in 1993.

    The Squaxin Island Tribe has been operating the Northwest Indian 
Treatment Center (NWITC) since 1994. Ingenious in creativity, the 
center offers a wide variety of cultural activities and traditional/
religious ceremonies, making it a natural place to heal--body, mind and 
soul. Fittingly, the center was given the spiritual name ``D3WXbi 
Palil'' meaning ``Returning from the Dark, Deep Waters to the Light.'' 
Since the original congressional set-aside in 1993, NWITC has not 
received an adequate increase in the base Indian Health Service budget. 
It is critical to increase the NWITC's annual base in order to sustain 
the current services to the tribes of the Northwest. An increase of 
$1.5 million would restore lost purchasing power and meet the need to 
add mental health and psychiatric components to the treatment program 
through other funding agents. This increase would allow NWITC to 
continue its effective treatment of Native Americans.
    NWITC is a residential chemical dependency treatment facility 
designed to serve American Indians from tribes located in Oregon, 
Washington and Idaho who have chronic relapse patterns related to 
unresolved grief and trauma. NWITC is unique in its integration of 
tribal cultural values into a therapeutic environment for co-occurring 
substance abuse and mental health disorders. It is a 28 bed, 30-60 day 
residential facility.
    Welcomed and hailed by tribal leaders who felt the urgent need for 
such a facility, NWITC is centrally located in Grays Harbor County 
between Olympia and Aberdeen, on 2.5 acres in the small rural town of 
Elma, Washington. NWITC accepts patients that are referred through 
outpatient treatment programs, parole and probation services, 
hospitals, assessment centers and child and family service centers. 
Medical care is provided through local Indian Health Service clinics 
and other medical service providers. NWITC has responded with an 
overwhelming success rate of nearly 65 percent.
    In 2011, the NWITC served 225 patients from 28 tribes and added 
intensive case management and crisis support to alumni in order to 
continue to promote positive outcomes for clients. Despite funding 
challenges, NWITC has continued to develop and deliver innovative, 
culturally appropriate services to meet increasingly complex demands.
    The Treatment Center's traditional foods and medicines program is 
supported through a partnership with the Northwest Indian College and 
is funded through grants from the Washington Health Foundation, the 
National Institute of Food and Agriculture, The Potlatch Fund and 
several tribes. Weekly hands-on classes focus on traditional foods and 
medicines, including methods for growing, harvesting, processing, and 
preparation. Twice a month, tribal elders, storytellers, and cultural 
specialists speak as part of the program. A monthly family class allows 
patients to share what they are learning with their loved ones. 
Patients gain hands-on experience by working in three on-site teaching 
gardens. This program serves as a model for other tribal communities.
    It is ironic that we were forced into a lifestyle and to give up 
our land, and that which we retained or have since regained is 
threatened by the promises you made and have since recanted!
    Thank you for inviting us to present this Testimony.
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    On behalf of the Standing Rock Sioux Tribe, I submit this testimony 
concerning the President's fiscal year 2017 budget for the Indian 
programs within the Department of the Interior and the Indian Health 
Service. I would like to express our appreciation to this subcommittee 
for its support of Indian tribes. I will focus my remarks on public 
safety, education, housing, healthcare, and infrastructure.
    The Standing Rock Sioux Tribe has a government to government 
relationship with the United States of America, reflected in our 
treaties which were signed in 1851 and 1868. These treaties underscore 
the ongoing promises and obligations of the United States to the tribe, 
and our testimony today is submitted with those promises and 
obligations in mind.
    The Standing Rock Sioux Reservation encompasses 2.3 million acres 
in North and South Dakota. The reservation's population--approximately 
8,500 tribal members and 2,000 non-members--reside in eight districts, 
and in smaller communities. The tribe's primary industries are cattle 
ranching and farming. The tribe struggles to provide essential 
governmental services to our members. The tribe's desire is to provide 
jobs and improve the economic standard of living on our reservation. We 
operate two modest tribal casinos, and a small number of additional 
tribal businesses, including Standing Rock Propane and Standing Rock 
Telecommunications, which provide needed services on the reservation. 
Casino revenue is used to help the tribe supplement services and 
programs for our members, but those revenues are modest and our 
challenges and needs are far greater than our resources. Despite the 
tribe's best efforts, our unemployment rate remains above 50 percent. 
In fact, over 40 percent of Indian families on our reservation live in 
poverty--more than triple the average U.S. poverty rate. The disparity 
is worse for children, as 52 percent of the reservation population 
under age 18 lives below poverty, compared to 16 percent and 19 percent 
in North and South Dakota, respectively. The Federal programs 
established and promised by treaty to aid tribes and their members are 
essential. We ask the Government to honor its commitments by adequately 
funding these Federal programs enacted for our benefit, so that our 
members may enjoy a standard of living comparable to that enjoyed by 
the rest of the Nation. Our specific requests are as follows:
    BIA--Public Safety and Justice.--Public safety is a priority for 
the tribe. We strongly disagree with the President's proposal to 
decrease funding for Public Safety and Justice by $4 million below the 
2016 enacted level, and urge the subcommittee instead to support an 
increase by at least that amount. A decrease in funding contradicts 
Interior's promises to make our homelands safer. Funding is also 
essential for law enforcement equipment and facilities maintenance.
    Youth Corrections.--In December 2010, the tribe successfully 
completed construction of a secure 18-bed juvenile detention facility 
so that tribal youth offenders may remain on the reservation and 
receive culturally appropriate services if they must be incarcerated. 
For reasons beyond the tribe's control, the facility has not been used 
for the past 5 years. This endeavor by the tribe is named the Youth 
Services Center, however, only the secure portion of the plan was 
completed due to inadequate funds to truly provide for all youth 
services as the name suggests. The tribe contributed $2 million of 
tribal funds to supplement $5 million in Justice Department funds to 
build this facility. Over time this tribally owned facility will save 
the BIA a great deal of money that now pays other contract facilities 
to house our youth offenders. Unfortunately, while the BIA, in January 
2011 and many times thereafter, advised the tribe that the facility 
would become operational, it is still not open despite the BIA 
receiving staff funding as well as operations and maintenance funding. 
BIA was unable to provide staffing to open the facility in a timely 
manner when it was completed in 2010 and as a result, problems within 
the idle building have surfaced and have already cost the tribe 
additional dollars in repairs. Although the tribe is currently working 
with the BIA to address those matters remaining in the facility, the 
building remains unoccupied and our youth are still being taken 
hundreds of miles off reservation. Additional construction dollars, and 
greater discretion concerning the allowable use of public safety 
services funds, are critical to providing detention and associated 
services to all troubled youth, especially when tribes are seeking 
alternatives to incarceration, such as probation with mandatory 
counseling and substance abuse counseling and treatment.
    Adult Corrections.--BIA OJS operates an antiquated 48 bed adult 
detention center for male and female inmates in Fort Yates on our 
reservation. The detention center is a linear style facility which, 
because of its design, is very staff intensive. The jail was built in 
the 1960's and has long outlived its utility. Renovated in the 1980's 
and again in the 1990's, the jail fails to comply with most 
contemporary detention standards. The jail population is frequently two 
to three times over the rated bed capacity. To alleviate jail crowding, 
BIA OJS contracts bed space for long term adult inmates in a facility 
that is a 772 mile round trip from the reservation. Our tribal court is 
forced to release prisoners early to alleviate jail crowding just to 
make room for more prisoners. This sends the wrong message to 
criminals.
    Law Enforcement.--The tribe has seen firsthand that adequate law 
enforcement funding was key to reducing crime. A number of years ago, 
the Standing Rock Sioux Tribe was selected to participate in the High 
Priority Program Goals initiative, which dramatically increased law 
enforcement positions on our reservation. This had a significant 
positive impact in reducing crime. Increased numbers of police officers 
allowed pro active policing rather than reactive policing. This 
initiative enabled officers to be assigned within each reservation 
community, which meant quicker response time to calls and more positive 
relationships between law enforcement officers and the communities they 
served. The increased law enforcement presence and patrols has deterred 
crime and resulted in our members feeling safer. The data confirms 
this. When compared to the number of violent crimes (homicide, rape, 
robbery, assault) that occurred between 2007 and 2009, the additional 
staffing reduced such crimes by approximately: 7 percent in 2010, 11 
percent in 2011, and 15-19 percent in 2012. These initiatives 
demonstrated the critical importance that adequate law enforcement 
staffing can have in our community. But HPPG ended after fiscal year 
2013 and the tribe's law enforcement personnel were reduced from the 
numbers that served us so well. We strongly support an increase in 
funding for law enforcement personnel. It makes no sense that these 
programs would not be funded in perpetuity since they have been 
demonstrated to work to reduce crime in Indian Country.
    Tribal Courts.--We support an increase to the modest funding 
appropriated for the Tribal Courts Program. The Standing Rock Tribal 
Court is an independent branch of government consisting of a supreme 
court, civil court, criminal court, and children's court. Key positions 
in the tribal court require licensed attorneys--the chief judge; 
associate chief judge; chief prosecutor; and public defender. The 
supreme court consists of three Justices, two of whom must be a 
licensed attorney. Our tribe cannot effectively support these courts 
with our small BIA allocation, even when heavily subsidized by the 
tribe. And yet in order to use our tribe's authorities provided under 
the Violence Against Women Act of 2013, Sex Offender Registration and 
Offender Act, and the Tribal Law and Order Act, we must continue to 
meet appropriate standards. Our tribal courts are also crowded, even 
when spread across three separate buildings. The main courthouse 
outgrew its ability to meet our needs years ago and the lack of space 
severely limits our ability to adequately handle the tribal court case 
load of 2,000 to 3,000 cases per year. Funding is critical to providing 
a safe and secure center to house justice programs.
    Bureau of Indian Education (BIE).--We support an increase to fiscal 
year 2017 funding for BIE programs. Standing Rock relies on BIE funding 
for three tribal grant schools--the Standing Rock Community School (K-
12), Sitting Bull School (K-8), and Rock Creek School (K-8). The 
Standing Rock Community School is operated through a Joint Powers 
Agreement between the Standing Rock Tribal Grant School and the Fort 
Yates Public School District. The Fort Yates Public School District, 
like other public schools on the reservation (Cannonball, Selfridge, 
McLaughlin, McIntosh, and Wakpala), depends on Federal impact aid to 
cover the costs of the public school's share of the school operations. 
The children in the schools on the reservation are among the most at-
risk students in the Nation. At seven out of eight public and tribal 
grant schools on our reservation, 100 percent of the students are 
eligible for the Free or Reduced Lunch Program. At the remaining 
school, 90 percent of students are eligible for the Free or Reduced 
Lunch Program. The high rate of our student eligibility for the Free or 
Reduced Lunch Program documents that the majority of our families live 
at or below poverty level.
    A critical source of funds for the operation of our tribal grant 
schools are the Indian School Equalization Program (ISEP) Formula 
funds. The funds cover the costs of the schools' instructional 
programs, including salaries for teachers, teacher aides, school 
administrative staff and other operational costs. ISEP has not seen any 
meaningful increase in years, and as a result, there has been a 
significant negative impact on the effectiveness of the schools' 
instructional programs. Academic programs are marginal at best and 
provide limited services to the students. It has become more difficult 
to attract and retain qualified staff. Despite the clear need, the 
administration proposes to cut ISEP funding by $16.4 million, 
apparently to offset the cost of a new pilot program. We do not object 
to a new pilot program, but it should not be created at the expense of 
existing needs. If the schools serving Indian children are to be 
effective and if our students are to succeed and be college and career 
ready, ISEP funding must be increased.
    The administration's near flat line funding for virtually all 
aspects of BIE programs does not account for population growth, 
increased costs, or inflation. Student Transportation funding, intended 
to cover the costs of buses, fuel, maintenance, vehicle replacements, 
and drivers, has stayed at the same level for years. The substantial 
increases in fuel costs alone make it impossible to cover these costs. 
For Standing Rock, funds are further strained because we are a rural 
community, where bus runs for many of our students may take 1\1/2\ to 2 
hours each way and can include travel on unimproved roads. These 
factors result in higher maintenance costs and shorter vehicle life. A 
substantial increase in funds for Student Transportation is long 
overdue.
    The same is true for School Facility Operations and Maintenance 
which is drastically under-funded. In fact, O&M budgets are currently 
constrained at 40 percent of need. This also holds true for School 
Improvement and Repair. We urge this subcommittee to strongly support 
an increase, not only for Facility Operations and Maintenance and 
School Improvement and Repair, but for School Construction as well. 
Indeed, one of our tribal grant schools, the Rock Creek School, is more 
than 100 years old and badly needs to be replaced. Federal funds to 
replace ancient schools--like Rock Creek--are essential. Funding for 
School Facility Operations and Maintenance and School Improvement and 
Repair, as well as School Construction should be substantially 
increased. We are also very concerned about the list of new schools 
which have been slated to be constructed. Not a single school from the 
Great Plains made that list. It is clear that the Bureau of Indian 
Education has discretion to select these schools, and they have used 
that discretion to effectively shut out schools in our region for the 
next decade. We would like the subcommittee to better understand how 
these schools are selected.
    We also urge the subcommittee to support an increase in funding for 
scholarships. Because of the unmet need, the tribe spends $1 million in 
tribal funds annually to supplement this program and gives grants of 
$3,000-$3,500 to aid our students attending colleges and vocational 
schools. But even with this, the majority of our scholarship recipients 
have unmet financial need varying from $100 to $17,000.
    Indian Health Service.--We support the administration's fiscal year 
2017 requested increase in IHS funding. We depend on IHS to care for 
our 16,000 enrolled tribal members, many of whom suffer from diabetes, 
heart disease and hypertension. We are especially concerned about our 
region. Although we are not at risk of losing certification under the 
Center for Medicaid Services, we hope the Indian Health Service can 
continue to provide quality support and timely processing of the basics 
such as human resources, budget responses, and procurement. We also 
fully support the IHS' efforts to increase funding for behavioral 
health by $46 million, especially the youth focused programming.
    We recommend that Congress prioritize the IHS preventive healthcare 
service programs, such as the diabetes grant program, and increase 
funding for these programs above the administration's $150 million, 
while supporting and protecting the administration's other IHS funding 
priorities, especially funding for healthcare personnel. In many 
instances, if additional funding for clinical services and preventive 
health programs can be made available, illnesses and injuries could be 
treated at their initial stages, or prevented altogether. This is 
especially important at Standing Rock, where many of our members' 
health problems could be addressed if timely preventive care were 
available. We also support the administration's request for increases 
in Dental Health and Purchased/Referred Care (previously known as 
Contract Health Services), which has been historically underfunded.
    Road Maintenance.--Proper road maintenance on the reservation is 
essential for the safety and health of our community, and for promoting 
economic opportunities. BIA Road Maintenance is responsible for 29,700 
miles of BIA owned roads. The administration request of $27 million 
only funds 16 percent of the level of need for BIA road maintenance. 
Thus, 84 percent of the roads in the BIA systems will continue to be at 
poor or failing condition. These are roads used by school buses and 
first responders. In any other community this would be unacceptable. We 
urge the subcommittee to increase funding for the maintenance program 
by at least $9 million. This level of funding would allow a greater 
percentage of the roads to be properly maintained.
    Tribal Historic Preservation Offices.--We strongly support the $2 
million increase for Tribal Historic Preservation Offices out of the 
National Park Service. This modest increase will help us to protect 
historic and culturally significant resources throughout the region.
                                 ______
                                 
                  Prepared Statement of Dawn Stockwell
    Dear Senators:

    As an American citizen and taxpayer, I strongly oppose the BLM's 
proposal to conduct dangerous sterilization experiments on wild mares 
at the Wild Horse Corral Facility in Hines. According to the 
Environmental Assessment (EA), the BLM is deciding whether or not to 
proceed with one or more of the proposed sterilization procedures. The 
weight of scientific evidence and public opinion clearly supports a BLM 
decision NOT to proceed with any of these sterilization procedures.
    The sterilization procedures that BLM is proposing to conduct on 
federally protected wild mares are dangerous, costly and impractical 
for use in the field, due to the serious health risks they pose to the 
horses and their unborn foals, and also due to the great expense of 
purchasing the equipment and training the number of veterinarians 
necessary to implement these procedures on the range.
    It makes no sense to spend millions of taxpayer dollars on these 
risky invasive experiments when proven, humane, and relatively 
inexpensive fertility control technology in the form of the PZP vaccine 
is readily available but vastly underutilized by the BLM.
    The EA is completely inadequate in analyzing the impacts of these 
experimental procedures on mares. In addition, the BLM has deliberately 
avoided public opposition to this controversial and grotesque research 
proposal by skipping the scoping stage of the environmental analysis 
process. As a result, the public has been deprived of the opportunity 
to provide input into the impacts of and alternatives to these 
procedures that must be analyzed under the rules of the National 
Environmental Policy Act.
1.  Ovariectomy via Colposcopy
    This is an outdated and archaic procedure that has been supplanted 
by more modern laparoscopic surgery. The EA fails to analyze the 
impacts of and alternatives to this procedure to mares and never once 
mentions the availability of more modern techniques! This proposed 
sterilization experiment is an intra-vaginal complex surgical 
procedure, which is hardly ever performed in domestic horses (never 
mind in wild ones), due to its inherently dangerous risks.

  --The blind nature of this surgery increases the risk of intra-
        abdominal hemorrhage, but the EA never even addresses this 
        issue or the availability of more modern laparoscopic 
        techniques that allow the surgeon to visualize the abdominal 
        structures.
  --The lack of a sterile environment subjects the mares to a high risk 
        of infection, something that is ignored by the EA.
  --The procedure carries with it a significant risk of hemorrhage and 
        evisceration (protrusion of the intestines through the surgical 
        incision), which is why it requires strict follow-up care when 
        used in domestic horses, including pain relief and 4-7 days of 
        stall rest, the first 48 hours of which is spent in crossties 
        to prevent the mare from lying down. It is not possible to 
        provide this required post-operative care to wild mares, yet 
        the EA minimizes the impacts of this fact, citing the opinion 
        of an un-named veterinarian, instead of the published science 
        and National Research Council review, which clearly indicate 
        the risks and impacts of this outdated procedure on wild mares.
  --The procedure will cause mares in early stages of pregnancy to 
        abort their fetuses and may cause loss of pregnancy for mares 
        in the mid-stage of pregnancy as well. This is unacceptable.

    This pursuit of ovariectomy research is directly counter to the 
recommendations of the National Academy of Sciences National Research 
Council (NRC) in its 2013 report, ``Using Science to Improve the BLM 
Wild Horse and Burro Program: A Way Forward.'' That NRC report 
concluded that: ``The possibility that ovariectomy may be followed by 
prolonged bleeding or peritoneal infection makes it inadvisable for 
field application.''
2.  Minimally Invasive Sterilization Techniques
    The other sterilization procedures that BLM proposes to research, 
while less invasive than ovariectomy, should also be abandoned due to 
the inability to provide post-operative care and the impracticality of 
implementing these procedures--which have never before been done in 
wild or domestic horses--on a broad scale in a field setting. The EA 
fails to analyze the impacts of precedent-setting procedures that have 
never before been performed in horses, and as well as the inability to 
provide required post-operative care. The EA also omits analysis of the 
economic impacts and practicalities of implementing these procedures on 
the range.
    In proceeding with these experiments, the BLM has ignored the NRC 
recommendation that these techniques should first be perfected in 
domestic mares, who can be easily handled and will be accessible for 
close monitoring and post-operative care, before attempting them in 
wild horses.
    It is unconscionable that the BLM is proceeding with these 
draconian experiments that endanger the lives of the un-consenting 
equine subjects and their unborn foals, particularly when a proven non-
invasive and safe fertility control method exists in the readily 
available PZP birth control vaccine. Instead of wasting millions of tax 
dollars to fund experiments on inhumane and impractical sterilization 
experiments, the agency should instead focus resources on vaccinating 
sufficient numbers of mares with the PZP fertility control vaccine, 
which is documented through 30 years of experience and published 
science, to be safe, effective, cost-effective and successful in 
managing wild horse populations.
    Again, as a taxpayer and wild horse lover, I am outraged that the 
BLM is even considering pursuing such inhumane, barbaric and wasteful 
experimentation on wild horses and I find the BLM's Environmental 
Analysis of its impacts to be woefully inadequate. As a result, I 
strongly urge the BLM to abandon these proposed experiments in favor of 
using proven, more cost-effective and humane fertility control methods.
                                 ______
                                 
      Prepared Statement of United States Senator Susan M. Collins
                                                    March 18, 2016.

 
 
 
Hon. Thad Cochran                     Hon. Barbara Mikulski
 Chairman                             Vice Chairwoman
Committee on Appropriations           Committee on Appropriations
United States Senate                  United States Senate
Washington, DC 20510                  Washington, DC 20510
 
Hon. Lisa Murkowski                   Hon. Tom Udall
Chairman                              Ranking Member
Subcommittee on Interior,             Subcommittee on Interior,
 Environment,                          Environment,
  and Related Agencies                  and Related Agencies
Committee on Appropriations           Committee on Appropriations
United States Senate                  United States Senate
Washington , DC 20510                 Washington, DC 20510
 


    Dear Chairman Cochran, Vice Chairwoman Mikulski, Chairman 
Murkowski, and Ranking Member Udall:

    I respectfully submit the following requests for funding and 
language to be included in the fiscal year 2017 Interior, Environment, 
and Related Agencies Appropriations bill and report:
                       department of the interior
Bureau of Ocean Energy Management (BOEM)
            BOEM, Renewable Energy
    I request that you provide level funding, $24.3 million, for the 
Renewable Energy program. The United States has nearly 4,000 GW of 
offshore wind capacity within 50 miles of the coastline, enough to 
power the United States four times over. Approximately two-thirds of 
this capacity is in deepwater. In order to foster the development of 
ocean energy resources, other countries, such as the United Kingdom, 
Canada, Germany, and Portugal, have established test sites for ocean 
energy. These countries have funded environmental permitting studies 
and provided electrical infrastructure, including undersea cabling and 
grid interconnection, for these test sites. Working with research 
institutions, private industry has used these ``ready'' sites to build 
and test advanced offshore wind turbines and other ocean energy 
harvesting devices, spurring further commercial developments. The 
President's budget request includes $23.9 million.
    To ensure that the United States does not lose momentum in 
advancing this promising technology, I request that you include the 
following language in your report:

        Renewable Energy.--The Committee provides $24.3 million for 
        renewable energy leasing activities, including program 
        development, environmental analysis, and consultation with 
        Federal, State, and local stakeholders. The Bureau should 
        continue to work with the Department of Energy to identify and 
        permit a national offshore wind test site that incorporates new 
        technology related to the structural material of transitional 
        depth and floating wind turbines. The Bureau should also make 
        funding available for installation of electrical infrastructure 
        for such a test site. The Committee expects the Bureau to 
        continue working with coastal States and other stakeholders to 
        study new wind energy areas, including those in shallow, 
        transitional, and deep (over 200 feet) waters. The Secretary 
        should work with the Secretary of Energy and States to exchange 
        information about the development of new technology related to 
        the structural material, environmental, and design safety 
        criteria, as well as design and performance standards of 
        transitional depth and floating wind turbines.
                         national park service
Land and Water Conservation Fund, State Grants
    I request continued support for the Land and Water Conservation 
Fund (LWCF), including the LWCF State grant program and the Forest 
Legacy Program. Within the funding provided for LWCF, I request level 
funding for the State grant program. The LWCF is one of the most 
important Federal programs for assisting in the preservation of 
recreational resources. According to the National Park Service, 92 
percent of States reported an annual unmet funding need of 90 percent 
or greater, which funding for the State grant program would help 
address. State grants received $106.8 million in fiscal year 2016. The 
President's fiscal year 2017 budget request includes $106 million in 
discretionary funding.
Facility Operations and Maintenance
    I request continued support for the facility operations and 
maintenance of our National Park System, including for the base budget 
of Acadia National Park. The facility operations and maintenance 
activities at our national parks play key roles in ensuring continued 
protection and use of park facilities. Funding will help address the 
deferred maintenance backlog, which at the end of fiscal year 2015 
totaled more than $11.9 billion. The President's fiscal year 2017 
budget request includes $842.5 million for facility operations and 
maintenance, and $738.5 million was allocated in fiscal year 2016.
Roosevelt Campobello International Park
    I urge the subcommittee to provide $1.66 million for the Roosevelt 
Campobello International Park Commission, the level requested by the 
Commission in its budget request. The President's budget request 
includes $1.5 million. I appreciate the subcommittee's willingness to 
work with me on language to help ensure the unique arrangement between 
the United States and Canada in operating the Roosevelt-Campobello 
International Park (RCIP) is maintained. I request that report language 
from the Consolidated Appropriations Act, 2016 (Public Law 114-113), 
which would clarify congressional intent that the RCIP budget request 
be transmitted by the Office of Management and Budget to Congress 
without changes by the National Park Service, be retained in the fiscal 
year 2017 subcommittee report. To address what had become a perennial 
issue for NPS to reduce the budget request for RCIP, including the 
following language from fiscal year 2016 remains very important:

        Roosevelt-Campobello International Park Commission.--Funding 
        for Roosevelt-Campobello International Park Commission (the 
        Commission) on the Maine-Canada border is jointly and equally 
        supported by the U.S. and Canadian governments pursuant to the 
        1964 Agreement between the two nations, which was recognized 
        and codified by Congress in 1964 (Public Law 88-363). While the 
        Administration has a responsibility to consider priorities 
        within overall budget constraints and submit an annual budget 
        request to Congress, the Committee is concerned with recent 
        requests for the Park from the Service. Congress observed in 
        1986 the following: ``The managers agree that hereafter the 
        Service should use its internal reprogramming authority so that 
        there will be no diminution of the amount provided for the 
        Roosevelt Campobello International Park Commission, unless 
        reduced by the House or Senate in a report accompanying the 
        appropriations bill.'' (CR-H10497, October 15, 1986). 
        Therefore, the Committee directs that the budget request 
        prepared by the Roosevelt Campobello International Park 
        Commission shall be submitted by the Administration directly to 
        the House and Senate Committees on Appropriations without any 
        changes. The Administration, in its National Park Service 
        budget justification, may comment on the Commission's budget 
        request and make such additions and subtractions that it may 
        propose. However, the amounts requested by the National Park 
        Service shall be consistent with its obligations under 
        international agreements. The Committee will consider the 
        proposal from the Commission and the Administration will 
        allocate the overall appropriation as specified in the report 
        accompanying the Interior, Environment, and Related Agencies 
        Appropriations Act.
                     u.s. fish and wildlife service
State and Tribal Wildlife Grants
    I request that you provide at least level funding, $60.6 million, 
for the State and Tribal Wildlife Grants program and maintain the ratio 
of formula and competitive grants. This program provides Federal 
funding to develop and implement conservation programs that protect 
wildlife and habitats, prioritizing the species most in need of 
conservation and helping to avoid listings under the Endangered Species 
Act. The President's budget request includes $67 million.
                         u.s. geological survey
Water Resources Research Institute
    I request that you provide at least $6.5 million--level funding--
for the Water Resources Research Institute, which provides vital 
research, public information, and educational opportunities on water 
availability, pollution, and use issues nationwide. The President's 
budget request for fiscal year 2017 includes $6.5 million for this 
program.
Groundwater and Streamflow Information Program
    I support continued funding for the Groundwater and Streamflow 
Information Program (GWSIP), which collects, manages, and disseminates 
consistently high-quality and reliable hydrologic information in real-
time and over the long-term. The purpose of this important program is 
to minimize loss of life and property from water hazards and to 
protect, manage, and sustain water that is safe and available for 
drinking. The GWSIP is one of the primary sources of data needed for 
timely water decisions, as the streamgage data collected provide 
critical flood warning information to local, State, tribal, and 
national stakeholders. Groundwater data also help landowners monitor 
their irrigation activities and aquatic habitats. In fiscal year 2016, 
the program received $71.5 million. The President's fiscal year 2017 
budget request includes $72.957 million for GWSIP.
                    environmental protection agency
General Provision--Carbon Neutrality of Biomass
    I request that the fiscal year 2017 bill include the language below 
to address EPA' s treatment of carbon emissions related to forest 
biomass. The carbon benefits of forest biomass are clearly established, 
yet current policy uncertainty is jeopardizing existing investments in 
biomass and discouraging new investment to build or upgrade facilities. 
Legislative clarity is required to secure the carbon benefits of--and 
remove uncertainty surrounding--this renewable energy resource. I look 
forward to working with you to achieve this necessary clarity and 
suggest the following bill language:

                  carbon neutrality of forest biomass
    Sec. __. (a) Carbon Emissions From Forest Biomass--
            ``(1) In general. The Administrator of the Environmental 
        Protection Agency shall provide in agency policies, 
        regulations, and actions regarding carbon dioxide emissions 
        that forest biomass carbon dioxide emissions including, but not 
        limited to, biogenic carbon dioxide emissions from facilities 
        that combust forest biomass for energy, do not require 
        regulation, controls or actions, if--
                    ``(A) the Chief of the Forest Service determines, 
                based on the most recent assessment of forest and 
                timberland carbon stocks derived from the Forest 
                Inventory and Analysis data of the Department of 
                Agriculture, that timberland carbon stocks in the 
                relevant region, described in paragraph (2), are stable 
                or increasing relative to carbon stocks assessment for 
                the region for 2005; or
                    ``(B) the forest biomass is derived from forest 
                products manufacturing residuals, harvest residues, 
                bio-wastes, including used wood products, or forest 
                management activities conducted--
                            ``(i) for stand improvement;
                            ``(ii) to increase yield; or
                            ``(iii) to maintain or enhance forest 
                        health.
            ``(2) For purposes of this section, the Chief of the Forest 
        Service shall identify regions as follows:
                            (i) The North Region: CT, DE, IL, IN, IA, 
                        KS, MA, ME, MD, MI, MN, MO, NE, 27 NH, NJ, NY, 
                        ND, OH, PA, RI, SD, VT, WV, WI;
                            (ii) The South Region: AL, AR, FL, GA, KY, 
                        LA, NC, OK, SC, MS, TN, TX, VA;
                            (iii) The Southwest Region: AZ, NM, CO, UT, 
                        NV, and WY;
                            (iv) The Pacific Coast/Northwest Region: 
                        CA, OR, WA, ID, and MT; and
                            (v) States not identified in the above 
                        regions shall be considered individually.
            ``(3) Annual determination of applicability.--Not less 
        frequently than annually, the Administrator shall review the 
        most recent assessment of the Chief of the Forest Service 
        described in paragraph (l)(A) to determine the applicability of 
        paragraph (1).
    (b) Forest Carbon Stocks.--Subject to appropriations, the Chief of 
the Forest Service shall update the measurement of forest and 
timberland carbon stocks not less frequently than once every 5 years.

    Additionally, I request that the following language be included in 
the report to accompany the fiscal year 2017 bill:

        Carbon Neutrality of Forest Biomass.--``Forest management 
        activities'' in this section include activities to improve the 
        composition, structure, condition, health, and growth of 
        stands; increase yield after stand establishment; and maintain 
        or enhance forest health including fuel, pest infestation, and 
        disease treatments. Forest management activities maintain or 
        increase forest carbon stocks over time.
National Estuary Program
    I support at least level funding, $26.7 million, for the National 
Estuary Program (NEP), which works with communities to craft 
stakeholder driven restoration solutions at the watershed level. 
Congress created the NEP in 1987 to restore designated estuaries of 
national significance, and today there are 28 estuaries in the program. 
The President's fiscal year 2017 budget request includes $27.2 million.
Rural Water Technical Assistance Grant Program
    I request that you provide $15 million for the Environmental 
Protection Agency's Rural Water Systems Training and Technical 
Assistance Grant Program and the continuation of report language to 
ensure that this funding is awarded on a competitive basis. Rural water 
systems have an enormous responsibility to provide safe drinking water. 
Authorized under the Safe Drinking Water Act, these grants assist water 
system operators in understanding and achieving compliance with 
increasingly complex Federal regulations. The program received $12.7 
million for fiscal year 2016. The President's fiscal year 2017 budget 
request does not include funding for this program.
Clean Water and Drinking Water State Revolving Funds (SRF)
    I request that you provide at least level funding for the Clean 
Water SRF and the Drinking Water SRF. These programs provide critical 
infrastructure funding to water quality protection projects for 
wastewater treatment, nonpoint source pollution control, watershed and 
estuary management, and to protect our ground and drinking water. In 
fiscal year 2016, the CWSRF received $1.393 billion and the DWSRF 
received $863 million. The President's fiscal year 2017 budget requests 
$979 million for the CWSRF and $1.02 billion for the DWSRF, 
representing a total combined cut of $257 million. It is estimated that 
between 13,000 and 24,000 jobs result from every billion dollars in SRF 
funding.
National Priorities Research Grant Program
    I request that you provide at least level funding--$4.1 million--
for the National Priorities Research Grant Program. This grant program 
funds drinking water and wastewater-related research through the 
Environmental Protection Agency, managed by water non-profit 
foundations, and conducted in partnership with local wastewater and 
drinking water utilities. The President's fiscal year 2017 budget 
request does not include funding for this program.
                             forest service
Community Forest and Open Space Conservation Program--$2 million
    I request that you provide at least $2 million for the Community 
Forest and Open Space Conservation Program. This program provides 
grants to eligible local governments, tribal governments, and qualified 
non-profit organizations to create community forests. The program 
received $2 million in fiscal year 2016--the same level that the 
President's budget request proposes for fiscal year 2017.
State and Private Forestry--Forest Resource Pilot Program
    I request that the subcommittee report include language to support 
a pilot program that would leverage existing and ongoing research on 
forest carbon. Maine's economy depends in large part on the condition 
of its forest, as the forest products industry accounts for more than 6 
percent of the State's total gross domestic product and has an 
estimated total economic impact of $8 billion. Further coordinated 
research is needed. With this in mind, I request that you include the 
following language in the subcommittee report:

        Forest Resource Pilot Program.--Within the funding provided for 
        State and Private Forestry, the Committee directs the 
        Department to fund a pilot program on forest carbon research. 
        Such a pilot should be carried out in natural forested regions 
        of the United States and link research on forest carbon to 
        forest landowners and managers by establishing the methods and 
        developing tools needed to quantify forest carbon as a resource 
        that can be managed for economic and ecological benefits.
                     offices of inspectors general
    Offices of Inspectors General (OIGs) are an indispensable tool in 
the fight against waste, fraud, abuse, and mismanagement. Through its 
partnership with OIGs across the Government, Congress has been able to 
identify and reduce inefficient, ineffective and improperly functioning 
Federal programs. Given their importance, I support adequately funding 
all the OIGs contained in your bill , including the OIGs for the 
Department of the Interior and the Environmental Protection Agency, to 
ensure proper oversight is conducted over every taxpayer dollar spent 
by the Federal Government.
    Recognizing the significant budget challenges facing the country, I 
appreciate your consideration of these requests and look forward to 
working with you as you develop the fiscal year 2017 Interior and 
Environment funding bill.

            Sincerely,

                                   Susan M. Collins
                                   United States Senator

[Note: See table on next page for priorities, agencies, accounts, 
programs, President's budget, Member requests, and request 
descriptions.]

 
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Program (if      President's     Member Request      Request
           Priority             State      Member        Agency          Account        applicable)       Budget ($)          ($)          Description
--------------------------------------------------------------------------------------------------------------------------------------------------------
1............................      ME              Collins    EPA   Carbon            ...............          n/a              n/a      Request bill
                                                                     Neutrality of                                                        language to
                                                                     Biomass.                                                             recognize that
                                                                                                                                          forest biomass
                                                                                                                                          emissions are
                                                                                                                                          carbon neutral
                                                                                                                                          and to be
                                                                                                                                          treated as
                                                                                                                                          such by the
                                                                                                                                          EPA, and to
                                                                                                                                          require the
                                                                                                                                          Chief of the
                                                                                                                                          Forest Service
                                                                                                                                          to update
                                                                                                                                          measurements
                                                                                                                                          of forest and
                                                                                                                                          timberland
                                                                                                                                          carbon stocks
                                                                                                                                          at least once
                                                                                                                                          every five
                                                                                                                                          years. Request
                                                                                                                                          accompanying
                                                                                                                                          report
                                                                                                                                          language.
 
2............................      ME              Collins    EPA   State Revolving   Clean Water SRF     $979,000,000   $1,393,000,000  Request at
                                                                     Funds.                                                               least fiscal
                                                                                                                                          year 2016
                                                                                                                                          level of
                                                                                                                                          $1.393 billion
 
                                   ME              Collins    EPA   State Revolving   Drinking Water    $1,020,000,000     $863,000,000  Request at
                                                                     Funds.            SRF.                                               least fiscal
                                                                                                                                          year 2016
                                                                                                                                          level of 863
                                                                                                                                          million
 
3............................      ME              Collins    NPS   Land and Water    State Grants...     $106,000,000     $106,800,000  Request
                                                                     Conservation                                                         continued
                                                                     Fund.                                                                support for
                                                                                                                                          LWCF, Forest
                                                                                                                                          Legacy
                                                                                                                                          Program, and
                                                                                                                                          fiscal year
                                                                                                                                          2016 level of
                                                                                                                                          106.8 million
                                                                                                                                          for the state
                                                                                                                                          grant program
 
4............................      ME              Collins    EPA   Environmental     Rural Water                   $0      $15,000,000  Request an
                                                                     Programs and      Technical                                          increase of
                                                                     Management.       Assistance                                         2.3 million
                                                                                       Grant Program.                                     over fiscal
                                                                                                                                          year 2016
                                                                                                                                          level
 
5............................      ME              Collins   USFS   State and         Forest Carbon            n/a              n/a      Request report
                                                                     Private           Pilot Program.                                     language.
                                                                     Forestry.                                                            Forest Carbon
                                                                                                                                          Pilot
                                                                                                                                          Program.--With
                                                                                                                                          in the funding
                                                                                                                                          provided for
                                                                                                                                          State and
                                                                                                                                          Private
                                                                                                                                          Forestry, the
                                                                                                                                          Committee
                                                                                                                                          directs the
                                                                                                                                          Department to
                                                                                                                                          fund a pilot
                                                                                                                                          program on
                                                                                                                                          forest carbon
                                                                                                                                          research. Such
                                                                                                                                          a pilot should
                                                                                                                                          be carried out
                                                                                                                                          in natural
                                                                                                                                          forested
                                                                                                                                          regions of the
                                                                                                                                          United States
                                                                                                                                          and link
                                                                                                                                          research on
                                                                                                                                          forest carbon
                                                                                                                                          to forest
                                                                                                                                          landowners and
                                                                                                                                          managers by
                                                                                                                                          establishing
                                                                                                                                          the methods
                                                                                                                                          and developing
                                                                                                                                          tools needed
                                                                                                                                          to quantify
                                                                                                                                          forest carbon
                                                                                                                                          as a resource
                                                                                                                                          that can be
                                                                                                                                          managed for
                                                                                                                                          economic and
                                                                                                                                          ecological
                                                                                                                                          benefits.
 
6............................      ME              Collins    DOI   BOEM............  Renewable            $23,900,000      $24,300,000  Request fiscal
                                                                                       Energy.                                            year 2016
                                                                                                                                          level of $24.3
                                                                                                                                          million and
                                                                                                                                          report
                                                                                                                                          language.
                                                                                                                                          Renewable
                                                                                                                                          Energy.--The
                                                                                                                                          Committee
                                                                                                                                          provides $24.3
                                                                                                                                          million for
                                                                                                                                          renewable
                                                                                                                                          energy leasing
                                                                                                                                          activities,
                                                                                                                                          including
                                                                                                                                          program
                                                                                                                                          development,
                                                                                                                                          environmental
                                                                                                                                          analysis, and
                                                                                                                                          consultation
                                                                                                                                          with Federal,
                                                                                                                                          State, and
                                                                                                                                          local
                                                                                                                                          stakeholders.
                                                                                                                                          The Bureau
                                                                                                                                          should
                                                                                                                                          continue to
                                                                                                                                          work with the
                                                                                                                                          Department of
                                                                                                                                          Energy to
                                                                                                                                          identify and
                                                                                                                                          permit a
                                                                                                                                          national
                                                                                                                                          offshore wind
                                                                                                                                          test site that
                                                                                                                                          incorporates
                                                                                                                                          new technology
                                                                                                                                          related to the
                                                                                                                                          structural
                                                                                                                                          material of
                                                                                                                                          transitional
                                                                                                                                          depth and
                                                                                                                                          floating wind
                                                                                                                                          turbines. The
                                                                                                                                          Bureau should
                                                                                                                                          also make
                                                                                                                                          funding
                                                                                                                                          available for
                                                                                                                                          installation
                                                                                                                                          of electrical
                                                                                                                                          infrastructure
                                                                                                                                          for such a
                                                                                                                                          test site.The
                                                                                                                                          Committee
                                                                                                                                          expects the
                                                                                                                                          Bureau to
                                                                                                                                          continue
                                                                                                                                          working with
                                                                                                                                          coastal States
                                                                                                                                          and other
                                                                                                                                          stakeholders
                                                                                                                                          to study new
                                                                                                                                          wind energy
                                                                                                                                          areas,
                                                                                                                                          including
                                                                                                                                          those in
                                                                                                                                          shallow,
                                                                                                                                          transitional,
                                                                                                                                          and deep (over
                                                                                                                                          200 feet)
                                                                                                                                          waters. The
                                                                                                                                          Secretary
                                                                                                                                          should work
                                                                                                                                          with the
                                                                                                                                          Secretary of
                                                                                                                                          Energy and
                                                                                                                                          States to
                                                                                                                                          exchange
                                                                                                                                          information
                                                                                                                                          about the
                                                                                                                                          development of
                                                                                                                                          new technology
                                                                                                                                          related to the
                                                                                                                                          structural
                                                                                                                                          material,
                                                                                                                                          environmental,
                                                                                                                                          and design
                                                                                                                                          safety
                                                                                                                                          criteria, as
                                                                                                                                          well as design
                                                                                                                                          and
                                                                                                                                          performance
                                                                                                                                          standards of
                                                                                                                                          transitional
                                                                                                                                          depth and
                                                                                                                                          floating wind
                                                                                                                                          turbines.
 
7............................      ME              Collins    NPS   Facility          ...............     $842,500,000          n/a      Request
                                                                     Operations and                                                       continued
                                                                     Maintenance.                                                         support for
                                                                                                                                          the facility
                                                                                                                                          operations and
                                                                                                                                          maintenance of
                                                                                                                                          our NPS.
 
8............................      ME              Collins   USFS   Community Forest  ...............       $2,000,000       $2,000,000  Request at
                                                                     and Open Space                                                       least fiscal
                                                                     Conservation                                                         year 2016
                                                                     Program.                                                             level of 2
                                                                                                                                          million
 
9............................      ME              Collins    NPS   Roosevelt         ...............       $1,492,000       $1,657,897  Request
                                                                     Campobello                                                           retaining
                                                                     International                                                        report
                                                                     Park.                                                                language
                                                                                                                                          included in
                                                                                                                                          fiscal year
                                                                                                                                          2016 Omnibus.
                                                                                                                                          Roosevelt-
                                                                                                                                          Campobello
                                                                                                                                          International
                                                                                                                                          Park
                                                                                                                                          Commission.--F
                                                                                                                                          unding for
                                                                                                                                          Roosevelt-
                                                                                                                                          Campobello
                                                                                                                                          International
                                                                                                                                          Park
                                                                                                                                          Commission
                                                                                                                                          (the
                                                                                                                                          Commission) on
                                                                                                                                          the Maine-
                                                                                                                                          Canada border
                                                                                                                                          is jointly and
                                                                                                                                          equally
                                                                                                                                          supported by
                                                                                                                                          the U.S. and
                                                                                                                                          Canadian
                                                                                                                                          governments
                                                                                                                                          pursuant to
                                                                                                                                          the 1964
                                                                                                                                          Agreement
                                                                                                                                          between the
                                                                                                                                          two nations,
                                                                                                                                          which was
                                                                                                                                          recognized and
                                                                                                                                          codified by
                                                                                                                                          Congress in
                                                                                                                                          1964 (Public
                                                                                                                                          Law 88-363).
                                                                                                                                          While the
                                                                                                                                          Administration
                                                                                                                                          has a
                                                                                                                                          responsibility
                                                                                                                                          to consider
                                                                                                                                          priorities
                                                                                                                                          within overall
                                                                                                                                          budget
                                                                                                                                          constraints
                                                                                                                                          and submit an
                                                                                                                                          annual budget
                                                                                                                                          request to
                                                                                                                                          Congress, the
                                                                                                                                          Committee is
                                                                                                                                          concerned with
                                                                                                                                          recent
                                                                                                                                          requests for
                                                                                                                                          the Park from
                                                                                                                                          the Service.
                                                                                                                                          Congress
                                                                                                                                          observed in
                                                                                                                                          1986 the
                                                                                                                                          following:
                                                                                                                                          ``The managers
                                                                                                                                          agree that
                                                                                                                                          hereafter the
                                                                                                                                          Service should
                                                                                                                                          use its
                                                                                                                                          internal
                                                                                                                                          reprogramming
                                                                                                                                          authority so
                                                                                                                                          that there
                                                                                                                                          will be no
                                                                                                                                          diminution of
                                                                                                                                          the amount
                                                                                                                                          provided for
                                                                                                                                          the Roosevelt
                                                                                                                                          Campobello
                                                                                                                                          International
                                                                                                                                          Park
                                                                                                                                          Commission,
                                                                                                                                          unless reduced
                                                                                                                                          by the House
                                                                                                                                          or Senate in a
                                                                                                                                          report
                                                                                                                                          accompanying
                                                                                                                                          the
                                                                                                                                          appropriations
                                                                                                                                          bill.'' (CR-
                                                                                                                                          H10497,
                                                                                                                                          October 15,
                                                                                                                                          1986).
                                                                                                                                          Therefore, the
                                                                                                                                          Committee
                                                                                                                                          directs that
                                                                                                                                          the budget
                                                                                                                                          request
                                                                                                                                          prepared by
                                                                                                                                          the Roosevelt
                                                                                                                                          Campobello
                                                                                                                                          International
                                                                                                                                          Park
                                                                                                                                          Commission
                                                                                                                                          shall be
                                                                                                                                          submitted by
                                                                                                                                          the
                                                                                                                                          Administration
                                                                                                                                          directly to
                                                                                                                                          the House and
                                                                                                                                          Senate
                                                                                                                                          Committees on
                                                                                                                                          Appropriations
                                                                                                                                          without any
                                                                                                                                          changes. The
                                                                                                                                          Administration
                                                                                                                                          , in its
                                                                                                                                          National Park
                                                                                                                                          Service budget
                                                                                                                                          justification,
                                                                                                                                          may comment on
                                                                                                                                          the
                                                                                                                                          Commission's
                                                                                                                                          budget request
                                                                                                                                          and make such
                                                                                                                                          additions and
                                                                                                                                          subtractions
                                                                                                                                          that it may
                                                                                                                                          propose.
                                                                                                                                          However, the
                                                                                                                                          amounts
                                                                                                                                          requested by
                                                                                                                                          the National
                                                                                                                                          Park Service
                                                                                                                                          shall be
                                                                                                                                          consistent
                                                                                                                                          with its
                                                                                                                                          obligations
                                                                                                                                          under
                                                                                                                                          international
                                                                                                                                          agreements.
                                                                                                                                          The Committee
                                                                                                                                          will consider
                                                                                                                                          the proposal
                                                                                                                                          from the
                                                                                                                                          Commission and
                                                                                                                                          the
                                                                                                                                          Administration
                                                                                                                                          will allocate
                                                                                                                                          the overall
                                                                                                                                          appropriation
                                                                                                                                          as specified
                                                                                                                                          in the report
                                                                                                                                          accompanying
                                                                                                                                          the Interior,
                                                                                                                                          Environment,
                                                                                                                                          and Related
                                                                                                                                          Agencies
                                                                                                                                          Appropriations
                                                                                                                                          Act.
 
10...........................      ME              Collins    EPA   National Estuary  ...............      $27,200,000      $26,700,000  Request at
                                                                     Program.                                                             least fiscal
                                                                                                                                          year 2016
                                                                                                                                          level of $26.7
                                                                                                                                          million
 
11...........................      ME              Collins   USGS   Water Resources   ...............       $6,500,000       $6,500,000  Request at
                                                                     Research                                                             least fiscal
                                                                     Institute.                                                           year 2016
                                                                                                                                          level of $6.5
                                                                                                                                          million
 
12...........................      ME              Collins   USGS   Groundwater and   ...............      $72,957,000          n/a      Request
                                                                     Streamflow                                                           continued
                                                                     Information                                                          funding for
                                                                     Program.                                                             the
                                                                                                                                          Groundwater
                                                                                                                                          and Streamflow
                                                                                                                                          Information
                                                                                                                                          Program
 
13...........................      ME              Collins  USFWS   State and Tribal  ...............      $67,000,000      $60,600,000  Request fiscal
                                                                     Wildlife Grants.                                                     year 2016
                                                                                                                                          level funding
                                                                                                                                          of $60.6
                                                                                                                                          million
 
14...........................      ME              Collins    EPA   National          ...............                0       $4,100,000  Request at
                                                                     Priorities                                                           least fiscal
                                                                     Research Grant                                                       year 2016
                                                                     Program.                                                             level of $4.1
                                                                                                                                          million
 
15...........................      ME              Collins    OIG   Offices of        ...............  ...............       adequate    Include
                                                                     Inspectors                                              funding      adequate
                                                                     General.                                                             funding for
                                                                                                                                          all OIGs
                                                                                                                                          contained in
                                                                                                                                          the bill
--------------------------------------------------------------------------------------------------------------------------------------------------------

      Prepared Statement of the Sustainable Urban Forest Coalition
    Dear Chairman Murkowski, Ranking Member Udall, and honorable 
subcommittee members:

    The Sustainable Urban Forests Coalition (SUFC) represents more than 
30 national organizations and corporations who care and advocate for 
sustainable trees and green infrastructure where people live. 
Collectively, we are asking for your support for several programs under 
the Interior Subcommittee's jurisdiction that support urban forests and 
green infrastructure.
    Our Nation's 138 million acres of urban forests are vital to 
creating and maintaining healthy, livable communities of all sizes by 
providing scientifically proven social, economic, and environmental 
benefits to people living in populated areas. The National Urban and 
Community Forestry Advisory Council unveiled its Ten-Year Action Plan 
to advance urban forests nationwide. A key goal of the plan is to 
improve urban forest management, maintenance and stewardship. Caring 
for trees and landscapes in cities and towns creates a substantial 
demand for greencollar jobs in a sector poised for rapid growth. With a 
projected 90 percent of Americans living in urbanized areas by 2050, 
investing in livable communities needs to happen now.
    SUFC is conscious and respectful of the Federal budget challenges. 
It is critical that decision makers are aware that the relatively small 
investment in our funding requests result in a leveraged positive 
return through matching funds, preventive measures, and community 
health and welfare benefits.
            usda forest service: state and private forestry
Urban and Community Forestry Program (U&CF)
    U&CF plays an integral part in promoting sound stewardship of our 
Nation's urban and community forests and trees. By providing important 
technical and financial support, U&CF helps cities, suburbs, and towns 
across the Nation enhance tree and forest cover, prepare for storms and 
other disturbance events, contain threats from native and invasive 
pests, and maximize the economic, social, and ecological benefits of 
their tree resources. In fiscal year 2015, U&CF again increased its 
impact--reaching over 200 million people in over 7,700 communities 
across all 50 States, the District of Columbia, U.S. Territories, and 
affiliated Pacific Island Nations. U&CF is a high-impact program and a 
smart investment as Federal support is often leveraged 2:1 (or in many 
cases significantly more) by States and partner organizations. As a 
model Federal program, U&CF consistently increases communities served, 
brings together diverse partners and resources, and shows that Federal 
investment can have huge and lasting impacts on communities of all 
sizes.
    SUFC is very concerned with the significant decrease (16 percent) 
in the U&CF program in the President's fiscal year 2017 budget. In 
testimony before the House and Senate Appropriations Subcommittee on 
the Interior, Environment, and Related Agencies, U.S. Forest Service 
Chief Tidwell attributed the U&CF decrease to the increase in funding 
for the Landscape Scale Restoration (LSR) program. While U&CF projects 
have the opportunity to compete for grant funding under LSR, the SUFC 
does not support shifting funds from U&CF to LSR. LSR is a complement 
to the U&CF program, not a replacement. The proposed 16 percent 
reduction in U&CF will have negative impacts in States and Territories 
across the country, affecting many local public and private partners 
and collaborative projects in which Federal assistance has been 
essential. The decrease will erode the capacity that has been developed 
in cities and towns of all sizes through the technical and financial 
assistance delivered by State forestry agencies in partnership with the 
U&CF program. SUFC recommends the Urban and Community Forestry Program 
be funded at $31.3 million in fiscal year 2017.
Community Forests and Open Space Conservation Program (CFP)
    CFP has made substantial progress in preserving forests by 
increasing opportunities for Americans to connect with forests in their 
own communities and fostering new public-private partnerships. CFP has 
supported 27 community forest projects in cities and towns across 15 
States and Territories. In the latest round of CFP grants, project 
partners leveraged $8.7 million in Federal funds to secure $31.8 
million in non-Federal funding. As a result of these partnerships, more 
than 14,000 acres of private forestlands have been or soon will be 
acquired to create new or expand existing community forests. SUFC 
recommends an increase in funds to $5 million.
Forest Health Management
    Forests across the country are threatened by insects and disease 
pathogens introduced from abroad as an unwanted side effect of 
international trade. The damage usually starts in urban forests because 
most imported goods go to cities. As a result, municipal governments 
across the country are spending an estimated $3 billion each year to 
remove trees on city property killed by non-native pests. Homeowners 
are spending an additional $1 billion to remove and replace trees on 
their properties and are absorbing an additional $1.5 billion in 
reduced property values. The pests do not stay in the cities, however. 
They spread to the rural and wildland forests and threaten their many 
values. Examples include the emerald ash borer--now killing forest 
trees from New England to the Great Plains; and the polyphagous and 
Kuroshio shot hole borers now killing trees in southern California 
riparian areas. While preventing introductions is the desired approach, 
it is essential that the Forest Service initiate programs countering 
these pests as soon as they are detected. Forest Health Management 
program provides essential expertise and assistance to State and 
municipal agencies and private landowners working to prevent these 
pests' spread and to develop effective strategies to minimize the 
damage they cause. SUFC recommends $48 million for cooperative lands 
programs under the Forest Health Management program.
           usda forest service: forest and rangeland research
    SUFC urges the subcommittee to provide funding of $303 million for 
the overall R&D program.
Urban Forestry Research
    The Forest Service Research and Development (R&D) program provides 
critical financial support for urban forestry research activities to 
develop information and tools for understanding conditions and trends 
in our Nation's urban and community forests. Forest Service researchers 
have made huge strides in recent years through collaborative efforts to 
develop new tools, such as i-Tree, for mapping current tree cover, 
assessing trends, developing local strategies, and building greater 
understanding of the environmental, economic, and social services that 
trees and forests provide to communities. We urge the subcommittee to 
continue including language in Interior Appropriations reports 
encouraging the Forest Service to maintain a strong and vibrant urban 
forest research program.
Non-native Insects and Diseases Research
    Among the major research challenges facing R&D, SUFC believes, is 
the destruction of our Nation's urban forests caused by non-native 
insects and diseases. People who value urban forests join supporters of 
rural and wildland forests in depending on Forest Service R&D to 
develop better tools for pest detection and protective strategies 
including chemical and biological controls and breeding of trees 
resistant to pests. Currently, however, R&D provides only about $5 
million for research on non-native insects and diseases--less than 2 
percent of its total budget. In the absence of a budget line item for 
invasive species research, we urge the subcommittee to include language 
in its Interior Appropriations report encouraging the Forest Service to 
increase funding for research targeting non-native insects and 
pathogens.
Urban Forest in Forest Inventory and Analysis (FIA)
    The SUFC also wishes to call the subcommittee's attention to our 
collaborative efforts with the Forest Service to bring urban forest 
data into the mainstream of the agency's national data-collection 
program. FIA has long provided the Nation's forest census, but it has 
not historically included urban areas because of its definition of 
forests. We ask the subcommittee to encourage the Forest Service to 
continue and strengthen its efforts to integrate urban forest data into 
FIA so that its critical data-collection efforts address all of our 
Nation's forests, including our current and expanding 138 million acres 
of urban forest.
                    environmental protection agency
Clean Water State Revolving Funds (CWSRF)
    Green infrastructure, of which urban forests play a significant 
part, is a cost-effective and resilient approach to stormwater 
infrastructure needs that provides many community co-benefits: 
improving water and air quality; reducing a community's infrastructure 
cost and promoting economic growth. SUFC supports the EPA's goal of 
strengthening green infrastructure activities by incorporating green 
infrastructure and enhancing stormwater management. In fiscal year 
2016, funding was reduced in the President's budget but restored by 
Congress to $1.39 billion, resulting in only a small reduction for the 
current fiscal year. In fiscal year 2017, the President's budget 
proposes an unprecedented cut to the CWSRF to just $979.5 million. SUFC 
asks the subcommittee to restore the CWSRF to the enacted fiscal year 
2015 level of $1.45 billion. SUFC also supports efforts to expand the 
use of green infrastructure to 20 percent to meet Clean Water Act goals 
through the CWSRF.
Urban Waters Federal Partnership
    The Partnership is a unique 13 agency coordinated effort that helps 
stimulate local economies, create jobs, improve quality of life, and 
protect health by revitalizing urban waterways and the communities 
around them, focusing on underserved urban communities of all sizes. 
Partnership projects serve as a laboratory for developing and 
implementing innovative approaches to using Federal resources more 
efficiently and effectively--targeting investments and leveraging local 
leaders and community partners. SUFC supports the Urban Waters Federal 
Partnership, coordinated by the Environmental Protection Agency Office 
of Water.
                       the national park service
Outdoor Recreation Legacy Partnership Program (ORLPP)
    SUFC supports robust funding for the Land and Water Conservation 
Fund (LWCF) as reflected in the President's fiscal year 2017 budget. 
The State and Local Assistance Program provides matching grants to 
States and localities for protection and development of parks and 
recreation resources and is the primary Federal investment tool to 
ensure that families have easy access to urban forests in parks and 
open space, and neighborhood recreation resources. This nationally 
competitive program complements the existing State and local assistance 
program by creating opportunities for outdoor play as well as 
developing or enhancing outdoor recreation partnerships in cities. SUFC 
supports the President's fiscal year 2017 request of $110 million for 
the State and local assistance program, which includes $12 million for 
ORLPP.
Urban Parks Recreation Recovery Program (UPARR)
    The reestablishment of UPARR within the National Parks Service, 
proposed to be funded through LWCF, is essential to bring nature to the 
urban communities. These competitive grants focus on engaging and 
connecting communities, especially young people, to their neighborhood 
parks through projects that would revitalize and rehabilitate park and 
recreation opportunities. SUFC supports the President's fiscal year 
2017 request of $25 million for the Urban Park and Recreation Recovery 
Program (UPARR).
                     the fish and wildlife service
Urban Wildlife Refuges
    With 101 refuges within 25 miles of 250,000 or more people, the 
Refuge System is a vital component of our urban forests. FWS also 
engages with 17 urban communities not directly connected to FWS 
refuges. SUFC agrees that the more engagement of individuals with their 
surrounding urban forests, the more they will come to understand and 
appreciate nature in and around their communities. SUFC supports the 
Refuge Visitor Service at $80.38 million with the additional $5.5 
million above fiscal year 2016 enacted level to support the Urban 
Wildlife Refuges.

            Sincerely,

Alliance for Community Trees
American Forests
American Planning Association
American Public Works Association
American Rivers
American Society of Consulting Arborists
American Society of Landscape Architects
Arbor Day Foundation
Bartlett Tree Foundation
California ReLeaf
Center for Chesapeake Communities
Center for Invasive Species Prevention
International Society of Arboriculture
National Association of Clean Water Agencies
National Association of Conservation Districts
National Association of Landscape Professionals
National Association of State Foresters
National Recreation and Parks Association
Outdoor Power Equipment Industry
Society of American Foresters
Society of Municipal Arborists
Student Conservation Association
The Davey Foundation
The Nature Conservancy
Tree Care Industry Association
Trust for Public Lands
Utility Arborist Association
Water Environment Federation
      
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference
    The Tanana Chiefs Conference (TCC) would like to thank Chairwoman 
Murkowski, Ranking Member Udall, and all the members of the 
subcommittee for the opportunity to provide testimony about TCC's 
priorities.
    TCC is a non-profit intertribal consortium of 37 federally 
recognized Tribes and 41 communities located across Alaska's vast 
interior. TCC serves approximately 13,000 Alaska Natives in Fairbanks 
and the surrounding rural villages. Our traditional territory and 
current service area occupy a mostly roadless region that is nearly the 
size of Texas. It stretches from Fairbanks clear up to the Brooks Range 
and over to the Canadian border.
    Remoteness poses many challenges, but I can assure you TCC meets 
those challenges every day. TCC's priorities over the coming years 
include substantially expanding public safety and court services, 
improving healthcare quality with a renewed focus on wellness and 
prevention, growing tribal influence in fish and game management, 
ensuring responsible economic development, and increasing employment in 
the villages. The fiscal year 2017 appropriations process provides this 
subcommittee with the opportunity to provide vital resources to help us 
achieve these goals. Today, I would like to highlight a few key areas, 
including the need for additional funds for the Indian Health Service, 
the importance of funding for tribal courts and hunting and fishing 
management, and the critical role of the Federal Government in funding 
responses to climate change in in-river--not just coastal--Alaska.
                               ihs budget
    TCC was very pleased to see that the President's budget contains a 
6.5 percent increase over 2016 enacted levels. These additional funds 
are vital to addressing the critical need for health services for 
Alaska Natives and we hope the subcommittee is able to find the funds 
to meet these targets.
    Similarly, TCC supports the $48 million increase targeted to 
Purchased and Referred Care (PRC). These funds are used to buy 
healthcare when a tribal organization or IHS cannot provide the 
services. As we reported to you over the last several years, the demand 
on PRC funding has increased as healthcare costs, especially provider 
fees, have increased. These dollars will provide much needed relief to 
PRC programs across the country and especially for TCC-one of the only 
tribal health entities in Alaska that does not have a regional hospital 
and relies heavily on PRC.
    TCC supports the President's budget request for IHS which includes 
$10 million in small health clinic funding for the Small Ambulatory 
Program. In remote Alaska, where hub clinics are sometimes hundreds of 
miles from a patient--the village clinics play an integral role in 
providing not only the everyday healthcare, but the emergency care 
needed to support the healthcare impacts from an area that contains the 
highest rates of accidents and violence in the Nation. The funding 
would be used for grants to 8-10 tribes to construct new small 
ambulatory health clinics, and we are optimistic that some of these 
funds will be used to create additional healthcare facilities in the 
villages we serve.
    And finally, TCC is relieved to see that, unlike last year, the 
President's budget contains an increase of $4 million for the Domestic 
Violence and Prevention Initiative (DVPI). These funds support efforts 
to reduce the incidence of domestic violence, which affects Alaska 
Native women at a much higher rate than other populations. The 
statistics are not new. The Indian Law and Order Commission's report 
made clear just how bad the situation was: Women in Alaska's rural 
villages report rates of domestic violence up to 10 times higher than 
in the rest of the United States. Physical assault victimizations rates 
are 12 times higher. We request that you meet the President's request 
for expansion of this very successful and urgently needed program.
                         tribal courts funding
    One of TCC's strongest priorities is to see that our villages 
receive adequate public safety services. As the Indian Law and Order 
Commission's report made clear, there is a lot of work to be done to 
ensure public safety in Alaska's rural communities. Alaska is one of 
six States, called Public Law 280 States, in which jurisdiction over 
crimes in Native American communities rests mainly with the States. The 
BIA doesn't have enough funding to go around and so it prioritizes its 
public safety efforts in non Public Law 280 States on the assumption 
that Public Law 280 States are investing sufficiently in public safety 
and law enforcement in Native and rural communities. But this is simply 
not so. The Alaska Department of Public Safety, which has primary 
responsibility for providing law enforcement in rural Alaska, provides 
only 1.0 to 1.4 field officers for every one million acres. This means 
that at least 75 communities in Alaska lack any law enforcement 
presence at all. In most Alaska villages, the tribal courts are the 
only meaningful judicial voice for anything other than the most serious 
and violent of crimes.
    Tribal courts allow our villages to address public safety concerns 
in a way that is more responsive, more culturally appropriate, more 
attuned to local concerns than the State system, and most importantly 
seeks to heal and end criminal actively through a holistic community 
approach rather than incarceration which perpetuates criminal activity 
and creates more victims. Therefore, TCC was very disappointed to see 
that the President's budget requests an $8 million reduction in funding 
for tribal courts in Public Law 280 States. The BIA estimated that it 
would need around $17 million in funding to maintain parity in Federal 
funding--which is itself only a fraction of actual need--for tribal 
courts in Public Law 280 and non-Public Law 280 States. Reducing this 
funding further will only exacerbate this disparity and is a terrible 
step in the wrong direction. We ask that the subcommittee find the 
funds necessary to maintain and expand this important initiative.
                             climate change
    As this subcommittee has long heard from TCC and other tribes and 
tribal organizations, Indian and Alaska Native communities are bearing 
the brunt of the existing--and accelerating--effects of climate change. 
For us, this is not about future effects. We are being impacted now. 
Therefore, we are pleased to see that the President's budget includes 
$3.1 million in additional funds for Tribal Climate Resilience.
    However, the budget justification for this request places a strong 
emphasis on combating the effects of climate change on coastal Arctic 
villages, such as coastal erosion, and notes that the proposed increase 
``will be set aside to support Alaska Native Villages in the Arctic and 
other critically vulnerable communities to improve the long-term 
resilience of their communities.'' Although we understand the serious 
difficulties faced by our fellow Alaska Native communities on the 
coast, it is important to understand that our communities are currently 
facing a massive increase in wildfires, riverbank erosions, spring 
flooding, substantial changes to flora and fauna distributions, and 
other major threats to physical and food security in our communities, 
all due to climate change.
    It can be stated with certainty that in the spring and summer 
months, with flooding threats and millions of acres on fire at a given 
time, Interior Alaska experiences the most impacts of climate change of 
any place in the Nation. Senator Murkowski and I visited the hub 
village of McGrath this past October and saw first-hand how the already 
vulnerable Kuskokwim River bank is threatened by erosion and the 
community's response. This past summer, wildfires came literally within 
feet of destroying the villages of Nulato and Tanana and today there is 
a lot of work to be done towards rehabilitation of specific burned 
sites which impact these two villages. Therefore we ask the 
subcommittee to direct the BIA to make sure that this much-needed 
increase is also used to combat the effects of climate change on in-
river villages as well.
                         subsistence management
    The number one priority for not only Athabascans of Interior, but 
for all Alaska Natives is to continue traditional hunting and fishing 
practices which promote the social, cultural and spiritual well-being 
of our people. TCC and the Tribes along with Doyon and Fairbanks Native 
Association have partnered to ensure Alaska Natives and tribes have an 
increased role in hunting and fishing management. King Salmon have been 
a staple food source for many rural Alaskans across the State, yet 
failed management has recently prevented adequate subsistence harvests 
to meet our well-being needs. Tribal ability to manage hunting and 
fishing resources has been crippled by the Alaska Native Claims 
Settlement Act, but because of our dedicated unity towards this issue, 
tribes are increasingly proving to fill a necessary role in order for 
the State and Federal managers to achieve success.
    TCC has endeavored to take a stronger role in oversight and 
management of subsistence resources, including taking an active part in 
the establishment of intertribal fish commissions for the Yukon and 
Kuskokwim rivers respectively. The sole reason, the State of Alaska 
achieved for the first time in years, its Yukon River salmon treaty 
obligations to Canada is because the Yukon River Intertribal Fish 
Commission called for a river-wide moratorium on King Salmon fishing.
    The tribes are the most dedicated stakeholders in the efforts to 
save the King Salmon and should be given the proper funding and 
authority to carry out those stewardship duties that we will never turn 
our backs to. Therefore, TCC supports proposed increase of $5 million 
for the Tribal Management/Development Program, with $2 million of this 
increase to address subsistence management in Alaska. We ask that you 
meet this important request and ensure the funding will go towards 
tribal projects rather than State, Federal or other projects that have 
continued to disenfranchise those most dependent on the resources--the 
rural Alaska Native people.
                         contract support costs
    Finally, let me address the contract support cost issue. It has 
long been recognized that TCC provides far better services to our 
communities than the BIA or IHS ever did, and this is why supporting 
and honoring our TCC contracts with the BIA and IHS is so important. 
Our ability to maximize the results of our self-governance and to run 
robust programs depends on our receiving full contract support cost 
(CSC) reimbursements.
    In the past few years, significant strides have been made in this 
area. Thanks in large part to this subcommittee, we are now in an era 
of full CSC funding. We were delighted that the President's budget 
estimate for CSC again provides for full funding. However, we ask that 
the Committee discontinue a proviso that was included in last year's 
bill and in the President's request because it is counter to existing 
law. Specifically, the proviso would direct that CSC amounts that were 
obligated but not expended by a tribe for the current fiscal year be 
applied to CSCs otherwise due in subsequent fiscal years. The Indian 
Self-Determination Act already addresses the use and disposition of 
unexpended contract and compact funds. Therefore, the proviso is 
unnecessary. Further, the proviso will cause unnecessary accounting 
difficulties.
    On a related note, we ask the subcommittee to include language in 
the appropriations act making clear that IHS must pay contract support 
costs on MSPI and DVPI program funds. Despite years of acknowledging 
that CSCs are due on these program funds, IHS in 2013 reversed course 
and started requiring tribes to cover these CSC costs with program 
funds. This position is in clear conflict the Indian Self-Determination 
Act, and nothing separates these programs from any other program within 
the Indian Health Service. Further, these program funds should be 
transferred to us through our existing self-governance compact, and it 
shouldn't be necessary for us to execute separate grant agreements with 
IHS. The whole idea of the 1988 and 1994 amendments to the Indian Self-
Determination Act was to get away from having multiple different 
contracts and grants, and to consolidate and streamline our 
relationship with IHS.
    Thank you again for the opportunity to testify on behalf of TCC. We 
believe that the proposed increases will have a deep, meaningful, 
impact for the tribal members of Interior Alaska, and for the 
betterment of all Alaskans.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group
    Mr. Chairman and distinguished members of the subcommittee, Theatre 
Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our 523 not-for-profit member theatres across the country 
and the nearly 33 million audience members that the theatre community 
serves. We urge you to support funding at $155 million for the National 
Endowment for the Arts for fiscal year 2017.
    The entire not-for-profit arts industry stimulates the economy, 
creates jobs, and attracts tourism dollars. The not-for-profit arts 
generate $135.2 billion annually in economic activity, support 4.13 
million jobs, and return $22.3 billion in government revenue. Art 
museums, exhibits, and festivals combine with performances of theatre, 
dance, opera, and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating many more dollars in matching funds for 
each Federal dollar awarded, and is clearly an investment in the 
economic health of America. In an economy where corporate donations and 
foundation grants to the arts are diminished and increased ticket 
prices would undermine efforts to broaden and diversify audiences, 
these Federal funds simply cannot be replaced. Maintaining the strength 
of the not-for-profit sector, along with the commercial sector, is 
vital to supporting the economic health of our Nation.
    Our country's not-for-profit theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning, and communication abilities--preparing today's 
students to become tomorrow's citizens. Our theatres present new works 
and serve as catalysts for economic growth in their local communities. 
These theatres also nurture and provide artistic homes for the 
development of the current generation of acclaimed writers, actors, 
directors, and designers working in regional theatre, on Broadway, and 
in the film and television industries. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times and producing work that reflects and 
celebrates the strength of our Nation's diversity.
Here are some recent examples of NEA grants and their impact:
    Actors Theatre Of Louisville in Louisville, Kentucky, received 
$50,000 to support the Humana Festival of New American Plays. The 
festival is a showcase of new theatrical work featuring American 
playwrights. The company will produce several full-length plays, 
multiple 10-minute plays, and a commissioned work to be performed by 
its Acting Apprentice Company. Outreach activities will include panels 
and community forums. The event always attracts national theatre 
industry professionals from the United States and abroad.
    The Coterie Theatre in Kansas City, Missouri, was awarded $10,000 
to support the development and production of Imaginary Friends by 
Laurie Brooks. The theater commissioned Brooks to write a play for 
teens and families that is adapted from a short story by her brother 
and award-winning fantasy author, Terry Brooks. The story centers on a 
young teen with a serious illness who must face a demon alone. 
Playwright Brooks will further develop the play and add a new work of 
fantasy to the canon of dramatic literature available for young 
audiences. Residencies in schools and interactive post-show forums will 
prepare students for its challenging themes and topic. The Coterie may 
partner with Children's Mercy Hospital to benefit youth and families 
who are or have been recent patients.
    Oregon Shakespeare Festival in Ashland, Oregon, received $70,000 to 
support productions of Vietgone by Qui Nguyen, directed by May Adrales, 
and The Winter's Tale by William Shakespeare, directed by Desdemona 
Chiang. The productions, which will play opposite each other in 
repertory, will be directed by Asian-American women and feature 
primarily Asian-American actors. Vietgone recounts the story of 
Vietnamese refugees who escaped the fall of Saigon and made it to the 
United States. The Winter's Tale will be set at the turn of the 20th 
century in dynastic mainland China. The productions will be accompanied 
by educational activities as part of the annual conference of the 
National Association of Asian-American Theatre Artists.
    Trinity Repertory Company in Providence, Rhode Island, was awarded 
$20,000 to support a production of To Kill a Mockingbird, based on the 
novel by Harper Lee and adapted for the stage by Christopher Sergel. 
Directed by Brian McEleney and using color-blind casting, the 
production will be designed to reflect not only the Civil Rights Era in 
which the novel was written, but also the contemporary post-Ferguson 
world in which we live. The production will be supported by a wide 
range of in-school and community engagement activities such as artist-
led classroom workshops, panel discussions, and post-show discussions 
with actors and artists.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theatre Program is able to fund only 50 percent of the 
applications it receives, so 50 percent of applying theatres are turned 
away because available funds are insufficient. Theatre Communications 
Group urges you to support a funding level of $155 million for fiscal 
year 2017 for the NEA; to maintain citizen access to the cultural, 
educational, and economic benefits of the arts; and to advance 
creativity and innovation in communities across the United States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and economic vitality. It is supported by a 
remarkable combination of government, business, foundation, and 
individual donors and represents a striking example of Federal/State/
private partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts. The NEA was 
funded at $148 million in the fiscal year 2016 budget; however, it has 
never recovered from a 40 percent budget cut in fiscal year 1996, and 
its programs are still under-funded. We urge the subcommittee to fund 
the NEA at a level of $155 million to preserve the important cultural 
programs reaching Americans across the country.
    Thank you for considering this request.
                                 ______
                                 
       Prepared Statement of the Tohono O'odham Nation of Arizona
                       summary of budget requests
1. Funding for Interior's implementation of SAWRSA/AWSA water rights 
        settlement.
2. Increased funding for BIA Law Enforcement programs.
3. Increased funding for BIA Roads Maintenance.
4. Increased funding for Indian Health Service Facilities Construction.
                       introduction & background
    Good afternoon, Chairman Murkowski, Ranking Member Udall and 
distinguished members of the subcommittee. My name is Edward Manuel and 
I am the Chairman of the Tohono O'odham Nation, a federally recognized 
tribe with more than 32,000 members. The Tohono O'odham Reservation 
consists of more than 2.8 million acres in the Sonoran Desert, shares a 
75-mile border with Mexico, and is one of the largest Indian 
reservations in the United States.
    Thank you for the opportunity to testify about the Nation's Federal 
funding priorities. Let me begin by saying that the Nation appreciates 
the subcommittee's dedication to providing Indian Country with much-
needed resources in a very challenging fiscal climate. My testimony 
will focus on the following priorities: funding to implement our 1982 
water rights settlement, law enforcement, roads, and healthcare.
   i. funding to implement the nation's 1982 water rights settlement
    The President's fiscal year 2017 budget request contains no request 
for funding to implement the Nation's historic water settlement, the 
Southern Arizona Water Rights Settlement Act of 1982, Public Law 97-293 
(``SAWRSA''), as amended in 2004 by the Arizona Water Settlements Act, 
Public Law 108-451 (``AWSA''). The Nation is facing a serious water 
crisis because of the United States' continued failure to fund this 
water settlement, despite statutory authorization and clear direction 
to Interior to do so. Under SAWRSA, as amended through the AWSA, the 
Nation gave up significant superior claims to ground water and surface 
water in the Upper Santa Cruz Basin. In exchange for releasing these 
claims, the United States promised that the Nation would receive 
reliable, affordable and long-term access to Central Arizona Project 
(CAP) water.
    In SAWRSA, Congress created the Cooperative Fund to pay for water 
deliveries: The parties to the settlement recognized there would be 
costs associated with the delivery of the Nation's CAP water. To 
address these ongoing delivery charges in 1982 Congress created the 
Cooperative Fund and authorized $16 million in Federal contributions 
toward the Fund. But in fact, the United States has never made this 
contribution to the Fund. In 2004, Congress doubled the United States' 
promised contribution to $32 million, and explicitly identified the 
Lower Colorado River Basin Development Fund as an additional source for 
this funding. SAWRSA as amended provides that Interior must provide 
notice to Congress of the funding amounts necessary to carry out the 
United States' obligations under the Act. However, despite repeated 
efforts to spur the Department into action, Interior has never 
requested any of the $32 million authorized under SAWRSA.
    Failure to make Federal contributions leaves the Cooperative Fund 
severely undercapitalized: The settlement provided that the Federal 
Government can only use the interest (and not the principal) for the 
Nation's water delivery costs. Had the two $16 million Federal 
contributions been deposited as intended, the principal and accrued 
interest on these deposits would total more than $90 million today. 
Instead, as of March 4, 2016, there is only $34,393,003 in the Fund, 
less than $14 million of which is expendable interest. Again, despite 
repeated efforts to urge the Department to act, Interior has never 
officially notified Congress of the Fund shortfall.
    Federal projections show that the Cooperative Fund will run out of 
interest within 3 years: Because these key Federal contributions were 
never made, the Cooperative Fund is in jeopardy--Interior modeling 
shows that the Fund will run out of expendable interest within 3 years 
if the Nation uses the CAP water entitlement guaranteed by its 
settlements. At present, the delivery costs chargeable to the 
Cooperative Fund are approximately $4.5 million per year. These 
delivery costs continue to rise with the increase in the cost of energy 
needed to deliver the CAP water. In the absence of swift action to 
rectify the implementation problems under SAWRSA and AWSA, the Nation 
will not be able to receive the benefits of the substitute water supply 
promised to the Nation in the settlements.
    If the Cooperative Fund runs out of interest, the Nation will be 
unable to take delivery of its CAP replacement water, and the 
consequences will be severe: Unless SAWRSA is funded as Congress has 
authorized and directed, the Nation will not receive the benefit of its 
bargain and may lose access to its water entitlements--resulting in the 
closure of long-operating farms in which the Nation has invested tens 
of millions of tribal dollars, layoffs for dozens of employees, default 
on crop loans, and the breach of related water settlement agreements.
    Interior must act to begin to adequately capitalize the Cooperative 
Fund: The Nation respectfully requests that this subcommittee direct 
Interior to provide formal notice of the Cooperative Fund shortfall and 
that funding be included in the fiscal year 2017 budget for the Bureau 
of Indian Affairs. Without water, water settlements are meaningless, 
and we ask the Congress to ensure the agreement the United States made 
with the Nation is fully implemented.
                          ii. law enforcement
    The President's fiscal year 2017 budget requests $341 million for 
Bureau of Indian Affairs Law Enforcement, which is a decrease of over 
$6 million from the fiscal year 2016 enacted level. The Nation requests 
that Congress increase funding for BIA law enforcement, not decrease 
it.
    The Nation faces significant and unique law enforcement challenges: 
The location and size of the Nation's reservation presents unique and 
difficult law enforcement challenges. The Tohono O'odham Police 
Department (TOPD) must cover a huge geographic area, including many 
remote and isolated areas that are difficult to access. Communication 
among law enforcement agencies is also a challenge. In addition, our 
reservation includes a 75-mile southern border with Mexico, which is 
the longest shared international border of any Indian tribe in the 
United States. In addition, there are fourteen O'odham communities with 
a population of 1,800 members located across the border. These tribal 
members living in Mexico present unique border issues and challenges 
for the Nation. Because of the Nation's location at the border, drug 
trafficking, illegal immigration and border security divert tribal 
police force resources. The Nation spends millions of dollars annually 
from tribal revenues to help meet the United States' border security 
responsibilities.
    Current funding is utterly inadequate to meet the needs of tribal 
law enforcement: As NCAI has noted, ``The Bureau of Indian Affairs 
recently conducted an analysis of law enforcement needs pursuant to the 
Tribal Law and Order Act, and found that current funding meets only 42 
percent of the need for law enforcement, and an additional $337 million 
is needed to bring staffing up to median county government law 
enforcement levels based on population.'' (NCAI Budget Request fiscal 
year 2017). The Nation's unique law enforcement needs require even 
greater resources. In 2015 TOPD officers handled 92,887 calls for 
service--a 5.26 percent increase in calls over 2014 figures. During the 
same year, TOPD and Customs and Border Protection (CBP) seized over 
368,000 pounds of marijuana on the Nation. These increased law 
enforcement needs have led to significant capacity challenges at the 
Nation's Corrections Center, where a facility with a rated capacity of 
107 beds serves an average daily population of 140 inmates. Millions of 
dollars in additional funding is desperately needed to address 
improvements at the Corrections Center ($2.1 million) and to hire and 
train officers, purchase vehicles, and to improve the security of the 
police station ($5.9 million).
    The Nation strongly supports NCAI's funding recommendations: The 
National Congress of American Indians (NCAI) recommends an increase in 
funding for BIA law enforcement by at least $200 million over the 
fiscal year 2015 funding level of $328 million (the fiscal year 2016 
enacted level was $347.9 million), including an increase in funds for 
officer recruitment and training and for tribal detention facilities 
operations and maintenance. The Tohono O'odham Nation strongly supports 
and concurs in that request.
                           iii. roads funding
    For fiscal year 2017 the President has requested $26.8 million for 
BIA Road Maintenance, an increase of only $90,000 from the fiscal year 
2016 enacted level. NCAI has advocated for a significantly greater 
funding level, at $40 million.
    The BIA Road Maintenance Program is responsible for maintaining 
approximately 29,400 miles of roads in Indian Country, and the funding 
for that program has been woefully inadequate for years. According to 
NCAI, the current deferred maintenance for BIA roads is in the 
neighborhood of $300 million.
    The Nation has hundreds of miles of poorly maintained roads: The 
Tohono O'odham Nation's reservation encompasses over 4,500 square 
miles. There are hundreds of miles of roads on the Nation, including 
approximately 500 miles of arterial and collector roads (roads with 
significant traffic and higher speed limits), plus many more local and 
dirt and gravel roads used by the Nation's members. Maintaining the 
reservation's vast road system is a major challenge. Our roads are in 
very bad condition, due in large part due to inadequate BIA funding for 
repair and maintenance. The poor condition of the roads is further 
exacerbated by heavy monsoon rains and flooding. The roads are marred 
by sink holes, pot holes, broken and cracked pavement, and weakened and 
washed out bridges. During monsoon season, the flooding often 
completely inundates the roads and makes them impassable; it also 
washes out bridges, isolating communities, stranding children on school 
buses and preventing access for emergency vehicles. A number of our 
people have been killed by flooding while traveling on these roads.
    Bureaucratic red tape further exacerbates road damage: The Nation's 
already deteriorated roads suffer further damage from heavy usage by 
CBP vehicles, which have increased dramatically in number on the 
Nation's reservation in response to border security issues. The poor 
conditions of these roads negatively affects CBP's and TOPD's ability 
to respond to emergencies and support mission critical operations, and 
tribal members' ability to undertake simple day-to-day activities like 
driving to the grocery store or doctor's office. Both the Nation and 
CBP need roads that are accessible and safe to travel, and that ensure 
the safety and security of tribal citizens, TOPD law enforcement, and 
CBP patrol officers.
    The Nation has attempted to work with CBP to repair these damaged 
roads, but BIA objects to these repairs because of liability concerns 
while at the same time acknowledging that the BIA does not have the 
funding to repair them. Despite years of discussion, BIA and CBP have 
not been able to reach agreement on how they can use their existing 
appropriations and authorities to fund the repair of the roads damaged 
by CBP vehicles--effectively endangering the safety of both CBP and the 
Nation's citizens using those roads.
    We ask that the subcommittee work with the HSGAC Subcommittee to 
make clear in both appropriations bills that both agencies have 
authority and responsibility to use their funding to repair and 
maintain the Nation's roads that have been damaged by CBP vehicles.
    The Nation strongly supports NCAI's funding recommendations: In 
sum, the Nation strongly supports NCAI's recommendation that Congress 
provide $40 million for the BIA Road Maintenance Program--as NCAI has 
made clear, this is the minimum amount needed ``to begin to address the 
most critical maintenance needs of BIA roads in Indian Country.'' (NCAI 
Budget Request 2017).
                            iv. health care
    The President's fiscal year 2017 budget request includes $132 
million for Health Care Facilities Construction, an increase of $27 
million from the fiscal year 2016 enacted level. The increase will 
provide an additional $11.4 million for construction projects from the 
Health Care Facilities Construction Priority List. This will provide 
funding for the six Health Care Facilities Construction projects in 
fiscal year 2017, none of which are on the Nation.
    The Indian Health Service Unit that serves the Nation in Sells, 
Arizona is over 50 years old and one of the oldest facilities within 
IHS: The Sells IHS Unit can handle only minor medical issues, and is 
completely inadequate to serve the Nation's needs. The Sells 
replacement hospital has been on the IHS facilities construction list 
for more than 20 years. There are several projects ahead of the 
Nation's Sells IHS Unit on the priority list, totaling hundreds of 
millions of dollars. Even with the requested budget increase, the Sells 
Unit still will not be funded, although it will be closer to being 
funded. This illustrates the need for additional funding for Health 
Care Facilities Construction. Additional funding is needed for IHS to 
work its way down the ``priority list'' and eventually begin work on a 
replacement facility for the Nation.
    We ask that the Committee provide substantial increases to the IHS 
Facilities budget.
                                 ______
                                 
            Prepared Statement of The Trust for Public Land
    Chairwoman Murkowski, Ranking Member Udall, and distinguished 
members of the Interior subcommittee:

    Thank you very much for the opportunity to submit testimony on 
behalf of The Trust for Public Land in support of programs under your 
jurisdiction for the fiscal year 2017 appropriations process. The Trust 
for Public Land (TPL) is a national nonprofit land conservation 
organization working to protect land for people in communities across 
the Nation. We are extremely grateful for the support members of this 
subcommittee and other conservation leaders in Congress have shown for 
Federal conservation programs during these challenging fiscal times. We 
recognize that the subcommittee will again face enormous challenges in 
meeting the broad range of priority needs in the Interior and 
Environment bill this year. Our work in many of your States and 
elsewhere around the country shows that there is tremendous support for 
conservation and access to recreation at the local, State and Federal 
level, and the programs under your jurisdiction play a critical role in 
bringing those community visions to reality. Thank you for your 
support.
    Federal funding is an absolutely critical part of the conservation 
toolbox and provides manifold benefits to the American people. Given 
the limited public conservation funding at all levels of government, 
TPL works to leverage Federal conservation dollars, bringing to bear 
private philanthropic support as well as State and local funding to 
forge solutions to sometimes complex conservation funding challenges. 
The major programs under your jurisdiction that we count on year in and 
year out are the entire suite of Land and Water Conservation Fund 
(LWCF) programs--including BLM, FWS, NPS and USFS acquisitions, NPS 
State and local grants, the Forest Legacy Program, the Cooperative 
Endangered Species Conservation Fund and the American Battlefield 
Protection Program--as well as the USFWS North American Wetlands 
Conservation Act and the USFS Community Forest Program.
    Land and Water Conservation Fund.--The Land and Water Conservation 
Fund (LWCF) celebrated its 50th anniversary in 2014. In the fiscal year 
2016 omnibus appropriations bill, Congress took an important step by 
reauthorizing the program for three additional years until 2018 and 
appropriating $450 million, an increase from $306 million. These two 
actions were a major achievement. We are extremely grateful to the 
members of the subcommittee for their critical role in this successful 
effort, which will result in important conservation and outdoor 
recreation investments at the local, State and Federal levels. 
Investments in conservation and outdoor recreation make sound economic 
sense. The Outdoor Industry Association estimates that active outdoor 
recreation contributes $646 billion annually to the U.S. economy, 
supports nearly 6.1 million jobs across the country, and generates 
$39.9 billion in annual national tax revenue.
    We strongly support the fiscal year 2017 President's budget 
proposal to fully fund the Land and Water Conservation Fund at $900 
million, with $475 million from discretionary sources and $425 million 
in mandatory funds, for the various component programs funded under 
LWCF. In the fiscal year 2017 bill, we respectfully request that you 
allocate at least the $475 million in discretionary funding to support 
essential community-based conservation and outdoor recreation needs. We 
recognize that the mandatory funding request requires additional 
legislative action, and we appreciate the support of the subcommittee 
as that process moves forward. Continued annual investment in the 
entire suite of LWCF programs as proposed in the budget is essential 
and we are ready to work with the subcommittee to ensure that dollars 
invested are well spent on our Nation's most urgent needs. We greatly 
appreciate the key role your subcommittee plays in ensuring that 
program dollars are used for high-priority strategic investments and 
appreciate that in challenging budgetary times you have maintained a 
commitment to this bipartisan program.
    LWCF's programs bring specific and complementary conservation 
benefits to the American public. These key programs are:
    BLM/FWS/NPS/USFS Land Acquisitions.--Every year tens of millions of 
Americans, as well as visitors to our country, enjoy our Federal public 
lands--national parks, forests, wildlife refuges and BLM conservation 
lands. Recent data shows that National Park Service units were visited 
by larger numbers than in the past 20 years. Strategic inholding and 
other acquisitions in these Federal areas through LWCF ensure 
recreation access and nature education; foster vital economic growth; 
protect clean water and other community resources; enhance the 
incomparable natural and scenic treasures that belong to all Americans; 
and frequently resolve complex land-use conflicts and produce 
management savings. Without adequate funding, the unfortunate 
alternative often is an irretrievable loss of public use and enjoyment 
of these areas and irreversible damage to the resources we all care 
about.
    This is precisely the choice for numerous outdoor recreation and 
natural resource protection projects budgeted in fiscal year 2017, 
including lands in the Tahoe and Eldorado national forests in 
California, Hawaii Volcanoes National Park, and the Appalachian Trail 
near Harpers Ferry, West Virginia. The Trust for Public Land is working 
in these and other areas identified in the President's budget and looks 
forward to working with the subcommittee as you consider these critical 
needs.
    We applaud the inclusion of recreational access line items in the 
fiscal year 2016 omnibus appropriations bill for each of the four land 
management agencies--with particular emphasis on BLM and USFS--and 
support similarly focused funding in the fiscal year 2017 bill to 
address opening up and improving public access to the outdoors.
    We urge the subcommittee to allocate at least the discretionary 
funding levels for each land management agency as proposed in the 
fiscal year 2017 President's budget: BLM--$32.301 million; FWS: $35.884 
million; NPS: $37.314 million; USFS: $49.703 million.
    USFS: Forest Legacy Program.--For 25 years, the Forest Legacy 
Program has been an extraordinarily effective program, providing 
assistance to States and localities seeking to preserve important 
working forests. It has protected over 2.5 million acres of forestland 
and has leveraged more than the required 25 percent match. For fiscal 
year 2017, the President's budget recommends projects that provide 
multiple public benefits through forest protection--clean water, 
wildlife protection, climate change adaptation and mitigation, public 
access to recreation, economic development and sustainable forestry. We 
urge your continued support for sustained investment in this strategic 
and successful program. Included in the fiscal year 2017 budget 
proposal are numerous projects where TPL is working with States, 
landowners and other partners to protect recreation access for 
snowmobilers and hikers, ensure jobs in the woods, buffer important 
Federal and State conservation areas and provide strategic land 
conservation that fits a larger goal. Among these are the Whitefish 
Lake Project which will protect the recreational access, a municipal 
water supply and critical wildlife habitat near Whitefish and Columbia 
Falls in Montana; a 3,714-acre tract in the Rio Brazos watershed in New 
Mexico; and a 1,533-acre property at Wallowa Lake in northeastern 
Oregon. We support a minimum of $62.347 million in discretionary 
funding for the Forest Legacy Program in fiscal year 2017.
    USFWS: Cooperative Endangered Species Conservation Fund.--We are 
grateful for the subcommittee's historic support for USFWS grant 
programs, including the Cooperative Endangered Species Conservation 
Fund (CESCF), which leverages State and private funds and has protected 
threatened and endangered species habitat across the Nation. Two 
components of this program are funded via LWCF: the Habitat 
Conservation Plan (HCP) Land Acquisition program and the Recovery Land 
Acquisition (RLA) program. The CESCF has been critical to communities 
in Montana, California, and Hawaii where landowners and public wildlife 
managers are working together through integrated HCP's to foster 
species recover and appropriate economic development. We support at 
least the enacted level of $30.8 million for the HCP and RLA programs.
    NPS: State and Local Assistance grants.--Since 1965, the State and 
local assistance grant program has provided over $4 billion in Federal 
funds for more than 42,000 projects in States and local communities for 
park protection and development of recreation facilities. This program 
reaches deep into communities across our Nation, supporting citizen-led 
efforts to conserve places of local importance and opportunities for 
close-to-home recreation. Through our Parks for People Program, The 
Trust for Public Land works with local communities to create, build, 
design, fund and care for parks, trails and playgrounds. As we continue 
our work with many of these communities to meet these needs, we hope 
the subcommittee will fully fund the administration's discretionary 
request for stateside grants and that a mandatory full-funding LWCF 
solution will provide much-needed additional funding for this important 
program. We also strongly support the allocation of a portion of LWCF 
State and local assistance funds to the nationwide competitive program, 
the Outdoor Recreation Legacy Program, which has now been included in 
three consecutive appropriations bills. Last year Congress demonstrated 
a deeper commitment to this program by bringing its funding level up to 
$12 million, for which we are extremely grateful. We greatly appreciate 
the subcommittee's leadership in setting aside these funds and support 
an allocation of no less than $12 million for ORLP in fiscal year 2017.
    NPS: American Battlefield Protection Program.--We applaud the 
subcommittee for its longstanding commitment to this important program, 
which complements acquisitions of threatened Civil War, Revolutionary 
War, and War of 1812 properties in national park units with non-Federal 
land protection of key battlefield sites. We hope that Congress can 
fully fund the program again at the enacted $10 million level.
    Beyond LWCF, we urge the subcommittee to provide adequate funding 
to other conservation programs including:
    USFWS: North American Wetlands Conservation Act.--We respectfully 
request your support for program funding at the enacted and proposed 
level of $34.1 million in fiscal year 2017. The North American Wetlands 
Conservation Act (NAWCA) provides much-needed matching grants to carry 
out wetlands conservation, restoration and enhancement projects. A 
recent NAWCA grant will help ensure protection of a 215-acre property 
in the growing suburbs of Portland, Maine, including a 46 acre pond 
that provides habitat for waterfowl and migratory birds. NAWCA is a 
highly leveraged program with a substantial record of success and is 
another important Federal conservation tool to support critical wetland 
habitat.
    USFS: Community Forest Program.--We urge your continued support for 
the Community Forest Program (CFP), which complements existing 
conservation programs by helping communities and tribes identify, 
purchase, and manage locally important forestlands that are threatened 
with development. These community forests can be tailored to local 
needs, from timber revenue for municipal or county budgets to 
recreation access and outdoor education. Every Federal dollar from CFP 
is evenly matched by funding from State, local, and private sources. 
The Forest Service has now approved 27 grants in 15 States for 
innovative local and tribal projects, and the program has generated 
significant interest from local entities concerned about the future of 
their close-to-home forests. Given the strong interest in community 
forests from coast to coast, we urge you to include $5 million in the 
fiscal year 2017 bill for this innovative conservation tool.
    Wildfire Disaster Funding Act.--We also support efforts to improve 
budgeting for forest fire management that will provide Federal agencies 
the means to fight fires without raiding other important Federal 
programs, like LWCF. America's forests and forest-dependent communities 
are at risk from outbreaks of pests and pathogens, persistent drought, 
and the buildup of hazardous fuels. Urbanization and development 
patterns are placing more homes and communities near fire-prone 
landscapes, leading to more destructive and costly wildfires. 
Unfortunately and again in fiscal year 2015, the 10-year average was 
not enough to meet the USFS suppression needs, forcing the agency to 
transfer $700 million from non-suppression accounts to make up for the 
shortfall. The current wildfire suppression funding model and cycle of 
transfers and repayments has negatively impacted the ability to 
implement forest management, among many other activities. Additionally, 
the increasing 10-year average to has not met annual suppression needs 
since before fiscal year 2002, which is why we are thankful to the 
subcommittee for the full transfer repayment and increased suppression 
funding in fiscal year 2016. However, we understand this is not 
expected to occur every year. DOI and USFS need a long-term fire 
funding solution that would result in stable and predictable budgets.
    We appreciate the subommittee's support of the bipartisan Wildfire 
Disaster Funding Act, which addresses Federal fire funding challenges 
as well as other bipartisan congressional efforts in this regard. We 
respectfully request a bipartisan fire funding solution that would (1) 
access disaster funding, (2) minimize transfers, and (3) address the 
continued erosion of agency budgets over time, with the goal of 
reinvesting in key programs that would restore forests to healthier 
conditions.
    The programs highlighted here are critical to the future of 
conservation at the local, State and Federal levels; reflect the 
continued demand on the part of the American people for access to 
outdoor recreation; and help sustain our economy and reflect the true 
partnership that exists in Federal conservation efforts. As ever, we 
are deeply thankful for the subcommittee's recognition of the 
importance of these programs and urge you to maintain robust funding 
for them in the fiscal year 2017 Interior, Environment and Related 
Agencies bill. Thank you for your help and support, and for your 
consideration of our requests.
                                 ______
                                 
                Prepared Statement of the USGS Coalition
    The USGS Coalition appreciates the opportunity to provide testimony 
about the fiscal year 2017 budget for the United States Geological 
Survey (USGS). The USGS Coalition supports the administration's budget 
request of $1.2 billion for the USGS. The requested funding would allow 
the agency, by advancing scientific discovery and innovation, to 
sustain current efforts and make strategic investments that will 
produce the impartial knowledge and decision support tools needed by 
decision-makers across the country.
    Few modern problems can be addressed by a single scientific 
discipline. The USGS is uniquely positioned to provide information and 
inform responses to many of the Nation's greatest challenges. The USGS 
is an agency that has a unique capacity to deploy truly 
interdisciplinary teams of experts to gather data, conduct research, 
and develop integrated decision support tools that improve ecosystem 
management, ensure accurate assessments of our water quality and 
quantity, reduce risks from natural and human-induced hazards, deliver 
timely assessments of mineral and energy resources, and provide 
emergency responders with accurate geospatial data and maps.
    The USGS Coalition is an alliance of over 70 organizations united 
by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. The Coalition 
supports increased Federal investment in USGS programs that underpin 
responsible natural resource stewardship, improve resilience to natural 
and human-induced hazards, and contribute to the long-term health, 
security, and prosperity of the Nation.
                   essential services for the nation
    Established by Congress as a branch of the Department of the 
Interior in 1879, the United States Geological Survey has a national 
mission that extends beyond the boundaries of the Nation's public lands 
to positively impact the lives of all Americans. The agency plays a 
crucial role in protecting the public from natural hazards, assessing 
water quality and quantity, providing geospatial data, and conducting 
the science necessary to manage our Nation's biological, mineral, and 
energy resources. Through its offices across the country, the USGS 
works with partners to provide high-quality research and data to 
policymakers, emergency responders, natural resource managers, civil 
and environmental engineers, educators, and the public. A few examples 
of the USGS' valuable work are provided below.
    The USGS plays an important role in reducing risks from natural 
hazards that jeopardize human lives and result in billions of dollars 
in damages annually. Seismic networks and hazard analysis are used to 
formulate earthquake probabilities and to establish building codes. The 
continued efforts on an earthquake early warning system, ShakeAlert, 
can provide advance notice of ground shaking from an earthquake to 
allow for the protection of life and property. USGS volcano monitoring 
provides warnings to avian officials about impending eruptions. Data 
from the USGS network of streamgages enable the National Weather 
Service to issue flood and drought warnings. The bureau and its Federal 
partners map seasonal wildfires and assess the potential spread of 
fires.
    The Survey collects scientific information on water availability 
and quality to inform the public and decision-makers about the status 
of freshwater resources and how they are changing over time. During the 
past 130 years, the USGS has collected streamflow data at over 21,000 
sites, water-level data at over 1,000,000 wells, and chemical data at 
over 338,000 surface-water and groundwater sites. This information is 
needed to effectively manage freshwaters--both above and below the land 
surface--for domestic, public, agricultural, commercial, industrial, 
recreational, and ecological purposes.
    USGS assessments of mineral and energy resources--including rare 
earth elements, coal, oil, unconventional natural gas, and geothermal--
are essential for making decisions about the Nation's future. The 
Survey identifies the location and quantity of domestic mineral and 
energy resources, and assesses the economic and environmental effects 
of resource extraction and use. The agency is mapping domestic supplies 
of rare earth elements necessary for widespread deployment of new 
energy technologies, which can reduce dependence on foreign oil. The 
USGS is the sole Federal source of information on mineral potential, 
production, and consumption.
    USGS science plays a critical role in informing sound management of 
natural resources on Federal and State lands. The USGS conducts 
research and monitoring of fish, wildlife, and vegetation--data that 
informs management decisions by other Interior bureaus regarding 
protected species and land use. Ecosystems science is also used to 
control invasive species and wildlife diseases that can cause billions 
of dollars in economic losses. The Survey provides information for 
resource managers as they develop adaptive management strategies for 
restoration and long-term use of the Nation's natural resources in the 
face of environmental change.
    Research conducted by the USGS is vital to predicting the impacts 
of land use and climate change on water resources, wildfires, and 
ecosystems. The Landsat satellites have collected the largest archive 
of remotely sensed land data in the world, allowing for access to 
current and historical images that are used to assess the impact of 
natural disasters and monitor global agriculture production. The USGS 
also assesses the Nation's potential for carbon sequestration. Other 
Interior bureaus use USGS research on how climate variability affects 
fish, wildlife, and ecological processes to inform natural resource 
management decisions.
                                funding
    Over the years, Congress has worked in a bipartisan fashion to 
provide essential funding to the USGS. These efforts have paid 
dividends and helped the USGS provide answers to the challenging 
questions facing decision-makers across the country.

    The funding level proposed for fiscal year 2017 for the USGS would 
allow the agency to invest in mission critical areas, including:

  --Support for development of the Landsat 9 ground system;
  --Development of methods to assess regional and national water use 
        trends during drought;
  --New research on native pollinators, which are essential to our 
        Nation's agricultural and natural systems;
  --Establishment of a real-time water quality monitoring capabilities 
        along the Northeast Coast to further a prototype contaminant 
        detection network;
  --Improvement of earthquake monitoring in the Central and Eastern 
        United States;
  --Development of new tools to detect and control new and emerging 
        invasive species;
  --Establishment of a new Great Lakes Climate Science Center to 
        improve research in this distinctive region;
  --Accelerate assessments of domestic unconventional oil and gas 
        resources;
  --Expand use of rapid deployable streamgages to improve data 
        collection during floods;
  --Enhanced research in the Artic on sea-level rise, severe storms, 
        and/or melting permafrost; and
  --Provide support for 3DEP to provide lidar coverage for the country 
        and increased support for topographical mapping for the United 
        States.

    We are also pleased to see the proposed increases for Core Science 
Systems, Science Support, and facilities. These parts of the USGS 
budget are essential to the success of scientific research and 
monitoring conducted by other programs in the bureau. All three budget 
lines were lower in fiscal year 2016 than they were in fiscal year 
2011. Currently, the USGS is faced with approximately $400 million in 
deferred maintenance to facilities and research centers. Continued 
deferment is creating situations in which one-of-a-kind and mission 
critical samples and data are being lost.
    Through careful management and deferring staff travel and training, 
the USGS has survived the recent budget cuts resulting from 
sequestration. Staff training and participation in scientific meetings, 
however, are necessary investments that help USGS maintain its 
technical capacity. It is through exchanges at scientific meetings and 
workshops that new ideas emerge and scientific analyses are shared, 
challenged by colleagues, and honed prior to submitting research for 
publication in peer-reviewed journals. We encourage Congress to work 
with the USGS to ensure that scientists are able to fully participate 
in scientific meetings.
    As a science agency, much of the USGS budget is dedicated to 
salaries and equipment that must be maintained and updated to ensure 
the continuity of data acquisition and that the data gathered are 
reliable and available for future scientific investigations. We believe 
that the leadership of the USGS is doing all it can, and has been for a 
number of years, to contain costs while continuing to deliver high 
quality science.
                               conclusion
    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. Data not collected and analyzed today is data lost forever. 
This is particularly significant for environmental monitoring systems, 
where the loss of a year's data can limit the scope and reliability of 
long-term dataset analysis. The USGS Coalition requests that Congress 
work to provide $1.2 billion for fiscal year 2017.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of this request.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, and honorable members of the subcommittee, I am Ron 
Allen, the Alternate Tribal Commissioner and Chair of the Finance and 
Administration Committee for the U.S. Section of the Pacific Salmon 
Commission (PSC). The U.S. Section prepares an annual budget for 
implementation of the Pacific Salmon Treaty. The integrated budget 
details program needs and costs for tribal, Federal, and State agencies 
involved in the treaty. Tribal participation in the treaty process is 
funded in the Bureau of Indian Affairs budget.

          In order meet the increased obligations under the 2009-2018 
        Pacific Salmon Treaty Agreement the 25 affected tribes 
        identified costs at $4,800,000 for tribal research projects and 
        participation in the U.S.-Canada Pacific Salmon Treaty process, 
        an increase of $520,000 over fiscal year 2015 enacted level. 
        The funding for tribal participation in the Pacific Salmon 
        Treaty is a line item in the BIA's budget under Rights 
        Protection Implementation.

    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
identified needs as follows:

          USFWS participation in the treaty process is funded at 
        $372,362 for fiscal year 2015. The Pacific States Marine 
        Fisheries Commission's Regional Mark Center (PSMFC) receives 
        support from the USFWS to provide data services to the PSC 
        process at a level of $236,189 for fiscal year 2015. The total 
        for the two programs is $608,551. This represents a decrease 
        from fiscal year 2010 levels, which were $417,673 for USFWS and 
        $315,000 for PSMFC, for a grand total of $732,673. The U.S. 
        Section recommends increasing the fiscal year 2017 funding for 
        these programs by $50,000, which partially restores both 
        programs to previous funding levels.

    This base funding for the U.S. Fish and Wildlife Service supports 
critically important on-going work. The funding for Pacific States 
Marine Fisheries Commission's Regional Mark Center is utilized to meet 
treaty requirements concerning data exchange with Canada. These program 
recommendations are integrated with those of the State and Federal 
agencies to avoid duplication of effort and provide for the most 
efficient expenditure of scarce funds.
    Funding to support activities under the Pacific Salmon Commission 
comes from the Departments of Interior, State, and Commerce. The U.S. 
Section can provide a cross-9cut budget summary to the Committee. 
Adequate funding from all three Departments is necessary for the U.S. 
to meet its treaty obligations. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation and are used in cooperative programs involving 
Federal, State, and tribal fishery agencies and the Department of 
Fisheries in Canada. The commitment of the United States is matched by 
the commitment of the Government of Canada.
    The U.S. Section of the PSC is recommending an adjustment to 
support the work carried out by the 24 treaty tribes' participating in 
implementation of the treaty. Programs carried out by the tribes are 
closely coordinated with those of the States and Federal agencies. 
Tribal programs are essential for the United States to meet its 
international obligations. Tribal programs have taken on additional 
management responsibilities due to funding issues with State agencies. 
All participating agencies need to be adequately supported to achieve a 
comprehensive U.S. effort to implement the treaty.
    The U.S. Fish and Wildlife Service activities are necessary so the 
United States can maintain the critical database to implement the 
treaty. The work of the Regional Mark Processing Center includes 
maintaining and updating a coastwide computerized information 
management system for salmon harvest data as required by the treaty. 
This work has become even more important to monitor the success of 
management actions at reducing impacts on ESA-listed salmon 
populations. Canada has a counterpart database. The U.S. database will 
continue to be housed at the Pacific States Marine Fisheries 
Commission.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After 30 years, the work of the Pacific Salmon 
Commission continues to be essential for the wise management of salmon 
in the Northwest, British Columbia, and Alaska. For example, upriver 
bright fall Chinook salmon from the Hanford Reach of the Columbia River 
are caught in large numbers in Alaskan and Canadian waters. Tribal and 
non-tribal fishermen harvest sockeye salmon from Canada's Fraser River 
in the Strait of Juan de Fuca and in Puget Sound. Canadian trollers off 
of the west coast of Vancouver Island catch Washington coastal Coho 
salmon and Puget Sound Chinook salmon. In the Northern Boundary area 
between Canada and Alaska, fish from both countries are intercepted by 
the other country in large numbers. The Commission provides a forum to 
ensure cooperative management of salmon populations. The agreements in 
the current Annex Chapters for management of chinook, coho, chum, and 
transboundary populations expire at the end of 2018. The Annex Chapter 
for management of Fraser River sockeye and pink chapter expires at the 
end of 2019. The United States and Canada are negotiating revisions to 
the current agreements. Based on past experience, the negotiation 
process will require additional meetings to reach a successful 
conclusion. It is important to have adequate resources for U.S. 
participants to negotiate the best outcome.
    Before the treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the treaty was signed, 
Chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continued these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the treaty, managed at 
productive levels under the treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the Pacific Salmon Commission to develop recommendations that 
help to ensure solutions that minimize impacts on listed stocks, 
especially if we are allowed to work towards the true intent of the 
treaty: mutually beneficial enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your subcommittee. I want to thank the subcommittee 
for the support that it has given the U.S. Section in the past. Please 
feel free to contact me, or other members of the U.S. Section to answer 
any questions you or subcommittee members may have regarding the U.S. 
Section of the Pacific Salmon Commission budget.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    United Tribes Technical College (UTTC) has for 47 years, and with 
the most basic of funding, provided postsecondary career and technical 
education and family services to some of the most impoverished high 
risk Indian students from throughout the Nation. Despite such 
challenges we have consistently had excellent retention and placement 
rates and are a fully accredited by the Higher Learning Commission 
(HLC). We are proud to be preparing our students to participate in the 
energy economy in North Dakota and to be part of building a strong 
middle class in Indian Country by training the next generation of law 
enforcement officers, educators, medical providers, and administrators. 
We are governed by the five tribes located wholly or in part in North 
Dakota. We are not part of the North Dakota University System and do 
not have a tax base or State-appropriated funds on which to rely. The 
funding requests of the UTTC Board for fiscal year 2017 Bureau of 
Indian Education (BIE)/Bureau of Indian Affairs (BIA) are:

  --$11 million for the line item, Tribal Technical Colleges, which is 
        $3.6 million over the administration's request. Of this amount, 
        $6.8 million is BIE funding for our Indian Self-Determination 
        Act contract.
  --Place Contract Supports Costs on a permanent, full, mandatory-
        funded basis.
  --Provide full funding for Tribal Grant Support Costs for tribally 
        operated elementary/secondary schools.
  --Establishment of a tribally administered Northern Plains law 
        enforcement training center at UTTC.

    First of all, we thank you for placing the Tribal Technical 
Colleges account that provides core operational funds to our 
institution and Navajo Technical University (NTU) on a forward funded 
basis as of fiscal year 2016. We also support your interest in 
providing forward funding for the three remaining colleges who not yet 
forward funded: Haskell Indian Nations University, Southwestern Indian 
Polytechnic Institute, and the Institute of American Indian Arts.
    The extended length of time to achieve forward funding for UTTC and 
NTU and the fact that three Indian higher education institutions are 
still not forward funded highlights the carefulness with which tribal 
college references need to be made. We are authorized under differing 
titles of the Tribally Controlled Colleges and Universities Act and 
then there are other statutory authorities for the three institutions 
administered through the Bureau of Indian Education.
    Base Funding.--UTTC administers our BIE funding under an Indian 
Self-Determination and Education Assistance Act agreement, and has done 
so for 39 years. We appreciate that the administration is requesting a 
$500,000 increase for Tribal Technical Colleges, but our need far 
exceeds that amount. The UTTC portion of the Tribal Technical Colleges 
line item should be $6.8 million based on an $11 million appropriation.
    Acquisition of additional base funding is critical. We struggle to 
maintain course offerings and services to adequately provide 
educational services at the same level as our State counterparts. Our 
BIE funding provides a base level of support while allowing us to 
compete for desperately needed discretionary contracts and grants. Very 
little of our other funds can be used for core career and technical 
educational programs; they are competitive, often one-time funds that 
help us provide support services but cannot replace core operational 
funding.
    We highlight several relatively recent updates of our curricula to 
meet job market needs. Indeed, the ramifications of the North Dakota 
Bakken oil boom are apparent as we have seen faculty and students leave 
education in pursuit of jobs in the Bakken region. At the certificate 
level, we saw the need for more certified welders in relation to the 
oil boom and expanded our certified welding program in response to the 
workforce need. We are now able to train students for good paying in-
demand welding employment with a focus on career rather than just a 
job. And we recently received HLC approval to offer a Bachelor's Degree 
in Environmental Science that will provide experiential research 
opportunities for our students.
Funding for United Tribes Technical College is a good investment. We 
        have:
  --Renewed unrestricted accreditation from the Higher Learning 
        Commission for July 2011 through 2021, with authority to offer 
        all of our full programs on-line. We offer 16 Associate 
        degrees, 5 Certificates, and 3 Bachelor degree programs of 
        study (Criminal Justice; Elementary Education; Business 
        Administration). Six of the programs are offered online.
  --Services including a Child Development Center, family literacy 
        program, wellness center, area transportation, K-6 elementary 
        school, tutoring, counseling, family and single student 
        housing, and campus security.
  --A projected return on Federal investment of 20-1 (2005 study).
  --A semester retention rate of 58 percent and a graduate placement 
        rate of 82 percent.
  --Students from 37 tribes represented; 67 percent of our 
        undergraduate students receive Pell Grants.
  --An unduplicated count of 536 undergraduate degree-seeking students: 
        828 continuing education students; and 24 dual credit 
        enrollment students for a total of 1,283 students for 2014-
        2015.
  --A dual-enrollment program targeting junior and senior high school 
        students, providing them an introduction to college life and 
        offering high school and college credits.
  --A critical role in the regional economy. Our presence brings at 
        least $34 million annually to the economy of the Bismarck 
        region. A North Dakota State University study reports that the 
        five tribal colleges in North Dakota made a direct and 
        secondary economic contribution to the state of $181,933,000 in 
        2012.

    Contract Support Costs.--As mentioned above, we administer our BIE 
funding through an Indian Self-Determination and Education Assistance 
Act contract, and thus Contract Support Costs (CSC) are vital to us. We 
thank this subcommittee and the administration for the recognition of 
the legal obligation the Federal Government has to pay tribal 
contractors their full CSC. This has been an enormously important 
development for Indian tribes. We appreciate that the fiscal year 2016 
appropriations act places Contract Support Costs for both the BIA and 
the Indian Health Service (IHS) in their own accounts and is funded at 
an indefinite amount, thus assuring full funding. That circumstance 
applies only to the fiscal year 2016 appropriations and we join with 
others in Indian Country in supporting a long-term legislative solution 
that will provide full and permanent funding for Contact Support Costs. 
Placing CSC funding on a mandatory basis is the logical resolution to a 
long-term solution for CSC that will also protect the programs funded 
on a discretionary basis in the BIA and IHS budgets.
    Tribal Grant Support Costs for K-12 Tribally-Operated Schools.--We 
have a BIE-funded elementary school on our campus, the Theodore 
Jamerson Elementary School, and thus many of our college students and 
their children attend school on the same campus. For these elementary 
schools, Tribal Grant Support Costs are the equivalent of Contract 
Support Costs for tribes although authorized under different statutory 
authorities. We thank you for providing what is estimated to be full 
funding for Tribal Grant Support Costs in fiscal year 2016 ($73.3 
million), and we support the administration's fiscal year 2017 request 
of $75.3 million, estimated to be full funding.
    A Northern Plains Indian Law Enforcement Academy.--We again ask 
Congress to seriously look at the problem of addressing crime in Indian 
Country with an eye toward the establishment of a campus-based academy 
for training of law enforcement officers at UTTC. We ask that you 
direct the Secretary of Interior and the Bureau of Indian Affairs to 
work with the Northern Plains tribes and others on the timely 
development of a plan for the establishment of an academy to better 
serve the tribes residing in the Northern tier of the United States.
    Establishment of such an academy at UTTC continues to be strongly 
supported by the Great Plains Tribal Chairman's Association (GPTCA) via 
Resolution 5-1-20-16. The Resolution requests that the Secretary of 
Interior and the BIA consult with the tribes on the details of a plan 
for establishment of the Academy. Cultural and legal differences 
further support why such training should be tribally directed in order 
to be appropriate for the realities of tribal communities within 
different parts of the Indian Country. The need is critical and 
continues to grow with the methamphetamine, opioid and heroin crises 
and the resulting social ills from these epidemics. North Dakota and 
other northern border regions have special problems relating to drug 
and human trafficking. Additionally, the expanded tribal authorities 
under the Tribal Law and Order Act and the Violence Against Women Act 
only further the importance of trained law enforcement officers within 
our tribal communities. State and national training resources would 
have an important role in this new endeavor.
    The UTTC Criminal Justice program currently offers 2- and 4-year 
degrees, and prepares graduates for employment as Federal, State or 
tribal law enforcement, correction, parole and probation, and 
transportation safety officers; victim advocates; U.S. Customs, 
Homeland Security, and Military Investigative services; and private 
security agents. A pre-law program is currently in development to 
address the shortage of law trained personnel within tribal judicial 
systems. We want to expand our endeavors to help meet law enforcement 
needs in Indian Country. Given our Criminal Justice program, our 
location and our campus resources, we propose the establishment of a 
Northern Plains Indian Law Enforcement Academy.
    Basic law enforcement training is currently provided through the 
BIA's Indian Police Academy in Artesia, New Mexico, which often has 
waiting lists. The BIA is depending on the basic training provided by 
State academies to supplement what is provided at Artesia. UTTC is well 
positioned with regard to providing both basic and supplemental law 
enforcement training. An academy at UTTC would allow tribal people in 
the Great Plains and other nearby regions a more affordable choice for 
training locations while minimizing the distance and long separation of 
trainees from their families.
    The fiscal year 2017 Indian Affairs budget (p. IA-PSJ-12) notes 
that training initiatives for the Indian Police Academy include 
developing a pre-Academy training program for candidates; developing a 
mid-level manager training program; and establishing an on-line 
distance learning program for recertification, among other things. 
These are things that we could do as part of an academy at UTTC or in 
partnership with the Indian Police Academy.
    In short, the BIA should be utilizing and enhancing the resources 
of UTTC to make a real difference in the law enforcement capability in 
Indian Country. We can offer college credit to trainees, and our 
facilities include the use of a state-of-the-art crime scene simulator. 
Maintaining safe communities is a critical component of economic 
development for our Tribal Nations, and local control of law 
enforcement training resources is a key part of that effort.
    The Duplication or Overlapping Issue.--As you know in March 2011, 
the Government Accountability Office issued two reports regarding 
Federal programs which may have similar or overlapping services or 
objectives (GAO-11-474R and GAO-11-318SP). Funding from the BIE and the 
DOEd's Carl Perkins Act for Tribally Controlled Postsecondary Career 
and Technical Education were among the programs listed in the reports. 
The full GAO report did not recommend defunding these programs; rather, 
it posed the possibility of consolidation of these programs to save 
administrative costs. We are not in disagreement about possible 
consolidation of our funding sources, as long as program funds are not 
cut.
    BIE funds represent over half of our core operating budget. The 
Perkins funds supplement, but do not duplicate, the BIE funds. Both 
sources of funding are necessary to the frugal maintenance of our 
institution. We actively seek alternative funding to assist with 
academic programming, deferred maintenance, and scholarship assistance, 
among other things. The need for career and technical education in 
Indian Country is so great and the funding so small that there is 
little chance for duplicative funding. There are only two institutions 
targeting American Indian/Alaska Native career and technical education 
and training at the postsecondary level--UTTC and NTU. Combined, these 
institutions received only $15.1 million in fiscal year 2016 Federal 
operational funds ($8.2 million from Perkins; $6.9 million from the 
BIE). That is not an excessive amount for two campus-based institutions 
who offer a broad array of programs geared toward the educational and 
cultural needs of their students and who teach job-producing skills.
    We know members of this subcommittee have made a point to visit 
places in Indian Country and we would love to be able to arrange for 
you to visit United Tribes Technical College. Thank you for your 
consideration of our requests. Mitakuye Owasin (All my relatives)
                                 ______
                                 
        Prepared Statement of the Western Governors' Association
    Mr. Chairman and members of the subcommittee, the Western 
Governors' Association (WGA) appreciates the opportunity to provide 
written testimony on the appropriations and activities of the Bureau of 
Land Management (BLM), U.S. Fish and Wildlife Service (FWS), National 
Park Service (NPS), U.S. Forest Service (USFS) and Environmental 
Protection Agency (EPA). My name is James D. Ogsbury and I am the 
Association's Executive Director. WGA is an independent, non-partisan 
organization representing the Governors of 19 Western States and 3 
U.S.-flag islands.
    The agencies within the subcommittee's jurisdiction wield 
significant influence over vast areas of the American West, as 94 
percent of all Federal lands are situated in the western States and the 
Federal Government owns over 46 percent of the land within active WGA 
States. The work of this subcommittee is of vital importance to Western 
Governors, as it helps establish how these lands are managed and how 
Federal agencies interact with other levels of government and the 
public.
    Western Governors recognize that there is a certain tension between 
State and Federal governments, one that is embedded in the very fabric 
of our Constitution. It is equally clear that these different layers of 
government must have a close and productive working relationship if our 
citizens are to prosper and thrive. Western Governors believe that such 
cooperation is only possible when States are regarded as full and equal 
partners with the Federal Government.
    The promotion of greater partnership between States and the Federal 
Government is central to the mission of WGA and represents a key theme 
of the WGA Species Conservation and Endangered Species Act Initiative, 
a signature project of the Association's Chairman, Governor Matt Mead 
of Wyoming. The goal of wildlife conservation is essential to 
preserving the heritage of the West. This is possible only through the 
cooperative efforts of State and Federal officials across multiple 
disciplines, including data sharing and species management.
    For the past 3 years, the subcommittee has adopted report language 
directing Federal land managers to use State fish and wildlife data and 
analyses as principal sources to inform land use, land planning and 
related natural resource decisions. Western Governors are deeply 
appreciative of your assistance in encouraging a positive relationship 
between the States and the Federal Government in the use of wildlife 
data. Federal managers need data-driven science, mapping and analyses 
to effectively manage wildlife species and habitat, and in many cases 
States generate the best available wildlife science.
    This direction from the subcommittee is having a positive effect 
with Federal agencies. For example, in their recent rulemaking on 
Endangered and Threatened Wildlife and Plants; Revisions to the 
Regulations for Petitions [80 FR 29286, May 21, 2015], FWS and the 
National Marine Fisheries Service recognized the important role of 
State data and proposed common-sense process reforms. Western Governors 
view this progress as a direct result of the subcommittee's efforts to 
urge Federal agencies to use State data, and are grateful for your 
steadfast commitment to this principle. With this encouraging progress, 
WGA urges you to maintain this position and reiterate it in your fiscal 
year 2017 report.
    Remaining on the topic of species conservation, Western States 
routinely invest enormous amounts of time, money and manpower in the 
management of wildlife and habitat conservation. It is appropriate for 
Federal agencies to provide sufficient resources for species 
protection, particularly on Federal lands. When Federal lands are 
inadequately managed, State and local efforts to protect habitat and 
species will not be sufficient to assure the success of species. 
Federal agencies must demonstrate their commitment to species 
preservation and recovery by committing sufficient funding for 
conservation efforts on Federal lands, and Western Governors encourage 
you to adequately fund these habitat management activities.
    Western Governors believe that States should be full and equal 
partners in the implementation of the Endangered Species Act (ESA) and 
should have the opportunity to participate in pre-listing and post-
listing ESA decisions. The Act is premised on a strong State-Federal 
partnership. Section 6(a) of the ESA states that, ``In carrying out the 
program authorized by the Act, the Secretary shall cooperate to the 
maximum extent practicable with the States.'' WGA submits that such 
cooperation should include partnership with States in the establishment 
of quantifiable species recovery goals, as well as in the design and 
implementation of recovery plans.
    ESA listing decisions can have dramatic impacts on vital State 
interests, influencing a State's ability to conduct almost any 
activity--from road siting to new home construction to environmental 
projects. Consequently, States should have the right to intervene in 
proceedings regarding the ESA. Western Governors urge the subcommittee 
to support the legal standing of States to participate in 
administrative and judicial actions involving ESA that, by their 
nature, implicate State authority and resources. This is not a new 
concept: several Federal statutes--including the Clean Water Act, the 
Clean Air Act and the Resource Conservation and Recovery Act--already 
vest the States with the role of co-regulator with the EPA.
    With respect to funding levels of appropriated programs, WGA 
recommends the enactment and full funding of a permanent and stable 
funding mechanism for the Payment in Lieu of Taxes (PILT) program 
administered by the Department of the Interior (DOI). PILT funding does 
not represent a gift to local jurisdictions; rather it represents 
important compensation for the disproportionate acreage of non-taxable 
Federal lands in the West. Similarly, payments under the Secure Rural 
Schools and Community Self-Determination Act (SRS) are critical to 
compensating communities whose timber industries have been negatively 
impacted by actions and acquisitions of the Federal Government. Western 
Governors hope that you will consider full funding for both PILT and 
SRS payments in fiscal year 2017.
    The subcommittee knows very well the pressing problem of ``fire 
borrowing,'' by which funding for routine Forest Service management 
activities is transferred to emergency firefighting activities. By 
diverting funding from management activities that reduce wildfire 
threats, this practice increases the overall fire risk and all but 
ensures that future wildfires will be more damaging and costly. WGA 
strongly supports efforts to solve the issue of fire borrowing, and 
would like to see the Federal Government use a funding structure 
similar to that used by the Federal Emergency Management Agency (FEMA) 
in its response to natural disasters.
    The 2014 Farm Bill accorded Governors the opportunity to request 
that National Forest System lands within their States be considered for 
insect and disease (I&D) designation, and the Forest Service responded 
by designating 46.7 million acres of land for expedited treatment. The 
Farm Bill authorized the appropriation of $200 million to accomplish 
the work required under the statute. This work will reduce the threat 
of wildfires in areas of high risk, and WGA requests that funding be 
appropriated at a reasonable and sustainable level for I&D designation 
projects.
    Data for water management and drought response planning is critical 
to western States. Western Governors request adequate funding levels 
for the Cooperative Water Program and National Streamflow Information 
Program, both administered by the DOI's U.S. Geological Survey. This 
data is integral to the water supply management decisions of States, 
utilities, reservoir operators and farmers. They are also used for 
flood forecasts, making them essential to risk assessment as well as 
water management. These two programs are important elements of a robust 
water data management framework in the western States, and provide 
needed support for drought mitigation efforts throughout the West.
    Infrastructure management is another crucial element of drought 
response. EPA's Clean Water and Drinking Water State Revolving Funds 
(SRFs) provide necessary support for communities to maintain and 
enhance their water infrastructure. The Western Governors' Policy 
Resolution 2014-04, Water Quality in the West, encourages adequate 
funding for SRFs.
    The following recommendations are intended to help ensure that 
taxpayers realize a healthy return on the investment of limited 
discretionary resources. This goal will be more readily achieved to the 
extent that Federal agencies better leverage State authority, resources 
and expertise.
    Western Governors continue to be concerned about the number of wild 
horses and burros on BLM lands, which is presently estimated to be 
almost double the current Appropriate Management Level (AML). 
Overpopulation can degrade rangeland, causing harmful effects on 
wildlife and domestic livestock and threatened and endangered species 
habitat. WGA supports a process to establish, monitor and adjust AMLs 
for wild horses and burros that is transparent to stakeholders, 
supported by scientific information (including State data), and 
amenable to adaptation with new information and environmental and 
social change.
    While the EPA and the U.S. Army Corps of Engineers' proposed rule 
expanding the definition of ``waters of the United States'' is 
currently being resolved in Federal court, WGA continues to view the 
development of this proposal as an example of process failure. Congress 
intended for the States and EPA to implement the CWA in partnership and 
delegated authority to the States to administer the law as co-
regulators with EPA. States should be fully consulted and engaged in 
any process that may affect the management of State waters. While 
Western Governors appreciate the outreach from EPA and the Corps since 
the release of the proposed rule, we note that the agencies did not 
engage the States in substantive consultation prior to the release. 
Western Governors encourage congressional direction to EPA to engage 
the States in the creation of rulemaking, guidance or studies that 
threaten to redefine the roles and jurisdiction of the States.
    States have exclusive authority over the allocation and 
administration of rights to groundwater located within their borders 
and are primarily responsible for protecting, managing, and otherwise 
controlling the resource. The regulatory reach of the Federal 
Government was not intended to, and should not, be applied to the 
management and protection of groundwater resources. WGA encourages the 
subcommittee not to permit the use of appropriated funds for any 
activity that would implement a directive on groundwater management or 
otherwise subvert States' primacy over water management. Federal 
agencies should work through existing State authorities to address 
their groundwater-related needs and concerns. Such collaborative 
efforts will help ensure that Federal efforts involving groundwater 
recognize and respect State primacy and comply with Federal and State 
statutory authorities.
    States also have delegated authority from EPA to manage air quality 
within their borders. Last year the EPA tightened the National Ambient 
Air Quality Standard (NAAQS) for ozone to .070 parts-per-million, a 
level equal to background ozone levels in much of the West. Attaining 
the revised ozone standard will present significant challenges for many 
western States--challenges exacerbated by factors such as wildfire, 
transported ozone, and background ozone. For decades eastern States 
have enjoyed the benefit of financial and technical support from EPA 
for ozone research and mitigation. Given the attainment challenges 
presented, and the unique character of the West, funding should be 
appropriated for EPA to assist western States in discharging their 
ozone responsibilities.
    Western Governors and Federal land management agencies deal with a 
complex web of interrelated natural resource issues. It is an enormous 
challenge to judiciously balance competing needs in this environment, 
and Western Governors appreciate the difficulty of the decisions this 
subcommittee must make. The foregoing recommendations are offered in a 
spirit of cooperation and respect, and WGA is prepared to assist you as 
you discharge these critical and challenging responsibilities.
    Again, thank you for the opportunity to provide written testimony. 
Please feel free to contact WGA if you have any questions about the 
content of these remarks.
                                 ______
                                 
    Prepared Statement of the White Earth Reservation Tribal Council
    Dear Chair Murkowski and Ranking Member Udall:

    The White Earth Tribal Council supports President Obama's fiscal 
year 2017 budget. These funding increases for Indian Country will move 
our people forward in many positive steps.
    We know the subcommittee is aware of the challenges we face in 
Indian Country. However, the White Earth Band of Ojibwe has unique 
issues as its largest band of the Ojibwe in Minnesota. On aggregate 
American Indians in Minnesota suffer the following economic 
disparities:

  --38 percent of the Ojibwe live at or below poverty
  --50 percent of Ojibwe children live in poverty
  --48 percent of Ojibwe 16-64 are unemployed or not in labor force
  --20 percent of Ojibwe households exist with no wage earner

    The President's proposal directly affects these economic 
disparities and we strongly support his budget.
    The White Earth Tribal Council recognizes that the subcommittee has 
asked Tribal Nations to highlight several areas of the President's 
fiscal year 2017 budget that would be critically important to them. 
While we consider his overall proposal extremely important, the 
following budget areas best represent our interests at this time:

    1.  $109 million increase for the Department of Justice and Bureau 
of Indian Affairs public safety and justice programs for Indian 
Country. The DOJ funding provides additional grants to address criminal 
justice issues. The BIA funding continues investments to reduce violent 
crime and repeat incarcerations.
    2.  $204 million increase for social services in Indian Country, 
$164 million increase for HHS Administration of Children and Families, 
$231 million for Head Start, $194 million for Tribal TANF, $55 million 
for Tribal Child Support, $212 million for Child Care programs, $106 
million for child welfare and other programs. In addition, $55 million 
in SAMHSA to reduce the incidence of suicide among Native youth.
    3.  $60 million increase for BIE to support enhanced Native 
language and cultural curricular programming.
    4.  $55 million in HHS Substance Abuse and Mental Health Services 
to expand for Native youth.
    5.  The Department of Energy's Office of Indian Energy with $18 
million for financial and technical assistance for renewable energy 
projects and energy efficiency projects.

    Thank you for the opportunity to provide written testimony on these 
issues. The White Earth Tribal Council invites you and members of your 
subcommittee to visit our reservation to see the positive work being 
performed in Indian Country.
                                 ______
                                 
            Prepared Statement of the Wilderness Land Trust
    Chairman Murkowski, Ranking Member Udall and members of the 
subcommittee, my name is Reid Haughey and I am the President of the 
Wilderness Land Trust. Thank you for the opportunity to submit 
testimony. My testimony focuses on a very small portion of the Land and 
Water Conservation Fund (LWCF)--funding for the Inholding Acquisition 
Accounts for the four land management agencies. Continued modest 
funding--between $3 and $5 million--of the Inholding Accounts is vital 
to the success of securing and preserving wilderness already designated 
by Congress, while treating private landowners within these areas 
fairly.
    The Trust is a small not-for-profit organization focused on 
protecting designated wilderness. To do this, we work in partnership 
with landowners who own private property within designated and proposed 
wilderness areas and the agencies that manage these areas. We acquire 
properties from willing sellers with the intent to transfer ownership 
to the United States.
    We recently marked the 50th Anniversary of the Wilderness Act of 
1964 that established our National Wilderness Preservation System. As 
part of our celebration of the 50th anniversary, the Trust commissioned 
a national inventory of private lands within wilderness. The results 
are startling. The report determined that within the lower 48 States, 
175,863 acres of private lands still remain in 2,883 parcels. There are 
also 440,000 acres of State owned lands. Alaska is home to 47 percent 
of the total nonFederal lands--predominantly Native corporation lands 
stemming from ANCSA--comprising 693,641 acres in 686 parcels.
    When the Trust started work 24 years ago, we estimated there were 
400,000 acres of private land within designated wilderness in the lower 
48 States. It has taken steady work to reduce that by more than half. 
Large appropriations for the Inholding Accounts did not accomplish this 
success--just reliable, modest funding so that lands can be purchased 
when landowners want to sell. This is the level of funding we are 
hoping to continue.
    Thank you for funding the Inholdings Accounts in fiscal year 2016 
and I ask for that support once again. An appropriation of between $3 
and 5 million to each of the land management agencies, the Forest 
Service, the Bureau of Land Management, the Fish and Wildlife Service 
and the National Park Service, is sufficient to enable the agencies to 
acquire high priority inholdings from willing sellers.
    Our work, along with that of many other organizations and 
facilitated by funding of the Inholding Accounts, aims to give the 
Federal Government less work. Eliminating private inholdings within 
designated wilderness:

  --Saves Federal dollars
  --Solves management and resource problems
  --Helps private landowners, and
  --Increases recreational access and economic development
Saving Federal dollars
    The management of human development activities in wilderness is 
expensive for the agencies. The potential resource damage to the 
protected lands and waters is enormous. While steady progress has been 
made reducing private inholdings in wilderness areas in the lower 48 
States, our wilderness areas remain riddled with private inholdings 
that greatly threaten the wilderness that surrounds them and creates a 
``Swiss cheese'' effect. While The Wilderness Act defines Wilderness as 
places where ``where man himself is a visitor who does not remain,'' 
private landowners retain their rights to build roads, homes and other 
buildings, extend utilities, extract minerals and timber, and block 
public access. There are numerous cases where such inholdings have been 
developed in ways that seriously degrade wilderness values on the 
adjacent public lands. All of these activities pose challenges for 
Federal managers of the lands surrounding private inholdings and create 
significant and costly management inefficiencies. By contrast, the cost 
of acquiring these properties when they are offered for sale is 
relatively small. That is why continued modest appropriations for the 
inholding acquisition program are important.
    For example, the Trust acquired a property in the Hells Canyon 
Wilderness in Arizona several years ago that ended 38 years of on and 
off litigation over access. This saved the agency a lot of ongoing 
costs. It made the landowner happy and completed the wilderness that 
surrounded it.
    Further, as you are well aware, the costs associated with 
firefighting on public lands are enormous. The Wilderness Land Trust 
may be the only landowner within designated wilderness that can say it 
has experienced both sides of reducing firefighting costs. A property 
we owned in the heart of California's Yolla Bolly Wilderness burned 
while we owned it. Significant resources were spent to protect the 
structures on it, risking life and limb, as well as money.
    On the other hand, the Trust's Hells Canyon Wilderness property in 
Idaho burned 1 week after it was transferred to Federal ownership. No 
one cared; no one came out to protect it. It burned as part of the 
natural process of wilderness and firefighting efforts rightly 
concentrated at the edges of the wildland-urban interface.
    Specific data on firefighting expenses are difficult to get. The 
Western Forestry Leadership Coalition, a State and Federal Government 
partnership whose members include 23 State and Pacific Island 
Foresters, 7 Western Regional Foresters, 3 Western Research Station 
Directors, The Forest Products Lab Director of the USDA Forest Service, 
published a report: The True Cost of Wildfire in the Western U.S. in 
April 2009. Among the case studies reviewed, the lowest total cost per 
acre firefighting expense was the Canyon Fire Complex in Montana 
(2000). The total cost was $411 per acre. There were only six 
structures involved. The highest cost per acre was the 2000 Cerro 
Grande fire in New Mexico. It cost $22,634 per acre. There were 260 
residences involved. This is strong evidence that the presence of 
private lands and structures within public landscapes exponentially 
increases the cost of firefighting.
    Not all the costs of managing these isolated parcels fall on the 
Federal Government. As the manager of Pitkin County, Colorado I learned 
firsthand that the expenses of providing services to these isolated and 
far-flung properties far exceed the tax revenues received and do not 
come close to offsetting the cost of providing fire protection, 
emergency services, road, school buses and general government services. 
It costs more to serve these isolated single properties than the tax 
revenue they generate.
Solves management and resource problems
    The Inholding Accounts have been used to acquire mines from private 
owners, private retreats, and various properties that include the 
spectrum of non--wilderness uses. We are currently readying for 
transfer to Federal ownership a former mine in the Frank Church River 
of No Return Wilderness. We've closed the former un-reclaimed mine on 
the banks of the Wild and Scenic Salmon River. The transfer will remove 
a private home and no trespassing signs on one of the few flat spots on 
that stretch of river. It will be returned to the public, who can enjoy 
being able to stop and learn about past mining days, camp or fish from 
land on which the abandoned and open mine is now reclaimed and closed--
no longer a threat to the public, or to the Wild and Scenic River from 
its open shafts deep into the alluvium of the river.
    Recent purchases funded from the Inholding Accounts have secured 
access to the east side of the Ventana Wilderness in California, 
secured trails through the Wabayuma Peak Wilderness in Arizona and the 
Glacier Peak Wilderness in Washington and created access to a recently 
designated wilderness in Idaho. More are on the way.
Helps private landowners
    Landowners who are ready to sell deserve to have their properties 
purchased. Their isolated properties are primarily the result of 19th 
century Congressional policy when homesteads, mining operations and 
timber production were encouraged without the balance of conservation. 
As a result, wilderness areas now dedicated by Congress are pockmarked 
with islands of private ownership that compromise the wilderness 
resource, become expensive management issues for the agencies and often 
befuddle landowners who wish to sell these properties for the benefit 
of their companies or families.
    If the opportunity to acquire these when offered is lost, the 
management issues and inefficiencies that result from private lands 
remaining within designated wilderness continue. This is why consistent 
funding for the Inholding Accounts is vital. We have learned that these 
lands become available about once a generation. It has been our 
experience that these critical inholdings come on the market at a 
steady rate as owners make decisions based on their family or business 
needs. About 3 to 5 percent come on the market every year--once a 
generation. If the opportunity to meet the seller's need is missed, it 
averages another 20 years before the opportunity comes again. Without 
consistent funding, numerous opportunities to acquire these private 
parcels will be lost. Not for a year, but often for at least another 
generation.
Increases recreational access and economic development
    On the east side of the Castle Crags Wilderness in California is a 
wall of private land that blocks access from Interstate 5. The nearby 
communities of Dunsmuir and Mt. Shasta are wholly supportive of 
transferring these lands to Federal ownership and opening up the Crags 
to visitation. The towns anticipate visitors that will come to the 
community and its climbing, biking and skiing shops it is hoped will 
grow to replace the loss of logging jobs. Dunsmuir has been suffering 
under an unemployment rate of 18 percent and looks forward to having 
the recreational asset of the Crags' world class climbing only one mile 
off Interstate 5 and just outside their community--rather than a 7-mile 
hike around the private lands that now block access.
    Finally, it is also important to recognize that wilderness 
inholdings come in many shapes, sizes and prices depending on the real 
estate market in a particular area. A number of projects that fall in 
the agency project lists are inholdings. Thus, we ask that you give the 
highest level of support possible for Federal LWCF acquisitions.
    In summary, continued consistent funding of the Inholding Accounts 
is vital. Without such funding, significant opportunities to acquire 
private parcels within our designated wilderness areas will be lost for 
at least another generation. We urge your support of continued funding 
for these accounts and as much support for Federal LWCF acquisitions as 
possible. Support for these accounts:

  --Saves money by eliminating management inefficiencies that 
        frequently exceed the cost of acquisition;
  --Helps private landowners within federally designated wilderness and 
        other conservation areas;
  --Allows the agencies to act when opportunities occur to acquire 
        inholdings, often only once a generation; and
  --Completes designated wilderness areas, removing threats from 
        incompatible and harmful development within their boundaries.

    Thank you for the opportunity to testify. We greatly appreciate 
your time and consideration and the support of the subcommittee in 
securing these appropriations.
                                 ______
                                 
              Prepared Statement of the Wilderness Society
    The Wilderness Society (TWS) represents more than 700,000 members 
and supporters who share our mission to protect wilderness and inspire 
Americans to care for our wild places. When deciding on funding that 
affects hundreds of millions of Americans, we urge you to take into 
account the full economic, social, environmental and cultural value of 
the many programs overseen by our land management agencies.
    Additionally, we urge that in crafting the Interior and Environment 
Appropriation bill you avoid harmful policy riders that damage our 
land, air, water and wildlife. Must-pass appropriations legislation is 
not the appropriate venue for unpopular policy provisions which 
undermine bedrock environmental laws like the Wilderness Act, 
Antiquities Act and Land and Water Conservation Fund Act. In 
particular, we strongly oppose riders which would authorize a road 
through the Izembek Wilderness Area or prevent the Bureau of Land 
Management from implementing the collaboratively developed sage-grouse 
conservation strategy. The laudable goal of returning to regular order 
on appropriations must not continue to be undermined by the attempted 
inclusion of harmful policy riders which would damage the environmental 
protections all Americans value. Their inclusion only serves to further 
compromise an already challenging appropriations process.
    Prudent investments in critical conservation programs will provide 
jobs and protect the health and economic wellbeing of local 
communities. We urge bold action in support of conservation funding for 
fiscal year 2017. Specifically, TWS recommends:
                         wilderness management
    America's National Wilderness Preservation System, now over 50 
years old, is suffering from a serious lack of funding. Trail 
maintenance, law enforcement, monitoring, and user education have been 
significantly underfunded, leading to an erosion of wilderness values 
and a diminution of the experience for visitors. We recommend that 
funding for agency wilderness management accounts be restored to 
support much needed trails maintenance, update signage, fight invasive 
species, restore watersheds, and monitor effects of climate change, 
among other critical needs. Specifically, we recommend:

  --Bureau of Land Management (BLM) Wilderness
       TWS supports restoring BLM Wilderness funding to the fiscal year 
2011 level of $19.663 million. The fiscal year 2017 budget proposal of 
$18.392 million for BLM wilderness management is strong, but still 6 
percent lower than the fiscal year 2011 enacted level. To just keep the 
fiscal year 2011 level on pace with inflation the fiscal year 2017 
request would need to be $20.830 million.

  --Forest Service Recreation, Wilderness and Heritage
       We urge Congress to support wilderness and recreation by 
restoring funding to the fiscal year 2010 level of $285.1 million for 
the Recreation, Heritage and Wilderness Program. Recreation is the most 
ubiquitous use of our forest lands, and accounts for more than half of 
all job and income effects attributable to Forest Service programs 
(over 190,000 jobs and $11 billion in spending effects by visitors).
                    land and water conservation fund
    Having recently celebrated its 50th Anniversary year and been 
reauthorized until 2018, LWCF remains the premier Federal program to 
conserve our Nation's land, water, historic, and recreation heritage. 
It is a critical tool to protect national parks, national wildlife 
refuges, national forests, BLM lands, and other Federal areas. The 
companion LWCF State grants program provides crucial support for State 
and local parks, recreational facilities, and trail corridors. LWCF 
also funds two other important State grant programs--the Forest Legacy 
Program and Cooperative Endangered Species programs--that ensure 
permanent conservation of important forest lands and threatened and 
endangered species' habitat, as well as important wildlife and 
recreational habitat and ensures that public lands stay public for 
hunters, anglers, and other outdoor recreationists for generations to 
come.

  --TWS strongly supports fully funding LWCF at the proposed $900 
        million, with a discretionary funding level of $475 million. 
        Full funding for LWCF will allow land management agencies to 
        manage our public lands more efficiently and cost-effectively. 
        This is in part achieved through strategic inholdings 
        acquisition which reduces internal boundary line surveying, 
        right-of-way conflicts and special use permits.
                         sage grouse initiative
    If successful, implementation of the sage-grouse conservation 
strategy will lead to recovery of this important western game species 
without the necessity of a listing under the Endangered Species Act.

  --The Wilderness Society supports the administration's $89.7 million 
        request to conserve and restore sage steppe habitat.
                     blm onshore oil and gas policy
    The BLM is implementing important management reforms of its oil and 
gas program that is leading toward a better balance between oil and gas 
development on public lands and the protection of the numerous natural 
resource values that were put at risk by previous policies. It will 
also lead to Federal lands that are fully and fairly valued for the 
American people. TWS supports the following administration-proposed 
reforms of the BLM's oil and gas program:

  --A fee on onshore Federal operators to provide for a $48 million per 
        year inspection and enforcement program to implement 
        recommendations made by the GAO.
  --An increase of $5.8 million in BLM to accelerate development and 
        completion of Master Leasing Plans to ensure proper planning 
        and conservation during siting and development of oil and gas 
        wells.
  --An increase of $13.1 million to enact and implement important 
        revenue and environmental regulations including:
    --Royalty reforms and improve revenue collection process to ensure 
            that resources on Federal lands are fully and fairly valued 
            and delivering fair taxpayer returns.
    --Regulations to reduce natural gas waste from wells on Federal and 
            tribal lands.
    --Implementation of regulations concerning hydraulic fracturing on 
            Federal and tribal lands.
  --An increase of $2.1 million in BLM to strengthen and increase 
        efficiency for oversight of oil and gas permitting through the 
        Automated Fluid Minerals Support System (AFMSS).
  --An increase of $2.6 million to retain and staff positions in the 
        oil and gas program to ensure safe and responsible development 
        in the right places.

    TWS is also urging more funding for implementation and planning 
regarding ongoing and new Master Leasing Plans to ensure that any time 
development occurs, conservation is considered as part of the larger 
planning efforts.
              blm's national landscape conservation system
    The National Landscape Conservation System (Conservation Lands) 
comprises over 30 million acres of congressionally and presidentially 
designated lands and waters, including National Monuments, National 
Conservation Areas, Wilderness Areas and other designations. 
Stewardship of the Conservation Lands provides jobs for thousands of 
Americans while supporting vibrant and sustainable economies in 
surrounding communities. The Conservation Lands provide immeasurable 
public values from modest investments: outstanding recreational 
opportunities, wildlife habitat, clean water, wilderness, and open 
space near cities.

  --TWS strongly supports the administration's fiscal year 2017 
        recommendation of $83.122 million. This is a strong funding 
        proposal for the Conservation Lands, and will help promote the 
        natural, cultural, and historical resource protection provided 
        by the NLCS for the American public.
                            renewable energy
    TWS is a strong proponent of transitioning our country to a clean 
energy economy by developing our renewable energy resources 
responsibly. We believe renewable energy is an appropriate and 
necessary use of public lands when sited in areas screened for habitat, 
resource, and cultural conflicts. Identifying and avoiding conflicts 
early helps ensure projects are permitted faster with limited impact on 
wildlands. TWS hopes the Department will continue to support a program 
that ensures our public lands play an important role in supporting 
renewable energy infrastructure through environmental review, 
suitability screening, and energy zone identification to find suitable 
places for renewable energy projects. Specifically we would like to 
see:

  --Increased funding for renewable energy programs across Interior 
        from fiscal year 2016 enacted, up to $110.4 million total. This 
        increase would enhance training opportunities for staff to 
        fully implement the proposed wind and solar leasing rulemaking 
        and mitigation strategies as directed in the Western Solar 
        Plan.
                       blm's federal coal program
    The BLM is commencing a long-term review of the Federal coal 
program. For too long, the coal program has been plagued by a lack of 
transparency, an outdated perception of energy responsibility, an 
unfair return to taxpayers and a lack of consideration of Federal 
coal's contribution to global climate change. By starting this review, 
the BLM can ensure that the American people are selling their resources 
at fair prices in the right ways, while understanding how the program 
affects the climate. TWS supports the administration's comprehensive 
review of the BLM's Federal coal program and will be working to ensure 
that a future coal program corrects the inadequacies of the current 
model and that the Federal coal program is fit for the 21st century 
vision of energy development on Federal lands.
              implementation of landscape level management
    The Wilderness Society supports the Department of Interior's 
philosophy of looking at development on a landscape level with proper 
mitigation policies. The recently released draft of the Desert 
Renewable Energy Conservation Plan in the California Desert is a prime 
example.

  --It is crucial that the Department is fully funded to put in place 
        processes that designate areas for energy development, both 
        traditional and renewable, at the same time setting aside 
        important areas for wildlife, cultural, and recreational 
        values.
                        legacy roads and trails
    The Legacy Roads and Trails (LRT) program provides the Forest 
Service essential funding to restore watersheds, improve recreational 
access, protect aquatic species and advance collaborative restoration 
projects. LRT funding was slashed 50 percent in fiscal year 2011 and 22 
percent in fiscal year 2014. Given the recent evaluation of the 
Integrated Resource Restoration (IRR) program we recommend that LRT be 
removed from IRR, to enable it to operate as a complementary program to 
IRR, similar to CFLR. We also do not recommend that the IRR pilot 
program be expanded until the test regions have proven that IRR can 
improve restoration without a loss of transparency and accountability. 
Specifically, TWS recommends:

  --Funding Legacy Roads and Trails at $50 million, distinct from IRR.
                        forest service planning
    The Land Management Planning Program funds amendments and revisions 
to Land Management Plans, the overarching documents that guide the 
management of individual forests and grasslands. By providing adequate 
and consistent funding we advance plans and projects, avoid bad 
decisionmaking and unnecessary costs, and reduce risks to water quality 
and quantity, wildlife, and recreation.

  --We support funding USFS Land Management Planning at the running 10-
        year average of $45,712,600.
                         national forest trails
    There are 158,000 miles of trails in the National Forest System. 
These trails provide 50 million visitor days of cross-country skiing, 
hiking, horseback riding, mountain biking, and off-road vehicle use 
each year. Annual visitor days have grown 376 percent since 1977, and 
the total mileage of trails has grown 56.9 percent to accommodate this 
use. Unfortunately, the trails maintenance and reconstruction line item 
has remained essentially flat since 1980, after adjusting for 
inflation. In fiscal year 2015 the trails budget was cut 9 percent 
compared to fiscal year 2010, despite the fact that GAO has reported a 
$500 million trail maintenance backlog. Currently, the Forest Service 
is only able to maintain a quarter of its trail miles to a minimum 
standard condition.

  --We urge Congress to fund Capital Improvement and Maintenance Trails 
        at its fiscal year 2010 level of $85,381,000 in fiscal year 
        2017.
                    national wildlife refuge system
    The National Wildlife Refuge System is the only Federal 
conservation system with a mission that prioritizes wildlife and 
habitat conservation alongside wildlife-dependent recreation.

  --We urge the subcommittee to provide a funding level of $506.6 
        million for the Operations and Maintenance accounts of the 
        National Wildlife Refuge System for fiscal year 2017.
                                 ______
                                 
        Prepared Statement of the Wildlife Conservation Society
    The Wildlife Conservation Society (WCS) would like to thank 
Chairwoman Murkowski, Ranking Member Udall and the members of the 
subcommittee for providing this opportunity to provide public testimony 
on the U.S. Fish and Wildlife Service's (FWS) proposed 4(d) rule on the 
African elephant and in support of sufficient funding in the fiscal 
year 2017 Interior, Environment and Related Agencies (Interior) 
Appropriations Act to meet the President's request for the 
Multinational Species Conservation Fund (MSCF), Office of International 
Affairs (IA), Office of Law Enforcement (OLE) Cooperative Landscape 
Conservation Program (CLCP) and State & Tribal Wildlife Grants (STWG) 
accounts at FWS, and the International Forestry program at the U.S. 
Forest Service (FS-IF).
    WCS was founded with the help of Theodore Roosevelt in 1895 with 
the mission of saving wildlife and wild places worldwide. Today, WCS 
manages the largest network of urban wildlife parks in the United 
States led by our flagship, the Bronx Zoo. Globally, our goal is to 
conserve the world's largest wild places in 15 priority regions, home 
to more than 50 percent of the world's biodiversity. We manage more 
than 200 million acres of protected lands around the world, employing 
4,000 staff including 170 PhD and DVM scientists.
    The American conservation tradition is based on promoting 
sustainable use of our natural resources in order to preserve the 
world's species and environment for future generations. In recognition 
of the current fiscal constraints, it is important to note that 
effective natural resources management and conservation has indirect 
economic benefits, including contributing to local economies through 
tourism and other means. Internationally, by supporting conservation, 
the U.S. is increasing capacity and governance in developing nations 
and improving our own national security as a result.
    No Harmful Rider on Ivory: On July 29, 2015, the FWS issued a 
proposed rule to close loopholes in the existing ban on commercial 
ivory sales that have allowed illegal ivory to be sold in the United 
States for decades. The proposed rule would require sellers to 
demonstrate that ivory items qualify for an exemption from the law so 
consumers may be assured they are purchasing a legal product. It also 
tightens the existing, congressionally-mandated ban on the import and 
export of most ivory, with some narrow exceptions, including ones for 
sport-hunted trophies and musicians travelling with instruments that 
contain ivory. The proposal continues to allow the domestic sale of 
items such as bona fide antiques and, to accommodate the concerns 
voiced by many stakeholders, also allows the sale of items like 
firearms, knives, instruments and artworks that contain only a small 
amount of ivory. It is also important to note that nothing in the 
proposed rule would make the possession of ivory illegal, and that 
States maintain the right to regulate commercial sales occurring 
entirely within their borders.
    Last year's Interior bill in the House contained a provision that 
would have blocked FWS from proceeding on this rule, forcing the 
continuation of a system that we know does not work and has been a 
contributing factor in the poaching of 100,000 elephants over the past 
3 years. Given the broad accommodation of most stakeholders that FWS 
has provided in its proposed rule, WCS encourages the subcommittee not 
to include the same or a similar rider in the fiscal year 2017 bill.
    On the ground in Africa and elsewhere, WCS scientists are seeing, 
first-hand, the devastating impact poaching is having on elephants, 
rhinos, tigers and other iconic species. A study published by WCS found 
that in 2012 alone, 35,000 African elephants were killed for their 
ivory--that is an average of 96 elephants per day or one killed every 
15 minutes. This finding is supported by a subsequent study which also 
found that 100,000 elephants were poached between 2011 and 2013. Both 
studies show that conditions are dire for African forest elephants, 
which has declined by about two-thirds in a little more than a decade. 
Continued poaching at these rates may mean the extinction of forest 
elephants in the wild within the next 10 years and the potential loss 
of all African elephant species in the wild in our lifetimes. Action 
must be taken now to prevent this catastrophe from occurring.
    There is broad consensus that the stunning increase in poaching is 
due to one factor--the illegal sale of poached ivory in commercial 
markets around the world. The illegal trade in elephant ivory and other 
products, like rhino horns and tiger skins, is worth at least an 
estimated $8 to $10 billion annually, and because of the lucrative 
nature of this industry, evidence is showing increasingly that 
transnational criminal organizations and terrorist groups that are 
involved in other major trafficking operations--drugs, humans and 
weapons--are engaged in wildlife trafficking as well.
    There is no question that China is the largest market for illegal 
ivory. However, the United States is also one of the larger 
destinations, both for domestic consumption and as a transshipment hub 
for Asia. As part of Operation Crash, FWS and Department of Justice 
have successfully arrested criminals and prosecuted cases in several 
States over the last few years involving millions of dollars illegal 
ivory and rhino horn. These busts, although few in number, are strong 
evidence that there is a domestic problem with illegal ivory, all of 
which is smuggled in from overseas and which frequently crosses State 
lines, placing it firmly under Federal jurisdiction.
    The problem with ivory is that you cannot differentiate legal ivory 
antiques, which are exempt from the underlying Federal laws and 
regulation, from illegal ivory without costly lab tests that can damage 
the piece. Accordingly, once raw or worked ivory from recently poached 
elephants is smuggled into the United States, it can easily be placed 
in the marketplace right alongside genuine antiques. A survey conducted 
in 2008 of 24,000 pieces of ivory being sold in antique stores in 16 
cities in the U.S. and Canada concluded exactly this point, finding 
that almost a third of these items were potentially illegal. However, 
due to an unusual quirk in Federal regulations, Federal law enforcement 
agents must prove a piece is not exempt from the law in order to 
determine it is illegal--an impossible task for the FWS and its small 
team of special agents and wildlife inspectors tasked with enforcing 
all U.S. wildlife laws. Essentially, the cost of enforcement was simply 
prohibitive. The proposed rule is essential to closing these loopholes 
and protecting U.S. consumers from unwittingly purchasing products with 
ivory from poached elephants.
    FWS--Multinational Species Conservation Fund--$11.1 Million: Iconic 
species such as tigers, rhinos, African and Asian elephants, great apes 
and marine turtles, face constant danger from poaching, habitat loss 
and other serious concerns. MSCF programs have helped sustain wildlife 
populations by controlling poaching, reducing human-wildlife conflict 
and protecting essential habitat--all while promoting U.S. economic and 
security interests in far reaching parts of the world. These programs 
are highly efficient, granting them an outsized impact because they 
consistently leverage two to four times the Federal investment in 
matching funds.
    WCS has had great success on projects using funds from the MSCF. 
One grant just awarded to WCS in fiscal year 2015 through the African 
Elephant Conservation Fund will provide initial funding to use 
innovative ivory anti-trafficking methods to protect elephants of South 
Sudan. Among the key parts of the project are the deployment of a 
sniffer dog team to detect ivory, firearms and other wildlife products 
at key transit points and the establishment of a national ivory 
management system for seized ivory to better ensure that confiscated 
ivory does not reenter the marketplace.
    WCS is grateful that the subcommittee appropriated $11.1 million 
for the program in fiscal year 2016--its first increase in several 
years--and supports an appropriation of the same amount in fiscal year 
2017, which would also be equal to the President's fiscal year 2017 
request.
    FWS--International Affairs--$15.8 Million: The FWS International 
Affairs (IA) program supports efforts to conserve our planet's rich 
wildlife diversity by protecting habitat and species, combating illegal 
wildlife trade, and building capacity for landscape-level wildlife 
conservation. The program provides oversight of domestic laws and 
international treaties that promote the long-term conservation of plant 
and animal species by ensuring that international trade and other 
activities do not threaten their survival in the wild. Within IA, the 
Wildlife Without Borders program seeks to address grassroots wildlife 
conservation problems from a broad, landscape perspective, building 
regional expertise and capacity while strengthening local institutions. 
WCS supports appropriations for this program at $15.8 million, the 
level included in the President's fiscal year 2017 request.
    FWS--Office of Law Enforcement--$75.1 Million: The U.S. remains one 
of the world's largest markets for wildlife and wildlife products, both 
legal and illegal. A small group of dedicated officers at the OLE are 
tasked with protecting fish, wildlife, and plant resources by 
investigating wildlife crimes--including commercial exploitation, 
habitat destruction, and industrial hazards--and monitoring the 
Nation's wildlife trade to intercept smuggling and facilitate legal 
commerce. Many of the new responsibilities placed on FWS by the 
National Strategy are enforced by the OLE, and WCS supports the 
President's request for $75.1 million. Additional funding for the 
program will support FWS efforts to maximize the scope and 
effectiveness of FWS' response to the international wildlife 
trafficking crisis by strengthening forensic capabilities and expanding 
the capacity of their Special Investigations Unit. It will also ensure 
OLE has an adequate number of law enforcement agents deployed to 
enforce laws against wildlife trafficking in the U.S. effectively and 
allow the agency to continue to support coordinated law enforcement 
actions against wildlife trafficking overseas through the deployment of 
FWS attaches in targeted U.S. embassies.
    FWS--Cooperative Landscape Conservation--$17.8 Million: Many of the 
domestic conservation programs in this bill provide funding to States 
to implement their conservation goals. However, wildlife does not 
recognize political boundaries, and scarce conservation dollars can 
best be spent when effective planning and coordination takes place 
across entire ecosystems. The CLCP funds a network of 22 Landscape 
Conservation Cooperatives in the U.S. and Canada, which use a 
collaborative approach between Federal, State, tribal and local 
partners to identify landscape scale conservation solutions and work 
collaboratively to meet unfilled conservation needs, develop decision 
support tools, share data and knowledge, and facilitate and foster 
conservation partnerships. Funding will support landscape planning and 
design that will improve the condition of wildlife habitat and improve 
resilience of U.S. communities. WCS encourages the subcommittee to meet 
the President's request for $17.8 million for this program.
    FWS--State and Tribal Wildlife Grants Program--$67 Million: The 
State and Tribal Wildlife Grants program gives States and tribes 
funding to develop and implement comprehensive conservation plans to 
protect declining wildlife and habitats before protection under the 
Endangered Species Act is necessary. This important program is 
supported by more than 6,200 organizations that have formed a national 
bipartisan coalition called Teaming with Wildlife, of which WCS is a 
steering committee member. WCS recommends Congress provide strong and 
continued support for the program by meeting the President's request 
for $67 million in the fiscal year 2017 Interior bill.
    USFS--International Forestry--$8 Million: The U.S. economy has lost 
approximately $1 billion per year and over 200,000 jobs due to illegal 
logging, which is responsible for 15-30 percent of all timber by 
volume. The FS-IF program works to level the playing field by reducing 
illegal logging and improving the sustainability and legality of timber 
management overseas, translating to less underpriced timber 
undercutting U.S. producers. Through partnerships with USAID and the 
Department of State, FSIP helps to improve the resource management in 
countries of strategic importance to U.S. security.
    With technical and financial support from FS-IF, WCS has been 
working to conserve a biologically rich temperate forest zone called 
the Primorye in the Russian Far East. The region hosts over a hundred 
endangered species as well as numerous threatened species, including 
the Far Eastern leopard and Amur tiger. FS-IF works with us to exchange 
information and methodologies with Russian scientists, managers, and 
students on a variety of wildlife-related topics to support 
conservation and capacity building efforts and ensure the sustainable 
management of forests and wildlife habitat. WCS supports meeting the 
President's request of $8 million for fiscal year 2017, equal to the 
amount appropriated in fiscal year 2016.
    We appreciate the opportunity to share WCS's perspectives and make 
a case for increased investment in conservation in the fiscal year 2017 
Interior, the Environment and Related Agencies Appropriations Act. 
Conservation of public lands is an American tradition and, as far back 
as 1909, Theodore Roosevelt recognized that the management of our 
natural resources requires coordination between all nations. Continued 
investment in conservation will reaffirm our global position as a 
conservation leader, while improving our national security and building 
capacity and good governance in developing countries.
                                 ______
                                 
   Prepared Statement in Support of the Wildfire Risk Reduction and 
                          Protection Programs
    Dear Chairman Murkowski and Ranking Member Udall:

    The undersigned organizations are writing to express our strong 
support for maintaining effective funding levels in the fiscal year 
2017 appropriations process for essential wildfire risk reduction and 
protection programs at the USDA Forest Service (Forest Service) and the 
Department of the Interior (DOI). The important work accomplished 
through the Hazardous Fuels programs and the State Fire Assistance and 
Volunteer Fire Assistance programs help decrease total Federal 
emergency wildfire suppression costs and reduce the threat of fire to 
people, communities, and both public and private lands.
    America's forests and forest-dependent communities are at risk from 
outbreaks of pests and pathogens, persistent drought, and the buildup 
of hazardous fuels. Urbanization and development patterns are placing 
more homes and communities near fire-prone landscapes, leading to more 
destructive and costly wildfires. In 2015, 68,151 wildland fires burned 
more than 10.1 million acres. Once again in fiscal year 2015, the 10-
year average allocated to the USFS was not enough to meet the 
suppression needs, forcing the USFS to transfer $700 million from non-
suppression accounts to make up for the shortfall. The current wildfire 
suppression funding model and cycle of transfers and repayments has 
negatively impacted the ability to implement forest management, among 
many other activities. Additionally, the increasing 10-year average has 
not met annual suppression needs since before fiscal year 2002, which 
is why we thank the subcommittee for the full transfer repayment and 
increased suppression funding in fiscal year 2016. However, we 
understand this is not expected to occur every year and DOI and USFS 
need a long-term fire funding solution that would result in stable and 
predictable budgets.
    We respectfully request a bipartisan fire funding solution be 
included as part of the fiscal year 2017 Interior, Environment, and 
Related Agencies' appropriations bill. A fire funding solution must 
fund wildfires like natural disasters by (1) accessing disaster 
funding, (2) minimizing transfers, and (3) dealing with the continued 
erosion of agency budgets over time, with the goal of reinvesting in 
key programs that would restore forests to healthier conditions.
    We appreciate this subcommittee's attention to this increasing and 
unsustainable natural resource challenge. The fiscal year 2017 
appropriations bill can provide for both necessary wildfire suppression 
and fire risk reduction activities that create jobs and reduce 
firefighting costs in the long run. We are prepared to help and look 
forward to assisting Congress in developing a sustainable and long-term 
solution to fund emergency wildfire suppression.
    The Hazardous Fuels Programs at the Forest Service and DOI are the 
primary source of funding used to reduce wildfire risk on Federal 
lands. In fiscal year 2017, we urge you to provide $479 million for the 
Hazardous Fuels Program at the USDA Forest Service and $178 for 
Hazardous Fuels and Resilient Landscapes at the Department of the 
Interior. We are also asking that you include report language to 
encourage the Federal Agencies to coordinate their fuels plans with 
other planning efforts such as State forestry and conservation plans in 
order to encourage cross-boundary efforts and increase the 
effectiveness of this program.

------------------------------------------------------------------------
                                               Fiscal Year
                                 Fiscal Year      2017       Fiscal Year
                                2016 Enacted   President's  2017 Request
                                                Proposal
------------------------------------------------------------------------
USDA Forest Service Hazardous          $375          $384          $479
 Fuels........................
------------------------------------------------------------------------
Department of the Interior
------------------------------------------------------------------------
    Hazardous Fuels Management         $164          $149
-----------------------------------------------------------
                                                                   $178
        Resilient Landscapes..                        $30
------------------------------------------------------------------------

    State Fire Assistance (SFA) is the fundamental Federal mechanism 
for assisting States and local fire departments in responding to 
wildland fires and in conducting management activities that mitigate 
fire risk on non-Federal lands. SFA also helps train and equip local 
first responders who are often first to arrive at a wildland fire 
incident and who play a crucial role in keeping fires and their costs 
as small as possible. A small investment of SFA funds supports State 
forestry agencies in accessing and repurposing equipment from the 
Federal Excess Personal Property and the Firefighter Property programs. 
Between 2008 and 2012 these two programs have delivered more than $150 
million annually in equipment for use by State and local first 
responders.
    In fiscal year 2015, SFA directly funded hazardous fuel treatments 
on 148,020 acres (with another 126,368 acres treated with leveraged 
funding from partners) and provided assistance to communities around 
the country, supporting 2,998 risk assessment and fire management 
planning projects and 10,160 prevention and education programs.\1\ 
Fires know no boundaries. In 2015, 80 percent of the total number of 
wildfires were where State and local fire departments had primary 
jurisdiction. 85 percent of all local and State crews and engines 
dispatched outside of their geographic areas were responding to Federal 
fires. In fiscal year 2017, we urge you to provide $87 million for the 
State Fire Assistance program.
---------------------------------------------------------------------------
    \1\ USDA Forest Service Fiscal Year 2017 Budget Justification at 
pg. 299.
---------------------------------------------------------------------------
    The Volunteer Fire Assistance Program provides support to rural 
communities and is critical to ensuring adequate capacity to respond to 
wildfires, reducing the risk to communities, people, homes and 
property, and firefighters. This capacity is critical because these 
State and local resources are the first responders to more than 80 
percent of wildland fires--whether on State, Federal or private lands. 
According to the Forest Service Fiscal Year 2017 Budget Justification, 
the small investment in the Volunteer Fire Assistance program helped 
provide assistance to 9,318 communities, helped to train 22,272 
firefighters, expanded or organized 20 fire departments, and purchased, 
rehabilitated or maintained more than $8.1 million in equipment. In 
fiscal year 2017, we urge you to provide no less than $15 million for 
the Volunteer Fire Assistance Program.
    The Joint Fire Science Program is a relatively small budget for a 
program that successfully yields important results which are directly 
applied. These tools and technology products support the fire risk 
reduction community. They help track the effectiveness of Forest 
Service programs, such as vegetation management and hazardous fuels 
reduction. Their applied research supports resilient landscapes and 
communities, and provides key information on wildfire mitigation 
impacts on water quality, atmospheric emissions, and other natural 
resources and ecosystem services. We are concerned about the zeroing 
out of this program under Wildland Fire Management in exchange for 
funding a smaller portion from the Forest & Rangeland Research budget. 
In fiscal year 2017, we request the Joint Fire Science Program maintain 
a $7 million funding level.
    We appreciate the difficult task the subcommittee faces in the 
current budget climate. However, these vital, interrelated programs 
safeguard human life, habitat, and property, and reduce the overall 
cost of wildland fire management. The short-term savings realized by 
cuts to any one of these programs is substantially outweighed by the 
ultimate increase in suppression costs and damages caused by wildland 
fires. Accordingly, we urge you to support funding for these critical 
programs. Thank you for your consideration of this important request.

            Sincerely,

American Forests
American Forest Foundation
Association of Fish & Wildlife Agencies
Framing Our Community Inc.
National Association of RV Parks & Campgrounds
National Association of State Foresters
National Association of Forest Service Retirees
National Ski Areas Association
National Wild Turkey Federation
North American Bear Foundation
North American Grouse Partnership
Public Lands Foundation
Quality Deer Management Association
Ruffed Grouse Society/American Woodcock Society
Sustainable Northwest
The Conservation Fund
The Forest Stewards Guild
The International Association of Wildland Fire
The Mountain Pact
The National Wildlife Institute
The Nature Conservancy
The Society of American Foresters
Tread Lightly!
Whitetails Unlimited
      
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    The Wildlife Society appreciates the opportunity to provide 
testimony concerning the fiscal year 2017 budgets for the U.S. Fish and 
Wildlife Service (FWS), Bureau of Land Management (BLM), U.S. 
Geological Survey (USGS), and U.S. Forest Service (USFS). The Wildlife 
Society was founded in 1937 and is an international non-profit 
scientific and educational association representing nearly 10,000 
professional wildlife biologists and managers. Our mission is to 
inspire, empower, and enable wildlife professionals to sustain wildlife 
populations and habitats through science-based management and 
conservation. We respectfully request the following programmatic 
funding in fiscal year 2017 to ensure that the Federal budget supports 
the important work wildlife professionals do to manage and conserve our 
Nation's wildlife resources.
                     u.s. fish and wildlife service
    The State and Tribal Wildlife Grants Program (SWG) has been the 
Nation's core program for preventing wildlife from becoming endangered 
since 2001. SWG provides Federal funding assistance to State and tribal 
wildlife agencies for implementing on-the-ground conservation programs 
designed to ensure the sustainability of our fish and wildlife 
resources. In order to receive Federal funds through SWG, each State 
and Territory must develop a Wildlife Action Plan that examines the 
health of wildlife, identifies issues of conservation concern, and 
prescribes actions needed to conserve more than 12,000 at-risk species 
and their vital habitats. These action plans encourage multi-partner 
projects, have high accountability, and require matching-funds from 
States. As the only Federal program focused on keeping common species 
common, SWG alleviates the need to add more species to the Federal 
Endangered Species List; thereby saving taxpayer dollars and reducing 
regulatory uncertainty for businesses. Recent successes of SWG include 
the New England cottontail rabbit and greater sage-grouse. The Wildlife 
Society strongly recommends that Congress increase funding for State 
and Tribal Wildlife Grants to at least $67 million in fiscal year 2017, 
as per the Agency's request.
    Previous budget reductions in SWG, though, have not allowed this 
highly successful program to reach its full potential. A March 2016 
report from the Blue Ribbon Panel on Sustaining America's Diverse Fish 
and Wildlife Resources highlights the Nation's need for immediate and 
robust long-term investment in science-based management, and recommends 
that Congress dedicate $1.3 billion annually to ensure the effective 
implementation of all Wildlife Action Plans. As a leading member of 
Teaming With Wildlife, a multidisciplinary, bipartisan coalition of 
more than 6,400 organizations supporting reliable fish and wildlife 
conservation funding, The Wildlife Society encourages Congress to 
consider the legislative solutions presented by this diverse and 
distinguished panel.
    As a member of the Cooperative Alliance for Refuge Enhancement 
(CARE), The Wildlife Society supports the President's request for the 
National Wildlife Refuge System's operations and maintenance accounts 
at $506.6 million for fiscal year 2017. CARE estimates that the Refuge 
System needs at least $900 million in annual operations and maintenance 
funding to properly administer its 562 refuges and 38 wetland 
management districts spanning over 150 million acres. At its highest 
funding level in fiscal year 2010, the Refuge System received only $503 
million--little more than half the needed amount. Without adequate 
funding, habitats are not restored, invasive species are left 
unchecked, poaching and other illegal activities occur, and our 
Nation's wildlife suffers. Moreover, since 2009, the National Wildlife 
Refuge System has lost over 500 employees (1/7 of all staff), despite 
generating approximately $4.87 in economic activity for every $1 
appropriated by Congress. The Wildlife Society also supports the U.S. 
Fish and Wildlife Service Resource Protection Act, which would remove 
taxpayer responsibility for damage deliberately caused by a third party 
within the National Wildlife Refuge System by justly attributing those 
damages to the guilty party.
    The North American Wetlands Conservation Act is a cooperative, non-
regulatory, incentive-based program that has shown unprecedented 
success in maintaining and restoring wetlands, waterfowl, and other 
migratory bird populations. This program has remained drastically 
underfunded despite its demonstrated effectiveness. We support the 
Agency's request of $35.1 million and encourage Congress to match this 
request for fiscal year 2017.
    The Neotropical Migratory Bird Conservation Act (NMBCA) Grants 
Program supports partnership programs to conserve birds in the U.S., 
Latin America, and the Caribbean, where approximately 5 billion birds 
representing 341 species spend their winters, including some of the 
most endangered birds in North America. Reauthorization for 
appropriations has expired under NMBCA, but the Agency recommends 
funding the program at $3.9 million for fiscal year 2017 as a sub-
account of the Multinational Species Conservation Fund. The Wildlife 
Society supports this funding, and recommends that Congress reauthorize 
NMBCA at $6.5 million annually to achieve maximum conservation results 
under the program.
    Through the Ecological Services Program, FWS partners with Federal/
State agencies, tribes, local governments, the business community, and 
private citizens, to help identify species on the verge of extinction 
and reduce threats to their survival so that they can be removed from 
Federal protection. FWS is working to implement new strategies to 
increase the efficiency and effectiveness of the Ecological Services 
Program and to reduce the regulatory burden on private landowners and 
industry partners. To support these actions, and the increased emphasis 
on consultation and recovery, we recommend Congress match the Agency's 
request and provide $23 million for Listing, $105.7 million for 
Planning and Consultation, $34.6 million for Conservation and 
Restoration, and $89.2 million for Recovery in fiscal year 2017.
    Through its International Affairs office, FWS works with many 
partners and countries in the implementation of international treaties, 
conventions, and projects for the conservation of wildlife species and 
their habitats. Careful regulation of imports and implementation of 
international policies is an important task, and represents our first 
line of defense against the introduction of threats like the 
potentially devastating infectious wildlife disease Bsal, which 
threatens the integrity of our diverse and important native salamander 
populations. We ask Congress to match the Agency's request of $15.8 
million in support of FWS International Affairs in fiscal year 2017.
                       bureau of land management
    Historically, the Wildlife and Fisheries Management (WFM) and the 
Threatened and Endangered Species Management (TESM) programs have been 
forced to pay for the compliance activities of BLM's energy, grazing, 
and other non-wildlife related programs, eroding both their ability to 
conduct proactive conservation activities and their efforts to recover 
listed species. In order to allow BLM to effectively maintain and 
restore wildlife and habitat amidst the tremendous expansion of energy 
development across the BLM landscape, we recommend Congress appropriate 
$108.7 million for BLM Wildlife Management within WFM in fiscal year 
2017. We also support the proposed increase of $14.2 million for 
greater sage-grouse conservation; this kind of broad-scale conservation 
is necessary to manage/conserve greater sage-grouse across their entire 
range.
    To allow BLM to meet its responsibilities in endangered species 
recovery plans, the Threatened and Endangered Species Management 
Program (TESM), also needs increased funding. BLM's March 2001 Report 
to Congress called for a doubling of the Threatened and Endangered 
Species budget to $48 million and an additional 70 staff positions over 
5 years. Now, over a decade later, this goal has yet to be met. In 
light of this, we strongly encourage Congress to increase overall 
funding for TESM to $48 million in fiscal year 2017.
    The Wildlife Society, leader of the National Horse and Burro 
Rangeland Management Coalition, appreciates the commitment of BLM to 
addressing the problems associated with Wild Horse and Burro 
Management. The Wildlife Society also thanks Congress for the much 
needed increase in funding for fiscal year 2016 for continued research 
and development on contraception and population control. The Wildlife 
Society, however, remains concerned about BLM's emphasis on fertility 
control alone. Horses and burros currently exceed the BLM's estimated 
threshold of ecological sustainability by more than 31,000--over twice 
BLM's Appropriate Management Level. With nearly 50,000 additional 
horses living in Federal off-site long- and short-term holding 
facilities, The Wildlife Society believes the current language limiting 
the use of humane euthanasia for unwanted or unadoptable horses should 
be removed. BLM needs to use all necessary management tools to bring 
populations of on- and off-range wild horses and burros within 
manageable levels. Therefore, The Wildlife Society supports the 
Agency's request of $80.1 million for Wild Horse and Burro Management, 
provided that BLM remove excess horses from the range at a reasonable 
rate and focus additional resources on habitat restoration to correct 
the habitat damage caused by these animals.
                         u.s. geological survey
    The basic, objective, and interdisciplinary scientific research 
that is supported by USGS is necessary for understanding the complex 
environmental issues facing our Nation today. The Ecosystems Department 
of USGS contains programmatic resources for fisheries, wildlife, 
environments, invasive species, and Cooperative Research Units (CRU). 
The Ecosystems program strives to maximize research and support for 
comprehensive biological and ecosystem based needs. The Wildlife 
Society supports the Agency's request of $174 million for USGS's 
Ecosystems Department in fiscal year 2017. Furthermore, within the 
Ecosystems Department, we support the specific request of at least 
$18.2 million for the underfunded CRU program, which leverages Federal, 
State, non-governmental organizations, and academic partnerships to 
provide actionable science that supports management of wildlife and 
fisheries resources.
    The National Climate Change and Wildlife Science Center plays a 
pivotal role in addressing the impacts of climate change on fish and 
wildlife by providing essential scientific support. In order for this 
role to be fully realized, we recommend that Congress fund the National 
Climate Change and Wildlife Science Center at the requested $31 million 
in fiscal year 2017.
                          u.s. forest service
    Current mechanisms for calculating USFS appropriations have 
resulted in funding shortfalls for proactive wildland fire and fuel 
management practices, thereby leading to more destructive and costly 
wildfires. The traditional 10-year moving average for forecasting fire 
suppression costs for the upcoming fiscal year, has not met USFS 
suppression needs since fiscal year 2002. In fiscal year 2015, USFS was 
forced to transfer $700 million from non-suppression accounts to make 
up for the emergency fire suppression deficit. This has negatively 
impacted the ability of USFS to implement proactive forest research and 
management projects and has resulted in the loss of 40 percent of non-
fire related USFS professionals. We are thankful to Congress for the 
full transfer repayment and increased suppression funding in fiscal 
year 2016. However, we understand this is not expected to occur every 
year. DOI and USFS need a long-term fire funding solution that would 
result in stable and predictable budgets. Therefore, we support 
bipartisan congressional efforts, like the Wildfire Disaster Funding 
Act, to address Federal fire funding challenges, minimize fund 
transfers, and address the continued erosion of agency budgets over 
time, with the goal of reinvesting in key programs that would restore 
forests to healthier conditions.
    For the fiscal year 2017 budget, USFS will transition from 
Integrated Resource Restoration back to a more traditional budget 
structure with separate line items, including Vegetation and Watershed 
Management, Wildlife and Fisheries Habitat Management, and Forest 
Products. We support this change for the accountability it provides 
Congress, and support the request of $140.5 million for Wildlife and 
Fisheries Habitat Management in fiscal year 2017.
    Integral to management of our natural resources is a deep 
understanding of the biological and geological forces that shape the 
land and its wildlife and plant communities. The research being done by 
the USFS is at the forefront of science, and essential to improving the 
health of our Nation's forests and grasslands. We urge Congress to at 
minimum match the Agency's request of $292 million in fiscal year 2017 
for Forest and Rangelands to support this high-quality research.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
